<html>
<title> - COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME I

=======================================================================

                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                  MARCH 10, JUNE 15, and JULY 27, 2011

                               ----------                              

                            Serial No. 112-9

                               ----------                              

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/


      COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME I





      COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME I

=======================================================================

                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                  MARCH 10, JUNE 15, and JULY 27, 2011

                               __________

                            Serial No. 112-9

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-541                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1473647b54776167607c7178643a777b793a">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

  
  
Ms. Kathleen C. Hochul of New York was elected to the committee 
    on June 2, 2011.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                        THURSDAY, MARCH 10, 2011
                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     9
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York:
  Prepared Statement.............................................    11
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................    12

                               WITNESSES
                                Panel I

Hon. John D. Dingell, a Representative in Congress From the State 
  of Michigan....................................................    13
Hon. Keith Ellison, a Representative in Congress From the State 
  of Minnesota...................................................    14
Hon. Frank R. Wolf, a Representative in Congress From the State 
  of Virginia:
  Oral Statement.................................................    19
  Prepared Statement.............................................    23

                                Panel II

Dr. M. Zuhdi Jasser, President and Founder, American Islamic 
  Forum for Democracy:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Mr. Melvin Bledsoe, Private Citizen:
  Oral Statement.................................................    58
  Prepared Statement.............................................    61
Mr. Abdirizak Bihi, Director, Somali Education and Social 
  Advocacy Center:
  Oral Statement.................................................    64
  Prepared Statement.............................................    66
Sheriff Leroy Baca, Los Angeles County Sheriff's Department:
  Oral Statement.................................................    71
  Prepared Statement.............................................    73

                               APPENDIX I

Statements Submitted for the Record by Hon. Loretta Sanchez......   127
Statement Submitted for the Record by Hon. Sheila Jackson Lee....   172
Statements Submitted for the Record by Hon. Laura Richardson.....   178

                              APPENDIX II

Questions From Ranking Member Bennie G. Thompson of Mississippi 
  for M. Zuhdi Jasser............................................   183

                        WEDNESDAY, JUNE 15, 2011
                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................   199
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................   206
  Prepared Statement.............................................   208

                               WITNESSES

Mr. Patrick T. Dunleavy, Deputy Inspector General (Ret.), 
  Criminal Intelligence Unit, New York State Department of 
  Correctional Services:
  Oral Statement.................................................   209
  Prepared Statement.............................................   211
Mr. Kevin Smith, Former Assistant United States Attorney, Central 
  District of California:
  Oral Statement.................................................   216
  Prepared Statement.............................................   217
Mr. Michael P. Downing, Commanding Officer, Counter-Terrorism and 
  Special Operations Bureau, Los Angelos Police Department:
  Oral Statement.................................................   221
  Prepared Statement.............................................   223
Mr. Bert Useem, Department Head and Professor, Sociology 
  Department, Purdue University:
  Oral Statement.................................................   228
  Prepared Statement.............................................   229

                             FOR THE RECORD

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement of the Honorable Keith Ellison, a 
    Representative in Congress From the State of Minnesota.......   199
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter.........................................................   200
  Statement of Muslim Advocates..................................   201
  Statement of Rev. Dr. C. Welton Gaddy, President, Interfaith 
    Alliance.....................................................   203
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  FBI--Law Enforcement Bulletin..................................   243
  Article........................................................   245
  Article........................................................   246
  Article, USAToday..............................................   249
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Summary of Inmate Letters......................................   261

                        WEDNESDAY, JULY 27, 2011
                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................   277
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................   280
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................   283

                               WITNESSES

Mr. Ahmed Hussen, National President, Canadian Somali Congress:
  Oral Statement.................................................   286
  Prepared Statement.............................................   287
Mr. W. Anders Folk, Former Assistant United States Attorney, 
  District of Minnesota:
  Oral Statement.................................................   289
  Prepared Statement.............................................   291
Mr. Thomas Joscelyn, Senior Fellow, Foundation for Defense of 
  Democracies:
  Oral Statement.................................................   295
  Prepared Statement.............................................   297
Mr. Thomas E. Smith, Chief of Police, Saint Paul, Minnesota:
  Oral Statement.................................................   304
  Prepared Statement.............................................   307

                             FOR THE RECORD

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement of the Honorable Keith Ellison, a 
    Representative in Congress From the State of Minnesota.......   284
  Letter From the Antidefamation League..........................   282
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Letter From Honorable Sheila Jackson Lee.......................   319
  FBI--New Haven Article.........................................   319
  New York Times Article.........................................   321
  United States Action List......................................   322

                               APPENDIX I

Question From Honorable Laura Richardson for Ahmed Hussen........   349
Questions From Honorable Laura Richardson for W. Anders Folk.....   349
Questions From Honorable Laura Richardson for Thomas Joscelyn....   349
Questions From Honorable Laura Richardson for Thomas E. Smith....   349


THE EXTENT OF RADICALIZATION IN THE AMERICAN MUSLIM COMMUNITY AND THAT 
                          COMMUNITY'S RESPONSE

                              ----------                              


                        Thursday, March 10, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:37 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Smith, Lungren, Rogers, 
McCaul, Bilirakis, Broun, Miller, Walberg, Cravaack, Walsh, 
Meehan, Quayle, Rigell, Long, Duncan, Marino, Farenthold, 
Brooks, Thompson, Sanchez, Jackson Lee, Cuellar, Clarke of New 
York, Richardson, Davis, Higgins, Speier, Richmond, Clarke of 
Michigan, and Keating.
    Also present: Representatives Green, Carson, and Pascrell.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
hear testimony on the extent of radicalization in the American 
Muslim community and to investigate that community's response.
    The Chair wishes to remind our guests today that 
demonstrations from the audience, including the use of signs 
and placards, as well as verbal outbursts, are a violation of 
the rules of the House. The Chair wishes to thank our guests 
today for their cooperation in maintaining order and proper 
decorum.
    In the interest of time, the Ranking Member and I have 
agreed that we will let three Member witnesses testify on Panel 
1. After prior consultation with my friend, the Ranking Member 
from Mississippi Mr. Thompson, I ask unanimous consent that 
Congressman Dingell, Congressman Ellison, and Congressman Wolf 
as Member witnesses not be subject to questions from committee 
Members. They are testifying as one panel. Without objection, 
so ordered.
    I believe the Ranking Member has a unanimous consent 
request to make.
    Mr. Thompson. Yes. I would like to ask unanimous consent 
that Congressmen Carson, Pascrell, and Green, when he comes in, 
be allowed to sit on the panel.
    Chairman King. Without objection, so ordered.
    At this time, I will now recognize myself for an opening 
statement.
    At the very outset, let me thank all of the witnesses, the 
Member panel, and the witnesses who traveled to be here today. 
Thank you very much for giving your time in what I believe to 
be a very valuable and important hearing.
    Today's hearing will be the first in a series of hearings 
dealing with the critical issue of the radicalization of Muslim 
Americans. I am well aware that the announcement of these 
hearings has generated considerable controversy and opposition. 
Some of this opposition, such as from my colleague and friend, 
Mr. Ellison and Mr. Pascrell, has been measured and thoughtful. 
Other opposition, both from special interest groups and the 
media, has ranged from disbelief to paroxysms of rage and 
hysteria.
    Let me make it clear today, that I remain convinced that 
these hearings must go forward, and they will. To back down 
would be a flagrant surrender to political correctness and an 
abdication of what I believe to be the main responsibility of 
this committee, to protect America from terrorist attack.
    Despite what passes for conventional wisdom in certain 
circles, there is nothing radical or un-American in holding 
these hearings. Indeed, Congressional investigation of Muslim 
American radicalization is the logical response to the repeated 
and urgent warnings which the Obama administration has been 
making in recent months. Just this past Sunday, for instance, 
Denis McDonough, the Deputy National Security Advisor to 
President Obama, made a major speech on radicalization stating 
that, ``al-Qaeda and its adherents have increasingly turned to 
another troubling tactic, attempting to recruit and radicalize 
people to terrorism here in the United States. For a long time, 
many in the U.S. thought that we were immune from this threat. 
That was false hope and false comfort. This threat is real, and 
it is serious.'' Mr. McDonough went on to say that ``al-Qaeda 
does this with the express purpose of trying to convince Muslim 
Americans to reject their country and attack their fellow 
Americans.''
    I should also add in my own personal conversations with Mr. 
McDonough prior to the speech, he told me to go forward with 
the hearing, and that the administration welcomes Congressional 
involvement.
    Similarly, in late December, Attorney General Holder said 
that the growing number of young Americans being radicalized 
and willing to take up arms against our country, ``keeps him 
awake at night.'' Two weeks before that, the Attorney General 
defended the FBI sting operation against Mohamed Osman Mohamud, 
who attempted a terror attack during a Christmas tree-lighting 
celebration in Portland, Oregon, saying--the Attorney General 
said he made no apologies for this operation. Said the Attorney 
General, ``Those who characterize the FBI's activities as 
entrapment simply do not have their facts straight.''
    One month ago, sitting right there, Secretary Napolitano 
testified before this committee and said the threat level today 
is as high as it has been since September 11 because of 
increased radicalization in our country. I would ask the 
audience and the committee, just notice this chart over here. 
Just in the last 2 years alone, these are terror plots which 
have been blocked by our Government. Virtually every part of 
the United States is affected by this. It affects the entire 
Nation. Those of us in the Northeast perhaps have more threats, 
but the fact is that we found out that no one is immune from 
these type of threats and these type of attacks.
    This committee cannot live in denial, which is what some of 
us would do when they suggest that this hearing dilute its 
focus by investigating threats unrelated to al-Qaeda. The 
Department of Homeland Security and this committee were formed 
in response to the al-Qaeda attacks of September 11. There is 
no equivalency of threat between al-Qaeda and neo-Nazis, 
environmental extremists, or other isolated madmen. Only al-
Qaeda and its Islamist affiliates in this country are part of 
an international threat to our Nation. Indeed by the Justice 
Department's own record, not one terror-related case in the 
last 2 years involved neo-Nazis, environmental extremists, 
militias, or antiwar groups.
    I have repeatedly said that the overwhelming majority of 
Muslim Americans are outstanding Americans that make enormous 
contributions to our country, but there are realities we can't 
ignore; for instance, the Pew poll, which said that 15 percent 
of Muslim American men between the age of 18 and 29 could 
support suicide bombings. This is a segment of the community 
al-Qaeda is attempting to recruit.
    To combat this threat, moderate leadership must emerge from 
the Muslim community. As the Majority and Minority staff of the 
Senate Homeland Security Committee concluded in its report, 
which ironically enough was entitled ``Violent Islamist 
Extremism and the Homegrown Terrorist Threat,'' this report 
concluded, ``Muslim community leaders and religious leaders 
must play a more visible role in discrediting and providing 
alternatives to violent Islamist ideology.''
    This means that responsible Muslim American leaders must 
reject discredited groups such as CAIR, the Council on 
American-Islamic Relations. CAIR was named as an unindicted 
coconspirator in the terrorist financing case involving the 
Holy Land Foundation. In the lead-up to this hearing, I found 
it shocking and sad that the mainstream media accepted CAIR's 
accusations as if it were a legitimate organization. 
Thankfully, FBI Director Mueller has ordered the FBI to cease 
all dealings and contact with CAIR, possibly and probably 
because of this type of placard and poster, which was posted by 
San Francisco CAIR. I would hope that all law enforcement 
officials would follow the lead of the FBI Director.
    Al-Qaeda realizes that the measures we have put in place 
over the past 9\1/2\ years make it very difficult to launch a 
large-scale attack against our homeland from outside the 
country, which is why they have altered their strategy and are 
using people living legally in the United States. These include 
the New York City subway bomber, Najibullah Zazi; Fort Hood 
terrorist, U.S. Army Major Nidal Hasan; Colleen LaRose, known 
as Jihad Jane; the Times Square bomber, Faisal Shahzad; the 
Little Rock recruiting center shooter, Carlos Bledsoe--his 
father is a witness here today; and dozens of individuals in 
Minneapolis associated with the Somali terrorist organization 
al-Shabaab. The uncle of one those young men who was 
radicalized in Minneapolis, sent to Somalia and eventually 
killed is also with us here today; and then also the Mumbai 
plotter, David Headley.
    Let me thank all of the witnesses for giving up their 
valuable time to be with us here today. I want to express 
special thanks, however, to Melvin Bledsoe and Abdirizak Bihi. 
These brave men have endured suffering no father or uncle 
should ever have to go through. Their courage and spirit will 
put a human face on the horror which Islamist radicalization 
has inflicted and will continue to inflict on good families, 
especially those in the Muslim community, unless we put aside 
political correctness and define who our enemy truly is.
    As we approach the 10-year anniversary of the September 11 
attacks, we cannot allow the memory of that tragic day to fade 
away. We must remember that the days following the attack, we 
were all united in our dedication to fight back against al-
Qaeda and its ideology. Today we must be fully aware that 
homegrown radicalization is part of al-Qaeda's strategy to 
continue attacking the United States. Al-Qaeda is actively 
targeting the American Muslim community for recruitment. 
Today's hearing will address this dangerous trend.
    [The information follows:]

                  Statement of Chairman Peter T. King
                             March 10, 2011

    Today's hearing will be the first in a series of hearings dealing 
with the critical issue of the radicalization of Muslim-Americans.
    I am well aware that the announcement of these hearings has 
generated considerable controversy and opposition. Some of this 
opposition--such as from my colleague and friend Mr. Ellison has been 
measured and thoughtful. Other opposition--both from special interest 
groups and the media has ranged from disbelief to paroxysms of rage and 
hysteria.
    Let me make it clear today that I remain convinced that these 
hearings must go forward. They will. To back down would be a craven 
surrender to political correctness and an abdication of what I believe 
to be the main responsibility of this committee--to protect America 
from a terrorist attack.
    Despite what passes for conventional wisdom in certain circles, 
there is nothing radical or un-American in holding these hearings. 
Indeed, Congressional investigation of Muslim American radicalization 
is the logical response to the repeated and urgent warnings which the 
Obama administration has been making in recent months.
    Just this past Sunday, for instance, Denis McDonough, the Deputy 
National Security Advisor to President Obama, made a major speech on 
radicalization stating that:

``al-Qaeda and its adherents have increasingly turned to another 
troubling tactic: attempting to recruit and radicalize people to 
terrorism here in the United States.

``For a long time, many in the U.S. thought that we were immune from 
this threat. That was false hope, and false comfort. This threat is 
real, and it is serious.''

``(Al-Qaeda does this) for the expressed purpose of trying to convince 
Muslim Americans to reject their country and attack their fellow 
Americans.''

    Similarly in late December, Attorney General Holder said the 
growing number of young Americans being radicalized and willing to take 
up arms against our country ``keeps him awake at night.''
    And 2 weeks before that the Attorney General defended the FBI's 
sting operation against Mohammad Osman Mohammad who attempted a terror 
attack during a Christmas tree lighting celebration in Portland, Oregon 
saying he made ``no apologies'' for this operation. ``Those who 
characterize the FBI's activities as entrapment simply do not have 
their facts straight.''
    One month ago Secretary Napolitano testified before this committee 
and said that the threat level today is as high as it has been since 
September 11 because of increased radicalization in our country.
    This committee cannot live in denial which is what some would have 
us do when they suggest that this hearing dilute its focus by 
investigating threats unrelated to al-Qaeda. The Department of Homeland 
Security and this committee were formed in response to the al-Qaeda 
attacks of 9/11. There is no equivalency of threat between al-Qaeda and 
neo-Nazis, environmental extremists, or other isolated madmen. Only al-
Qaeda and its Islamist affiliates in this country are part of an 
international threat to our Nation. Indeed by the Justice Department's 
own record not one terror-related case in the last 2 years involved 
neo-Nazis, environmental extremists, militias, or anti-war groups.
    I have repeatedly said the overwhelming majority of Muslim-
Americans are outstanding Americans and make enormous contributions to 
our country. But there are realities we cannot ignore. For instance a 
Pew Poll said that 15 percent of Muslim-American men between the age of 
18 and 29 could support suicide bombings. This is the segment of the 
community al-Qaeda is attempting to recruit.
    To combat this threat, moderate leadership must emerge from the 
Muslim community. As the Majority and Minority staff of the Senate 
Homeland Security Committee concluded in its report on ``Violent 
Islamist Extremism and the Homegrown Terrorist Threat,'' ``Muslim 
community leaders (and) religious leaders must play a more visible role 
in discrediting and providing alternatives to violent Islamist 
ideology.''
    This means that responsible Muslim-American leaders must reject 
discredited groups such as CAIR--The Council on American-Islamic 
Relations which was named as an unindicted co-conspirator in the 
terrorist financing case involving the Holy Land Foundation. In the 
lead-up to this hearing I found it shocking and sad that the mainstream 
media accepted CAIR's accusations as if it were a legitimate 
organization. Thankfully, FBI Director Mueller has ordered the FBI to 
cease all dealings and contact with CAIR. I would hope that all law 
enforcement officials would follow the lead of the FBI Director.
    Al-Qaeda realizes that the measures we have put in place over the 
past 9\1/2\ years make it very difficult to launch a large-scale attack 
against the homeland from outside the country which is why they have 
altered their strategy and are recruiting and using people living 
legally in the United States. These include:
  <bullet> New York City Subway bomber Najibullah Zazi;
  <bullet> Fort Hood Terrorist U.S. Army Major Nidal Hasan;
  <bullet> Colleen LaRose, known as ``Jihad Jane'';
  <bullet> Times Square Bomber Faisal Shahzad;
  <bullet> Mumbai Plotter David Headley;
  <bullet> Little Rock Recruiting Center Shooter Carlos Bledsoe, whose 
        father is a witness today; and
  <bullet> Dozens of individuals in Minneapolis associated with the 
        Somali terrorist organization, al Shabaab. The uncle of one of 
        those young men--who was radicalized in Minneapolis, sent to 
        Somalia, and eventually killed--is also with us today.
    Let me thank all of the witnesses for giving of their valuable time 
to be with us today. I want to express special thanks, however, to 
Melvin Bledsoe and Abdirizak Bihi. These brave men have endured 
suffering no father or uncle should ever have to go through. Their 
courage and spirit will put a human face on the horror which Islamist 
radicalization has inflicted and will continue to inflict on good 
families, especially those in the Muslim community, unless we put aside 
political correctness and define who our enemy truly is.
    As we approach the 10-year anniversary of the September 11 attacks, 
we cannot allow the memories of that tragic day to fade away. We must 
remember that in the days immediately following the attack, we are all 
united in our dedication to fight back against al-Qaeda and its 
ideology.
    Today, we must be fully aware that homegrown radicalization is part 
of al-Qaeda's strategy to continue attacking the United States. Al-
Qaeda is actively targeting the American Muslim community for 
recruitment. Today's hearing will address this dangerous trend.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman King. Now it is my privilege to recognize the 
distinguished Ranking Member of the committee, the gentleman 
from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. As we 
begin today's hearing, I want to take a moment to thank you for 
agreeing to my request to invite Representative Dingell and 
Sheriff Baca. These witnesses will add to the committee's 
understanding of the outreach and cooperation between the 
Muslim community and Government officials. I want to reiterate, 
however, my belief that a hearing on the linkage between 
extreme ideology and violent action should be a broad-based 
examination.
    Yesterday the FBI made an arrest in the recent Martin 
Luther King Day bombing attempt. News reports identified a 
suspect as a member of the same white supremacist group that 
influenced the Oklahoma City bomber, Timothy McVeigh. I urge 
you, Mr. Chairman, to hold a hearing examining the homeland 
security threat posed by anti-Government and white supremacist 
groups. As the Committee on Homeland Security, our mission is 
to examine threats to this Nation's security. A narrow focus 
that excludes known threats lacks clarity and may be myopic.
    I understand that our personal experiences play a role in 
how we see the world. We have all come to this place from 
somewhere else. As I understand it, the Chairman's background 
includes the history of a country divided by religion and torn 
by prolonged and violent struggle. I am from Mississippi. My 
personal history is one which non-violence was the bedrock 
principle in a struggle for societal change and political 
rights. Religion played a role in that struggle, too.
    But we are not here in these places now. As Members of 
Congress, our words transcend this hearing room. We must be 
vigilant that our words and our actions do not inflame. 
Acknowledgement of an obligation to be responsible does not 
equal political correctness. We must be mindful that this 
country is conducting two wars. Our words and our actions 
cannot be used to endanger our soldiers.
    I had hoped that this hearing could be used as a forum to 
point out a recent report of the Southern Poverty Law Center. 
Last week the Southern Poverty Law Center released a chilling 
report that the number of active hate groups in the United 
States topped 1,000 for the first time, and the anti-Government 
movement has expanded dramatically for the second straight 
year. The Southern Poverty Law Center study indicates that 
several factors have fueled this growth. Those factors include 
resentment over the changing racial demographics of this 
country, frustration over the lagging economy, and the 
mainstreaming of conspiracy theories and other demonizing 
propaganda aimed at minorities and the Government.
    I am particularly troubled that much of the current vitriol 
has been directed towards the President and First Lady. In the 
wake of the Gabrielle Giffords shooting, news accounts indicate 
that in a public meeting, a Member of Congress heard a threat 
made against the life of the President that was greeted with 
laughter.
    We live in troubling times. I have heard concerns that 
today's hearing will stoke a climate of fear and distrust in 
the Muslim community. It may also increase the fear and 
distrust of the Muslim community. For law enforcement 
officials, outreach and cooperation may become more difficult.
    As we consider the possible domestic effects of our 
actions, we must also consider the possible effects abroad. As 
I look at the recent uprisings in North Africa and the Middle 
East, I am struck by the fact that these movements are inspired 
by secular notions of democracy and freedom. Theocracy seems to 
be on the sidelines. In scores of hearings and briefings, 
members of this community have been told that al-Qaeda remains 
a recruiting tool in a notion that the powers of the West are 
aligned against the people of the Middle East. The United 
States is accused of engaging in a modern-day crusade against 
Islam.
    We cannot give this lie a place to rest. I cannot help but 
wonder how propaganda about this hearing focuses on American 
Muslim community will be used by those who seek to inspire a 
new generation of suicide bombers.
    I yield back.
    [The information follows:]

             Statement of Ranking Member Bennie G. Thompson

    As we begin today's hearing, I want to take a moment to thank 
Chairman King for agreeing to my request to invite Rep. Dingell and 
Sheriff Baca. These witnesses will add to the committee's understanding 
of the outreach and cooperation between the Muslim community and 
Government officials.
    I also want to re-iterate my belief that a hearing on the linkage 
between extreme ideology and violent action should be a broad-based 
examination.
    Yesterday, the FBI made an arrest in the recent Martin Luther King 
Day bombing attempt.
    News reports identify the suspect as a member of the same white 
supremacist group that influenced Oklahoma City bomber, Timothy 
McVeigh.
    I urge the Chairman to hold a hearing examining the homeland 
security threat posed by anti-Government and white supremacists groups.
    As the Committee on Homeland Security, our mission is to examine 
threats to this Nation's safety. A narrow focus that excludes known 
threats lacks clarity and may be myopic.
    I understand that our personal experiences play a role in how we 
see the world. We all come to this place from somewhere else.
    As I understand it, the Chairman's background includes the history 
of a country divided by religion and torn by a prolonged and violent 
struggle.
    I am from Mississippi. My personal history is one in which non-
violence was a bedrock principle in the struggle for societal change 
and political rights. Religion played a role in that struggle, too.
    But we are not in those places now.
    As Members of Congress, our words transcend this hearing room. We 
must be vigilant that our words and our actions do not inflame.
    Acknowledgement of an obligation to be responsible does not equal 
political correctness.
    We must be mindful that this country is conducting two wars. Our 
words and actions cannot be used to endanger our soldiers.
    I had hoped that this hearing could be used as a forum to point out 
a recent report of the Southern Poverty Law Center. Last week, the 
Southern Poverty Law Center released a chilling report. The number of 
active hate groups in the United States topped 1,000 for the first time 
and the anti-Government movement has expanded dramatically for the 
second straight year.
    The Southern Poverty Law Center study indicates that several 
factors have fueled this growth. Those factors include resentment over 
the changing racial demographics of the country, frustration over the 
lagging economy, and the mainstreaming of conspiracy theories and other 
demonizing propaganda aimed at minorities and the Government.
    I am particularly troubled that much of the current vitriol has 
been directed toward the President and the First Lady. In the wake of 
the Gabrielle Giffords shooting, news accounts indicate that in a 
public meeting, a Member of Congress heard a threat made against the 
life of the President that was greeted with laughter.
    We live in troubling times.
    I have heard concerns that today's hearings will stoke a climate of 
fear and distrust in the Muslim community. It may also increase fear 
and distrust of the Muslim community. For law enforcement officials, 
outreach, and cooperation may become more difficult.
    As we consider the possible domestic effects of our actions, we 
must also consider the possible effects abroad. As I look at the recent 
uprisings in North Africa and the Middle East, I am struck by the fact 
that these movements are inspired by secular notions of democracy and 
freedom. Theocracy seems to be on the sidelines.
    In scores of hearings and briefings, Members of this committee have 
been told that al-Qaeda's main recruiting tool is the notion that the 
powers of the West are aligned against the people of the Middle East. 
The United States is accused of engaging in a modern day crusade 
against Islam.
    We cannot give this lie a place to rest. I cannot help but wonder 
how propaganda about this hearing's focus on the American Muslim 
community will be used by those who seek to inspire a new generation of 
suicide bombers.

    Chairman King. I thank the gentleman from Mississippi. 
Thank you, Ranking Member Thompson.
    I just remind other Members of the committee that opening 
statements may be submitted for the record.
    [The statements of Hons. Jackson Lee, Clarke, and 
Richardson follow:]

                  Statement of Hon. Sheila Jackson Lee

    Mr. Chairman, I thank all of the individuals testifying today.
    In society and politics, radicalization refers to a significant 
change in the social and political attitudes, views, and associations 
of individual dissidents and protest groups in a direction toward what 
is claimed or perceived to be ``radicalism'' (irrational protest) and 
``extremism'' (violent protest). The term ``radicalism'' typically 
characterizes activism (or a particular mode thereof) as irrational or 
unreasonable--where the term ``activism'' refers almost exclusively to 
non-violent protest. The term ``radicalization'' refers to the process 
by which once passive or otherwise non-violent activists and protesters 
become militant and thereby use or advocate violence as a means to 
attain political goals.
    While such change may be indiscernible within individuals, the term 
is usually made in reference to political dissident groups, who over 
time have lost hope in conventional means for expression and protest, 
and overtly state their hostile intentions.
    Radicalization itself is often the direct result of violence, where 
the ``radicals'' themselves have typically been the target and victim 
of violence and persecution. Otherwise, individuals may feel empathy or 
sympathy with others who have been victimized by an oppressor--where 
such sympathy is often based in personal, ethical, religious, or 
nationalist association or familiarity. Though radicalization is 
universally associated with an ideology--typically one based in 
political causes--it is less common for radicalism to emerge based on 
ideology alone, and personal factors often have a strong role. The 
goals of radicalization may be to gain political recognition, change, 
or to enact a retribution for previous injustices.
    Mr. Chairman, where a society has been attacked and violated, 
religion and related ideologies naturally becomes the nexus of 
community, social strength, and unity. This emphasis on religion is a 
variable, as determined by other social factors such as class, poverty, 
literacy, and (controversially) culture, as well as the particular 
aspects of religion which are cited as guiding in terms of ideology, 
philosophy, and behavior.
    Mr. Chairman, I am sure my colleagues on the other side of the 
aisle will likely focus on what they interpret as the rise of 
radicalization and the recruitment of ``home grown'' terrorist in the 
United States by eliciting testimony from Government officials and 
experts on that subject. I am sure they will also use this hearing as a 
basis for the expansion of the President's domestic surveillance 
program and similar efforts that have recently come under fire by legal 
and political experts.
    Mr. Chairman, it is in my opinion that rather than targeting 
Muslims, Arabs, and other minority groups on the basis of stereotypes 
and subjecting them to repeated stops and checks whenever they undergo 
security screening, the Government should make greater use of empirical 
and verifiable evidence and technology to distinguish innocent Muslims 
and others from known or suspected terrorists included on terrorist 
watch list.
    The danger posed by modern terrorists is real and Congress must 
understand the scope and nature of the threat and exercise its 
authorities to the utmost in overseeing the Government's response, 
holding our military, law enforcement, and intelligence agencies 
accountable, and crafting sensible legislation that enhances security 
while protecting the rights of innocent persons. But the security 
threat was no less real during the first red scare and during the Cold 
War.
    History tells us that conflating the expression of certain belief 
systems or even hostile beliefs with threats to security only 
misdirects resources, unnecessarily violates the rights of the 
innocent, and unjustly alienates communities unfairly targeted as 
suspicious.
    People who commit acts of domestic terrorism cannot be identified 
by any religious, ideological, ethnic, economic, educational, or social 
profile, and holding hearings that suggest otherwise is 
counterproductive to keeping America safe from real terrorist threats.
    In February 2010, Andrew Joseph Stack III of Texas flew a plane 
into an IRS building in Austin leaving behind an anti-Government rant 
largely focused on taxes.\1\
---------------------------------------------------------------------------
    \1\ Brick, Michael, Man Crashes Plane Into Texas I.R.S. Office, The 
New York Times (Feb. 18, 2010) available at http://www.nytimes.com/
2010/02/19/us/19crash.html.
---------------------------------------------------------------------------
    A lot of Americans oppose taxes, some vehemently, but this 
terrorist incident did not lead to an investigation of all tax 
opponents.
    In August 2003 the environmental group Earth Liberation Front 
reportedly burned down a nearly completed $23 million apartment complex 
just outside San Diego in protest of urban sprawl. Two years later the 
FBI declared eco-terrorists the country's biggest domestic terrorist 
threat.\2\ Even then authorities did not target all those favoring 
environmental protection for investigation to root out ``radicalized'' 
individuals. Broadly targeting the entire American Muslim community for 
counterterrorism enforcement will make it more likely that law 
enforcement officials will misunderstand the factual evidence 
surrounding risk factors for violence and focus their investigative 
efforts on innocent Americans because of their religious beliefs rather 
than on true threats to the community. As recently as last month, 
Homeland Security Secretary Janet Napolitano warned the House Homeland 
Security Committee that the terrorist threat is at its highest level 
since 9/11. She told the committee that the terrorist danger is 
evolving to include mostly westerners being recruited by terrorist 
groups.
---------------------------------------------------------------------------
    \2\ Schorn, Daniel, Burning Rage, CBS News (November 13, 2005) 
available at http://www.cbsnews.corn/stories/2005/11/10/60minutes/
main1036067.shtml.
---------------------------------------------------------------------------
    The House Intelligence Committee hearing during the same month 
focused on the reauthorization of some USA Patriot Act surveillance 
programs and cyber security threats--as well as the current terrorist 
threat level to the U.S. Chairman and Members of the Committee allow us 
to focus on actual terrorist acts and those who commit them. A fact-
based investigation of historical events will likely be more successful 
at providing a clear picture of the threats we face and the appropriate 
methods we need to employ to address them without violating the 
Constitutional rights of innocent persons.
    Thank you Mr. Chairman. I yield back the balance of my time.
                                 ______
                                 
                   Statement of Hon. Yvette D. Clarke

    Let me say that today's hearing has been a great Congressional 
theater, certainly the equivalent of reality television. I'm just 
appalled at the fact that we have not really gotten to a substantive 
conversation about how we define terrorism and how we define the whole 
idea of radicalization.
    I am really concerned that Chairman King has decided to look at the 
issue of home-grown terrorism through a myopic lens that has directed 
its focus on one religious community, Muslim-Americans. I fail to see 
the objectives of this hearing other than to further stigmatize and 
ostracize a community from whom we desire cooperation. Homeland 
security is a vast subject matter, with many groups that could be 
classified as homegrown terrorist in this nation. I believe we are 
actually doing a great disservice to our citizens when we do not 
provide a more comprehensive dialogue on this issue, which would 
include law enforcement officials and the expert opinions on best 
practices for opening channels for cooperation and understanding. As a 
Brooklyn native who represents one of the most diverse districts in the 
Nation, I can confidently state that this does not represent the 
instincts of most New Yorkers.
    Mr. Chairman, if I closed my eyes and just listened to the 
witnesses, I could draw parallels to the experiences of some of the 
constituents in my district. I am not diminishing the experiences of 
today's witnesses and what they and their families have experienced 
because their experience is real, but I have parents in my district 
that can sit and talk about their children being recruited and 
brainwashed into criminal and violent activities. Their children are 
gang members.
    I would like to ask Chairman King to add gang violence to the 
discussion of terrorist extremists. Our Nation has not addressed gang 
violence which has become another present terrorist threat in urban 
America. Many families in urban communities across this Nation live in 
fear of gun violence that continues to destroy lives. The growing 
epidemic of violent gangs attributes to terrorism in many communities. 
I submit to you that allowing this phenomenon to continue unabated is 
as much a threat to our homeland as any other extremist activities.
    Homegrown violent extremism is not the domain of any one group of 
people in this Nation. The bloodshed, the lives that have been lost in 
Congressional districts like mine across our country, even since I've 
been a Member of this committee, can easily compare to lives lost in 
what has been termed terrorist attacks. So while I can empathize with 
the challenges faced by these families, we can all point to instances 
in our districts where families suffered loss of loved ones at the 
hands of callous, senseless, cold-blooded killers. To me it is all a 
matter of homeland security.
    Dr. Jasser talk about the elements of radicalization in existence, 
in Islam. There are those same elements evident in Christianity and in 
Judaism. I know because I represent all three faiths in my district. As 
someone who was directly impacted by 9/11, and who has lived in a 
community where we respect every human being regardless of their 
background, ethnicity, or religion, we should not be pointing fingers 
at one another. We should take the approach of Sheriff Baca. The goal 
here should be how do we address that suffering through communication, 
through dialogue, through enlightenment, which is where we need to be 
in the 21st Century.
    Law enforcement agencies have done an extraordinary job in keeping 
our Nation secure and strong. The cooperation between law enforcement 
agencies and the Muslim community have helped to stop terrorist 
attacks. The New York Police Department (NYPD) in my district has an 
extensive outreach to the Muslim community that is positive. It is 
important to note that law enforcement agencies identified neo-Nazis, 
environmental extremists, and anti-tax groups as more prevalent than 
Muslim terrorist organizations.
    I proudly lend my voice as a dissenting view to the approach used 
at examining homegrown terrorism. While Chairman King has every right 
to bring any subject before the committee, it is my hope that our 
values rise above. We are a Nation that values religious freedom and I 
hope that all on this committee and those at home remember that.
                                 ______
                                 
                   Statement of Hon. Laura Richardson
                             March 10, 2011

    Thank you, Chairman King.
    Few Members on this committee experienced the events of 9/11 as 
traumatically as the Chairman of this committee. Based on those 
experiences and the inception of this House Committee, Chairman King 
and Ranking Member Thompson have produced tangible results and because 
of that work, I made every effort to serve on this committee to ensure 
that our Nation has the resources necessary to keep our homeland 
secure.
    Unfortunately, today as a Member, I vehemently oppose the approach 
this committee is taking in this hearing. I was born in the 1960's, so 
in my elementary history classes we saw shocking films of American 
leaders in the '40's and '50's disgracefully violating the principles 
of which this country was founded.
    It was these sins of some forefathers that inspired me to want to 
run for Congress. At the age of 6, I decided to choose a profession 
that would work to end discrimination.
    Discrimination is ``the treatment or consideration of, or making a 
distinction in favor of or against, a person or thing based on the 
group, class, or category to which that person or thing belongs rather 
than on individual merit.''
    When elected officials or public servants are sworn in for duty, 
included with the oath is an understanding, not to abuse the power 
given. One definition of abuse of power is the ``improper use of 
authority by someone who has that authority because he or she holds a 
public office.'' I believe the narrow scope of this hearing is 
discriminatory and demonstrates an abuse of power.
    In our efforts to combat terrorism, we must be mindful of the 
implications of our actions. This means enacting policies based on best 
practices and research rather than focusing on stereotypes and 
xenophobic sentiments.
    Additionally, the premise of this hearing fails to acknowledge all 
of the infamous terrorists we have had in our Nation's history that had 
nothing to do with Islam. From Timothy McVeigh to Ted Kaczynski, the 
Unabomber, our history has shown us that terrorism crosses many 
spectrums and ideologies. By focusing on only one group of Americans 
and completely ignoring other groups, this committee is dangerously 
impeding law enforcement's efforts and unnecessarily endangering our 
National security.
    According to the Institute for Homeland Security Solutions, al-
Qaeda and the Allied movements were responsible for 26.7 percent of 
domestic terror attacks while White Supremacists accounted for 23.3 
percent. Thus, restricting this hearing for the consideration of 
radicalization to Islam, and not equally of other groups, is wrong.
    The House Judiciary Committee and the House Energy and Commerce 
Committee have not investigated other religious groups or their leaders 
for failing to cooperate or for causing harm to children, so clearly 
this committee is setting a dangerous precedent in treating one 
religious group differently than another and thereby calling into 
question this committee's actions and whether those actions are 
violating this country's laws and principles.
    According to the Congressional Research Service, non-jihadist 
attacks outnumber jihadist attacks by 30 to 3 since 9/11 and data 
suggests that that cooperation from the Islamic community has helped 
law enforcement disrupt a significant amount of all plots that has 
taken place since 9/11. These statistics highlight the importance of 
working with communities through good relations and community-oriented 
policing.
    However, by holding a hearing that alienates an entire community, 
this committee may be fundamentally undercutting our law enforcement's 
relationship with this community and making it that much harder to 
detect and thwart terrorist plots. This is unfortunate since, as FBI 
Director Robert Mueller stated, `` . . . 99.9 percent of Muslim-
Americans, Arab Americans, Sikh-Americans are every bit as patriotic 
and supportive of the United States as any others of us here in the 
United States, and that has come out since September 11.''
    I will close with a question I asked on February 9, last month in 
this room with this committee, to the person I believe most qualified 
and who should be testifying today, Michael Leiter, Director of 
National Counterterrorism Center:

``Ms. Richardson: What percentage of people being looked at [by your 
agency] for domestic terror threats were Muslim?''

    Mr. Leiter's response was telling: ``It is an absolutely tiny and 
minute percentage of the Muslim population that is being looked at.''
    Thank you and I yield back my time.

    Chairman King. Now I would like to welcome our first panel, 
the gentleman from Michigan, the dean of the House, Congressman 
John Dingell; the gentleman from Minnesota, Congressman Keith 
Ellison; and the gentleman from Virginia, Congressman Wolf. I 
don't have to tell any of you. You know your entire written 
statements will appear in the record. I would ask you to try to 
summarize your statements at this time.
    Now it is my privilege to ask Chairman Dingell to begin his 
testimony.

STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Dingell. I thank you and the Ranking Member Mr. 
Thompson for your courtesy, and also the Members of the 
committee for your kindness to me. This is a hearing which has 
great potential, and I am very hopeful that, under your 
leadership and with the cooperation of the Members of the 
committee, that good results will have been achieved. There is 
reason for us to go into this question of risk to our Nation, 
and that is, of course, one of the assigned businesses of this 
particular committee.
    For the record, I am John Dingell, Member of Congress from 
Michigan's 15th Congressional District. As you mentioned, I am 
the dean of the House. I am engaged in the practice of being 
chair of committees for many years and also in running 
investigative committees.
    I represent a very polyglot, diverse Congressional district 
in which we have all races, religions, and all parts of the 
world society represented. I represent a very fine community of 
Muslim Americans that I am here to tell you something which you 
know, and that is they are loyal, decent, honorable Americans. 
They hold elective office. They have immigrated to our State 
from all parts of the Middle East. They are Lebanese, Yemenese, 
Palestinian, Iraqi, Egyptian amongst others, Iranians, and they 
come from all parts of the world.
    Muslim Americans are honorable citizens, loyal Americans, 
and they are as much distressed as we are about what it is we 
see going on. They are, as I mentioned, not only ordinary 
citizens, but professionals, elected officials, members of the 
State legislature, people who sit on the courts as judges, and 
persons who hold other high offices in our society. They are 
almost without exception honorable, loyal citizens. As I have 
indicated, they are distressed as much as we are about the 
behavior of al-Qaeda and other threats to their Nation, as we 
are to sharing their concerns about what is of danger to our 
Nation.
    As I mentioned, for years I ran investigative committees. I 
kept a picture of Joe McCarthy hanging on the wall so that I 
would know what it was I did not want to look like, to do or to 
be. I believe that this committee going into these matters 
wisely, carefully and well can achieve a fine result of 
alerting the Nation to the real concern.
    I would beg you, Mr. Chairman and the Members of the 
committee, to do what I know you are fully intent upon doing, 
and that is to see to it that as we go into these matters, we 
do not blot the good name or the loyalty or raise questions 
about the decency of Arabs or Muslims or other Americans en 
masse. There will be plenty of rascals that we can point out 
and say these are real dangers to the Nation that we love and 
that we serve.
    I want to tell you how much I appreciate your courtesy in 
permitting me to be here this morning, and I know that you will 
see to it, Mr. Chairman and the Members of the committee, that 
we address the problems that we confront in terms of our 
National security in a fair, decent, thoughtful, and honorable 
fashion. I am prepared to leave, then, this high responsibility 
to you with the assurances of my good wishes and support and, 
again, the hope that people will understand what the purposes 
of this hearing should be: To find where there is wrongdoing, 
danger, and risk to our country, while at the same time not 
raising threats about the loyalty or the patriotism of 
important branches of our society who are as loyal, decent, and 
good, thoughtful, and honorable Americans as are all of us here 
present in this room. I thank you for your courtesy, Mr. 
Chairman.
    Chairman King. Thank you, Chairman Dingell.
    I have to admit that I still haven't acclimated myself to 
seeing you on the other side of the microphone. There were many 
years when you were sitting here in the chairman's chair.
    Thank you for your testimony this morning.
    Mr. Dingell. It has been a long time. Thank you.
    Chairman King. Thank you, Mr. Chairman.
    Our next witness is Congressman Ellison from Minnesota. I 
would just add as a preface, I have no idea what Congressman 
Ellison is going to say. He and I have very divergent views on 
this issue, but we try to maintain and we do very easily 
maintain a cordial relationship. When Congressman Ellison spoke 
to me in mid-December about the possibility of being at the 
hearing, I welcomed his request. I am pleased to have him here 
today to certainly explain and discuss his version and his 
analysis of the crisis confronting us today.
    With that, I recognize the gentleman from Minnesota Mr. 
Ellison.

 STATEMENT OF HON. KEITH ELLISON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Ellison. Thank you, Chairman King, for allowing me to 
testify today.
    Though the Chairman and I sometimes do disagree, including 
on the aspects of this hearing, I appreciate his willingness to 
engage in this dialogue.
    Let me also thank the Ranking Member, Ranking Member 
Thompson, for his commitment to homeland security and civil 
rights for all. It is a challenge to protect both security and 
liberty, but Congressman Thompson seems to strike the right 
balance.
    I would like to introduce Talat Hamdani, who is with us 
today. She is the brave mother of Mohammad Salman Hamdani, a 
first responder who died trying to rescue fellow Americans on 
9/11.
    I would like to make three points today, Mr. Chairman. 
First, violent extremism is a serious concern to all Americans 
and is the legitimate business of this committee. Second, this 
committee's approach to this particular subject, I believe, is 
contrary to the best of American values and threatens our 
security, or could potentially. Finally, we need increased 
understanding and engagement with the Muslim community in order 
to keep America safe.
    Let me elaborate on my first point. Understanding the roots 
of domestic terrorism is the legitimate business of the House 
Homeland Security Committee. I share the Chairman's concern 
about violent extremism. I voted for the Violent Radicalization 
and Homegrown Terrorism Prevention Act of 2010, authored by 
Representative Jane Harman. This bill was a common-sense 
approach to studying violent extremism in the United States. 
After gathering more feedback from the community, I expect to 
introduce a similar bill in the future.
    I recently made a presentation sponsored by the Center for 
American Progress called ``Strengthening American Security: 
Identifying, Preventing, and Responding to Domestic 
Terrorism.'' My presentation there addressed causes of violent 
extremism and solutions for prevention and intervention.
    The safety of our families and communities is at stake in 
our discussion today. We should apply the utmost 
professionalism to this issue, which leads me to my second 
point. We need to conduct a thorough, fair analysis and to do 
no harm. The approach of today's hearing, I fear, does not meet 
these standards.
    Today's hearing is entitled ``The Extent of Radicalization 
of the American Muslim Community and That Community's 
Response.'' It is true that specific individuals, including 
some who are Muslims, are violent extremists; however, these 
are individuals, not entire communities. Individuals like Anwar 
al-Awlaki, Faisal Shahzad, Nidal Hasan do not represent the 
Muslim community. When you assign their violent actions to the 
entire community, you assign collective blame to a whole group. 
This is the very heart of stereotyping and scapegoating. This 
is the heart of my testimony today.
    Ascribing evil acts of a few individuals to an entire 
community is wrong. It is ineffective, and it risks making our 
country less safe. Solutions to the scourge of domestic 
terrorism often emerge from individuals from within the Muslim 
community, a point I address later in my testimony; however, 
demanding a community response, as the title of the hearing 
suggests, asserts that the entire community bears 
responsibility for the violent acts of individuals.
    Targeting of the Muslim American community for the actions 
of a few is unjust. Actually, all of us, all communities, are 
responsible for combating violent extremism. Singling out one 
community focuses our analysis in the wrong direction.
    Throughout human history, individuals from all communities 
and faiths have used religion and political ideology to justify 
violence. Let us just think about the KKK, America's oldest 
terrorist organization; the Oklahoma City bombing; the shooting 
at the Holocaust Museum by James von Brunn; and bombings at 
Planned Parenthood clinics. Did Congress focus on the ethnic 
group or religion of these agents of violence as a matter of 
public policy? The answer is no.
    Stoking fears about an entire group for political agenda is 
not new in American history. During World War II, the United 
States Government interned the Japanese Americans and spied on 
German Americans. During John F. Kennedy's Presidential 
campaign, his opponents portrayed a dire future for an America 
with a Catholic President. We now view these events of our past 
as a breach of our treasured American values.
    Let us talk about facts rather than stereotypes. In fact, a 
Muslim American community rejects violent ideology. The RAND 
Corporation, a highly respected research organization, released 
a report last year that states the following: ``Given the low 
rate of would-be violent extremists, about 100 amongst the 
estimated 3 million American Muslims, suggests that the 
American Muslim population remains hostile to Jihadist ideology 
and its exhortations to violence.''
    At a Justice Department press conference just yesterday, 
Attorney General Eric Holder said, ``The Muslim community has 
contributed significantly to the resolution of many things that 
have resolved over the course of the last 12 to 18 months. Tips 
have been received, information has been shared, has been 
critical to our effort to disrupt plots that otherwise might 
have occurred.''
    The Muslim American community across the country actively 
works with law enforcement officials, from dialogues with 
Attorney General Eric Holder to community meetings with local 
police in Minneapolis, recently tips from the Muslim American 
community for two domestic terror plots, including the case of 
the Times Square bomber and the Northern Virginia 5. Law 
enforcement officials depend upon those relationships. A recent 
report by the Muslim Public Affairs Council stated that 
information provided by Muslim Americans has helped to foil 
seven domestic terror plots and 40 percent of all plots since 
9/11. A 2011 study from Duke University Triangle Center on 
Terrorism reiterated that 40 percent of the domestic terror 
plots that have been prevented with the aid of Muslim American 
community. This cooperation with law enforcement is rooted in 
relationships of trust, relationships we should nurture.
    A witness at today's hearing, Los Angeles County Sheriff 
Lee Baca, testified before the House Homeland Security 
subcommittee last year. He said to effectively detect and 
manage extremists, police need to have trust and the 
understanding of the Muslim communities who live within and 
outside the United States. Simply, police need public 
participation.
    As leaders, we need to be rigorous about our analysis of 
violent extremism. Our responsibility includes doing no harm. I 
am concerned that the focus of today's hearing may increase 
suspicion of the Muslim American community, ultimately making 
us all a little less safe. We have seen the consequences of 
anti-Muslim sentiment, from the backlash against the Park51 
Muslim Community Center to the hostilities against the Islamic 
Center in Murfreesboro, Tennessee; to a threat of Koran burning 
in Gainesville, Florida. Zoning boards in communities like 
DuPage, Illinois, are denying permits to build mosques. At the 
height of the Park51 controversy, a man asked a cabby whether 
he was a Muslim. When the cabby said, ``As-salamu alaykum,'' 
which means peace be unto you, the individual stabbed him.
    Denis McDonough, the President's Deputy National Security 
Advisor, recently spoke at the Adams Center at the All Dulles 
American Muslim Society. Mr. McDonough noted that al-Qaeda's 
core recruiting argument is that the West is at war with Islam. 
A chief goal of our National security policy is to undermine 
this argument. This requires active engagement with the Muslim 
community at home and throughout the world. As President Obama 
said in his Cairo speech, ``Islam is not part of the problem in 
combating violent extremism. It is an important part of 
promoting peace.''
    This brings me to my last point, and I will try to hurry, 
Mr. Chairman, because I see the time. The best defense against 
extreme ideologies is social inclusion and civic engagement. 
FBI agent Ralph Bolter, head of the Minneapolis FBI, 
illustrates my point. He led a large-scale probe into 
counterterrorism involving local Somali Americans heading 
overseas to fight with terrorist organizations. He is now 
coming to the District of Columbia to become the agency's 
Deputy Assistant Director in Charge of Counterterrorism. 
Bolter's strategy to fight extremism: The agency needs to 
establish sincere relationships within the community. ``We had 
to be able to show people that they could trust me, trust us,'' 
Bolter said of the local community. FBI Agent Bolter, ``showed 
a side to the FBI that people don't see,'' said Minneapolis 
Police Chief Tim Dolan. ``They needed that. They needed a 
little more to make their case, and it paid off because of the 
connections he made. People came forward, and he became 
somebody that they were willing to go to.''
    Unfortunately, I fear that this hearing may undermine our 
efforts in this direction. Recently on a news program, it was 
stated, ``How about the number of young Somali men who went to 
Somalia and the imams and leaders in the Minneapolis Muslim 
community who refused to cooperate at all? They were denying 
for a long time that they had even left.'' This sweeping 
statement regarding the community I represent is inaccurate. 
Unfortunately, why weren't law enforcements from Minneapolis 
invited to testify before this committee about the effective 
counterterrorism work that is going on in Minneapolis today? I 
invite and would welcome such an invitation.
    In January, the Department of Homeland Security of the 
civil rights and civil liberties convened a youth submit with 
Somali American youth and law enforcement agencies in 
Minneapolis. The event attracted over 100 people, including a 
U.S. attorney, 3 Somali American police officers, myself, 
several law enforcement and security agencies. The meeting 
provided an opportunity for Somali youth groups to learn more 
about the various roles and responsibilities of the U.S. 
Department of Homeland Security and to discuss community issues 
and concerns with Government representatives. The meeting 
participants discussed ways in which Somali youth and 
Government entities can improve communication.
    Muslim Americans have been part of the American scene since 
the Nation's founding. A little-known fact is that Cedar 
Rapids, Iowa, is home to one of the oldest mosques in America. 
The Muslim community is just like the rest of us. Muslims serve 
our Nation as doctors, lawyers, teachers, business owners, 
cabdrivers, and even Members of Congress. Muslim Americans live 
in every community in America, and they are our neighbors. In 
short, they are us. Every American, including Muslim Americans, 
suffered on 9/11. Twenty-nine Muslims died at the World Trade 
Center. Three Muslims died in hijacked airplanes, United flight 
175 and American flight 11. Muslims stood with the rest of 
America united in grief and in a resolve to protect America. 
Along with Americans of all faiths, Muslim Americans rushed in 
to save and rescue victims of al-Qaeda's terrorism.
    Let me close with a true story, but remember that it is 
only one of many American stories that could be told. Mohammad 
Salman Hamdani was a 23-year-old paramedic, a New York City 
Police cadet, and Muslim American. He was one of those brave 
first responders who tragically lost his life in the 9/11 
terrorist attacks almost a decade ago. As the New York Times 
eulogized, he wanted to be seen as an all-American kid. He wore 
No. 79 on the high school football team at Bayside, Queens, 
where he lived. He was called Sal by his friends. He became a 
research assistant at the Rockefeller University and drove an 
ambulance part time. One Christmas, he sang Handel's Messiah in 
Queens. He saw all of the Star Wars movies. It is well-known 
that his new Honda was the one that read--with the Young Jedi 
license plates.
    Mr. Hamdani bravely sacrificed his life trying to help 
others on 9/11. After the tragedy, some people tried to smear 
his character solely because of his Islamic faith. Some people 
spread false rumors and speculated that he was in league with 
the attackers because he was a Muslim. But it was only when his 
remains were identified that these lies were exposed. Mohammad 
Salman Hamdani was a fellow American who gave his life for 
other Americans, and his life should not be identified as just 
a member of an ethnic group or just a member of a religion, but 
as an American who gave everything for his fellow Americans.
    I yield back.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman King. I thank the gentleman for his testimony.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman King. The gentlelady from Texas.
    Ms. Jackson Lee. Parliamentary inquiry. Being moved by the 
statement of Mr. Ellison, I am wondering whether or not you 
would waive the rules of this committee to allow all Members to 
have opening statements.
    Chairman King. No, I will not.
    Ms. Jackson Lee. I think, Mr. Chairman, I would like to 
finish my inquiry. I think because of the severity of this 
issue, and the passion that is being expressed, and the concern 
for demonizing of one group, that Members need to be on the 
record to be able to express their view, their opposition or 
their support, for the format and the structure of this 
hearing.
    Chairman King. Reclaiming my time. The regular rules of 
procedure will be followed, and I recognize the gentleman from 
Virginia.
    Ms. Jackson Lee. I object, Mr. Chairman.
    Chairman King. I recognize the gentleman from Virginia Mr. 
Wolf. Mr. Wolf has served long in the Congress. He has shown 
particular interest in this issue. His district has had several 
cases of radicalization. I recognize Mr. Wolf.

   STATEMENT OF THE HON. FRANK R. WOLF, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Wolf. Mr. Chairman, thank you for the opportunity to 
testify. I commend your leadership in holding these hearings, 
and I will revise and summarize.
    I have been following radical Islamic terrorism for nearly 
three decades. In 1998, I authored the legislation creating the 
National Commission on Terrorism, and highlighted the threat 
from Osama bin Laden in my introductory remarks. I was the 
Chairman of the House appropriations subcommittee that funds 
the FBI on September 11, 2001, and worked closely with Director 
Mueller from 2002 to 2006 to transform its missions to deal 
with the terrorist threat. I am again Chairman of that 
subcommittee and have received regular briefings on terrorism, 
and visit the counterterrorism center quite often in northern 
Virginia about the new and growing threat posed by domestic 
radicalization.
    According to the Congressional Research Service, there have 
been 43 homegrown Jihadist terrorist plots and attacks since 9/
11, including 22 plots or attacks since May 2009. As U.S. 
Government officials, law enforcement and community leaders 
seek to combat this emerging challenge, we must foster 
partnerships with peaceful and law-abiding Americans of the 
Muslim faith.
    Mr. Chairman, over the last 3 decades, I have seen first-
hand the violence and the repression against Muslims in many 
countries and have spoken out in their defense in places such 
as Sudan, Chechnya, Kosovo, and China. In Bosnia, I was one of 
the only Members to visit a Muslim men's prison camp run by the 
Serbs, where I saw evidence of modern-day ethnic cleansing, and 
supported lifting the arms embargo so the Muslim population 
could defend themselves in Bosnia and Sarajevo.
    I am mindful of the important role that American Muslims 
play today. They are teachers, doctors, policemen, and 
soldiers. They are mothers, fathers, neighbors. They are 
patriotic Americans; some have paid the ultimate price in 
service to their country. I am reminded of a young Pakistani-
American that I had the privilege of meeting at Walter Reed 
Hospital. He lost both legs in combat in Iraq. He was a patriot 
who makes us proud, and he was a Muslim.
    In my oversight of the Justice Department, including both 
in civil rights and National security programs, I am mindful of 
the Government's responsibility to safeguard the rights of all 
Americans. There have been instances in our Nation's history, 
especially when our country has been under attack, where the 
civil liberties of certain groups of people have been violated 
because other people were afraid. This is inexcusable, but this 
is the exception and not the rule. Yet, Mr. Chairman, we cannot 
ignore the phenomenon of domestic radicalization. It is a 
National security challenge that must be confronted.
    According to a recent report by respected counterterrorism 
experts Bruce Hoffman and Peter Bergen called ``Assessing the 
Terrorist Threat,'' they said, ``The American melting pot has 
not provided a firewall against the radicalization and the 
recruitment of American citizens and residents, though it has 
arguably lulled us into a sense of complacency that homegrown 
terrorism couldn't happen in the United States.'' They went on 
to say, ``By not taking more urgently and seriously the 
radicalization and recruitment that was actually occurring in 
the U.S., authorities failed to comprehend that this was not an 
isolated phenomenon. Rather, it indicated the possibility that 
even an embryonic terrorist radicalization and recruitment 
infrastructure had been established in the U.S. homeland.''
    Consider the following individuals who have been 
radicalized in my State of Virginia, or I would even say here 
in northern Virginia. In October 2010, Farooque Ahmed from 
Ashburn, Virginia, was arrested for allegedly plotting attacks 
on the Washington Metro system, targeting stations to find 
times to kill as many people as possible.
    In July 2010, Zachary Chesser, a graduate of Oakton High 
School, was arrested in New York en route to join al-Shabaab in 
Somalia. Chesser plead guilty to charges of providing material 
support to terrorists, communicating threats, and solicitation 
of crimes of violence and was sentenced to 30 years.
    In November 2009, five Muslim American teenagers from 
Fairfax County were arrested in Pakistan attempting to join 
militant Islamist organizations. They have been sentenced to 10 
years in a Pakistan prison.
    In November 2009, Virginia native Army Major Nidal Hasan 
killed 13 servicemen and women at Fort Hood, Texas. Hasan grew 
up in Arlington, went to Wakefield High School, and later moved 
to Roanoke.
    In 2004, Abdul Rahman al Amoudi from Falls Church, 
Virginia, was convicted on three charges of terrorist financing 
and conspiring to assassinate Saudi Crown Prince Abdullah and 
was sentenced to 23 years in prison.
    In 2003, Ahmed Omar Abu Ali, a northern Virginia resident 
and the Islamic Saudi Academy's 1999 valedictorian, was 
arrested in Saudi Arabia and was later convicted in Federal 
district court in Alexandria of conspiracy to commit terrorism, 
including a plot to assassinate President Bush. He was 
sentenced to life in prison.
    One also cannot overlook the prominent role that Anwar al-
Awlaki, an American citizen, played in northern Virginia during 
his time preaching at a mosque in Falls Church, Virginia. This 
is particularly noteworthy given his recruitment of the Fort 
Hood shooter, the Christmas day bomber and the Times Square 
bomber. Some experts say the internet is the conduit to which 
radical voices like al-Awlaki corrupt minds, while others say 
it is the importation of radical Wahhabism.
    As we deal with the growing threat, it is troubling, Mr. 
Chairman, to see a group such as the Council on American-
Islamic Relations, commonly known as CAIR, attempt to stifle 
debate and obstruct cooperation with law enforcement. In June 
2009, I spoke on the House floor in great detail, laying out my 
concern about CAIR and discussing the Holy Land Foundation 
case. The foundation and five of its former organizers were 
found guilty of illegally funneling more than $12 million to 
Hamas. We know Hamas is a terrorist organization on the 
terrorist list by the European Union, by the United States, and 
wants to destroy Israel. They are designated a foreign 
terrorist organization. Among the unindicted co-conspirators in 
the case was CAIR.
    CAIR is routinely, and I believe mistakenly, elevated in 
the press as the voice of mainstream American Muslims, and they 
have been granted access to the highest levels of Government at 
times. Last week during a hearing before my subcommittee, 
Attorney General Eric Holder recognized CAIR's, ``troubled 
history,'' he said, and FBI Director Robert Mueller has 
suspended all non-investigative cooperation with CAIR.
    My concern about CAIR is not limited to its disturbing 
origins and connections to terrorist financing. I am equally 
concerned about CAIR's role in attacking the reputations of 
any--attacking the reputations of any--who dare to raise 
concerns about domestic radicalization. A May 25, 2007, Wall 
Street Journal op-ed by Tawfik Hamid, a former member of the 
terrorist organization, described terrorists, ``perhaps the 
most conspicuous organization to persistently accuse opponents 
of Islamophobia.''
    Additionally, in October 2008, the editorial page editor of 
the Columbus Dispatch spoke to CAIR's bent on accusation as a 
means of muzzling debate. They said, ``For many years, CAIR has 
waged a campaign to intimidate and silence anyone who raises 
alarms about the danger of Islamic extremism. The group acts 
properly when it hammers home the point that only a small 
number of Muslims support religiously motivated violence and 
that targeting law-abiding Muslims is wrong.'' They went on to 
say, ``Where CAIR errs is in labeling anyone who discusses 
Islamic terrorism as a bigot and hate-monger and Islamophobe, 
to use CAIR's favorite slur.''
    However, discourse is not all that CAIR seeks to silence. 
In many cases its National and State chapter leaders actively 
dissuade American Muslims from cooperating with law 
enforcement. After dozens of Somalian Americans disappeared 
from the Minneapolis area in 2009, CAIR attempted to drive a 
wedge between the Muslim community and the FBI, which was 
seeking to track down the missing men.
    According to official estimates, at least 2 dozen Americans 
have moved to Somalia in recent years to join the terrorist 
group al-Shabaab, and roughly 10, 10 Americans who have gone 
there have been killed in fighting or acts of terrorism while 
they have been connected with al-Shabaab.
    In January 2011, CAIR's California chapter displayed an old 
poster on its website which stated, ``Build a wall of 
resistance. Don't talk to the FBI.'' Although CAIR removed the 
poster once the media reported on it, it reflects a larger and, 
I think, very troubling pattern.
    When the terrorism commission legislation was moving in 
1998, in CAIR's own words they asked Muslims to contact leaders 
of the House and Senate committee and urge them to amend or 
eliminate the new legislation that would create a National 
commission on terrorism. This was misguided, and fortunately it 
was not successful. Regrettably, the Commission's 
recommendations sent to Congress in June 2000 were generally 
ignored until 9/11 when 3,000 people were killed, including 
more than 2 dozen--2 dozen--from my Congressional district. Let 
me be clear, CAIR is counterproductive, and it is hurting the 
American Muslim community. I raise these concerns because if we 
are to successfully counter domestic radicalization, law 
enforcement in particular will need the active engagement of 
Muslim communities.
    Mr. Chairman, I have a recommendation to address the 
challenge of domestic radicalization head on. I commend the 
FBI, and Director Mueller, and all the men of the FBI, and men 
and women of the FBI and our other services for the outstanding 
work that they have done in intercepting would-be terrorists 
before their attacks. But despite the FBI's success, the United 
States does not have an effective or coherent policy to thwart 
radicalization. That is why I will soon be introducing 
legislation to create a Team B to bring fresh eyes to U.S. 
domestic radicalization and counterterrorism strategy. The team 
would represent a new approach which focuses not just on 
connecting the dots of intelligence, but on rethinking the 
nature of threats to stay a step ahead and understanding how to 
break the radicalization and recruitment cycle that sustains 
terrorism, how to disrupt the global terrorist network, and how 
to strategically isolate it.
    During the Ford administration, the CIA created a Team B 
composed of outside experts to re-examine intelligence relating 
to Soviet capabilities. Their conclusions were markedly 
different than those of the agency officials. Many other 
assessments were used in the Reagan administration to deal with 
the Soviets, ultimately leading to the end of the Cold War. 
Today our intelligence community and Federal law enforcement 
are so inundated with reports and investigations that they do 
not have the capacity to step back and strategically re-
evaluate the threat before us. I believe a Team B would provide 
a tremendous service in making recommendations on how we could 
disrupt domestic radicalization.
    I was working closely with former Congresswoman Jane Harman 
on a bipartisan proposal before she retired to leave to go to 
the Woodrow Wilson Institute. For over a year I have repeatedly 
written the administration, urging them to implement this 
proposal. They have not.
    Mr. Chairman, I urge your support of this legislation and 
thank you again for the opportunity to testify. I strongly 
believe that your hearings will provide the Congress with a 
starting point for a new dialogue about fighting extremism and 
radicalization. We cannot afford to be silent. I am reminded of 
the song by Simon and Garfunkel, The Boxer, that says, ``Man 
hears what he wants to hear, but disregards the rest.'' We 
cannot disregard the issue of radicalization in our country. 
Your hearings can provide a productive forum for a much-needed 
dialogue about domestic radicalization, and I want to thank you 
very much for your leadership.
    Chairman King. Thank you, Chairman Wolf, for your 
testimony. We look forward to considering your legislation. I 
thank you.
    [The information follows:]

                Prepared Statement of Hon. Frank R. Wolf
                             March 10, 2011

    Mr. Chairman, thank you for the opportunity to testify this morning 
on such an important issue. I commend you for your leadership in 
holding these hearings.
    I have been concerned about and been following the issue of radical 
Islamic terrorism for nearly 3 decades. I visited the Marine barracks 
in Lebanon following the 1983 bombing that killed 241 American 
servicemen.
    I closely followed the issue of terrorism with the first attack on 
the World Trade Center in 1993 and throughout the 1990s with the deadly 
attacks against our embassies in Tanzania and Kenya, where yet another 
of my constituents was killed.
    As a result, in 1998 I authored legislation creating the National 
Commission on Terrorism, also known as the Bremer Commission, and 
highlighted the threat from Osama bin Laden in my introductory 
remarks--years before many in our Government fully understood the 
danger he posed. I will submit a copy of that statement for the record.
    I was the Chairman of the House Appropriations subcommittee that 
funds the FBI and Justice Department on September 11, 2001, and I 
worked closely with Director Mueller and his leadership team from 2002-
2006 to transform its mission to deal with the terrorist threat.
    I am now again Chairman of that subcommittee and receive regular 
briefings on terrorism and the new and growing threat posed by domestic 
radicalization and frequently visit the National Counterterrorism 
Center, which is located in my district.
    According to the Congressional Research Service, there have been 43 
``homegrown jihadist terrorist plots and attacks since 9/11,'' 
including 22 plots or attacks since May 2009.
    As U.S. Government officials, law enforcement, and community 
leaders seek to understand and combat this emerging challenge, we must 
foster partnerships with peaceful and law-abiding Americans of the 
Muslim faith and not allow their voices to be drowned out.
    Mr. Chairman, over the last three decades I have seen first-hand 
the violence and repression against Muslims in many countries and 
spoken out in their defense.
    In Sudan, I led the first Congressional delegation to Darks, where 
nearly all of the victims of the genocide are Muslim.
    In Chechnya, I was the only Member of Congress to visit during the 
fighting in 1995 and I condemned the violence against the largely 
Muslim population.
    In Bosnia, I was one of the only Members to visit Muslim men in a 
Serb-run prisoner-of-war camp where I saw evidence of modern-day ethnic 
cleansing and supported lifting the arms embargo so the Muslim 
population could defend themselves.
    In Kosovo, I visited five times in the 1990s and I spoke out for 
the bombing campaign to stop Serbian atrocities against Muslims in 
Kosovo, and helped the Muslim refugee population as they fled Kosovo 
and poured into Kukes, Albania.
    In China, I was one of the first Members to raise concerns about 
the persecution of Muslims.
    Further, I was the author of the International Religious Freedom 
Act, which created the U.S. Commission on International Religious 
Freedom as well as the International Religious Freedom Office at the 
State Department.
    Central to the act was the assertion that ``freedom of religious 
belief and practice is a universal human right and fundamental 
freedom.''
    I am also very mindful of the important role that American Muslims 
play in the United States today. They are teachers, doctors, policemen, 
and soldiers. They are mothers, fathers, and neighbors. They are 
patriotic Americans.
    They have taken advantage of the opportunity this country provides 
for people of every background--and some have paid the ultimate price 
to protect our freedoms in service to their country.
    I am reminded of a young Pakistani American that I had the 
privilege of meeting during one of my visits to Walter Reed Hospital in 
recent years. He was in the midst of his physical therapy--therapy that 
was necessary because he had lost both of his legs while in combat in 
Iraq.
    He was a patriot who makes us proud--and he was Muslim.
    In my oversight of the Justice Department, including both its civil 
rights and National security programs, I am always mindful of the 
Government's responsibility to safeguard the rights of all Americans.
    My grandparents immigrated to America from Germany at the beginning 
of the twentieth century. Even though my grandparents were both native 
German speakers, when World War I broke out my grandmother decided that 
from that day forward only English would be spoken in their home.
    I share this bit of personal history to illustrate that I am 
cognizant of the challenges facing new immigrants, especially during 
times of war. My German family was sensitive about how some people may 
have viewed them, so we who are not Muslim have to be understanding of 
feelings of sensitivity in the Muslim community today.
    There have been instances in our Nation's history, especially when 
our country has been under attack, where the civil liberties of certain 
groups of people have been violated because other people were afraid. 
This is inexcusable.
    But this is the exception, not the rule.
    Our experiment in self-governance has been marked by an unwavering 
commitment to basic freedoms for all people, among them the right to 
worship according to the dictates of one's conscience. Many American 
Muslims left countries where such freedom is unimaginable.
    Yet we cannot ignore the phenomenon of domestic radicalization. It 
is a National security challenge that must be confronted.
    According to a recent report by respected counterterrorism experts 
Bruce Hoffman and Peter Bergen called ``Assessing the Terrorist 
Threat'':

``The American `melting pot' has not provided a firewall against the 
radicalization and recruitment of American citizens and residents, 
though it has arguably lulled us into a sense of complacency that 
homegrown terrorism couldn't happen in the United States . . . By not 
taking more urgently and seriously the radicalization and recruitment 
that was actually occurring in the U.S., authorities failed to 
comprehend that this was not an isolated phenomenon . . . Rather, it 
indicated the possibility that even an embryonic terrorist 
radicalization and recruitment infrastructure had been established in 
the U.S. homeland.''

    For generation upon generation, people of all cultures, races, and 
religions have immigrated to the United States to build a better life 
for their families.
    In doing so, some of the newest Americans became our strongest 
patriots--espousing and renewing our most cherished American values. 
However, as Hoffman and Bergen note, the ``melting pot'' model has been 
insufficient in recent years to combat radicalization and recruitment 
trends among our own citizens. This has been true even in my own State.
    Consider the following individuals who have been radicalized in 
northern Virginia alone over the last several years:
  <bullet> In October 2010, Farooque Ahmed from Ashburn, Virginia, was 
        arrested for allegedly plotting attacks on the Washington Metro 
        system--targeting Metro stations to find optimal times to kill 
        as many innocent people as possible.
  <bullet> In July 2010, Zachary Chesser, graduate of nearby Oakton 
        High School, was arrested in New York en route to join al 
        Shabaab in Somalia. Late last year, Chesser plead guilty to 
        charges of providing material support to terrorists, 
        communicating threats, and soliciting crimes of violence and 
        was sentenced to 30 years in prison.
  <bullet> In November 2009, five American Muslim teenagers from 
        Fairfax County, Virginia, were arrested in Pakistan attempting 
        to join militant Islamist organizations. They have been 
        sentenced to 10 years in a Pakistan prison.
  <bullet> In November 2009, Virginia native Army Major Nidal Hassan 
        attacked Fort Hood in Texas and has been charged with the 
        shooting deaths of 13 servicemen and women and civilians. 
        Hassan was a graduate of Virginia Tech and grew up in Arlington 
        and Roanoke, Virginia.
  <bullet> In 2004, Abdul Rahman Al-Amoudi from Falls Church, Virginia 
        was convicted on three charges of terrorist financing and 
        conspiring to assassinate Saudi Crown Prince Abdullah and was 
        sentenced to 23 years in jail.
  <bullet> In 2003, Ahmed Omar Abu Ali--northern Virginia resident and 
        the Islamic Saudi Academy's 1999 valedictorian--was arrested in 
        Saudi Arabia, and was later convicted in Federal District Court 
        in Alexandria of conspiracy to commit terrorism, including a 
        plot to assassinate President Bush. He was sentenced to life in 
        prison.
    There are many more examples from around the country. I will submit 
for the record a full list provided by the Congressional Research 
Service of terrorist attacks committed by radicalized Muslim Americans.
    One also cannot overlook the prominent role that Anwar Aulaqi 
played in northern Virginia during his time preaching at a mosque in 
Falls Church--just a few miles from Capitol Hill.
    This is particularly noteworthy given Aulaqi's emergence as a 
leader of al-Qaeda in the Arabian Peninsula and his recruitment of the 
Fort Hood shooter, the Christmas day bomber, and the Times Square 
bomber.
    Aulaqi has emerged as a driving force in the recruitment of would-
be terrorists living in the United States and Europe.
    Last year, Aulaqi publicly praised these alleged terrorists and 
called for further attacks against American civilians--and Aulaqi is an 
American citizen.
    It is somewhat unclear by what means these domestic extremists are 
being radicalized. Some experts say that the internet is the conduit 
through which radical voices, like Aulaqi, corrupt minds. Other experts 
say it's the importation of radical Wahabiism.
    However, as we deal with this growing threat, it is troubling to 
see a group such as the Council on American-Islamic Relations, commonly 
known as CAIR, attempt to stifle debate and even obstruct cooperation 
and communication with law enforcement officials.
    On June 12, 2009, I spoke on the House floor for nearly an hour 
laying out in great detail my concern about CAIR. In my remarks I 
explored the Holy Land Foundation case.
    One agency that comes before my subcommittee is the FBI, which was 
intimately involved in a lengthy investigation culminating in the Holy 
Land Foundation and five of its former organizers, being convicted in 
November 2008 on charges, and I quote a Department of Justice press 
release, ``of providing material support to Hamas, a designated foreign 
terrorist organization.''
    Hamas is recognized by the United States and the European Union as 
a terrorist organization. It is publicly committed to the destruction 
of Israel. Its 1988 covenant says, ``The Day of Judgment will not come 
about until Moslems fight Jews and kill them.''
    Among the unindicted co-conspirators in the Holy Land Foundation 
case was CAIR, which over the last several years has been granted 
access to the highest levels of the U.S. Government. The organization 
is routinely, and I believe mistakenly, elevated in the press as the 
voice of mainstream American Muslims.
    Last week during a hearing before my subcommittee, Attorney General 
Eric Holder recognized CAIR's ``troubled history'' and FBI Director 
Robert Mueller has suspended all non-investigative cooperation with 
CAIR.
    In an April 28, 2009, letter to Senator Jon Kyl, which I submit for 
the record, the FBI reported that during the Holy Land Foundation 
trial, ``evidence was introduced that demonstrated a relationship among 
CAIR, individual CAIR founders (including its current President 
Emeritus and its Executive Director), and the Palestinian Committee. 
Evidence was also introduced that demonstrated a relationship between 
the Palestinian Committee and Hamas . . . In light of that evidence, 
the FBI suspended all formal contacts between CAIR and the FBI.''
    Several other elected officials have raised concerns about CAIR, 
among them Senator Charles Schumer, Senator Richard Durbin, and Senator 
Barbara Boxer.
    My concern about CAIR is not limited to its disturbing origins and 
connections to terrorist financing. I am equally concerned about CAIR's 
role in attacking and seeking to destroy the reputations of any who 
dare to raise issues of concern about domestic radicalization. This 
should give us pause.
    In a May 25, 2007, Wall Street Journal op-ed, Tawik Hamid wrote, 
``In America, perhaps the most conspicuous organization to persistently 
accuse opponents of Islamophobia is the Council on American Islamic 
Relations.''
    This is particularly interesting coming from Hamid, an Islamic 
reformer and one-time Islamic extremist from Egypt, who was a member of 
the terrorist Islamic organization Jemaah Islamiya with Dr. Aiman Al-
Zawaherri, who later became the second in command of al-Qaeda,
    Additionally, in October 2008, the editorial page editor of the The 
Columbus Dispatch spoke to CAIR's bent toward accusation as a means of 
muzzling debate:

``For many years, CAIR has waged a campaign to intimidate and silence 
anyone who raises alarms about the dangers of Islamic extremism. CAIR's 
rationale is that discussions of Islamic extremism lead to animosity 
not just toward those who twist Islam into a justification for 
terrorism but toward all who practice Islam. CAIR's concern is 
understandable, but its response is unreasonable. The group acts 
properly when it hammers home the point that only a small number of 
Muslims support religiously motivated violence and that targeting law-
abiding Muslims is wrong. Where CAIR errs is in labeling anyone who 
discusses Islamic terrorism a bigot and hatemonger, an Islamophobe, to 
use CAIR's favorite slur.''

    However, discourse is not all that CAIR seeks to silence. In many 
cases, its National and State chapter leaders actively dissuade 
American Muslims from cooperating with Federal law enforcement.
    For example, after dozens of Somali Americans disappeared from the 
Minneapolis area in 2009, CAIR attempted to drive a wedge between the 
Muslim community and the FBI, which was attempting to track down the 
missing men.
    According to official estimates, at least two dozen Americans have 
moved to Somalia in recent years to join the transnational terrorist 
group al Shabaab.
    Approximately 10 of these men have been killed in fighting or acts 
of terrorism.
    Fearing for members of their community, Somali Americans in 
Minneapolis repelled CAIR's efforts and held a public protest in June 
2009 to speak out about CAIR's activities. I enclose a Minneapolis Star 
Tribune article for the Record.
    In January 2011, CAIR's California chapter found an old poster and 
displayed it on its website stating, ``Build a wall of resistance. 
Don't talk to the FBI.'' I brought an enlarged copy of this poster with 
me today.*
---------------------------------------------------------------------------
    * Included as an attachment to Chairman Peter T. King's prepared 
statement.
---------------------------------------------------------------------------
    This is a telling example of how CAIR has sought to prevent 
individuals from cooperating with law enforcement--or at the very least 
to present themselves as the only legitimate channel for doing so.
    Although CAIR removed the poster once the media started reporting 
on it, it reflects a larger troubling pattern.
    When the terrorism commission legislation was moving in 1998, in 
CAIR's own words, they ``asked Muslims to contact leaders of a House-
Senate conference committee and urge them to amend or eliminate new 
legislation that would create a National Commission on Terrorism.''
    This was a misguided lobbying effort at best. Fortunately, it was 
unsuccessful and the bipartisan commission was authorized to conduct 
its work.
    A Congressional Research Service report described the main finding 
of the commission this way: ``It calls on the U.S. Government to 
prepare more actively to prevent and deal with a future mass casualty, 
catastrophic terrorist attack.'' Regrettably, the commission's 
recommendations, sent to Congress in June 2000, were generally ignored 
until after the attacks on 9/11, when 3,000 people were killed, 
including more than 2 dozen from my Congressional district.
    Let me be clear: CAIR is counter-productive and is hurting the 
American Muslim community.
    I raise these concerns because I believe that if we are to 
successfully counter domestic radicalization, law enforcement in 
particular will need the active engagement of Muslim communities. Dr. 
Hedieh Mirahmadi, president and founder of WORDE and co-chair of the 
first ever all female Islamic Law Council, recently wrote in the 
Christian Science Monitor, ``At the end of the day, we need to address 
the core problem of radicalization in America's backyard. The 
importance of creating lasting partnerships with moderate Muslim 
communities cannot be overemphasized.''
    Mr. Chairman, I have a recommendation to address the challenge of 
domestic radicalization head on. I believe that we must take a fresh 
look at how we can thwart domestic radicalization--because it is clear 
that current efforts have been unsuccessful.
    I want to commend the FBI and Director Mueller for their 
exceptional work in intercepting would-be terrorists before their 
attacks. They work tirelessly to protect our country and their record 
over the last decade speaks for itself. But despite the FBI's success 
at disrupting plots under way, the United States does not have an 
effective or coherent policy to defeat radicalization.
    That is why I will be introducing legislation soon that would 
create a ``Team B'' to bring fresh eyes to U.S. domestic radicalization 
and counterterrorism strategy. The team would represent a new approach, 
which focuses not just on connecting the dots of intelligence, but to 
rethink the nature of threats to stay a step ahead in understanding how 
to break the radicalization and recruitment cycle that sustains 
terrorism, how to disrupt the global terrorist network and how to 
strategically isolate it.
    During the Ford Administration, then-CIA director George H.W. Bush 
created a ``Team B'' composed of outside experts to re-examine 
intelligence relating to Soviet capabilities. Their conclusions were 
markedly different than those reached by agency officials. Many of 
their assessments were used in the Reagan administration to deal with 
the Soviets--ultimately leading to the end of the Cold War.
    Today, our intelligence community and Federal law enforcement are 
so inundated with reports and investigations that they do not have the 
time or capacity to step back and strategically re-evaluate the threat 
before us.
    I believe a ``Team B'' would provide a tremendous service to both 
the agencies and the Congress in making recommendations on how we can 
disrupt domestic radicalization.
    For more than a year, I have written numerous letters to the 
President and members of his National security team urging them to 
implement this proposal. They have not.
    As Bruce Hoffman wrote, ``One important yet currently languishing 
Congressional initiative that would help counter this strategy is 
Representative Frank Wolf's proposal to institutionalize a `red team' 
or `Team B' counterterrorist capability as an essential element of our 
efforts to combat terrorism and in the war against al-Qaeda.''
    I believe this would be a constructive step and I urge your support 
of this legislation. I was working closely with former Congressman Jane 
Harman on this proposal before she left the House to lead the Woodrow 
Wilson Center.
    Mr. Chairman, I want to thank you again for the opportunity to 
testify this morning. I strongly believe that your hearings will 
provide the Congress with a starting point for a new dialogue about 
fighting extremism and radicalization.
    We cannot afford to be silent. I am reminded of the song by Simon 
and Garfunkel, ``The Boxer,'' which includes the lyric: ``Man hears 
what he wants to hear, but disregards the rest.''
    We cannot disregard the issue of radicalization in our country.
    Your hearings can provide a productive forum for a much-needed 
dialogue about domestic radicalization. Thank you for your leadership. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman King. The panel is dismissed.
    I would now invite the witnesses on the second panel to be 
seated at the witness table for your testimony. Let me again 
thank each of the four witnesses for being here today, for 
giving us their valuable time, their input, and their varying 
views. But all that, I believe, is essential as we go forward, 
and I look forward to the testimony.
    Our first witness today, Dr. Zuhdi Jasser, is the president 
and founder of the American Islamic Forum for Democracy. A 
devout Muslim, Dr. Jasser founded AIFD in the wake of the 9/11 
attacks in the United States as an effort to provide an 
American Muslim voice advocating for the preservation of the 
founding principles of the United States Constitution.
    I must say, as a Member of Congress, I remember Dr. Jasser 
when he was here. He is a respected physician and a former 
member of the United States Navy, and he actually worked in the 
Attending Physician's Office here in the United States Capitol. 
For better or worse, he kept us healthy. Some of our 
constituents may not be too happy about that. But he did a 
great job of keeping us very healthy.
    Again, I appreciate you being here today.
    The gentleman is recognized. Dr. Jasser.

  STATEMENT OF M. ZUHDI JASSER, M.D., PRESIDENT AND FOUNDER, 
              AMERICAN ISLAMIC FORUM FOR DEMOCRACY

    Dr. Jasser. Thank you, Chairman King, Ranking Member 
Thompson.
    Chairman King. Doctor, could you put on the microphone 
there, please?
    Dr. Jasser. Thank you. Thank you Chairman King, Ranking 
Member Thompson, distinguished Members of the committee, for 
seeking my testimony on what I feel is the most important 
threat to American security in the 21st century.
    As Chairman King said, I come to you as a devout Muslim and 
somebody who is very concerned about our country, and not only 
its polarization, but its paralysis in dealing with this 
problem. We formed an organization to address this, but yet we 
have not been able to move even one step forward significantly 
because of that paralysis.
    One camp on the polarization refuses to believe that any 
Muslim could be radicalized; and yet we see, as we have 
discussed here, until now a significant increase in the number, 
an exponential increase in the number of radicalized Muslims 
that may not be from within our communities that we know, but 
are Muslims nonetheless. On the other side of the polarity are 
those that feel that Islam is the problem and they want to 
label Muslims as all one collective and really are seeking no 
solutions.
    I think in the majority, in the middle, is moderate America 
that is looking for a solution, and I think these hearings are 
an opportunity for Muslims to address that solution.
    Let me be clear and state up front that unequivocally for 
the record the United States has a significant problem with 
Muslim radicalization. Listen, I am Muslim, and I realize it is 
my problem and I need to fix it, and that is what I am trying 
to do.
    It is unfortunate that you have some of the best work on 
radicalization being done by non-Muslims, like the NYPD report 
on radicalization. Most Muslim groups condemn that report, when 
in fact we Muslims should have been doing that report. Let me 
also state clearly it is a problem that we can only solve. 
Christians, Jews, non-Muslims cannot solve Muslim 
radicalization. So yes, there may be other types of violent 
extremism, but that cannot be solved by non-Muslims.
    So we can close our eyes and pretend it doesn't exist; we 
can call everybody a bigot or an Islamaphobe if they even talk 
about it, but you are not going to solve the problem, and the 
problem is increasing exponentially.
    What I hope that we can discuss is get beyond this blind 
concept of violent extremism. It is a final step, but 
radicalization is a continuum. Cooperation is a continuum. I 
personally never knew a Muslim that wouldn't report somebody 
about to blow something up or commit an act of violence. But 
that is a final step on a continuum of radicalization.
    I believe there are small elements but significant elements 
of ideology within our community that is radicalizing, based on 
the identification--the lack of identification and the 
separatism and the disenfranchisement of certain Muslims from 
this society that makes them not bond, makes them not trust the 
Government, makes them distrust the FBI, and creates a culture 
of a lack of cooperation. That is what we need your help in 
solving.
    America's current paradigm is failing. I am a physician. I 
was trained as a physician. Patients come in, they have three 
or four symptoms. Typically they have one diagnosis. They don't 
come in with three symptoms and three diagnoses.
    So when we look at the problem of radicalization, we have 
to realize that the panoply of excuses that are given--our 
foreign policy, our domestic policy, all this kind of stuff--
those will never run out. At the end of the day it is a moral 
corruption within a certain segment that is using our religion, 
hijacking it for a theopolitical movement that is not only 
domestic, but it is global.
    The reason I am here today and taking the time away from my 
family and my work to do that, to be here with you, is because 
we are failing. We are not addressing this. We are so much 
soaking up the bandwidth of the discussion in this country on 
this with victimization that we are not addressing the core 
problem and the root cause.
    Yet these halls, this Government was based on discussing 
religious diversity. Our Founding Fathers, our establishment 
clause, was based on being able to have discussions that were 
functional on religion. But yet once a movement, a threat, 
hijacks religion, we seem to become completely dysfunctional 
and we get histrionics and we can't even talk about it. I hope 
we can move beyond that.
    I fear for the legacy that my children will have because I 
want them to be able to have the gift, just like I got from my 
parents, that felt American the first minute they stepped off 
the plane when they came from the oppression of Syria and they 
understood that they could practice their faith, their 
beautiful faith of Islam more freely here than they could 
anywhere else in the world. Why? Because this Government is not 
under one faith. It is under God, and it is based on liberty.
    These are the principles. Just as Prime Minister Cameron 
said, we can't continue to play defense. We need a muscular 
liberalism. So far our tax money, our resources, have been 
squandered. We have continued to play defense. Until we have an 
ideological offense into the Muslim communities, domestically 
and globally, to teach liberty, to teach the separation of 
mosque and state, you are not going to solve this problem, we 
are not going to solve it.
    I am not saying that you can solve theology. You shouldn't 
be solving theology. That is my problem. But we need to build 
public-private partnerships to build platforms where you can 
advocate for the laws of the Constitution that are universal 
human rights, that are based in the equality of men and women, 
the equality of all faiths before law.
    These are principles that certain pockets of Islamic law, 
Islamic legalisms within systems in this country and outside, 
are advocating that are in contradiction with our Government, 
with our society, and end up radicalizing on a continuum, end 
up creating a culture of lack of cooperation. Until you treat 
that diagnosis, what I call political Islam, spiritual Islam 
will continue to suffer, our faith community will suffer, and 
this country's security will continue to suffer.
    The current groups that have been speaking on our behalf I 
think have been failing. They may be well-intended about civil 
rights, but their apologetics, their dismissals, have been 
completely failing.
    I think if you look at Nidal Hasan, he didn't become 
radical overnight. If you look at his resume, it is 
frighteningly similar to mine. Yet something happened in him 
over years. Over years. You can't just blame Awlaki. Awlaki 
himself, before he became a radicalizer, was being radicalized 
somewhere, and he was giving sermons in mosques in Denver and 
San Diego and Northern Virginia. When you talk to certain 
leaders in the Muslim community, they say: Oh, all of a sudden, 
we don't know what happened, he became violent.
    That is not the way it works. Pathology creeps up over time 
and there is, just as we see in alcoholism, there are enablers. 
The enabling that has been happening in some of our--not all, 
and not even a majority--has been I think significantly causing 
a progression of this problem, and that is why we are not 
treating it and getting better.
    Chairman King. Dr. Jasser, if you could try to conclude in 
30 seconds, please.
    Dr. Jasser. Yes, sir. So ultimately we need solutions. Our 
organization has created a Muslim Liberty Project that looks at 
inoculating Muslims with the ideas of liberty, giving them the 
empowerment to counter imams, to feel that they can represent 
their own faith. We have a retreat coming in the next month to 
bring Muslims in from all over the country to begin that 
retreat process.
    This is our homeland, and we want to set this aside to 
begin, if you will, a counter-jihad, an offense to counter the 
ideas that I think are the best way to use our resources as a 
Nation and to remember that the freedoms that we have don't 
come with a cheap price and we need to give back. That the 
solution ultimately to fear Muslims, if it exists, is for 
Americans to see Muslims leading the charge against radical 
Islam.
    Thank you.
    Chairman King. Thank you, Dr. Jasser.
    [The statement of Dr. Jasser follows:]

              Prepared Statement of M. Zuhdi Jasser, M.D.
                             March 10, 2011

    Thank you Chairman King, Ranking Member Thompson, distinguished 
Members of the committee, for seeking my testimony on what I feel is 
the most important threat to American security in the 21st Century, 
Islamist Radicalization.
    My name is Dr. M. Zuhdi Jasser and I am the president and founder 
of the American Islamic Forum for Democracy. I sit before you a proud, 
devout, American Muslim whose country is polarized on its perceptions 
of Muslims and the radicalization that occurs within our communities. 
One camp refuses to believe any Muslim could be radicalized living in 
blind multiculturalism, apologetics, and denial, and the other camp 
believes all devout Muslims and the faith of Islam are radicalized . . 
. 
    Between these two polarities is a reasoned, pragmatic approach 
focused on solutions that recognizes the beauty of one of the world's 
great religions, while also acknowledging the existence within of a 
dangerous internal theo-political domestic and global ideology that 
must be confronted--Islamism.
    I hope that these hearings are the beginning of a rational National 
conversation about those solutions.
    Our Forum was founded in the wake of the devastating attacks of 
September 11. For me it is a very personal mission to leave my American 
Muslim children a legacy that their faith is based in the unalienable 
right to liberty and to teach them that the principles that founded 
America do not contradict their faith but strengthen it. Our founding 
principle is that I as a Muslim am able to best practice my faith in a 
society like the United States that guarantees the rights of every 
individual blind to faith with no governmental intermediary stepping 
between the individual and the creator to interpret the will of God. 
Because of this, our mission is to advocate for the principles of the 
Constitution of the United States of America, liberty, and freedom and 
the separation of mosque and state. We believe that this mission from 
within the ``House of Islam'' is the only way to inoculate Muslim youth 
and young adults against radicalization. The ``Liberty narrative'' is 
the only effective counter to the ``Islamist narrative''.
    Some have criticized these proceedings saying it is not the 
Government's role to do that. As I sit here in the people's House, I am 
reminded that we are a Government of the people whose entire 
foundation, our Constitution, our Bill of Rights, and especially the 
Establishment clause, rested on the ability of our citizenry to have 
open dialogue about any issue affecting our society probably most 
important of which was religious freedom.
    Yet as we have seen with the lead up to these hearings, we are 
barely able to come together to have an open discussion of the problem. 
This is not a left versus right issue or a case of infringement on the 
rights of a minority. This needs to be a serious assessment of the 
threat posed to our National security. The course of Muslim 
radicalization in the United States over the past 2 years makes it 
exceedingly difficult for anyone to assert with a straight face that in 
America we Muslims do not have a radicalization problem.
    From my perspective in our years of work of reform at the American 
Islamic Forum for Democracy and a lifetime of dedication to America, my 
faith, and my family, I see radicalization as my problem and as a 
Muslim I am not offended if you tell me that. In the end countering 
radicalization should be the obsession of every Muslim because if we do 
not what will be our legacy for our children?
    So I come to you as a devout Muslim, and to give you a so far 
little-heard viewpoint from that Islamic space, that shows our 
``diversity''. Those that have been struggling to get our leadership in 
mosques to reform and do the heavy lifting of modernization and 
enlightenment have been faced with too many obstacles inside and 
outside the Muslim community.
    We need to create a deeply rooted theological identification with 
this society and especially with the American legal system and the 
American identity. All of our security hangs in the balance of this 
reform, this Islamic enlightenment process. Only Muslims can figure out 
how to get our young adults to identify with secular western society 
and its ideas. Multiculturalism--political correctness--has prevented 
true ideological assimilation through the challenging or confrontation 
of certain Muslim theo-political ideas that conflict with universal 
human rights and our democracy.
    Prime Minister David Cameron addressed this in a very important 
speech he gave on February 5, 2011 at the Munich Security Conference 
that I have attached as Appendix 1.
    I am a physician and as one, I know when a patient comes in with 
many different symptoms, we are trained that they almost always have 
one unifying diagnosis that causes their illness. The radicalization of 
our youth is not due to the litany of non-Muslim excuses. This cancer 
within an otherwise vibrant beautiful faith is at its core an identity 
problem that can only be resolved with Islamic reform--toward modernity 
and the separation of mosque and state.
    So many of the Muslim groups in the United States that are 
``leading'' our communities allow these groups to define our identity 
only through religion and not by Americanism. To them faith is not 
personal it is a political collectivist movement. I learned growing up 
in Wisconsin that my family came here more to learn from American 
values and assimilate those into our consciousness rather than coming 
here to evangelize any Islamic ideals. My concern is that too many 
Muslim American groups who dominate the discourse currently have the 
opposite mindset one of bringing Islam to America. That mindset is not 
one of humility but rather supremacism and it feeds radicalization.
    Every Muslim I know would report a violent act about to happen and 
try to prevent it from happening. Anti-terror work includes a great 
number of American Muslim heroes as our Attorneys General and FBI 
Director have repeatedly stated. But the issue is not violence or 
reporting violence when it comes to cooperation. When we speak about 
``cooperation of Muslims with law enforcement'', what is more important 
is the growing culture of driving Muslims away from cooperation, 
partnership, and identity with our Nation and its security forces. Our 
civil rights should be protected and defended, but the predominant 
message to our communities should be attachment, defense, and 
identification with America not alienation and separation.
    Too many so-called Muslim leadership groups in America, like the 
Council on American-Islamic Relations (CAIR) or Muslim Advocates, have 
specifically told Muslims across the Nation, for example, not to speak 
to the FBI or law enforcement unless they are accompanied by an 
attorney. Rather than thanking the FBI for ferreting out radicals 
within our community, they have criticized sting operations as being 
``entrapment''--a claim that has not stood the test of anti-terrorism 
court cases since 9/11. Informants end up being showcased as bad apples 
and subjects of lawsuits rather than patriots. While individual rights 
must always be protected, operations like the FBI conducted in December 
2010 in Portland, OR are common place in other types of cases such as 
drug enforcement and racketeering cases. So why would they not be 
acceptable in terror cases?
    As another example I have been present at Friday prayers in 2004 at 
one of the largest mosques in Arizona where a photo distributed 
nationally by CAIR and later proven to be doctored showed an American 
soldier standing with two young Iraqi boys holding a sign that says, 
``he killed my dad and knocked up my sister'' (Appendix 2). As offended 
as I was as a Navy veteran, the imam and CAIR ended up pathologically 
alienating the Muslims in that audience from an American heritage.
    CAIR and MPAC have typically renounced the use of terror and 
violence, but they have never taken a position against the ideology of 
Political Islam. They both have also been the primary antagonists to 
efforts by law enforcement to understand and mitigate the real stages 
of radicalization of Muslims in America. In 2007, under the umbrella of 
the Muslim American Civil Liberties Coalition (MACLC), CAIR-NY and 
MPAC-NY authored ``Counterterrorism policy, MACLC's critique of the 
NYPD's report on homegrown radicalism.'' The paper is a response to 
NYPD's report ``Radicalization in the West: The Homegrown Threat.'' In 
it, the organizations lay out their belief that, ``The study of violent 
extremism, however, should decouple religion from terror to safeguard 
civil liberties on free speech and equal protection grounds as a matter 
of strong public policy.'' I have attached the full report of the NYPD 
Report on ``Radicalization in the West: the Homegrown Threat,'' because 
of the value it serves our community in understanding radicalization 
(Appendix 4). Rather than demonize this great work, these groups should 
have admitted that it was work Muslims should have been doing.
    If the root cause of Muslim radicalization is Islamism (political 
Islam), what good is any effort at counterterrorism that decouples any 
suggestion of theology no matter how separatist from terror? How can 
law enforcement effectively do counter terrorism in our country without 
recognition that Political Islam and its narrative is the core ideology 
when, at its extreme, drives the general mindset of the violent 
extremists carrying out the attacks?
    The Investigative Project on Terrorism recently noted that, 
``Though Muslims represent about 1 percent of the American population, 
they constitute defendants in 186 of the 228 cases DOJ lists.'' 
(Appendix 5). As a Muslim that loves my faith, I also realize that 
there is a unifying common ideology, a theo-political separatism that 
is driving this radicalization.
    It is important for us to work from the same definition of 
radicalization. Appendix 9 provides a visualization created by 
counterterrorism expert Patrick Poole to understand the complexities of 
radicalization. It is not just the final threat of violence that 
defines it. It is a continuum only Muslims can dissect. It is our duty 
as Muslims and as Americans to unravel it. Violent extremism is only 
the final step. You do not treat a disease effectively by only focusing 
on the final step. The pathway they all share is a domestic and world 
view of political Islam-Islamism. This Nation is based on a secular 
government which protects people in a liberty-centric, and God-centric 
ethic. Islamism is based in a theocratic system that is Islamo-centric. 
We cannot counter-radicalize Muslims until we as Muslims shed Islamism.
    Sure there are other non-Muslim violent extremist movements. But I, 
our families, our devout fellow American Muslims can only help you 
change the trajectory of Muslim radicals that slide down the separatist 
slippery slope of political Islam. To this point there has been little 
to no work on that trajectory--only the final step of violence.
    Homeland Security, Government, media, and our general population 
are only focused on that final step when the jihadists seek violence 
against our homeland. But we will all be chasing our tails for 
centuries if that remains your focus. I implore you to walk it back and 
treat the problem at its root, at its jugular--the supremacism of 
political Islam. As you utilize our resources to investigate methods of 
solving this ever-increasing and frightening threat, you will be 
squandering our Nation's resources if we continue to produce work as 
misguided as the Pentagon's after-incident report on the Fort Hood 
Massacre committed by Nidal Hasan.
    If you look at Dr. Nidal Hasan's ``resume'', in many ways it's 
frighteningly similar to mine--military physician, trained on 
scholarship, not ghettoized, deceptively assimilated. But I beseech you 
to look into why he ``theo-politically'' turned out the way he did and 
I turned out the way I did. He did not go to sleep one night a normal 
compassionate, patriotic Constitutional American Muslim military 
psychiatrist and wake up the next day a barbaric radical wanting to 
viciously murder his fellow soldiers. His slide into radicalism was 
methodical--it was a process.
    We need to recognize the pathway he traveled and begin to inoculate 
our Muslim youth against any ideas that may pull them toward that 
pathway. We need programs to look at the common ideological slides of 
these Muslim extremists and not just play defense but have a forward 
offensive promotion of the ideas of liberty that will inoculate them 
against any narrative that drives them to hate our Nation, hate our 
fellow citizens and abort their primary devotion as American soldiers 
or citizens and rather as Faisal Shahzad proclaimed in a New York 
Federal court that he was a ``Muslim soldier'' and part of a ``jihad''. 
Only Muslims can do this. But it is a legacy we have to repair as 
Muslims and you can help us build platforms and stimuli to do so.
    As Prime Minister Cameron of the United Kingdom stated that Muslim 
violent extremists are all swimming in the same pool of ideologies and 
the only way to defeat them is an offensive strategy to drain their 
pool of the water and energy that feeds them--treat their common 
condition. It is not violence. These are the details many Muslim groups 
that supposedly ``represent American Muslims'' do not want to address 
and will do anything legally possible to avoid ever discussing.
    As we address specific ideological drivers toward radicalization we 
must note that many but not all of the current predominant Muslim 
groups in Washington and their alphabet soup like CAIR, the Muslim 
American Society (MAS), Islamic Society of North America (ISNA), 
Islamic Circle of North America, Muslim Students' Association, and 
Muslim Public Affairs Council (MPAC) to name a few have been in 
existence for some time. They may disagree on a great deal but they 
share the distinction of remaining silent about the threat of the 
ideology of political Islam (Islamism) and in fact many of the ideas 
they employ utilize Islamist methods of engagement of Muslims and non-
Muslims. To many of them diversity is ``ethnic diversity'' or religious 
``sectarian diversity'' rather than religious ideological diversity.
    I am here to tell you that we are a very diverse community. There 
is not one Islam. With almost a quarter of the world's population 
practicing the faith, that would be impossible. We are a diverse 
community. Many if not a majority of Muslims choose not to even 
frequent mosques and do not accept representation of their ``Muslim 
identity'' to the mosque or to any Muslim organizations because they 
are personal pietistic Muslims who choose political activism through 
traditional American political infrastructure rather than arms of 
political Islam and its ideologies with which they disagree. We cannot 
forget this when supposedly engaging the ``Muslim community''. By 
engaging Muslim groups as ``representatives of predominant Muslim 
thought'' we dismiss the majority of American Muslims who do not 
collectivize our community.
    I implore you to avoid taking that lowest hanging fruit as being 
representative of American Muslims or in any way allowing yourselves to 
think that ``American Muslims'' think homogeneously on anything.
    With that caveat, many mosques do teach an Islam that is spiritual 
patriotic and not in conflict with America. But there are also many 
that are transmitting ideas that are Islamist and push Muslims down 
that pathway toward intoxication and possible violent radicalization. 
Let's be frank. The example I gave earlier is not a unique one. Imam 
Anwar Awlaki did not become a rabid jihadist overnight and we forget 
that for years he had been preaching in mosques from Denver, to San 
Diego to Northern Virginia. We should be looking at how to counter his 
words and actions back then not just now. His own process of 
radicalization did not occur in a vacuum. He may now be a radicalizer 
but before he became that he must have been radicalized by a continuum 
of an ideology.
    So rather than foster a climate of transparency that Islam is an 
open welcome religion whose prayer halls are open to everyone, our 
sermons should all be published publicly in the spirit of transparency, 
reform, and modernization instead these groups sue you, sue the 
Government, sue airlines, and even try to sue passengers who simply see 
something or say something. One of the Phoenix imams suing US Airways 
said to CAIR in a taped audio conversation after they were removed from 
an airline, ``terrorism is not our problem, it's their problem.'' He 
was the head of the National Imams Federation.
    Yes, they are all against violence, or as you politically correctly 
call it violent extremism, but this insidious separatism of political 
Islam drives separatism and ultimately early radicalization.
    Openly Islamist parties in Egypt like the Muslim Brotherhood may 
utilize democracy as an engine of advancement but in the end their 
entire lens for governance is based upon ``Islamization'' and slow 
advancement of Islamic legalisms and evangelism rather than reform or 
learning from American foundational ideals and our Establishment 
Clause. Again this is all the same diagnosis. So when you look at some 
of the ``Islamic'' institutions, understanding their original 
foundational inspiration for Muslim evangelism and its funding is 
essential.
    Their funding matters--because it usually comes with ideological 
strings. Even if they no longer take foreign funding, after planting 
the tree it still produces toxic fruit. According to former CIA 
director R. James Woolsey, the Saudis have spent nearly $90 billion 
spreading their ideology around the globe since the 1970s. According to 
scholars such as Gilles Kepel, Wahhabism, the fundamentalist militant 
Saudi Islamist ideology, gained considerable influence among Muslims 
following the dramatic increase of the price of oil in the 1970s. The 
Saudi government began to spend tens of billions of dollars throughout 
the Islamic world to promote Wahhabism, often referred to as ``petro-
Islam.'' The Saudis themselves have acknowledged donations to many 
mosques in the United States. There have documented donations to major 
mosques in Boston, Los Angeles, Cincinnati, Denver Washington, DC, 
Northern Virginia, San Diego, and new York City to name a few. The 
North American Islamic Trust (NAIT) is a non-profit 501(C)3 
organization that from its own documents admits to holding the deed to 
over 300 properties for mosques and Islamic schools. While it claims to 
not administer these institutions, it admits to support and advise them 
regarding their operation in conformity with the Shari'ah (Appendix 
10). NAIT's initial funding was provided by significant donations from 
petro dollars.
    In addition to some mosques, the ideological infrastructure of some 
American imams in positions of significant leadership most likely 
contributes to early radicalization. In the United States for example, 
a major if not the major arm of ``legal Islam'' is led by the Assembly 
of Muslim Jurists of America. I've attached their lists of members and 
experts who make up their network. While they have slowly massaged 
their ideas as some of us have exposed them, their fatwas (religious 
legal opinions) speak for themselves. I have attached a few of the 
thousands of rulings at their website which they place for young 
American Muslims to read. Some endorse harsh penalties for apostasy, 
confusing negativity towards citizenship, and other malignant 
interpretations of Islamic law incompatible with this Nation.
    I am very confident that radicals like Nidal Hasan were influenced 
in their path toward radicalization by some of these separatist Muslim 
beliefs being propagandized on websites and in some mosques. This will 
not be repaired by simply well-intended outreach of law enforcement. 
There needs to be a campaign toward a Muslim-led reorientation about 
what core ideas America stands for and an ideological abandonment of 
the collectivization of Muslims as a political ``ummah'' (nation state 
or legal unit). The current majority of Muslim organizations have yet 
to declare such a campaign. In fact as the FBI documented in their 
letter to CAIR April 28, 2009 where they state in light of evidence 
from the Holy Land Foundation terror financing trial, ``The FBI 
suspended all formal contacts between CAIR and the FBI.'' (Appendix 7)
    We need a solutions-oriented paradigm in this Nation to address the 
radicalization problem. That paradigm needs to be Muslim-led which will 
melt away inappropriate fear of Muslims. It needs, as Prime Minister 
Cameron stated a forward, ``muscular liberalism'' Our Muslim Liberty 
Project I believe is just one of those foundational solutions that can 
inoculate youth for a lifetime against such radicalization. It teaches 
them that the greatness of America is at its core a protection of every 
individual blind to faith, race, ethnic origin under God with 
unalienable rights. This is not under any singular faith but under God. 
This is very different from the Islamist mantra of an Islamo-centric 
government, constitution, and society.
    Once Muslim youth can dismiss or reject the Islamic state and 
identify at their depths of their soul with the American legal system 
that will be the only inoculation against radicalization. Until all of 
you, and all of us as Muslim families understand that ideology, we will 
never make headway against radicalization and any headway we make 
against the symptom of violent acts or cells will be illusory. This 
society and its ideological foundations need to be ours at our core as 
Muslims. That needs Islamic reform against Islamism (political Islam). 
We need Muslims writing texts about the Establishment Clause, anti-
Wahhabi, anti-salafi, and for a pious Islam that separates mosque and 
state.
    I actually do not want you, our Government solving this for us. I 
want us, Muslims to solve this but there has been no drive, no 
resources, no political will to do so. You shouldn't do it, but you can 
drive it and give us a long overdue platform. Without that reform there 
will always be an antagonism for the identity of Muslims between 
political Islam and our secular constitutional republic based in 
liberalism. Our Muslim Liberty Project instills in young Muslims these 
values of liberalism, self-critique, and empowerment to challenge imams 
and clerics who tell them liberalism is not Islam. It teaches them to 
internalize the ideas of the Enlightenment without losing their 
personal Islamic relationship with God, their devotionalism, and 
spirituality.
    This is not about Muslim civil rights. We must protect Muslims like 
all faiths. Are we that dysfunctional as a Nation that we cannot have 
healthy discussions about a religion and pathways within it toward 
radicalization versus pathways toward modernity and America?
    We have got to be functional enough as a Nation to be able walk 
back Muslim radicalization without labeling all Muslims and fostering a 
climate that increases fear of Muslims. Our founding fathers had 
healthy critical debates about religious diversity within Christianity 
and it built this great Nation. We should be able to do the same. As 
for Muslims that repel this honest debate because they fear 
stigmatization, they have little faith in our National maturity to deal 
with political Islam while empowering reformist Muslims or they live in 
a culture of denial like the end-stage alcoholics and their enablers.
    Defining the Muslim identity as an Islamist, a salafist, a 
jihadist, or a wahhabist can no longer be acceptable to a moderate 
Muslim at home with American liberty. We Muslims must step away from 
history and redefine the moderate Muslim to our youth as someone who 
embraces Islam and liberty. The future of American Security depends 
upon Muslims mustering the courage to dissect the Islamic ideas that 
fuel volatile separatism from a modern Islam that we want to leave our 
children.
    Our Nation's attempts at counter-radicalization have proven so far 
ineffective because it has lacked a strategy and a forward ideology 
into Muslim communities. We have been so fixated on preventing the next 
attack that we have neglected to develop the tools necessary to defeat 
the ideology that drives the attack. It is malpractice for us to 
believe that by eschewing violence we solve the problem. As we have 
watched the long overdue changes in the Middle East, at long last the 
threat that the Muslim Brotherhood poses to security around the world 
has been brought to the forefront. The Brotherhood is the leading 
Islamist organization in the world. It has also over the past century 
hatched many of the most violent Islamist organizations in the world. 
We have not transitioned this newly understood concern to the 
operations of the Brotherhood and like-minded organizations and leaders 
within the United States. Our domestic and foreign policy should be the 
same on this issue.
    Muslims are long overdue for an ideological counter-jihad. Please 
help me wake up our communities to that American and Muslim 
responsibility we have.

                               Appendix 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Appendix 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Appendix 3\1\
---------------------------------------------------------------------------
    \1\ Included as Appendix VII of witness' response to written 
questions, located in Appendix II of this document.
---------------------------------------------------------------------------
                             Appendix 4\2\
---------------------------------------------------------------------------
    \2\ Document has been retained in committee files.
---------------------------------------------------------------------------
                             Appendix 5\3\
---------------------------------------------------------------------------
    \3\ Included as Appendix II of witness' response to written 
questions, located in Appendix II of this document.
---------------------------------------------------------------------------
                               Appendix 6

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Appendix 7

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             Appendix 8\4\
---------------------------------------------------------------------------
    \4\ Included as Appendix I of witness' response to written 
questions, located in Appendix II of this document.
---------------------------------------------------------------------------
                             Appendix 9\5\
---------------------------------------------------------------------------
    \5\ Included as Appendix IV of witness' response to written 
questions, located in Appendix II of this document.
---------------------------------------------------------------------------
                              Appendix 10

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman King. Our next witness is Melvin Bledsoe, the 
father of Carlos Leon Bledsoe, also known as Abdul Hakim 
Mujahid Muhammad. Mr. Bledsoe is recognized for 5 minutes, and 
if you could, Mr. Bledsoe, try to keep your remarks within 5 
minutes or close to that.
    I am pleased to recognize Mr. Bledsoe.

          STATEMENT OF MELVIN BLEDSOE, PRIVATE CITIZEN

    Mr. Bledsoe. Thank you very much for allowing me to come 
here today and to tell the country what happened to my son.
    This hearing today is extremely important to begin the 
discussion about the issues of Islamic radicalization in 
America. My sincere hope is that this committee can somehow 
address the issue in a meaningful, productive way.
    First, I would like to express my deepest sympathy to the 
family of Private William Long and to the wounded soldier, 
Quinton Ezeagwula. I would like to talk about those complicit 
in Private Long's murder, the Islamic radicals who programmed 
and trained my son Carlos to kill.
    I want to tell the American people and the world what 
happened to my son. We sent him off to college at Tennessee 
State University in Nashville, Tennessee, in the fall of 2003. 
Our dreams about his future ended up in a nightmare.
    Carlos is my only son. He grew up in Memphis, Tennessee. My 
wife and I operated a tour company in Memphis, Tennessee, and 
Carlos started helping out with the family business at the age 
of 8. He loved to talk to the traveling public and he had a lot 
of fun interacting with the customers.
    After graduating from high school, Carlos wanted to get a 
degree in business. We thought perhaps he would come back to 
Memphis to run the business and give my wife and I an early 
retirement.
    After the fall of 2005, his sophomore year in Nashville, 
Carlos came home that Christmas for the holiday. We were 
sitting around the family room, Carlos' only sister Monica, her 
husband, and I, having a normal conversation about general 
things in life. But at a certain point Carlos and his brother-
in-law, Terrell, got into a heated conversation about Muslim 
religion. Then and later we felt like Carlos' personality 
changed when we spoke about Islam. We thought maybe he had some 
Muslim friends and was offended by the comments.
    The next time Carlos came home, we saw another side of him 
that we didn't see before. During the night, he took off all 
the pictures from the walls of the bedroom where he slept. He 
even took off the picture of Dr. Martin Luther King, Jr., off 
the wall. We asked Carlos, What is going on with you?
    He replied that he is now a new convert to Islam and that 
everything he does from now on will be to honor Allah. We got 
very concerned. While Carlos was growing up, Dr. Martin Luther 
King's picture hung on his bedroom wall, but now he is treating 
that picture as if he was nobody, Dr. King was nobody to him. 
We asked Carlos not to take the Dr. King picture off the wall. 
He took it off the wall anyway.
    This became a big concern to us. We went to Nashville to 
visit him more. We wanted to learn more about who was he 
hanging with and what was really going on with Carlos. We 
discovered that Carlos had dropped out of school at the 
beginning of the 2005 semester. He was working a temporary job. 
He had gotten a dog while in college. Now we found out that he 
turned the dog loose in the woods because he was told that 
Muslims considered dogs a dirty creature. I really couldn't 
understand how he could do that, because Carlos grew up with 
dogs in the house ever since he was 5 years old. So my wife and 
I thought that there was something or someone is getting into 
his head and changing his way of thinking.
    It had gotten to the point where he had no interest in 
coming home, even for the holidays. All this was part of his 
brainwashing, changing his thinking a little bit at a time. He 
had a job in Nashville with some Muslims who would tell him, 
according to Islamic law, his employer had to let him pray 
certain times the day, regardless of what was going on at his 
job. As a business owner I told Carlos it would be very 
difficult for employers to do this for all his employees.
    At this time at the next step on his progress of 
radicalization, Carlos was convinced to change his name. He 
chose the name Abdul Hakim Muhammad. At this point his culture 
was no longer important to him, only the Islamic cultural 
mattered.
    Some Muslim leader had taken advantage of my son. But he is 
not the only one being taken advantage of. This is an on-going 
thing in Nashville and many others cities in America.
    In Nashville, Carlos was captured by people best described 
as ``hunters.'' He was manipulated and lied to. That is how he 
made his way to Yemen. Carlos was hoping to go there for a 
chance to cross over to Saudi Arabia and visit Mecca. He was 
taught that all the true Muslims must do this one time in life. 
He was taught that he would get to walk on the grounds where 
the Prophet Muhammad walked and be able to travel the area.
    But these hunters had other plans for him. They set him up, 
telling him he could teach English at a British school in Aden, 
south of Yemen. The school turned out to be a front, and Carlos 
ended up in a training camp run by terrorists.
    Carlos joined with the Yemini extremists, facilitated by 
their American counterpart in Nashville. We have since 
discovered that that former imam of a Nashville mosque, the Al 
Faroog Mosque, wrote the recommendation letter that Carlos 
needed for the school in Yemen. We also discovered that school 
functioned as the intake front for the radicalization and 
training of Westerners for jihad.
    From what I understand, the FBI had been following Carlos 
since before he left Nashville and continued to follow him 
after he came back from Yemen. When Carlos was arrested for 
overstaying his visa in October 2008, he was interviewed by the 
FBI agent based in Nashville even before the U.S. Embassy was 
alerted about his arrest.
    According to the Embassy in Seni, the FBI was alarmed about 
what they learned from Carlos. We wish that they could have 
told us, his family, about what they learned. If we knew how 
serious his extremism had become, we could have put in every 
effort to prevent the tragedy in Arkansas from even happening.
    When my son was arrested in Yemen, my family cried out for 
help to bring my son back to America from the American 
Government. We got in touch with the United States Embassy and 
the State Department. We also asked for help from our U.S. 
Representative Steve Cohen's office and the FBI Special Agent 
Greg Thomason, who had been tracking my son since Nashville.
    After our son was finally released and brought home to us, 
no one said anything to us about what might have happened in 
Yemen or what they may have learned that so alarmed the FBI who 
interrogated Carlos while he was in the custody of Yemen's 
political security organization.
    Carlos' experience in Yemen's political jail was the final 
stage of his radicalization. He was in there with true evil-
doers, hard-core al-Qaeda members who convinced him to get 
revenge on America.
    Something is wrong with the Muslim leaders in Nashville. 
What happened to Carlos at those Nashville mosques isn't 
normal. I have other family members who are Muslims. They are 
moderate, peaceful, law-abiding people who have been Muslim for 
many years and are not radicalized.
    I also have several uncles and brothers in the military. 
Our family has fought in every war since the Civil War. I have 
nephews who are serving in Afghanistan as I speak, fighting for 
democracy and freedom for all Americans.
    It seems to be that Americans are sitting around doing 
nothing about extremists, radical extremists, as if Carlos' 
story and other stories at these hearings aren't true. This is 
a big elephant in the room. Our society continues not to see 
it. This wrong is caused by political correctness. You can even 
call it political fear, fear of stepping on a special minority 
population's toes, even as a segment of that population wants 
to stamp out America and everything we stand for.
    I must say that we are losing American babies. Our children 
are in danger. This country must stand up and do something 
about the problem. Yes, my son's tragic story you are hearing 
about today. But tomorrow it could be your son, your daughter. 
It might be an African American child that they went after in 
Nashville. Tomorrow the victim might have blond hair, blue 
eyes. One thing for sure, it will happen again.
    Chairman King. Mr. Bledsoe, just finish up in the next 10 
seconds, please.
    Mr. Bledsoe. We must stop these extremist invaders from 
raping the minds of American citizens. Carlos grew up a happy-
go-lucky kid. He always had a big smile on his face, loved to 
crack a joke or two. Everyone liked him. He loved to play team 
sports like basketball and football. He loved swimming and 
dancing and listening to music.
    Today we have two families that have been destroyed. This 
could have been prevented. I would like to see something change 
so that no other family in this great country of ours has to go 
through what our families are facing today.
    God help us. God help us.
    Chairman King. Thank you, Mr. Bledsoe.
    [The statement of Mr. Bledsoe follows:]

                  Prepared Statement of Melvin Bledsoe
                             March 10, 2011

    Thank you very much for allowing me to come here and tell the 
country what happened to my son. This hearing today is extremely 
important to begin the discussion about the issue of Islamic 
radicalization in America and my hope is that this committee can 
somehow address this issue in a meaningful, productive way.
    First, I would like to express my deepest sympathy to the family of 
Private William Long, and to the wounded soldier, Quinton Ezeagwula. I 
would like to talk about those complicit in Private Long's murder--the 
Islamic radicals who programmed and trained my son Carlos to kill.
    I want to tell the American people and the world what happened to 
my son. We sent him off to college at Tennessee State University in 
Nashville, Tennessee in the fall of 2003. Our dreams about his future 
ended up in a nightmare.
    Carlos is my only son. He grew up in Memphis, Tennessee. My wife 
and I operate a tour company in Memphis, Tennessee and Carlos started 
helping out with the family business at the age of 8. He loved talking 
to the traveling public; and he had a lot of fun interacting with the 
customers.
    After graduating from high school, he wanted to get a degree in 
Business Administration. We thought perhaps he would come back to 
Memphis to run the business and give my wife and me early retirement.
    After the fall of 2005--his sophomore fall in Nashville--Carlos 
came home that Christmas for the holidays.
    We were sitting around in the family room, Carlos's only sister, 
Monica, her husband, and I, having a normal conversation about life in 
general. But at a certain point, Carlos and his brother-in-law Terrell 
got into a heated conversation about the Muslim religion. Then and 
later, we felt like Carlos's personality changed when we spoke about 
Islam. We thought maybe he had some Muslim friends in college and was 
offended by our comments.
    The next time Carlos came home, we saw another side of him that we 
hadn't seen before. During the night, he took down all the pictures 
from the walls in the bedroom where he slept. He even took Dr. Martin 
Luther King, Jr. picture off the wall. We asked Carlos: ``What is going 
on with you?''
    He replied that he is now a new convert to Islam and that 
everything he does from now on will be to honor Allah. We got very 
concerned: While he was growing up, Dr. Martin Luther King, Jr's 
picture had always hung on his bedroom wall; but now treated the 
picture as if Dr. King was nobody to him.
    We asked Carlos not to take Dr. King's picture off the wall, but he 
took it off the wall anyway. This became a big concern to us. We went 
to visit him in Nashville because we wanted to learn more about what 
was really going on with Carlos.
    We discovered that Carlos had dropped out of school, at the 
beginning of the 2005 fall semester. He was working a temporary job. He 
had gotten a dog while in college, and now we found out that he had 
turned the dog loose in the woods because he was told that Muslims 
consider dogs dirty creatures. I really couldn't understand how he 
could do that, because Carlos grew up with a dog in the house since he 
was 5 years old.
    So my wife and I thought that there something or someone was 
getting in his head and changing the way he thinks. It had gotten to 
the point where he had no interest in coming home, even for the 
holidays.
    All of this was part of brainwashing him, and changing his thinking 
a little bit at a time.
    He had a job in Nashville, together with some Muslims, who would 
tell him that according to Islamic law, his employer had to let him 
pray at certain times of the day, regardless of what was going on at 
the job. As a business owner, I told Carlos that it would be very 
difficult for an employer to do this for all of his employees.
    As the next step on his process of radicalization, Carlos was 
convinced to change his name. He chose the name Abdulhakim Muhammad. At 
this point, his culture was no longer important to him, only the 
Islamic culture mattered.
    Some Muslim leaders had taken advantage of my son. But he's not the 
only one being taken advantage of: This is going on in Nashville and in 
many other cities in America.
    In Nashville, Carlos was captured by people best described as 
hunters. He was manipulated and lied to. That's how he made his way to 
Yemen. Carlos was hoping to go there for a chance to cross over to 
Saudi Arabia and visit Mecca, as he was taught all true Muslims must do 
at one time in their life. He was taught that he would get to walk on 
the ground where Prophet Muhammad walked be able to travel around the 
area. But these hunters had other plans for him. They set him up, 
telling him that he could teach English at a British School in Aden in 
South Yemen, This school turned out to be a front and Carlos ended up 
in a training camp run by terrorists.
    Carlos's joining in with Yemeni extremists was facilitated by their 
American counterparts in Nashville. We have since discovered that the 
former Imam of a Nashville mosque, the Al Farooq Mosque, wrote the 
recommendation letter Carlos needed for the school in Yemen. We also 
discovered that the school functions as an intake front for 
radicalizing and training Westerners for Jihad.
    From what I understand, the FBI had been following Carlos since 
before he left Nashville and continued to do so after he came back from 
Yemen. When Carlos was arrested for overstaying his visa in October of 
2008, he was interviewed by an FBI agent based in Nashville even before 
the U.S. Embassy was alerted about the arrest. According to the 
Embassy, the FBI was alarmed about what they learned from Carlos. We 
wish they could have told us--his family--about what they learned. If 
we knew how serious his extremism had become, we could have put in 
every effort to prevent the tragedy in Arkansas from happening.
    When my son was arrested in Yemen, my family cried out for help in 
bringing our son back to America from our Government. We got in touch 
with the U.S. Embassy and the State Department. We also asked for help 
from our U.S. Representative, Steve Cohen's office, and from FBI 
Special Agent Greg Thomason, who had been tracking my son since 
Nashville.
    After our son was finally released and brought home to us. No one 
said anything to us about what might have happened to him in Yemen or 
what they may have learned that so alarmed the FBI agent who 
interrogated Carlos while he was in the custody of Yemen's Political 
Security Organization.
    Carlos's experience in Yemeni political jail was the final stage of 
his radicalization. He was in there with true evil-doers--hard-core al-
Qaeda members who convinced him to get revenge on America.
    Something is wrong with the Muslim leadership in Nashville. What 
happened to Carlos at those Nashville mosques isn't normal. I have 
other family members who are Muslims, and they are modern, peaceful, 
law-abiding people, who have been Muslim for many years and are not 
radicalized.
    I also have several uncles and brothers in the military. Our family 
has fought for the United States in every war since the Civil War. I 
have nephews who are currently in Afghanistan, as I speak, fighting for 
democracy and freedom for all Americans.
    It seems to me that the American people are sitting around and 
doing nothing about Islamic extremism, as if Carlos's story and the 
other stories told at these hearings aren't true. There is a big 
elephant in the room, but our society continues not to see it.
    This wrong is caused by political correctness. You can even call it 
political fear--yes, fear. Fear of stepping on a special minority 
population's toes, even as a segment of that population wants to stamp 
out America and everything we stand for.
    I must say that we are losing American babies--our children are in 
danger. This country must stand up and do something about this problem. 
Yes, it's my son's tragic story you're hearing about today, but 
tomorrow it could be your son or your daughter. It might be an African-
American child that they went after in Nashville, but tomorrow their 
victim might have blonde hair and blue eyes. One thing is for sure, it 
will happen again.
    We must stop these extremist invaders from raping the minds of 
American citizens on American soil. Here in America today, there are 
people with radical Islamic political views who are organizing with one 
goal in mind: To convert our citizens and to turn them against the non-
believers. This is a big problem now in Nashville, on college campuses 
and in the nearby area. Nashville has become a hotbed for radical 
Islamic recruiting.
    Carlos grew up a happy-go-lucky kid. He always had a big smile on 
his face, and loved to crack a joke or two. Everyone liked him. He 
loved to play team sports like basketball and football. He loved 
swimming, dancing, and listening to music.
    Today we have two families that have been destroyed. This could 
have been prevented.
    I would like to see something change so that no other family in 
this great country of ours has to go through what our family is facing 
now.
    GOD HELP US! GOD HELP US!

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman King. Our next witness is Abdirizak Bihi. He is 
the Director of Somali Education and Social Advocacy Center in 
Minneapolis, Minnesota. He is the uncle of Burhan Hassan.
    Mr. Bihi, I would ask you to try to confine your remarks to 
5 minutes or slightly more.

  STATEMENT OF ABDIRIZAK BIHI, DIRECTOR, SOMALI EDUCATION AND 
                     SOCIAL ADVOCACY CENTER

    Mr. Bihi. Chairman King, I would like to have a few more 
minutes, because I have an accent.
    First of all, I want to say thank you to Chairman King and 
Members of the committee for allowing me to speak on behalf of 
the Muslim Somali American community today. I also want to 
thank the Somali American community for helping us, the 
families of the missing children, our youth, to stand up 
against the radicalization of our youth.
    I want to tell you why I am here today and how important it 
is for me. I am here because of my nephew, Burhan Hassan; not 
only him, between 20 and 40 others who are Somali Americans in 
the State of Minnesota that have been brainwashed, radicalized, 
by members of our community and lured back home into a burning 
inferno in the civil war.
    I want to talk about my nephew. My nephew and his family, 
my sister--I love my sister and her family--was among about 
100,000 or so who fled from the civil war into neighboring 
Kenya where in the camps there was no order, but the rape, mass 
killing, and disorder were the order of the day. Everybody 
begged and longed for the day they would be restored by the 
international community.
    Fortunately, my sister and her family, she was one of the 
luckiest ones that made it to the shores of the United States 
of America. My nephew immediately adapted to this land and 
became an A student. He was loved by the community.
    His mom and I and everybody else, the best thing for us was 
to put him in a Koranic school, and that was the mosque, the 
Abubakr As-Sadiqque. We invested in this center all our money 
to make it bigger, so it could help our youth, instead of being 
on the danger of the streets and to be influenced into bad 
behavior. We wanted our children to succeed.
    Unfortunately, on the historical night of November 4, 2008, 
November 4, my sister kept calling the family and missed her 
son. We kept calling everybody. We finally ended up with other 
families. We came to the end that our kids were lured back into 
Somalia. We went to the mosque and the center and asked for 
answers. Everybody promised they will meet with us.
    The other day we were waiting for the imam and the other 
leaders. All we did was saw up in the Somali TV and see them, 
instead of helping us find our children, condemning us as tools 
being used to destroy our own mosque and religion. That was 
more hurtful than missing our children, because now we have to 
deal within our bigger community as tools to destroy our faith 
and our community.
    That set the stage for 2 years of struggle, and the 
battlefield was the Somali American community. Whoever wins the 
community and convinces the community that they are not missing 
children, but liars like me and my family and 20 other single 
moms who lost their children.
    Well, after 2 years of demonstrations, educating, fighting 
with basically our personal money, and efforts of sleeping 3 
hours a night, 2\1/2\ years, we won the hearts and minds of the 
community. But in the middle of the saga, though we never get 
help, we never get help from our leaders, from our 
organizations, the big Islamic organizations, but in the middle 
of our winning, where the community started to sympathize with 
us, what happened to us? What happened to our engineers, 
doctors, lawyers? My nephew wanted to go to Harvard and become 
a lawyer or a doctor, just like you.
    With all those things, then big organizations came to our 
community that we have never seen. CAIR, such a beautiful name. 
Islamic organizations. They stood with the mosque center, 
organizations that hurt us so much more than our kids' missing 
hurt, called us tools. The center we built, the people we gave 
millions to, our goal, our lives, our imams we trust. I want to 
warn you, it is only one center out of 40-something centers, 
and that is where all the kids are missing. All of them.
    This organization comes in, agrees with other leaders too 
that we are liars, we have a clan, tribal problems. I don't 
know where that came from. We have no clan, tribe, or language 
problems. We are one community. We have been hurt by other 
Muslims in our community. We have been denied to stand up.
    We had to do three demonstrations on the street, in the 
rain, in the snow, in Minnesota--I know you know Minnesota is 
cold--against an Islamic organization that is claiming in the 
House of Congress they are so powerful that they are helping 
us, that we are tools to be used by Republicans, by Democrats, 
by liberals, by neoconservatives, by Nazis, by Jews, by Sikhs.
    We have been Muslims since Muhammad, our prophet. I want to 
tell you, my community, the Somalia American community, is the 
most beautiful community in the world, less none. They are 99.9 
percent good American citizens that work day and night, 18 
hours, 17 hours, 7 days, to chase the American dream. They 
don't have a voice. We have been kidnapped. So have our 
children. We have been kidnapped by leadership that we have 
never seen.
    Chairman King. Mr. Bihi, try to finish in 30 or 40 seconds, 
please.
    Mr. Bihi. I will do that. I want to conclude. For 2\1/2\ 
years I have not done anything else. The Somali community wants 
to be heard, and I thank you, Mr. King, Congressman King, and 
other Members of the committee, for getting me here, for 
parents like me. My community wants to be heard.
    I want to ask to you look at and open an investigation as 
to what is happening in my community. We are isolated by 
Islamic organizations and leaders who support them. Talk to the 
common Jane and Muhammad and Halim on the street, of close to 
100,000 members of my community. I want to tell you, 85 percent 
of our wonderful youth do not have viable employment, are not 
engaged in constructive programs. If we stand and speak up for 
that, we are labeled as hurting instead of being supportive.
    We need your support. We need a voice to speak up. We have 
been hurt, and we are not going away.
    What I want to say last----
    Chairman King. I ask the audience to refrain from any 
response, please.
    Mr. Bihi. What I want to say last is it is important to 
mention that the Somali community in fact abhors and hates al-
Shabaab. Al-Shabaab as we speak is killing thousands of people 
in the city of Mogadishu, and the world must understand that 
there is no government in Somalia. This problem will continue.
    My last statement is, because I never had this opportunity, 
the challenge is that the community is lacking strong, viable, 
independent----
    Chairman King. Mr. Bihi, actually your time has expired.
    [The statement of Mr. Bihi follows:]

                  Prepared Statement of Abdirizak Bihi
                             March 10, 2011

    First, I want to say thank you to Chairman King and Members of the 
committee for allowing me to speak on behalf of the Muslim Somali 
American community today. I also want to thank the Somali American 
community for helping us, the families of the missing children, to 
stand up against the radicalization of our youth. And lastly, I want to 
thank the people of the State of Minnesota for helping the Somali 
American community to grow and flourish in the State of Minnesota.
    Many Somali American families fled from a burning civil war to the 
refugee camps in neighboring Kenya where killings, gang rape, 
starvation, and civilian mass murdering was common. They waited in 
those camps for years and years to be rescued by the international 
community.
    Many of them, including my sister and her son, Burhan Hassan, were 
fortunate to have made it safely to the shores of the United States of 
America. These lucky families were very good at adapting to life in the 
United States. They have found not only peace and safety, but many 
other valuable opportunities such as employment and free first class 
education for their children. They also found the ability to build 
their own communities and start their own businesses, such as Somali 
malls, community organizations, as well as their own mosques to freely 
practice their faith.
    Burhan Hassan, my nephew, started to adapt to life in the United 
States so quickly that he picked up the language and became an A 
student as soon as he started in school. Burhan was very happy with his 
life here in a new country. Since we are Muslim, my sister enrolled my 
nephew to the local mosque, Abubakr As-Sadiqque (formerly known as the 
Shafici mosque) in the Riverside neighborhood of Minneapolis, where he 
learned his religion well. We were very pleased with his achievements, 
especially as many of his peers were not doing well. The reason for 
this was that there are not that many resources for the youth in the 
community, except for the local mosques.
    The community has contributed millions of dollars from their meager 
resources to enlarge and expand the Abubakr center so it could do more 
youth services since there were not other useful and productive 
alternative youth resources for the Somali-American community. We in 
the Somali-American Muslim community hold mosque Imams and leaders in 
high regard, and trust them blindly with everything, including our 
children, since they are the leaders of our faith--a faith of peace, a 
faith that stands for submission to God. We the families in the Somali-
American community sought a refuge for our children in the Abubakr 
center from the bad influences that lead to bad choices on the streets 
of our neighborhoods. We never thought we could be hurt by the very 
institution that we trusted with our children. When we realized that 
our children were recruited and lured away from us into the burning 
country that we had fled from while they were in their infancy, we 
would never have thought that possibly to have existed.
    This youth had never grown up in Somalia or knew Somali, nor were 
they ever discuss Somali or American politics. Their passion was 
sports, education, and electronic gadgets. They all were from single 
mom households and all of the recruited young men belonged to one 
center. That is Abubakr As Saddique. It is a very important that the 
cost to travel Somalia from Minneapolis is over $3,000--none of the 
youth worked.
    All those brainwashed and recruited young men--some of whom were 
killed--were smart, bright future ``embodiments of the community.'' 
They were not only very loved ones but most of them were ``the men'' of 
their single mom households. For example the case of Mohamed Hassan. He 
was in the University of Minnesota. He was the caretaker of the 90-yr-
old grandmother who raised him, fled with him so he could survive and 
have a future. Before the radicals brainwashed and lured him back into 
the Somali inferno, he was taking care of his aging grandmother. He 
would administer her a dozen medications and take her to her doctor's 
appointment. Between classes at the University, he would come home and 
feed his grandmother. So was the case for Jamal Bana, another smart 
student that was taking care of his siblings, mom, and his bed-ridden 
dad.
    Another kid was the only driver of the family car that after the 
radicals took him to Somalia, nobody else in the family could drive the 
car to get groceries, pick the younger ones from school or dugsi. Or 
when the car was cited to be moved for street snow removal, none in the 
family could save the first car and the only one from being towed and 
taken forever.
    Burhan Hassan came to United States at the age of four from the 
refugee camps and never saw Somalia too. He was highly achieving 
Roosevelt High school senior who was dreaming to go to Harvard to 
become a doctor or a lawyer just like many of you. Burhan Hassan had 
never saw or met his dad because his dad was killed while he was a few 
months old.
    Looking back, my sister and I realized (along with the other 
mothers) that these young men had been behaving very strangely within 
the last 3 or 4 months before they went missing, spending most of their 
time at the mosque, even sleeping overnight and during the weekends 
there. They appeared pensive and spent hours alone thinking to 
themselves, and wouldn't leave the mosque. We would never have guessed 
that our kids had been brainwashed already and recruited to fight for 
al-Shabaab in a jihadist war which was killing other innocent Muslim 
Somalis thousands of miles away.
    On November 4, 2008, everybody in our community was engaged with 
the election results. When my sister started to call me several times 
during the evening to notify me that Burhan had not come home, I 
dismissed her and told her he was probably getting the vote out 
somewhere, or probably somewhere in the mosque. My sister awoke with 
her motherly instinct at around 2 a.m., and searched his room, to find 
his laptop, important clothing, and locked-up passport all gone. She 
summoned the whole family the next morning, and went to the local 
police station. We made phone calls to the local hospitals, friends, 
family members, and we found nothing. My sister met two other families 
in the local police station, and one of the other family members had an 
itinerary that one of the kids had left for his uncle to see, so the 
families then decided to go to the airport to see if they could find 
someone to help stop the kids in Europe. Nothing was possible, and we 
were frustrated. We went to the mosque and failed to get answers. We 
were given promises that the imams would come and meet with the 
families, and do everything they could to help find out what happened 
to ``their sons,'' but that never happened. We kept waiting for the 
imams to meet with us and give us an explanation of what happened to 
our kids, since they were the ones who raised our kids.
    In the mean time, we immediately approached the local law 
enforcement, mainly the FBI, and told them that our kids were missing 
and that we had an itinerary that showed that they were going to 
Somalia, and strongly pleaded with them to urgently try to stop our 
children from reaching Somalia and find out what happened to them.
    After a week of waiting without a word from mosque leadership 
except promises to help, suddenly we saw them on Somali TV blaming us, 
the anxious families, for lying about the mosque, and said we intended 
to destroy the mosque. They said there were no young men missing from 
the mosques, and asked the community to urgently stop us from doing 
harm to the Muslim community. The Imam Sheikh Abdirahman Omar also went 
on Somali TV and said on behalf of the mosque leadership that the only 
young men they see who are likely to disappear are ex-gang members and 
drug addicts, that they had tried and failed to rehabilitate during the 
summertime. Those he was referring to are our children!
    We in the families were at that time in a state of shock that words 
cannot express. We were in a state of confusion and fear, trying to 
locate our young men, not only locally but internationally. We were 
awaiting help from the mosque leadership, but we heard something that 
was unimaginable--a feeling which was even worse than when the kids 
disappeared. Suddenly, in a matter of days, the mosque leadership 
transformed us from victims of radicalization into pariahs of the 
community. We were on the defensive, with these single mothers (with 
cultural and language barriers) who were extremely vulnerable to all 
kinds of issues, having just lost not only their children but their 
link to society, the only men in their households who could take care 
of them.
    Burhan would periodically call his mother from Somalia. He would 
ask how she was and maybe ask for some money for glasses or other small 
needs. She would ask him how he was and try to get him to explain why 
he was there, but he would respond very cryptically. My sister became 
concerned that Burhan was being monitored.
    The last time that Burhan called was about 2 weeks before he was 
shot and killed. He told my sister that he was sick. On June 5, 2009 my 
sister got a phone call from another ``recruit'' who told my sister 
that ``Little Bashir'' was shot in the head and killed and that he had 
helped bury Burhan somewhere in the Hodan District of Mogadishu.
    The mosque leadership continued to disseminate a strong message 
that there were no children missing, rather than we the families were 
tools and being used by infidels to try and destroy the mosque. As a 
result of this, the families united and started Saturday meetings that 
included outreaching to other community members that also had missing 
children. We learned from the mosque leadership's tactics used to 
defame us that the community was the targeted audience, and we framed 
our outreach strategy to educate the community about the realities of 
what was happening to us. An intense outreach from both the mosque 
leadership and the family members started to unfold in the Somali 
American community, where we were trying to convince the community that 
our children were taken, that we weren't trying to destroy our own 
mosques (that we built), and that nobody can destroy a mosque. At the 
same time, the mosque leadership was sending the message to the 
families that had not yet spoken out, that:
  <bullet> if they speak up about their missing loved ones will end up 
        in Guantanamo because nobody cares about Muslims;
  <bullet> they have a better chance of getting their children back 
        into the country if they remain silent;
  <bullet> if they speak up, they will be morally responsible for 
        having killed all the Muslims and destroyed all the mosques.
    With that going on, we the families (on top of the emotional pain 
of missing our children), had to spend day and night outreaching to the 
community to convince them of the facts and the reality that we faced. 
We had to warn other families to pay attention with what was going on 
with their own children, and dared to continue to stand up for all the 
single mothers (which comprises a large portion of our community). With 
all those efforts which continued for months and years, we were alone 
in our efforts.
    In the mean time, the mosque leadership was always in the mode of 
``double-speak,'' claiming to the larger community in English that they 
were victims of our efforts to find our ``fake'' missing children and 
creating open house events in the mosque where big organizations such 
as the Council on American-Islamic Relations (CAIR) would stand beside 
the mosque leaders and support them blindly, without having ever met 
with the families of the missing Somali youths (even though we had 
requested several times to meet with CAIR, but never did as we were 
left without a response).
    On the other hand, in Somali language, the mosque leaders (led by 
the imam) would threaten and intimidate us, calling us all sorts of 
names during Friday's sermons just because we had spoken publicly about 
the missing Somali kids and had refused to remain quiet.
    For several months, as we (the families of the missing youth) 
pursued a constant outreach to the Somali American Muslim community to 
convince them that our children were really missing, we had finally 
gained some momentum in our efforts. As a result, the community 
sympathized with us and we were getting more information as to what had 
happened to our children. Just as we continued to make progress in 
laying out the realities to our community, powerful organizations such 
as CAIR stepped into our community and stifled whatever progress we had 
made by trying to tell our Somali American community not to cooperate 
with law enforcement. CAIR held meetings for some members of the 
community and told them not to talk to the FBI, which was a slap in the 
face for the Somali American Muslim mothers who were knocking on doors 
day and night with pictures of their missing children and asking for 
the community to talk to law enforcement about what they know of the 
missing kids. It was a slap in the face for community activists who had 
invested time and personal resources to educate the community about 
forging a good relationship with law enforcement in order to stop the 
radicalization and recruitment of our children. We held three different 
demonstrations against CAIR, in order to get them to leave us alone so 
we can solve our community's problems, since we don't know CAIR and 
they don't speak for us. We wanted to stop them from dividing our 
community by stepping into issues that don't belong to them.
    Our outreach efforts, after a grueling 2 years, have won us the 
hearts and minds of the Somali American community to commit to stopping 
the radicalization efforts of the few extremists and radicals in our 
community. In these efforts, we have identified the Somali American 
youth's challenges and aspirations which have never been addressed, by 
identifying and engaging the vulnerable youth. In terms of the 
challenges, 85 percent of the Somali American youth who are vulnerable 
do not have viable employment and are not engaged in productive social 
programs. In the Cedar-Riverside neighborhood of Minneapolis, alone, we 
have the highest number of youth per density of land in the State of 
Minnesota, and no tangible resources for the youth. As a matter of 
fact, hundreds of millions of dollars of charitable tax credited funds 
are being invested in rehabilitating the neighborhood, but it is not 
having any positive impact on the community.
    In conclusion, it important for me to state the fact that 99.9 
percent of Muslim Somali Americans are good citizens who are very 
grateful for the opportunities they have and are very busy in chasing 
their American dream. It is also important to mention the fact that 
they abhor al-Shabaab and terrorism as much as any other American does. 
However, the challenge is that the community is lacking strong and true 
leaders that translate the real voices of the average members of the 
community. The only visible voices we hear are voices that are propped 
up by certain organizations (such as CAIR), and those organizations 
continue to deny the real facts and voices of the communities by 
claiming that no problem exists, though we continue to face problems 
such as the radicalization of our vulnerable youth, a growing trend of 
human trafficking and increasing youth violence. We regret the 
silencing and intimidation faced by leaders and activists who dare to 
speak out on the real challenges that keep our youth and community 
vulnerable to radicalization. Burying our heads in the sand will not 
make this problem go away. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman King. The next witness is Sheriff Baca. I 
understand the gentlelady, Ms. Richardson, has asked to 
recognize Sheriff Baca. Obviously, Sheriff Baca, your time will 
not be limited.
    Ms. Richardson. Thank you, Mr. Chairman.
    Sheriff Lee Baca is a former U.S. Marine. He served in law 
enforcement. He served as a law enforcement officer for 46 
years. He was elected as our Los Angeles County Sheriff in 
1998. Sheriff Lee Baca commands the largest Sheriff's 
Department in the United States, leading over 18,000 budgeted, 
sworn, and professional staff of law enforcement officers, and 
serves over 4 million people and many of the cities, two of 
which happen to in my district, both Compton and Carson. His 
jurisdiction includes 40 cities, 9 colleges, 58 superior courts 
and a local jail system housing over 20,000 prisoners.
    Sheriff Baca is a respected witness. He has been to this 
committee testifying in both 2009 and 2010 and was invited here 
by our Ranking Member, Mr. Thompson. Please join me in 
welcoming Sheriff Lee Baca.

 STATEMENT OF SHERIFF LEROY BACA, LOS ANGELES COUNTY SHERIFF'S 
                           DEPARTMENT

    Sheriff Baca. Thank you very much, Mr. Chairman. I thank 
Ranking Member Thompson and your committee for this hearing 
today. Moreover, I would like to thank Secretary Janet 
Napolitano and the Department of Homeland Security for the 
support Los Angeles has received regarding combating violent 
extremism.
    The Los Angeles County Sheriff's Department has long been a 
leader in the development of relationships with the various 
ethnic, cultural, and religious communities that thrive in the 
Los Angeles area. We have established strong bonds through 
continuing outreach and physical presence at important events 
to every community.
    Therefore, I would caution that to comment only on the 
extent of radicalization in the Muslim American community may 
be viewed as singling out a particular section of our Nation. 
This makes a false assumption that any particular religion or 
group is more prone to radicalization than others.
    For example, according to information provided by the 
Congressional Research Service, there have been 77 total terror 
plots by domestic non-Muslim perpetrators since 9/11. In 
comparison, there have been 41 total plots by both domestic and 
international Muslim perpetrators during the same period.
    Reports indicate that Muslim Americans helped foil seven of 
the last ten plots propagated by al-Qaeda within the United 
States. Evidence clearly indicates a general rise of violent 
extremism across ideologies. Therefore, we should be examining 
radicalization as an issue that affects all groups, regardless 
of religion.
    It is counterproductive to build trust when individuals or 
groups claim that Islam supports terrorism. This plays directly 
into the terrorist propaganda that the West's war on terror is 
actually a war against Islam. It is critical to build mutually 
respectful relationships with Muslim American communities in an 
endeavor to work together to protect all Americans.
    For example, as new immigrants or citizens, the vast 
majority of Muslim community members within my jurisdiction are 
fiercely proud of their American identity and display their 
patriotism on a daily basis. When I made critical outreach to 
the community after 9/11, I was overwhelmed by the number of 
Muslims who were ready and willing to connect with law 
enforcement.
    Moreover, after the 2005 transit bombings in London, the 
Muslim American Homeland Security Congress was formed in Los 
Angeles County to engage Muslim community members in our 
efforts to counter violent extremism. The Homeland Security 
Congress is comprised of leaders from the religious, business, 
professional, and academic centers of the Muslim American 
community. Moreover, it supports the efforts of our Muslim 
Community Affairs Unit made up of Arabic-speaking Muslim deputy 
sheriffs, and I might add that the Los Angeles Police 
Department has the same effort going. The Muslim American 
Homeland Security Congress provides support to our homeland 
security efforts not only in Los Angeles, but entire Southern 
California.
    According to the Institute for Homeland Security Solutions 
report, building on clues, examining successes and failures in 
detecting U.S. terrorist plots from 1999 to 2009, 40 percent of 
all extremist plots were thwarted as a result of tips from the 
public and informants. Muslim American community leaders in Los 
Angeles have not hesitated to put themselves in potentially 
uncomfortable positions to interact with local law enforcement.
    In 2010, the Muslim Public Affairs Council enthusiastically 
responded to requests to speak at our annual Radicalization and 
Homegrown Violent Extremism Conference. Speaking to 200 law 
enforcement personnel, Salam al-Marayati and Edina Lekovic 
subjected themselves to an intense period of questions and 
answers from the audience regarding Islam radicalization and 
terrorism. Due to their courage and willingness to answer any 
question presented, the evaluation of their performance was 
overwhelmingly positive.
    Outreach to the Muslim community is also done by our law 
enforcement outreach coordinators group which includes the Los 
Angeles Police Department, the city of Los Angeles, the 
California Emergency Management Agency, the FBI, the United 
States Attorney General's Office, the Transportation Security 
Administration, and our most supportive Federal partner, the 
Department of Homeland Security.
    In America, we are obligated to protect all citizens and 
their respective religions and to effectively detect and find 
extremists. Police leaders must have trust in their standing in 
all communities. The Muslim community is no less or no more 
important than others, as no one can predict with complete 
accuracy who or what will pose the next threat against our 
Nation. Simply put, police need public participation, and to 
accomplish that, strategies such as public trust policing need 
to be a priority in our Nation.
    Simply, our enemies cannot thrive or even survive when a 
majority of people share common goals and pledge to be an asset 
for each other in the fight to counter violent extremism.
    Thank you for listening to my brief testimony on a subject 
that is vital to all Americans.
    [The statement of Mr. Baca follows:]

                 Prepared Statement of Sheriff Lee Baca
                             March 10, 2011

    I appreciate the opportunity to add to a discussion on an important 
topic that affects all of our communities. The Los Angeles County 
Sheriff's Department has long been a leader in the development of 
relationships with the various ethnic, cultural, and religious 
communities that thrive in the Los Angeles area. Nowhere is that 
relationship more positive than that which exists between my agency and 
the American Muslim Community. We have established strong bonds through 
continuing outreach and physical presence at events important to the 
community and law enforcement.
    I would caution that to comment only on the extent of 
radicalization in the American Muslim Community may be viewed as 
singling out a particular section of our Nation. This makes a false 
assumption that any particular religion or group is more prone to 
radicalization than others. According to the Muslim Public Affairs 
Council (MPAC), utilizing information provided by respected 
organizations such as the Congressional Research Service, the Heritage 
Foundation, and Southern Poverty Law Center, there have been 77 total 
terror plots by domestic, non-Muslim perpetrators since 9/11. In 
comparison, there have been 41 total plots by both domestic and 
international Muslim perpetrators during the same period. Reports 
indicate that American Muslims helped foil seven of the last ten plots 
propagated by al-Qaeda within the United States. According to MPAC, 
evidence clearly indicates a general rise in violent extremism across 
ideologies. Clearly, we should be examining radicalization as an issue 
that affects all groups regardless of religion.
    It is counterproductive to building trust when individuals or 
groups claim that Islam supports terrorism. This plays directly into 
the terrorist's propaganda that the West's ``war on terror'' is 
actually a ``war against Islam.'' It is critical to build mutually 
respectful relationships with American Muslim communities and endeavor 
to work together to protect all Americans whether locally or 
internationally.
    Since we are gathered to share information about the American 
Muslim Community and its response to radicalization, I can deliver very 
good news. The Muslim Community in Los Angeles is an active participant 
in the securing of our homeland. Whether as new immigrants or multi-
generational citizens, the vast majority of Muslim community members 
within my jurisdiction is fiercely proud of their American identity and 
display their patriotism on a daily basis.
    When I made critical outreach to the community after 9/11, I was 
overwhelmed by the number of Muslims who, while under threat from 
misinformed sources, were ready and willing to connect with law 
enforcement to help keep the peace.
    On September 13, 2001, I convened a meeting led by then Governor 
Gray Davis, Mayor James Hahn, and Supervisor Zev Yaroslavsky, in 
addition to the Los Angeles County Sheriff's Department's Interfaith 
Council. The message to all our residents was to refrain from invoking 
religious assumptions regarding the 9/11 terrorist attacks on America. 
A few criminals with a twisted and corrupted view of religious doctrine 
had perpetrated universally condemned crimes against our citizens. They 
did not represent the vast majority of American Muslims any more than 
Timothy McVeigh represented his community.
    Shortly after the July 7, 2005 transit bombings in London, the 
Muslim American Homeland Security Congress (MAHSC) was formed in Los 
Angeles County to engage the Muslim community in our efforts to counter 
violent extremism. MAHSC is comprised of leaders from the religious, 
business, professional, and academic centers of the American Muslim 
Community in Los Angeles. MAHSC supports the efforts of our Muslim 
Community Affairs Unit (MCA) made up of Arabic-speaking Muslim deputy 
sheriffs and key leaders of the Sheriff's Department. Together, we 
engage in community forums and participate in events to discuss issues 
that are common to both the community and law enforcement. MAHSC 
provides support to the homeland security efforts of my Department and 
has helped in minimizing isolation and misunderstanding between the 
community and law enforcement.
    American Muslim community leaders within Los Angeles have not 
hesitated to put themselves in potentially uncomfortable positions to 
interact with law enforcement. Late in 2010, MPAC enthusiastically 
responded to a request to speak at the annual Radicalization and 
Homegrown Violent Extremism Conference which is coordinated by my 
department. Attended by more than 200 law enforcement personnel, 
Executive Director Salam Al-Marayati and Communications Director Edina 
Lekovic subjected themselves to an intense period of questions and 
answers from the audience regarding Islam, radicalization, and 
terrorism. Due to their courage and willingness to answer any question 
presented, the evaluation of their performance was overwhelmingly 
positive.
    Our Sheriff's Department has a history of working closely with all 
the diverse communities in Los Angeles County. Our Department's efforts 
in community outreach and interaction is a Nationally recognized model 
that has proven successful in countering potentially violent extremist 
activity. In particular, the success of our relationships with American 
Muslims residing within Los Angeles County has been examined by a 
multitude of agencies across the Nation as well as globally. The 
Sheriff's Department outreach programs are not linked to counter-
terrorism or intelligence units. Our outreach is real and genuine. We 
are only interested in building long-term, trusted relationships with 
our communities. Where those relationships have existed with no 
underlying intent, critical information has been gained and shared with 
appropriate partners.
    As the community leaders who have engaged with our Department share 
their experiences with their contacts across the Nation, interest in 
our program has skyrocketed. In the past 6 months, Sergeant Mike Abdeen 
and Deputy Sheriff Morsi, of the Muslim Community Affairs Unit, have 
made presentations to the National Sheriff's Association Conference, 
the Federal Law Enforcement Training Center (FLETC), the United States 
Attorney General's Office, the Federal Bureau of Investigation, and 
have recently been invited to speak at the National Counter-Terrorism 
Center (NCTC). Their ability to create and maintain mutually beneficial 
relationships between the Muslim Community and the Sheriff's Department 
is nothing short of remarkable. One visibly striking example of success 
is the reception received by a uniformed deputy sheriff driving a 
marked Sheriff's patrol vehicle to events at our local Islamic Centers. 
Our personnel are not seen as a threat or person to be avoided but 
rather a pleasant and welcome part of the community.
    We are founding members of the Law Enforcement Outreach 
Coordinators Group in Los Angeles which includes the Los Angeles Police 
Department, the city of Los Angeles, the California Emergency 
Management Agency, the FBI, United States Attorney General's Office, 
the Transportation Security Administration, and our most supportive 
Federal partner, the Department of Homeland Security.
    All of these agencies recognize that you cannot arrest or enforce 
your way out of the radicalization issue. The outreach to community 
members and the building of relationships will lead to a trusted 
network for sharing of information and contacts.
    These relationships are crucial to mitigate a threat, or more 
importantly, recognize the threat at a stage where a person, or a 
group, on the wrong path can be righted.
    I have long recognized that law enforcement alone cannot generate 
the necessary intelligence and response to the presence of violent 
extremism without the cooperation and support of the American Muslim 
Community. According to the Institute for Homeland Security Solutions 
report ``Building on Clues: Examining Successes and Failures in 
Detecting U.S. Terrorist Plots 1999-2009,'' fully 40 percent of all 
extremist plots were thwarted as a result of tips from the public and 
informants. There is no better example than that of Christmas bomber 
Umar Farouk Abdulmutallab's father, Umaru, who was so worried about his 
son's radicalization that he felt compelled to report it to proper 
authorities (Nigerian Embassy). I believe that Umaru Abdulmutallab is 
not the exception but the rule for most of American Muslims. When 
confronted with a situation over which they have lost control, most 
parents will find a way to intervene. It is up to us to provide the 
channel for that information to flow with dignity and respect for the 
person reporting.
    In America, we are obligated to protect all citizens and their 
respective religions, and to effectively detect and find extremists. 
Police leaders must have the trust and understanding of all communities 
who are represented in their jurisdictions. The Muslim Community is no 
less or more important than others as no one can predict with complete 
accuracy who or what will pose the next threat against our Nation. 
Simply put, police need public participation, and to accomplish that, 
strategies such as public-trust policing need to be a priority in our 
Nation.
    To maintain a safe society free of violent extremism, police 
leaders must apply public-trust policing techniques that lead to 
appropriate channels of communication and participation with the 
public. Los Angeles County has aggressively pursued a public-trust 
policing program by building relationships with all faiths to achieve 
interfaith harmony. Los Angeles County has many interfaith efforts; the 
Sheriff's Department developed an Interfaith Advisory Council 
consisting of more than 300 Rabbis, Priests, Imams, Ministers, Monks, 
and faith leaders of all religions.
    With more than 1 billion Muslims worldwide, outreach to that 
particular community cannot remain a local matter. The Los Angeles 
County Sheriff's Department strives to build strong relationships with 
Government professionals from all over the world including those with 
significant Muslim populations. I have traveled extensively throughout 
the world with the purpose of creating a network of policing and 
Governmental professionals who feel comfortable sharing best practices 
to overcome common problems. To further solidify international 
relationships, members of the Sheriff's Department have embarked upon 
professional diplomacy efforts to countries which include Pakistan, 
Turkey, Azerbaijan, Jordan, Israel, Qatar, Saudi Arabia, Gulf States, 
Mexico, China, Taiwan, South Korea, France, Italy, Germany, Spain, 
Russia, the Netherlands, Canada, Morocco, Singapore, Armenia, and Great 
Britain. The investment of time and effort in the professional 
diplomacy arena pays tremendous dividends when international 
cooperation is necessary.
    In traditional law enforcement, more money is spent on the response 
to incidents than in prevention or mitigation efforts. I believe that 
those efforts should be equalized. With the prevention and educational 
efforts being pursued by our outreach programs, we think the smart 
money is on the front end. If you can turn anger into understanding and 
violence into civic activism, there would be no necessity for response.
    At this time in our history, with billions of dollars being spent 
on wars against terror, our Nation should follow President Obama's 
example and serve as instruments of goodwill to Muslims throughout the 
world.
    It is my belief that the average American has the potential to be 
our best ambassador of goodwill, however, Senators, Representatives, 
Governors, Mayors, Boards of Supervisors, Sheriffs, and Police Chiefs 
must set the example with a desire to visit Islamic centers and 
communicate with Muslims in the quest for a better understanding of 
Islam. Our enemies cannot thrive or even survive when a majority of 
people share common goals and pledge to be an asset to each other in 
the fight to counter violent extremism.
    As a member of the Homeland Security Advisory Council, I would like 
to commend Department of Homeland Security Secretary Janet Napolitano 
for her initiative on Countering Violent Extremism (CVE). I dedicate 
myself and the Los Angeles County Sheriff's Department to continue our 
efforts to make our citizens safer. I look forward to answering any 
questions you may have. Thank you.

Attachment 1.--Law Enforcement Interaction with the Muslim Community in 
                           Los Angeles County

 THE DEVELOPMENT OF MUSLIM COMMUNITY OUTREACH/HISTORY AND ACHIEVEMENTS

    July 2005, Sheriff Baca establishes (MAHSC) the Muslim American 
Homeland Security Congress. The first of its kind in the Nation. MAHSC 
is a non-political, non-governmental, non-religious, and non-profit 
organization. It was established with the mission to foster education 
and understanding between the Muslim community and the Sheriff's 
Department to protect and defend the United States of America and to 
prevent terrorism and any acts of prejudice. Members of MAHSC include 
the following organizations that represent the Muslim community in the 
southern California area:
  <bullet> Bilal Islamic Center,
  <bullet> Council on American Islamic Relations--LA Chapter,
  <bullet> Council on Pakistani American Affairs,
  <bullet> Iranian-American Muslim Association of North America,
  <bullet> Islamic Center of Hawthorne,
  <bullet> Islamic Center of San Gabriel Valley,
  <bullet> Islamic Center of South Bay,
  <bullet> Islamic Center of Southern California,
  <bullet> Islamic Shura Council of Southern California,
  <bullet> Muslim American Society,
  <bullet> Muslim Public Affairs Council,
  <bullet> Omar Ibn Al Khattab Foundation.
    July 2007, Sheriff Baca establishes a Muslim Community Outreach 
Program with a full time Muslim Sergeant dedicated to working with 
MAHSC board members and directed to restoring community trust, building 
bridges, and to develop educational programs that will benefit the 
Muslim community as well as the Sheriff's personnel.
    August 2008, the Muslim Community Affairs Unit was established and 
staffed by one full-time Sergeant, one full-time Deputy, and four part-
time Deputy Sheriffs to assist in the development of the outreach 
program. The MCA unit's mission is to build a stronger relationship 
with the Muslim community for better understanding and cooperation with 
law enforcement.
    September 2008, a Muslim youth program was developed with the 
purpose of educating the youth about law enforcement and engaging them 
with meaningful and productive activities.
    October 2008, a training program was developed for recruits in the 
academy to learn about Islam and provides cultural awareness issues 
when working with the Muslim community. The material used for the 
training was provided and taught by community organizations and 
community volunteers.
    October 2009, law enforcement outreach coordinators group was 
established under the guidance of the MCA unit with the purpose of 
coordinating the efforts of outreach among the different law 
enforcement agencies. The group includes Local, State, and Federal 
Agencies, all of which are interested in building bridges and improving 
the cooperation of the Muslim community with their respective agencies. 
(LAPD, LA City, CALEMA, FBI, DHS, US Attorney, TSA, USCIS).
    May 2010, young Muslim American Leaders Advisory Council 
(YoungMALAC) was established with the purpose of engaging young Muslim 
professional adults with the Sheriff's Department and to encourage 
civic engagement with the community at large while receiving 
recommendations on activities and possible policy changes from young 
professionals. YoungMALAC consists of 12 board members with background 
and education in public policy, law, medicine, business, and education.
    July 2010, the MCA launches a website with the objective of 
educating the community on the outreach efforts & social services and 
events carried by the unit and educating the Sheriff's department 
personnel on the Muslim community.
    December 2010, the MCA unit completes a training video titled ``Law 
Enforcement Interaction with the Muslim Community''. This training 
video was produced in partnership with the Muslim Public Affairs 
Council in Los Angeles.
    January 2011, Jail/Custody Outreach program was established with 
the purpose of connecting jail inmates with support units and 
organizations upon release from custody while ensuring that proper none 
violent teachings are taking place in the jails.
    The Los Angeles County Sheriff's Department's experience with the 
Muslim community in the L.A. area, although challenging at times, has 
been very rewarding. The level of trust and cooperation members of the 
Sheriff's Department continue to experience has been very good and 
continues to improve on a daily basis.
    Members of the MCA unit and the department in general have been 
invited and have attended many social, religious, and educational 
events to include holiday festivities, Ramadan Iftars and family 
celebrations. The Mosques and Islamic centers in the L.A. area have 
been open and were made available to any member of law enforcement to 
visit and to attend any cultural or religious event.
    The MCA unit and the Sheriff have hosted several town hall meetings 
with the Muslim community to answer questions and to address concerns. 
Some of the educational programs that were provided to the community 
include:
  <bullet> Domestic violence,
  <bullet> Gang activities and awareness,
  <bullet> Youth and teens driving education,
  <bullet> Terrorism,
  <bullet> Narcotics education and awareness,
  <bullet> Identity theft avoidance and awareness.

                            SUCCESS STORIES

    We measure our success by the trust that we enjoy with community 
leaders, members of the community in general, and the organizations 
that represent the community. Sheriff's cars and uniform personnel are 
no longer seen as a threat to the community in Los Angeles County but 
rather a pleasant and welcomed part of the community and the Islamic 
centers.
    The ``Law Enforcement interaction with the Muslim Community'' 
training video was produced in partnership with the Muslim Public 
Affairs Council, an organization that represents a large number of the 
Muslim community Nation-wide. Several video shoot locations, staffing, 
and script were provided by MPAC and members of the Muslim community.
    Many tips, leads, and reports of suspicious activities were 
provided by either Muslim community members or organizations. These 
reports of possible suspicious activities would not have been 
communicated to law enforcement personnel if we did not have the trust 
and bridges built. The trust that was earned, provided the mechanism 
for the community to communicate its concern and therefore reporting 
the criminal activity.
    The establishment of the Young Muslim American Leaders Advisory 
Council, the activities sponsored by the Sheriff's Department, and the 
mutual support of the Islamic centers and the families of the youth 
involved is a tool and a method of countering violent extremism through 
trust, education, and cooperation between law enforcement and the 
Muslim community.
    The Los Angeles County Sheriff's Department's Custody outreach 
program in our jails is not only a bridge building for inmates with the 
outside world but also is a counter radicalization effort by ensuring 
that proper teachings of Islam are checked by having the right 
educators, material, and well-qualified and properly credentialed 
chaplains and Imams. The process would not have been possible without 
the cooperation of the local Muslim community by providing volunteers 
and vetted religious texts that will not incite violence but rather 
teach the proper peaceful message of the religion.

                            LESSONS LEARNED

    Our experience continues to teach us that implementing community 
trust policing methods is the best way to succeed and gain the 
cooperation of any community you serve and work with. The Muslim 
community is not different than all the other communities we serve 
daily. Build trust, solicit cooperation, and establish methods of 
communication with the community and the result will be crime 
reporting, reporting of suspicious activities, and countering violent 
extremism at all levels.

    Attachment 2.--Los Angeles County Sheriff's Department Advisory 
                                Councils

1. AAAC: American Allegiance Advisory Council (Lebanese)
2. AASAC: Armenian American Sheriff's Advisory Council
3. BASAC: Bangladesh American Sheriff's Advisory Council
4. LASACCA: Los Angeles Sheriff's Advisory Council of Cambodian 
Americans
5. LACASAC: Los Angeles Chinese American Sheriff's Advisory Council
6. CLSAC: Concerned Leaders Sheriff's Advisory Council
7. DFCSAC: Drug Free Community Sheriff's Advisory Council
8. DCSAC: Druze Community Sheriff's Advisory Council
9. EOBSAC: Emergency Operations Bureau Sheriff's Advisory Council
10. EASAC: European American Sheriff's Advisory Council
11. ECSAC: Executive Clergy Sheriff's Advisory Council
12. GLBTAC: Gay Lesbian Bisexual Transgender Advisory Council
13. GASAC: Greek American Sheriff's Advisory Council
14. HASAC: Hispanic American Sheriff's Advisory Council
15. HSAC: Homeland Security Advisory Council
16. IASAC: Indo American Sheriff's Advisory Council
17. LAIASAC: Los Angeles Iranian American Sheriff's Advisory Council
18. JASAC: Jewish American Sheriff's Advisory Council
19. KASC: Korean American Scholarship Council
20. LAKASAC: Los Angeles Korean American Sheriff's Advisory Council
21. LAKASA-CCI: Los Angeles Korean American Sheriff's Advisory Central 
Chapter
22. MCSAC: Multi-Culture Sheriff's Advisory Council
23. MAHSC: Muslim American Homeland Security Congress
24. PASAC: Pakistan American Sheriff's Advisory Council
25. LAPASAC: Los Angeles Persian American Sheriff's Advisory Council
26. PSAC: Professional Services Advisory Council
27. RSSAC: Russian Speaking Sheriff's Advisory Council
28. SAASAC: South Asian American Sheriff's Advisory Council
29. SCLAC: Sheriff's Community Liaison Advisory Council
30. TASAC: Thai American Sheriff's Advisory Council
31. YESAC: Youth Education Sheriff's Advisory Council

    Chairman King. Thank you, Sheriff Baca. We appreciate your 
testimony. Thank you very much.
    The Chair will recognize himself.
    Dr. Jasser, thank you for your testimony. You listened to 
the testimony of Mr. Bledsoe and Mr. Bihi. I would ask you, do 
you see these as isolated cases or is it part of a systemic 
problem in the Muslim American community? If it is, how would 
that be impacted as far as mosques, as far as CAIR, and as far 
as overseas funding?
    Dr. Jasser. Chairman King, I can't underscore how important 
this question is. Is it simply anecdotes like a crime problem, 
or is there a systemic problem?
    The first thing we need to say is that the vast majority of 
mosques are places that all of our families go worship, 
patriotic Americans like every other cross-section of America. 
Not only are they not a threat, but they would report anything 
that they see.
    Having said that, though, we have a problem internally. 
Where is that? It is a minority, but there is an ideology that 
exists in some mosques, not all, not a majority, but in some 
mosques, and it is a significant number. What I am talking 
about is not the violent part. We need to change that paradigm 
from talking about violence.
    It is about that separatism, that idea that the Islamic 
state takes precedence, Islamic law takes precedence over 
American law. So if you look, for example, mosques that--I have 
seen a sermon in Phoenix where one of the largest mosques, they 
held up one of CAIR's pictures and the picture said something 
extremely insulting about American soldiers and what they are 
doing in Iraq. You can't tell me that doesn't have an impact 
upon radicalizing Muslims at that mosque.
    Now, is that free speech? Absolutely. Do their civil rights 
need to be protected? Absolutely. But there should have been a 
huge protest from people in that mosque that what he did 
violated and offended us as Americans. But there wasn't. There 
was silence.
    So I think it is time. This platform that we have here and 
on should be a platform to awaken the silent Muslim majority 
that exists there, that loves this country, to start to do some 
self-repair, rather than turning a blind eye and pointing 
fingers to other faiths.
    Funding is also an issue. There is a lot of consolidation 
of thought within mosques. One of the other things that I think 
is important for the committee to understand is that our 
population is extremely diverse, but yet in this country, the 
groups that seem to represent us are those that are mobilized 
based on being an Islamic lobby, which is really part of 
political Islam.
    Most of our families left that political Islamic party 
mentality in the Middle East and came here to be part of a 
political infrastructure that separates church and state. So to 
say that, well, how do we engage those Muslims, where are they, 
they are hard to get to because they don't want to be involved 
in Islamic or Muslim organizations because they separate mosque 
and state. So I think it is important that we make that 
distinction.
    Now, looking at the Islamists as a group, again, violence 
is a small part of their mentality. But yet as you look at the 
bigger part, they facilitate the concept that the Islamic state 
is supremacist, is better; Islamic law should be part of 
government. All this needs reform, and only we can do it.
    Some of the mosques, for example, get funding and have a 
common source of ownership called the North American Islamic 
Trust, listed as an unindicted coconspirator in the Holy Land 
Foundation trial. They hold deed to some, they quote, 300 
mosques on their website; some say up to 50 percent of mosques. 
Yet if you look at some of the teachings that the Islamic 
Society of North America and a few others endorse, they are 
associated--and I put this in my testimony--some of their imams 
are associated with the Assembly of Muslim Jurists of America.
    So along with some of that funding that came originally 
from petrodollars in the 1970s, comes I think an ideology that 
is pervasive with Wahhabism, which is a fundamentalist Islamic 
strain, or Islamism as an entity or political Islam. Very 
different from Islam as a faith, I believe. We still have to go 
through that enlightenment process and that reform.
    But you can't disconnect the funding. There have been 
committees in this House that have studied that. The Judiciary 
Committee in the Senate studied the funding issue of mosques in 
2003. I think that is a whole other issue.
    But I do think along with it comes apologetics, a lack of 
reform, and a sense of basically trying to evangelize Islam, 
rather than trying to internalize American ideals into our 
faith, which is two different things. So it is a significant 
problem.
    Chairman King. Thank you, Dr. Jasser.
    In my final seconds, Mr. Bledsoe, I was very moved by your 
testimony. In the lead-up to these hearings, this hearing was 
attacked by everybody, from CAIR to Kim Kardashian to The New 
York Times, as being such a dangerous moment we were going to 
have here today.
    Why did you come to testify? What do you hope your 
testimony will bring about and what is your opinion of this 
hearing?
    Mr. Bledsoe. I think it is very necessary for this hearing 
to be held. I think that as you can see, a lot of people are 
still in denial that we even have a problem in America with 
radicalization.
    I came here to speak to the American people. I wanted to 
say something on behalf of my son and my grandson, which is 9 
months old, hoping that he doesn't get caught up in that same 
trap or get captured by that same hunter that my son got caught 
up in.
    I also wanted to say to the American people that I hope 
that my coming here today, that someone out there in the world, 
in America, that could hear my story and learn something from 
the radicalization stages and the process of radicalization, 
that they can catch some of that which I did not understand at 
the time my son was being processed and radicalized, hoping 
that some other child, some other parent, can understand and 
save that child. If I can save one other child from going 
through what my family went through, or the victim's family 
went through, then I think my trip here to this committee is 
worthwhile.
    Chairman King. Thank you, Mr. Bledsoe.
    I am privileged to recognize the distinguished Ranking 
Member from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Sheriff Baca, as a professional law enforcement person, can 
you share what your training and experience has taught you in 
working with different communities within Los Angeles County?
    Sheriff Baca. Yes. The concept of public trust, in my 
opinion, is the core message of my testimony; that policing 
requires extraordinary ability to interact with people, 
particularly in a diverse society where people, whether they 
are here for long periods of time or immigrants, generally have 
a mistrust of what we represent on the initial contact.
    So in the building of relationships--and our particular 
subject today is obviously the Muslim communities--we believe 
that what is important is that through relationship building, 
through programs such as our Muslim outreach effort and the 
idea that every individual could be a victim of a crime, and 
when it comes to violent extremism, or let's just say even 
violent gangs, the same approach that you use for a violent 
gang should be used for what we are now talking about in 
violent extremism concerning terrorism.
    Once you do that, you have seeded the community into a 
place where if the informant cannot contact a cop directly, the 
informant knows someone who can. So the idea that we must 
always as a law enforcement strategy be the first ones to know 
is highly unlikely. That is true of any crime or any gang, but 
it is also very fundamentally an important point to make when 
it comes to radicalization.
    Obviously, the witnesses here had some exposure before the 
actions were taken, and, as a result, the question is: How well 
can you listen? What I didn't hear is when were the police 
notified or when were authorities notified.
    What I am trying to do is close the gap. What I want to 
know as soon as possible is that when you are experiencing 
these unusual behaviors within mosques or with individuals 
within your family, the time to notify authorities is now. I 
believe that is part of the reason why these hearings are very, 
very important.
    Mr. Thompson. Thank you very much.
    Dr. Jasser, one of the schools of thought among some of 
these Members of the committee is that we ought to profile 
Muslims in America. Do you agree with that?
    Dr. Jasser. I don't agree with blind profiling. That is 
unconstitutional. However, smart law enforcement that doesn't 
waste our resources on investigating people that would not have 
a high propensity toward radicalization I think is smart also. 
We have to be careful.
    Mr. Thompson. Now, the school of thought is that we ought 
to profile all Muslims in America.
    Dr. Jasser. You can't do that.
    Mr. Thompson. That is fine. But that is the school of 
thought.
    Mr. Bihi, what is your position on that?
    Mr. Bihi. I am 20,000 times against the profiling, not only 
Muslims, but any group.
    Mr. Thompson. Absolutely. One of the comments that those of 
us who had serious problems about hearings of this nature is 
that you run the risk of profiling law-abiding citizens in this 
country who just happen to be Muslim. I think what we have to 
do is take--as Sheriff Baca said, those individuals who see 
illegal or other activities taking place, need to be taught to 
report it. One of the ways you do that is to engage the 
community, the law enforcement communities, as soon as 
possible, and I think from a professional law enforcement 
opinion standpoint, that is where we ought to be.
    The last point, Dr. Jasser. Another comment attributed to 
this committee school of thought is there are too many mosques 
in America. Do you agree with that?
    Dr. Jasser. Absolutely not. My family has built a number of 
mosques, have been involved in that. I feel it is one of the 
reasons they came to this country, is in order to exercise that 
freedom.
    Can I add one thing, Chairman King? Chairman King, may I 
add one thing regarding law enforcement issues?
    Chairman King. Yes, Mr. Jasser.
    Ms. Sanchez. Mr. Chairman, regular order.
    Chairman King. Mr. Thompson controls the time.
    Mr. Thompson. The point is I think religious freedom has an 
absolute place in America----
    Dr. Jasser. Just so the record----
    Mr. Thompson. No, you said there are not too many mosques 
in America. I am saying I agree with you.
    Dr. Jasser. As far as law enforcement is concerned, I 
think----
    Mr. Thompson. I didn't ask about law enforcement.
    Dr. Jasser. The first question you did, sir.
    Mr. Thompson. But I did not ask it of you.
    Chairman King. Has the gentleman from Mississippi yielded 
back his time?
    Mr. Thompson. Yes.
    Chairman King. I recognize the gentleman from California, 
Mr. Lungren, for 5 minutes.
    Mr. Lungren. First of all, I don't recognize those schools 
of thought as representing anybody on this side of the aisle.
    Second, I want to welcome Sheriff Baca here. He is an old 
friend. We worked together in law enforcement together, and we 
worked with your Department in creating the community-oriented 
policing and problem-solving program that you have carried 
through, of which I would say this is an extension; that is, 
what you referred to here today.
    At the same time, I would say to those who criticize us for 
a singular focus here, that I have been on panels that have 
investigated the continuing presence of Nazi war criminals in 
the United States, and whether or not we should continue to 
investigate and prosecute them; I have served on panels that 
dealt with the wartime relocation of Japanese Americans and 
Japanese nationals that was limited to that; I have been in 
hearings in which we have looked at the problem of youth gang 
violence, and we didn't talk about non-youth gang violence.
    I have been on the Judiciary Committee when we held 
hearings about the unsolved murders of African Americans in the 
South, four decades after that, and where we made sure there 
was financing for the Justice Department to pursue those cases, 
and we didn't go beyond that.
    I have been there where we examined the Ku Klux Klan, but 
we didn't go beyond that at that time.
    When I was Attorney General, we did investigate skinhead 
groups and militias. We were not criticized, or, if we were, I 
didn't think it was reasonable criticism to say we didn't look 
at other gangs at that time. My point is that we are looking at 
a specific problem and we are trying to deal with it.
    Sheriff Baca, you indicated that you need to have 
cooperation with law enforcement. What would you say about a 
poster that tells people: Build up a wall, do not cooperate 
with the FBI?
    Sheriff Baca. I would not advise that to any group of 
American citizens or any group that is an organization that 
would like to help solve a problem. Obviously, we need the 
help, and I think that people that don't trust law enforcement 
are in a position where they should learn how to trust law 
enforcement. But the law enforcement community itself has to 
lead in that relationship. Most people tend to step away from 
law enforcement.
    Mr. Lungren. I appreciate that. But organizations that 
affirmatively say: Do not cooperate with law enforcement, are 
not exactly helpful to us solving that problem; is that 
correct?
    Sheriff Baca. That is correct.
    Mr. Lungren. Mr. Bihi, you mentioned when you had this 
problem of looking for your nephew, along with the other 20 
lost young people, you keep telling us that, and that is a nice 
euphemism for the fact that you found they had been spirited 
away to a foreign country, and your nephew was killed when he 
was there; is that not correct?
    Mr. Bihi. That is correct.
    Mr. Lungren. When you brought that to the attention of 
members of leaders of your mosque, did they encourage you to 
deal with law enforcement?
    Mr. Bihi. No. As a matter of fact, they threatened me, 
intimidated me, and not only me, the whole family. There are 
three messages that they have put out. One message was a very 
strong message that if--I am talking about the families that 
have not reported their missing children to the FBI or the 
police. The first message----
    Chairman King. Can you move the microphone closer, please?
    Mr. Bihi. Yes, sir. Thank you.
    The first message was to the parents, that if you as a 
single mother with a cultural language barrier, report your son 
gone, if you go to the FBI or the police, they don't care about 
you because they know you are Muslim. They will send you to 
Guantanamo. A very strong message.
    The second message was you have more chances for your son 
to slip back into the country if you don't have a big mouth 
like Bihi or other families, if you stay quiet.
    The third was moral and religious. It was the afterlife. If 
you do that, you are going to be responsible for the 
eradication of all mosques and all Islamic societies in North 
America and you will have eternal fire in hell.
    Mr. Lungren. Mr. Bihi, would you call that intimidation?
    Mr. Bihi. That is the worst form of intimidation.
    Mr. Lungren. You and your family were a target of 
intimidation to stop you from cooperating with law enforcement; 
is that correct?
    Mr. Bihi. Yes, intimidation in its purest form. If you let 
me, I would like to say something about what our great sheriff 
said about the community.
    We reported the missing kids to the police within hours 
when we woke up; several police stations, including the police 
officers of the Minneapolis International Airport. The next 
morning we set up an appointment and we met all the FBI. I 
believe our great director was there too. I think he was there 
too.
    I also want to mention another thing about hooking up with 
the FBI in the Islamic community. If we don't have 
organizations and imams and leaders that created hurdles and 
blocks and threats and intimidation, we could have done it 
ourselves. We could have done that. We in the Somali community 
should get the credit, our Congressman should give us the 
credit, should give me the credit for making all the efforts 
that Director Ralph Porter said about the Somali community. If 
you check the USA Today about the report they made on us and 
the work we have done, it was to our credit.
    Chairman King. Mr. Bihi, your time has expired.
    The gentlelady from California, Ms. Sanchez, is recognized 
for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to put forward 34 different letters for our 
body of work here, from different organizations across the 
Nation who have submitted them for testimony in the record.
    Chairman King. Without objection, so ordered.*
---------------------------------------------------------------------------
    * Documents are included in Appendix I.
---------------------------------------------------------------------------
    Ms. Sanchez. Thank you, gentleman, for being before us, and 
particularly I welcome Sheriff Baca. I know you have been 
before our committee several times. I have the privilege of 
representing Orange County, California, as you know, probably 
the second- or third-largest Islamic and/or Arab population in 
the Nation, so I am well aware of the work that you have done 
not only up in Los Angeles County, but most people don't 
realize that in the time of a terrorist attack or a National 
emergency, we actually fall under your leadership in Los 
Angeles. So we have worked together a lot. It is a pleasure, 
always, to have you here with us.
    Today my question is to Mr. Jasser. In your testimony, you 
say too many so-called Muslim leadership groups in America, 
like CAIR, or Muslim advocates, have specifically told Muslims 
across the Nation, for example, not to speak to the FBI or law 
enforcement unless they are accompanied by an attorney.
    Now, the right to have an attorney present when speaking to 
law enforcement is a specific principle of American civil 
liberties. So as a minority, I would advocate to people, in 
particular minorities, that they should have their attorney 
present when being investigated, talked to, spoken to, 
addressed by the FBI.
    So by what legal principle do you assert that any minority 
in America should waive that American principle?
    Dr. Jasser. Congresswoman Sanchez, I don't disagree with 
you. I am talking about this as a father. When I walk up to a 
police officer or the FBI, I teach my children they are your 
friends. You can talk to them. If they ask you things, they are 
not going to be attacking you.
    Ms. Sanchez. If they come to your home at night, like they 
do in my community, like some come to my community and knock at 
8 p.m. at night to ask questions, if it were you on the other 
side of the door, not knowing what questions they were going to 
ask, would you not say: Can you come back tomorrow to my 
office, my business office? Would you not say: Let me call my 
attorney and I will come meet you down at the FBI office? Or 
would you say: Sure, come on in, I will answer any question.
    Dr. Jasser. It depends on the circumstances. I don't 
disagree with you, civil----
    Ms. Sanchez. You don't know the circumstances when somebody 
comes to your office late at night like that. You would assert 
the privilege of an attorney, would you not?
    Dr. Jasser. Congresswoman, not all the time, no, I would 
not. I am not constantly under fear from the Government, 
because I have nothing to hide. I am not saying you don't have 
civil rights to protect. That is part of the discussion. But 
when that discussion that you just went through dominates the 
entire conversation about Muslims in America, it creates a 
narrative that this Government is against you and it creates a 
narrative that it is anti-Islam and anti-Muslim.
    Yes, we should have our civil rights protected. It is part 
of the bandwidth. The rest of it should be about how much we 
love this Government, how much we should join the military, how 
much we should help the homeland security.
    Ms. Sanchez. We have those discussions, obviously, in the 
minority community. I sit on the Armed Services Committee also. 
I think that is one of the really rock-bed ideas of the Latino 
community, for example. But I still would suggest to anybody 
that if the FBI comes late at night knocking on your door, you 
tell them you would like to meet them at some other place at 
some other time with your attorney.
    Sheriff Baca, could you talk about some of the initiatives 
in particular that you have implemented in your department to 
work better with the community? It is coming from this 
background. When we have problems, for example, when we ask 
people to do 586(g), which is to go after immigrants and knock 
on doors and look for undocumenteds, or when we have these sort 
of situations where law enforcement comes in a certain way 
intimidating--it is always intimidating--it is intimidating for 
me when law enforcement stops me and I have to pull over. I am 
driving a car, and all the sudden I see the flashing lights in 
the back, my heart starts to beat. For me, law enforcement is 
like that, even for those of us who work with you.
    Minority communities in particular, I think, have a very 
big sensitivity to law enforcement. What do you think happens? 
What are the initiatives you try so that, in fact, minority 
communities and immigrant communities are not afraid and 
actually move forward and come forward with information? Don't 
you think when we intimidate them, or point them out, or 
profile them, or have some of these comments come out like 
that, that it is dangerous to our ability to get communities to 
help us?
    Sheriff Baca. The first thing I do is I train all deputies 
when they enter our academy and exit it to recite the core 
values of the sheriff's department by heart. I will recite them 
now. This is the bedrock of the American Constitution, the Bill 
of Rights, civil rights, and even human rights. That is the 
core values are this: As a leader of the Los Angeles County 
Sheriff's Department, I commit myself to only perform my duty 
with respect for the dignity of all people; the integrity to do 
what is right and fight what is wrong; wisdom to apply common 
sense and fairness in all that I do; and the courage to stand 
against racism, sexism, anti-Semitism, homophobia, and bigotry 
in all its forms.
    When you look at the history of bias in America, the 
reality is that our Founders created a brilliant document, the 
Constitution, then the Bill of Rights. Civil rights are real, 
but human rights are part of the element here when you have an 
international problem such as terrorism. So people need to 
clearly know from law enforcement agencies where do you stand 
before you even talk to me, who are you, and what do you 
represent?
    No police officer, no sheriff, no anybody with law 
enforcement authority will ever step outside of the American 
legal system in doing their job. We are the most regulated, 
perhaps, form of public service than anyone can imagine. So my 
first outreach to the committee is to say, if you don't have an 
encounter with my deputies that is within those core values, 
then I need to know about this.
    Now, when you go a step further, there is programs galore. 
I have advisory councils not only of all the faiths, but of the 
particular issues that are within faiths where people come to 
me because they have concerns and fears. Whether it is Orthodox 
Jews, or whether it is Muslims, or whether it is Pakistanis, or 
whether it is South Asians, or whether it is Middle Easterners, 
the truth is, is that America is becoming a society of the 
world, and because of that, we have to be sensitive, we have to 
know how to work with the various communities.
    I have over 160 languages spoken in Los Angeles. I have 
deputies of all these religions and all these ethnic groups. We 
travel throughout the world, quite frankly, on this 
counterterrorism issue of which was, quite frankly, a 
predictable issue after the Gilmore report came out of 
Congress, and yet Los Angeles had a terrorism early warning 
group before 9/11.
    So when you look at this from the standpoint of why even 
this hearing is so vital, it is because Americans need to wake 
up and start learning more about all of the issues that affect 
their well-being, and that police alone can't solve this 
problem, nor can Congress, nor can the administration without 
cooperation locally, State-wide, Nationally, as well as 
internationally. We have no National police in America. This is 
why I reach out to New York and check with them on their 
issues. I reach out to all of the major cities as a member of 
the Major Cities Chiefs Association. But then I reach out 
within my own community so there is no gap regarding resources.
    The real truth is that the American public must step up to 
the plate and do more, even if it is just educating yourself. 
Now, on the issue of mosques, for example, we can go into 
mosques in Los Angeles, and we do that frequently.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Alabama, Mr. Rogers, is recognized for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Before I enter my questions, I do want to point out that I 
have been a Member of this committee since it was established 
as a standing committee, and even before that when it was a 
select committee, and at no point have I ever heard a Member of 
this committee on either side of the aisle assert that we have 
too many mosques, too many Muslims, or anything of the kind. So 
I don't know where the Ranking Member got that school of 
thought, but it didn't come from this Chamber.
    Sheriff Baca, thank you for being here again. It is good to 
see you.
    Chairman King. If the gentleman would yield for 1 minute, I 
think what the Ranking Member was doing was I said at one time 
there are too many mosques that don't cooperate with law 
enforcement. I think the testimony has backed that up. I never 
said there are too many mosques in America.
    Mr. Rogers. Thank you.
    Sheriff, a little earlier you heard this assertion that 
CAIR has warned people they need to have a lawyer before they 
talk to law enforcement. Do you feel like that your 
jurisdictional residents, whether they are Muslim, Jewish, or 
Christian, should have to have a lawyer before they talk to you 
or one of your sheriff deputies to inform you about something 
they see as being a potential problem?
    Sheriff Baca. No, I don't personally believe they should 
take that initial step. So in answer to your question, no.
    Mr. Rogers. Do you believe that your sheriff's deputies, 
when they are out interacting in the communities and doing 
their community policing and talking with merchants and 
individuals, should, before they talk to them, warn them that 
they have the right to an attorney before they talk to the 
sheriff's deputy?
    Sheriff Baca. In general, no, but if we have a suspicion 
that they are about to commit a crime--there is always so much 
questioning you can ask before you even have to advise them of 
their Constitutional right. That is one of the key fundamental 
points here.
    Mr. Rogers. What I am talking about is just out interacting 
with the community, not pursuing a crime or a suspect. But a 
lot of information that your deputies get are going to be from 
interactions with folks out on the beat, and I want to make it 
known that I don't think they have to have an attorney present 
to talk with residents when they are just finding out how 
things are going. That was the assertion I have seen getting a 
little while ago from the gentlelady from California's 
questions.
    We don't want our young people or our residents to feel 
like they have to be afraid of law enforcement in this country. 
If you are being investigated for a crime, it is different. But 
just to talk with law enforcement, I don't think an attorney is 
required, and I don't think you would want to have that 
requirement to be able to do your job or your deputies do their 
job.
    I am real interested, Dr. Jasser. What do you specifically 
think that you should see done in an organized fashion that 
would help the Muslim community begin to work to more self-
police the very small radical agents or elements of the 
community? Because I agree, the overwhelming majority of 
Muslims are law-abiding, good Americans, and I don't want to 
paint them with a broad brush, but still there is that small 
element in the community that is radicalizing. What would you 
like to see happen in an organized fashion to curb that?
    Dr. Jasser. Well, I can tell you that I look upon this a 
little different than we did the Cold War, and that we need to 
start putting resources, we need to develop public and private 
partnerships. We need to stop using the lowest-hanging fruit 
that exists already as Islamic groups in Washington. Not that 
they are all Islamists, but many of them are. But the ones that 
are not typically are much less funded, much less endorsed, or 
supported by the media, Government, et cetera.
    So we need to start creating platforms like this for 
America to see that we are a diverse population, that we are 
not all represented by the victim-mongering groups and other 
groups, that many of us take our responsibility as Americans 
seriously. So we need to create a kitchen cabinet, if you will, 
of strategy that homeland security is not just a crime problem, 
which is sort of what I have been hearing a little bit, is 
that, well, it is just a crime problem, and we need to work on 
the ground. That is important, but homeland security is much 
more than that.
    As Prime Minister Cameron said, we not only have to get rid 
of the violence, but the pool in which the violent radicals 
swim, and we need to drain that. That is going to need a 
generational posture that we build institutions based on 
liberty for and within the Muslim community so we can build 
forward platforms for forums for debate. We will do the reform, 
we will do the theological reform, but you help us put 
resources domestically into new institutions based in 
enlightenment for freedom and liberty.
    Mr. Rogers. Sheriff Baca, what would you like to see 
happen? Obviously you stated this hearing is worthwhile, and 
you have been working on this for a long time, even before 9/
11. You mentioned earlier you have an annual forum on 
counterterrorism. What would you like to see happen from an 
organized standpoint that would better facilitate this flow of 
information from the Muslim community about potential problems 
within that community?
    Sheriff Baca. Well, I would like my colleagues in the 
National Sheriffs' Association and in the Major Cities Chiefs 
Association, which I am a member of--and these are all the key 
elements of local law enforcement leadership--to have a little 
more concentration on coordinating our Joint Regional 
Intelligence Centers. We are currently sharing some of the 
things that I have testified to, and my deputies are going 
throughout the country on an individual basis. But if there was 
a way that we could develop best practices within the law 
enforcement community and the Federal Government combined on a 
continuum of training--we go to different places throughout the 
country to help each other.
    I have to give high credit to the Department of Homeland 
Security for what they are doing, but I would focus on 
continuing what we have already established. I mean, a lot of 
work has been done by this committee. We are not starting anew 
here. We are just fine-tuning it, as I see this, and listening 
to other ideas. But if you could look at a subcommittee, which 
I know you have, that would allow for my colleagues to come in 
and talk in a prepared manner about these suggestions, I think 
you would have a better idea as to what local law enforcement 
needs.
    Mr. Rogers. Thank you very much. I yield.
    Chairman King. The time of the gentleman has expired.
    The gentlelady from Texas is recognized for 5 minutes.
    Ms. Jackson Lee. I thank the gentleman very much.
    I want to thank personally all of the witnesses that are 
here today. I respect the fact that you are here, Sheriff Baca. 
We have worked together. We have visited. I thank you so very 
much for your presence here today.
    But I am reminded of a proverb now quoted by Sheila Jackson 
Lee: Cleaning a dirty kitchen. You can't clean it with dirty 
water. There are no redeeming factual information that we will 
receive today that can add to the abhorrence that all of us 
have on terrorism in the United States of America. We don't 
disrespect the witnesses, at least I do not. But, you see, it 
has already been tainted, this hearing. There are no loud signs 
of reasoning that are coming through this hearing. The reason 
is because it has already been classified as an effort to 
demonize and to castigate a whole broad base of human beings.
    I cannot stand for that. I brought with me the 
Constitution. It is a living and breathing document. The First 
Amendment allows us the freedom of religion, the freedom of 
association and expression. But I will tell you today that this 
breathing document is in pain.
    We could have had a hearing that spoke about any number of 
issues of terrorism. We might have gone back to the cold cases 
of the civil rights movement, acts of terror. We might have 
tried to understand where the Klansmen still roam today and 
terrorize individuals in parts of this country. Maybe we would 
have found out what those opposed to the Jewish faith are doing 
to Jewish communities and synagogues, no matter what their 
religion. Maybe we would go and question Muslims who are 
hovering and scared because someone might suggest that they, 
too, are someone who is eager to do terrorist acts. We would be 
better off if we would have a hearing speaking about the 
importance of human intelligence, funding for the elements of 
the Department of Homeland Security that can work on human 
resources to be able to hear from individuals who do want to 
engage and help this country promote its values.
    Mr. Jasser, may I just ask, are you a Muslim?
    Dr. Jasser. I am a devout Muslim who prays and fasts and 
tries to raise my kids to be conservative orthodox Muslims, 
yes, ma'am.
    Ms. Jackson Lee. Thank you, sir.
    Are there any other Muslims on the witness table?
    That is Mr. Bihi?
    Chairman King. The record will acknowledge Mr. Bihi is 
raising his hand.
    Ms. Jackson Lee. Thank you so very much.
    The reason I ask that question is because Muslims are here 
cooperating. They are doing what this hearing has suggested 
that they do not do. It is an irony and an outrage that we are 
wasting time when Muslims are sitting before us. A Muslim is on 
this panel. A Muslim has testified. So I question: Where are 
the uncooperative Muslims?
    Let me quickly put in the record another aspect of Mr. 
McDonough's statement that our Chairman was so eager to quote 
and suggest that he whisper to him to have this hearing. Like 
all of you, and like me, millions of Americans find community, 
comfort, and support in their faith. That includes President 
Obama, who is a Christian but spoke in Cairo. So today reminds 
us that being religious is never anti-American. Being religious 
is quintessentially American. Got bless America.
    Then I would simply suggest another comment here, saying 
President Obama recognizes through our words and deeds we can 
either play into al-Qaeda's narrative and messaging, or we can 
challenge it and thereby undermine it. We are determined to 
undermine it. This hearing today is playing into al-Qaeda right 
now around the world. It is diminishing soldiers that are on 
the front line that are Muslims, those that lost their lives, 
and it is going in the same route of an Arizona and other 
States.
    Sheriff Baca, one quick question to you, please. Can law 
enforcement find friends in diverse communities? Have you been 
able to solve problems by developing an understanding, an Arab 
officer, a Hispanic officer, an African officer, or an African 
American officer, sir, or an Anglo officer that happens to be 
from Portugal or happens to have the ability to speak to 
someone from the Balkans who is here in the United States? Is 
that a positive form of law enforcement?
    Sheriff Baca. Yes, it is. We have the ability to reach all 
minorities within the County of Los Angeles. Sergeant Mike 
Abdeen who is here, if he could stand up, is the sergeant--he 
is a Muslim, and he is a sergeant of our Muslim affairs 
outreach----
    Ms. Jackson Lee. Thank you. Thank you very much.
    Chairman King. All Members and guests will refrain from 
outbursts.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I am overwhelmed by this hearing and the lack of factual 
basis for it. I don't believe----
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Texas is recognized.
    The time of the gentlelady has expired----
    Ms. Jackson Lee. It is an outrage, and as you well know, 
you already said there are not enough--there are too many 
mosques in this country. That is absurd. It is outrageous that 
someone proceeds to hold up another controversial poster. It is 
outrageous.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Texas is recognized for 5 minutes.
    Ms. Jackson Lee. I yield back.
    Mr. McCaul. Thank you, Mr. Chairman. That is quite an act 
to follow, let me say.
    As we talk about the Constitution, in the Preamble it talks 
about providing for a common defense, and that is what this 
committee--that is our primary mission. That is what this 
committee is all about.
    It is unfortunate, in my view, that some have attempted to 
mischaracterize this hearing as an attack on American Muslims. 
Let me be clear. It is not this committee that is doing that, 
but al-Qaeda that is targeting and attacking our Muslim youth, 
as evidenced by the testimony of Mr. Bledsoe and Mr. Bihi. In 
the past 2 years, there have been 27 terror plots, and each of 
them involved extreme radicalization of the Muslim faith. This 
is not to say that all Muslims are the threat; to the contrary, 
the moderate Muslim is our greatest ally in fighting 
recruitment of Muslim youth.
    In the cases mentioned by our witnesses, along with Major 
Hasan, the Fort Hood shooter, and many others, show that the 
threat to America lies within our own country. Major Hasan was 
promoted repeatedly in the name of political correctness, 
despite obvious signs of radicalization. These indications 
included conversations with al-Awlaki, arguably the greatest 
threat to the United States today. To ignore the threat of 
radical Islamic extremism in the name of political correctness 
presents a serious threat to the American people.
    Both Attorney General Holder and Secretary Napolitano have 
testified that the number of Jihadist websites present imminent 
danger to the United States. Having worked for the Justice 
Department prior to Congress, I understand the importance to 
coordinate outreach between law enforcement and the Muslim 
community. I am very concerned that there are organizations out 
there speaking for the Muslim American community, telling them 
not to coordinate with the FBI and law enforcement, as 
evidenced by the poster that we saw by the Council on American-
Islamic Relations.
    I hope we can begin the dialogue and ask the necessary 
questions. Before I ask questions of the witnesses, I want to 
read from Senator Lieberman's letter to John Brennan, the 
Assistant to the President for Homeland Security, when he said, 
the failure to identify our enemy for what it is, violent 
Islamic extremism, is offensive and contradicts thousands of 
years of accepted military and intelligence doctrine to know 
your enemy. We have to know our enemy. It is radical Islam, in 
my judgment.
    I would like to ask Mr. Bledsoe and Mr. Bihi, your children 
were kidnapped by these two mosques. They were held hostage. 
They were sent overseas to both Yemen and to Somalia, and their 
lives were destroyed. Have these two mosques done anything to 
repair the relationship? Have they ever told you that they are 
sorry, and have they ever told you that they will change their 
practices?
    Mr. Bledsoe. I will speak first.
    No, I have not heard from Hamas at all about whether or not 
they are sorry. I think that going back to the question of the 
lady from Texas, we are not talking about all Muslims. We are 
talking about Islamic radicalization, and that I wanted to make 
clear because that is a difference.
    I have Muslims in my family, I mentioned earlier. I am 
sitting beside two in the middle. I am sitting in the middle 
between two. So we are not talking about all Muslims. We are 
talking about the ones who are hiding behind the moderate 
Muslim. They are the one who is the threat to America, a threat 
to our babies, a threat to the children, and they are the 
danger.
    Mr. McCaul. Do the mosques know that they are responsible 
for the radicalization of your son?
    Mr. Bledsoe. Sure, they know, but they are waiting around 
to do it again to someone else's child. That is why I am here 
today hoping that American people--you are listening. I hope 
you hear me. I hope you learn something from that. I don't 
think that any other child or any other parent in America 
should have to go through what I am facing today.
    Mr. McCaul. I agree with that.
    Mr. Bihi, has the mosque that radicalized your nephew ever 
apologized or taken responsibility?
    Mr. Bihi. Sir, no, never have they apologized. They, as a 
matter of fact, attacked us and called us names and tools of 
infidels. It seems that there is still nobody from the 
leadership, our congress in the State of Minnesota, the Islamic 
organizations, none of them have ever met 20 or more Somali 
American families who are refugees, get their kids from civil 
war, lucky enough to raise their kids in a college level. Those 
families were hurt. Not a Congressman, not CAIR, not any other 
organization, not the mosque people, none of them ever visited 
with them or even mentioned them. As a matter of fact, they 
call us liars.
    Mr. McCaul. And infidels.
    One last question to Sheriff Baca. You appeared before Jane 
Harman and myself last Congress.
    Chairman King. The time of the gentleman has expired.
    Mr. McCaul. I will follow up with a written question. Thank 
you.
    Chairman King. The gentlelady from California, Ms. 
Richardson, is recognized for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman. I would like to 
ask unanimous consent that a copy of the following items would 
be submitted for the record. One would be a text of the 
Attorney General's interview. The second would be a letter sent 
to you on March 9th; a 2007 Political Insider article; and a 
reference to a 2/11 hearing in this committee. Without 
objection?
    Chairman King. So ordered, without objection.*
---------------------------------------------------------------------------
    * Documents are included in Appendix I.
---------------------------------------------------------------------------
    Ms. Richardson. Thank you, sir.
    Mr. Chairman, few Members of this committee have 
experienced events of 9/11 more dramatic than you have. Based 
upon those experiences and the inception of this House 
committee, Chairman King and Ranking Member Thompson, you have 
produced tangible results. Because of that work, I made every 
effort to serve on this committee. Unfortunately today, though, 
as a Member, I vehemently oppose the narrow approach this 
committee is taking in this hearing.
    I was born in the 1960s. In my elementary history classes, 
I saw shocking films of American leaders in the 1940s and the 
1950s disgracefully violating the principles of which this 
country was founded. The only difference history will say today 
is that those shows were in black and white, and this one now 
is in color.
    Discrimination, a definition, is the treatment or the 
consideration of or a making a distinction in favor of or 
against a person or a thing based upon a group, class, or 
category to which that person or thing belongs, rather than on 
its individual merit. When elected officials or public servants 
are sworn in for duty, including with the oath is an 
understanding not to abuse the power given. One definition of 
abuse of power is the improper use of authority by someone who 
has that authority because he or she holds a public office. I 
believe the narrow scope of this hearing is discriminatory, and 
it is an abuse of power.
    Research by the Congressional Research Center has spoken. 
We saw a chart there that talked about Muslim plots, but it 
didn't talk about the 44 non-Muslim plots, which are more than 
double of what we have seen of other extremists. According to 
the Institute of Homeland Security Solutions, al-Qaeda and the 
allied movements were responsible for 26.7 domestic terror 
attacks, while also white supremacists accounted for 23.3 
percent. Thus restricting this hearing for the consideration of 
radicalization of American Muslims and not equally of other 
groups is wrong. The House Judiciary Committee and House Energy 
and Commerce Committee have not investigated other religious 
groups or their leaders for failing to cooperate with law 
enforcement that may have allegedly caused mental or physical 
harm to children. So clearly this committee is setting a 
dangerous precedent in treating one religious group different 
than another, thereby calling into question this committee's 
actions and whether those actions violate this country's laws 
and principles.
    Mr. Chairman, I would like to reference for the record the 
Attorney General's actual interview. In the interview when Mr. 
Holder said, that it is one of the things that keeps me up at 
night, Holder said, you didn't worry about this even 2 years 
ago about individuals, about Americans. He never said Muslim 
Americans.
    Also, we need to point out that in 2007--and I won't say 
people by name because I do respect my colleagues--it was said 
in reference in a political article, too many mosques are in 
this country, there are too many people sympathetic to radical 
Islam. Nothing in reference to cooperation. In this committee 
hearing on February 9, 2011, it was said in this hearing, we 
have got to focus on those people who harm us, it is the 
Islamic extremists. These are dangerous things.
    Now, I also want to point out a reference that wasn't 
talked about in this hearing. I asked Michael Leiter, the 
National Counterterrorism Center Director, I asked him 
specifically what percentage of the people being looked at by 
your agency for domestic terror threats were Muslims. His 
answer for the record: It is absolutely tiny, a minute 
percentage of Muslim population that is being looked at.
    Finally, Mr. Chairman, I would like to ask my sheriff for 
the record, because the whole cause of this hearing was to say 
there was a lack of cooperation. Sheriff Baca, you talked about 
what you do. Tell us what the Muslim community does. Do they 
fail to initiate and cooperate with you?
    Sheriff Baca. It is a very, very good question to ask. I 
think what we have here is a perspective that I believe has to 
be widened in terms of who are the Muslims that cooperate. I 
believe that Muslims are cooperating much more outside of 
organizations, as well as inside of organizations. We have 
both. You can't look at this perspective of who is cooperating 
based on organizations alone.
    The truth is that Muslims are just as independent, just as 
feisty, just as concerned about safety. They certainly don't 
want their homes or their mosques blown up. And thereby as 
individuals, they have been doing things with local law 
enforcement without the cover, so to speak, of an organization.
    But even with the organizational effort, what I see is an 
emerging confidence in the Muslim community, particularly in 
Los Angeles--and I think it is true in New York to a degree 
through my contacts with Muslims even in New York--that people 
are getting more realizing to the point that police aren't out 
to mess around with them, that there basically is this primary 
focus on prevention. We have spent a lot of energy locally in 
these Joint Regional Intelligence Centers just to prevent stuff 
from happening at its earliest possible point.
    The truth of it all is that we are, as a Nation, doing 
relatively good. We are not going to eliminate this possible 
problem. But as a Nation, we are getting better and better and 
better, and this is why I am here. I don't particularly think 
these hearings can be negative totally. I believe that they 
have a potential to keep the public involved in this 
discussion, which will further lead to better solutions, and 
the robustness of the opinions will say that everyone is 
entitled to say what they are saying. That is what I am taking 
from this particular hearing.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Florida, Mr. Bilirakis, is recognized 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. I 
thank the witnesses for being here today and testifying.
    I will get right into the questions. Terrorist 
organizations have become increasingly adept at using the 
internet and social media to recruit, inspire, and motivate 
individuals already in the United States to carry out attacks 
on their behalf. This question is for Dr. Jasser and Sheriff 
Baca. But others, you are free to respond as well. One such 
website that has been described as key to al-Qaeda's 
communications was hosted by a web-hosting company in my area 
of Tampa Bay in the State of Florida. The site has since been 
taken down.
    What are your thoughts on how to combat the use of the 
internet and other technology by terrorist organizations 
overseas to inspire and encourage terrorist attacks in our 
country by those who are already here?
    Dr. Jasser. Congressman, that is a wonderful question, and 
I think it points to the fact that we have not had any type of 
cyber counterjihad, if you will. Why? Because that can only be 
done by Muslims. So we need your support to do that. We can do 
it with the right resources by countering that ideology.
    The Islamist narrative basically says America is against 
Muslims. It creates all this narrative that America is going to 
Iraq, to Afghanistan to convert--to convert Muslims, kill them, 
attack them. That is the narrative. We can present--our 
strategy so far has been to try to break down that propaganda. 
That is wrong.
    We need to have a forward strategy of liberty-minded, 
freedom-minded ideas into the Islamic consciousness. We can do 
that as Muslims, but we need your help to do that through 
creating websites, a social network. I mean, look what happened 
in Egypt and Tunisia. That was just simply through social 
networking, and that countered a lot of the--that wasn't 
Islamists that did that. Most of that was secular Muslims that 
wanted to take control of their own future.
    But when we have a Government that produces a report, an 
after-action incident report, after the Nidal Hasan incident, 
and the word ``Muslim'' or ``Islam'' or ``jihad'' isn't even in 
the whole document, you wonder why we are so paralyzed in 
treating this.
    I, as a Muslim, I need this conversation. If we are going 
to fix this cancer that is within the whole viable, wonderful, 
beautiful faith that I practice, we need to be able to talk 
about it. It is like trying to treat cancer without saying the 
word. It is not Islam, but it is jihadism, it is Islamism, it 
is a political entity that we can fight on the web very well. 
But we have been absent. We have surrendered the Constitution 
to the Jihadists.
    Mr. Bilirakis. Sheriff.
    Sheriff Baca. Yes. The sheriff's department, as you know, 
and the LAPD, along with all of our Federal and State partners, 
runs this Joint Regional Intelligence Center, which is an open-
source investigative arm. But we morph it up into the Joint 
Terrorism Task Forces when we are dealing with specific things 
such as cyberterrorism and these websites. We monitor them. At 
some points they get shut down. At other times we monitor them 
and continue to monitor them because it is an excellent source 
for what would later become an actual investigation. So there 
is a broader strategy that is involving all of our levels of 
government in this website issue.
    Mr. Bilirakis. Thank you.
    My next question is for the entire panel.
    Mr. Bihi. May I add something?
    Mr. Bilirakis. Would you like to say something? Please do. 
Thank you.
    Mr. Bihi. Lately we have been seeing the excuse that they 
are old, they are not recruiters for these kids. These kids are 
recruited by the internet, by the cyberspace. I do not believe 
that there is a kid that gets up in the middle of the night and 
just walks by the computer, logs onto a Jihadist or an al-Qaeda 
website or al-Shabaab, and decides the next day to fly in and 
explode themselves.
    That is a very weak excuse. The radicalization process or 
the brainwashing process takes years. There must be somebody on 
the ground to exploit this kid, what he is angry, what are his 
weaknesses, like if there is no father, if there is no mentor, 
if they are smart, if they are weak. So the process takes 
forever. Internet is one of the last steps to do land courses, 
to educate yourself into an academic level of being gone.
    Thank you.
    Mr. Bilirakis. Thank you.
    Mr. Bledsoe, did you want to add something?
    Mr. Bledsoe. No. I have no comments here.
    Mr. Bilirakis. Very good.
    My next question for the entire panel--I know I don't have 
a lot of time, Mr. Chairman--what demographics have 
demonstrated to be particularly susceptible to extremist 
recruiting efforts within America? To what extent are youth and 
universities particularly at risk? For the entire panel.
    Dr. Jasser. Yeah. I will jump in quick and tell you that 
that is why we have focused our Muslim Liberty Project on young 
adults 15 to 30, because if you look at the study, the Pew poll 
showed that young Muslim adults in this country, 15 to 29, 25 
percent thought there was maybe some justification for suicide 
bombing.
    That is not typical of the general population of Muslims. 
It is a demographic that we need to target, we need to look at 
and figure out, because their minds are being shaped, they are 
being pulled. As Prime Minister Cameron said recently, it is an 
identity problem. They are not identifying with this Nation. We 
need to renew a discussion about what this country stands for, 
what our principles are, bring them into that. As Muslims, they 
feel American, positive about this country, and then that will 
inoculate them against that radicalization.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Louisiana, Mr. Richmond, is recognized 
for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you, Ranking 
Member.
    I would just say that earlier we heard quotes from Members, 
from the FBI Director, and we have heard quotes from Eric 
Holder. There is an old blues song that says if you are going 
to tell it, tell it all. What we didn't hear quoted was the 
fact that the FBI Director said that homegrown extremists and 
lone-wolf activity are as serious a threat to the homeland as 
al-Qaeda and its affiliates. That is not what this hearing 
deals with. We also heard from Eric Holder that the cooperation 
of Muslims and Arab American communities has been absolutely 
essential in identifying and preventing terrorist attacks.
    So while we are here today, I will thank the panelists and 
the witnesses that are here because I understand the problem 
that we have. I will not only say that I think to focus on just 
the Muslim community is wrong, I will offer that we could have 
had another hearing today with some of the same witnesses.
    Mr. Bledsoe and Mr. Bihi, I think that there are a number 
of families around this country that are suffering the same 
pain. I pray for you, and I pray for them also. But we could 
have had a title of a hearing today that simply said, ``What Is 
Driving Passive and Activist Americans to Be Militant and 
Extremists?'' That covers the broad rainbow and spectrum of 
what is going on in this country without singling out a 
particular group.
    Here are some very pointed questions, and especially to Mr. 
Bledsoe and Mr. Bihi first. Do you agree that part of the 
propaganda that they use to recruit is that America--the 
narrative, as Dr. Jasser said--the narrative is that America is 
at war with Islam?
    Mr. Bledsoe. No, I don't agree so much with that. I think 
that they used a tool to recruit as well as to say America 
doesn't appreciate African Americans. That is one of the--I 
think the reason you find a lot of African Americans be 
recruited, because they can use that as a weakness.
    Mr. Richmond. Thank you.
    Mr. Bihi. Sir, thank you for your question.
    To the particular group of the Somali American, which is a 
large group I am dealing with, the main thing and their main 
victims are the Somali population in the country of Somalia. 
But it is also part of the American country. It is part of it 
in the Western world and other worlds, including Muslim world 
leaders. So to shed a light on this, these people have a target 
to use these kids not only in the United States of America, but 
also other countries, including in Somalia, that they are 
sharing abroad as we speak right now for 20 years.
    Mr. Richmond. Dr. Jasser, I did quote you correctly when 
you said that the narrative and the propaganda is that America 
is at war with Islam?
    Dr. Jasser. Yeah, that is the narrative from the Islamist 
side, yes.
    Mr. Richmond. Yes. Mr. Bledsoe, I would say as a young 
African American male, your sentiment that that is part of the 
propaganda that is used, I would say that it is also a worry to 
me when so many people, especially on this committee and in 
Congress who have never been a victim of profiling based on 
race, religion, or any others, are quick to suggest that that 
is a legitimate crime-fighting tool when it is irresponsible 
and not the smartest way to fight crime.
    Dr. Jasser, do you believe today that there are people 
promoting propaganda based on this hearing alone that are 
saying that this is evidence of America's war with Islam?
    Dr. Jasser. There may be some exploiting that for that, but 
I hope we are mature as a country to be more pragmatic and 
practical and use this as an opportunity to go beyond that and 
not allow an ideology that cloaks itself in a religion to 
basically have a poison pill that prevents us from dealing with 
it. So if it is a sea of political movement, how else can we 
counter it? How do we promote those Constitutional ideals 
against those that want theocracy, that co-opt our communities 
for wanting to put Shari'a law into government and other 
things? How do we fight that if we can't even discuss it 
because we are worried about offending sensibilities? How do we 
treat the Nidal Hasans of the world if our Government spends 
millions on a report that doesn't even cite his theological 
slip down radicalism? How do I do that? How can I help you as a 
Muslim? How can I help my children resurrect their faith from 
radicalization if I cannot talk about it?
    Ms. Richardson. Well, I think we can talk about it, and we 
talk about it in the terms of the Constitution and religion. We 
don't have to single out the single religion, but we can have 
an honest dialogue about race, we can have an honest dialogue 
about religion if we talk about the fact that it is not just 
the Islamic religion that we are talking about, it is a broad 
spectrum.
    Dr. Jasser. But 220 arrests of terror cases in the last 2 
years, 180-plus were Muslims. So you are going to waste all of 
this time discussing all the other faiths, which I cannot help 
you with, while we have a Muslim problem that I can help you 
with. Not for most Muslims, a minority. But we are going to 
waste all of that time and resources because we are worried 
about offending Muslims because of political correctness.
    Ms. Richardson. Now, I would just suggest to you that every 
type of terror plot is important, and that every life that is 
lost is important. I would not consider it a waste of time to 
talk about extremists of any form or fashion, because they take 
lives. We can talk about--and I won't go through the incidents. 
But that is what is important to me, to make sure that we don't 
focus so far on one segment that we miss an entire segment that 
is going on somewhere else. That is what is important. I think 
that there was a way to do it comprehensively, and I am just 
disappointed that we didn't do it that way. But I think you all 
had some very good points, and I will yield back.
    Chairman King. The time of the gentlewoman has expired. 
Thank you.
    The gentleman from Georgia, Dr. Broun.
    Dr. Broun. Thank you, Mr. Chairman. Thank you all for being 
here.
    When I was in the Marine Corps, I was taught to know your 
enemy, and I think that is extremely important. The focus of 
this hearing today is not the Islamic religion, it is 
Islamists. It is the radical Jihadists. It is the 
radicalization of our youth, as Mr. Bledsoe and Mr. Bihi have 
talked about. I think it is absolutely critical that we as a 
Nation focus upon doing exactly what I was taught in the United 
States Marine Corps, to know your enemy.
    Dr. Jasser, I am very appreciative of your work and your 
testimony, and particularly your answer to Mr. Richmond, 
because I think it is extremely important to focus on who wants 
to destroy this country. I believe that there are entities 
within this country that are supporting those radical 
Jihadists. I think there are organizations that are very public 
that are supporting the radical Jihadists. We need to know 
exactly who our enemy is. We need to focus upon that enemy and 
not let political correctness deter us from that. I thank you, 
Dr. Jasser, in that regard.
    I think political correctness is also an enemy of us 
focusing upon those who want to destroy this country. I don't 
know a single person on this side of the aisle that is 
Islamophobic. I think every single person, every single 
Republican wants to focus on exactly what this hearing is all 
about, and that is the radicalization, which is a tremendous, 
tremendous National security problem.
    Dr. Jasser, we have heard a lot about CAIR, and I would 
like to hear from you what your view of CAIR is. In your view, 
does CAIR represent all Muslim Americans? Does CAIR represent 
you? Is CAIR helping or hurting your effort to try to foster 
peace, to foster liberty and freedom within the Muslim 
community?
    Dr. Jasser. Thank you, Congressman Broun. I will tell you 
that we have to realize that one of the things we are missing 
in these demographics is that Muslims are 4- to 5 million 
Americans, and the minority of them belong to these 
organizations. The minority of them actually go to mosque 
regularly. So we have to be careful.
    Yes, mosques and practicing our faith is something I love. 
I felt involved with that because I take my faith as something 
that I want to practice actively. But many Muslims choose not 
to. That doesn't mean they are not represented by these 
discussions. That doesn't mean we should ignore them.
    What happens is the groups that inherently collectivize 
under the Islamic banner become the representatives of Muslims, 
which is actually not really consistent with our American 
ideals. Yet in the Middle East, there is a lot of banter 
between secularists and Islamists because they realize that it 
is not anti-Islam to be against the Muslim Brotherhood-type 
groups. I think we have to realize when we look at groups like 
CAIR, I believe they come out of that same mentality, which is 
the collectivization of Muslims, and they will use systems in 
order to avoid dealing with pathologies that we need to treat.
    An interesting thing, even the whole concept of American-
Islamic relations, I teach my kids that being American is 
Islamic. There is no relations between the two. It is basically 
inherently the same. So the whole construct of it is built on a 
separation, if you will. I think it is one of actually we may 
be giving it too much importance because it is one of a large 
number of organizations that serve to advance political Islam 
in the West. Rather, there is a sense that those advocates for 
those groups want to bring Islam here rather than absorb 
American liberty, American freedom, and reform our faith.
    The evidence I have of that, look at how much work they 
have done for the Islamist Society in North America, or any of 
them, to modernize the legal systems of our faith to be 
commensurate with the laws of this land and not in conflict. 
You will find that I put in my testimony that groups like the 
Assembly of Muslim Jurists of America that include some of the 
imams that these groups work with, they have never made stances 
against some of the fatwas or religious rulings in there. So 
they basically become enablers of ideas that tell Muslim kids, 
don't really take a citizenship here if you don't have to, if 
you don't want to. You know what? If somebody commits an act of 
apostasy and leaves the faith, our law, if it is Muslim 
majority, they should be killed. This is the law that is on the 
books.
    So my biggest fear, besides all of this discussion, I hope 
we can generate new books, new schools of thought in our 
Islamic legalisms that aren't in conflict with this society and 
give Muslims an identity that is consistent with liberty. These 
organizations aren't doing that.
    Chairman King. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Clarke, is recognized for 
5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chair.
    Thousands of innocent people were killed as a result of 
attacks on this country. It is understandable why the issue of 
terrorism in America elicits outrage and emotion.
    Sheriff Baca, I have got a question for you. But one thing 
I wanted to commend you is that those core values, that your 
deputies make an oath to underscore the rights that we all have 
in this country to be treated fairly by our Government. I 
recognize those rights not only as a Member of Congress who has 
taken an oath to uphold the Constitution, but also, Mr. Chair, 
on a personal note, it is because my father, who cared for me, 
who loved me, was a Muslim. He died when I was 8 years old, but 
I will never forget him. He was a kind and gentle soul. But 
most importantly what I remember is that his love for people 
was based in his faith in God.
    In order for us to make sure that 9/11 never, ever happens 
again, I urge all of us as Members of Congress to make our 
decisions based on sound intelligence, not on profiling, not on 
stereotyping, which could lead and fuel more hatred and more 
bigotry.
    I am going to ask my question in a second, but, Sheriff, I 
commend first responders like yours, because, you know, the 
best way, I realize, to better prepare our country against 
these attacks is to fully equip our men and women who risk 
their lives as police officers, firefighters, as emergency 
medical providers, to make sure they have the resources.
    In Michigan, the Council of American-Islamic Relations have 
worked with law enforcement. As a matter of fact, just last 
year they met 13 times with Federal law enforcement officials 
in order to create a better dialogue between the community and 
Federal law enforcement. I appreciate any thoughts you may have 
to better foster relations between law enforcement and the 
Muslim community. If you choose to, you can cite some examples 
that you know about first-hand. If there is time remaining, I 
would like to yield my remaining time to Member Richardson.
    Sheriff Baca. Well, as we can tell by the testimony of the 
witnesses and your comments, we have a very diverse Muslim 
community in the United States. First of all, organizations are 
more helpful than not. I believe that the message and the 
narrative should be that everyone can pitch in in one form or 
another at the right time. When it comes to encountering 
violent extremism, all resources can count, and we should not 
discount resources in any fashion, irrespective of the various 
points that have been made.
    When we formed the first Muslim American Homeland Security 
Congress--and this is an organization made up of organizations, 
individuals, including the sheriff council and mosques that are 
individualized. What we have when we talk about CAIR as an 
organization, CAIR supported the development of the Muslim 
American Homeland Security Congress. Furthermore, they support 
the Muslim outreach program that I am doing.
    What I think has happened here is that CAIR is only a 
multitude of chapters, not one single organization. In southern 
California I have not heard of any substantial complaints from 
my deputies who are involved in the investigative processes 
that I alluded to in my earlier testimony of saying, don't 
cooperate. Now, what is going on in other parts of the country, 
I cannot attest to. I have never had a briefing on the whole 
issue from the FBI as to what their particular position is.
    But I will say that when I asked after particularly the 
London--and excuse me--after 9/11, I asked CAIR, if I were in 
your position, I would post admonitions in mosques, if you have 
that ability to, to advise the attendees that come to pray to 
not bring in extremist points of view. This was very 
particularly important to me because at one mosque that I went 
to, a young man came up to me when we were in a meeting of 
solidarity amongst the faiths, and I had the wife of Supervisor 
Zev Yaroslavsky with me, who is Jewish. He couldn't make the 
meeting. I was holding onto a Koran, and an individual, a young 
man, came up to me and said, you are forbidden to hold the 
Koran. Then what I said was, well, you better open up this 
Koran, because it was given to me by the imam of this mosque, 
and it is people like you that are giving the Islamic 
community, the Muslim community a bad name. He just walked out, 
and that was the end of that little confrontation.
    But the point here is that I have not experienced anything 
that suggests that CAIR supports terrorism in the southern 
California CAIR organization.
    Chairman King. The time of the gentleman has expired.
    The gentleman from New York, Mr. Higgins, is recognized for 
5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Chairman King. I am sorry. Actually I go back to the 
gentlelady from Michigan, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    Sorry, Mr. Higgins.
    Mr. Chairman, first of all, I want to thank you very much 
for holding this hearing. I think it is very, very important. 
Certainly after listening to the testimony today of all of the 
witnesses, it is very clear that we have situations here in 
America that we need to examine candidly as we all seek the 
very same thing, which is a strong, safe, secure America.
    In the run-up to today's hearing, we heard an awful lot of 
talk about how we should not be prejudging any one single 
group, and I appreciate that. I think after hearing the 
compelling testimony today, I think many, many, particularly in 
the media, were just as misguided by prejudging what this 
hearing was all about, because I am very hopeful that this 
hearing will actually strengthen our country. I think it is an 
opportunity to have an actual pivot historically for us and to 
help us all to stand together as Americans first above 
everything else.
    I would just make an observation. I know so many of my 
colleagues have mentioned that we should be having all of these 
other hearings on other groups who could potentially be a 
threat to America, I don't know why we have never had any of 
those hearings during the last 4 years. Here we had the Fort 
Hood massacre and didn't have a hearing on it, but we were 
having hearings on FEMA trailers.
    I represent a district in southeast Michigan, right next to 
Mr. Dingell who spoke earlier, and next to Mr. Clarke from 
Detroit as well, and as you have heard, we have the largest 
Arabic population in the country, a very diverse Arabic 
population with Lebanese, Syrians, Iraqis, Chaldeans, 
Palestinians, Jordanians, Yemenese, and many, many others. 
These proud Americans make up a very important and vibrant part 
of our community.
    Before I came to the Congress, I actually had the great 
honor and privilege of serving as Michigan's secretary of 
state, which two of my principal responsibilities were, first 
of all, running the State elections, but, secondly, serving as 
the motor vehicle administrator. I worked very, very closely 
with the Arabic community to make sure they were registered to 
vote, if they were eligible, and then issuing their driver 
licenses. I remember running into a bit of buzz saw when we had 
some female members of the Arabic community who didn't want to 
have their driver license photos taken unless they were 
completely covered with just their eyes showing. We said, no, 
if you are going to have a Michigan driver's license, which is 
used as a fundamental part of your identity, you have to have a 
picture taken. We tried to be very sensitive having a female 
clerk take the picture after hours in a back room, et cetera. 
But we want to be very sensitive to cultural differences, but 
in America we have equal rights for all and special rights for 
none.
    Recently Adam Gadahn, who was born in California and then 
radicalized, made a statement. He is actually known as the 
American spokesperson for al-Qaeda in the Arabian Peninsula. He 
made some comments several months ago calling on Muslims--and I 
will quote--living in the miserable suburbs of Detroit to take 
the initiative to perform the individual obligation of jihad.
    I would say that radical al-Qaeda thugs do not speak for 
our neighbors who stand up for American ideals of liberty and 
freedom and democracy. Again, it is my hope that this hearing 
will reiterate to those in the mosques or just in the Muslim 
community anywhere that if they hear of efforts from radical 
extremists to pedal their hate of radicalization, that they 
understand that they can and they must come forward to law 
enforcement to assist.
    My question would go to Mr. Bledsoe. Your testimony, sir, 
touched me, and particularly as you say how you have Muslims in 
your own family. How do you think America could better educate 
ourselves, sir, on the religion of Islam, the Islam religion, 
so that others, particularly parents, might be able to 
recognize if their children have turned the wrong way on a very 
proud and peaceful religion to the wrong side of this religion, 
to one that is the hate and it has perverted that religion? How 
do you think we could better educate ourselves?
    Mr. Bledsoe. I think we can better educate ourselves by 
first teaching American citizens, American children what Islam 
is and what Islam is not. I think that it is one thing that 
needs to be done. More American citizens need to be educated 
about the religion and not be afraid to understand the 
religion.
    I want to go back where I am speaking here to the sheriff 
when he spoke about you have got to call the police when you 
see different things happening. In the process of radicalizing 
someone, especially with my son, we did not know what was 
happening when he was taking his dogs out in the woods and 
leaving them or taking a picture down off the wall. It is 
something new to America. It is something new to me. As I 
couldn't quickly just say because you have become a Muslim that 
you cannot do these kind of things. I felt that was part of the 
cultural--learning the religion. But yet I found out later it 
was more than that.
    So I am saying to the American people, it is a process what 
happens. It takes a while sometimes to realize that your child 
is being radicalized. But what I have said today, I hope that 
someone is listening, and if you find that your child is 
getting rid of their dog they already had for many, many years, 
or he is distancing from the family, staying away from the 
family, not coming home from college on holidays, yes, you 
should perhaps call the law enforcement and get them involved.
    Chairman King. The time of the gentlelady has expired.
    Now the gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, finally.
    I just wanted to thank the panel. This has been a very 
productive discussion, one in which I have learned quite a bit 
from.
    In the aftermath of 9/11, we were all taught that we are 
not at war as a Nation with Islam; we were at war with those 
who hijacked that religion and used it to justify their 
murderous and cowardly acts. From that, a lot of relationships 
were developed between the law enforcement community, local, 
State, and Federal, with the Muslim community, to try to better 
understand one another.
    I think we are at a point where progress has been made, but 
still much work needs to be done. When I look at or hear the 
sheriff from Los Angeles talk about the programs that have been 
developed in your community, it is very similar to that of my 
community in Buffalo, New York, a smaller city. Directly south 
of Buffalo is a city called Lackawanna, an old steel city that 
was home to the Lackawanna Six. It was six Muslim American men 
who were convicted of providing material support to al-Qaeda by 
training in their camps in Kandahar, Afghanistan.
    Efforts are being made in our community now--they were very 
young. Efforts are being made to deradicalize, to 
counterradicalize, and that should be, I think, the focus of 
what it is we are doing in promotion of movement forward in 
that direction as well.
    There is a lot of misunderstanding when you get into this 
issue, and people, I think, get invested into their emotional 
positions that really don't have a factual base. I will give 
you an example. In this Nation, we have not only a Christian-
Judeo tradition, we have a Christian-Judeo-Islamic tradition in 
this Nation. At the basis of those religions are compassion, 
forgiveness, love, and tolerance. The prophet Muhammad is the 
prophet of mercy. In my Catholic tradition, I was raised by the 
Sisters of Mercy.
    So I think we all have a lot to learn from one another 
about this issue. We have a long way to go. The radicalization 
of Muslims in America is in large part influenced by the 
convergence of new technology that allows groups to communicate 
in ways that they never were able to before. Al-Qaeda in the 
Arabian Peninsula has a publication called Inspire. They are 
trying to influence throughout the world unlike they have ever 
been able to do before since their inception. These present 
extraordinary challenges. So I think that provides a basis from 
which our Nation, all our law enforcement agencies in each 
individual State, each individual locality, developed those 
relationships with the Muslim American community, because in 
the end, we are all Americans. People don't come to this 
country by and large to create havoc; they come here because 
they thirst for freedom that we have, and that is what they 
want for themselves and their families.
    So, Sheriff, if you want to just elaborate a little bit 
further on some of the programs you have been working on, I 
would be very interested in that.
    Sheriff Baca. Well, thank you, Congressman. I will share 
with you what the Muslims themselves in Los Angeles are 
interested in, and this is part of the relationship building. 
They are interested in and we have given them programs on 
domestic violence, we have given them programs on gang 
activities and awareness, youth and teens driving education, 
the terrorism issue obviously, narcotics education and 
awareness, and identity theft awareness and avoidance.
    I was listening to your overview, which I wholeheartedly 
agree with. When you think about it, most Americans don't think 
on a daily basis like we do here. We are obligated to think on 
a very high level of concern and sophistication, and we can 
disagree all we want, but the truth is that the average 
American should be able to go about their business on a daily 
basis and not have to worry about this, because that is what 
they are paying us to do.
    So in the context of your question, what I think is the 
bigger problem is that most Muslims don't even know what the 
Koran is all about. This is my assertion. When I go around and 
I start talking to people, since I have been given a Koran I 
have been obligated to read it, and there are references to 
Mary, the mother of Jesus in the Koran, there are references to 
Moses and Judaism. According to the widespread belief of Islam, 
you cannot be a Muslim unless you honor Judaism and 
Christianity. You cannot exclude those two faiths from the 
eternal composition of what the prophet was saying when this 
whole Koran became what it is.
    That I think is my biggest advice to the Muslim community 
in America: Get smarter on your own faith. Praying five times a 
day is a ritual that is important, but it is not Islam. It is 
the ability to have a sense of tolerance for Judaism, 
Christianity, and all faiths of the world. That is the message 
I think is not being heard by the American public.
    Chairman King. The time of the gentleman has expired.
    Mr. Walberg from Michigan, please, is recognized for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think it is an important time to do it, 
and it is a time to carry on what this committee was originally 
established to do. I thank you as well for hanging the pictures 
in the back of the room again to remind us of the purpose of 
this committee, that we would understand liberty, and its price 
is eternal vigilance.
    I thank the witnesses for being here today, and, yes, 
indeed for Muslims being here and cooperating today, because 
indeed it is the Muslim community that is at the table today 
and represented at the table today that I think desires to have 
a change in what is going on and the perception that results 
from positive effort in standing against the radicalization of 
their young people, and others who aren't their young people 
but are being pulled in.
    So I thank you for your courage in stepping to the table 
today and sharing with us your story. To allow that story to be 
told more, let me just quickly go to a question.
    Dr. Jasser, what do you hope will be taken away from this 
hearing today for Muslim Americans and also for non-Muslim 
Americans?
    Dr. Jasser. Thank you, Congressman. I hope we see this as 
the beginning of a dialogue. It is interesting, some of the 
feedback I got leading up to this was: What is the Government 
doing getting involved in religious issues? It is against the 
First Amendment. But now as I heard the conversation just a 
second ago, I saw that religious issues are all right as long 
as everything is positive.
    Certainly that is the Islam I teach my children. But we 
have to realize there are many Islams out there, and if we are 
going to protect our homeland, we need to develop a strategy, a 
forward strategy with a platform for organizations that are 
Muslim and our Government to work together in a public-private 
partnership.
    I think a lot of the discussion here has been healthy as 
far as the cooperation that exists. There are a lot of 
partnerships that exist that have been very helpful. But those 
partnerships are about the crime element, the violence. The 
problem is far deeper. It is an ideological one.
    It is where you see, for example, in Michigan, there was a 
shooting of an imam who was basically running a radical sect 
called Ummah. His name was Luqman Abdullah, and the Islamic 
groups, including CAIR Michigan, had to have an autopsy redone 
because they were worried that the shooting was inappropriate. 
No mention of the ideology of separatism, that he wanted to 
have an Islamic state.
    All these things that we should be filling the internet 
with new ideas, we are not doing; and our homeland security is 
at risk because those things cause a continuum of 
radicalization; and we need platforms to begin to do that at 
universities, at think tanks, at all the institutions that this 
Government helps change the agenda of society. I hope this is a 
pivot point in changing the agenda so you can help me and us 
and other organizations--there are a lot of other organizations 
like mine doing this reform work--and not allow just the 
revivalists to get the microphone, but the reformists, to say 
that we want to modernize.
    Mr. Walberg. I have many Muslim friends both in Michigan as 
well as in Uganda. In the recent Somalian bombings that took 
place at the World Cup, during the World Cup experience, and in 
Kampala, Uganda, I thankfully still have a very, very dear 
friend who was at that restaurant who was chaperoning an 
American group of people. He is Ugandan. There were Christians 
and Muslims in the room at the same table. Due to two bodies in 
between my friend and the suicide bomber, he lived. He lived to 
transport bodies and victims to the hospital in a van that I 
have traveled in many times and many miles.
    After that bombing, the word came out from the Somalian 
Muslim terrorist group al-Shabaab apologizing to Ugandans for 
their lives being lost, because their efforts were to go after 
Americans and whites.
    Now, you have experienced it first-hand, Mr. Bihi. How 
concerned are you that other young Somali males from your 
community may be radicalized and influenced to join the violent 
jihad either in the United States or Somalia?
    Mr. Bihi. We are really very concerned. We are extremely 
concerned that we have our immediate outreach concerning this 
matter right away, without funding, no support, with all those 
pressures and silencing. We won the hearts of hundreds of 
people, young people, not to change their mind. We have 
influenced it, as you have heard. We have a huge task for us 
because of the long running civil war by al-Shabaab in Somalia, 
over 25 years now. We have influence in Denmark, the community 
in Denmark. We have influenced the community in Canada, in 
Sweden, in Switzerland, in Germany, in London, in Lancaster, in 
Liverpool, in Malaysia, and all over the world, Luxembourg, the 
Netherlands, in Ireland.
    We are getting tired of every time there are young Somali 
men being indicted because their intention is to do a jihad. We 
are victims vulnerable to organizations that are picking on us 
like salmon fish. Every time we try to speak up against this we 
got problems. We are intimidated by strong organizations that 
are not welcome in our community because we are not going to 
stop.
    As a matter of fact, Uganda, it made us--I and my youth 
corps there, we decided on the table, on the news, to do a 
Ramadan, it was a Ramadan time, a Ramadan basketball tournament 
for the youth. Because from my experience I am an expert, I can 
say that, I have been there from the beginning. I don't just 
mention it to the media. We find out that we see eye to eye 
with each other, on the coffee shops showing the young men how 
glorious it is, how principled they are riding these horses, 
exploding themselves, seeing all the glorious things, and we 
have to prevent that in Uganda.
    So immediately we organized, with no penny to rent a big 
machine to organize 400 young men to play basketball.
    Chairman King. The time of the gentleman has expired.
    Mr. Walberg. I wish you all good success.
    Chairman King. The gentlelady from California, Ms. Speier, 
is recognized for 5 minutes.
    Ms. Speier. At the outset, I find this hearing to be 
grossly incomplete, and I feel that without the representation 
of the Department of Homeland Security, the FBI, the Department 
of Justice, we are seeing a very skewed discussion, with the 
exception of Sheriff Baca is here.
    While I think these anecdotes are interesting, I don't 
believe these are experts. I would suggest if we are really 
going to be complete in this hearing, we should also be 
investigating the Army of God and their website in which they 
openly praise Christian terrorists as part of an effort to look 
at home-grown terrorism in this country.
    Let me start by first asking Dr. Jasser if you believe the 
majority of mosques in this country are actively recruiting 
terrorists.
    Dr. Jasser. That is not what I said, ma'am.
    Ms. Speier. I am just asking you that question.
    Dr. Jasser. No, I don't believe the majority of mosques are 
actively recruiting terrorists.
    Ms. Speier. Do you believe that you have expertise to be 
speaking?
    Dr. Jasser. It is interesting. That is the question that 
the theocrats ask me all the time, so it seems like you are 
asking me the same thing. My love of my faith, my demonstrable 
experience in dealing with this issue of reform, of knowledge 
of not only my scripture and my practice of faith, but the 
Constitution, I think positions me pretty well to deal with it 
and be part of a solution.
    I am not sure who else you would like to solve this 
problem, but I think it is only Muslims that can do it. It 
would be sort of like asking at the time of the American 
Revolution that you want to have testimony about the Church of 
England's threat to America and you would only listen to the 
priests. That would be wrong, because it was the lay community 
that ultimately--the intellectual lay community that understood 
their faith that brought about the reform and the change 
against the establishment. So I hope you don't look upon 
expertise as something that gets handed down from the clerics, 
most of whom are part of the problem.
    Ms. Speier. No. But I am a practicing Roman Catholic. I go 
to church every single Sunday. I am a lector in my parish, and 
I am no more prepared to speak about the pedophilia in the 
Catholic Church because I am a practicing Roman Catholic.
    I think we do need to have experts come here to testify on 
home-grown terrorism in this country. While I appreciate the 
anecdotes of those who have spoken, I don't think that they are 
necessarily very enlightening.
    Sheriff Baca, let me ask you, how important have Muslim 
Americans been in your efforts to foil terrorist plots in Los 
Angeles County?
    Sheriff Baca. Well, Los Angeles County is blessed. As you 
know, we haven't had an attack as such, and I think that the 
ability to prevent it is what we are trying to do more than 
anything else. Our weighing of success across the Nation cannot 
be weighed alone by Los Angeles' model.
    What I do believe is if I were a New Yorker or if I was a 
D.C. resident or even someone in the fields of Pennsylvania, 
that there is a whole different reality about terrorism when it 
happens in places that you love and have grown up in in the 
more specific way.
    Therefore, the variability of the panel today is that I 
speak about what I do to prevent terrorism. These individuals 
have a more intimate weigh-in on the issue of terrorism. The 
doctor on the other end is a scholar, more so perhaps than even 
a medical doctor.
    But the truth is this is the most difficult subject to get 
your arms around. I believe that our country is doing 
magnificently, given all the complexity of a big country that 
spreads not only throughout the mass land of America, but 
everyone round the world, particularly the countries abroad.
    Where I am stepping in to say where I am helping, I am 
helping the Middle East police departments and I am dealing 
with Muslims that are in my profession around the world. We 
didn't even get into that, because we are not going to deal 
with anything without the connectivity with resources outside 
of America with those inside America.
    Ms. Speier. If I could interrupt for one more question, I 
am running out of time. I don't know how much discussion has 
been had about the lone wolf phenomena, but certainly the 
Congressional Research Service and their review has spoken 
about the lone wolves. We have seen it in the Jerad Loughners, 
in the Timothy McVeighs, in some of the--the Christmas day 
bomber and the like.
    So what would you say about the risk of home-grown 
terrorism coming from what are called lone wolves?
    Sheriff Baca. Well, it is definitely there. The concept of 
a lone wolf terrorist is based on a variety of explanations, 
but it is definitely part of the element of an attack that will 
occur similar to the one in New York. But there is always help.
    The lone wolf theory is an interesting one. Rarely does 
anyone have the smarts enough to pull off one of these attacks 
on their own. So I think the fact there is a lone person, 
whether it is Abdulmutallab coming out of Nigeria on a 
Christmas holiday period, they will execute on their own as a 
single person, but behind them there is always someone around 
that is a pure Jihadist, violent Jihadist, who is helping them 
accomplish their mission.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from Minnesota, Mr. Cravaack, is recognized 
for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. I would like to 
thank the members of the panel, particularly Mr. Bledsoe, Mr. 
Bihi, and Mr. Jasser. I do consider your testimony expert 
testimony.
    Mr. Bledsoe. I want to say thank you.
    Mr. Cravaack. You live it every day. You have been fighting 
for it in Minneapolis every day on a daily basis. I commend you 
for your courage, your conviction. I applaud you, especially 
Mr. Bihi, living in Minneapolis and Minnesota. I understand 
what you have gone through, and I understand the trials and 
tribulations that you have gone through as well. I commend you, 
sir, not only you, but also your family members that have also 
been brave through this whole thing as well, because you, sir, 
have been under persecution by entities that are supposed to 
represent the Muslim faith.
    I commend you, sir. Mr. Bledsoe, I just can't say that 
enough, and thank you very much for your courage.
    Mr. Bihi, you are representing voices from Minnesota, 
families whose sons have been radicalized and sent abroad to 
wage jihad against Muslims and non-Muslims living in Somalia.
    At the forefront, I want to recognize here and in a very 
public way that Minnesota Somalis are by and large good people 
who are here chasing the American dreams that my grandparents 
came forward for, just like you, raising their kids to be great 
Americans and bettering our great State, the State of 
Minnesota. I reject the message from some on this committee and 
these hearings as doing anything but initiating an open process 
and not only protecting Muslim Americans, but protecting all 
Americans.
    My goal is to put a spotlight on this particular issue and 
then refocus this lens on the small number of individuals and 
organizations in the Muslim community that are 100 percent 
committed to totally implement Islamic law, which is in direct 
violation of Article VI of the Constitution of the United 
States.
    So, again, gentlemen, I thank you very much for your 
commitment to this.
    Sheriff, I just have a couple questions for you, if you 
don't mind, sir. Thank you for your service in the Corps.
    Sheriff Baca. Semper fi, Marine.
    Mr. Cravaack. I am sorry, sir, I am a Navy guy, so I hope 
you won't hold it against me. But I hauled lots of marines in 
the Philippines in CH-53 Echoes.
    Sir, I have a question for you in regards to CAIR. You are 
aware that this is a Hamas and Muslim Brotherhood entity; is 
that correct, sir?
    Sheriff Baca. No, I am not aware of that.
    Mr. Cravaack. Let me bring this to your attention then. 
This was actually proven in an FBI-identified 1993 Philadelphia 
meeting, Hamas meeting, in that all attendees of this meeting 
are Hamas members. The two people that were in that meeting 
were both founders of CAIR.
    So my question is, sir, basically what you are dealing with 
is a terrorist organization. I am trying to get you to try to 
understand that they might be using you, sir, to implement 
their goals.
    Sheriff Baca. Well, thank you for asking me that question, 
but it sounds more like a possible accusation, me being misused 
by an organization that, quite frankly--let me just answer you 
this way: I am an elected official, as you are. If the FBI has 
something to charge CAIR with, bring those charges forward and 
try them in court and deal with it that way.
    There is a reality that in my culture, as a police officer, 
that you have facts and you have a crime; deal with it. We 
don't play around with criminals in my world. If CAIR is an 
organization that is a ``criminal organization,'' prosecute 
them. Hold them accountable and bring them to trial.
    Mr. Cravaack. My time is limited, sir. Are you saying that 
the FBI was wrong in identifying that CAIR is part of Hamas, an 
entity of Hamas?
    Sheriff Baca. Let me say this: You don't want to cause a 
conflict between me and the FBI. We work together better than 
perhaps this committee works together.
    Mr. Cravaack. That would be an understatement at this 
point. Sir, I am just asking you a question. Let me ask you 
this hypothetical question then. If you knew that CAIR was a 
terrorist organization sponsored by Hamas, would you continue 
to work with them?
    Sheriff Baca. You are asking me a question that I am not 
qualified to answer because I am not representing Hamas, I am 
not representing CAIR, I am not representing anything other 
than your personal safety. I do work well with your police in 
the great State that you represent.
    Mr. Cravaack. Sir, I am doing the same thing. I am just 
trying to protect the United States of America citizens. Thank 
you very much, and I yield back my 10 seconds.
    Chairman King. The time of the gentleman has expired, and 
the only addition I would make is that this committee usually 
does get along pretty well.
    The gentlelady from New York, my colleague, Ms. Yvette 
Clarke, is recognized for 5 minutes.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
Let me say that today's hearing has been a great Congressional 
theater, certainly the equivalent of reality TV, and I am just 
really appalled at the fact that we have not really gotten to a 
substantive conversation about how we define terrorism, how we 
define the whole idea of radicalization. Because just in 
listening, if I had my eyes closed and listening to Mr. Bledsoe 
and Mr. Bihi--not to diminish what they have been through, 
because their experiences are real--but I have parents in my 
district who can sit and talk about their children being 
recruited, their children being brainwashed, and their children 
are gang members. The bloodshed, the lives that have been lost 
in communities like mine across this Nation since I have been 
here, has not been an issue of Homeland Security.
    When I hear Dr. Jasser talk about the concerns about the 
elements of radicalization in existence in Islam, I am also 
reminded that there are those same elements evident in 
Christianity and in Judaism. I know, because I represent all 
three faiths in my district. As someone directly impacted by 9/
11 and who has lived in a community where we have respected 
every human being, irregardless of their background, their 
ethnicity, their religion, to see us come to this day where we 
are pointing fingers at one another, I don't see the benefit in 
it.
    I see the benefit in the approach of Sheriff Baca. I see 
the benefit in us opening up the dialogue. But I don't see the 
benefit in stigmatizing, in finger-pointing, or even creating 
the specter that it may occur--even if it doesn't--as being 
something worthy of where we should be in our collective 
humanity in the 21st Century.
    So while I can empathize with the challenges faced by these 
families, we can all point to instances in our districts where 
families are suffering. The goal here should be how do we 
address that suffering through communication, through dialogue, 
through enlightenment, which is where we need to be in the 21st 
Century.
    I would like to take this moment and yield the balance of 
my time to the gentlelady from California, Ms. Laura 
Richardson.
    Ms. Richardson. Thank you, Ms. Clarke. For the record, I 
wanted to clarify and build upon the last question I asked you, 
Sheriff Baca. There have been two issues that Mr. King brought 
up for this hearing. One was the fact of are American Muslims 
cooperating with law enforcement. The second issue is the 
scope.
    So I just want to clarify. Your answer was you think these 
hearings are good. I agree having an open discussion about 
problems and preventing terrorism is good. But what I want to 
clarify for the record, so it is not used against us, is do you 
agree that discussions like this should not--sure, we should 
talk about preventing terrorism and radicalization, but should 
the scope be so narrowed only to include American Muslim 
communities, or should other communities and other groups also 
be discussed in this same fashion? Because thus far, we haven't 
been told of those hearings.
    Sheriff Baca. Well, I believe it depends on the time and 
scope. I know that you have heard significantly from all four 
of us, and I think that these witnesses are incredibly 
important. But if you try to package it all up in one big 
group, we will be here for 3 weeks.
    Ms. Richardson. Sheriff Baca, I am not suggesting all 
necessarily in the one time. But it is very important we have 
this answer, and I have 32 seconds. The question is: Don't you 
think there should also be a discussion of the other groups?
    Sheriff Baca. Oh, definitely. In my testimony, you know, 
more radical extremist acts of crime are occurring in the 
United States of America on the reports that have been given by 
Members of Congress and myself on this committee that non-
Muslim extremists are a problem in this country. You know, we 
don't have to go too far back in history to understand what the 
Ku Klux Klan is all about.
    I believe the sensitivities are, the sensitivities are if 
you lived in New York and you lived in Washington and you lived 
in places in the United States that were harmed by these 
terrorists on 9/11, or if you lived in parts of America where 
you were lynched or you ultimately had your churches burned 
down, there is no difference in the outcome. So, I think that 
there is a reason for different points of view on this matter.
    But I am glad for the consciousness that we have here on 
the discussion, because I am a very strong opponent of any kind 
of violence that is basically so indiscriminate. Whether it is 
Holocaust violence or just one individual, either way, the 
damage is unacceptable to civilization.
    Chairman King. The time of the gentlewoman has expired. The 
gentleman from Illinois is recognized for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman. Again, you have heard 
this before, but thank you for having the foresight and the 
courage to put this hearing on.
    Mr. Bihi and Mr. Bledsoe, a colleague on the other side 
referred to you as not expert, your testimony as not expert 
testimony. I think the word she used to describe your 
experiences was ``interesting.''
    Mr. Bihi, Mr. Bledsoe, take a shot at that. What you both 
have gone through, is ``interesting'' the word you would use to 
describe it?
    Mr. Bledsoe. No, I will describe it as a tragedy. I would 
also like to say to perhaps the person who was speaking on the 
other side, I am wondering how do they get on the Commission to 
speak about some of the things they are speaking about? I mean, 
we are not talking about how much of a professional or expert 
you are. We are speaking about what happened here to our 
children and what we are speaking about is what may happen to 
your children. We are speaking about the danger. I think most 
of the people that I am hearing on the other side are talking 
about political fear, and that is what I mostly hear here.
    There are certain populations, a small population we are 
talking about, the Islamic extremists, who we worry about 
stepping on their toes, and they are talking about stamping us 
out, not just stamping us out, but everything that America 
stands for. I am wondering why the people don't pull their 
blinders off.
    Mr. Walsh. Mr. Bledsoe, to that point, what do you think 
they are afraid of? Fear of what?
    Mr. Bledsoe. I think it is political fear, perhaps not 
getting reelected or whatnot. But this is real. This is the 
real thing happening in America. It is not going to happen by 
not doing anything about it, that is for sure. I think if you 
ignore that we don't have a problem, then you are inviting the 
problem to come again.
    Mr. Walsh. Mr. Bihi, what word would you use besides 
``interesting'' to describe what you went through?
    Mr. Bihi. There are no words to describe what I went 
through or those families went through. We basically put our 
neck out, all of us, and we destroyed ourselves.
    Well, would we do it again with this type of environment 
all the time, that we are facing murders just for speaking out 
for our country and our children or for our communities? Yes, 
we will do it. Because the immensity of the danger, the 
immensity of the danger, the person or organizations that was 
very successful could change the brain of your lovely kid who 
loves you so much and make him to go to the worst place on 
Earth and explode himself, that organization is dangerous.
    It is not about Bihi or my brother here being experts. We 
are not looking for justification. We are looking to save the 
rest. Our kids died. My kid died. Many of them died. We never 
stop. We paid the price for speaking out. We never stopped. We 
saved hundreds and hundreds in the United States, thousands.
    So I think it is good to reward those families who speak 
out to save others. His son is in jail. We are trying to save 
the rest, not looking to be experts. But we are the damn best.
    Mr. Walsh. Dr. Jasser, why are so many other American 
Muslim organizations afraid of holding these hearings? They 
didn't want to hold this hearing. What in your estimation are 
they afraid of?
    Dr. Jasser. You know, that is a great question, and I 
think, you know, at the end of the day, change is very 
difficult. I was asked about what I am doing here. My family 
asks me that frequently because of all the pressure we get 
because of what I do. It is not an easy task taking on an 
establishment, taking on a mentality that will not change, that 
will not reform, that will not realize that there are changes 
that have to happen internally in ideology in order to prevent 
this cancer from happening. So the pressures are innumerable, 
especially for a minority population.
    It is interesting that they are circling the wagons, 
instead of I think the best way to let fear of Muslims melt 
away is to have them see us leading the charge. In many ways 
also we are not intellectually equipped, I think from a 
religious standpoint, because we haven't had the infrastructure 
built in liberty and theology, because so many Muslims I think 
don't understand the faith well and have not been educated in a 
Western mindset.
    We have to build these infrastructures to allow that reform 
to happen. But it is a lot of tribalism, I think, and circling 
of the wagons, and that has to change, and they don't want to. 
Change is difficult.
    Mr. Walsh. Thank you all, and thank you, Mr. Chairman.
    Chairman King. The time of the gentleman has expired.
    Mr. Davis from Illinois is recognized for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. I want to 
thank all of the witnesses for coming.
    As I have listened, I have heard the Constitution being 
mentioned a number of times, and I thought of the Preamble that 
simply says that we hold these truths to be self-evident, that 
all men are created equal and endowed by their Creator with 
certain inalienable rights, and that among these are life, 
liberty, and the pursuit of happiness. I would also say the 
pursuit of justice. I think all people want to be viewed and 
treated the same way, with equal rights, equal protection under 
the law, and the opportunity to pursue what they think, 
especially as long as it is not violating the rights of others.
    Sheriff Baca, I have always been--since I have known about 
you--impressed with your law enforcement career, especially the 
way that you handled things like law enforcement misconduct and 
the way that you try to bring people together to understand the 
role of law enforcement. I was just thinking, you know, the 
city of Chicago is looking for a police chief right now. While 
we wouldn't try to steal you, but we would like to clone you if 
we could and just bring you, because I think that you represent 
a level of law enforcement professionalism and understanding of 
what the role of law enforcement is that I have been looking 
for, searching for, and wanting to see ever since I have been 
involved in public life.
    So I simply commend you for the way in which you have 
expressed yourself today and for the track record that you have 
developed.
    I would like to ask Mr. Bihi and Mr. Bledsoe a question 
right now. I understand fully. I live in inner-city Chicago. I 
have lived there all of my adult life. We have a large Muslim 
community gathering sometime with 15,000, 20,000 people will 
actually go and listen to Minister Farrahkan speak and will be 
enthralled the whole time.
    What conditions do you think exist that cause radical 
groups to think that they can successfully recruit and 
radicalize young people, especially in neighborhoods and 
communities like the ones that I just described?
    Mr. Bledsoe. Well, I do know a little bit about Chicago, 
and you are speaking mostly of what they call Black Muslims and 
Louis Farrakhan and Elijah Muhammad and Malcolm X followers. I 
think there is somewhat of a difference. But as far as the 
recruitment part, I think the recruitment part would come 
before, like when people are denying that we have a problem. 
That is what the recruitment people will go after: If we don't 
have a problem, then they can recruit easier.
    Mr. Davis. I will agree, I do mean African Americans, but I 
must confess my breadth is much bigger, much wider, much 
broader, and I interact with all kinds of Muslims pretty much 
on a regular on-going basis.
    What I am really trying to get at, I guess, is are there 
situations that would cause individuals to believe that they 
are going to be successful? I don't go hunting unless I think 
some game is there. I don't go fishing unless I think there are 
some fish in the lake.
    Mr. Bihi. May I answer that, sir?
    Mr. Bledsoe. Well, I am going to add something. There are 
professional people out there that are looking for just that. 
There are professional people looking out to recruit American 
citizens not only in Chicago, but a lot of other American 
cities.
    Mr. Bihi. Sir, if I may add, yes, there are many reasons as 
to why they are looking for our youth. No. 1, if you look at 
the similarities of those missing from Minneapolis or from 
Denmark or from Copenhagen or from Sweden or from Lancaster, 
they all share one thing. They are all Muslims from single-mom 
households; young men that usually don't have mentorship at 
home, are almost 85 percent.
    No. 2, they are looking for very smart young people who 
have never had any problem.
    No. 3, they are looking for kids who are from America and 
those Western countries, who are from those countries that will 
not have a problem when they are trained. They can go back and 
slip into those countries, and once they have their policies on 
the idea so they can just order them to do those dirty, wicked 
jobs.
    Mr. Davis. Thank you very much, and thank you, Mr. 
Chairman. I yield back.
    Chairman King. The gentleman from Pennsylvania, the former 
United States Attorney, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. I want to thank this 
entire panel. I know it has been a long process, but I really 
do believe that we are gaining a great deal from your insight.
    Sheriff Baca, I want to thank you for the work you do. I 
know you represent all law enforcement. I had the good 
opportunity to come in as the United States Attorney just a 
week after September 11, and I watched colleagues like you all 
across the United States fan out and reach into the community. 
I have to say we got a great deal of dialogue from members all 
across, including many who practiced the Muslim faith. So I 
don't think the issue really today is so focused on the 
question of dialogue. It is as much the question of are we 
getting the right ability to communicate in a way that helps us 
prevent the next event.
    I have been aware that one of the things that we were asked 
to do by the very experts that aren't here today was to go out 
into the community and speak to folks just like you so we could 
understand better how to handle this. I have tried to look at 
the broad spectrum of things that have been put forth quite a 
bit here today.
    Dr. Jasser, I am going to focus on something that you 
touched. It is into this area between this elephant in the room 
that we are not supposed to be talking about, religion, and 
jihadism. You made a statement that the root cause of Muslim 
radicalization--and this is what it is about, is--Islamism, 
political Islam. Then I was struck by your word, how can law 
enforcement effectively do counterterrorism in our country 
without recognition that political Islam and its narrative is 
the core ideology, when at its extreme it drives the general 
mindset of the violent extremists carrying out attacks. That is 
what we want to prevent are those attacks.
    Can I ask you to describe in more detail what do you mean 
by political Islam?
    Dr. Jasser. Thank you, Congressman, for asking me that, 
because I think it is so vital to understand that. As we have 
heard repeatedly, there is Islam, my faith, which is moral 
concepts of integrity and honesty and virtuousness, and what I 
bring to my scripture and my relationship with God, as the 
Judeo-Christian tradition is.
    Then there is the political Islam which is the movement to 
create a theocratic state based on Koranic interpretations that 
uses Shari'a or Islamic law or Islamic jurisprudence. Now, I 
may practice Shari'a or Islamic law in my life, but that is a 
choice. Our organization believes that it is no longer 
religious law, it is no longer a religion if government coerces 
you to do that.
    But that antagonism between this country's understanding of 
the establishment clause and the beauty of liberty versus 
political Islam, which wants to put into place Islamic states 
like Iran, like the Taliban had in place, or like the Wahhabi 
system in Saudi Arabia. Or, milder yet, there are versions of 
political Islam that are 3.0 or 4.0, that use democracy in 
elections but yet end up still being based not in reason but 
societies based in scriptural exegesis, where the only people 
that can have opinions are scholars of Islam, and therefore lay 
Muslims like myself get dismissed from proceedings because we 
are not experts in Islamic law and therefore it becomes an 
oligarchy. That is what we are up against.
    There are the extreme versions, like Osama bin Laden, that 
believes in caliphism, or trying to create a global hegemony of 
Islamic states, and there is the more sort of slippery versions 
that believe in democracy. I think you can look at the threat 
by looking at why most of the radical groups around the world 
were hatched from Muslim Brotherhood ideology. People should 
read up those ideas and look at what they have done.
    I think as we understand that, you will see a lot of those 
ideas influencing identification of Muslim leaders. I put in my 
materials in the appendix some charts that look at the 
radicalization process. One was from the NYPD report. The other 
was from a counterterrorism expert, Patrick Poole, who looked 
at the fact that you end up with terror on the top, but there 
are a lot of feeders into that.
    The primary feeder is the separatist feeling from some 
Muslim youth, that they dream of a Utopia to bring the state 
back to the way it was at the time of the Prophet Muhammad. At 
the time of the Prophet Muhammad, he mixed roles of being a 
head of state, a general, and a messenger of God.
    We need to start creating new ideas--some call that 
heretical, I call it modernization--new ideas that separate 
those roles, because Faisal Shahzad, the Times Square bomber, 
when he was in front of the judge, he told him ``I did this 
because I was a Muslim soldier.'' So the ummah, our Muslim 
community, is looked by these individuals as being a political 
unit, a military unit. Until we separate that, you will never 
stop terrorism.
    Chairman King. The time of the gentleman has expired.
    Now we have three Members who were added today by unanimous 
consent. From Indiana, my friend Mr. Carson is recognized for 5 
minutes.
    Mr. Carson. Thank you, Mr. Chairman, for these hearings. I 
appreciate them. Thank you, Ranking Member Thompson, as well as 
the witnesses.
    I would want to say to Dr. Jasser's point, quickly, I don't 
think this conversation should be given over totally to the 
intellectuals. I know we have some disagreements. But I agree 
with your premise about these so-called gatekeepers. As it 
relates to religion, I think all Muslim business persons, 
physicians, and so on, should have a contribution and we 
shouldn't minimize or trivialize folks' experiences and lessen 
their credibility as it relates to testifying.
    Having said that, as a proud American Muslim, Sheriff Baca, 
I spent over a decade in law enforcement, including some time 
in an intelligence capacity with the Department of Homeland 
Security. I want to thank you for dispatching the sergeant to 
meet with me as I visited Los Angeles.
    But during the time I worked with law enforcement, I worked 
with informants and cooperating witnesses from all backgrounds 
on a wide variety of cases, and in every case one reality held 
true: That those who trusted law enforcement, the judicial 
system, and our Government, were most likely to provide useful 
information in a very timely manner. Also, those who felt 
singled out or targeted were much less likely to provide useful 
information as well.
    Since the establishment of the Department of Homeland 
Security and the passage of the PATRIOT Act, there have been 
considerable discussions about certain law enforcement and 
intelligence practices that may do more to spur anti-American 
sentiment in the Muslim community than to apprehend terrorist 
plotters. National Security letters, warrantless and roving 
wiretaps, as well as undercover investigations in mosques have 
already caused many Muslims to fear that their Constitutional 
rights are being disregarded in the name of preventing 
terrorism.
    Can you tell us, Sheriff, how these and other law 
enforcement and intelligence practices have impacted the Muslim 
populations in Los Angeles particularly? Also tell us if you 
have any suggestions about how this committee and Congress 
might better structure these procedures to protect civil rights 
while maintaining effectiveness.
    Sheriff Baca. Well, that is a very tough question to answer 
in a short period of time, but I will make my best effort.
    Intelligence gathering, in and of itself, is an interesting 
subject. As we know, in many of the experiences the United 
States has gone through since 9/11, that intelligence in and of 
itself moves the subject matter around; meaning, what you 
believe is in one report may be modified by another report, 
which may be modified by another report, which ultimately leads 
to where is the pea under the shell.
    I don't think anybody that is in the law enforcement world 
that is involved in intelligence gathering--and I am pleased to 
know you have been--understands that if you don't have the 
authority in the intelligence world to make an arrest at the 
time that the evidence demonstrates it should be done, then the 
question is: What intelligence do you believe and what 
intelligence don't you believe, and who are your sources and 
what are your source's motives for providing you the 
information?
    Now, it is very clear to me that if Abdulmutallab's dad 
came into a police station anywhere in American and said that 
my son is acting a little weird and I need some help, that we 
would know exactly what to do. But this was not the case. The 
process was morphed into an intelligence mode, and then it went 
into a status file as opposed to an active file, and I think we 
have corrected that in our Federal intelligence gathering 
system.
    But if we look at intelligence as being the bible of all 
truth, we are in deep trouble in this country. What we have to 
do is we have to continue to improve what we do, to use 
techniques that are clearly not obscuring evidence but clearly 
making sure that the evidence is in fact what it is being 
reported to be. I think therein is a whole different discussion 
that the Intelligence Committee can deal with, or subcommittee.
    But when it comes down to the truth of all forms of 
investigative work, then it is not an exact science 100 percent 
of the time. So what are the safeguards? It has to be there are 
rules to follow.
    Now, we follow the rules that the Federal Government set 
forth in intelligence gathering at our local joint regional 
intelligence centers and the Joint Terrorism Task Force, so we 
have the rules in place. But the human element is another issue 
with me. That is, that if we intelligence officers that have a 
bias about a particular group they are investigating, you are 
going to have some problems with the communication capabilities 
there.
    I believe in bias-free policing. I believe in public-trust 
policing. I don't believe you can judge one Muslim for the acts 
of another. You can't judge anybody for the acts of another. 
What we have to do is get to the point where whatever is being 
advised to Congress, we say: Okay, we get it, we have had a 
hearing, now we got to go out into the communities that are 
affected by the subject matter.
    I welcome the continual dialogue, the continual 
examination, and the continual visitation. But I do believe 
that we need to always be mindful of what is going on in the 
intelligence community.
    Chairman King. The time of the gentleman has expired.
    Sheriff Baca, my understanding from talking with the 
Ranking Member is that you will have to catch a plane, I 
believe at 3 o'clock, and he suggests you may have to leave by 
1:30. Whatever time you leave is obviously up to you.
    In the event we are in the middle of something when you 
leave, I want to thank you sincerely for your testimony and 
your contribution and your patience.
    Sheriff Baca. I thank you, Mr. Chairman, and your 
committee. It has been a pleasure.
    Mr. Thompson. If the gentleman will yield, Sheriff, thank 
you very much. I know you made a big sacrifice to get here. 
Your testimony has been absolutely essential to this committee. 
Thank you much.
    Mr. Bihi. May I give a response before the sheriff leaves?
    Chairman King. No. Actually we will go to the next. I now 
recognize the gentleman from Virginia, Mr. Rigell, for 5 
minutes.
    Mr. Rigell. Thank you, Mr. Chairman. I would like to thank 
each of our panel of witnesses here for participating in the 
hearing.
    Americans of Muslim faith, they truly are an integral part 
of our Nation's community and contribute to the quality of life 
in this country. They are our neighbors and our friends. 
Muslims serve honorably as policemen, teachers, and in our 
armed services, and some indeed have given the ultimate 
sacrifice in defense of our freedom and way of life. My deep 
respect for the Muslim community is the foundation upon which I 
approach this critical issue.
    So it is with alarm, and frankly with a degree of sadness, 
that I conclude that the radicalization of our youth, one that 
is intent on spreading violent Islamic extremism, is indeed 
taking place in this country, posing a serious and increasing 
threat to our security. That is why I respectfully reject the 
charge that this hearing is unnecessary and an assault on any 
particular faith.
    I see this as a conversation, albeit an overhyped one, but 
it is a conversation that must take place, and I commend the 
Chairman for remaining steadfast and holding a thoughtful 
dialogue on this subject.
    Dr. Jasser, I would like to address my first question to 
you, sir. I note that in your written testimony, you conclude 
one paragraph with this line: ``The liberty narrative is the 
only effective counter to the Islamist narrative.'' You 
certainly have my attention. I fully agree with that.
    What are the next steps to play that out and to use that 
proper message to counter what is taking place now?
    Dr. Jasser. You know, I think I look at my own life about 
why I turned out the way I did and Nidal Hisan turned out the 
way he did. I grew up, for example, learning that in our system 
of governance, people are innocent until proven guilty; our law 
enforcement is innocent until proven guilty. So, the same 
process.
    I think what we need to do is we don't have--we have talked 
abroad about nation-building and how that doesn't work. Now we 
have shifted into to institution-building. It is interesting 
that somehow we compartmentalize things abroad differently than 
we do domestically. In fact, it is the same issue, it is the 
same diagnosis.
    The concept of liberty, my parents were blessed, my father 
was blessed to have been educated in London, so the 
understanding of separation of church and state was something 
he internalized as an undergrad. But there is no educational 
infrastructure to bring Jeffersonian democracy to many of our 
own heritages.
    So if we are going to get these ideas into the communities 
so that it becomes part of the institutions we build, and we 
take on the imams, and we remind the imams that imam means 
``teacher,'' it doesn't mean ``leader.'' All you do is teach us 
religion. You don't lead society and you don't have a role in 
government.
    This whole enlightenment process needs institutions that 
you can help us build, help us provide the infrastructure to do 
that, but yet allow Muslims to do it. I think it doesn't cross 
the First Amendment, because your role is to advance liberty, 
to advance freedom, advance and help ideas of equality, of 
human rights, universal human rights concepts, and then you 
make sure that we live to those and our Islamic institutions 
endorse those.
    Then we start engaging in Al Jazeera, in media and Muslim 
media these ideas, because right now most of the foreign media 
or Islamic media is not having this discourse. It is all about 
polarity of being Islam, being Muslim, advocating for Islam 
versus the West, and that polarity can go away with 
institution-building.
    Mr. Rigell. Thank you. In the short time we have remaining 
here, what role have foreign imams played, and in fact are 
playing today, in spreading this radical form of Islam?
    Dr. Jasser. I can't tell you how important that is, in that 
what they are doing--and former CIA Director Jim Woolsey talked 
about the fact that the Saudis have spent over $90 billion in 
spreading their ideology of Wahhabism in the past two 
generations.
    Mr. Rigell. Including America?
    Dr. Jasser. Including the United States. That is why I 
mentioned those mosques. There is a mosque in Cincinnati, in 
Los Angeles and New York, all across the country, that have 
been part of Saudi investments in their ideology abroad. In 
order to counter that, we need a strategy to help counter those 
institutions that are building those ideas.
    Mr. Rigell. Dr. Jasser, and all of our witnesses today, I 
thank you so much for being here. Dr. Jasser, I applaud you 
being a bold voice on this subject. Thank you.
    I yield back.
    Chairman King. I thank the gentleman for yielding. Now I 
recognize the gentleman from Texas, a former Member of this 
committee, Mr. Green. It is good to have you back.
    Mr. Green. Thank you, Mr. Chairman. It is an honor to be 
back.
    Mr. Chairman, Ranking Member Thompson, I came by today 
because I love America. I love what America stands for. I love 
the Pledge of Allegiance. It means something to me, liberty and 
justice for all.
    I love the Declaration of Independence, all persons created 
equal and endowed by their Creator with certain inalienable 
rights.
    I love the Constitution, a copy of which I hold in my hand. 
``We the people'' is what it says. Then it goes on to say with 
this very first amendment, the very first amendment, ``Congress 
shall make no law representing an establishment of religion or 
prohibiting the free exercise thereof.'' By the way, this 
clause recognizes religion first. It is the first of the first. 
The first.
    I want you to know not only do I love America, I love the 
American people. I love them regardless of race, creed, color, 
national origin, ethnicity, or sexuality. I love the American 
people. Because I love the American people, I want to say in 
clear and concise terms, I have no problem with discussing 
terrorist organizations that are rooted in religion, which is 
why I want to discuss the KKK.
    The KKK requires that its members profess a belief in Jesus 
Christ. The KKK says that the Christian faith is the white 
man's religion. The KKK says that Jews are people of the anti-
Christ. The KKK wants to preserve the true gospel, the gospel 
of the white man's religion.
    By the way, I am the son of a Christian preacher. I have 
some credentials when it comes to Christianity. I was born into 
Christianity, baptized into Christianity. No one can say that I 
am less a Christian than anybody else, and I am no more a 
Christian than anybody else.
    We have had 111 years of terrorism perpetrated by the KKK 
on Jews and African Americans and some others in this country. 
One hundred years.
    Which brings me to my point. Mr. Chairman, I love you and I 
love all of my friends here today. I do not assign any malice 
aforethought to anybody. I don't believe anything has any 
degree of malevolence associated with you.
    But I must tell you, it is not enough for things to be 
right, they must also look right. It may be right, but it 
doesn't look right when we take on Islam and allow this to take 
place, and we don't tell the truth about the abuses associated 
with the KKK and Christianity.
    Christianity, according to the KKK, is the reason why they 
do what they do. Why not include the KKK in this discussion 
today? Why not have a broader topic that does not focus on one 
religion?
    It doesn't look right, Mr. Jasser, when we focus on one 
religion to the exclusion of others. That is the point being 
made. You are an intellectual, and you understand what I am 
saying. It is not about what you are defending and the points 
you are making; nor yours, Mr. Bledsoe, nor yours, Mr. Bihi. It 
is about the fundamental fairness associated with freedom of 
religion in this country, and we don't single out one religion 
and give the appearance by in so doing that there is something 
dastardly associated with being a part of this religion. 
Regardless as to all of the disclaimers that are going to be 
made, that is still a perception that some people will have.
    I want you to know that when I board an airplane, I am 
looked upon with an eye of suspicion. For some reason people 
tend to think that I am Muslim. For some reason a person told 
me that I needed to go back home to my foreign country, that I 
don't belong in this country. For some reason people think that 
people who are Muslim many--how many is many?
    Chairman King. The time of the gentleman has expired.
    Mr. Green. I still have 5----
    Chairman King. The time of the gentleman has expired.
    Mr. Green. Thank you for the time, Mr. Chairman. May I just 
say this, Mr. Chairman? Let us not only let things be right, 
let us make them look right, and let us broaden this and not 
single out the American Muslim.
    Chairman King. Now I recognize the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I want to yield 30 
seconds or so to Mr. Bledsoe to respond, if he would like to 
respond to Mr. Green's comments.
    Mr. Bledsoe. Again, I think that he is making a point, but, 
I mean, today we are not talking at this hearing about KKK. We 
are talking about extremist Islam, radicalization of American 
citizens. I hope that you get that day that you can be back in 
this hearing room. That is my hope. Thank you.
    Mr. Green. Will the gentleman Mr. Duncan yield 10 seconds?
    Mr. Duncan. No.
    Mr. Green. Mr. Chairman, it is within protocol to ask for a 
yield.
    Chairman King. It is up to the gentleman----
    Mr. Duncan. A Newsweek article, October 22, 2010, said 
this: The left is wrongly defending Islamism, an extremist and 
at times violent ideology, which it confuses with the common 
person's Islam--which, I add, is a religion--while the right is 
often wrongly attacking the Muslim faith, which it confuses 
with Islamism. Thank you guys for pointing that out this 
morning.
    I want to thank Mr. Bledsoe and Mr. Bihi for sharing your 
stories of your sons. As a father of sons myself, my heart goes 
out to you.
    I am not aware of anyone on this side of the political 
spectrum that is attacking Islam, nor anyone wishing to limit 
anyone's First Amendment rights. But rather, I believe we are 
raising awareness of Islamism, a political ideology, and how 
that ideology is being used in this country.
    I am regularly astonished and outraged, outraged by this 
administration's continued failure to single out who our enemy 
is. Mr. Bledsoe said in his testimony that there is a big 
elephant in the room, but our society continues not to see it. 
You say that this wrong is caused by political correctness and 
even political fear.
    I have got a slide on the board, and I know it is going to 
be hard to read, but if you would look at the 9/11 Commission 
and the number of times enemy jihad, Muslim Brotherhood, al-
Qaeda, Hezbollah, Hamas are mentioned, then if you will look at 
the FBI Counterterrorism Analytical Lexicon and the National 
Intelligence Strategy, you will see zeros beside the fact that 
they don't mention enemy jihad, Muslim Brotherhood, al-Qaeda. 
It is an astonishing contrast.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Duncan. But what I came here today to comment on and 
delve into is a completely different line of thought, and it is 
this, an issue that is of particular concern to me and my 
constituents, and that is the threat of Shari'a law to the 
United States Constitution.
    The Center for Strategic and Budgetary Assessments produced 
a report in 2008 on the global war on terrorism, authored by 
Robert Martinage, currently Deputy Under Secretary of the Navy. 
In that report, Martinage states that the centerpiece of al-
Qaeda's strategy for the long war is exploiting Muslim sense of 
individual religious obligation by declaring a defensive jihad 
against the West and apostate regimes.
    The Organization of Islamic Conference, representing 57 
member states, declares on its website that it has a 
considerable weight within these institutions where it makes 
others listen to the Voice of Islamic Ummah and presents the 
image of moderate Islam, tolerant, open to dialogue and bearing 
the message of peace, harmony, and solidarity between men. But 
according to the OIC's own Cairo Declaration on Human Rights 
and Islam, article 25, it clearly states that Islamic Shari'a 
is the only source of reference for the explanation or 
clarification of any of the articles in this declaration.
    As the United States Constitution is the law of this land, 
any attempt to subvert it amounts to sedition. I took an oath 
to uphold the Constitution against enemies, both foreign and 
domestic. It is my desire to see multiple hearings, Mr. 
Chairman, not only here in this committee, but also in House 
Armed Services Committee, Intelligence Committee, Foreign 
Affairs Committee, Judiciary Committee examining the role that 
Islamic doctrine plays in the radicalization process, assessing 
the degree to which jihadist organizations such as Muslim 
Brotherhood and its front organizations influence our American 
Muslim communities.
    So I want to ask this to Dr. Jasser: Do you feel that the 
U.S. Government has done an adequate job learning about Islam 
and how Islamic doctrines affect the behavior of and the 
community norms of Muslims residing in America? How does the 
Islamic doctrine and Shari'a law shape the responsiveness of 
local U.S. Muslim communities to law enforcement efforts that 
target Islamic jihad?
    Dr. Jasser. Thank you, Congressman Duncan. I think that is 
a wonderful question. I think, just like we talked about, there 
is various forms of Islam around the world.
    Shari'a also means very different things to different 
Muslims. My home, it is a private thing. Do I want it in 
government? Absolutely not. That is really the doctrine of the 
enemy. They want to create an Islamic state. There is no way 
any concept of the Brotherhood has of an Islamic state could 
ever be a great ally of the United States because there is two 
different lenses through which we see the world. We are allies 
with other democracies that are secular, but to ever be an ally 
with an Islamic state based in Shari'a would be impossible.
    I think ultimately this is the problem is that--and this is 
why I provided a list of scholars in my testimony that are 
based through the Assembly of Muslim Jurists. These scholars 
are still based in Islamic law from the 13th, 14th century from 
people like Ibn Taymiyya and others. They have not created a 
new school of thought. What happens is that intellectual Islam 
or authoritative Islam still has not absorbed the ideas of a 
Western society based under God rather than under Islam.
    Our forefathers went through this whole discussion of not 
having the word ``Christian'' in our founding documents. The 
Islamic community has not gone through that discussion and that 
evolution, and we are avoiding it. We need to address it. We 
need to address the fact that the government we seek--we don't 
only accept the laws of this land as a minority, but even if we 
were a majority, we would want the same laws.
    That hypocrisy is part of the world many Muslims live in. 
They absorb the laws of the land as a minority, but they have a 
doctrine that they believe in, that they follow within their 
own organization that is based on Islamic law, which allows a 
duality that I think affects their identification with this 
society. Not all mosques--I know many mosques that don't teach 
that. They are looking for the right books. If you go--and I 
would tell all of you to go to the Islamic book services----
    Chairman King. The time of the gentleman has expired.
    Dr. Jasser [continuing]. And you won't find too much reform 
work in that.
    Mr. Duncan. Thank you.
    Chairman King. I yield to the gentleman from New Jersey, 
also a former Member of the committee, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. I yield 10 seconds 
to Mr. Green.
    Mr. Green. I will be very brief. I thank God that we did 
not have a hearing on Christianity and how it is radicalizing 
young American boys. We could have. We did not. That is my 
point. I yield back.
    Mr. Pascrell. Thank you, Mr. Chairman, Mr. Green. It is 
good to see you both.
    We have been here since 9:30. I was thinking a little 
longer than that. We were here since the beginning of this 
committee. It wasn't my idea to leave, but they put me in 
something else.
    Chairman King. We miss you, Bill.
    Mr. Pascrell. Yeah, sure.
    Chairman King. Sometimes.
    Mr. Pascrell. We will see in another 5 minutes whether you 
are saying the same thing.
    Islam is a beautiful religion, Mr. Chairman, but this 
hearing was not on Islam. It is on the Muslim community. There 
is a big difference. So when you are admonishing people that 
they don't know what they are talking about, there is the title 
of this hearing. Correct, Mr. Chairman?
    Chairman King. Whatever you say is on the paper.
    Mr. Pascrell. Well, it says it. That is what we are talking 
about. But the extreme is many times in the eye of the 
beholder. When we don't understand people, we are all--all of 
us--bound to mischaracterize and to stereotype. I don't believe 
anything I have heard--and I was in the hearing for quite some 
time today, and part of it I wasn't. I was in another meeting. 
I don't think I heard anything from any of the panelists--and 
thank you for being here--trying to bring to a--leap to a 
conclusion that we should start stereotyping more or we should 
start profiling, because you always have to find a response or 
an answer to what you are trying to attack.
    We want to protect this country. We love this country. 
Democrats don't love it any more than Republicans and vice 
versa. So I must say to you, Mr. Bledsoe, when you say ``the 
other side,'' I don't know what the hell you are talking about. 
We are all in this together, believe me, sir. My heart goes out 
to you and Mr. Bihi. But we are all in this together. Let us 
get it straight from the beginning.
    I am convinced that this hearing would result in good, 
because when reasonable people will conclude that the greatest 
majority of Muslims, like every other community in this 
country, are patriots, are patriots to America; right, Dr. 
Jasser?
    Dr. Jasser. Yes, sir.
    Mr. Pascrell. You agree with me, Dr. Jasser, don't you?
    Dr. Jasser. Yes, sir.
    Mr. Pascrell. Every sit-down, every sit-down that I have 
had--we have discussed this with the FBI about my own district. 
I come from Paterson, with one T, New Jersey, the second 
largest Muslim community, Paterson and its environments, in the 
country. I grew up in the neighborhood, an Arabic neighborhood. 
I ate more Arabic food than Italian food. That doesn't make me 
know more about the community, but you will have to take my 
word for it now, and I will stand corrected if you come up with 
something else.
    Every time I have sat down with the FBI about my own 
district, I was told many times that there is no hidden agenda, 
and that you need not fear the recruiting, and the very 
recruiting that we are talking about today in this hearing.
    Now, does that mean that every district in the country--
does that mean that Chairman King's district has the same kind 
of review? I don't know. I mean, some pretty bad people came 
out of some mosques, and some pretty bad people came out of 
Catholic churches, et cetera, et cetera. But we have got to do 
everything we can to avoid a wide brush because it gets us 
nowhere, and we can't defend our own children and our own 
neighborhoods if we have bad information.
    Why should we be surprised? We know our enemies are probing 
this system every day. They come in many forms, many shapes. 
Right now as we speak in this hearing, the enemy is probing our 
systems. No question about it. So we need to be strong.
    The graph you showed a few moments ago is very hurtful to 
the very community you are investigating, very hurtful. It is 
very hurtful to the administration, because I don't think one 
administration wants to protect us any less than another 
administration. That is foolish.
    Chairman King. The time of the gentleman has expired.
    Mr. Pascrell. It doesn't bring us to any resolve, Mr. 
Chairman.
    Chairman King. Even after 5 minutes of that, Mr. Pascrell, 
I still love you.
    I recognize the gentleman from Pennsylvania, also another 
former U.S. attorney, Mr. Marino.
    Mr. Marino. Thank you, Mr. Chairman. I want to thank the 
Chair for this desperately needed hearing. I want to thank your 
courage and your leadership for bringing this to the forefront, 
and I hope that we have more of these hearings.
    For my colleagues on the other side, I want to tell my good 
friend that I will be with you shoulder-to-shoulder in hearings 
for the Ku Klux Klan and any other racist group that defiles 
this country.
    Mr. Green. Ten-second yield?
    Mr. Marino. No, sir. No, sir.
    Chairman King. The gentleman from Pennsylvania controls the 
time. The gentleman from Pennsylvania controls the time.
    Mr. Marino. Out of respect, I will be there with you. But 
the issue today is terrorism.
    Mr. Green. The Klan is a terrorist organization that has 
been for over 100 years.
    Chairman King. The gentleman from Pennsylvania controls the 
time. Mr. Green is a guest of the committee.
    Mr. Marino, it is your time.
    Mr. Marino. Thank you, sir.
    This hearing today is not about religion, with all due 
respect. It is about terrorists. It is about people who kill 
men, women, and children in the name of religion, which is a 
blasphemy in and of itself.
    So as far as the witnesses are concerned, I want to thank 
you for being here. I want to thank you for your courage to 
stand up as Americans in America before America and the world 
and tell the truth. As a United States attorney, I prosecuted a 
homegrown terrorist, and he is in prison now for 30 years, and 
it was the right thing to do.
    Now, the questions that were asked today were well thought 
out and professionally asked, and you excellently answered 
them. But as a freshman Congressman, I think sometimes we fail 
to ask this question of you. Doctor, I would like to present 
this to you, and the other gentlemen can respond if we have 
time. What do you expect from us, from Congress? What should we 
be doing to promote the fact that this is not about a religion? 
Because I have many friends that are Muslims and love this 
country as much as any one of us do. What do you expect from 
us?
    Dr. Jasser. Thank you, Congressman.
    I hope and I pray every night as I do this work that you 
develop the political will to deal with this problem; that we 
separate all the theatrics and all the concern with vitriol and 
all of that and get to how to solve the problem, and that our 
enemy is using a language that some people will articulate as 
offensive, and I, as a Muslim, I am telling you is not 
offensive.
    I want to deal with that. Because we use the language, we 
use words like ``jihad'' and things like that at home, but I 
don't want my children to take the predominant thoughts of 
those that are right now predominating the web, cyber jihad. 
The reformist mindset is very hard to find on the web, and that 
is because we haven't had the resources.
    We need the political will. We need the maturity as a 
Nation to be able to discuss religion, sometimes say things 
that might not be right, but not get offended, and realize that 
we respect religious practice, and that the First Amendment is 
freedom of religion, but not freedom from religion.
    But yet somehow we have gotten so polarized that we can't 
do that. Because what is going to happen, and these charts have 
shown it, is that we have seen exponential increases in 
attacks, and our law enforcement is going to continue to chase 
their tail thinking that community outreach works, and we are 
not draining the pool of the ideology because we can't confront 
it. It is surrender.
    Mr. Marino. I have less than a minute left. Gentlemen, 
please.
    Mr. Bledsoe. I would like to say I would like for the 
Congress to get here out of this is call a terrorist what it 
is. Say what it is. I mean, many times I have been hearing 
people say everything but what it is. For the gentleman sitting 
next to you, the other side is--I am speaking of--when I spoke 
about the other side, I shouldn't have us talking about the 
side that was--didn't understand what this meeting is all 
about.
    Mr. Marino. In 20 seconds.
    Mr. Bihi. I think that this is not about religion. This is 
about saving families, and young people who were supposed to be 
doctors, and the security of this Nation. I think we should 
forget about our political affiliations and conditions and just 
take an opportunity and take advantage of Muslim families, 
American Muslim families coming forward, demonstrating to be 
heard what is happening in their community. I think it is a 
great challenge.
    I thank the committee. I thank Congressman King. This is 
very important, and it should continue to open the doors. 
Nobody hates me. I don't see Muslims hurting me. I see my own 
community hurting me. I want you to allow me to deal with that. 
I want to deal with that. I don't want somebody else I don't 
know----
    Chairman King. The time of the gentleman has expired.
    Let me, first of all, thank all of the witnesses. Of 
course, Sheriff Baca, who had to leave, I want to thank him 
tremendously for his testimony. He has been before this 
committee a number of times. We also thank Dr. Jasser, Mr. 
Bledsoe, Mr. Bihi for your testimony.
    Let me on a personal note thank the Ranking Member. Despite 
some of the consternation, this meeting actually went a lot 
easier than it could have. I thank the Ranking Member for 
making a number of procedural agreements prior to the committee 
to eliminate and to avoid unnecessary problems we could have 
had, and I thank him for that.
    Members of the committee may have some additional 
questions, and we will ask you, the witnesses, to respond to 
those in writing. The record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 1:49 p.m., the committee was adjourned.]


                           A P P E N D I X  I

                              ----------                              

    Statements Submitted for the Record by Honorable Loretta Sanchez
 Attachment 1.--Statement of the Baptist Joint Committee for Religious 
                                Liberty

                                                     March 8, 2011.
The Honorable Peter King,
Chairman, Committee on Homeland Security, United States House of 
        Representatives.
    Dear Mr. Chairman: I write as the Executive Director of the Baptist 
Joint Committee for Religious Liberty (``BJC''), a 75-year-old 
education and advocacy organization committed to defending and 
extending religious liberty for all and maintaining the institutional 
separation of church and state. We champion our Baptist heritage, which 
emphasizes that religion must be freely exercised, neither advanced nor 
inhibited by government. The BJC serves 15 Baptist bodies and thousands 
of individuals and churches in New York State and Nation-wide.
    We urge you to broaden the scope of your planned hearing on the 
``radicalization'' of American Muslims. The actual or implied 
allegation that terrorist threats to the American people result from 
one religious group is an insult to the millions of peaceful Muslim 
American citizens and an affront to the religious liberty protections 
of our Constitution.
    You were quoted in The New York Times as saying that the inclusion 
of terrorist groups associated with other religions would ``dilute the 
hearing.''\1\ To the contrary, the hearing will send a message that 
Muslims present a greater threat of terrorism than other religions. 
Further, it would imply that the potential for terrorism from outside 
of Islam is not significant enough to merit a hearing. Highlighting 
only one potential ``breeding ground'' for terrorism ignores the 
reality that other sources of terrorism exist.
---------------------------------------------------------------------------
    \1\ New York Times, February 7, 2011 http://www.nytimes.com/2011/
02/08/us/politics/08muslim.html?partner=rss&emc=rss.
---------------------------------------------------------------------------
    We recognize that religion is sometimes the impetus for committing 
acts of terrorism. History books are replete with examples of the 
atrocities that human beings have perpetrated in the name of their 
particular faith--be it Islam, Christianity, or a host of other faiths. 
While the BJC applauds your committee's mandate to investigate 
terrorist threats, singling out a particular religion sets an 
unfortunate precedent. A sweeping, general equation of terrorism with 
Islam--or any religion--is both dangerous and disingenuous. It is a 
suggestion that plays on a widespread is understanding of the Muslim 
faith, and it encourages the American people to view extremist outliers 
in Islam as representative of the entire faith. That would set a 
troubling standard that could lead to further discrimination against 
all faiths.
    Thank you for your consideration of the BJC's objections to this 
proposed hearing. We believe that the specific targeting of any 
religion belies the principles and values underlying the Constitutional 
protection of religious liberty that has served Americans so well for 
more than two centuries. I sincerely hope that you will broaden the 
scope of your hearing to address all sources of terrorism--religious 
and otherwise.
            Very truly yours,
                                           J. Brent Walker,
                                                Executive Director.
                                 ______
                                 
    Attachment 2.--Statement of Amina Saeed, President, Muslim Bar 
                         Association of Chicago

    The Muslim Bar Association of Chicago submits this outside witness 
statement for the United States House of Representatives, Committee on 
Homeland Security, examining the extent of radicalization in the 
American Muslim community and the community's response to it.
    Founded in 1997, the Muslim Bar Association of Chicago is the 
Nation's oldest Muslim bar association and has served as a model for 
other Muslim bar associations across the Nation. Our Members include 
accomplished attorneys, law professors, judges, and law students. Our 
mission is to foster the highest ethics, integrity, and honor of the 
legal profession. One of our objectives is to advance and improve the 
administration of justice for all Americans.
    As a legal association, that is committed to protecting and 
preserving civil and human rights, the Muslim Bar Association of 
Chicago strongly objects to hearings focusing exclusively on one 
religious community called by the Chair of the Committee on Homeland 
Security, Congressman Peter King. Chairman King has characterized the 
hearings as focusing exclusively on the ``radicalization of the 
American Muslim community and homegrown terrorism.''
    Chairman King's singling out a group of Americans based on their 
faith for close Government scrutiny is divisive and wrong. These 
hearings will inevitably examine activities protected by the First 
Amendment, an affront to fundamental freedoms upon which our country 
was founded.
    Additionally, we fear these hearings will further escalate 
widespread suspicion and mistrust of the American Muslim community. 
During 2010, there was an increase in anti-Muslim hatred in public 
discourse, as well as hate crimes and violence targeting Americans 
Muslims and those perceived to be Muslim. Across the Nation, this 
hatred was manifested through vandalism and arson of mosques, physical 
attacks, bullying of children in schools, and attempted murder.
    In the Chicago area, anti-Muslim sentiment has greatly affected 
Muslims in all aspects of their lives, including at their schools, 
workplaces, mosques, and public places. In particular, there has been 
increased attention and controversy regarding Muslim communities' 
zoning requests for mosques, a Muslim woman was denied travel on a 
Greyhound bus because of her clothing, a Muslim family was denied 
access to a public pool, a Muslim graduate student's art exhibit on 
anti-Muslim hate crimes was defaced, a Muslim teacher's request for 
unpaid leave so she could perform Hajj, a religious pilgrimage, was 
denied, and an electric sign using a racial slur to call for the death 
of Muslims and African Americans appeared at a business. These 
incidents have been instigated by irrational fear of peaceful Chicago 
Muslims.
    Any hearings held by the House Homeland Security Committee should 
proceed from a clear understanding that individuals are responsible for 
their actions. Entire peaceful communities must not be held responsible 
for the actions of a few deranged individuals.
    Thank you for your attention to our concerns.
                                 ______
                                 
  Attachment 3.--Statement of Debbie Almontaser, Board Chair, Muslim 
                          Consultative Network
                             March 10, 2011

    Muslim Consultative Network submits this outside witness statement 
for the U.S. House of Representatives, Committee on Homeland Security, 
examining the extent of radicalization in the American Muslim community 
and the community's response to it.
    The Muslim Consultative Network (MCN) works to strengthen Muslim 
American civil society in the greater New York area. There are over 
600,000 diverse Muslims in the area we serve. In addition to running 
health and community education programs, and offering community 
capacity building workshops, MCN has been an advocate of protecting 
Muslims' civil liberties, rights, and social justice. As we interact 
with community stakeholders, we note the high degree of anxiety about 
the hearings and feel that we must give voice to these concerns.
    Given the importance of working together for a safer America, we 
ask ourselves why the pre-eminent Muslim American organizations were 
not made planning partners and diverse voices brought in to enhance 
inquiry. Why were the so-called ``experts'' chosen from one end of the 
ideological spectrum? The choice of Mr. Zuhdi Jasser as speaker is 
unfortunate as he has been operating a smear campaign against these 
Muslim groups in the name of reform--a clearly divisive and counter-
productive approach.
    Therefore, on February 1, 2011 MCN joined over 50 multiple other 
advocacy groups and organizations in calling on U.S. House of 
Representatives leaders to change their planned hearings focused 
exclusively on ``Muslim Radicalization'' to investigate violence 
motivated by extremism, in all its forms, in a fair and objective 
manner. MCN has also signed the statement on the same issue circulated 
by Faith in Public Life. We note that literally hundreds of 
organizations have signed similar petitions opposing the hearings as 
they are currently designed.
    MCN objects to a main premise of the hearings--that Muslim 
leadership is not engaged in productive dialogue with law enforcement. 
As a faith-based community organization concerned about civil and human 
rights, we work in dialogue and partnership with other faith groups and 
also promote dialogue with law enforcement. Muslim organizations do not 
oppose such responsible civic engagement; however many of them, like 
our colleagues at Council on American Islamic Relations (CAIR) also 
correctly work to ensure that Muslim community members know their 
rights. Though sometimes our Government unfortunately excludes such 
groups from the table for political reasons, we have partnered and will 
continue to partner with CAIR and others. We work together to engage in 
critical dialogue with police and FBI through co-founding such 
coalitions as the Muslim American Civil Liberties Coalition (MACLC) an 
organization which is currently challenging the NYPD's use of harshly 
Islamophobic training materials including hateful videos narrated by 
Mr. Jasser.
    Mr. King has not refuted his unfounded claim that over 80 percent 
of Muslim mosques are radicalized. This leaves us with the clear 
implication this hearing is about the radicalization of over 80 percent 
of our community!
    By sowing suspicion about an entire faith community, Chairman 
King's hearings will likely stoke Islamophobic sentiment, which has 
affected me (in a well-known case regarding my school the Khalil Gibran 
International Academy) and other Muslim-American colleagues in so many 
ways. We are currently concerned that communities in our immediate area 
are even opposing the right to build a house of worship--and next week 
will decide whether to change zoning laws to prevent a mosque from 
being built in nearby Bridgewater, New Jersey.
    Islamophobia is a growing challenge. And we very much regret to 
read in today's New York Times (3/8/11) that Mr. King was recently a 
guest of the extremist group Act! for America and associates with other 
well-known purveyors of paranoia and anti-Muslim hate.
    Because of these concerns about the political and ideological 
aspects of these unbalanced hearings--which can only alienate Muslims 
and cannot make us safer--we joined an interfaith coalition this past 
weekend (3/6/11) and were able to gather 1,000 New Yorkers of all 
backgrounds to protest these hearings despite the pouring rain. One of 
the wonderful speakers we worked to bring on was Mr. Alioune Niassa a 
West African Muslim vendor who helped prevent the Times Square bombing.
    We know Muslim Americans wish to be part of the solution to a range 
of problems including serious security concerns. And this is why, while 
we share concerns about security and the spread of ill-founded 
religious interpretations on the internet, we and our Muslim community 
colleagues will continue to promote partnership instead of submit to 
persecution, smear campaigns and political witch hunts that only weaken 
our Nation.
                                 ______
                                 
      Attachment 4.--Statement of South Florida Muslim Community 
                             Organizations
                             March 10, 2011

    The undersigned organizations submit this outside witness statement 
for the U.S. House of Representatives, Committee on Homeland Security, 
examining radicalization in the American Muslim community and the 
community's response to it.
    The institutions signed on to this letter comprise religious, 
cultural, education, charitable, and civil rights groups from the South 
Florida area. The South Florida Muslim community comprises some 100,000 
individuals from a wide range of ethnic, cultural, and racial 
backgrounds. There are over 35,000 registered Muslim voters in the 
South Florida counties of Palm Beach, Broward, and Miami-Dade.
    As Florida-based organizations concerned about civil and human 
rights, we strongly object to the hearings supposedly on extremism 
within the American Muslim community called by the Chair of the 
Committee on Homeland Security, Congressman Peter King. Chairman King 
has characterized the hearings as focusing exclusively on the 
``radicalization of the American Muslim community and homegrown 
terrorism.''
    This hearing does not appear designed to truly deal with finding 
solutions to the issue of homegrown terrorism. If that were the case 
the hearing would include an analysis of non-Muslims who have committed 
acts of terrorism on U.S. soil. Further this investigation if sincere 
would have input from those who are working on solutions within the 
American Muslim community to deal with those few young people who are 
vulnerable to negative influences. We as a community of Muslim-
Americans are now and will continue to be part of the solution to our 
Nation's problems such as terrorism.
    Anti-Muslim incidents have been seen all across Florida. Incidents 
such as: A truck being driven into a mosque in Tallahassee, a pipe bomb 
in a Jacksonville mosque, a podiatrist who plotted to blow up schools 
full of Muslim children, shootings at a mosque in Brevard County, and 
the defacing of mosques in South Florida. There is no doubt we fear 
this hearing will stoke the flames of such enmity and further divide us 
as a community of Floridians. It is the responsibility of our political 
leaders to lead us as a Nation together, not create divisions that lead 
to hate.
    The South Florida Muslim-American community has repeatedly 
condemned terrorism and violence in all its forms regardless of who 
perpetrates the violence. The U.S. Attorney for the Southern District 
of Florida, the U.S. Department of Justice, the Federal Bureau of 
Investigations, and previous Florida Attorney Generals have developed 
close relationships and continue to work with Muslim religious, 
interfaith, and public service organizations. The U.S. Attorney himself 
has recognized the value of the Muslim community in its counter-
terrorism efforts, as well as other matters relevant to crime 
prevention and prosecution in our community. There are Floridian 
Muslims in law enforcement, serving in our military, and serving in 
Government.
    It is important to maintain the rich fabric of a tolerant and 
diverse America by working together to find solutions, not striving to 
use anti-Muslim sentiment as a wedge issue for political gain. It is 
our hope that in these difficult economic times this committee will 
renew its commitment to the people of America and work towards real 
solutions to real problems.
    Thank you for your attention to our concerns.
                Sincerely,

AMANA,
Assalam Center of Boca Raton,
CAIR-FL,
Coalition of South Florida Muslim Organizations,
Dar-ul-uloom,
Emerge-USA,
Ershad Center,
Florida Assoc. of Young Muslims,
Florida Islamic Association,
Islamic Center of Boca Raton,
Islamic Foundation of South Florida,
Islamic Movement of Florida,
Masjid Al Iman,
Masjid Miami,
Masjid Mumineen,
Masjid-Al-Ansar,
Masjid-An-Noor,
Muslim Community Assoc. of South Florida,
Nur-ul-Islam.
      
                                 ______
                                 
   Attachment 5.--Statement of Laura W. Murphy, Director, Washington 
         Legislative Office, the American Civil Liberties Union
                             March 10, 2011

    Chairman King, Ranking Member Thompson, and Members of Congress: 
The American Civil Liberties Union (ACLU) is a non-partisan 
organization of over half a million members, countless additional 
activists and supporters, and 53 affiliates Nation-wide dedicated to 
the protection of individual rights and civil liberties under the U.S. 
Constitution and the Bill of Rights. As we have discussed with many of 
you in private, we have serious concerns with Chairman King's decision 
to focus these hearings on the American Muslim community. Such a focus 
ignores the pleas of fellow Members of Congress, advocacy groups, and 
community leaders to adjust the scope of the hearings to examine acts 
of domestic terrorism generally. Hearings that focus on American 
Muslims threaten to burden the free exercise of religion, give the 
appearance of official endorsement of one set of religious beliefs over 
another, and chill free association and free speech. Moreover, the 
rhetoric by some in advance of this hearing has targeted the American 
Muslim community for special attention even though the rhetoric is 
factually inaccurate and counterproductive to shared homeland security 
goals.
    People who commit acts of domestic terrorism cannot be identified 
by any religious, ideological, ethnic, economic, educational, or social 
profile, and holding hearings that suggest otherwise is 
counterproductive to keeping America safe from real terrorist threats. 
In February 2010, Andrew Joseph Stack III of Texas flew a plane into an 
IRS building in Austin leaving behind an anti-Government rant largely 
focused on taxes.\1\ A lot of Americans oppose taxes, some vehemently, 
but this terrorist incident did not lead to an investigation of all tax 
opponents. In August 2003 the environmental group Earth Liberation 
Front reportedly burned down a nearly-completed $23 million apartment 
complex just outside San Diego in protest of urban sprawl. Two years 
later the FBI declared eco-terrorists the country's biggest domestic 
terrorist threat.\2\ Even then authorities did not target all those 
favoring environmental protection for investigation to root out 
``radicalized'' individuals. The arrests of members of the Hutaree 
militia for planning to use roadside bombs in the Midwest has not 
provoked Congressional investigations into the reasons why the millions 
of American gun control opponents aren't more cooperative with law 
enforcement in identifying those who would commit violence against the 
U.S. Government.\3\ We know that there is a difference between people 
with certain belief systems and those who are willing to commit acts of 
violence. Broadly targeting the entire American Muslim community for 
counterterrorism enforcement will make it more likely that law 
enforcement officials will misunderstand the factual evidence 
surrounding risk factors for violence and focus their investigative 
efforts on innocent Americans because of their religious beliefs rather 
than on true threats to the community.
---------------------------------------------------------------------------
    \1\ Brick, Michael, Man Crashes Plane Into Texas I.R.S. Office, The 
New York Times (Feb. 18, 2010) available at http://www.nytimes.com/
2010/02/19/us/19crash.html.
    \2\ Schorn, Daniel, Burning Rage, CBS News (November 13, 2005) 
available at http://www.cbsnews.com/stories/2005/11/10/60minutes/
main1036067.shtml.
    \3\ Mark Guarino, Hutaree Militia Arrests Point to Tripling of 
Militias Since 2008, Christian Science Monitor (Mar. 29, 2010) 
available at http://www.csmonitor.com/USA/Justice/2010/0329/Hutaree-
militia-arrests-point-to-tripling-of-militias-since-2008.
---------------------------------------------------------------------------
    We, together with most Americans, acknowledge that Government has 
an obligation to help protect society from terrorists and other violent 
criminals, and that studying previous terrorist attacks and the people 
who committed them could provide clues useful to preventing future acts 
of violence. But to avoid infringing on fundamental rights that are 
essential to the functioning of a healthy democracy, Congress must 
tread carefully when attempting to examine people's thoughts or 
classifying their beliefs as inside or outside the mainstream. By 
focusing on the American Muslim community and its response to 
``radicalization'', this committee risks doing exactly what it should 
not: Stepping on the basic First Amendment freedoms to which American 
Muslims, like all Americans, have a right. Sacrificing our civil 
liberties in the pursuit of security is unwise, unnecessary, and 
according to several recent studies, counterproductive to preventing 
extremist violence.
    Barry Goldwater, accepting the Republican nomination for the Office 
of President of the United States in 1964, said that ``Extremism in the 
defense of liberty is no vice!'' This committee must keep in mind that 
extremism is nothing more than a chosen set of beliefs and, as such, is 
absolutely protected under the First Amendment. Asking whether 
extremist ideology is the precipitator of violence or not presumes that 
a connection exists between the belief system and the commission of 
violence. But recent empirical studies of terrorism downplay such a 
causal connection. We do not assume all those who oppose abortion are 
worthy of investigation just because there have been acts of violence 
committed by some who share that political view. To assume without 
evidence that everyone of a particular faith or ideology or political 
belief is a threat because of the actions of a few would betray 
American values and waste security resources. The Government cannot and 
should not censure extremist ideology, in and of itself.
    Violent action, on the other hand, whether in the name of ideology 
or otherwise, deserves the full-throated condemnation of the Government 
and its people. As this committee carries on its work, it has the 
opportunity to set a sterling and courageous example for the Nation by 
rejecting the call to target a specific faith community and instead 
focusing on the root causes of violence. We will fully support this 
committee's examination of the historical events that may tend to 
explain why particular individuals choose to use violence as a means to 
effect social or political change in a manner that threatens the 
National security. We will steadfastly oppose any effort to examine, 
and thus cast official disapproval upon, any religious or political 
belief system. Any such effort would chill the First Amendment rights 
of those involved and be an unfair slap at untold numbers of wholly 
innocent Americans.

                      I. FIRST AMENDMENT FREEDOMS

    The First Amendment to the United States Constitution guarantees 
freedom of religion, speech, press, petition, and assembly.\4\ These 
protections are based on the premise that open and unfettered public 
debate empowers democracy by enriching the marketplace with new ideas 
and enabling political and social change through lawful means.\5\ Our 
First Amendment freedoms also enhance our security. Though ``vehement, 
caustic and sometimes unpleasantly sharp attacks on government and 
public officials'' have to be endured under our Constitutional system 
of government, the uninhibited debate these freedoms guarantee is 
recognized as ``essential to the security of the Republic'' because it 
ensures a Government responsive to the will of the people.\6\ Moreover, 
as Justice Brandeis explained, our Nation's Founders realized that the 
greater threat to security lay not in protecting speech, but in 
attempting to suppress it:
---------------------------------------------------------------------------
    \4\ The Constitution of the United States, Amendment 1: ``Congress 
shall make no law respecting an establishment of religion, or 
prohibiting the free exercise thereof; or abridging the freedom of 
speech, or of the press; or the right of the people peaceably to 
assemble, and to petition the Government for a redress of grievances.''
    \5\ See United States v. Associated Press, 52 F.Supp. 362, 372 
(D.C.S.D.N.Y. 1943); Roth v. United States, 354 U.S. 476, 484 (1957).
    \6\ See New York Times, Co. v. Sullivan, 376 U.S. 254, 270 (1964), 
quoting Stromberg v. California, 283 U.S. 359, 369 (1931).

``Those who won our independence . . . knew that order cannot be 
secured merely through fear of punishment for its infraction; that it 
is hazardous to discourage thought, hope, and imagination; that fear 
breeds repression; that repression breeds hate; that hate menaces 
stable government; that the path of safety lies in the opportunity to 
discuss freely supposed grievances and proposed remedies, and that the 
fitting remedy for evil counsels is good ones. Believing in the power 
of reason as applied through public discussion, they eschewed silence 
coerced by law--the argument of force in its worst form. Recognizing 
the occasional tyrannies of governing majorities, they amended the 
Constitution so that free speech and assembly should be 
guaranteed.''\7\
---------------------------------------------------------------------------
    \7\ Whitney v. California, 274 U.S. 357, 375-376, (1927) (Brandeis, 
J., concurring).
---------------------------------------------------------------------------
              II. CONTEMPORARY INVESTIGATIONS OF TERRORISM

    Of course, Congress can and should investigate terrorism. The 
danger posed by modern terrorists is real and Congress must understand 
the scope and nature of the threat and exercise its authorities to the 
utmost in overseeing the Government's response, holding our military, 
law enforcement, and intelligence agencies accountable, and crafting 
sensible legislation that enhances security while protecting the rights 
of innocent persons. But the security threat was no less real during 
the first red scare and during the Cold War. The question is not 
whether Congress should respond but how it should respond. History 
tells us that conflating the expression of certain belief systems or 
even hostile beliefs with threats to security only misdirects 
resources, unnecessarily violates the rights of the innocent, and 
unjustly alienates communities unfairly targeted as suspicious. Justice 
Brandeis argued that ``[f]ear of serious injury cannot alone justify 
suppression of free speech and assembly. Men feared witches and burnt 
women. It is the function of speech to free men from the bondage of 
irrational fears.''\8\
---------------------------------------------------------------------------
    \8\ Whitney v. California, 274 U.S. 357, 376, (1927), (Brandeis, 
J., concurring).
---------------------------------------------------------------------------
    Unfortunately some Government officials, including some on this 
committee, have been influenced by ill-conceived and methodologically 
flawed Government reports that claim not only that terrorist acts are 
linked to the adoption of certain beliefs but that there is a uniform 
process of ``radicalization'' in which one progresses from belief to 
association to terrorism. The New York Police Department (NYPD) report, 
Radicalization in the West: The Homegrown Threat, published in 2007, 
purports to identify a four-step ``radicalization process'' through 
which terrorists progress. But even the authors of the study admit that 
not all individuals who begin the process pass through all the stages, 
that many ``stop or abandon this process at different points'', and 
that ``individuals do not always follow a perfectly linear 
progression'' through the four steps.\9\ Obviously, the steps along the 
path are not consecutive at all, but rather four stones scattered in 
the woods which a terrorist or anyone else wandering through may or may 
not touch. What is dangerous is that the each step involves 
Constitutionally-protected religious and associational conduct, and the 
authors ignore the fact that millions of people may progress through 
one, several, or all of these stages and never commit an act of 
violence. Moreover, these conclusions are based on just five terrorism 
cases, clearly a statistically insignificant sample from which to draw 
such sweeping conclusions.
---------------------------------------------------------------------------
    \9\ Mitchell Silber and Arvin Bhatt, New York Police Department, 
Radicalization in the West: The Homegrown Threat, p. 6, (2007). This 
report seems to draw heavily from an earlier FBI Intelligence 
Assessment, ``The Radicalization Process: From Conversion to Jihad,'' 
(May 10, 2006), though it is not cited.
---------------------------------------------------------------------------
    The NYPD report drew quick condemnation from the civil liberties 
and Muslim communities. The Brennan Center for Justice issued a memo 
complaining of the report's ``foreseeable stigmatizing effect, and its 
inferential but unavoidable advocacy of racial and religious 
profiling.''\10\ New York City Muslim and Arab community leaders formed 
a coalition in response to the NYPD report and issued a detailed 
analysis criticizing the NYPD for wrongfully ``positing a direct causal 
relation between Islam and terrorism such that expressions of faith are 
equated with signs of danger,'' and potentially putting millions of 
Muslims at risk.\11\ Unfairly focusing suspicion on a vulnerable 
community also threatens to create the very alienation that effective 
and proper counter-terrorism policies should seek to avoid.\12\
---------------------------------------------------------------------------
    \10\ Aziz Huq, ``Concerns with Mitchell D. Silber and Arvin Bhatt, 
N.Y. Police Dep't, Radicalization in the West: The Homegrown Threat,'' 
New York University School of Law, Brennan Center for Justice, (Aug. 
30, 2007), at: http://brennan.3cdn.net/
436ea44aae969ab3c5_sbm6vtxgi.pdf. See also, Coalition Memo to the 
Senate Committee on Homeland Security and Governmental Affairs 
Regarding ``Homegrown Terrorism,'' American Civil Liberties Union et 
al. (May 7, 2008) available at http://www.aclu.org/safefree/general/
35209leg20080507.html.
    \11\ Muslim American Civil Liberties Coalition, CountertERRORism 
Policy: MACLC's Critique of the NYPD's Report on Homegrown Terrorism, 
(2008).
    \12\ See, e.g., Hearing of the Senate Homeland Security and 
Governmental Affairs Committee, Violent Islamist Extremism: The 
European Experience (June 27, 2007) particularly the testimony of 
Lidewijde Ongering and Marc Sageman, available at http://
hsgac.senate.gov/public/
index.cfm?FuseAction=Hearings.Hearing&Hearing_ID=9c8ef805-75c8-48c2-
810dd778af31cca6.
---------------------------------------------------------------------------
    Indeed, contrary to the NYPD study, a 2008 analysis by the United 
Kingdom's domestic intelligence service, MI-5, which was based on 
hundreds of case studies of individuals involved in terrorism, 
reportedly concluded that there is no single identifiable pathway to 
extremism and ``a large number of those involved in terrorism do not 
practice their faith regularly.''\13\ The MI-5 study concluded that the 
U.K. government should support tolerance of diversity and protection of 
civil liberties, conclusions that were echoed in a National 
Counterterrorism Center (NCTC) paper published in August 2008. In 
exploring why there was less violent homegrown extremism in the United 
States than the United Kingdom, the NCTC paper authors cited the 
diversity of American communities and the greater protection of civil 
rights as key factors.\14\
---------------------------------------------------------------------------
    \13\ Alan Travis, ``MI5 Report Challenges Views on Terrorism in 
Britain,'' The Guardian, (August 20, 2008) at: http://
www.guardian.co.uk/uk/2008/aug/20/uksecurity.terrorism and; Alan 
Travis, ``The Making of an Extremist,'' The Guardian (Aug. 20, 2008) 
available at http://www.guardian.co.uk/uk/2008/aug/20/
uksecurity.terrorism.
    \14\ National Counterterrorism Center Conference Report, Towards a 
Domestic Counterradicalization Strategy, (August 2008). Notwithstanding 
the conclusion, the paper inexplicably went on to examine how the 
United States could better adopt U.K. counterterrorism strategies.
---------------------------------------------------------------------------
    The significant shortcomings with the NYPD report became so evident 
that the NYPD was compelled to insert a ``Statement of Clarification'' 
in 2009 that explained that:

``NYPD understands that it is a tiny minority of Muslims who subscribe 
to al Qaeda's ideology of war and terror and that the NYPD's focus on 
al Qaeda inspired terrorism should not be mistaken for any implicit or 
explicit justification for racial, religious or ethnic profiling. 
Rather, the Muslim community in New York City is our ally and has as 
much to lose, if not more, than other New Yorkers if individuals commit 
acts of violence (falsely) in the name of their religion. As such, the 
NYPD report should not be read to characterize Muslims as intrinsically 
dangerous or intrinsically linked to terrorism, and that it cannot be a 
license for racial, religious, or ethnic profiling.''\15\
---------------------------------------------------------------------------
    \15\ See ``Statement of Clarification,'' p. 11-12 (added in 2009) 
to Mitchell Silber and Arvin Bhatt, New York Police Department, 
Radicalization in the West: The Homegrown Threat, p. 6, (2007), 
available at http://www.nyc.gov/html/nypd/downloads/pdf/
public_information/NYPD_Report-Radicalization_in_the_West.pdf.

    More important, the statement of clarification said, ``This report 
was not intended to be policy prescriptive for law enforcement.''\16\
---------------------------------------------------------------------------
    \16\ Id., at 12.
---------------------------------------------------------------------------
    Unfortunately, the NYPD failed to retract the report altogether and 
inserted the clarification without public announcement, so it received 
little publicity.\17\ As a result, the NYPD report is still being 
referenced uncritically in academic and official government 
publications. A report by the Senate Homeland Security and Governmental 
Affairs Committee (HSGAC) entitled Violent Islamist Extremism, The 
Internet, and the Homegrown Terrorism Threat ignored the criticisms and 
flaws of the NYPD report, and simply re-stated the NYPD's flawed 
``radicalization'' theories in arguing for a National strategy ``to 
counter the influence of the Ideology.''\18\ As they did in response to 
the NYPD report, Muslim and Arab civil liberties organizations united 
to issue a joint letter complaining that the HSGAC report ``undermines 
fundamental American values'' and ``exacerbates the current climate of 
fear, suspicion and hatemongering of Islam and American Muslims.''\19\ 
In testimony before the HSGAC, Dr. Marc Sageman, who conducted 
empirical studies of actual terrorists, downplayed the role of 
religious belief as a driver of violence: `` . . . there has been far 
too much focus on ideology in trying to understand radicalization. In 
my observations of Islamist terrorists, I came to the conclusion that 
there were not Islamic scholars''\20\ (emphasis in original). Instead, 
Sageman cited moral outrage at the Iraq war, abuses of U.S. detainees 
in Abu Ghraib and ``GITMO,'' and the perception of a western ``War 
against Islam'' as causal factors, and warned against taking any 
counterterrorism measures that would tend to ``alienate the Muslim 
community.''\21\
---------------------------------------------------------------------------
    \17\ See Muslim American Civil Liberties Coalition Letter to 
Raymond Kelly, ``Response to NYPD `Statement of Clarification,' '' 
(Sept. 2009) available at http://maclc1.wordpress.com/2009/09/08/maclc-
90809-letter-response-to-nypd-statement-of-clarification.
    \18\ United States Senate Committee on Homeland Security and 
Governmental Affairs Majority and Minority Staff Report, ``Violent 
Islamist Extremism, The Internet, and the Homegrown Terrorist Threat'' 
(May 8, 2008).
    \19\ Coalition Letter to the Honorable Joseph I. Lieberman and the 
Honorable Susan M. Collins, May 14, 2008, available at: http://
www.muslimadvocates.org/documents/temporary_HSGAC_report-
Allied_response_FINAL.pdf.
    \20\ Marc Sageman, testimony before the Hearing of the Senate 
Homeland Security and Governmental Affairs Committee, Violent Islamist 
Extremism: The European Experience, p. 2, (June 27, 2007), available 
at: http://hsgac.senate.gov/public/index.cfm?FuseAction=Hearings.
Hearing&Hearing_ID=9c8ef805-75c8-48c2-810dd778af31cca6.
    \21\ Id. at 5.
---------------------------------------------------------------------------
    Most recently, the special report on the Ft. Hood shootings issued 
by HSGAC Chairman Joseph Lieberman and Ranking Member Susan Collins 
explicitly endorsed the unsupported ``radicalization framework'' of the 
NYPD report and recommended that the Department of Defense and the FBI 
develop training regarding ``ideological indicators and warning 
signs.''\22\ This recommendation not only clearly ignores the NYPD's 
warning that its report should not be policy prescriptive for law 
enforcement; it directly conflicts with a scientific literature review 
documented in the Department of Defense Ft. Hood report. Citing 
scientific studies, the DoD concluded that ``identifying potentially 
dangerous people before they act is difficult,'' because while people 
who commit acts of violence can often later be shown to have exhibited 
identifiable risk factors, few people who have risk factors actually go 
on to assault or kill others.\23\ In particular, and contrary to the 
NYPD report, the DoD found, ``religious fundamentalism alone is not a 
risk factor; most fundamentalist groups are not violent, and religious-
based violence is not confined to members of fundamentalist 
groups.''\24\ Yet the FBI has already acted on the Lieberman-Collins 
recommendations and developed ``radicalization'' training that was 
presented to three field offices in 2010.\25\
---------------------------------------------------------------------------
    \22\ Special Report by Joseph I. Lieberman, Chairman, and Susan M. 
Collins, Ranking Member, U.S. Senate Committee on Homeland Security and 
Governmental Affairs, ``A Ticking Time Bomb: Counterterrorism Lessons 
from the U.S. Government's Failure to Prevent the Fort Hood Attack,'' 
(Feb. 2011), 77, available at: http://hsgac.senate.gov/public/_files/
Fort_Hood/FortHoodReport.pdf.
    \23\ Department of Defense, Protecting the Force: Lessons from Fort 
Hood, Report of the DOD Independent Review at Appx. D (Jan. 2010) 
available at http://www.defense.gov/pubs/pdfs/DODProtectingTheForce-
Web_Security_HR_13jan10.pdf.
    \24\ Id. at D-2.
    \25\ Lieberman-Collins report, p. 77.
---------------------------------------------------------------------------
    The negative influence of the NYPD report continues to be pervasive 
and damaging. The Virginia Fusion Center has cited the NYPD report, and 
two other similarly flawed reports that are based upon it, in 
designating Virginia's universities and colleges as ``nodes of 
radicalization'' requiring law enforcement attention and characterized 
the ``diversity'' surrounding a Virginia military base and the State's 
``historically black'' colleges as possible threats to security.\26\
---------------------------------------------------------------------------
    \26\ See ACLU press release, ``Fusion Center Declares Nation's 
Oldest Universities Possible Terrorist Threat,'' (Apr. 6, 2009) 
available at http://www.aclu.org/technology-and-liberty/fusion-center-
declares-nation%E2%80%99soldest-universities-possible-terrorist-threat.
---------------------------------------------------------------------------
    It is disturbing and disheartening to see the discredited NYPD 
report relied upon again and again by people seeking an easy 
explanation for domestic threats. Chairman King's public statements in 
advance of this hearing suggest a similar unwarranted reliance on this 
flawed theory of a discernable ``radicalization'' process, which 
undermines any legitimate rationale for holding them.\27\ A more 
rigorous and more comprehensive examination of publicly available 
information might have led this committee down a different and more 
productive path than the one it is now following.
---------------------------------------------------------------------------
    \27\ Peter King, ``What's Radicalizing Muslim Americans?'', Newsday 
(Dec. 19, 2010) available at http://homeland.house.gov/news/newsday-
king-whats-radicalizing-muslim-americans.
---------------------------------------------------------------------------
                         III. HISTORICAL ABUSE

    Unfortunately, in times of National crisis we have often failed to 
recognize the strength of our democratic ideals. Indeed the ACLU was 
founded in 1920 to come to the defense of immigrants, trade unionists, 
and political activists who were illegally rounded up by the thousands 
in the infamous Palmer raids during America's first ``red scare,'' a 
period of significant anarchist violence. Rather than focusing on 
finding the perpetrators of the violence, the Government sought anyone 
who supported similar political views, associated with disfavored 
organizations or wrote or spoke in opposition to Government policies. 
Lawyers who complained of the abuse, which included torture, coerced 
confessions, illegal searches, and arrests, were subject to 
investigation themselves.\28\
---------------------------------------------------------------------------
    \28\ Select Comm. to Study Governmental Operations With Respect to 
Intelligence Activities, U.S. Senate, 94th Cong., Final Report on 
Supplemental Detailed Staff Reports on Intelligence Activities and the 
Rights of Americans (Book III), S. Rep. No. 94-755, at 385 (1976), 
available at: http://www.aarclibrary.org/publib/church/reports/book3/
html/ChurchB3_0196b.htm.
---------------------------------------------------------------------------
    The Department of Justice General Intelligence Division (GID), the 
precursor agency to the Federal Bureau of Investigation (FBI), 
collected 150,000 secret files ``giving detailed data not only upon 
individual agitators connected with the radical movement, but also upon 
organizations, associations, societies, publications, and social 
conditions existing in certain localities.''\29\ The New York State 
Legislature also initiated a 2-year investigation into the spread of 
radical ideas. The Joint Legislative Committee to Investigate Seditious 
Activities (commonly referred to as the Lusk Committee) ultimately 
produced a report, Revolutionary Radicalism: Its History, Purpose and 
Tactics, which ``smeared liberals, pacifists, and civil libertarians as 
agents of international Communism.''\30\ Though thousands were 
arrested, few were prosecuted or deported and little incriminating 
information was obtained during the committee's investigation.\31\ 
Studying radicals was of little help in finding actual terrorists.
---------------------------------------------------------------------------
    \29\ Select Comm. to Study Governmental Operations With Respect to 
Intelligence Activities, U.S. Senate, 94th Cong., Final Report on 
Supplemental Detailed Staff Reports on Intelligence Activities and the 
Rights of Americans (Book III), S. Rep. No. 94-755, at 386 (1976), 
[Church Report] available at: http://www.aarclibrary.org/publib/church/
reports/book3/html/ChurchB3_0196b.htm.
    \30\ Samuel Walker, In Defense of American Liberties: A History of 
the ACLU, Oxford, (1990) p. 16.
    \31\ The Lusk Committee: A Guide to the Records of the Joint 
Committee to Investigate Seditious Activities: A Guide to the Records 
Held in the New York State Archives, available at: http://
www.archives.nysed.gov/a/research/res_topics_bus_lusk.shtml.
---------------------------------------------------------------------------
    Due in part to the public outcry over the red scare abuses, the 
Department of Justice reformed its policies to focus strictly on 
violations of law, but these reforms did not hold.\32\ The Cold War 
brought about a second red scare characterized by Congressional witch 
hunts orchestrated by Senator Joseph McCarthy's Permanent Subcommittee 
on Investigations and the House Un-American Activities Committee 
(HUAC), which ruined the careers of many loyal Americans based purely 
on their associations. At the same time, and sometimes in support of 
these Congressional investigations, the FBI ran a domestic counter-
intelligence program (COINTELPRO) that quickly evolved from a 
legitimate effort to protect the National security from hostile foreign 
threats into an effort to suppress domestic political dissent through 
an array of illegal activities. The Senate Select Committee that 
investigated COINTELPRO (the ``Church Committee'') said the 
``unexpressed major premise of . . . COINTELPRO is that the Bureau has 
a role in maintaining the existing social order, and that its efforts 
should be aimed toward combating those who threaten that order.''\33\ 
Once again, instead of focusing on violations of law, these 
investigations targeted people based on their beliefs, political 
activities, and associations. In his Church Committee testimony White 
House liaison Tom Charles Huston, author of the infamous ``Huston 
Plan,'' explained the hazards of this shift in focus:
---------------------------------------------------------------------------
    \32\ Church Report, at 388.
    \33\ Id., at 7.

``The risk was that you would get people who would be susceptible to 
political considerations as opposed to national security 
considerations, or would construe political considerations to be 
national security considerations, to move from the kid with a bomb to 
the kid with a picket sign, and from the kid with the picket sign to 
the kid with the bumper sticker of the opposing candidate.''\34\
---------------------------------------------------------------------------
    \34\ Id., at 27.

    FBI headquarters opened over 500,000 domestic intelligence files 
between 1960 and 1974, and created a list of 26,000 individuals who 
would be ``rounded up'' in the event of a National emergency.\35\ The 
FBI used the information it gleaned from these improper investigations 
not for law enforcement purposes, but to ``break up marriages, disrupt 
meetings, ostracize persons from their professions and provoke target 
groups into rivalries that might result in deaths.''\36\
---------------------------------------------------------------------------
    \35\ Id., at 6-7.
    \36\ Id., at 5.
---------------------------------------------------------------------------
    Our history shows that it is the Executive branch that most often 
abuses power and targets political, ethnic, or religious minorities, 
and it is the Legislative branch--the Church Committee--or the 
judiciary that investigates or remedies the abuses. But our history 
also shows--as the activities of the McCarthy Committee and HUAC 
demonstrate--that Congress is not immune to its own form of 
overreaching. Indeed, in the context of a case examining a 
Congressional committee witness' refusal to identify those who might 
espouse disfavored beliefs, the Court acknowledged Congress' broad 
investigative powers inherent to its legislative function, and its 
unquestioned authority to hold recalcitrant witnesses in contempt. But 
it also held that abuse of the investigative process could lead to an 
unconstitutional abridgment of protected rights.\37\ This Committee's 
focus on the American Muslim community risks imposing exactly the kind 
of damage the Court warned of in the 1950's, and in doing so it will 
alienate this minority community. It is for this reason that we urge 
this Committee not to target the American Muslim community so that 
these hearings do not become yet another example of misguided and 
abusive Government action.
---------------------------------------------------------------------------
    \37\ Watkins v. United States, 354 U.S. 178 (1957).
---------------------------------------------------------------------------
                IV. DISTINGUISH EXTREMISM FROM VIOLENCE

    By its title, this hearing focuses on the ``radicalization'' of the 
Muslim community. The Counterterrorism Enhancement and Department of 
Homeland Security Authorization Act of 2010 defines ``violent 
radicalization'' as the process of adopting or promoting an extremist 
belief system for the purpose of facilitating ideologically based 
violence to advance political, religious, or social change.\38\ This 
definition presents two distinct concepts as if they were one. 
Extremism is defined by one dictionary as the ``advocacy of extreme 
measures or views''.\39\ Extremism is a state of mind or a set of 
beliefs. There is nothing about the notion of extremism or a radical 
belief system that necessarily denotes violence. And, as Goldwater 
suggested, some forms of extremism are to be admired. But all forms of 
extremism are entitled to protection under our Constitution.
---------------------------------------------------------------------------
    \38\ See Thomas.gov available at http://thomas.gov/cgi-bin/query/
F?c111:1:./temp/c111dswbTI:e19995.
    \39\ Merriam Webster's Online Dictionary, available at http://
www.merriam-webster.com/dictionary/Extremism.
---------------------------------------------------------------------------
    Violence on the other hand is entitled to no such deference. The 
same source defines ``violence'' as the ``exertion of physical force so 
as to injure or abuse''.\40\ It is an invasive force intended to do 
harm and, as such, qualifies for no Constitutional protection. It bears 
emphasis, again, that extremist viewpoints do not necessarily lead to 
violent action. In addition, conflating extremism and violence wrongly 
suggests that violence associated with extremism is somehow worse--or 
more worthy of examination--than other forms of violence, a 
misconception that can lead to flawed policy-making.
---------------------------------------------------------------------------
    \40\ Id. at http://www.merriam-webster.com/dictionary/violence.
---------------------------------------------------------------------------
    Violence that has no discernible tie to ideology occurs far more 
frequently and has far wider impact than violence assumed to arise out 
of extremist views. It would be a mistake to dismiss ``regular crime'' 
as not causing the same broad and lasting damage to society that 
terrorism does. Consider the societal impact of student shootings at 
Virginia Tech and Columbine, the anthrax attacks and the sniper 
shootings in Washington, DC, and elsewhere in the country--not to 
mention gang violence, and violence against women, children, and the 
elderly. The FBI reported there were 1,382,012 violent crimes committed 
in the United States in 2008, including 16,272 murders and 89,000 
rapes.\41\
---------------------------------------------------------------------------
    \41\ Uniform Crime Reports, Crime in the United States, 2008, U.S. 
Dep't. of Justice, Federal Bureau of Investigation, Table 1 (2009), at: 
http://www.fbi.gov/ucr/cius2008/data/table_01.html.
---------------------------------------------------------------------------
    The courts began to ratify such a distinction between extreme 
ideologies and violent actions in the first half of the 20th century. 
In a number of cases addressing convictions under the Smith Act, which 
criminalized advocating the violent overthrow of the United States or 
membership in any organization that did, the Supreme Court began 
drawing a line between advocacy of violence as a tactic of political 
change and incitement to violence: ``the mere abstract teaching . . . 
of the moral propriety or even moral necessity for a resort to force 
and violence is not the same as preparing a group for violent action 
and steeling it to such action.''\42\ These cases culminated in 
Brandenberg v. Ohio, in which the Court established that advocacy of 
violence could be criminalized only where ``such advocacy is directed 
to inciting or producing imminent lawless action and is likely to 
incite or produce such action.''\43\
---------------------------------------------------------------------------
    \42\ Noto v. United States, 367 U.S. 290, 297-298 (1961). See also, 
Dennis v. United States, 341 U.S. 494 (1951); and Yates v. United 
States, 354 U.S. 298 (1957).
    \43\ 395 U.S. 444, 447 (1969).
---------------------------------------------------------------------------
    The important element, therefore, is to examine the violence--not 
the belief system held by the violent actor. The committee must ensure 
that its examination does not single out violent actions committed by 
adherents to any particular faith or ideology for scrutiny. It should 
not study only Muslims--just as it would not study only tax opponents 
or only environmentalists. To do so would pre-determine an outcome and 
cast a chilling net over all those non-violent individuals who happen 
to share all or some of the characteristics or beliefs of those 
studied. Moreover, to do so would tend to perpetuate the perception of 
alienation that, according to some, fuels the violence. Significantly, 
in this regard, one can infer that a renewed dedication to the 
protection of civil liberties, including associational, speech, and 
religious rights, is our best defense. As one expert who has conducted 
empirical studies of actual terrorists testified, ``we must continue to 
promote core American values of justice and fairness and fight those 
elements in our society that try to single out and antagonize part of 
our nation.''\44\
---------------------------------------------------------------------------
    \44\ Marc Sageman, testimony before the Hearing of the Senate 
Homeland Security and Governmental Affairs Committee, Violent Islamist 
Extremism: The European Experience, p. 5, (June 27, 2007) available at 
http://hsgac.senate.gov/public/index.cfm?FuseAction=Hearings.
Hearing&Hearing_ID=9c8ef805-75c8-48c2-810dd778af31cca6.
---------------------------------------------------------------------------
         V. MUSLIM COMMUNITY'S COOPERATION WITH LAW ENFORCEMENT

    One of the core justifications made for and in advance of this 
hearing is that the American Muslim community has failed to cooperate 
sufficiently with law enforcement in the fight against domestic 
terrorism.\45\ The assertion is baseless. Numerous law enforcement 
officials have gone on the record to dispute this charge,\46\ academic 
studies have catalogued the assistance Muslims have provided to anti-
terrorism efforts,\47\ and the undersigned organizations work closely 
with many Muslim civil rights and advocacy groups that are deeply 
involved in efforts to improve security policies. Indeed, your 
committee has heard testimony from several law enforcement witnesses 
regarding their engagement with Muslim-American communities on a host 
of issues.\48\
---------------------------------------------------------------------------
    \45\ Peter King, ``What's Radicalizing Muslim Americans?'', Newsday 
(Dec. 19, 2010) available at http://homeland.house.gov/news/newsday-
king-whats-radicalizing-muslim-americans.
    \46\ See Counterterrorism Experts Reject Peter King's Targeting of 
Muslims, National Security Network (Jan. 28, 2011) available at http://
www.nsnetwork.org/node/1847; ``Baca: No Evidence Muslims Not 
Cooperating with Police,'' CBS Los Angeles (Feb. 11, 2011) available at 
http://losangeles.cbslocal.com/2011/02/07/baca-noevidence-us-muslims-
not-cooperating-with-police/.
    \47\ See Charles Kurzman, ``Muslim-American Terrorism Since 9/11: 
An Accounting,'' Triangle Center on Terrorism and Homeland Security 
(Feb. 2, 2011) available at http://sanford.duke.edu/centers/tcths/
about/documents/Kurzman_Muslim-American_Terrorism_
Since_911_An_Accounting.pdf.
    \48\ See, e.g., Hearing of the House Homeland Security Committee 
Subcommittee on Intelligence, Information Sharing, and Terrorism Risk 
Assessment, ``Working with Communities to Disrupt Terror Plots'' (Mar. 
17, 2010); Hearing of the House Homeland Security Committee 
Subcommittee on Intelligence, Information Sharing, and Terrorism Risk 
Assessment, ``Radicalization, Information Sharing, and Community 
Outreach: Protecting the Homeland from Homegrown Terror'' (Apr. 5, 
2007).
---------------------------------------------------------------------------
    Further, we are concerned by the claim that American Muslims' 
``cooperation'' in National security efforts must be measured by their 
willingness to provide information voluntarily to counterterrorism 
enforcement agencies. Although warning law enforcement officials of 
threats is indeed a shared civic and social responsibility, it would be 
illegal, unfair, and impractical for Congress or law enforcement 
officials to require any religious or belief community to prove its 
loyalty to this country by ``informing'' on its members. To the 
contrary, American Muslims, like the rest of this country's citizens, 
have the right to protest illegal, overzealous, or abusive Government 
security measures and to vigorously exercise, and encourage others to 
exercise, rights guaranteed in the Constitution. There are also 
legitimate concerns about whether individuals who volunteer information 
to law enforcement will find themselves threatened with legal jeopardy. 
Advising individuals to speak to lawyers before talking to law 
enforcement or even to refrain from talking to law enforcement is both 
prudent and completely legal speech protected by the Bill of Rights. We 
expect that many corporations, businesses, and even Congressional 
offices would advise their employees to consult a lawyer before 
speaking with law enforcement as well.
    Recognizing and respecting the line between protected beliefs and 
illegal activity does not undermine our security, but rather 
strengthens it. Basing security policy on factually flawed 
``radicalization'' theories will only waste precious security 
resources. Law enforcement has been successful in preventing terrorist 
plots many times over the past few years by focusing on facts and 
evidence. Inquiring how many Muslims hold ``radical'' beliefs, however 
that phrase is defined, will not aid those efforts. To the contrary, it 
will undermine the crucial bonds between communities and the Government 
and law enforcement. Most dangerously, it is likely to undermine our 
efforts to demonstrate to Muslims at home and abroad that the United 
States seeks to live up to its ideals in its treatment of all 
Americans, including Muslims, and is not engaged in a ``war against 
Islam.''

                             VI. CONCLUSION

    We urge this committee to cease holding hearings that target any 
specific religious or ideological group for investigation based on 
unsubstantiated theories about ``radicalization'' and instead focus the 
Government's anti-terrorism investigations on actual terrorist acts and 
those who commit them. A fact-based investigation of historical events 
will likely be more successful at providing a clear picture of the 
threats we face and the appropriate methods we need to employ to 
address them without violating the Constitutional rights of innocent 
persons. Neither fear, nor a misapprehension of beliefs held by a 
religious minority, should drive our Government policies. As Justice 
Brandeis reminds us,

``To courageous, self-reliant men, with confidence in the power of free 
and fearless reasoning applied through the processes of popular 
government, no danger flowing from speech can be deemed clear and 
present unless the incidence of the evil apprehended is so imminent 
that it may befall before there is opportunity for full discussion . . 
. Only an emergency can justify repression. Such must be the rule if 
authority is to be reconciled with freedom.''\49\
---------------------------------------------------------------------------
    \49\ Whitney v. California, 274 U.S. 357, 376, (1927), (Brandeis, 
J., Concurring).

    Protecting our First Amendment freedoms will both honor our values 
and keep us safe. We urge this committee to re-orient its hearings so 
as not to target the American Muslim community and instead focus on 
achieving a beneficial and accurate understanding of today's domestic 
threats.
                                 ______
                                 
      Attachment 6.--Letter From Gary Sampliner and Jeanne Tustain
                                                     March 9, 2011.

The Honorable Bennie G. Thompson,
Ranking Member, House Committee on Homeland Security.
    Dear Representative Thompson: Like many Americans, we have been 
very concerned about the direction of Chairman Peter King's forthcoming 
hearings on the extent of radicalization in the American Muslim 
community. We appreciate your committee's focus on the need for 
vigilance to prevent terrorist threats from materializing, and 
recognize that an effective program to deal with the most violent 
extremism must deal with al-Qaeda and its fundamentalist Muslim allies 
as a critical threat. Notwithstanding this fact, we fear that holding 
hearings that single out the American Muslim community for scrutiny of 
radicals in its midst is more likely to sow distrust and resentment of 
a ``war on Islam'' by U.S. authorities than it is to bring tangible 
results--and ironically, could give rise to the very radicalism you are 
seeking to prevent.
    We think a more productive direction for your hearing would be to 
look for ways to enhance the engagement of the American Muslim 
community in the American Dream, thereby preventing the resentments 
that result in radicalism from arising. One of these means of 
engagement has been the efforts underway by American Christian, Jewish, 
and other congregations to welcome our Muslim brothers and sisters into 
our midst and build up a sense of trust and understanding between our 
communities.
    We are writing you in our personal capacity as co-chairs of the 
Intercongregational Partnership Committee of Bethesda Jewish 
Congregation and Bradley Hills Presbyterian Church in Bethesda, MD, 
where we have been developing a relationship with a local mosque for 
several years. Our two congregations have cohabited in the same 
building, with a wonderful harmonious relationship, since 1964--one we 
believe to be the longest-lived such relationship between a church and 
synagogue in the United States. Shortly after September 11, a number of 
our like-minded congregants decided that it was important to build on 
the lessons we had learned and try to establish a relationship with a 
local mosque. In 2003, we learned of efforts by a group from one such 
mosque, the Idara-e-Jaferia Islamic Center in Burtonsville, MD, to 
reach out to nearby churches and synagogues, and we began our 
relationship with them shortly thereafter.
    Over the past several years, we have been working to establish and 
build up our relationship in as many ways as possible. Since 2006, we 
have gotten our three congregations together for joint Thanksgiving 
services and discussions, and our members have gone to celebrate 
Ramadan at the mosque, as well as events such as Iman Hussein Day and 
their Mother's Day celebration. We have worked together on community 
social action projects, such as Habitat for Humanity construction work 
and events to draw attention to atrocities in Darfur. We have had joint 
study/discussion sessions with our three spiritual leaders, have 
jointly sponsored speakers, had a movie and discussion on the life of 
Mohamed, and have had several potluck dinners for smaller groups at our 
members' houses to get to know each other on a more personal level. We 
have started a joint women's discussion group, have had some joint Book 
Club discussions on books such as Lawrence Wright's ``The Looming 
Tower'' and Sari Nusseibeh's ``Once Upon a Country,'' and have even had 
some small group get-togethers to discuss more difficult topics 
involving Israel, Palestine, and Iran.
    The purpose of our joint events has been to create better 
understanding based on mutual respect for each of our religions, 
traditions, and cultures--not to attack Islamic radicalism or do any 
similar thing. But we have no doubt that participants in our joint 
activities from the mosque get such a strong message of our support and 
interest in them that the last thing in the world they contemplate is 
taking extremist action. We have never felt anything but the warmest of 
welcomes from our friends at the Idara-e-Jaferia in our joint events, 
and we daresay that they receive the same feelings from us.
    We have been encouraged to hear in recent years of numerous 
interfaith activities under way by other Christian, Jewish, and other 
congregations and religious groups to build understanding and respect 
of their Muslim brethren. We hope that in the forthcoming hearings, the 
committee will focus on on-going interfaith outreach efforts as an 
activity that, over time, should have far more success than the use of 
investigations and informants in addressing the root causes of Islamic 
radicalism.
            Sincerely,
                                            Gary Sampliner,
                                            Jeanne Tustian.
                                 ______
                                 
  Attachment 7.--Letter to Speaker Boehner and Minority Leader Pelosi

                                                  February 1, 2011.
The Honorable John Boehner,
Office of the Speaker, H-232 The Capitol, Washington, DC 20515.

The Honorable Nancy Pelosi,
Minority Leader, 235 Cannon HOB, Washington, DC 20515.
    Dear Speaker Boehner and Leader Pelosi: The undersigned community 
organizations and groups concerned about civil and human rights and 
National security strongly object to the hearings on violent extremism 
recently announced by the Chair of the Committee on Homeland Security, 
Congressman Peter King. Chairman King has characterized the hearings, 
tentatively scheduled for February 2011, as focusing exclusively on the 
``radicalization of the American Muslim community and homegrown 
terrorism.''\1\ If Chairman King proceeds with these hearings, please 
urge him to address all forms of violence motivated by extremist 
beliefs and to do so in a full, fair, and objective way.
---------------------------------------------------------------------------
    \1\ Peter King, What's Radicalizing Muslim Americans?, Newsday, 
December 17, 2010.
---------------------------------------------------------------------------
    Today, American Muslims reflect every race and ethnicity that 
comprise our Nation's rich heritage. In fact, Muslims have been an 
integral part of America since its founding when the first slave ships 
arrived on its shores. Muslims serve our Nation as teachers, business 
owners, factory workers, cab drivers, doctors, lawyers, law 
enforcement, firefighters, Members of Congress, and members of the 
armed forces. Their research and innovation adds to the progress of our 
Nation in science, business, medicine, and technology. They contribute 
to every aspect of our Nation's economy and society. The essence of our 
country is e pluribus unum: out of many, practicing their faith freely 
and contributing each in their own way, comes a strong, unified one.
    The hearings planned by Chairman King, however, are inconsistent 
with this vision of America. Singling out a group of Americans for 
Government scrutiny based on their faith is divisive and wrong. These 
hearings will inevitably examine activities protected by the First 
Amendment, an affront to fundamental freedoms upon which our country 
was founded. It harkens back to hearings held in the 1950s by then-U.S. 
Senator Joe McCarthy. That dark chapter in our history taught us that 
Congress has a solemn duty to wield its investigatory power 
responsibly.
    In the course of justifying the focus of the hearings, Chairman 
King has made broad and unsubstantiated assertions about the American 
Muslim community. For example, he continues to perpetuate the myth that 
80% of mosques in America are run by extremists,\2\ implying that they 
are hotbeds of extremism. To the contrary, experts have concluded that 
mosque attendance is a significant factor in the prevention of 
extremism.\3\ In addition, during a recent interview, Chairman King 
made a statement insinuating that American Muslims are not American:
---------------------------------------------------------------------------
    \2\ The Laura Ingraham Show, January 24, 2011.
    \3\ See David Schanzer, Charles Kurzman, Ebrahim Moosa, Anti-Terror 
Lessons of Muslim Americans, Duke University, January 6, 2010, at 28-
29.

``When a war begins, we're all Americans. But in this case, this is not 
the situation. And whether it's pressure, whether it's cultural 
tradition, whatever, the fact is the Muslim community does not 
cooperate anywhere near to the extent that it should. The irony is that 
we're living in two different worlds.''\4\
---------------------------------------------------------------------------
    \4\ Secure Freedom Radio With Frank Gaffney, January 6, 2011.

    If Chairman King is suggesting that American Muslims are somehow 
less American--simply by virtue of their faith--then that is an affront 
to all Americans.
    Providing a public, Government platform for these erroneous and 
offensive views has consequences. The American public takes cues from 
Government officials. These hearings will almost certainly increase 
widespread suspicion and mistrust of the American Muslim community and 
stoke anti-Muslim sentiment. During 2010, we saw an increase in anti-
Muslim hatred in public discourse, as well as hate crimes and violence 
targeting American Muslims, and those perceived to be Muslim, including 
vandalism and arson of mosques, physical attacks, bullying of children 
in schools, and attempted murder. No American should live in fear for 
his or her safety, and Congress should not help create a climate where 
it is acceptable to target a particular faith community for 
discrimination, harassment, and violence.
    Furthermore, a hearing that demonizes the American Muslim community 
will not go unnoticed by Muslims around the world and will contribute 
to perceptions of how the U.S. Government treats Muslims. Equal 
treatment and respect for all faiths are among our Nation's greatest 
strengths and are essential to a free and just society.
    Our Nation faces serious threats, both foreign and domestic. 
Violence motivated by extremist beliefs is not committed by members of 
one racial, religious, or political group. The Committee on Homeland 
Security should focus on keeping us safe, rather than engaging in fear-
mongering and divisive rhetoric that only weakens the fabric of our 
Nation and distracts us from actual threats.
    We strongly urge you to object to the hearings in their current 
form. If Chairman King wishes to address violent extremism, then we 
hope you will ensure that he examines violence motivated by extremist 
beliefs, in all its forms, in a full, fair, and objective way. The 
hearings should proceed from a clear understanding that individuals are 
responsible for their actions, not entire communities.
    Thank you for your attention to the issues raised in this letter. 
We look forward to hearing from you.
            Sincerely,

American-Arab Anti-Discrimination Committee,
American Pakistan Foundation,
Amnesty International USA,
Arab American Institute,
Arab Community Center for Economic and Social Services,
Baptist Joint Committee for Religious Liberty,
Center for Constitutional Rights,
Council on American-Islamic Relations,
EMERGE-USA,
Human Rights First,
Indian Muslim Relief & Charities,
Interfaith Alliance,
Islamic Medical Association of North America,
Islamic Networks Group,
Islamic Society of North America,
Japanese American Citizens League,
Muslim Advocates,
Muslim Public Affairs Council,
National Network for Arab American Communities,
Open Society Institute,
Pakistani American Public Affairs Committee,
Sikh Coalition,
South Asian Americans Leading Together,
Tanenbaum Center for Interreligious Understanding,
Unitarian Universalist Service Committee,
Association of American Muslim Lawyers,
American Muslim Law Enforcement Officers Association,
Arab American Association of New York,
Asian Law Caucus,
Bay Area Association of Muslim Lawyers,
Council of Islamic Organizations of Greater Chicago,
DRUM--Desis Rising Up and Moving,
Florida Muslim Bar Association,
The Freedom and Justice Foundation,
Georgia Association of Muslim Lawyers,
Houston Shifa Services Foundation,
Inner-City Muslim Action Network,
Islamic Shura Council of Southern California,
Majlis Ash-Shura of Metropolitan New York,
Michigan Muslim Bar Association,
Muslim Alliance of Indiana,
Muslim Bar Association of Chicago,
Muslim Bar Association of New York,
Muslim Bar Association of Southern California,
Muslim Consultative Network,
Network of Arab American Professionals--NY,
New England Muslim Bar Association,
New Jersey Muslim Bar Association,
Northern California Islamic Council,
Ohio Muslim Bar Association,
Somali Community Services--San Jose, CA.
      
                                 ______
                                 
      Attachment 8.--Statement of 54 Public Interest Organizations
                             March 10, 2011

    We are organizations that support the fundamental American values 
of civil rights and civil liberties for all. We write to strongly 
object to the House Homeland Security Committee's plans to hold 
hearings on the ``radicalization'' of American Muslims. Our concern is 
that these hearings will serve to further promote the demonization and 
scapegoating of millions of American Muslims, while providing little 
valuable insight into the prevention of domestic terrorism.
    While we all take the threat of terrorism seriously, we see no 
productive outcome in singling out a particular community for 
examination in what appears to be little more than a political show-
trial. American Muslims, like all Americans, want to keep our country 
safe, and to cooperate with law enforcement when they are aware of 
criminal activity. Yet many elected officials have chosen to demonize 
all American Muslims, denigrating their religion and questioning their 
patriotism. We fear that these hearings will only add to this toxic 
climate of suspicion toward American Muslims and may hinder the 
important efforts to maintain trust and mutual respect between American 
Muslims, law enforcement, and public officials.
    We commend your interest in exploring the roots of violent 
extremism, but we urge you to do so in a way that does not demonize 
millions of Americans for no reason but their faith.
            Sincerely,

Advocates for Youth,
African American Ministers in Action,
Alliance for Justice,
American Humanist Association,
American-Arab Anti-Discrimination Committee,
Americans United for Change,
Appeal for Justice,
Arab American Institute,
Arizona Progress ACTION,
Asian American Legal Defense and Education Fund,
Center for Community Change,
Center for Constitutional Rights,
Center for Media and Democracy,
Common Cause,
Council on American-Islamic Relations--New York,
Courage Campaign,
CREDO,
DRUM--Desis Rising Up & Moving,
Equal Justice Society,
Feminists for Free Expression,
Friends Committee on National Legislation,
Greater New York Labor-Religion Coalition,
Immigration Equality,
Japanese American Citizens League,
Jewish Funds for Justice,
Lawyers' Committee for Civil Rights Under Law,
Media Matters Action Network,
Muslim Advocates,
Muslim Consultative Network,
Muslim Peace Coalition USA,
National Asian Pacific American Women's Forum,
National Center for Lesbian Rights,
National Council of Jewish Women,
National Gay and Lesbian Task Force Action Fund,
National Latina Institute for Reproductive Health,
National Religious Campaign Against Torture,
New Security Action,
New York Neighbors for American Values,
NYC Coalition to Stop Islamophobia,
Parents, Families and Friends of Lesbians and Gays National,
People For the American Way,
Physicians for Human Rights,
Progressive Jewish Alliance,
Progressive National Baptist Convention, Inc.,
Project Vote,
Public Advocates Inc.,
Public Citizen,
Secular Coalition for America,
South Asian Americans Leading Together,
The Leadership Conference on Civil and Human Rights,
The Sikh Coalition,
Truman National Security Project,
WarIsACrime.org,
Women of Reform Judaism.
      
                                 ______
                                 
              Attachment 9.--Letter from 11 Organizations
                                                     March 7, 2011.

Honorable Peter King,
Committee on Homeland Security.
    Dear Chairman King: The undersigned organizations write to express 
our grave concerns about the House Homeland Security Committee's 
upcoming March 10 hearing on ``The Extent of Radicalization in the 
American Muslim Community.''
    Our organizations work with the diverse Asian Pacific American and 
Native Hawaiian and Pacific Islander communities around the country. 
Over the past decade, we have witnessed the harmful impact of post-
September 11 policies and practices on members of the South Asian, 
Muslim, Arab American, and Sikh communities. We are also keenly aware 
of how the backlash against communities after September 11 mirrors the 
internment of Japanese Americans during World War II, and believe that 
the mistakes that our country made during that time should not be 
repeated now.
    We strongly object to this hearing as it will perpetuate the on-
going targeting of individuals based on their faith, and will send the 
message to the general public that Muslims and those perceived to be 
Muslim are worthy of suspicion and scrutiny. Questioning an entire 
community's loyalty based on actions of a few is counter to American 
values and principles.
    In light of these concerns faced by community members, we urge you 
to cancel this hearing. In the alternative, we recommend that the 
hearing be reframed towards a dialogue focused on constructive 
solutions to address threats to security. Our country was founded on 
principles of tolerance and inclusion and we urge that this hearing not 
run counter to those values that we all hold so dear.
    For further information, please contact Priya Murthy, Policy 
Director, at South Asian Americans Leading Together.
            Sincerely,
Asian American Justice Center (AAJC),
Asian Pacific American Labor Alliance (APALA),
Japanese American Citizens League (JACL),
Laotian American National Alliance (LANA),
National Asian American Pacific Islander Mental Health Association 
(NAAPIMHA),
National Coalition for Asian Pacific American Community Development 
(National CAPACD),
National Federation of Filipino American Association (NaFFAA),
OCA-Embracing the Hopes and Aspirations of Asian Pacific Americans,
Sikh American Legal Defense and Education Fund (SALDEF),
South Asian Americans Leading Together (SAALT),
Southeast Asia Resource Action Center (SEARAC).
      
                                 ______
                                 
Attachment 10.--Statement of Americans United for Separation of Church 
                               and State
                             March 10, 2011

    Americans United for Separation of Church and State submits this 
testimony to the U.S. House of Representatives Committee on Homeland 
Security for a hearing entitled: ``The Extent of Radicalization in the 
American Muslim Community and That Community's Response.'' The freedom 
of religion, including the right to practice religion unencumbered by 
the Government's intrusion, disparagement, or burden, is one of our 
country's most fundamental freedoms. This hearing, however, threatens 
that freedom by singling out for scrutiny one particular community 
solely based on its religion. We fear that this hearing could have a 
chilling effect on religious practice, foster anti-Muslim sentiment, 
and promote misconceptions about the Muslim community and religion.
    Rather than focus on threats or actual acts of domestic terrorism 
generally, Chairman King has instead decided to examine only 
``radicalization'' in the American Muslim community. The focus, limited 
only to those with a particular religious belief, is misguided. It 
conflates religious practice with terrorism, even though the vast 
majority of American Muslims are peaceful, law-abiding citizens. This 
hearing risks mischaracterizing and demonizing one particular religious 
group. And further stoking anti-Muslim sentiment is particularly 
dangerous at a time when anti-Muslim rhetoric and violence is already 
on the rise.
    Furthermore, perpetuating falsehoods about the Muslim community is 
also counterproductive to the asserted goal of understanding 
``radicalization,'' It moves America no closer to understanding the 
actual roots of domestic terrorism and it risks alienating citizens 
from their Government. This committee should not treat an entire 
religious community as suspect because of the actions of a few. Indeed, 
it would be unthinkable for the committee to hold a hearing 
investigating and questioning the ``radicalization'' of other religious 
groups, such as Christians, based on a few members of their community.
    As the hearing proceeds, we urge Members of the committee to 
proceed cautiously and remember the importance our society and the 
Constitution place on the right to the free exercise of religion. Our 
Nation's leaders should measure their words carefully and temper their 
passion with reason. We ask that you steer clear of inflammatory and 
misleading labels and that you refrain from declaring what is orthodox 
or heretical, or what is a true or false religion.
    America is a religiously diverse country. Such diversity is a 
natural and expected result of our constitutionally protected religious 
liberty, which fosters inclusiveness and allows all Americans to freely 
exercise their beliefs, whether or not they practice a religion. Our 
Nation's religious diversity is, indeed, a source of strength, not 
weakness. Hearings targeting religious minorities contradict these 
American values and threaten to divide our Nation among religious lines 
rather than bring us all together as Americans.
    Thank you for considering our views on this important matter.
                                 ______
                                 
        Attachment 11.--Statement of the Arab American Institute
                            March 10, 2011.

                 ISLAMAPHOBIA CAN CREATE RADICALIZATION

    Let me state quite directly: Islamophobia and those who promote it 
are a greater threat to the United States of America than Anwar al 
Awlaqi and his rag-tag team of terrorists.
    On one level, al Awlaqi, from his cave hide-out in Yemen, can only 
prey off of alienation where it exists. Adopting the persona of a 
latter-day Malcolm X (though he seems not to have read the last 
chapters of the ``Autobiography'' or learned the lessons of Malcolm's 
ultimate conversion), he appears street-smart, brash, self-assured, and 
assertive--all of the assets needed to attract lost or wounded souls 
looking for certainty and an outlet for their rage. Like some 
parasites, al Awlaqi cannot create his own prey. He must wait for 
others to create his opportunities, which until now have been isolated 
and limited--a disturbed young man here, an increasingly deranged 
soldier there.
    Islamophobia, on the other hand, if left unchecked, may serve to 
erect barriers to Muslim inclusion in America, increasing alienation, 
especially among young Muslims. Not only would such a situation do 
grave damage to one of the fundamental cornerstones of America's unique 
democracy, it would simultaneously rapidly expand the pool of recruits 
for future radicalization.
    I have often remarked that America is different, in concept and 
reality, from our European allies. Third generation Kurds in Germany, 
Pakistanis in the United Kingdom, or Algerians in France, for example, 
may succeed and obtain citizenship, but they do not become German, 
British, or French. Last year, I debated a German government official 
on this issue. She kept referring to the ``migrants''--a term she used 
to describe all those of Turkish descent, living in her country, 
regardless of the number of generations they had been there. Similarly, 
following their last election, a leading British newspaper commented on 
the ``number of immigrants'' who won seats--without noting that many of 
those ``immigrants'' were third-generation citizens.
    America has prided itself on being different. Being ``American'' is 
not the possession of a single ethnic group, nor does any group define 
``America.'' Not only do new immigrants become citizens, they also 
secure a new identity. More than that, as new groups become American 
and are transformed--the idea of ``America'' itself has also changed to 
embrace these new cultures.
    Within a generation, diverse ethnic and religious groups from every 
corner of the globe have become Americans, dramatically changing 
America in the process. Problems remain and intolerant bigots, in every 
age, have reared up against new groups, but history demonstrates that, 
in the end, the newcomers have been accepted, incorporated, and 
absorbed into the American mainstream.
    This defines not only our National experience, but our defining 
narrative, as well. When immigrant school children in Europe learn 
French, German, or British history--they are learning ``their host's'' 
history. In the United States, from the outset, we are taught that this 
is ``our new story''--that it includes all of us and has included us 
all, from the beginning.
    It is because new immigrants and diverse ethnic and religious 
communities have found their place and acceptance in the American 
mainstream that the country, during the last century, survived and 
prospered despite being sorely tested with World Wars, economic 
upheaval, and bouts with internal strife. During all this time we had 
to contend with anti-black, anti-Asian, anti-Catholic, anti-Jewish, 
anti-immigrant, and anti-Japanese movements. In the end, after creating 
their moment of pain, these efforts have always lost.
    They lose, but they do not always go away. The Islamophobia we are 
witnessing today is the latest campaign by bigots to tear apart the 
very fabric of America. We know the groups promoting it. First, there 
is the well-funded ``cottage industry,'' on the right, of groups and 
individuals with a long history of anti-Arab or anti-Muslim activity. 
Some of the individuals associated with these efforts have been given 
legitimacy as commentators on ``terrorism,'' ``radicalization'' or 
``national security concerns''--despite their obvious bias and even 
obsession with all things Arab or Muslim (in this, they remind me of 
good old-fashioned anti-Semites who never tired of warning of Jewish 
threats or conspiracies or who while always claiming to like individual 
Jews, rallied against any and all Jewish organizations).
    If these ``professional bigots'' have provided the grist, the mill 
itself was run by the vast network of right-wing talk radio and TV 
shows and websites and prominent preachers who have combined to amplify 
the anti-Muslim message Nation-wide. Their efforts have done real 
damage. They have tormented decent public servants, created protests 
that have shuttered legitimate institutions, fomented hate crimes, and 
produced fear in the Muslim community.
    In just the past 2 years, we have seen a dramatic upsurge in the 
activity of these bigots. More ominously, their cause has been embraced 
by National political leaders and by elements in the Republican Party--
who appear to have decided, in 2010, to use ``fear of Islam'' as a 
base-building theme and a wedge issue against Democrats for electoral 
advantage.
    In the past only obscure or outrageous Members of Congress (like: 
North Carolina's Sue Myrick who expressed nervousness and insecurity 
because of ``who was owning all those 7/11's''; or Colorado's Tom 
Tancredo who once warned that he ``would bomb Mecca'') were outspoken 
Islamophobes. After the National Republican Congressional Campaign 
Committee embraced opposition to Park 51 as a campaign theme, it is 
hard to find a leading Republican who has not railed on some issue 
involving lslam or Muslims in the United States.
    The net impact here is that this current wave of Islamophobia has 
both played to the Republican base, while firming up that base around 
this agenda. The polling numbers are striking and deeply disturbing. 
Fifty-four percent of Democrats have a favorable attitude toward 
Muslims, while 34% do not. Among Republicans, on the other hand, only 
12% hold a favorable view of Muslims, with 85% saying they have 
unfavorable views. Additionally, 74% of Republicans believe ``Islam 
teaches hate'' and 60% believe that ``Muslims tend to be religious 
fanatics.''
    The danger here is that to the degree that this issue has become a 
partisan and, in some cases, a proven vote-getter for the GOP, it will 
not go away any time soon. The longer we are plagued by this bigotry, 
and the displays of intolerance it breeds (the anti-mosque building 
demonstrations or the anti-Sharia law efforts now spreading across the 
country) the longer young Muslims will feel that the ``promise of 
America'' does not include them--and they will feel like aliens in 
their own country.
    It is this concern that has prompted many inter-faith religious 
groups and leaders and a diverse coalition of ethnic and civil rights 
organizations to so vigorously oppose Congressman Peter King's (R-NY) 
hearings that will deal with the radicalization of American Muslims 
later this week. They know, from previous statements made by King, of 
his personal hostility to American Muslims. They also know that what 
King is doing will only aggravate an already raw wound, creating 
greater fear and concern among young Muslims--who have already 
witnessed too much bigotry and intolerance.
    What they should also know, is that in the process of targeting a 
religion in this way and engaging in this most ``un-American activity'' 
King and company are, in fact, opening the door for increased 
alienation and future radicalization. Al Awlaqi must be smiling from 
inside his cave.
                                 ______
                                 
 Attachment 12.--Statement of the Asian American Center for Advancing 
                                Justice
                             March 10, 2011

    Today the House Committee on Homeland Security will hold a hearing 
titled ``Radicalization of the American Muslim community and Homegrown 
Terrorism.'' On behalf of the Asian American Center for Advancing 
Justice, we would like to express our deep concern and opposition to 
the singling out of the Muslim community in America. This hearing not 
only violates our country's founding belief in religious freedom by 
targeting one community because of their religion, but undermines 
public safety and our National security by eroding a community's trust 
in law enforcement and diverting scarce law enforcement resources.
    Collectively, the members of the Asian American Center for 
Advancing Justice are non-profit, non-partisan organizations that 
enrich and empower the Asian American and Pacific Islander (AAPI) 
community and other underserved populations through public policy, 
advocacy, litigation, research, and community education. Our mission is 
to promote a fair and equitable society for all by working for civil 
and human rights and empowering Asian Americans and Pacific Islanders 
and other underserved communities.
    It is un-American to single out and deny any community their rights 
because of their race, religion, or political views. The AAPI community 
has suffered a long history of wholesale discrimination because of our 
race. Up until 1965, Federal law limited the entry of certain 
immigrants based solely on their race, including at one time barring 
virtually all Asians from immigrating to the United States. During 
World War II, Japanese Americans were ripped from their homes and sent 
to prison in desolate internment camps. Despite being born and raised 
in the United States, they were deemed ``enemies'' simply because of 
their race. In more recent times, South Asian Americans and Arab 
Americans have felt the brunt of post-9/11 discriminatory law 
enforcement practices. Discrimination in any form has no place in our 
society. America's promise is that we have always been a Nation of many 
faiths and beliefs. In fact, America's greatest strength is our 
diversity and commitment to protecting freedom, a commitment that sets 
us apart from other nations. Targeting Muslim Americans violates this 
very tenet upon which our Nation was founded.
    Furthermore, targeting a community based on religion makes our 
communities and our Nation less safe. To effectively maintain public 
safety, law enforcement requires the trust and cooperation of people in 
the communities they serve. Yet, any community that feels vulnerable 
and targeted is much less likely to trust law enforcement and 
therefore, less likely to report crimes or act as witnesses in 
investigations and prosecutions. Consequently, fear and suspicion of 
law enforcement in one community jeopardizes public safety for all.
    History has shown that targeting an entire community because of 
their race, religion, or political views has always been 
counterproductive to our National security. Despite being rounded up 
and interned for ``National security'' during World War II, not one 
Japanese American interned was found guilty of sabotage or espionage. 
Moreover, many Japanese Americans internees joined the 442nd Regimental 
Combat team, which became the most highly decorated unit of its size. 
Others joined the Military Intelligence Service that helped end the war 
with Japan. After 9/11, many citizens and legal permanent residents 
were detained indefinitely or deported through secret proceedings in 
the name of ``homeland security.'' However, not one charge of terrorism 
resulted from these mass detentions. The further targeting of Muslim 
Americans as a result of this hearing will not only be ineffective in 
securing our Nation's safety, but will divert already scarce law 
enforcement resources away from real threats.
    Lastly, leading law enforcement officials have rejected claims that 
Muslim Americans are not cooperating with law enforcement. For example, 
Los Angeles County Sheriff Lee Baca notes that there is nothing to 
support the view that American Muslims are being uncooperative with law 
enforcement.\1\
---------------------------------------------------------------------------
    \1\ Smith, Ben. ``LA sheriff takes on King.'' POLITICO. 7 February 
2011, Web. 7 March 2011.  http://www.politico.com/blogs/bensmith/0211/
LA_sheriff_takes_on_King.html?showall.
---------------------------------------------------------------------------
    Therefore, the Asian American Center for Advancing Justice urges 
the committee to cancel any future hearings on ``Muslim 
Radicalization'' and to focus on security measures that target 
individual behavior, not whole communities of faith. Furthermore, 
policies that serve to combat racial profiling must be protected and 
strengthened. For example, the 2003 Department of Justice (DOJ) 
Guidance Regarding the Use of Race by Federal Law Enforcement Agencies 
should be amended to include a ban on religious profiling and to remove 
the National security and border integrity exemptions that permit law 
enforcement racial profiling. This is the only way to protect the well-
being and safety of all Americans and to preserve our Nation's promise 
to protecting the freedoms of Americans of all races and religions. 
Thank you.
                                 ______
                                 
      Attachment 13.--Statement of the Brennan Center for Justice
                                                     March 7, 2011.

    Dear Rep. Thompson: I am pleased to enclosed a copy of Rethinking 
Radicalization,\1\ a new publication from the Liberty and National 
Security Program at the Brennan Center for Justice, as a statement for 
the record in Representative Peter King's (R-NY) upcoming hearing on 
radicalization.
---------------------------------------------------------------------------
    \1\ Due to length, this document has been retained in committee 
files and is available at http://www.brennancenter.org/content/
resource/rethinking_radicalization/.
---------------------------------------------------------------------------
    Radicalization is a tangled issue, touching on both speech that 
receives the most robust First Amendment protection and criminal acts 
that must be punished with the full force of the law. Rethinking 
Radicalization tests the radicalization theories put forward by some 
(but not all) law enforcement officials against research from the 
social sciences, the intelligence community, and other Government 
agencies. The report details how theories with serious flaws 
nonetheless spur a heavy-handed law enforcement response. Not only does 
this response raise important First Amendment issues, but it also 
jeopardizes the very counterterrorism efforts it is meant to advance by 
driving away the communities whose help has been so important in 
thwarting terrorist plots.
    The report recommends specific measures that our government can 
take to recalibrate its approach to radicalization, in order to ensure 
that the measures it has undertaken are effective and in keeping with 
our fundamental Constitutional values.
    As you consider this topic, we hope that our report will be helpful 
to you. If you have any questions or require any further information, 
please contact me.
            Best Regards,
                                               Faiza Patel,
                  Co-Director, Liberty & National Security Program.
                                 ______
                                 
Attachment 14.--Statement of Kate Martin, Director, Center for National 
                            Security Studies
                             March 10, 2011

    We appreciate the opportunity to submit this statement for the 
record and the committee's consideration of our views. The Center for 
National Security Studies is a think tank and civil liberties 
organization, which for 30 years has worked to ensure that civil 
liberties and human rights are not eroded in the name of National 
security. The Center is guided by the conviction that our National 
security must and can be protected without undermining the fundamental 
rights of individuals guaranteed by the Bill of Rights. In our work on 
matters ranging from National security surveillance to intelligence 
oversight, we begin with the premise that both National security 
interests and civil liberties protections must be taken seriously and 
that by doing so, solutions to apparent conflicts can often be found 
without compromising either.
    We appreciate this committee's important oversight responsibilities 
regarding the Department of Homeland Security. However, we write to 
express our concern that the committee's series of planned hearings on 
``radicalization'' of the American Muslim community raises serious 
Constitutional concerns and poses a potential threat of chilling 
freedom of religion and speech protected by the First Amendment.
    There is no doubt that Congress has the responsibility to examine 
the problem of al-Qaeda recruitment of individuals to commit terrorist 
acts. And we appreciate that this committee has held multiple hearings 
on this problem, including the hearing last month with testimony from 
Secretary Napolitano and Director Leiter.
    However, hearings about the ``radicalization'' of American 
religious communities are fundamentally different. While 
``radicalization'' (or ``extremism'') is used to mean many different 
things, we are concerned that these hearings will focus on religious 
beliefs and communities of faith, rather than on criminal acts. Doing 
so would risk threatening fundamental First Amendment freedoms of 
religion and speech and association.
    Religious liberties are protected by the First Amendment's command 
to respect individual rights by limiting Government authority. While 
Congress has broad and necessary powers of oversight and inquiry, they 
are not unlimited. As the Supreme Court held in 1957 in one of the 
cases arising out of the hearings held by the House of Representatives 
Committee on Un-American Activities on the domestic threat of American 
communists, Congressional inquiries, like legislation, may not tread on 
First Amendment freedoms. The Supreme Court affirmed that: ``The Bill 
of Rights is applicable to investigations as to all forms of 
governmental action. Witnesses cannot be compelled to give evidence 
against themselves. They cannot be subjected to unreasonable search and 
seizure. Nor can the First Amendment freedoms of speech, press, 
religion, or political belief and association be abridged.'' Watkins v. 
United States, 354 U.S. 178, 188 (1957) (emphasis added).
    The Supreme Court just reaffirmed last week that even the most 
offensive speech by individuals is protected by the First Amendment. It 
held that the Westboro Baptist Church could not be sued for protesting 
at soldiers' funerals because their protests are protected speech. 
Snyder v. Phelps, No. 09-751 (Mar. 2, 2011) available at http://
www.supremecourt.gov/opinions/10pdf/09-751.pdf. Accordingly, the First 
Amendment protects those who criticize or attack another's religion; it 
protects individuals questioning the ``true nature of Islam,'' even 
when they express offensive and false or extremist views, just as it 
protects individuals who may hold religious beliefs deemed ``radical'' 
by others.
    Thus, the FBI may not target individuals for investigation based 
simply on their ``radical'' statements--whether anti-Muslim or anti-
United States--because those statements, however hateful, are protected 
by the First Amendment. Of course, when individuals engage in criminal 
acts of violence inspired by their views, they forfeit First Amendment 
protections and are fully subject to investigation and prosecution. And 
the Government may properly investigate, target, and prosecute those 
who are suspected of planning such criminal acts, as the planning 
itself is a crime and sometimes a terrorism crime.
    This committee, like law enforcement, should be careful to 
distinguish between protected First Amendment speech and religion--
whether radical or not--and criminal terrorist activity or plots. Only 
the latter may properly be the subject of official inquiry. Indeed, 
that Constitutional limitation has been recognized by Congress in the 
prohibition on the use of Foreign Intelligence Surveillance techniques 
(FISA) against Americans based solely on First-Amendment protected 
activity. 50 USC  1805(a)(2)(a).
    The Framers well knew the tendency of all governments to seek to 
suppress minority, dissenting, or ``radical'' views, especially on 
religious matters. ``[T]he Fathers of the Constitution were not unaware 
of the varied and extreme views of religious sects, of the violence of 
disagreement among them, and of the lack of any one religious creed on 
which all men would agree. They fashioned a charter of government which 
envisaged the widest possible toleration of conflicting views. Man's 
relation to his God was made no concern of the state. He was granted 
the right to worship as he pleased and to answer to no man for the 
verity of his religious views.'' United States v. Ballard, 322 U.S. 78, 
87 (1944). The First Amendment recognizes that in order to protect 
religious freedom, the Government must distinguish between religious 
views, which must be protected from Government interference, and 
criminal acts of violence, which may be punished.
    The committee's hearings threaten to impermissibly blur this 
distinction. One of the individuals identified as a witness has been 
very critical of ``Islamic'' beliefs and of public statements by Muslim 
Americans.\1\ Ironically, one of his claims is that Islamic ideology 
sometimes fails to respect the appropriate boundary between Government 
and theology, a boundary these hearing themselves risk trespassing. The 
witnesses' views are, of course, protected by the First Amendment; and 
the tenets of Islam, like the tenets of Catholicism, are properly 
publicly debated. But creating a Government platform and the appearance 
of Government endorsement for one set of views, through the process of 
Congressional hearings, is a different matter. A Congressional 
committee, through its choice of witnesses and its questions to 
witnesses, should not be seen as taking sides on matters of religious 
doctrine. Congress should not conduct an inquiry into the true nature 
of Islam, or whether there exists an ``ideology'' of ``political 
Islam,'' or what individual Muslim Americans (or others) have said 
about these controversies. By analogy, it's doubtful that Congress 
would consider it appropriate to investigate a Christian pastor labeled 
as ``radical'' by other Americans for suggesting the Government should 
be run based on particular Christian principles. (And the fact that 
one-time followers of such a pastor may have committed crimes ``in the 
name of their faith'' would not change that conclusion.) As Republican 
Senator Mark Hatfield cautioned in 1979 when the Congress was holding 
an ``Information Meeting,'' not a hearing, on religious cults after the 
Jonestown mass suicides: ``if the government launche[s] into a pattern 
of preemptive interference with even marginal religious groups . . . a 
precedent with regrettable implications might be established for the 
future of religious freedom in the United States . . .  [B]e very, very 
wary about plowing into a field so complex, so personal as religious 
philosophy that could encumber the First Amendment to our 
Constitution.'' Joint Congressional Information Meeting on the Cult 
Phenomenon in the United States, 96th Congress 6-8 (Feb. 5 1979) 
(statement of Sen. Mark Hatfield).
---------------------------------------------------------------------------
    \1\ Laurie Goodstein, Muslims to be Congressional Hearings' Main 
Focus, N.Y. TIMES, Feb. 7, 2011, available at https://www.nytimes.com/
2011/02/08/us/politics/08muslim.html?r=2&
ref=politics.
---------------------------------------------------------------------------
    The core of the First Amendment is that the Government should not 
be seen as favoring or disfavoring particular religions or religious 
doctrine. The upcoming hearing risks causing the evils the First 
Amendment is meant to protect against: Burdening the free exercise of 
religion, giving the appearance of official endorsement of one set of 
religious beliefs over another, and chilling both free association and 
free speech. A Congressional inquiry puts enormous pressure on private 
groups and individuals who are singled out for scrutiny. This is 
especially true where the hearings focus on the beliefs of minority 
religious communities who have already been the targets of both hate 
speech and actual violence. And the impacts extend beyond those who are 
actual witnesses.\2\ Even if the greater part of the penalty may be in 
the form of social pressures or ostracism inflicted by private persons, 
this fact does not relieve Congress of the responsibility of 
``initiating the reaction.'' See Watkins, 354 U.S. at 197-8.
---------------------------------------------------------------------------
    \2\ As the Supreme Court has explained: ``Abuses of the 
investigative process may imperceptibly lead to abridgment of protected 
freedoms . . . And when those forced revelations concern matters that 
are unorthodox, unpopular, or even hateful to the general public, the 
reaction in the life of the witness may be disastrous . . . Nor does 
the witness alone suffer the consequences. Those who are identified by 
witnesses, and thereby placed in the same glare of publicity, are 
equally subject to public stigma, scorn, and obloquy. Beyond that, 
there is the more subtle and immeasurable effect upon those who tend to 
adhere to the most orthodox and uncontroversial views and associations 
in order to avoid a similar fate at some future time.'' Watkins, 354 
U.S. at 197-8.
---------------------------------------------------------------------------
    As a civil liberties organization, we have fought for many years 
against Government proposals to investigate the religious or political 
beliefs of any group of Americans, whether those who oppose abortion or 
others who oppose a particular war, whether labeled ``radical'' or 
``extremist''. We subscribe to the views of the Attorney General that 
``law enforcement has an obligation to ensure that members of every 
religious community enjoy the ability to worship and to practice their 
faith in peace, free from intimidation, violence or suspicion. That is 
the right of all Americans. And it must be a reality for every citizen. 
In this nation, our many faiths, origins, and appearances must bind us 
together, not break us apart.''\3\ We hope that you will agree that 
this is also the obligation of the Congress. Consistent with First 
Amendment values, we urge the committee to avoid using its Government 
power to target individuals or communities based on their religious 
beliefs--whether characterized as ``radical,'' ``extremist,'' or 
``fundamentalist.'' Instead the Homeland Security Committee should 
focus on al-Qaeda's criminal efforts to recruit Americans to carry out 
terrorist acts.
---------------------------------------------------------------------------
    \3\ Attorney General Eric Holder, Remarks at Muslim Advocates' 
Annual Dinner (Dec. 10, 2010).
---------------------------------------------------------------------------
                                 ______
                                 
Attachment 15.--Statement of Zaher Sahloul, M.D., Chairman, Council of 
                Islamic Organizations of Greater Chicago

                                                    March 10, 2011.

    This statement is hereby submitted in my capacity as chairperson of 
the Council of Islamic Organizations of Greater Chicago (hereinafter, 
the ``Council'' or ``CIOGC'') to the U.S. House of Representatives 
Committee on Homeland Security with respect to its forthcoming hearing 
entitled ``The Extent of Radicalization in the American Muslim 
Community and that Community's Response to it.''
 background on the council of islamic organizations of greater chicago
    The Council of Islamic Organizations of Greater Chicago, 
www.cioac.org, is a federation of over 50 mosques, Islamic schools and 
other Muslim organizations throughout the State of Illinois. The 
Council's member organizations collectively represent over 400,000 
Muslims. The Council works to coordinate the activities of the Muslim 
community as well as provide education, training, networking, and 
advocacy to and on behalf of our member organizations.
    The Council works closely with governmental and law enforcement 
agencies at the local, State, and Federal levels. Council 
representatives meet regularly with the Department of Homeland Security 
(DHS) and Federal Bureau of Investigation (FBI) in Chicago roundtable 
meetings organized by the office of Civil Rights and Civil Liberties of 
DHS. These meetings serve to improve coordination and strengthen the 
relationship between Federal law enforcement and the Muslim community, 
with the express purpose of keeping our communities safe from extremism 
and protecting civil liberties. These regularly held meetings are clear 
examples of the level of cooperation between different Muslim American 
organizations and law enforcement agencies at the local and National 
levels.
    Representatives of the Council also participated in several 
meetings organized by DHS in Washington DC, where more than 20 National 
and regional Muslim organizations were invited for discussion on 
fighting violent extremism. Frank and open feedback was provided by 
Muslim leaders about different DHS initiatives, and that has in my view 
helped develop better policies, as well as improve their implementation 
at the community level.
    The Council also places high priority on our community's youth and 
on civic engagement. Our youth activities and programs promote 
character, spirituality, and citizenship. For example, for the past 3 
years, we sponsor the ``Illinois Muslim Action Day''--a highly 
anticipated event which brings together hundreds of students and 
Muslims of all ages from across the State to travel to Springfield to 
engage directly with their elected representatives and advocate for 
reform in such areas as education, health and nutrition, refugee 
assistance, and the environment. We believe that engaging youth at the 
civic level helps promote a balanced and strong American identity that 
prevents alienation and radicalization. We also provide sensitivity 
training to public schools, leadership development programs, writing 
workshops, teacher trainings, and other activities.
    concerns regarding the committee's hearing on ``radicalization''
    Our concerns regarding the hearing are not about whether there 
exists a potential for violent radicalization among a small percentage 
of misinformed and alienated Muslim Americans, similar to that of other 
minorities. We do acknowledge this risk. And we are committed to 
protect our communities, promote civic values among Muslim Americans, 
and work with our Governmental and law enforcement agencies in order to 
reach our shared goals.
    However the hearing focuses on this phenomenon within the Muslim 
community while ignoring putting the issue into perspective. Violent 
terrorist acts committed by Muslim Americans represented a very small 
percentage of all violent crimes committed in the United States, and 
while it is important to address this issue, without providing a 
broader perspective, Congress risks giving the wrong impression to 
policy makers and to the American public.
    Our concerns also are based on the very real potential that this 
hearing may further inflame an already toxic environment in which too 
many Americans hold their Muslim American neighbors with suspicion. 
Many polls have shown that a large percentage of the American public 
has negative views of Muslim Americans and Islam in general, and that 
this perception has been trending worse over the past 9 years. We have 
witnessed a tangible increase in Islamophobia in our State and around 
the country. This was evident in the unfortunate drama this past summer 
surrounding the Park51 Center, in arson attacks on mosques, physical 
violence against Muslims or those suspected of being and closer to 
home, disproportionate and unfairly imposed burdens we are facing with 
respect to zoning issues concerning our mosques and community centers.
    We are also concerned because of the prior remarks made by 
Representative Peter King, Chairman of the House Committee on Homeland 
Security. Rep. King has a history of making misinformed and widely 
irresponsible statements regarding our community. He continues to claim 
that some 80% of our Nation's mosques are led by extremists, saying 
``this is an enemy living among us.'' Nothing could be further from the 
truth as has been proven time and again by the many studies on Muslim 
American communities. A recent Duke study has shown that mosques 
actually protect against radicalization of Muslims in the United 
States, and that increasing the capacity of Muslim organizations and 
mosques should help in the fight against violent extremism.
    We are also concerned because of the way in which this hearing has 
been named. From the secrecy surrounding the witness list to the close 
cooperation Chairman King's staff has had with known Islamophobe Steven 
Emerson in preparing for the hearing to its actual title, it seems 
clear that it is a whole faith community coming under scrutiny.
    In conclusion, the singling out of a group of Americans based on 
their faith is divisive and simply unproductive. We expect more from 
our representatives in Congress.
    Thank you for your attention to our concerns.
            Sincerely,
                                         Dr. Zaher Sahloul,
     Chairman, Council of Islamic Organizations of Greater Chicago.
                                 ______
                                 
   Attachment 16.--Statement of Victor Ghalib Begg, Senior Advisor, 
              Council of Islamic Organizations of Michigan
                                                    March 10, 2011.

    The Council of Islamic Organizations of Michigan (CIOM) submits 
this outside witness statement for the U.S. House of Representatives, 
Committee on Homeland Security, examining the extent of radicalization 
in the American Muslim community and the community's response to it.
    As a council of 18 organizations representing an estimated 300,000 
Muslims, CIOM's mission is to coordinate and proactively communicate 
key issues for Michigan's Islamic communities and build bridges and 
positive collaboration with Government, law enforcement, civic, 
interfaith, and media organizations. We strive to present Islam in all 
its facets, and to constructively respond to any negative, 
stereotypical portrayal of Islam and Muslims.
    CIOM has served the Muslim community of Michigan since the 1980s 
and is a well-respected and recognized organization in the State of 
Michigan. Past Republican and Democratic governors, Detroit's Mayors 
and Michigan's Congressional delegation and other civic, media, 
Government, and religious leaders regularly attend CIOM events and work 
with its leadership--both in the past and on a continuing basis. As 
part of its goals and objectives, CIOM provides effective advocacy on 
critical social justice issues impacting American-Muslims and educates 
fellow Americans about Islam as a religion and a peaceful way of life, 
Muslim cultures and traditions. CIOM further deals with critical issues 
and challenges facing American Muslims as well as Muslims in other 
parts of the world.
    CIOM also works with other local and National organizations, Muslim 
and non-Muslim, engaged in building peaceful and inclusive 
neighborhoods with a goal of making lives of average people better in 
the State of Michigan.
    As a faith-based regional community umbrella organization concerned 
about civil and human rights, we strongly object to the hearings 
supposedly on radicalization within the American Muslim community 
called by the Chair of the Committee on Homeland Security, Congressman 
Peter King. Chairman King has characterized the hearings as focusing 
exclusively on the ``radicalization of the American Muslim community 
and homegrown terrorism.''
    America has experienced a difficult past few years. We have seen a 
rise in acts of violence by marginalized and disgruntled individuals. 
Some have proven mentally unsound while others have been motivated by 
politics or by their misinterpretation of religion--both trends that we 
must challenge in all their forms, working as one Nation committed to a 
shared struggle. However, we must not target one faith or community in 
this endeavor. We strongly believe that these hearings will paint an 
entire faith community with a broad brush of suspicion and distrust 
based on the actions of a tiny minority of violent extremists. In our 
opinion and in the opinion of many, Chairman King's singling out a 
group of Americans based on their faith for Government scrutiny is 
divisive and wrong. These hearings will inevitably examine activities 
protected by the First Amendment, an affront to fundamental freedoms 
upon which our country was founded.
    We believe these hearings are largely based on unsubstantiated 
claims and generalizations. We beg to differ with Rep. King's 
assumption that American Muslims do not cooperate with law enforcement, 
a claim that simply does not square with the facts.
    The Imams Committee of CIOM and other Islamic leaders in Michigan 
meet regularly with the local U.S. Attorney's office and with the FBI's 
Special Agent in charge of the Detroit Office. Such meetings are 
equally aimed at protecting the civil rights of the Muslim community 
and making sure that there is a strong and open dialogue with law 
enforcement. Issues are openly discussed in order to build trust and 
enhance communications. It is critical to hear the testimony of law 
enforcement officials who have worked so diligently across America to 
build partnerships with local Muslim communities.
    We respectfully submit that it is preposterous to think American 
Muslims would not want safe communities--Muslims have much to lose 
should there be a terrorist attack committed by a person with a Muslim 
name or affiliation.
    Mainstream Muslim leadership from such organizations like CIOM must 
be given the opportunity to speak. While there are many Muslim 
community organizations, social service groups, and political 
associations, none will be represented through direct testimony in this 
hearing, as we understand. Instead, the committee has sought the 
testimony of people like Walid Phares, a ``former official'' of a 
militia implicated in the infamous 1982 massacre of civilian men, 
women, and children at the Sabra and Shatila refugee camps in Lebanon. 
We are happy to know Mr. Phares has just recently been dropped from the 
witness list, due to the credit of journalists who raised questions 
about his own extremist past. And Rep. King has called upon others like 
M. Zuhdi Jasser, who boasts of a long record of Islamophobic remarks, 
but has few other credentials. We urge that Mr. Jasser's prejudicial 
testimony be excluded.
    Mainstream Muslim community leaders, given the opportunity by 
Congressman King, would gladly articulate how hard they work to fight 
violent extremists in their own backyard because they know what is at 
stake. They would gladly testify of their love for their country and 
their commitment to keeping it safe.
    Muslim Americans are an important part of the security of our 
Nation. The tone of these hearings and the exclusion of mainstream 
Muslims will do nothing to build upon that asset or strengthen the 
effectiveness of law enforcement. Instead, these hearing in their 
present form will further divide Americans by casting suspicion upon 
their law-abiding Muslim neighbors, while sowing fear among Muslims 
with regard to whatever anti-Muslim bigotry may be unleashed.
    Thank you for your attention to our concerns.
            Sincerely,
                                        Victor Ghalib Begg,
      Senior Advisor, Council of Islamic Organizations of Michigan.
                                 ______
                                 
Attachment 17.--Statement of the Council on American-Islamic Relations 
                                   *
---------------------------------------------------------------------------
    * Due to length, this document has been retained in committee files 
and is available at http://www.cair.com/ActionCenter/
PeterKingHearings.aspx.
---------------------------------------------------------------------------
                                 ______
                                 
    Attachment 18.--Statement of C. Dixon Osburn, Director of Law & 
                      Security, Human Rights First
                             March 10, 2011

                              INTRODUCTION

    We are pleased to submit this statement on behalf of Human Rights 
First. Human Rights First is a U.S.-based international human rights 
organization. The Law & Security program for Human Right First promotes 
security policies that respect the rule of law and human rights. We 
work in coalition with retired generals and admirals, law enforcement 
officials, professional interrogators, National security organizations 
and civil liberties groups.
    We appreciate the role of the House Homeland Security Committee in 
protecting our homeland. The House Homeland Security Committee has a 
responsibility to address threats facing our Nation. Those threats are 
real and complex. The United States must constantly assess how to 
identify, mitigate, prepare for, and respond to threats to our National 
security. Experts have identified best practices for homeland security 
and cautioned against measures that would undermine that objective. 
This statement outlines the current threat assessment, principles 
behind best and worst practices in responding to the current threat, 
and unintended negative consequences of racial and religious profiling.

                     THE CURRENT THREAT ASSESSMENT

    The nature of the threat facing the United States has evolved since 
9/11. We are facing an increasing use of small-scale attacks by lone 
actors who are American residents and who defy racial, ethnic, and 
religious phenotypes.
    Department of Homeland Security Secretary Janet Napolitano 
testified before this committee on February 9, 2011 that the current 
threat we face is from small-scale attacks by American residents. She 
said, ``One of the most striking elements of today's threat picture is 
that plots to attack America increasingly involve American residents 
and citizens . . . [in] smaller-scale attacks . . . ''.\1\ The 
Institute for Homeland Security Solutions also concluded that ``more 
than 40% of terrorist plots from 1999 to 2009 were planned or carried 
out by single individuals or `lone wolves.' ''\2\
---------------------------------------------------------------------------
    \1\ Understanding the Homeland Threat Landscape--Considerations for 
the 112th Congress: Hearing Before the H. Comm. on Homeland Sec. 112th 
Cong. 2 (2011) (statement of Janet Napolitano, Dep't of Homeland Sec. 
Sec'y).
    \2\ Kevin Strom et al., Building on Clues: Examining Successes and 
Failures in Detecting U.S. Terrorist Plots, 1999-2009. (Institute for 
Homeland Security Solutions, 2010), available at https://
www.ihssnc.org/portals/0/Building_on_Clues_Strom.pdf.
---------------------------------------------------------------------------
    Those who are instigating threats to our homeland cross religion, 
ethnicity, race, and gender. The diversity of high profile terrorists 
includes: White Texan Joseph Stack who crashed a plane into an IRS 
building in Austin, Texas; shoe bomber, Richard Reid, who was half-
Jamaican, half-Caucasian; Hispanic-American Jose Padilla who was 
suspected of plotting to build a dirty bomb, and was convicted on 
conspiracy-related charges; half-Pakistani, half-American David Headley 
of Chicago who helped plan the terrorist attacks in Mumbai in 2008; 
white Colleen LaRose (AKA Jihad Jane) who plotted to kill a cartoonist 
who blasphemed Muhammad; and the Oklahoma City bomber, Timothy McVeigh, 
a white male.
    In a February 2011 report, ``Assessing the Jihadist Terrorist 
Threat to America and American Interests,'' Peter Bergen of the New 
America Foundation came to the same conclusion: One development in the 
current threat of homegrown terrorism ``is the increasing 
diversification of the types of U.S.-based . . . militants, and the 
groups with which those militants have affiliated. Indeed, these 
[militants] do not fit any particular ethnic, economic, educational, or 
social profile.''\3\
---------------------------------------------------------------------------
    \3\ Peter Bergen et al., Assessing the Jihadist Terrorist Threat to 
America and American Interests, NEW AMERICA FOUNDATION, http://
counterterrorism.newamerica.net/publications/articles/2011/
assessing_the_jihadist_terrorist_threat_to_america_and_american_
interests# (last visited March 4, 2011).
---------------------------------------------------------------------------
    The Institute for Homeland Security Solutions also concluded that 
less than half of the plots examined were al-Qaeda or al-Qaeda-inspired 
plots.\4\ An almost equal number of violent extremism plots in the 
United States were motivated by white supremacy or militia/anti-
Government intent.\5\
---------------------------------------------------------------------------
    \4\ Strom, supra note 2, at 1.
    \5\ Strom, supra note 2, at 1.
---------------------------------------------------------------------------
  PRINCIPLES BEHIND BEST PRACTICES FOR MITIGATING HOMEGROWN TERRORISM

    The threat posed by small bore attacks by a diverse set of lone 
wolves is that is it more difficult to identify actionable 
intelligence. As Department of Homeland Security Secretary Janet 
Napolitano testified, ``The logic supporting these kinds of terrorist 
plots is simple: They present fewer opportunities for disruption by 
intelligence or law enforcement than more elaborate, larger-scale plots 
by groups of foreign-based terrorists.''\6\
---------------------------------------------------------------------------
    \6\ Napolitano, supra note 1, at 2.
---------------------------------------------------------------------------
    Law enforcement and security experts agree that the best method of 
identifying, disrupting, mitigating, preparing for, and responding to 
threats is a multi-layered approach that involves the community and law 
enforcement. Significant intelligence comes from local citizens 
``seeing something, saying something.'' Community tips are not about 
our Nation being lucky, as some have derisively claimed, but leveraging 
the ability of local and Federal officials to quickly detect and assess 
anomalies that may be a precursor to an attack.
    According to the Institute for Homeland Security Solutions, 
``Approximately 40% of plots were thwarted as a result of tips from the 
public and informants. Establishing trust with persons in or near 
radical movements is jeopardized by tactics such as racial, ethnic, 
religious, or ideological profiling.''\7\
---------------------------------------------------------------------------
    \7\ Strom, supra note 2, at 2.
---------------------------------------------------------------------------
    Secretary Napolitano explained to this committee, ``Law enforcement 
at the state, local and federal levels are leveraging and enhancing 
their relationships with members of diverse communities that broadly 
and strongly reject violent extremism.''\8\
---------------------------------------------------------------------------
    \8\ Napolitano, supra note 1, at 3.
---------------------------------------------------------------------------
    The willingness of Americans to report suspicious activity rests on 
trust and confidence in our leaders to handle such reports with 
integrity. Racial, ethnic, religious, or ideological profiling erodes 
that trust. Increasing surveillance of any group of Americans 
undermines our security. Former Secretary of Homeland Security Michael 
Chertoff has said, ``Our history of social integration and religious 
tolerance are important defenses against homegrown terrorists. We 
should be careful to maintain these traditional values even as we 
address new efforts by our enemies to establish footholds here at 
home.''\9\
---------------------------------------------------------------------------
    \9\ Michael Chertoff, Our Homegrown Terror Threat, The Daily Beast, 
(Jan. 21, 2010 6:23 PM) http://www.thedailybeast.com/blogs-and-stories/
2010-01-01/our-homegrown-terror-threat/2/full/.
---------------------------------------------------------------------------
    Los Angeles County Sheriff Lee Baca said, ``Muslim Americans in the 
county of Los Angeles have been overwhelmingly astounded by terrorist 
attacks--like everyone else--and overwhelmingly concerned about a non-
repeat performance of that kind--and are willing to get involved and 
help.''\10\ Attorney General Eric Holder has come to the same 
conclusion: ``[T]he cooperation of Muslim and Arab-American communities 
has been absolutely essential in identifying, and preventing, terrorist 
threats.''\11\ As Faisal Shahzad sought to detonate a bomb in Times 
Square last year, it was Aliou Niasse, a Muslim street vendor, who 
first alerted police to the threat.\12\ According to Muslim Public 
Affairs Council, four out of every ten al-Qaeda plots since 9/11 have 
been foiled because of intelligence shared by the American Muslim 
Community.\13\
---------------------------------------------------------------------------
    \10\ Ben Smith, LA Sheriff Takes on King, POLITICO.COM Blog (Feb. 
7, 2011, 3:17 PM) http://www.politico.com/blogs/bensmith/0211/
LA_sheriff_takes_on_King.html?showall.
    \11\ Eric Holder, Att'y Gen. of the U.S., Remarks at the Muslim 
Advocates' Annual Dinner (Dec. 10, 2010) available at http://
www.mainjustice.com/2010/12/11/holders-prepared-remarks-at-muslim-
advocates-dinner-in-san-francisco/.
    \12\ Alexandra Frean, Unexploded car bomb in Times Square 
`amateurish one-off' terrorism attempt, The Sunday Times, May 2, 2010 
available at http://www.timesonline.co.uk/tol/news/world/
us_and_americas/article7114495.ece.
    \13\ Alejandro Buetel, Data on Post-9/11 Terrorism in the United 
States, 3, (Muslim Public Affairs Council 2011) available at http://
www.mpac.org/assets/docs/publications/MPAC-Post-911-Terrorism-Data.pdf.
---------------------------------------------------------------------------
    President Obama said, ``Thanks to our intelligence and law 
enforcement professionals, we are disrupting plots and securing our 
cities and skies. And as extremists try to inspire acts of violence 
within our borders, we are responding with the strength of our 
communities, with respect for the rule of law, and with the conviction 
that American Muslims are a part of our American family.''\14\
---------------------------------------------------------------------------
    \14\ Barack Obama, Pres. of the U.S., State of the Union Address 
(Jan. 25, 2011) available at http://abcnews.go.com/Politics/
State_of_the_Union/state-of-the-union-2011-Full-transcript/
story?id=12759395&page=4.
---------------------------------------------------------------------------
    Building trust with local communities is more than providing a safe 
environment in which to report possible threats. It means ensuring that 
the Government understands and addresses the social and economic 
challenges faced by all Americans so that they can reach their full 
potential and live the American dream. Deputy National Security Advisor 
Denis McDonough said on March 6, 2011, ``We refuse to `securitize' the 
relationship between the government and millions of law-abiding, 
patriotic Muslim Americans and other citizens. We refuse to limit our 
engagement to what we're against, because we need to forge partnerships 
that advance what we're for--which is opportunity and equal treatment 
for all.''\15\
---------------------------------------------------------------------------
    \15\ Denis McDonough, Deputy Nat'l Sec. Advisor to the Pres. of the 
U.S., Remarks at ADAMS Center, Sterling, VA: Partnering with 
Communities to Prevent Violent Extremism in America (March 7, 2011) 
available at http://www.whitehouse.gov/the-press-office/2011/03/06/
remarks-denis-mcdonough-
deputy=national=security=advisor=president=prepa.
---------------------------------------------------------------------------
     COUNTERPRODUCTIVE APPROACHES TO MITIGATING HOMEGROWN TERRORISM

    The challenge in identifying, mitigating, preparing for, and 
responding to threats from lone actors planning small-scale attacks is 
like trying to find a needle in haystack. What Government officials do 
not want to do is increase the amount of hay.
    In the context of homeland security, the issue has not been the 
lack of intelligence, but the challenges in identifying, assessing, and 
sharing signals intelligence across agencies. According to the 
Breakthrough Institute, ``The preponderance of evidence suggests that 
the greatest barrier to more effective [counterterrorism] remains the 
operational challenges to intelligence sharing, analysis, and 
`connecting the dots' (what the 9/11 Commission called ``institutional 
imagination'').''\16\
---------------------------------------------------------------------------
    \16\ Nick Adams et al., Counterterrorism Since 9/11: Evaluating The 
Efficacy of Controversial Tactics 18 (Breakthrough Institute 2011).
---------------------------------------------------------------------------
    Hence, experts agree that the increased search and surveillance 
measures taken post-9/11 have decreased our tenor response capability 
by generating too much data, most of which is just ``noise.'' In 
addition, there is no evidence that racial or religious profiling has 
yielded any benefit, and indeed is considered detrimental to sound 
homeland security practices. Again, according to the Breakthrough 
Institute, ``Our investigation into plots foiled since 9/11 uncovers no 
credible evidence that the expansion of search and surveillance tools 
resulted in the discovery of those activities either. According to our 
analyses of news accounts, FBI investigation reports, and recent 
studies on foiled terrorist plots, all were broken open due to the 
combination of well-deployed undercover agents, information from 
citizen or undercover informants, and tips from foreign intelligence 
agencies.''\17\
---------------------------------------------------------------------------
    \17\ Id.
---------------------------------------------------------------------------
    UNINTENDED NEGATIVE CONSEQUENCES OF RACIAL & RELIGIOUS PROFILING

    While security experts and local law enforcement have stressed that 
the best practices of thwarting terrorist plots includes a multi-
layered approach that rests on trust between Government and community, 
they have also cautioned that racial and religious profiling can 
undermine our National security at home and abroad. There is 
significant concern that these hearings focused on the ``extent of 
radicalization in the American Muslim community and that community's 
response'' will have unintended consequences that actually undermine 
the mission of the House Homeland Security Committee.
    Al-Qaeda has said that America is at war with Muslims. Speaking 
about racial or religious communities as threats to the United States 
feeds into al-Qaeda propaganda. As John Brennan said, ``Describing our 
enemy in religious terms would lend credence to the lie--propagated by 
al-Qaeda and its affiliates to justify terrorism--that the United 
States is somehow at war against Islam. The reality, of course, is that 
we never have been and will never be at war with Islam. After all, 
Islam, like so many faiths, is part of America.''\18\
---------------------------------------------------------------------------
    \18\ John Brennan, Ass't to the Pres. for Homeland Sec. and 
Counterterrorism, Address at Center for Strategic and International 
Studies: Securing the Homeland by Renewing American Strength, 
Resilience, and Values (May 26, 2010) available at http://
www.whitehouse.gov/the-press-office/remarks-assistant-president-
homeland-security-and-counterterrorism-john-brennan-csi.
---------------------------------------------------------------------------
    Brian Fishman, an associate at West Point's Combating Terrorism 
Center, warns that anti-Islamic rhetoric feeds into the message of al-
Qaeda propagandists like Anwar al-Awlaki, who try to recruit terrorists 
by advancing claims that American Muslims face a dark future of ever-
worsening discrimination and vilification. Fishman said, ``When the 
rhetoric is so inflammatory that it serves the interests of a jihadi 
recruiter like Awlaki, politicians need to be called on it.''\19\
---------------------------------------------------------------------------
    \19\ Scott Shane, U.S. Anti-Islam Protest Seen as Lift for 
Extremists, N.Y. Times, Aug. 20, 2010 available at http://
www.nytimes.com/2010/08/21/world/21muslim.html?_r=2.
---------------------------------------------------------------------------
    U.S. commanders have warned that religious intolerance undermines 
our National security. General David Petraeus, U.S. Commander in 
Afghanistan, said that incidents like the proposed Koran burning in 
2010 could ``endanger troops and it could endanger the overall effort 
here . . . [I]n fact, images from such activity could very well be used 
by extremists here and around the world.''\20\
---------------------------------------------------------------------------
    \20\ Martha Raddatz, General Petraeus: Burn a Quran Day Could 
`Endanger Troops,' ABCNews.com, Sept. 7, 2010 available at http://
abcnews.go.com/WN/Afghanistan/burn-quran-day-sparks-protests-
afghanistan-petraeus-endanger/story?id=11569820.
---------------------------------------------------------------------------
    Those charged with building bridges abroad also note that targeting 
Muslims at home undercuts security and diplomatic efforts abroad. Karen 
Hughes, former Under Secretary of State for Public Diplomacy and Public 
Affairs, said, ``I believe it is in America's strategic interest, and 
in the interest of defeating terrorism, that we make clear that we view 
most Muslims as our allies in a common struggle against 
extremists.''\21\
---------------------------------------------------------------------------
    \21\ Karen Hughes, Move the New York City mosque, as a sign of 
unity, WASH. POST, Aug. 22, 2010, available at http://
www.washingtonpost.com/wp-dyn/content/article/2010/08/20/
AR2010082002124.html.
---------------------------------------------------------------------------
    Major General Paul Eaton, U.S. Army (Ret.), explained how anti-
Muslim rhetoric is harmful to the military's objectives: ``It is a slap 
in the face to a great many people we wish to have as allies. We are 
trying to make allies of our colleagues in Iraq and Afghanistan and 
this is not helpful.'' He also added, ``This is unhelpful to the 
American fighting men and women and counter to the image we wish to 
portray in Afghanistan and Iraq.''\22\
---------------------------------------------------------------------------
    \22\ Joe Strupp, Retired General and Bush Official Blast Mosque 
Opposition, Media Matters for AM. Aug. 16, 2010, available at http://
mediamatters.org/blog/201008160044.
---------------------------------------------------------------------------
    It is vital to recognize the service and patriotism of all 
Americans, and ensure that through words and deeds, we do not do them a 
disservice. President George W. Bush said, ``Muslim members of our 
Armed Forces and of my administration are serving their fellow 
Americans with distinction, upholding our nation's ideals of liberty 
and justice in a world at peace.''\23\
---------------------------------------------------------------------------
    \23\ George W. Bush, Pres. of the U.S., Remarks on Eid Al-Fitr, 
(Dec. 5, 2002), available at http://georgewbush-
whitehouse.archives.gov/news/releases/2002/12/20021205-5.html.
---------------------------------------------------------------------------
    General Colin Powell, on the sacrifice of a young American soldier: 
``Is there something wrong with being a Muslim in this country? The 
answer is no. That's not America . . . I feel particularly strong about 
this because of a picture I saw in a magazine. It was a photo essay 
about troops who were serving in Iraq and Afghanistan. And one picture 
at the tail end of this photo essay was of a mother at Arlington 
Cemetery and she had her head on the headstone of her son's grave. And 
as the picture focused in, you could see the writing on the headstone, 
and it gave his awards--Purple Heart, Bronze Star--showed that he died 
in Iraq, gave his date of birth, date of death, he was 20 years old. 
And then at the very top of the head stone, it didn't have a Christian 
cross. It didn't have a Star of David. It has a crescent and star of 
the Islamic faith. And his name was Kareem Rashad Sultan Khan. And he 
was an American. He was born in New Jersey. He was fourteen years old 
at the time of 9/11, and he waited until he could serve his country and 
he gave his life.''\24\
---------------------------------------------------------------------------
    \24\ Colin Powell Salutes Muslim Americans in Obama Endorsement, 
Talking Points Memo Blog (Oct. 19, 2008), http://
tpmcafe.talkingpointsmemo.com/talk/blogs/eades/2008/10/colin-powell-
salutes-muslim-am.php.
---------------------------------------------------------------------------
    We urge the House Homeland Security Committee to assess threats to 
the homeland, but to do so in a way that is consistent with known best 
practices involving a multi-layered approach of trust between community 
and government. Alienating communities will undermine our security. 
Overreacting to each threat will play into the hands of terrorists who 
want us to abandon our values and institutions. Legislating racial 
profiling, increasing surveillance, and data collection will only make 
us less secure by increasing the informational noise that will cover 
the signal intelligence we must identify, share, and assess to thwart 
threats.
                                 ______
                                 
   Attachment 19.--Statement of Rev. Dr. C. Welton Gaddy, President, 
                          Interfaith Alliance
                             March 10, 2011

    As a Baptist minister, a patriotic American and the President of 
Interfaith Alliance, a National, non-partisan organization that 
celebrates religious freedom and is dedicated to protecting faith and 
freedom and whose 185,000 members Nation-wide belong to 75 faith 
traditions as well as those without a faith tradition, I submit this 
testimony to the House Committee on Homeland Security for the record of 
the hearing on ``The Extent of Radicalization in the American Muslim 
Community and that Community's Response.''
    By singling out one particular religious community for 
investigation, these hearings fly in the face of religious freedom as 
it is enshrined in the First Amendment to our Constitution. 
Furthermore, these hearings are not only the wrong answer to the wrong 
question, but in the end, they may only perpetuate the problems the 
Homeland Security Committee seeks to solve, as well as add to a 
disturbing climate of anti-Muslim sentiment extant in America today.
    Freedom of religion as guaranteed by the First Amendment protects 
the freedom of all Americans to believe in any religious faith, as they 
choose, without fear of criticism, retribution, or investigation 
because of it. In our Nation, all people and all faiths are equal with 
none favored over any other. The fact that Muslims in this country are 
taking full advantage of all clauses of the First Amendment does not 
make them inherently any more radical than any other religious 
community in this country. They have the right to practice their faith, 
they have the right to speak freely--even if it is to raise concerns 
about Government policy--and they have the right to practice those 
freedoms while assembled together. These freedoms are an integral part 
of American democracy.
    There is no doubt that our Nation faces serious threats to its 
security both at home and abroad, but the continued demonization of 
Muslims and questioning of the Muslim faith is not the answer. I fear 
that this approach is misguided and will only result in further 
alienating the American Muslim community. Terrorism is a real threat 
that requires serious investigation based on fact. At the same time, 
conducting hearings into what is being presented as a major trend of 
``radicalization'' in the Muslim community that leads to violence, when 
there is little to no evidence to support that claim, is also a real 
threat. Posing questions like ``whether the American Muslim community 
is becoming radicalized'' or ``whether the American Muslim community is 
cooperating with law enforcement has the dangerous potential to 
intensify, rather than to lessen, prejudice toward Muslims and puts an 
unjustifiably greater responsibility on Muslim Americans to help root 
out terrorism than is placed on Americans of other faiths and belief 
systems.
    There exists in our country today a pervasive and unsettling trend 
of anti-Muslim fear, bigotry, and rhetoric and a general lack of 
understanding of the real differences between Islamic extremists who 
commit acts of terrorism and non-violent adherents to Islam. Targeting 
one particular faith for scrutiny when the overwhelming majority of 
that faith's adherents in this country are peaceful, law-abiding 
citizens seems counterproductive and just plain wrong. It is the 
responsibility of our elected officials to promote reason, truth, and 
civility in the public forum--especially at a time when Islamophobia is 
on the rise--not to waste time and public resources on victimizing 
select groups.
    Interfaith Alliance's work is driven by the fundamental principle 
that protecting religious freedom is most critical in times of crisis 
and controversy. Even the most basic knowledge of the history of the 
First Amendment includes the understanding that religious freedom 
exists in part to protect the rights of the minority from what Alexis 
de Tocqueville not unrealistically called the tyranny of the majority. 
In fact, it would not be a stretch to say that if our Founding Fathers 
had relied on polling data, the First Amendment might not exist at all. 
Unfortunately, in today's political climate, it may not ensure an 
``electoral win'' to defend the rights of the American Muslim 
community, but there is no question that it is the right thing to do.
    Thank you for the opportunity to submit testimony on this important 
issue.
                                 ______
                                 
   Attachment 20.--Statement of The Islamic Society of North America
                             March 10, 2011

    The Islamic Society of North America expresses its concern about 
today's hearing on the ``The Extent of Radicalization in the American 
Muslim Community and that Community's Response.'' While we share the 
committee's commitment to ensuring the security of our Nation, we 
strongly believe that there is a better way to ensure our National 
security than singling out one faith community. The hearing as it is 
currently structured proposes holding a public scrutiny of one specific 
community on the basis of religion; such institutionalized 
generalizations have not been seen since the internment of Japanese 
Americans during World War II.
    We all shared in the suffering of 9/11 as one American family. 
American Muslims died in the Twin Towers that day, and we mourned their 
loss just as we mourned the loss of all the victims of that day's 
brutal attacks. Since then, we too, have felt the fear of potential 
terrorist attacks, and many in our community have spoken out when they 
suspected danger to their communities. In Times Square, for example, a 
Muslim street vendor notified authorities when he saw a parked van that 
seemed suspicious, and on many occasions, Muslim parents have turned in 
their own children. A study by Duke University indicated that the 
largest single source of information about attempted terrorist attacks 
is members of the American Muslim community.
    The Islamic Society of North America is wholeheartedly committed to 
keeping our country safe, for us, for our children, and for our 
American brothers and sisters of all religions or of no religion. We 
are seriously aggrieved each time the name of God is used to commit 
such ungodly acts as terrorism, and we have taken strides to counter 
extremist ideologies within our communities, as we would encourage 
everyone to do in theirs. As Brian Levin of the Center for the Study of 
Hate and Extremism at California State University said regarding 
Abdulhakim Mujahid Muhammad, the son of one of the committee's 
witnesses today, ``This is an example where it really is the fanatic 
and not the faith . . . It's their contortion of it.''
    We will continue to do our part to prevent terrorism, and we ask 
that the committee on Homeland Security continue to do its part as 
well. Rather than emphasizing our differences, our safety as a Nation 
would be better enhanced if the committee instead united us, so that 
all the diverse communities of America can work together for our 
Nation's security.
    One positive outcome of this committee's actions has been the 
overwhelming support American Muslims have received from individuals 
and organizations of all kinds, particularly the interfaith community. 
Leaders of the interfaith community first came to support us on 
September 7 of last year to publicly condemn the rise in anti-Muslim 
incidents, and we were grateful for their faithful demonstration of 
love for their neighbors. Following that event, we came together to 
form a multi-religious campaign entitled, ``Shoulder-to-Shoulder: 
Standing with American Muslims; Upholding American Values.'' Members of 
the campaign include representatives from a variety of National faith-
based, interfaith, religious organizations, such as the National 
Council of Churches, the Union for Reform Judaism, and the United 
States Conference of Catholic Bishops.
    When this committee first announced it would hold hearings 
specifically about the Muslim community, the members of Shoulder-to-
Shoulder were immediately ready to stand in solidarity with us and to 
vocalize their opposition to such unjustified public scrutiny of one 
community from among our many communities of faith.
    Later today, Shoulder-to-Shoulder will once again stand united in a 
National press conference to publicly convey our concern about the 
format of these hearings. While any threat to our National security is 
worth examining, singling out one community of faith is contrary to our 
American value of religious freedom.
    Thank you for the opportunity to submit testimony to the committee, 
and we hope you will take these important issues into consideration.
                                 ______
                                 
             Attachment 21.--Statement of Muslim Advocates

    Muslim Advocates submits this written statement for the record of 
the U.S. House of Representatives, Committee on Homeland Security, 
hearing entitled, ``The Extent of Radicalization in the American Muslim 
Community and that Community's Response.''
    Muslim Advocates (http://www.muslimadvocates.org) is a National 
legal advocacy and educational organization dedicated to promoting 
freedom, justice, and equality for all, regardless of faith, using the 
tools of legal advocacy, policy engagement, and education and by 
serving as a legal resource to promote the full participation of 
Muslims in American civic life. Founded in 2005, Muslim Advocates is a 
sister entity to the National Association of Muslim Lawyers, a network 
of Muslim American legal professionals. Muslim Advocates seeks to 
protect the founding values of our Nation and believes that America can 
be safe and secure without sacrificing Constitutional rights and 
protections.
    America's greatest strength is our diversity and our commitment to 
freedom. Indeed, religious freedom and the freedom to express oneself 
is essential to who we are as Americans. Muslims have been an integral 
part of America since its founding when the first slave ships arrived 
on its shores. Muslims serve our Nation as teachers, business owners, 
factory workers, cab drivers, doctors, lawyers, law enforcement, 
firefighters, Members of Congress, and members of the armed forces. 
Their research and innovation adds to the progress of our Nation in 
science, business, medicine, and technology. They contribute to every 
aspect of our Nation's economy and society. The essence of our country 
is e pluribus unum: Out of many, practicing their faith freely and 
contributing each in their own way, comes a strong, unified one.
    The essence of our country, where there is no established state 
church, is that it is the land of the free for all people to practice 
their faith, free of persecution and protected by the Constitution's 
inalienable rights guaranteed to all individuals. This hearing, 
however, is inconsistent with this vision of America. Singling out a 
group of Americans based on their faith for government scrutiny is 
divisive and wrong. It goes against centuries of religious freedom in 
our country and contradicts the proud history of being American that 
many Muslim families can trace back generations. As General Colin 
Powell reminded us in the course of the 2008 Presidential elections, 
``Is there something wrong with being a Muslim in this country? The 
answer's no, that's not America.''\1\ Broadly targeting American 
Muslims, as these hearings do, harkens back to the dark era of 
McCarthyism, where innocent Americans were tarred with false 
accusations and an unjust presumption of guilt held sway. This period 
arguably served as one of the darkest chapters in the history of the 
U.S. Congress.
---------------------------------------------------------------------------
    \1\ Powell, Colin. `` `Meet the Press' transcript for Oct. 19, 
2008.'' http://www.msnbc.msn.com/id/27266223/ns/meet_the_press/.
---------------------------------------------------------------------------
    Our Nation faces serious threats, both foreign and domestic. 
However, a hearing that feeds public fear and hysteria about Islam and 
Muslims undermines National unity and National security. As LAPD Deputy 
Chief Michael Downing, Commanding Officer for Counter-Terrorism and 
Special Operations Bureau, stated:

``[T]here are two sides of extremism, the side from Al Qaeda and the 
affiliates bent on attacking the West, and the other side of those who 
continue to demonize Muslims and Islam in an effort to keep people 
afraid and angry. Both are not helpful to protecting our nation from 
terrorist attacks.''\2\
---------------------------------------------------------------------------
    \2\ ``Congress Should Take Cue from Law Enforcement on Engaging 
Muslim Communities.'' Muslim Public Affairs Council, November 26, 2010. 
http://www.mpac.org/programs/government-relations/dc-news-and-views/
congress-should-take-cue-from-law-enforcement-on-
engaging-muslim-comunities.php.

    As several prominent public figures have noted recently, 
individuals are accountable for their actions, not entire communities. 
People who engage in violence motivated by extremist beliefs hail from 
myriad racial, ethnic, religious, or political backgrounds, and 
Congress should be focused on exploring violent extremism in all its 
forms. The Committee on Homeland Security should focus on keeping us 
safe, rather than engaging in fear-mongering and divisive rhetoric that 
only weakens and distracts us from actual threats to our safety.
    Neither law enforcement nor Members of Congress should assign 
blame, or target, members of an entire mosque, neighborhood, or the 
vast population of millions of hard-working, law-abiding American 
Muslims because of acts of violence that are committed by individuals 
in that community. In testimony before this very committee last month, 
National Counterterrorism Center Director Michael Leiter said that the 
prevalence of violent extremists in American Muslim communities was 
``tiny . . . a minute percentage of the [U.S. Muslim] population.''\3\ 
Further, in a report released last year, the RAND Corporation stated 
that the low rate of would-be violent extremists--only 100 amongst an 
estimated 3 million American Muslims--``suggest[s] an American Muslim 
population that remains hostile to jihadist ideology and its 
exhortations to violence. A mistrust of American Muslims by other 
Americans seems misplaced.''\4\ And in a report released last month by 
the Triangle Center on Terrorism and Homeland Security, researchers 
found that a total of eleven American Muslims have successfully 
executed terrorist attacks in the United States since the attacks of 
September 11, 2001, killing 33 people.\5\ This is about three deaths 
per year. To put this number in context, and to underscore the 
wrongheaded nature of hearings that target only the American Muslim 
community, there have been approximately 150,000 murders in the United 
States since 9/11. According to the FBI, there were approximately 
15,241 murders in the United States in 2009 alone.\6\
---------------------------------------------------------------------------
    \3\ Michael, Leiter. ``Statement for the Record before the House 
Committee on Homeland Security on the subject: `Understanding the 
Homeland Threat Landscape--Considerations for the 112th Congress.' '' 
National Counterterrorism Center, Feb. 9, 2011,  http://www.nctc.gov/
press_room/speeches/Transcript-HHSC_Understanding-the-Homeland-
Threat.pdf.
    \4\ Jenkins, Brian Michael. ``Would-Be Warriors: Incidents of 
Jihadist Terrorist Radicalization in the United States Since September 
11, 2001.'' p. viii. Rand Corporation, 2010. http://www.rand.org/pubs/
occasional_papers/20l0/RAND_OP292.pdf.
    \5\ Kurzman, Charles. ``Muslim-American Terrorism Since 9/11: An 
Accounting.'' Triangle Center on Terrorism and Homeland Security, Feb. 
2, 2011. http://sanford.duke.edu/centers/tcths/about/documents/
Kurzman_Muslim-American_Terrorism_Since_911_An_Accounting.pdf.
    \6\ U.S. Department of Justice--Federal Bureau of Investigation. 
``Crime in the United States, 2009.'' Released September 2010. http://
www2.fbi.gov/ucr/cius2009/documents/murdermain.pdf.
---------------------------------------------------------------------------
    American Muslims--like all Americans--want to live in safe 
communities. American Muslims report criminal activity to do their part 
to keep communities safe. Muslim communities around the country 
continue to engage in constructive dialogue with local and National law 
enforcement and take very seriously their role in countering violence. 
As Los Angeles County Sheriff Lee Baca recently stated:

``We have as much cooperation as we are capable of acquiring through 
public trust relationships [with the American Muslim community]. Muslim 
Americans in the county of Los Angeles have been overwhelmingly 
astounded by terrorist attacks--like everyone else--and overwhelmingly 
concerned about a non-repeat performance of that kind--and are willing 
to get involved and help.''\7\
---------------------------------------------------------------------------
    \7\ ``Baca: No Evidence US Muslims Not Cooperating With Police.'' 
CBS Local Media, February 7, 2011. http://losangeles.cbslocal.com/2011/
02/07/baca-no-evidence-us-muslims-not-cooperating-with-police/.

    A January 2010 study of American mosques and communities by Duke 
University researchers found that, in addition to there being low 
numbers of radicalized Muslims, that communities were taking specific 
steps to counter violent rhetoric and behavior, including: Public and 
private denunciations of terrorism and violence; self-policing; 
community building; political engagement; and embracing their cultural 
identity as Muslims and Americans.\8\
---------------------------------------------------------------------------
    \8\ Henderson, Nicole J. et al. Law Enforcement and Arab-American 
Community Relations After September 11. Vera Institute of Justice, 
2006. http://www.bipartisanpolicy.org/sites/default/files/
NSPG%20Final%20Threat%20Assessment.pdf.
---------------------------------------------------------------------------
    In addition to taking on their role as vigilant members of society, 
American Muslims want to be afforded the same legal rights and 
protections afforded to us all under the Constitution. These hearings 
evince the exact opposite treatment with potentially grave 
consequences. Putting an entire community under suspicion erodes trust 
in law enforcement, which in turn undermines public safety. A 2006 
study commissioned by the Department of Justice found that Arab 
Americans were significantly fearful and suspicious of Federal law 
enforcement due to Government policies. It also found that both 
community members and law enforcement officers determined that 
diminished trust was the most important barrier to cooperation.\9\ At a 
time when we as Americans need to come together, these hearings only 
serve to further divide us. As President Obama recently noted, it is 
time for Americans to talk to each other ``in a way that heals, not in 
a way that wounds.''\10\
---------------------------------------------------------------------------
    \9\ Henderson, Nicole J. et al. Law Enforcement and Arab-American 
Community Relations After September 11. Vera Institute of Justice, 
2006. http://www.bipartisanpolicy.org/sites/default/files/
NSPG%20Final%20Threat%20Assessment.pdf.
    \10\ Obama, Barack. ``Remarks by the President at a Memorial 
Service for the Victims of the Shooting in Tucson, Arizona.'' The White 
House, January 12, 2011. http://www.whitehouse.gov/the-press-office/
2011/01/12/remarks-president-barack-obama-memorial-service-victims-
shooting-tucson.
---------------------------------------------------------------------------
    Finally, and perhaps most importantly, Congress has a solemn duty 
to wield its power responsibly. Providing a public, Government platform 
where erroneous and offensive views are promoted is not without 
consequence. The American public takes cues from Government officials. 
These hearings will inevitably increase widespread suspicion and 
mistrust of the American Muslim community and stoke anti-Muslim 
sentiment. During 2010, we saw an increase in anti-Muslim hate in 
public discourse, as well as hate crimes and violence targeting the 
American Muslim community, including vandalism and arson of mosques, 
physical attacks, bullying of American Muslim children in schools, and 
attempted murder. Behind these attacks is the rhetoric of hate groups 
that, for the first time, number over 1,000 in the United States.\11\ 
This rise in hate speech and violence has a direct impact on the 
American Muslim community. Just this week, a video was released showing 
an elected official from Yorba City, CA calling for the death of 
American Muslims. No American should live in fear for their safety, and 
Congress should not be complicit in creating a climate where it is 
acceptable to target a particular faith community for discrimination, 
harassment, and violence, including death threats.
---------------------------------------------------------------------------
    \11\ Siemaszko, Corky. ``Southern Poverty Law Center lists anti-
Islamic NYC blogger Pamela Geller, followers a hate group.'' Daily 
News, Feb. 25, 2011. http://www.nydailynews.com/ny_local/2011/02/25/
2011-02-25_southern_poverty_law_center_lists_antiislamic_nyc_
blogger_pamela_geller_follower.html. Potok, Mark. ``The Year in Hate & 
Extremism, 2010.'' Southern Poverty Law Center, Spring 2011, http://
www.splcenter.org/get-informed/intelligence-report/browse-all-issues/
2011/spring/the-year-in-hate-extremism-2010.
---------------------------------------------------------------------------
    It is for the above reasons that we strongly object to these 
hearings in their current form, and urge the Committee to recognize the 
negative impact these hearings will have on American Muslims and our 
country.
                                 ______
                                 
   Attachment 22.--Letter from the National Coalition of South Asian 
                             Organizations

                                                     March 7, 2011.

Honorable Peter King,
U.S. House of Representatives, House Committee on Homeland Security, 
        H2-176 Ford House Office Building, Washington, DC 20515.
    Dear Chairman King: The undersigned organizations, as members of 
the National Coalition of South Asian Organizations, write to express 
our grave concerns about the House Homeland Security Committee's 
upcoming March 10 hearing on ``The Extent of Radicalization in the 
American Muslim Community.''
    As organizations that serve, organize, and advocate on behalf of 
South Asian community members, many of whom are Muslim, we have 
witnessed the pernicious effects of the scapegoating of our communities 
since September 11. Over the past decade, South Asians, Arab Americans, 
Sikhs, Muslims, and those perceived to be Muslim have endured bias, 
discrimination, and profiling. Incidents of hate crimes, bias-based 
bullying, and workplace discrimination have spiked; community members 
have been subjected to heightened scrutiny by airport security 
officials, law enforcement officers, and immigration authorities; and 
places of worship have been placed under surveillance. In addition, 
there has been a rise in xenophobic rhetoric against these communities, 
particularly in the political realm.
    We strongly object to this hearing as it will perpetuate the on-
going targeting of individuals based on their faith, and will send the 
message to the general public that Muslims and those perceived to be 
Muslim are worthy of suspicion and scrutiny. Questioning an entire 
community's loyalty based on actions of a few is counter to American 
values and principles.
    In light of these concerns faced by community members, we urge you 
to cancel this hearing. In the alternative, we recommend that the 
hearing be reframed towards a dialogue focused on constructive 
solutions to address threats to security. Our country was founded on 
principles of tolerance and inclusion and we urge that this hearing not 
run counter to those values that we all hold so dear.
    For further information, please contact Priya Murthy, Policy 
Director, at South Asian Americans Leading Together.
            Sincerely,

ASHA for Women,
Chhaya CDC,
Counselors Helping (South) Asian Indians, Inc.,
Daya, Inc.,
Indo-American Center,
MAI Family Services,
Manavi,
The Sikh Coalition,
Sikh American Legal Defense and Education Fund (SALDEF),
South Asian Americans Leading Together (SAALT),
South Asian Network,
South Asian Youth Action,
Turning Point for Women and Families,
UNITED SIKHS.
      
                                 ______
                                 
   Attachment 23.--Statement of Dr. David P. Gushee, President, New 
              Evangelical Partnership for the Common Good
                             March 10, 2011

    Chairman King, Ranking Member Thompson, and Members of the 
Committee: Today's hearing on what the committee's website calls ``al-
Qaeda's coordinated radicalization and recruitment of people within the 
American Muslim community'' has set off alarm bells, especially in the 
Muslim community, but also among many others.
    As an American, and as a Christian, I dispute the way you have 
framed these hearings, and I am very concerned about their possible 
implications. My reasons will be clear shortly. But I do not dismiss 
the legitimate fears that lie behind widespread public support for such 
hearings.
    We have indeed seen a steady flow of high-profile Islamist 
terrorist plots and arrests over the past decade. Since 2001, according 
to a recent study from the Triangle Center on Terrorism and Homeland 
Security (Duke University/University of North Carolina/RTI 
International), 161 American Muslims have been publicly accused of 
planning or carrying out terror attacks. Eleven succeeded, killing 33 
people.

                         WELL BEYOND 9/11 FEARS

    Most recently, a Saudi student named Khalid Ali-M Aldawsari has 
been charged with plotting terrorist attacks in Texas and elsewhere. 
His alleged targets included the home of former president George W. 
Bush. Last year, we encountered Faisal Shahzad, the man who allegedly 
plotted a car bombing of Times Square. Before that, came the Christmas 
day attempt to down a jetliner bound for Detroit. The steady drumbeat 
of sensational plots has had its impact on American public opinion. 
It's not just about 9/11 anymore.
    Further, as lead Triangle Center researcher Charles Kurzman has 
noted, Islamist extremists are involved in wide-ranging terrorist 
recruitment efforts via the internet and elsewhere. This is standard 
operating procedure.
    So what's the problem with the hearings? The committee is 
overlooking or misstating critically important facts about what is 
going on in the American Muslim community. It is ignoring clear data 
about the full range of terror threats facing our country. These 
hearings have the potential to inflame already tense relations between 
American Muslims and the rest of their fellow citizens. And they 
threaten the perceived legitimacy of any practice of Islam in the 
United States, therefore risking one of our most fundamental 
liberties--freedom of religion.
    Let's begin with the American Muslim community. I have had the 
privilege of working with key leaders in this community, and I do not 
recognize the hateful portrait being painted of them in portions of the 
mainstream media, not to mention the gutter-precincts of the internet.
    More than 2 million Muslims live in the United States, the vast 
majority of whom, as the Chairman himself has rightly noted, are 
``hardworking, dedicated Americans.'' Kurzman points out that the data 
show American Muslims' ``level of recruitment (into terrorism) is 
extremely low.'' Islamist recruitment efforts are not making real 
inroads in the United States. Meanwhile, many Muslims serve in our 
military, law enforcement, diplomatic, and intelligence services. More 
careful framing of the hearings might make it sound less like the 
committee believes the American Muslim community as a whole is becoming 
a local branch of al-Qaeda.
    Further, the Muslim community has no pattern of aiding and abetting 
terrorism. To the contrary: According to the Triangle Center study, 30% 
of the U.S. Muslims suspected of terrorist activity since 2001 have 
been stopped through tips by fellow American Muslims. The Chairman has 
made the inflammatory claim that law enforcement has received ``little 
or--in most cases--no cooperation from Muslim leaders and imams.'' 
Unless he can support that claim with data, he should withdraw it.
    Plenty of other terrorist threats are out there. Consider this: A 
2007 study of State law enforcement agencies by the University of 
Maryland found that ``just as many State police agencies view neo-Nazis 
as posing a serious threat to their own State's security as consider 
Islamic Jihadists to pose a serious threat.''
    When State law enforcement agencies were asked in that same study 
to identify the actual extremist groups operating within their State, 
``Islamic Jihadi'' groups ranked 11th. Law enforcement authorities in 
92% of responding States named neo-Nazis as operating within their 
borders, while 62% of the States named Muslim extremists. Here is the 
Top 10, in order: Neo-Nazis, militia/patriot, racist skinheads, 
freemen/sovereign citizen, extreme animal rights, extreme 
environmentalists, KKK, Christian Identity, extreme anti-tax, and 
extreme anti-immigrant.

                        CONSIDER ALL THE THREATS

    Clearly, the threat from the homegrown extreme right is profound. 
According to data compiled by the Muslim Public Affairs Council, since 
President Obama's election there have been more than twice as many 
terror plots (45) by domestic non-Muslim extremists as there have been 
among Muslims (22). Yet the Chairman has derided requests to broaden 
the hearing as mere political correctness.
    I am concerned about all terrorist threats to our Nation. But 
effective National security requires getting our facts straight. If 
right-wing extremists together with Islamist extremists are clearly the 
two major domestic terror threats we face, then, just as clearly, both 
groups should receive serious public scrutiny.
    But there is another unique dimension to these hearings. The focus, 
after all, is on the purported radicalization of the ``American Muslim 
community.'' Not a tiny pocket. But all Muslim Americans can fall under 
this umbrella of suspicion.
    It is always a very dangerous thing when one group is singled out 
in front of the rest. It is humiliating, shaming, and stigmatizing, and 
almost invites average citizens to marginalize and mistreat members of 
the targeted group. When religion is involved, and a minority religious 
group to boot, the danger grows exponentially.
    These hearings might intensify fear, hatred, and mistreatment of 
Muslims. Some Christian leaders are already succumbing, such as former 
Arkansas governor and Fox News host Mike Huckabee, who recently 
described Muslims collectively as people who believe that ``Jesus 
Christ and all the people that follow him are a bunch of infidels who 
should be essentially obliterated.''
    I fear that the tolerance and restraint generally shown by 
Americans after the 9/11 attacks is fraying, and that anti-Muslim 
rhetoric and violence will intensify in the wake of these hearings.
    It will become even more disastrous if the committee or today's 
witnesses succumb publicly to the rapidly spreading anti-Muslim 
hysteria among us. I dread the possibility that the Chairman might 
repeat some of his past claims, such as that ``there are too many 
mosques in this country'' and that Muslims are ``an enemy living 
amongst us.'' Will this be the time when the halls of Congress echo 
with hysterical claims that Muslims are secretly trying to impose 
sharia law on America?
    Chairman King, please consider your responsibilities soberly. Be 
very careful with your language, and with the witnesses you have 
invited. So much is at stake.
                                 ______
                                 
Attachment 24.--Statement of Shoaib Khalid, Chairman and Riyad Alasad, 
               Vice-Chairman, North Texas Islamic Council
                             March 10, 2011

    The North Texas Islamic Council (NTIC) submits this outside witness 
statement for the U.S. House of Representatives, Committee on Homeland 
Security, examining radicalization in the American Muslim community and 
the community's response to it.
    The NTIC was incorporated in 2006 as an independent nonprofit 
operating according to the laws of the State of Texas and the United 
States of America. The NTIC provides a collective platform for two 
dozen of Dallas-Fort Worth's organized Muslim community organizations, 
serving 150,000 area Muslims, to coordinate efforts and build 
partnerships with civic, interfaith, media, and Governmental entities. 
In that capacity the NTIC has built upon multiple existing local 
relationships with the law enforcement community on behalf of a 
membership body that includes most of the region's largest Islamic 
congregations (Mosques), Islamic schools, and community services 
organizations.
    As a faith-based community organization that has partnered 
extensively with the FBI to confront the threat of violent extremism 
over the past 5 years, we would like to strongly register our objection 
to this committee's hearing on extremism within the American Muslim 
community as called by the Chair of the Committee on Homeland Security, 
Congressman Peter King.
    Chairman King has characterized the hearings as focusing 
exclusively on the ``radicalization of the American Muslim community 
and homegrown terrorism,'' and in the process also alienated mainstream 
community groups with Islamophobic anti-community rhetoric and by 
electing to not invite any mainstream community group or community-
based counter-radicalization experts to testify.
    Chairman King's singling out an entire community of Americans based 
on their faith for Government scrutiny is counter-productive, and is 
exactly the opposite approach our experience working extensively with 
law enforcement has found most effective. An important lesson learned 
was that effective law enforcement and community partnerships are 
enhanced through a trust building process but are thoroughly undermined 
by the politicization of counter-radicalization efforts as this hearing 
has already done.
    With little understanding of the hearing's topic expressed thus far 
in Chairman King's public pronouncements, we fear that the hearing will 
inaccurately highlight politically unpopular First Amendment protected 
nonviolent views as a radicalization indicator. Such a hearing would be 
a great disservice to our country and the hard-working law enforcement 
community in North Texas, as well as undermine vital community 
partnerships Nation-wide as invariably a cloud of suspicion is cast 
widely upon the American Muslim community.
    Our community personally witnessed the damage unleashed by hate 
when an innocent American simply presumed to be Muslim was murdered as 
a reprisal for 
9/11, or most recently last month when another bigoted violent 
extremist confessed to burning down a children's playground while 
trying to burn down a local Mosque at the height of the Park 51 
National debate.
    Violence motivated by extremist beliefs is not committed by members 
of one racial, religious, or political group. Any hearings held by the 
House Homeland Security Committee should proceed from a clear 
understanding of two vital components. First is that individuals are 
responsible for their actions and not entire communities. Second is 
that the alienation of mainstream communities undermines the vital 
trust partnerships between law enforcement and those communities being 
targeted by violent extremist networks.
    Thank you for your consideration of our concerns.
                                 ______
                                 
   Attachment 25.--Statement of Rabbi Rachel Kahn-Troster and Joshua 
      Bloom, Co-Directors, Rabbis for Human Rights--North America

    The members of Rabbis for Human Rights--North America (RHR-NA) 
proudly stand with our fellow children of Abraham, the Muslim-American 
community, in urging that extremism be fought wherever it is found, and 
that one community not be singled out for unnecessary scrutiny.
    RHR-NA represents hundreds of rabbis of every Jewish denomination, 
who unite in the common belief that every human being is a reflection 
of God's image. The Universal Declaration of Human Rights--written in 
the aftermath of the Holocaust, when hatred and discrimination against 
a minority group reached a horrific conclusion--holds up the universal 
values of freedom of religion, freedom of worship, and freedom from 
discrimination. These universal values are also deeply American values. 
The United States has long been a place of safety for members of 
minority groups. We cannot undermine our values out of a misplaced 
belief that it will keep us safer.
    Today's world is fraught with a danger. We understand that we have 
to challenge fundamentalism, but in the pursuit of that goal, we must 
not fragment the family of humankind. The threat from extremist groups 
is real, but these hearings will only serve to strengthen those who 
hold hatred against Muslims in the heart. Extremism--and violence--it 
is found in every religion and in every community. It is un-American to 
single one minority group for scrutiny. If we have a society that 
scapegoats entire religious groups or ethnic minorities based on what a 
few individuals do, Jews and other minorities will not be safe either. 
Government hearings should not be used for political sound bites at the 
expense of the safety and well being of religious groups in America.
    The Jewish community is acutely aware of the consequences of 
singling out newcomers for discrimination and prejudice. It was not so 
long ago in this country when many communities looked on Jews with 
suspicion, would not sell them homes, and discouraged the building of 
synagogues. We have in past faced hatred because of our religious 
customers and distinctive garb, and we thought that our country had 
learned from the Jewish experience to embrace members of all religious 
and ethnic groups with open arms. Instead, we watch with alarm as 
cities and States prevent the construction of mosques, and hold 
misguided campaigns to outlaw Sharia law. Rep. King's hearings merely 
add fuel to the fire, spreading the misguided notion that our Muslim 
neighbors and colleagues--who work hard, support our communities, and 
are proudly America--undermine our collective safety.
    The Torah commands us to protect the stranger, because we were 
strangers in the land of Egypt. Indeed, the injunction to love the 
stranger is mentioned more often in the Torah than the laws of the 
Sabbath or of keeping kosher. Today, that commandment impels us to join 
together with Muslim Americans and people of all faiths in opposing 
discrimination. If we stand together, we are stronger. If we stand 
together, we ensure we are safe. If we stand together, united, then we 
will ensure that American values are upheld.
                                 ______
                                 
 Attachment 26.--Statement of Mark J. Pelavin,\1\ Director, Commission 
 on Social Action of Reform Judaism and Associate Director, Religious 
                    Action Center of Reform Judaism
---------------------------------------------------------------------------
    \1\ 2027 Massachusetts Avenue NW, Washington DC 20036.
---------------------------------------------------------------------------
                             March 10, 2011

    On behalf of the Union for Reform Judaism, which represents nearly 
900 synagogues encompassing 1.5 million members across North America, 
and the Central Conference of American Rabbis, which has a membership 
of 1,800 rabbis, I welcome the opportunity to submit testimony today.
    In short, although we are indeed deeply concerned about the threat 
posed by radicalism, we believe today's hearing--with its exclusive 
focus on the American Muslim community--is fundamentally flawed. A 
wide-ranging exploration of radicalism writ-large is necessary, and we 
would welcome it. But today's hearing is not that exploration. It is a 
narrow, myopic, investigation into the American Muslim community which 
unfairly targets one group of citizens in Congressional proceedings.
    This hearing is deeply unsettling. First, it fails to address 
radicalism in general, choosing instead to focus only on American 
Muslims. Additionally, it seems to accept profiling and stereotyping as 
valid tools of investigation, practices our country, with such a strong 
history of civil rights, opposes, and is unwilling to compromise for 
security.
    The narrow focus of today's hearing is also counterproductive in 
failing to recognize the role that moderate Muslims have played in the 
past in preventing terror threats, creating a filter through which that 
community may feel less comfortable approaching law enforcement 
officials. These hearings threaten to reduce, rather than enhance, our 
security.
    Further, we believe that these hearings are based on factual 
inaccuracies. According to a Duke University study,\2\ the largest 
single source of initial information that brought terror suspects to 
the attention of the U.S. Government was tips from the Muslim-American 
community. Muslim-Americans provided initial tips in 40% of cases 
involving terror suspects since 9/11. Furthermore, according to a Rand 
Corporation report, \3\ from 9/11 to the end of 2009 there have been 
just 46 cases of radicalization that include plots to carry out a 
terrorist attack, providing information to foreign terrorists or 
leaving the country to join a jihadist organization abroad. Out of the 
estimated 3 million American-Muslims, the total number of people 
involved in these incidents was just 109. To hold a hearing implicating 
3 million Americans in the public eye for the actions of just over 100 
is beyond saddening.
---------------------------------------------------------------------------
    \2\ http://sanford.duke.edu/centers/tcths/about/documents/
Kurzman_Muslim-American_
Terrorism_Since_911_An_Accounting.pdf.
    \3\ http://www.rand.org/pubs/occasional_papers/2010/RAND_OP292.pdf.
---------------------------------------------------------------------------
    As I noted above, I want to be clear that our opposition to these 
hearings is not based on an opposition to investigations into 
radicalization in general. We support the right of this committee and 
other appropriate Government institutions to defend America from both 
external and internal threats. We acknowledge that a small number of 
radical Muslims exist in America. We insist, however, that this 
committee not fail to recognize that radicalism is not limited to Islam 
and in no way are all Muslims radical. If this hearing were part of a 
series of hearings on radicalism it would be justified; but as an 
isolated inquiry it is not. Radicalism can--and has--manifested itself 
in many forms: Jews, Christians, Muslims; liberals, conservatives; 
first-generation Americans and Americans who can trace their ancestry 
to our country's very beginning. But, for every radical in a given 
demographic, there are thousands who are as patriotic as you or I.
    We also believe these hearings may well have a chilling effect on 
the right of Americans to practice their religion freely without fear 
of consequence from the Government or fellow citizens. Casting an 
entire faith in a questionable light because of the actions of a few is 
a form of modern-day McCarthyism. Doing so threatens the freedom of 
religion that the earliest founders of this country sought when they 
came to the Americas. A 1790 letter by George Washington to the Jews of 
Newport stated, ``For happily the Government of the United States, 
which gives to bigotry no sanction, to persecution no assistance, 
requires only that they who live under its protection, should demean 
themselves as good citizens.'' Washington's powerful eloquence, in 
response to a congratulatory note from the Newport Jewish community, 
demonstrates America's unending commitment to freedom of religion, for 
all its inhabitants.
    For the Jewish community, singling out a religious group for 
Government scrutiny and questioning in this manner is particularly 
concerning, for we have been among the quintessential victims of group 
hatred, persecution, and discrimination in Western civilization. We 
know all too well the impact of discrimination and the power that 
malicious and fallacious speech can have, especially when endorsed by a 
Government. In the Babylonian Talmud, (Arakhin 15b), a central text of 
discussion on Jewish law, we are taught that disparaging speech kills 
three people, the person who says it, the person who listens to it and 
the person about whom it is said. Today's hearing, which singles out 
American Muslims, has the potential to cause real damage to our society 
and its commitment to freedom and independence for all.
    I urge you to consider the affects of these hearings carefully and 
realize the potential damage they may cause.
    Thank you.
                                 ______
                                 
Attachment 27.--Statement of Margaret Huang, Executive Director, Rights 
                             Working Group

    Chairman King, Ranking Member Thompson, and Members of the 
committee: My name is Margaret Huang, and I am honored to submit this 
testimony for the record on behalf of the Rights Working Group 
regarding today's hearing on ``The Extent of Radicalization in the 
American Muslim Community and that Community's Response.''
    Formed in the aftermath of September 11, the Rights Working Group 
(RWG) is a National coalition of nearly 300 organizations from across 
the country representing civil liberties, National security, immigrant 
rights, and human rights advocates. RWG seeks to restore due process 
and human rights protections that have eroded since 9/11, ensuring that 
the rights of all people in the United States are respected regardless 
of citizenship or immigration status, race, National origin, religion, 
or ethnicity. Among our core principles is protecting the right to free 
exercise of religion without fear of Government intrusion or 
intimidation. RWG is particularly concerned about today's hearing which 
singles out Muslims in America for public scrutiny and infringes on 
this right.
    The United States was founded on the ideal of religious freedom and 
our participatory democracy requires that all of us are able to freely 
exercise our freedoms of speech, religion, and association without 
fear. By positing today's hearing as an investigation into the Muslim 
community in America, the committee suggests that Americans should look 
upon Muslims as suspect simply because of their religion. This is 
contrary to deeply held American values. As Rep. Mike Honda recently 
noted, ``This should be deeply troubling to Americans of all races and 
religions. An investigation specifically targeting a single religion 
implies, erroneously, a dangerous disloyalty, with one broad sweep of 
the discriminatory brush.''\1\ The committee's examination of a single 
community of faith is antithetical to American principles as it 
infringes upon the rights of Muslims in America to freely and safely 
practice their religion. By placing suspicion on one religious 
community, the hearings imply Governmental endorsement of other 
religions above Islam. Doing so creates a chilling effect upon the 
religious practice of Muslims in America and violates their fundamental 
First Amendment rights. Moreover, the committee's hearings will reveal 
little about actual National security threats to our country since 
racial and religious profiling are not effective methods of fighting 
terrorism.\2\
---------------------------------------------------------------------------
    \1\ Rep. Mike Honda, ``Hearings on Muslim Americans is un-
American,'' San Francisco Chronicle, February 28, 2011, available at 
http://www.sfgate.com/cgi-bin/blogs/opinionshop/detail?entry_id=84016.
    \2\ See Rights Working Group, ``FACES OF RACIAL PROFILING A Report 
from Communities Across America,'' September 2010 at 4, quoting Rafi 
Ron, former Chief of Security for Ben Gurion Airport in Israel and 
consultant to Boston's Logan International Airport, ``One of the 
problems with racial profiling is that there's a tendency to believe 
that this is the silver bullet to solve the problem. In other terms, if 
you're a Middle Easterner or if you're a Muslim, then you must be bad . 
. . But back in 1972, Ben Gurion Airport in Tel Aviv was supposed to be 
attacked by a Palestinian . . . [it] was never attacked by one. It was 
attacked by a Japanese terrorist . . . And it was attacked in the mid-
80s by a German terrorist answering to the name Miller.'' See also 
Ayres, Ian and Jonathan Borwsky, ``A Study of Racially Disparate 
Outcomes in the Los Angeles Police Department,'' ACLU of Southern 
California, October 2008 available at http://www.aclu-sc.org/documents/
view/47; ``Inquirer Editorial: UnAmerican,'' Philadelphia Inquirer, 
February 19, 2011, available at http://articles.philly.com/2011-02-19/
news/28611738_1_radicalization-muslims-house-hearings.
---------------------------------------------------------------------------
    By targeting an entire community of faith, the committee's actions 
promote and encourage racial and religious profiling. Racial and 
religious profiling is illegal under the Constitution and violates our 
human rights. Particularly important in the context of today's hearing, 
numerous National security experts have argued that racial and 
religious profiling is an ineffective way to protect our country.\3\ 
For example, former Attorney General John Ashcroft has said, ``Using 
race . . . as a proxy for potential criminal behavior is 
unconstitutional, and it undermines law enforcement by undermining the 
confidence that people can have in law enforcement.''\4\ Similarly, 
Ranking Member Thompson has stated, ``Today's terrorists do not share a 
particular ethnic, educational, or socioeconomic background . . . The 
most effective means of identifying terrorists is through their 
behavior--not ethnicity, race or religion.''\5\ Rep. Keith Ellison, a 
witness before the committee here today, has noted, ``If you put every 
single Muslim in the U.S. in jail, it wouldn't have stopped Jared 
Loughner . . . It wouldn't have stopped the young man who killed his 
classmates at Virginia Tech. It wouldn't have stopped the bombing in 
Oklahoma City or the man who killed a guard at the Holocaust Museum in 
Washington.''\6\ The committee's hearings, by targeting a religious 
community, implicitly support profiling policies; such policies are 
ineffective at making us safer.
---------------------------------------------------------------------------
    \3\ Campbell Brown, ``Investigating the Christmas Day Terror 
Attack: Obama Administration Downplaying War on Terror?,'' CNN, 
December 30, 2009, transcript available at http://transcripts.cnn.com/
TRANSCRIPTS/0912/30/ec.01.html.
    \4\ United States Department of Justice, ``Fact Sheet Racial 
Profiling,'' June 17, 2003, available at http://www.justice.gov/opa/pr/
2003/June/racial_profiling_fact_sheet.pdf.
    \5\ Ranking Member Bennie Thompson, ``Homegrown Terrorists Are Not 
Just Muslims,'' Politico, January 27, 2011, available at http://
www.politico.com/news/stories/0111/48239.html.
    \6\ Laurie Goodstein, ``Muslims to Be Congressional Hearings' Main 
Focus,'' New York Times, February 7, 2011, available at http://
www.nytimes.com/2011/02/08/us/politics/08muslim.html?_r=2&hpw.
---------------------------------------------------------------------------
    Post-9/11 policies that profiled Muslims and those perceived to be 
Muslims instilled a significant fear of law enforcement and Government 
in those communities. Such fears resulted in a decline of reports by 
victims of crime, such as domestic violence victims, seeking law 
enforcement assistance; some crime victims from targeted communities 
failed to seek necessary emergency medical attention.\7\ This hearing 
today is likely to compound the fear of law enforcement and Government 
that such communities experience, causing domestic violence victims to 
stay in violent situations and victims of assault to neglect to seek 
medical treatment for their injuries. Additionally, the committee's 
hearings, which are likely to cause a spike in anti-Muslim sentiment in 
America, could cause a rise in violence and hate crimes against Muslims 
and those perceived to be Muslim. Last year there was a rise in anti-
Muslim harassment and mosque vandalism following the Park 51 
controversy, which fomented backlash against Muslims.\8\ ``Rather than 
promoting violence, American Muslims today are more likely to be 
victims of hate crimes or harassment . . . Last year, a New York 
cabbie's throat was slashed by a passenger, reportedly because he was a 
Muslim. A Florida mosque was firebombed while 60 Muslims prayed inside. 
Arson fires ravaged mosques in Tennessee and Oregon . . . anti-Muslim 
rhetoric is fueling anti-Muslim violence.''\9\ The committee's hearings 
which erroneously focus on the Muslim community in America have 
potentially dangerous consequences, especially given the rise of hate 
crimes and violence against Muslims in our country today.
---------------------------------------------------------------------------
    \7\ Immigration Policy Center, ``BALANCING FEDERAL, STATE, AND 
LOCAL PRIORITIES IN POLICE-IMMIGRATION RELATIONS: Lessons from Muslim, 
Arab, and South Asian Communities Since 9/11,'' Immigration Policy IN 
FOCUS, Vol. 6, Iss. 3 at 5, June 2008.
    \8\ American-Arab Anti-Discrimination Committee, ``The 2010 ADC 
Legal Report LEGAL ADVOCACY & POLICY REVIEW,'' at 6, 2010, available at 
http://adc.org/fileadmin/ADC/Pdfs/2010_ADC_Legal_Report.pdf.
    \9\ Star Tribune Editorial, ``Terror hearings fuel anti-Muslim 
fears,'' February 25, 2011, available at http://www.startribune.com/
opinion/editorials/116955498.html. See also Human Rights Watch, ``WE 
ARE NOT THE ENEMY'' Hate Crimes Against Arabs, Muslims, and Those 
Perceived to be Arab or Muslim after September 11, Vol. 14, No. 6, 
November 2002, available at http://www.hrw.org/en/reports/2002/11/14/
we-are-not-enemy.
---------------------------------------------------------------------------
                               CONCLUSION

    The hearings, as currently formulated, infringe upon the First 
Amendment rights of American Muslims, do not respond to actual threats 
to our National security, and decrease the safety of all communities in 
America.
  <bullet> The committee should work to ensure that Muslims in America 
        can continue to enjoy religious freedom, civil liberties, and 
        their other Constitutional and human rights, and committee 
        Members should make strong statements against any intolerance, 
        discrimination, or hate crimes directed at this community.
  <bullet> The committee should reformulate its hearings on homegrown 
        terrorism and focus on actual threats to our homeland security, 
        rather than engaging in divisive and destructive rhetoric 
        against Muslims. To do so, the committee must investigate 
        individual and suspicious behavior rather than an entire 
        community of faith.
  <bullet> Congress should introduce and pass the ``End Racial 
        Profiling Act'' instating a Federal ban on profiling based on 
        race, religion, ethnicity, and National origin at the Federal, 
        State, and local levels.
    Thank you again for this opportunity to express the views of the 
Rights Working Group coalition. We would welcome the opportunity for 
further dialogue and discussion about these important issues.
                                 ______
                                 
Attachment 28.--Statement of Talat Hamdani, September 11th Families for 
                           Peaceful Tomorrows

    I write you on behalf of September Eleventh Families for Peaceful 
Tomorrows, a National organization of more than 200 relatives of 
victims of the 9/11 attacks. As families who suffered terribly on 
September 11, 2001 we are acutely aware of the need to ensure that our 
country is secure, that an event like 9/11 never happens again, and 
that other mothers do not have to bury their sons, fathers bury their 
daughters, or children bury their parents as a result of a preventable 
terrorist attack. We understand that it is you, our elected 
representatives, who have responsibility for ensuring our collective 
security and we appreciate all the efforts that you make towards those 
ends.
    However, we are equally concerned with sustaining our American 
traditions of fair play and tolerance. And it is for that reason we 
write each of you to voice our profound concern about the forthcoming 
hearings before the House Homeland Security Committee on ``The Extent 
of Radicalization in the American Muslim Community and that Community's 
Response.'' We believe, as currently constituted, those hearings 
represent an affront to these fundamental American values.
    Our concern is that, as currently constituted, the hearings single 
out a group of people and demonizes them based on unfair stereotypes. 
Many Muslims were murdered on 9/11 including my own son, a police cadet 
who died as he responded to the tragedy. Similarly, as we know too 
well, violent extremism has stalked America since well before 9/11; it 
is not the domain of a single religion or ethnic group. Indeed, those 
who monitor extremist groups note that there are 932 hate groups 
operating in American today and they come in all colors and stripes.
    Accordingly, September Eleventh Families for Peaceful Tomorrows 
supports Rep. Bennie G. Thompson's call to Rep. Peter King asking him 
to reconsider his decision to confine his hearings to an investigation 
of the Muslim community and that the hearings are expanded to include 
all potential sources of domestic extremism that threaten our National 
security.
    We urge that each of you heed our call and the calls of all 
Americans who share our dual vision of ensuring our security without 
violating our values.
    It's the American thing to do.
                                 ______
                                 
            Attachment 29.--Statement of the Sikh Coalition
                             March 10, 2011

    The Sikh Coalition writes to express its opposition to the decision 
of the Committee on Homeland Security to single out the Muslim American 
community for scrutiny during the committee's March 10, 2011 hearing on 
domestic radicalization. As detailed below, we believe that the 
hearings will exacerbate bias and discrimination against members of our 
communities.
    Sikh Americans in the post-9/11 environment have endured hate 
crimes, workplace discrimination, racial profiling, and school bullying 
on account of our appearance. Although the overwhelming majority of 
Americans who wear turbans are Sikhs, we are often mistaken for Muslims 
and have experienced the same bigotry to which Muslims are subjected. 
Like Muslim children, our children are called ``terrorists'' at 
school.\1\ Like Muslim men who keep beards for religious reasons, our 
men are summarily denied jobs with law enforcement agencies, despite 
our desire to pursue such careers with honor.\2\ Like Muslims of both 
sexes who wear religious headcoverings, Sikhs are subjected to 
disproportionate screening at airports, despite the availability of 
screening technologies that obviate the need for such screening.\3\
---------------------------------------------------------------------------
    \1\ See Sikh Coalition, Sikh Coalition Bay Area Civil Rights Report 
2010 (2010), available at http://www.sikhcoalition.org/documents/
Bay_Area_Civil_Rights_Agenda.pdf.
    \2\ Don Thompson, Bearded man can't be prison guard, Calif. says, 
MSNBC.com, Jan. 25, 2011, at http://www.msnbc.msn.com/id/41263508/ns/
us_news-crime_and_courts.
    \3\ See Racial Profiling and the Use of Suspect Classifications in 
Law Enforcement Policy Hearing Before the House Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties of the House Committee 
On the Judiciary, 111th Cong. (2010) (statement of Amardeep Sinah. 
Director of Programs, Sikh Coalition), available at http://
judiciary.house.gov/hearings/printers/111th/111-131_56956.PDF and 
http://judiciary.house.gov/hearings/pdf/Singh100617.pdf.
---------------------------------------------------------------------------
    As Sikh Americans, we therefore have some insight into what it is 
like to be perceived as a Muslim in the United States. In our judgment, 
your hearing will sensationalize the extent of radicalization among 
American Muslims and simultaneously reinforce bigoted stereotypes of 
the sort that underlie hate crimes, discrimination, bullying, and 
profiling against Sikh and Muslim Americans. From our prior experience, 
this will eventually lead to backlash attacks against our communities. 
Our concerns about backlash are compounded by your failure to publicize 
studies indicating that 7 out of the last 11 al-Qaeda plots were foiled 
with the assistance of Muslims, and that most terrorist plots against 
the United States since 9/11 have involved domestic non-Muslim 
extremists.\4\
---------------------------------------------------------------------------
    \4\ Muslim Public Affairs Council, Data on Post-9/11 Terrorism in 
the United States (2011), available at http://www.mpac.org/assets/docs/
publications/MPAC-Post-911-Terrorism-Data.pdf.
---------------------------------------------------------------------------
    In light of the foregoing concerns, we urge you to take a more 
nuanced approach to the problem of domestic extremism in the United 
States. By forcing all Muslim Americans--and only Muslims Americans--
under the microscope, you are giving intellectually dishonest cover to 
bigots and endangering our beleaguered communities.
                                 ______
                                 
    Attachment 30.--Letter From Hilary O. Shelton, Director, NAACP 
                           Washington Bureau

                                                     March 8, 2011.

The Honorable Peter King,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Chairman King and Ranking Member Thompson: On behalf of the 
NAACP, our Nation's oldest, largest, and most widely-recognized 
grassroots civil rights organization, I am writing to strongly urge you 
to reconsider holding the narrowly focused and reckless hearings 
planned by the Committee on Homeland Security, tentatively scheduled 
for March 10, 2011, on the ``Extent of Radicalization in the American 
Muslim Community and that Community's Response.'' Such a hearing, as 
presently planned with its limited and skewed focus on one religious-
ethnic group, would be not only counter-productive as it clearly does 
not provide a focus on so many of the other ``homegrown terrorist'' 
groups working to radicalize sectors of U.S. religious communities, but 
it is also divisive and potentially harmful to our Nation's security 
interests.
    The NAACP is no stranger to domestic terrorism: As the surviving 
friends and family of Harry T. and Henrietta Moore, Medgar Evers, 
Martin Luther King, Jr., Schwerner, Goodman, and Chaney, and Emmett 
Till, not to mention the 168 killed and 450 injured in the Alfred T. 
Murrah building in Oklahoma City, and too many others can attest, we 
are all too familiar with the evil concept. We are also too familiar 
with the process of being ostracized and demonized because of who we 
are or what we look like. Finally, members of the NAACP also have a 
long history of working with and benefitting from the goodwill of 
people of all races and ethnicities regardless of their background. It 
is clear that the most effective means of identifying terrorists is 
through their behavior--not ethnicity, race, or religion.
    Factual history has clearly demonstrated that ``homegrown domestic 
terrorism'' cannot be relegated to one racial or ethnic group. To do so 
is to overlook actual historic and current events, which are both 
riddled with terrorist acts by extremists from a large variety of 
racial, ethnic, political, social and religious groups. Furthermore, by 
identifying one group as being largely responsible for current terror 
threats against our Nation, you are promoting misinformation and 
stereotypes that can only build mistrust among members of that group. 
This in turn will make it more difficult for members of that group to 
cooperate with authorities in identifying or reporting genuine threats, 
and more unlikely that they will. On the other side of the equation, 
this approach creates misguided hostility towards Muslims or perceived 
Muslims by perpetuating stereotypes which incite further 
misunderstandings or even violence against those groups.
    So I must again urge you in the strongest terms possible to rethink 
the focus of your proposed hearings on domestic terrorism. The United 
States today clearly faces a wide variety of dangers, from both foreign 
and domestic sources, and to focus on one group presents not only a 
disservice to that group, but also to our Nation. I look forward to 
working with you in the upcoming Congress to help identify and 
eradicate threats against our Nation. Please feel free to contact me 
whenever you feel that the NAACP can be of assistance.
            Sincerely,
                                         Hilary O. Shelton,
     Director, NAACP Washington Bureau & Senior Vice President for 
                                               Advocacy and Policy.
                                 ______
                                 
 Attachment 31.--Letter From the Congressional Asian Pacific American 
                                 Caucus

                                                     March 9, 2011.

The Honorable Peter King,
Chairman, House Committee on Homeland Security, U.S. House of 
        Representatives.
    Dear Chairman King: We are writing in regards to the upcoming 
hearings to be held by the Homeland Security Committee on the 
radicalization of the American Muslim community and homegrown 
terrorism. We are greatly concerned by the title of this set of 
hearings and the tone that it suggests the hearings should take.
    As Members of the Congressional Asian Pacific American Caucus 
(CAPAC), we are opposed to the narrow scope of the hearings and the 
negative impact it will have on American Muslim communities. Singling 
out one group based on race, ethnicity, religion, or National origin 
does nothing to better protect our country and challenges the 
fundamental rights of the communities that are the subject of the 
hearing. Moreover, this hearing exacerbates a climate of discrimination 
and prejudice against those who are, or perceived to be, Muslims.
    The majority of American Muslims are peaceful, family-oriented, 
patriotic, hardworking individuals whose contributions play a vital 
role in our society. But by broadly targeting this group based on their 
religion, the hearings imply that people of certain faiths are not as 
worthy to receive the protections that the law provides, These hearings 
send the message to the American people that all Muslims should be 
viewed as potential radicals and treated as such. They also send the 
wrong message to Muslims abroad and will encourage negative perceptions 
of how the United States treats Muslims, further compromising our 
National security.
    Recently we have seen a sharp increase in the number of anti-Muslim 
reactions across the country, including the plans of a church to host 
an ``International Burn a Quran Day'' and the hostilities against the 
building of the Park51 Muslim community center in Lower Manhattan. The 
United States Congress plays a pivotal role in fostering an atmosphere 
of inclusivity and protecting the rights of individuals to practice 
religion free from discrimination and harassment. The hearings, 
however, will only contribute to the anti-Muslim sentiment and increase 
mistrust and fear of American Muslims.
    Additionally, these hearings focus specifically on the 
radicalization of Muslims rather than radicalization generally, 
regardless of religious, political, or other affiliation. There have 
been terrorist attacks in this country performed by people who were not 
Muslim, but were radicals who belonged to other faiths or ideologies. 
For example, Timothy McVeigh, David Koresh, & Ted Kaczynski all 
committed what we would define as terrorist acts on American soil, but 
they were not affiliated with the Muslim religion. Singling out one 
type of affiliation that may or may not be relevant rather than 
focusing on the problem of radicalization itself is unnecessary, 
excessive, and does not contribute to furthering our National security.
    We encourage you to broaden the scope of the hearings to consider 
radicalization beyond the Muslim community or cancel the hearings 
altogether. Thank you for your consideration.
            Sincerely,

Judy Chu,
Chair, CAPAC,

Bobby C. Scott,
Chair, CAPAC Civil Rights Taskforce,

Madeleine Bordallo,
Colleen Hanabusa,
Raul Grijalva,
Al Green,
Mazie Hirono,
Mike Honda,
Barbara Lee,
Zoe Lofgren,
David Wu.
      
                                 ______
                                 
 Attachment 32.--Statement of Sue Udry, Executive Director, Defending 
                           Dissent Foundation
                             March 7, 2011

    The decision to hold a hearing that questions the patriotism and 
decency of the entire American Muslim community smacks of McCarthyism, 
intolerance, and prejudice. However, broadening the scope of the 
hearing to include a wider range of Americans whose religious or 
political believes may be defined as ``radical'' (as some have 
suggested), would simply subject more Americans to unconstitutional 
scrutiny. The mission of the House Homeland Security Committee is not 
to become America's thought police.
    Governmental efforts to deal with the problem of ``homegrown 
terrorism'' have raised serious civil liberties concerns in the past. 
The first challenge policy makers face is to define the problem that is 
to be addressed. It is critically important that the articulation of 
the problem does not cause people merely exercising their First 
Amendment rights to fear being swept into the net of suspicion. For 
example, any definition of the problem must recognize that it is 
perfectly permissible for Americans to hold and promote a system of 
beliefs that others might find ``extreme,'' and for those who hold 
those beliefs to seek, without violence, political, religious, and 
social change based on those beliefs. The reference to the 
``radicalization in the American Muslim community'' raises concern that 
advocacy of particular beliefs is the focus of the committee, instead 
of the violence that a person engages in, citing such beliefs.
    A second challenge is to determine whether there even is an 
identifiable process that leads to terrorism. A statistically and 
methodologically flawed study by the New York Police Department 
purports to identify a four-step ``radicalization process'' that 
terrorists go through, but even the authors of the study admit 
limitations to the application of their model, namely:
  <bullet> that not all individuals who begin the process pass through 
        all the stages;
  <bullet> that many ``stop or abandon this process at different 
        points;'' and finally,
  <bullet> that ``individuals do not always follow a perfectly linear 
        progression'' through the four steps.
    What is dangerous is that the four steps each involve religious 
conduct, and the authors fail to note that millions of people progress 
through these ``stages'' and never contemplate or commit an act of 
violence.
    The Government should not be in the business of trying to thwart 
the adoption of belief systems to which some in Government object, or 
holding an entire religious community responsible for the acts of a 
very few members.
                                 ______
                                 
 Attachment 33.--Statement of DeeDee Garcia Blase, Founder/President, 
                           Somos Republicans

    We are aware of the upcoming ``terror hearings'' that will be heard 
by Members of the Homeland Security Committee. We believe that it is a 
good idea for Homeland Security Committee Chairman Pete King (R-NY) to 
call for the hearing, however, we should not limit the ``homegrown 
terrorists'' to Muslim Americans living in this country because we 
believe the concern should also apply to any other hate group 
regardless of race, religion, and color.
    For instance, we have our own home-grown terrorists near our 
border, and they are not Muslim. Recently the Pima County jury 
convicted Shawna Forde of two counts of first-degree murder in the May 
30, 2009 deaths of Arivaca residents Raul Junior Flores and his 9-year-
old daughter, Brisenia. Most Americans have never heard of these 
senseless murders of a family in their home near the Arizona border 
with Mexico; because they were not undocumented immigrants, drug 
smugglers, or Muslim terrorists, but a group of Minutemen (also known 
as domestic terrorists), led by their leader, Shawna Forde. Forde was 
also a member of the Minutemen Civil Defense Corp (MCDC), until leaving 
to form her own group, Minutemen American Defense, and has appeared on 
TV as a representative for FAIR. Shawna Forde also had a long criminal 
record before joining any of the Minutemen groups.
    In addition to the ``terror hearings, we are asking Congressman 
Peter King, Chairman of the House Homeland Security Committee, to 
conduct a complete and thorough investigation on other forms of 
domestic terrorism--specifically as it relates to border vigilantes. 
This epidemic of domestic terrorism and hate crimes are on the rise 
because of vigilantes along our border, Minutemen, Nativists, Neo-
Nazis, and any other extremist groups.
    If the upcoming hearings are isolated to Muslims only, we would ask 
other Members of Congress to initiate and complete a thorough 
investigation of all domestic terrorist groups regardless of race, 
religion, and color. The shooting of our Congresswoman Gabby Giffords 
should put us all on alert, and we should take every opportunity to 
investigate all other forms of domestic terrorism where hate is 
palpable. It is our hope that Congressman Keith Ellison of Minnesota 
initiate and advocate for Brisenia's Law which is a law that would 
prevent known hate groups and individuals who have been convicted of a 
hate crime to not be allowed to roam and patrol the border without the 
notification or authorization of governing authorities. We believe the 
Homeland Security Committee should set parameters that will avoid toxic 
situations near the border.
                                 ______
                                 
      Attachment 34.--Statement of the National Immigration Forum
                             March 10, 2011

    The National Immigration Forum works to uphold America's tradition 
as a Nation of immigrants. The Forum advocates for the value of 
immigrants and immigration to the Nation, building support for public 
policies that reunite families, recognize the importance of immigration 
to our economy and our communities, protect refugees, encourage 
newcomers to become new Americans and promote equal protection under 
the law.
    We are submitting our views about the subject of this hearing, 
``the extent of radicalization in the American Muslim community.'' It 
is regrettable that the committee has decided to look at extremist 
behavior in one particular religious group. This is yet another hearing 
where the House leadership is pitting one set of Americans against 
others, as we have seen repeatedly in this Congress in hearings 
pertaining to immigrants and New American communities.
    Racial profiling doesn't work for identifying terrorists. Extremist 
behavior is not isolated to individuals of a particular religion or 
race, and the implication that the Muslim community is extremist is a 
distraction from the serious work of deterring extremist threats. To 
the contrary, pitting community against community undermines our 
ability to gain the critical information we need to detect those who 
intend to harm us. Putting an entire community under suspicion 
undermines the efforts of law enforcement to gain the trust of 
immigrant and other minority communities. The task of law enforcement--
protecting public safety--is made that much more difficult when 
individuals in a particular community fear stepping forward to report a 
crime or act as witnesses.
    Law enforcement on its own will never be able to anticipate every 
crime or act of terrorism. It will take all of us to do our part. For 
that, we need all people living and working permanently in this country 
to feel they are a part of it. Instead of isolating communities, we 
should be doing what we can to strengthen them.
    Thank you for the opportunity to provide our view on this matter.
                                 ______
                                 
           Attachment 35.--Letter to Peter T. King, Chairman

                                                     March 9, 2011.

    Dear Chairman King: We are writing regarding the Homeland Security 
Committee's upcoming hearings, which you have stated will focus 
exclusively on radicalization among Muslim Americans and homegrown 
terrorism. We agree that Congress and all levels of Government have a 
duty to protect America from terrorism, whether from abroad or 
homegrown. We are, however, deeply concerned that the stated narrow 
scope and underlying premises of these hearings unfairly stigmatizes 
and alienates Muslim Americans. We ask that you reconsider the scope of 
these hearings and instead examine all forms of violence motivated by 
extremist beliefs, rather than unfairly focusing on just one religious 
group.
    We believe that the tone and focus of these hearings runs contrary 
to our Nation's values, Muslim Americans contribute to our Nation's 
well-being in many professions including as doctors, engineers, 
lawyers, firefighters, business entrepreneurs, teachers, police 
officers and Members of Congress. Their hard work helps to make our 
country exceptional.
    Furthermore, casting a negative light on an entire community--
rather than focusing on actual dangerous fringes will only strain 
community relationships and trust that local, State, and Federal law 
enforcement agencies have worked hard to develop. Muslim Americans are 
an integral part of our larger American society and should be treated 
as such, not viewed with suspicion.
    The choice between our values of inclusiveness and pluralism and 
our security is a false one.
    If you wish to examine violent extremism, we ask that you do so by 
examining violence motivated by extremist beliefs in all its forms. 
Singling out one religious group and blaming the actions of individuals 
on an entire community is not only unfair, it is unwise--and it will 
not make our country any safer.
            Sincerely,

Pete Stark,
John D. Dingell,
Henry C. ``Hank'' Johnson,
Dale E. Kildee,
Gary C. Peters,
Susan A. Davis,
Gwen Moore,
Bob Filner,
George Miller,
Michael Capuano,
Andre Carson,
Gregory W. Meeks,
Eleanor Holmes Norton,
Judy Chu,
Rush D. Holt,
Marcia L. Fudge,
Robert C. ``Bobby'' Scott,
Michael M. Honda,
Mazie K. Hirono,
Janice D. Schakowsky,
Maxine Waters,
Jessie L. Jackson, Jr.,
Sheila Jackson Lee,
Yvette D. Clarke,
Raul M. Grijalva,
Rick Larsen,
Earl Blumenauer,
Bobby L. Rush,
Al Green,
Lois Capps,
Eddie Bernice Johnson,
David N. Cicilline,
David E. Price,
James P. McGovern,
Donna F. Edwards,
Keith Ellison,
Danny K. Davis,
Doris O. Matsui,
Grace Napolitano,
Edward J. Markey,
John Garamendi,
Lynn C. Woolsey,
Barbara Lee,
Betty Sutton,
Tammy Baldwin,
Barney Frank,
Jim McDermott,
Jared Polis,
James P. Moran,
John Conyers, Jr.,
Madeleine Z. Bardallo,
Betty McCollum,
Jose E. Serrano,
Zoe Lofgren,
Dennis J. Kucinich,
Luis V. Gutierrez,
John Lewis.
      
                                 ______
                                 
   Statement Submitted for the Record by Honorable Sheila Jackson Lee
 Statement of Denis McDonough, Deputy National Security Advisor to the 
              President, ADAMS Center, Sterling, Virginia
                             March 6, 2011

  PARTNERING WITH COMMUNITIES TO PREVENT VIOLENT EXTREMISM IN AMERICA

    Thank you, Imam Magid, for your very kind introduction and welcome. 
I know that President Obama was very grateful that you led the prayer 
at last summer's Iftar dinner at the White House--which, as the 
President noted, is a tradition stretching back more than two centuries 
to when Thomas Jefferson hosted the first Iftar at the White House.
    Thank you, also, for being one of our Nation's leading voices for 
the values that make America so strong, especially religious freedom 
and tolerance. Whether it's here at the ADAMS Center, or as President 
of the Islamic Society of North America, you've spoken with passion and 
eloquence, not only about your own Islamic faith, but for the need to 
build bridges of understanding and trust between faiths.
    That's evident here today, in the presence of so many different 
faith communities--Muslims, Christians, Jews, Hindus, Sikhs, Buddhists. 
The fact that we can come together in a spirit of respect and 
fellowship speaks to the bonds that we share, as people of faith and as 
Americans.
    That's why, on a very personal level, it's such an honor to be with 
you today. Sunday afternoons at a parish center--or a community 
center--is familiar territory for me. I grew up in Stillwater, 
Minnesota in a proud Catholic family. I am one of 11 kids, and I can 
think of countless Sunday afternoons like this one spent at festivals, 
games, or meetings at our home parish of St. Mike's or at the church of 
my older brother, who is a priest.
    Like all of you and like me, millions of Americans find community, 
comfort, and support in their faith. That includes President Obama, 
drawing as he does on his Christian faith. So today reminds us that 
being religious is never un-American. Being religious is 
quintessentially American.
    In my life--working in Government and studying and traveling in 
many parts of the world--I've also come to appreciate the diversity and 
richness of Muslim communities, here in America and abroad. I 
accompanied then-Senator Obama when he traveled to the Middle East, 
including Israel and the West Bank, where he spoke to Israelis and 
Palestinians about the imperative of peace. During the Presidential 
campaign, I had the honor of meeting with Muslim American leaders and 
communities across the country, in places like Cedar Rapids, Iowa, home 
to the oldest mosque in America.
    Over the past 2 years, I--along with my White House colleagues--
have benefited from the advice of many of your organizations through 
our Office of Public Engagement. Because, after all, your communities 
have the same concerns as all Americans--the economy, education, health 
care, the safety of our children, and our country. For example, this 
week at the White House, students from the Muslim, Arab, and South 
Asian communities will join young people from across America for a 
conference with the President and First Lady to prevent bullying.
    I was privileged to join the President in Cairo, where he called 
for a new beginning between the United States and Muslim communities 
around the world. And here at the ADAMS Center--with one of the largest 
mosques in America--you see the incredible racial and ethnic diversity 
of Islam. And yet, as Imam Magid once explained, here you find common 
ground, as Americans.
    So, for me, being here is not unlike going to St. Mike's back home 
in Minnesota, or for that matter, going to any house of worship or 
community center in America. This is a typically American place. We 
just saw that in the wonderful program this afternoon, including the 
Boy Scouts presenting the American flag and leading us in the Pledge of 
Allegiance.
    You see it in all the activities that occur here, just like in 
communities all across America--youth programs, sports, playgroups for 
moms and their young children, charitable programs, including help for 
the homeless. This is a place where Americans come together--not only 
to practice their faith, but to build stronger communities, with people 
of many faiths.
    Here in Virginia and across the country, Muslim Americans are our 
neighbors and fellow citizens. You inspire our children as teachers. 
You strengthen our communities as volunteers, often through interfaith 
projects, like the President's ``United We Serve'' program. You protect 
our communities as police officers and firefighters.
    You create jobs and opportunity as small business owners and 
executives of major corporations. You enrich our culture as athletes 
and entertainers. You lead us as elected officials and Members of 
Congress. And no one should ever forget that Muslim Americans help keep 
America safe every day as proud Soldiers, Sailors, Airmen, Marines, and 
Coast Guardsmen. Indeed, some of these heroes have made the ultimate 
sacrifice for our Nation and now rest in our hallowed National 
cemeteries.
    That's why I appreciate the opportunity to be here today. It's this 
very idea--the idea of America as a secure and pluralistic Nation; as a 
society that doesn't just accept diversity; but which is strengthened 
by it--this idea is more important than ever.
    Over the last several months and again later this month in New York 
City, John Brennan, Assistant to the President for Homeland Security 
and Counterterrorism, will continue to outline the steps we are 
taking--across our Government--to keep America and our communities safe 
and secure, including from the threat of al-Qaeda and its adherents.
    I am here to talk with you about how our communities--your 
communities--contribute to keeping our country safe: Specifically, as 
part of our approach to preventing the radicalization that leads to a 
range of threats here at home, including terrorism. As the President's 
Deputy National Security Advisor, I've been responsible, for more than 
a year, for coordinating and integrating our efforts across the Federal 
Government to help prevent violent extremism in the United States. And 
today I want to discuss our approach, which we'll be releasing publicly 
in the coming weeks.
    Preventing radicalization that leads to violence here in America is 
part of our larger strategy to decisively defeat al-Qaeda. Overseas, 
because of the new focus and resources that the President has devoted 
to this fight, the al-Qaeda leadership in the border regions of 
Afghanistan and Pakistan is hunkered down and it's harder than ever for 
them to plot and launch attacks against our country. Because we're 
helping other countries build their capacity to defend themselves, 
we're making it harder for al-Qaeda's adherents to operate around the 
world.
    Here at home, we've strengthened our defenses, with improvements to 
intelligence and aviation screening and enhanced security at our 
borders, ports, and airports. As we've seen in recent attempted 
attacks, al-Qaeda and its adherents are constantly trying to exploit 
any vulnerability in our open society. But it's also clear that our 
dedicated intelligence, law enforcement, and homeland security 
personnel have disrupted many more plots and saved many American lives.
    At the same time, we're confronting the broader challenge of 
violent extremism generally--including the political, economic, and 
social forces that can sometimes lead people to embrace al-Qaeda's 
murderous ideology. This includes challenging and undermining the 
twisted ideology--the political propaganda--that al-Qaeda uses to 
recruit, radicalize, and mobilize its supporters to violence.
    Of course, the most effective voices against al-Qaeda's warped 
worldview and interpretation of Islam are other Muslims. As the 
President said in Cairo, ``Islam is not part of the problem in 
combating violent extremism--it is an important part of promoting 
peace.'' Around the world, poll after poll shows that the overwhelming 
majority of Muslims reject al-Qaeda. Many Muslim leaders around the 
world have loudly condemned al-Qaeda and its murderous tactics and 
declared that it is a violation of Islam to murder innocent people. 
They've spoken out at great risk to their lives, and some have lost 
their lives because of it.
    Still, President Obama recognizes that through our words and deeds 
we can either play into al-Qaeda's narrative and messaging or we can 
challenge it and thereby undermine it. We're determined to undermine 
it.
    For example, we know there are many different reasons why 
individuals--from many different faiths--succumb to terrorist 
ideologies. And there is no one easy profile of a terrorist. But based 
on extensive investigations, research, and profiles of the violent 
extremists we've captured or arrested, and who falsely claim to be 
fighting in the name of Islam, we know that they all share one thing--
they all believe that the United States is somehow at war with Islam, 
and that this justifies violence against Americans.
    So we are actively and aggressively undermining that ideology. 
We're exposing the lie that America and Islam are somehow in conflict. 
That is why President Obama has stated time and again that the United 
States is not and never will be at war with Islam.
    On the contrary, we've strengthened alliances and partnerships with 
Muslim-majority nations around the world, from Turkey to Indonesia. As 
a result of the President's speech in Cairo, we've forged new 
partnerships with Muslim communities to promote entrepreneurship, 
health, science and technology, educational exchanges, and 
opportunities for women. In fact, the President insisted that his 
National Security Staff create a new office, a Global Engagement 
Directorate, to make these partnerships a priority.
    We also undermine al-Qaeda's ideology by exposing the lie that it 
is somehow defending Islamic traditions when, in fact, al-Qaeda 
violates the basic tenets of Islam. The overwhelming majority of al-
Qaeda's victims are Muslim. In contrast to the ethics and 
accomplishments of the Islamic Golden Age--a period of scientific 
learning; networks of Muslim, Christian, and Jewish intellectuals and 
philosophers; advances in mathematics, agriculture, technology, and the 
arts--al-Qaeda practices nothing but religious bigotry and glorifies 
suicide bombing.
    We undermine al-Qaeda's ideology by showing that it is the power of 
nonviolence and democratic change that leads to progress, not senseless 
terrorism. And now people across the Arab world are proving the point.
    Consider this. Al-Qaeda's second-in-command, Ayman Zawahiri, an 
Egyptian, has spent decades trying to overthrow the government of Egypt 
through terrorism. But in just a few short weeks, it was the people of 
Egypt--men and women, young and old, secular and religious, Muslims and 
Christians--who came together and changed their government, peacefully. 
It is the most dramatic change in the Arab world in decades, and al-
Qaeda had nothing to do with it. And so President Obama made it a point 
to commend the Egyptian people and their embrace of ``the moral force 
of nonviolence--not terrorism, not mindless killing.''
    There's another way that we expose and undermine the lies of al-
Qaeda's ideology. They want Muslims around the world to think that the 
United States is somehow anti-Muslim--when, in fact, we embrace people 
of all faiths and creeds. That is why President Obama has said 
repeatedly--``Islam is part of America.'' And that's one of the reasons 
why this administration makes it a point--whether in the President's 
speech in Cairo, at Iftars at the White House, in outreach by our 
Federal agencies, or with my presence here today--to celebrate the 
extraordinary contributions that Muslim Americans make to our country 
every day.
    For all these reasons--our stronger defenses at home; our progress 
against al-Qaeda overseas; the rejection of al-Qaeda by so many Muslims 
around the world; and the powerful image of Muslims thriving in 
America--al-Qaeda and its adherents have increasingly turned to another 
troubling tactic: attempting to recruit and radicalize people to 
terrorism here in the United States.
    For a long time, many in the United States thought that our unique 
melting pot meant we were immune from this threat--this despite the 
history of violent extremists of all kinds in the United States. That 
was false hope, and false comfort. This threat is real, and it is 
serious.
    How do we know this? Well, al-Qaeda tells us. They're not subtle. 
They make videos, create internet forums, even publish on-line 
magazines, all for the expressed purpose of trying to convince Muslim 
Americans to reject their country and attack their fellow Americans.
    There's Adam Gadahn, who grew up in California and now calls 
himself an al-Qaeda spokesman. There's Anwar al-Awlaki, who was born in 
the United States and now exhorts Americans to violence from hiding in 
Yemen as part of al-Qaeda in the Arabian Peninsula. And there's Omar 
Hammami, an Alabama native who joined the terrorist group al-Shabaab in 
Somalia and uses rap and hip hop in an attempt to reach young 
Americans.
    Sadly, these violent extremists have found a miniscule but 
receptive audience. Fortunately, good intelligence, effective law 
enforcement, and community partnerships have allowed us to discover and 
thwart many of their plots before they could kill. Examples include: 
Najibullah Zazi of Denver, who conspired to bomb the New York City 
subway; Daniel Patrick Boyd of North Carolina, and others, who 
conspired to murder U.S. military personnel; and individuals who 
planned to bomb buildings in Illinois and Texas. Over the past 2 years, 
dozens of American citizens have been arrested and charged with 
terrorism counts.
    Tragically, other plots were not prevented, among them: The murder 
of 13 innocent Americans at Fort Hood; David Headley, of Chicago, who 
helped to plan the 2008 terrorist attacks in Mumbai, India; and Faisal 
Shazad, who packed an SUV with explosives and attempted to detonate it 
in Times Square.
    Of course, disrupting plots is dealing with this threat at the back 
end, after individuals have succumbed to violent extremism. Our 
challenge, and the goal that President Obama has insisted that we also 
focus on, is on the front end--preventing al-Qaeda from recruiting and 
radicalizing people in America in the first place. And we know this 
isn't the job of Government alone. It has to be a partnership with 
you--the communities being targeted most directly by al-Qaeda.
    I work with President Obama every day. He's been focused on this 
since he took office. Behind closed doors, he has insisted that his 
National security team make this a priority. The effort that I've been 
leading is a policy committee made up of deputy secretaries from 
departments and agencies across Government. We meet regularly to 
consider new policy, drawing not only on the expertise of our 
traditional National security agencies, but also the Departments of 
Education and Health and Human Services.
    In our review of the Fort Hood attack, we deepened our 
understanding of the tactics that extremists like al-Awlaki use to push 
people toward violence, as well as how an individual becomes 
radicalized. The President's National Security Strategy, released last 
year, stated, ``Our best defenses against this threat are well-informed 
and equipped families, local communities, and institutions.''
    Indeed, senior administration officials--including Secretary of 
Homeland Security Janet Napolitano, Attorney General Eric Holder, and 
John Brennan--have met with and engaged many of your organizations. 
Many of you have approached the administration offering to help, and 
you've worked with us to help prevent terrorists from targeting your 
communities.
    Most recently, in the State of the Union, the President summed up 
our approach this way. ``As extremists try to inspire acts of violence 
within our borders,'' he said, ``we are responding with the strength of 
our communities, with respect for the rule of law, and with the 
conviction that Muslim Americans are a part of our American family.''
    With the time I have left I want to address three aspects of our 
approach: How we think about and see this challenge; the principles 
that are guiding our efforts; and what we're actually doing, in 
partnership with your communities.
    How are we in Government thinking about this challenge? After years 
of experience, we have a better understanding, not only of how 
terrorist recruiters try to radicalize people, but how we can reduce 
the chances that they will succeed.
    We know, for example, that not unlike gang lords and drug dealers, 
terrorist recruiters prey on those who feel disillusioned or 
disconnected from their family, community, or country. They target 
individuals who are perhaps struggling with their identity, suggesting 
to them that their identities as an American and as a Muslim are 
somehow incompatible and that they must choose between their faith and 
their country.
    But we also know that this is a false choice and that it fails to 
resonate with individuals when they have the strong support of their 
families and communities; when they have faith in their ability to 
achieve change through the political process; and when they feel that 
they, too, have a chance to realize the American Dream.
    In other words, we know, as the President said, that the best 
defense against terrorist ideologies is strong and resilient 
individuals and communities. This should be no surprise. In America we 
have a long history of community-based initiatives and partnerships 
dealing successfully with a whole range of challenges, like violent 
crime.
    And we know something else--that just as our words and deeds can 
either fuel or undermine violent extremism abroad, so too can they here 
at home.
    We have a choice. We can choose to send a message to certain 
Americans that they are somehow ``less American'' because of their 
faith or how they look; that we see their entire community as a 
potential threat--as we've seen in several inexcusable incidents in 
recent weeks across the country that were captured on video. Well, 
those incidents do not represent America. And if we make that choice, 
we risk feeding the very feelings of disenchantment that may push some 
members of that community to violent extremism.
    Or, we can make another choice. We can send the message that we're 
all Americans. That's the message that the President conveyed last 
summer when he was discussing Muslim Americans serving in our military 
and the need to honor their service. ``Part of honoring their 
service,'' he said, ``is making sure that they understand that we don't 
differentiate between them and us. It's just us.''
    Informed by what we know, several basic principles must guide us in 
what we do--as individuals, as communities and as a country. We must 
resolve not to label someone as an extremist simply because of their 
opposition to the policies of the U.S. Government or their strong 
religious beliefs. Under our Constitution, we have the freedom to speak 
our minds. And we have the right to practice our faiths freely knowing 
that the Government should neither promote nor hinder any one religion 
over the other.
    As such, we must resolve to protect the rights and civil liberties 
of every American. That's why, under President Obama, the civil rights 
division at the Justice Department is devoting new energy and effort to 
its founding mission--protecting civil rights. It's why we are 
vigorously enforcing new hate crimes laws. And it's why even as we do 
everything in our power to protect the American people from terrorist 
attacks, we're also doing everything in our power to uphold civil 
liberties.
    We must resolve that, in our determination to protect our Nation, 
we will not stigmatize or demonize entire communities because of the 
actions of a few. In the United States of America, we don't practice 
guilt by association. And let's remember that just as violence and 
extremism are not unique to any one faith, the responsibility to oppose 
ignorance and violence rests with us all.
    In the wake of terrorist attacks, instead of condemning whole 
communities, we need to join with those communities to help them 
protect themselves as well. And if one faith community faces 
intimidation, we need to come together across faiths, as happened 
several years ago here at the ADAMS Center, when Christian and Jewish 
leaders literally stood guard overnight to protect this center from 
vandalism. You showed us the true meaning of e pluribus unum--out of 
many, one.
    Let's resolve that efforts to protect communities against violent 
extremists must be led by those communities. Indeed, we're fortunate 
that Muslim Americans, including organizations represented here today, 
have taken an unequivocal stand against terrorism.
    Islamic scholars have issued fatwas declaring terrorism as un-
Islamic. Like Muslim American communities across the country, the ADAMS 
Center has consistently and forcefully condemned terrorist attacks. And 
not only here in the United States. You've condemned terrorism around 
the world against people of other faiths, including Christians and 
Jews. In so doing, you've sent a message that those who perpetrate such 
horrific attacks do not represent you or your faith, and that they will 
not succeed in pitting believers of different faiths against one 
another.
    After the attack at Fort Hood, Muslim Americans reached out to 
offer sympathy and support to the victims and their families. Across 
the country, Muslim, Arab, and South Asian communities have held 
conferences and launched awareness campaigns to address the challenge 
of radicalization that leads to violence. Imam Magid is among the many 
Muslim leaders who have been recognized by the Director of the FBI for 
their efforts to strengthen cooperation between Muslim communities and 
law enforcement.
    To counter the propaganda videos from the likes of al-Awlaki, Imam 
Magid even joined with other clerics and scholars to make their own 
videos, which have gone viral, explaining that Islam preaches peace, 
not violence. Most Americans never hear about these efforts, and, 
regrettably, they're rarely covered by the media. But they're going on 
every day--and they're helping to keep our country safe.
    In fact, many of the incidents and arrests that do make headlines 
are because of the good citizenship and patriotism of Muslim Americans 
who noticed something and spoke up. Since the September 11 attacks, a 
number of individuals inspired by al-Qaeda's ideology and involved in 
supporting or plotting terrorism were stopped, in part, because of the 
vigilance of members of local communities, including Muslim Americans.
    That's why Lee Baca, the Sheriff in Los Angeles County--which has 
one of the largest Muslim communities in the country--has said that 
Muslim Americans ``have been pivotal in helping to fight terrorism.'' 
And it's why Attorney General Holder has said that cooperation from 
Muslim Americans and Arab Americans ``has been absolutely essential in 
identifying and preventing, terrorist threats.''
    The bottom line is this--when it comes to preventing violent 
extremism and terrorism in the United States, Muslim Americans are not 
part of the problem, you're part of the solution.
    We also believe in another principle--that no community can be 
expected to meet a challenge as complex as this alone. No one community 
can be expected to become experts in terrorist organizations, how they 
are evolving, how they are using new tools and technologies to reach 
young or impressionable minds. And that's where Government can play a 
role.
    Which leads me to the final area that I want to address today--our 
approach at the Federal level, in partnership with communities. Broadly 
speaking, we're working along five areas of effort.
    First, we're constantly working to improve our understanding of the 
process of radicalization that leads people to terrorism--because the 
more we understand it, the more we can do to stop it. As I said, we've 
learned a great deal about the factors that make individuals 
susceptible to extremist ideologies and violence. Our success in 
disrupting so many plots is a testament to this. But with al-Qaeda and 
its adherents constantly evolving and refining their tactics, our 
understanding of the threat has to evolve as well.
    So we're devoting extensive resources and expertise to this, 
including entire analytic units at the Department of Homeland Security 
and the National Counterterrorism Center. We have a new senior 
intelligence official focused full-time on radicalization that leads to 
violence. And we're constantly working with Congress, academic, and 
research institutions, as well as foreign governments, to gain a more 
precise understanding of this challenge and how to address it.
    Second, equipped with this information, we've expanded our 
engagement with local communities that are being targeted by terrorist 
recruiters. The Departments of Homeland Security and Justice have 
created new advisory groups, instituted regular outreach sessions, and 
held dozens of roundtables across the country. It's all been with the 
goal of listening to your communities, sharing information on how al-
Qaeda attempts to recruit and radicalize, and answering the question so 
many communities have asked us--what can we do to protect our young 
people?
    But we've also recognized that this engagement can't simply be 
about terrorism. We refuse to ``securitize'' the relationship between 
the Government and millions of law-abiding, patriotic Muslim Americans 
and other citizens. We refuse to limit our engagement to what we're 
against, because we need to forge partnerships that advance what we're 
for--which is opportunity and equal treatment for all.
    So other departments, like Health and Human Services and Education, 
have joined with communities to better understand and address the 
social, emotional, and economic challenges faced by young people so 
they can realize their full potential in America. And our U.S. 
Attorneys are leading a new coordinated Federal effort to deepen our 
partnerships with communities on a host of issues. Because we don't 
just want to keep our young people from committing acts of violence, we 
want them to help build our country.
    Third, based on this engagement, we're increasing the support we 
offer to communities as they build their own local initiatives. Every 
community is unique, and our enemy--al-Qaeda--is savvy. It targets 
different communities differently. So we're working to empower local 
communities with the information and tools they need to build their own 
capacity to disrupt, challenge, and counter propaganda, in both the 
real world and the virtual world.
    Where the Federal Government can add value, we'll offer it. But 
often times, the best expertise and solutions for a community will be 
found in that community--in the local organizations, institutions, and 
businesses that understand the unique challenges of that community. 
Technology experts in the private sector, for instance, can share tools 
to counter terrorist narratives and recruiting on the internet. In 
those instances, the Federal Government will use our convening power to 
help communities find the partnerships and resources they need to stay 
safe.
    Fourth, because the Federal Government cannot and should not be 
everywhere, we're expanding our coordination with State and local 
governments, including law enforcement, which work directly with 
communities every day. We are in close collaboration with local 
governments, like Minneapolis and Columbus, Ohio, and we're drawing on 
their best practices. We recognize, as Secretary Napolitano has said, 
that ``homeland security begins with hometown security.''
    But we also recognize that while local officials have the best and 
deepest understanding of the challenges facing individuals, groups, and 
families in their communities, they also have limited knowledge of al-
Qaeda and its tactics. We have therefore developed and expanded 
training for law enforcement, counter-terrorism fusion centers, and 
State officials. We're putting a new emphasis on training to help 
officials better understand and relate to a diverse range of community 
partners. In fact, in just the past 5 months alone, DHS has offered 
this sort of training to more than 1,000 law enforcement and other 
Government personnel across the country.
    Finally, we're working to improve how we communicate with the 
American people about the threat of violent extremism in this country 
and what we're doing to address it--because we cannot meet this 
challenge if we do not see it for what it is, and what it is not. This 
includes dispelling the myths that have developed over the years, 
including misperceptions about our fellow Americans who are Muslim.
    Put simply, we must do exactly what al-Qaeda is trying to prevent. 
We must come together, as Americans, to protect our country in a spirit 
of respect, tolerance, and partnership. That is the message I hope to 
leave with you today. And that is the message that President Obama has 
delivered, and will continue to deliver, throughout his Presidency.
    As he said in a speech at West Point last year, al-Qaeda and its 
supporters ``will continue to recruit, and plot, and exploit our open 
society.'' But, he went on to say, ``We need not give in to fear every 
time a terrorist tries to scare us. We should not discard our freedoms 
because extremists try to exploit them. We cannot succumb to division 
because others try to drive us apart. We are the United States of 
America.''
    Thank you all very much and thank you for all that you do to enrich 
and protect this country that we all love.
                                 ______
                                 
   Statements Submitted for the Record by Honorable Laura Richardson

              Attachment 1.--CQ Congressional Transcripts
                            February 9, 2011

                         CONGRESSIONAL HEARINGS

House Homeland Security Committee Holds Hearing on Understanding 
        Homeland Threat Landscape
    Napolitano: Well, I know. And let me just suggest, first of all, 
that when we add random screening to whatever we are doing, it has to 
be truly random. Otherwise, you use the value of unpredictability.
    Secondly, I'd be happy to have you briefed in a classified setting 
about how when we sat firm rules about we won't screen this kind of 
person that kind of person, that our adversaries, they know those 
rules, and they attempt to train and get around them.
    Broun: Well, thank you. And I'd appreciate that briefing.
    We've got to focus on those people who want to do us harm. And this 
administration and your--your department are seen to be very adverse to 
focusing on those entities that want to do us harm and have even at 
times back when--when your spokesman came and testified before this 
committee, he would not even describe that Fort Hood massacre as a 
terrorist threat and talked about an alleged attack.
    I think this is unconscionable. We've got to focus on those people 
who want to harm us. And the people who want to harm us are not 
grandmas, and it's not little children. It's the Islamic extremist. 
There are others, and I want to look into those, too, but your own 
department has described people who are pro-life, who are pro-
(inaudible), who believe in the Constitution, and--and military 
personnel as being potential terrorists.
    Now, come on. Give me a break. We do need to focus on the folks who 
want to harm us. And--and I encourage you to--to maybe take a step back 
and look and see how we can focus on those people who want to harm us. 
And we've got to profile these folks. You all have not been willing to 
do so, in my opinion. And I hope that you will--will look at this 
issue, because I think it's absolutely critical for the safety of our 
Nation and for the American citizens.
    I'll submit the other questions for written comment. And thank you 
both for being here.
                                 ______
                                 
                        Attachment 2.--CBS News
Attorney General Eric Holder: Threat of Homegrown Terrorism ``Keeps Me 
                            Up At Night''\1\
---------------------------------------------------------------------------
    \1\ http://www.cbsnews.com/8301-503544_162-20026288-503544.html.
---------------------------------------------------------------------------
                           December 21, 2010

Posted by Lucy Madison
    In an interview with ABC's ``Good Morning America,'' U.S. Attorney 
General Eric Holder spoke of the ongoing fight to protect American 
national security and expressed his growing concern with the threat of 
homegrown terror--a danger which he said ``keeps me up at night.''
    ``What I am trying to do in this interview is to make people aware 
of the fact that the threat is real, the threat is different, the 
threat is constant,'' Holder told ABC's Pierre Thomas, in an interview 
that aired Tuesday morning.
    ``The threat has changed from simply worrying about foreigners 
coming here, to worrying about people in the United States, American 
citizens--raised here, born here, and who for whatever reason, have 
decided that they are going to become radicalized and take up arms 
against the nation in which they were born,'' Holder added.
    The attorney general said that of 126 people who have been charged 
with allegations related to terrorism in the past 24 months, 50 had 
been American citizens.
    ``It is one of the things that keeps me up at night,'' Holder said. 
``You didn't worry about this even two years ago--about individuals, 
about Americans, to the extent that we now do. And--that is of--of 
great concern.''
    Holder noted that while he was confident in the United States' 
counter-terrorism efforts, Americans ``have to be prepared for 
potentially bad news.''
    ``The terrorists only have to be successful once,'' he said.
    Holder pointed to Anwar Al Awlaki, a radical Islamic cleric and 
dual U.S.-Yemeni citizen, as so dangerous as to be considered among the 
ranks of Osama bin Laden.
    ``He would be on the same list with bin Laden,'' Holder said of Al 
Awlaki. ``He's up there. I don't know whether he's one, two, three, 
four--I don't know. But he's certainly on the list of the people who 
worry me the most.''
    As a U.S. citizen, Holder said, Awlaki possesses a degree of 
familiarity with American culture that most foreign terrorists lack. 
And he has been a common link, Holder says, among many American-bred 
converts to al Qaeda-tied groups.
    ``He's an extremely dangerous man,'' Holder said. ``He has shown a 
desire to harm the United States, a desire to strike the homeland of 
the United States . . . He is a person who--as an American citizen--is 
familiar with this country and he brings a dimension, because of that 
American familiarity, that others do not.''
    ``The ability to go into your basement, turn on your computer, find 
a site that has this kind of hatred spewed . . . they have an ability 
to take somebody who is perhaps just interested, perhaps just on the 
edge, and take them over to the other side,'' Holder added of Awlaki 
and his associates' ability to reach potential converts through the 
Internet.
    Holder dismissed criticism of recent FBI sting operations, which 
some have argued employed the use of illegal ``entrapment,'' offering 
that ``options are always given all along the way for them to say, `You 
know what, I have changed my mind. I don't want to do it.' ''
    ``I have to have all those tools available to me to try to keep the 
American people safe, and to do the job that I'm supposed to do as a 
21st century attorney general,'' Holder said. ``We are doing everything 
that we possibly can to keep the American people safe . . . We are 
vigilant, we are doing everything we can to keep our homeland secure.''
    When asked about WikiLeaks and the potential prosecution of Julian 
Assange, Holder said, ``it's an ongoing investigation.''
    ``What Wikileaks did, at the end of the day, was harmful to 
American security, put American agents and properties . . . at risk . . 
.  and I think for arrogant and misguided reasons,'' he said.
                                 ______
                                 
             Attachment 3.--Letter From Members of Congress

                                                     March 9, 2011.

The Honorable Peter King,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Chairman King: We the undersigned members of the House 
Committee on Homeland Security write to express our deep concern 
regarding the hearing scheduled for March 10, which has been called to 
investigate ``The Extent of Radicalization in the American Muslim 
Community and that Community's Response.'' Due to the incomplete and 
unduly divisive nature of this inquiry, we respectfully request that 
you strongly consider canceling the upcoming hearing. We understand 
that Ranking Member Thompson has written to you on February 1, 2011 
with a similar request. We support the Ranking Member for the reasons 
stated in his letter and for the following additional reasons:
    Forging strong, positive relationships with the Muslim community is 
vital to our law enforcement community's ability to combat homegrown 
terrorism. According to the Congressional Research Service, Islamic 
communities have helped U.S. security officials prevent more than two 
out of every five al-Qaeda plots threatening the United States since 
the attacks of September 11, 2001 and helped prevent over 75 percent of 
all the plots that occurred in the past year.
    Our concern is that holding a hearing that targets this community 
will have the unintended consequences of breeding alienation and 
fostering feelings of resentment. As a result, we risk hindering law 
enforcement's efforts to detect, deter, or prevent potential threats 
that hide themselves within these communities.
    Alternatively, should you elect to proceed with the proposed 
hearing, we urge you to broaden its scope. From Jared Lee Loughner to 
Timothy McVeigh, history has shown us that domestic terrorism in the 
United States crosses many spectrums and ideologies, For example, since 
the 2008 Presidential election, there have been 44 plots by domestic 
non-Muslim violent extremists. By comparison, there have been 20 
domestic terror plots by American Muslims or foreign born Muslims 
operating in the United States. While we recognize that ``Islamic 
radicalization'' is real and should be included in any inquiry into 
homegrown terrorism, it is arbitrary and even counterproductive for 
this topic to be the sole focus of the upcoming hearing.
    We sincerely hope that you consider these requests and look forward 
to continue working with you to protect the safety and liberties of 
every American.
            Sincerely,

Laura Richardson,
Member of Congress,

Yvette Clarke,
Member of Congress,

Sheila Jackson Lee,
Member of Congress,

Danny K. Davis,
Member of Congress,

Donna Christensen,
Member of Congress.
  
      
                                 ______
                                 
                       Attachment 4.--Politico\1\
---------------------------------------------------------------------------
    \1\ http://www.politico.com/blogs/thecrypt/0907/
Rep_King_There_are_too_many_mosques_in_this_country_.html.
---------------------------------------------------------------------------
    rep. peter king: there are ``too many mosques in this country''
September 19, 2007
    New York Rep. Peter King, a prominent House Republican, said there 
are ``too many mosques in this country'' in a recent interview with 
Politico.
    ``There are too many people sympathetic to radical Islam,'' King 
said. ``We should be looking at them more carefully and finding out how 
we can infiltrate them.''
    King is the ranking Republican on the House Homeland Security 
Committee. And as an outspoken advocate of strong anti-terror measures, 
he has been unafraid to ruffle some feathers in his drive to protect 
the homeland.
    When asked to clarify his statement. King did not revise his 
answer, saying ``I think there has been a lack of full cooperation from 
too many people in the Muslim community.'' The interview was for a 
profile of the committee, as part of Politico's Committee Insider 
Series.
    Earlier, King had said in an interview with radio and television 
host Sean Hannity that 85 percent of the mosques in this country are 
controlled by ``extremist leadership,'' a comment that prompted strong 
condemnations from many religious organizations and from the Democratic 
National Committee.
    Update: On Wednesday, the Congressman said: ``The quote was taken 
entirely out of context by Politico. My position in this interview, as 
it has been for many years, is that too many mosques in this country do 
not cooperate with law enforcement. Unfortunately, Politico was 
incapable of making this distinction.''


                          A P P E N D I X  I I

                              ----------                              

 Questions Submitted by Ranking Member Bennie G. Thompson for M. Zuhdi 
                                 Jasser

    Question 1. In your testimony, you state that ``many mosques do 
teach an Islam that is spiritual, patriotic, and not in conflict with 
America. But there are also many that are transmitting ideas that are 
Islamist and push Muslims down that pathway toward intoxication and 
possible violent radicalization.'' Please provide any objective 
evidence you may have to bolster this statement. For instance, it would 
be helpful to provide any articles, statistical surveys, or other 
studies you may have that support these statements.
    Answer. Ranking Member Thompson, understanding the entire drawn-out 
process of radicalization is central to any effective counterterrorism 
and counter-radicalization programs our Nation may have. Our National 
focus on ``violent extremism'' alone has been too myopic and obviously 
ineffective as evidenced by the fact that homegrown terror plots have 
only increased exponentially among American Muslims since 9/11 and 
especially in the last 2 years despite Homeland Security's focus on 
violent extremism (please see evidence provided herein Appendix I and 
Appendix II).
    I will reiterate for you as I mentioned at length in my written and 
oral testimony available to you, radicalization does not happen 
overnight. ``Violent extremism'' is only the final common steps of a 
long pathway of Muslim radicalization for those who end up threatening 
our National security. Prior to their invocation of violence these 
extremists undergo a radicalization that includes a process of 
progressive estrangement, separatism, and isolation into Islamism 
(political Islam and the Islamic state) and away from Americanism. I 
defined political Islam for you in my testimony as the desire of some 
Muslims to create Islamic states based in Islamic law (shariah) where 
the Muslim community (ummah) is also synonymous with the ``Islamic 
nation-state''. Thus, they are unable to identify with and bond 
positively to our own American concept of a nation based in an 
Establishment Clause, the separation of mosque and state, a man-made 
Constitution and reason rather than their own Islamist concept of a 
theocracy heavily influenced and driven predominantly (in a quasi-
oligarchy) by Islamic experts from Muslim communities like imams, 
clerics, and Islamist scholars (ulemaa).
    I provided for you Prime Minister David Cameron's speech in Munich 
from February 2011 as evidence in which he also similarly notes that 
counter-radicalization efforts in the United Kingdom have been a 
failure because they have not dealt in any real way with treating the 
identification problem of British Muslim youth with their British 
nationality and identity in order to inoculate them against the concept 
of the Islamic state. Not only does the evidence of our researchers 
prove his point and mine, but as a Muslim my testimony to you is that 
it is an imminently rational conclusion that the primary root cause of 
Muslim radicalization is the inherent separatism of the ideologies of 
political Islam, the Ummah (as nation-state), and Islamism.
    Only Muslims can unravel and dissect the details of this process of 
radicalization. The steps of this process has been laid out by many 
experts in such well-thought-out analyses as that provided in the NYPD 
Report on Homegrown Terrorism (2007) which I brought to your attention 
and provided your committee in my testimony and have again attached 
here (Appendix III). That study is vital to your understanding of the 
lengthy process and science of radicalization. Now, I will reiterate, 
only Muslims can intervene in those steps laid out and only Muslims can 
dissect the theo-political ideologies involved in the early 
radicalization before they become violent. This stands to reason 
because when a global political movement (Islamism) intertwines itself 
into a theology only the followers of that faith can extricate that 
political movement from their own spiritual path to God. Reform can 
only happen from within the faith communities and consciousness. That 
was the point I tried to lay out for you in my testimony to your 
committee. I also provided the work and diagrams of counterterrorism 
expert Patrick Poole whose analyses discussed the continuum of 
radicalization and the years it may take going down that slippery slope 
(Appendix IV).
    Also note that extensive research and documentation on the 
connection between the ideology of the Islamic state (and its closely 
associated corollary of Caliphism) and eventual radicalization has been 
provided by the work of experts like Dr. Magnus Ranstorp, Director of 
Research at the Center for Asymmetric Threat Studies at Sweden's 
National Defense College. In his work on ``Preventing Violent 
Radicalization and Terrorism: The Case of Indonesia'', he basically 
stated my premise from my research and my own experiences as a Muslim. 
He stated,

``Our research demonstrates that the Caliph imagery is a strong 
motivator within Muslim discourse. Pious zealots are often swept into 
the political expression of Jihad while attending small study groups 
(Hairgrove & McLeod, forthcoming 2008). For some Muslims, the imagery 
of an Islam reflective of the golden era of Muhammad is a religious 
value worthy of pursuit in terms of life goals, finances, and personal 
sacrifice `in the cause of Allah.' This ideological war for the `hearts 
and minds' for Muslims is considered a war for a `collective identity' 
and has no shortage of patriots willing to join the struggle.'' 
(Appendix V)

    Please also review the work of A H.E. Kyai Haji Abdurrahman Wahid, 
former President of Indonesia who edited the book, The Illusion of the 
Islamic State soon to be released in English. This book lays out ``How 
an Alliance of Moderates Launched a Successful Jihad Against 
Radicalization and Terrorism in the World's Largest Muslim-Majority 
Country'' (Appendix VI).
    As to my own experiences, I testified extensively to you in that 
regards on March 10 and in my written testimony. I believe that 
Islamist ideologies drive American Muslim youth away from an American 
national identification and away from a love for America and leads them 
instead towards a yearning for an Islamic state. In my experience as a 
practicing and activist Muslim that duality and separatism is the 
primary idea that radicalizes some Muslims early on.
    Therefore, it stands to reason that highlighting some commonly 
known examples and also some of my own experiences in a few mosques can 
serve to augment the science above. Sermons from imams that promote a 
virulent anti-Americanism and anti-Westernism are very relevant to 
understanding the process of gradual radicalization. In my testimony I 
discussed how prior to Imam Anwar Al-Awlaki becoming a radicalizer, he 
was being radicalized. It is not irrelevant that he had led prayer 
services in mosques in Denver, San Diego, and Northern Virginia prior 
to leaving the United States to become a militant jihadist. Before he 
became violent, he would have certainly expressed ideologies that 
discerning Muslims would have easily picked up on as being separatist 
and radicalizing.
    I have actively participated in mosques throughout my life from 
Wisconsin to Northern Virginia, District of Columbia, Norfolk, 
Virginia, Maryland, Arkansas, and Arizona to name a few. As you already 
mentioned, I have stated repeatedly that most American Muslims are very 
patriotic and nationalist but there are also many who including some 
imams believe in Islamism and have a very negative view of western 
systems of governance. I have spoken across the country to some imams 
and mosque leaders who have without equivocation endorsed Islamism. For 
example, a leader of the Islamic Center of Des Moines, Iowa, Luai Amro 
told the audience at Drake University on October 7, 2010 in response to 
my statements about the need for Muslim reform to separate mosque and 
state--``you cannot separate mosque and state in Islam''. An Arizona 
Imam, Ahmed Shqeirat of the Islamic Center of Tempe, Arizona showed the 
vile picture of an American soldier during a sermon in April 2004 which 
I've attached for you again here (Appendix VII). He showed that 
offensive picture while telling the Muslim audience there for spiritual 
renewal that this is what American soldiers are doing in Iraq and on 
``Muslim lands''. The anger from some Muslims listening to him was 
obviously a radicalizing stimulus.
    I would hope and pray that you are not waiting for me to give you a 
hard example of explicit ``violent extremism'' in order to be convinced 
that we need to support all American Muslims who are willing to 
acknowledge and directly counter those radicalizing ideas. I have also 
had the privilege to visit large Muslim communities in Columbus, Ohio, 
Boca Raton, FL, and Boston, MA to name a few in order to discuss and 
debate these ideas and the need for Muslims to counter the separatism 
of Islamism.
    Question 2. In the biographical sketch distributed prior to the 
hearing, you are described as the founder of the American Islamic Forum 
for Democracy (AIFD). Please provide information on this organization. 
For instance, to understand the influence of the AIFD in the American 
Muslim community, it would be helpful to understand whether the group 
is a membership organization, the number of members, whether membership 
is limited to Muslims, and whether membership dues are the only source 
of funding. Additionally, please provide a copy of the by-laws, charter 
or other organizing documents of the AIFD. Please provide a listing of 
the names and positions of each member of the AIFD board of directors 
and advisory board.
    Answer. The American Islamic Forum for Democracy (AIFD) is a 
nonprofit 501(c)(3) charitable organization. AIFD's mission advocates 
for the preservation of the founding principles of the United States 
Constitution, liberty and freedom, through the separation of mosque and 
state. AIFD is not a membership organization and we get support from 
Muslims in addition to a broad representation of Americans in the 
United States. We do not have a faith test for our support. Funding is 
obtained through foundation grants and individual donations. We do 
offer a membership option for our levels of fundraising contributions 
only. Our current board members include: Soul Khalsa, Charles Herring, 
and M. Zuhdi Jasser. As our bylaws indicate (Appendix VIII), AIFD's 
work is supported by our anonymous Islamic Review Committee (IRC), 
whose role is to provide commentary on AIFD's Islamic-related outreach 
activities and guidance on activities undertaken that focus on its 
mission. Their anonymity is part of our charter and necessary for their 
safety due to the intimidation we often get as a result of our reform 
work. I am enclosing publicly available information on AIFD. More 
information can be found at our website at www.aifdemocracy.org. Please 
feel free to contact me personally with any further questions. A copy 
of our IRS letter is attached along with our original articles of 
incorporation (Appendix IX and X).
    Lastly, with regards to the central intent of your question about 
the ``influence'' of AIFD, our measure of success is related to the 
impact that AIFD and its ideas have upon the National agenda related to 
Muslims and especially our movement towards real Islamic reform against 
the concept of the Islamist state. We consistently reach out to Muslim 
and non-Muslim communities across the Nation to help us lift up the 
need for Islamic reform, which is directly wedded to our National 
security. As to truly measurable influences, our public engagement 
programs have documented in 2009 approximately 49,000,000 viewers who 
have been exposed and impacted by our ideas. In 2010, that rose to 
170,000,000 viewers exposed and impacted by our message. Please see 
question three regarding influence with Muslim youth. Also note that 
one of our other initiatives that speaks to our influence in Muslim 
communities is the central leadership role we have played in forming 
the American Islamic Leadership Coalition (AILC) 
(www.americanislamicleadership.org). AILC had projected only 6-7 member 
organizations at its founding in September 2010 and now it has brought 
together over 16 confirmed Muslim leaders (either prominent thought 
leaders or organizational leaders) from North America to our coalition. 
We are in conversation with over 17 others to join our coalition that 
provides an alternative to the Muslim Brotherhood legacy groups in 
America with which you are all too familiar.
    Question 3. On the AIFD website, you state that ``We will work to 
engage Muslim youth and empower them with the independence to question 
the ideas of imams, clerics, and so many `tribal' leaders of Muslim 
communities unwilling to look toward reform and modernity.'' Please 
describe the activities undertaken by the AIFD designed to reach out to 
Muslim youth.
    Answer. Through our efforts at AIFD, I participate on behalf of 
AIFD in approximately 12-15 speaking engagements across the country 
each year. With each engagement, we attempt to involve outreach 
activities with Muslim youth groups, including student associations, 
interfaith organizations, and groups of young adults in the communities 
where I am speaking. I have spoken to young adults in universities 
across the country, including Stanford University, Pepperdine Law 
School, Ceritas University, University of Florida, Denison University, 
Florida Atlantic University, Suffolk University Law School, Princeton 
University, and Drake University, to name a few.
    For the past 2 years, we have been building the foundations of our 
primary program for young Muslims, which we have called the Muslim 
Liberty Project (MLP). MLP is our signature project for young Muslims. 
MLP is aimed at Muslims age 17-40. Our goal is to bring young American 
Muslims together to discuss liberty concepts and Jeffersonian 
principles of the separation of mosque and state, religious freedom, 
the Establishment Clause and reform away from the concept of the 
Islamic state. Our goal is to create Liberty Ambassadors within Muslim 
communities across the country.
    In March 2011, we held our first MLP Retreat here in Phoenix, 
Arizona where we brought in 24 Muslim youth, their guardians, mentors, 
and supporters. They were selected for the scholarships in a 
competitive essay contest chosen from those best able to articulate the 
importance of and tenets of Islamic reform toward the separation of 
mosque and state. Young Muslims came to Phoenix from 12 different 
States across the country. The 3-day weekend was an incredible 
experience for all of those involved and demonstrated that our Muslim 
youth are desperate to create an interpretation of their Islamic faith 
that steps into modernity and away from the Islamist ideologies that 
are poisoning some Muslim communities and hijacking their identity.
    One of the outcomes from the retreat is that we are embarking on an 
aggressive digital campaign this year that will give the students the 
opportunity to continue the conversation and dialogue to continue 
building Muslim-led solutions to counter the problems related to the 
ideologies that lead toward radicalization. We hope that our young 
Ambassadors will allow the liberty narrative to gain a greater foothold 
against the Islamist narrative within Muslim communities.
    Question 4. The website for the Clarion Fund indicates that you sit 
on the Advisory Board. What is your position on the Advisory Board and 
what does it entail?
    Answer. I hold no formal position at all with the Clarion Fund. I 
have been listed as an advisory board member only since 2011, and my 
role is limited to honorary in nature. Since being given the title, I 
have only participated in one conference call earlier this year that 
discussed the group's latest documentary Iranium.
    Question 5. News reports indicate that you served as the narrator 
in a movie entitled the ``Third Jihad,'' which was produced and 
distributed by the Clarion Fund. Are those reports accurate? If so, as 
the narrator, were you responsible for writing the script?
    Answer. Yes, I did serve as a narrator. No, I was not responsible 
for writing the script nor did I have authority over the entire script. 
I was responsible only for approving my portions of the script.
     Appendix I--AIFD Muslim Involvement in Terror Chronology 2009
        american muslims involved in terrorism: may 2009-present
    A partial listing of native-born American Muslims, Muslim 
immigrants who became U.S. citizens, and American citizens who 
converted to Islam, who've been indicted or convicted for threatening 
or perpetrating violent acts, with Islam as their justification.
    Presented as a public service by the American Islamic Forum for 
Democracy, March 2011.
    (1) May 20, 2009: James Cromitie, David Williams IV, Onta Williams, 
and Laguerre Payen--all Muslim U.S. citizens from the NY-NJ area--were 
arrested by the FBI for plotting to blow up a New York synagogue and a 
Jewish community center, and shoot down U.S. military jets. In October 
2010, all four were found guilty. Prosecutors called it a ``chilling 
plot,'' and an example of the danger of home-grown terrorists. ``Home-
grown terrorism is a serious threat,'' said U.S. Atty. Preet Bharara. 
``The defendants in this case agreed to plant bombs and use missiles 
they thought were very real weapons of terrorism.''\1\ Interestingly, 
all four were in prison together, and all four attended the same mosque 
after being released, which was run by imams with connections to the 
N.Y. prison system where they were incarcerated.\2\
---------------------------------------------------------------------------
    \1\ ``Four convicted in New York synagogue bomb plot,'' Los Angeles 
Times, October 19, 2010.
    \2\ ``Bronx Trial Shows How Prisons Breed Terrorists,'' Patrick 
Dunleavy, IPT News, August 30, 2010.
---------------------------------------------------------------------------
    (2) June 1, 2009: Abdulhakim Muhammed, a Muslim U.S. citizen from 
Memphis, TN was charged with shooting two soldiers outside a military 
recruiting center. One soldier died and the other was wounded. In a 
January 2010 letter to the judge hearing his case, Muhammed asked to 
change his plea from not guilty to guilty, claimed ties to al-Qaeda, 
and called the shooting a jihadi attack ``to fight those who wage war 
on Islam and Muslims.''\3\ Muhammed converted to Islam sometime after 
2004, and quickly became radicalized. He is alleged to have also 
considered targeting other recruiting centers, Jewish organizations, a 
Baptist church, and a day care center.\4\
---------------------------------------------------------------------------
    \3\ ``Recruiter Shooting Suspect Had Ties to Extremist Locations,'' 
By Pierre Thomas, Richard Esposito, and Jack Date, ABCNews.com, June 3, 
2009.
    \4\ ``Little Rock Shooter Eyed Bigger Targets,'' IPT News, June 4, 
2009.
---------------------------------------------------------------------------
    (3) July 27, 2009: Daniel Patrick Boyd, a Muslim U.S. citizen from 
North Carolina, was arrested and charged with recruiting six men, 
including two of his sons, to take part in a conspiracy ``to advance 
violent jihad, including supporting and participating in terrorist 
activities abroad and committing acts of murder, kidnapping, or maiming 
persons abroad.''\5\ The Investigative Project on Terrorism reported 
that ``During a bond hearing . . . the FBI case agent said 24 guns and 
more than 27,000 rounds of ammunition were seized from Boyd. Agents 
found a trench under a deck at Boyd's home that witnesses said had been 
used to store weapons.''\6\ On February 9, 2011 Boyd pleaded guilty to 
two of the more serious charges in exchange for his agreement to 
testify against his fellow conspirators.\7\
---------------------------------------------------------------------------
    \5\ Wikipedia: Daniel Patrick Boyd.
    \6\ ``Armed to the Teeth, N.C. Terror Cell Members Talked of 
Jihad,'' IPT News, August 20, 2009.
    \7\ Wikipedia: Daniel Patrick Boyd.
---------------------------------------------------------------------------
     (4) September 24, 2009: Michael C. Finton (aka Talib Islam), a 
Muslim U.S. citizen from Decatur, IL was arrested by the FBI after 
driving a truck filled with what he believed to be ``a ton of 
explosives'' to a busy Federal courthouse building, and trying to 
detonate it remotely via cell phone.\8\ Finton had recently converted 
to Islam while in prison for other crimes. He will be going to trial in 
March 2011.\9\
---------------------------------------------------------------------------
    \8\ Wikipedia: Michael Finton.
    \9\ ``Experts: U.S. `lucky' on plots,'' by Marisol Bello, USA 
TODAY, November 29, 2010.
---------------------------------------------------------------------------
    (5) October 16, 2009: Colleen Renee LaRose (aka ``Jihad Jane''), a 
Muslim U.S. citizen from Pennsburg, PA was arrested by the FBI and 
charged with conspiracy to commit murder, and providing material 
support to terrorists. LaRose was a recent convert to Islam who became 
radicalized soon thereafter. She claimed on her MySpace page, ``I 
support all the Mujahideen [Muslim warriors]. I hate zionist [sic] & 
all that support them!'' The target of the murder plot was Lars Vilks, 
a Swedish artist who had caused anger among some Muslims because he 
drew a depiction of the Prophet Muhammad's head on the body of a dog. 
LaRose was preparing to fly to Sweden and told a co-conspirator that 
killing Vilks was her objective: ``I will make this my goal till I 
achieve it or die trying.'' On February 1, 2011, LaRose pleaded guilty, 
and now awaits sentencing.\10\
---------------------------------------------------------------------------
    \10\ Wikipedia: Colleen LaRose.
---------------------------------------------------------------------------
    (6) November 5, 2009: Maj. Nidal Hasan, a Muslim U.S. citizen and 
Army psychiatrist from Texas, murdered 13 American soldiers and wounded 
30 more at Fort Hood in Kileen, TX. Internal documents show that 
officers within the Army were aware of Hasan's tendencies toward 
radical Islam since 2005.\11\ U.S. intelligence agencies intercepted 
Dr. Hasan's discussions \12\ with top al-Qaeda recruiter Anwar al-
Awlaki about killing American soldiers--but then stopped investigating, 
believing that mere discussion is protected free speech.\13\ On January 
15, 2010 the Department of Defense released the findings of an internal 
investigation which found that the Department was unprepared to defend 
against internal threats.\14\ Curiously, the report made no mention of 
Islam, or of the fact that Hasan was yelling, ``Allahu Akbar!!!'' as he 
shot American soldiers.\15\
---------------------------------------------------------------------------
    \11\ Wikipedia: Ft. Hood shooting.
    \12\ ``On Al-Jazeera.net--First Interview with U.S.-Born Yemen-
Based Imam Anwar Al-'Awlaki on Major Hasan and the Fort Hood Shooting: 
Nidal [Hasan] Contacted Me a Year Ago,'' MEMRI Jihad and Terrorism 
Threat Monitor, December 23, 2009.
    \13\ ``Senior Official: More Hasan Ties to People Under 
Investigation by FBI,'' by Martha Raddatz, Brian Ross, Mary-Rose 
Abraham and Rehab El-Buri, ABCNews.com, Nov. 10, 2009.
    \14\ ``Pentagon Report on Fort Hood Details Failures,'' by 
Elisabeth Humiller and Scott Shane, The New York Times, January 15, 
2010.
    \15\ ``The Fort Hood Report: Why No Mention of Islam?,'' by Mark 
Thompson, Time, January 20, 2010.
---------------------------------------------------------------------------
    (7) December 8, 2009: David Coleman Headley, a Muslim U.S. citizen 
from Chicago, was charged with being materially involved in the 
December 2008 Mumbai, India terror attacks that killed 170 people, 
including six Americans.\16\ Headley pleaded guilty to all charges, and 
is now awaiting sentencing.\17\
---------------------------------------------------------------------------
    \16\ ``U.S. citizen charged with conspiring to aid terrorists in 
2008 Mumbai attack,'' by Carrie Johnson and Spencer S. Hsu, The 
Washington Post, December 8, 2009.
    \17\ Wikipedia: David Headley.
---------------------------------------------------------------------------
    (8) January 5, 2010: Ramy Zamzam, a Muslim U.S. citizen from 
Washington, DC was arrested in Pakistan along with four American Muslim 
college students, all of whom are also from the northern Virginia/DC 
area. The five men were allegedly in Pakistan seeking to join radical 
Islamist groups and fight against American forces and their allies in a 
``jihad.'' Zamzam, who recently served as the president of the Muslim 
Student Association's Washington, DC branch,\18\ told reporters, ``We 
are not terrorists. We are jihadists and jihad is not terrorism.''\19\
---------------------------------------------------------------------------
    \18\ ``George Mason University Victorious in Battle of MSAs,'' by 
Mehreen Rasheed, Muslim Link, November 29, 2008.
    \19\ ``Breaking News: Pakistan Reportedly Detains Five D.C.-Area 
Muslims on Suspicion of Terror,'' IPT News, December 8, 2009.
---------------------------------------------------------------------------
    (9) January 8, 2010: Adis Medunjanin, a Muslim U.S. citizen from 
New York, was arrested for his involvement in an al-Qaeda plot ``to 
blow up New York City,'' after traveling to Pakistan for terrorist 
training in 2008.\20\
---------------------------------------------------------------------------
    \20\ ``FBI grills Queens man Adis Medunjanin after he flees; 
sources say he has ties to Al Qaeda, Zazi,'' New York Daily News, 
January 8, 2010.
---------------------------------------------------------------------------
    (10) January 10, 2010: Zarein Ahmedzay, a U.S. citizen from Queens, 
NY was indicted for his role in an al-Qaeda plot to conduct coordinated 
suicide bombings on New York's subway system in September 2009. On 
April 23, 2010 he pleaded guilty,\21\ but claimed ``The real enemy of 
this country are the ones destroying the country from within. I believe 
it's a special group--Zionist Jews, I believe, who run a permanent 
government in the United States.''\22\
---------------------------------------------------------------------------
    \21\ ``Zarein Ahmedzay Pleads Guilty to Terror Violations in 
Connection with Al-Qaeda New York Subway Plot,'' Department of Justice 
Press Release, April 23, 2010.
    \22\ ``Najibullah Zazi cohort Zarein Ahmedzay admits terror plot 
role; blames `Zionist Jews' for US woes,'' by John Marzulli, New York 
Daily News, April 23, 2010.
---------------------------------------------------------------------------
    (11) March 8, 2010: Jamie Paulin-Ramirez (aka ``Jihad Jamie''), a 
Muslim U.S. citizen from Leadville, CO, was arrested by the FBI and 
charged with conspiracy to commit murder and providing material support 
to terrorists. The target of the murder plot was Lars Vilks, a Swedish 
artist who had caused anger among some Muslims because he drew a 
depiction of the Prophet Muhammad's head on the body of a dog.\23\ 
Ramirez, a recent convert to Islam who quickly became radicalized, was 
preparing to fly to Sweden to carry out the Vilks murder.\24\
---------------------------------------------------------------------------
    \23\ ``Small-Town Mom Second American Woman Arrested in Terror Plot 
on Swedish Cartoonist,'' FOXNews.com, March 13, 2010.
    \24\ ``Paulin-Ramirez's family feels `pity' for `Jihad Jamie'; say 
she was likely egged on to join plot,'' by Corky Siemaszko, New York 
Daily News, March 15, 2010.
---------------------------------------------------------------------------
    (12) May 2, 2010: Faisal Shahzad, a Muslim U.S. citizen from New 
York, was arrested and charged with attempted use of a weapon of mass 
destruction, after he attempted to blow up a vehicle packed with 
explosives in Times Square. American officials later announced that the 
Pakistani Taliban likely played a role in the bomb plot, including 
providing Shahzad with terrorist training. Shahad was found guilty in 
October, 2010 and sentenced to life in prison.\25\
---------------------------------------------------------------------------
    \25\ ``Times Square Plotter Gets Life Term,'' by Chad Bray, The 
Wall St. Journal, October 5, 2010.
---------------------------------------------------------------------------
    (13) July 10, 2010: Zachary Adam Chesser, a Muslim U.S. citizen 
from Alexandria, VA was arrested by the FBI and charged with posting 
threats on his websites against ``South Park'' creators Matt Parker and 
Trey Stone, and for aiding Al Shabaab, an Islamist terror group. The 
basis for Chesser's threats was his allegation that Parker and Stone 
insulted the Prophet Muhammed. He is also alleged to have solicited 
others to ``pay them a visit.'' Chesser claimed he became interested in 
Islam in 2008, converted, soon became radicalized, and established 
email communications with Anwar al-Awlaki, also a Muslim U.S. citizen 
and a top al-Qaeda recruiter.\26\ In October, 2010 he pleaded guilty to 
all charges; in February 2011 he was sentenced to 25 years in 
prison.\27\
---------------------------------------------------------------------------
    \26\ Wikipedia: Zachary Adam Chesser.
    \27\ ``Muslim Convert Who Tried to Join Terrorists Gets 25 Years,'' 
FoxNews.com, February 24, 2011.
---------------------------------------------------------------------------
    (14) October 27, 2010: Farooque Ahmed, a Muslim U.S. citizen from 
Ashburn, VA was indicted for attempting to provide material support to 
a terrorist organization, collecting information to assist in planning 
a terrorist attack on a transit facility, and attempting to provide 
material support to help carry out multiple bombings in the DC Metro 
subway system.\28\ According to CBS research, Ahmed ``lived in middle-
class suburban comfort with his wife and their infant son. They held 
steady jobs in northern Virginia's technology industry and mostly kept 
to themselves. They got along with neighbors, sometimes even cooking 
saffron rice and chicken for them. Ahmed enjoyed fishing, and his 
English-born wife, Sahar Mirza-Ahmed, was part of a group of `Hip 
Muslim Moms.' Both were on social-networking sites.''\29\
---------------------------------------------------------------------------
    \28\ ``Arrests Seen as Part of a Wider Plot,'' IPT News, October 
27, 2010.
    \29\ ``Farooque Ahmed Described as Quiet Suburban Dad,'' 
CBSNews.com, October 28, 2010.
---------------------------------------------------------------------------
    (15) November 26, 2010: Mohamed Mohamud, a Muslim U.S. citizen from 
Corvalis, OR was arrested by the FBI and charged with attempting to use 
a weapon of mass destruction in connection with a plot to detonate a 
vehicle bomb at an annual Christmas tree lighting ceremony in Portland, 
OR.\30\ The massive fake bomb consisted of six 55-gallon drums with 
what appeared to be real detonation cords and plastic caps. Mohamud 
tried to detonate the bomb by dialing a cell phone that was attached to 
it. When the device failed to explode, the undercover agent suggested 
he get out of the car to obtain better reception. When he did so, 
arresting agents moved in. Mohamud tried to kick the arresting agents 
and police, and shouted ``Allahu Akbar!'' after he was taken into 
custody.\31\
---------------------------------------------------------------------------
    \30\ ``Oregon Resident Arrested in Plot to Bomb Christmas Tree 
Lighting Ceremony in Portland,'' Department of Justice press release, 
November 26, 2010.
    \31\ Wikipedia: 2010 Portland car bomb plot.
---------------------------------------------------------------------------
    Other useful data:
  <bullet> A 2007 Pew survey found that 24% of American Muslims aged 
        18-29 believe suicide bombings against civilians are 
        justifiable, at least sometimes.\32\
---------------------------------------------------------------------------
    \32\ Pew: ``Muslim Americans: Middle Class and Mostly Mainstream,'' 
May 22, 2007.
---------------------------------------------------------------------------
  <bullet> The Investigative Project on Terrorism: Homegrown Terrorist 
        research file.\33\
---------------------------------------------------------------------------
    \33\ Investigative Project on Terrorism: Homegrown Terrorism 
writings.
---------------------------------------------------------------------------
                      Appendix II--DOJ Stats Draft
          Islamists Dominate DOJ's List of Terror Prosecutions
               by the investigative project on terrorism

March 8, 2011
    More than 80 percent of all convictions tied to international 
terrorist groups and homegrown terrorism since 9/11 involve defendants 
driven by a radical Islamist agenda, a review of Department of Justice 
statistics shows.
    Though Muslims represent about 1 percent of the American 
population, they constitute defendants in 186 of the 228 cases DOJ 
lists.
    On Thursday, the House Homeland Security Committee holds its first 
hearing into radicalization among Muslim Americans. Critics have taken 
issue with the focus on one religious minority, but the DOJ list shows 
that radical Islamists are disproportionately involved in terror-
related crimes.
    Al-Qaeda is involved in the largest number of prosecutions, 
representing 30 percent of the 228 terror cases involving an identified 
group. Hizballah-affiliated defendants are involved in 10.5 percent of 
the cases and Hamas is part of 9 percent. Pakistani-based Lashkar-e-
Tayyiba was involved in 6.5 percent of the cases.
    The Tamil Tigers in Sri Lanka and the Colombian FARC leads the non-
Islamist terrorist groups, combining for 14 percent of the total.
    The Investigative Project on Terrorism analysis involved reviewing 
the Justice Department's list of more than 400 successful terrorism-
related prosecutions from Sept. 11, 2001, through March 18, 2010. Those 
cases that demonstrated defendants with a clear Islamist agenda were 
placed in that category, while those without a clear tie to radical 
Islam were excluded. In some cases, defendants with Arabic-sounding 
names were excluded from the Islamist category, because no definitive 
tie could be made.
    The cases are divided between those involving direct support for 
terrorist plots or organizations, and those where investigations 
``involved an identified link to international terrorism'' but the 
resulting charges involved charges such as fraud, immigration 
violations, firearms, drugs, false statements, and obstruction of 
justice.
    Among all cases, an Islamist connection was found in at least 46 
percent. An almost equal percentage, however, involved cases listed by 
the DOJ as terror-related, but in which there was insufficient 
information to determine whether a person was tied to an Islamist 
cause. In many, it was unclear why the case was included on a list of 
terror-related prosecutions.
    The list emphasizes international terror, so domestic extremist 
groups like the Hutaree militia and eco-terrorists are not included.
    Thirty of the terror cases listed, or about 13 percent, involve 
homegrown Islamist terrorists.
    As the DOJ statistics cover cases prosecuted through March 2010, a 
series of homegrown Islamist terrorist plots thwarted in the last year 
are not included. For example, Jordanian Hossam Smadi pleaded guilty in 
May 2010 to attempting to use a weapon of mass destruction to blow up 
Fountain Place, a well-recognized skyscraper in downtown Dallas. In 
September of 2009, Smadi parked a vehicle loaded with what he thought 
was a live bomb underneath the building. After moving several blocks 
away from the building, he used a cell phone to detonate the explosive 
device. Smadi was unaware that the device, provided by the FBI, was 
inert.
    The FBI gained interest in Smadi while monitoring a radical group 
on-line. According to the Government, Smadi's ``vehement intention'' to 
carry out terrorist attacks on U.S. soil separated him from others in 
the group. Smadi's statements exhibited his Islamist beliefs. ``To 
sacrifice in person is the best type of jihad,'' ``Oh how I love, my 
brothers, to perform jihad with you in the same rank, in the same field 
against the same enemy'' and statements of support for al-Qaeda leaders 
like Osama bin Laden are just some examples given in a criminal 
complaint.
    Similarly, the FBI arrested several men last fall in separate 
incidents who had attracted scrutiny due to their expressed desire to 
participate in violent jihad. Upon sending in agents to investigate 
further, the FBI discovered the men were all ready to take their 
rhetoric to the operational level. Farooque Ahmed plotted to attack the 
Washington, DC Metro system, Antonio Martinez targeted a military 
recruitment center in Maryland and Mohamed Osman Mohamud, tried to bomb 
a Portland, Ore. Christmas tree-lighting ceremony.
    Prosecutors say Ahmed had been ``inquiring about making contact 
with a terrorist organization in order to participate in jihad'' 
overseas. He told someone he thought was a terrorist operative that he 
wanted to kill Americans in Afghanistan. He replied ``of course'' when 
the operative asked whether he wanted to become a martyr.
    In a posting on his Facebook page, Martinez exclaimed that ``The 
sword is cumin the reign of oppression is about 2 cease inshallah 
ta'ala YA mulismeen! Don't except the free world we are slaves of the 
Most High and never forget it!''
    Mohamud attempted to contact an associate in Pakistan to make plans 
to travel abroad to prepare for violent jihad and wrote pieces for 
``Jihad Recollections,'' an on-line publication which condones violent 
jihad.
    Nor does the DOJ list include pending cases, like the prosecution 
of seven North Carolina men who tried to wage jihad abroad and then 
talked of shifting to domestic targets when that didn't work, and most 
of the prosecutions of more than 20 people charged with providing 
material support for the Somali terrorist group al-Shabaab.
    Examples of cases included in the DOJ list with direct ties to 
international terrorism include failed airplane bomber Umar Farouk 
Abdulmutallab and Lashkar-e-Tayyiba operative David Headley, who 
scouted targets for the 2009 Mumbai attacks.
    Cases not directly tied to terrorism but that indirectly helped aid 
terrorist activity, include Sabri Benkahla, who was convicted in 
February 2007 on charges of lying to a grand jury, obstruction of 
justice and making a false statement. Benkahla was part of the 
``Virginia jihad network'' of young Muslim men who played paintball to 
train for jihad against nations hostile to Islam, including the United 
States. The group's spiritual leader Ali Al-Timimi is serving a life 
sentence for inciting terrorist activity by urging followers to wage 
jihad against American forces in Afghanistan.
    In another case, Fawaz Damra, former imam of the Islamic Center of 
Cleveland, was convicted by a Federal jury in 2004 of lying on his 
naturalization application about his involvement with the Palestinian 
Islamic Jihad (PIJ), a designated terrorist organization. Evidence 
presented at his trial included a 1991 speech in which Damra called 
Jews ``the sons of monkeys and pigs'' and openly raised money for the 
PIJ. Damra was subsequently stripped off his U.S. citizenship and 
deported to the Palestinian territories.
    The DOJ list does not demonstrate that vast segments of the Muslim 
community constitute a threat to carry out terrorist attacks or support 
groups which do. Assuming a Muslim American population of about 5 
million people, the DOJ cases amount to .000004 percent of the 
community.
    However, it is clear that Islamist terrorist movements have been 
successful in getting support from extremists in the United States. As 
other recent hearings have shown, more sophisticated on-line 
recruitment has helped lure more people to seek jihad.
    Unless that trend changes, the DOJ data likely will grow even more 
disproportionate.
        Appendix III.--NYPD Report: Radicalization in the West*
---------------------------------------------------------------------------
    * Due to length, document has been retained in committee files.
---------------------------------------------------------------------------
              Appendix IV.--Radicalization Diagrams Poole

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Appendix V.--Caliphate and Radicalization
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Appendix VI.--Illusion of the Islamic State [Cover]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Appendix VII.--CAIR Photo Enlarged
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Appendix VIII.--AIFD Bylaws *
      
                  Appendix IX.--501(c)(3) IRS Letter *
      
             Appendix X.--Articles of Incorporation AIFD *
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
      


      THE THREAT OF MUSLIM-AMERICAN RADICALIZATION IN U.S. PRISONS

                              ----------                              


                        Wednesday, June 15, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:34 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, Rogers, Bilirakis, 
Walberg, Cravaack, Meehan, Quayle, Rigell, Long, Duncan, 
Marino, Farenthold, Brooks, Thompson, Jackson Lee, Cuellar, 
Clarke of New York, Richardson, Davis, Higgins, Speier, 
Richmond, Clarke of Michigan, and Hochul.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
hear testimony on the extent of radicalization of Muslim 
Americans in the United States' prison system.
    The Chairman wishes to remind our guests today that 
demonstrations from the audience, including the use of signs, 
placards, and T-shirts, as well as verbal outbursts, are 
violations of the rules of the House. The Chairman wishes to 
thank our guests for their cooperation in maintaining order and 
proper decorum.
    As far as proper decorum, let me welcome a new Member to 
our committee, Ms. Hochul of New York. It is always good to 
have another New Yorker on the committee.
    Even though you are on the other side of the aisle, we 
certainly welcome you and look forward to working with you. 
Thank you for your interest in this issue.
    I would also, at this time, make a unanimous consent 
request. Congressman Keith Ellison has asked to have a 
statement submitted into the record of the hearing.
    Without objection, so ordered.
    [The statement of Mr. Ellison follows:]

             Statement of Congressman Keith Ellison (MN-05)
                             June 15, 2011

    Chairman King, thank you for allowing me to submit this statement 
to the Congressional Record today. Thank you also for allowing me to 
testify at your last hearing on this subject, ``The Extent of 
Radicalization in the American Muslim Community.''
    As I said then, I do not agree with the premise of these hearings. 
Violent extremism is indeed a serious concern to all Americans, and is 
the legitimate business of this committee. However, this committee's 
approach to violent extremism is contrary to American values, and 
threatens our security. We need increased understanding and engagement 
with Muslim Americans, including ones who are incarcerated.
    Continuing to single out a religious or racial minority is no way 
to keep America safe. Instead of fostering understanding and engagement 
with Muslim-American communities, these hearings stigmatize them. 
Imagine a Congressional hearing entitled ``The Threat of Black 
Radicalization in U.S. Prisons,'' or ``The Threat of Jewish 
Radicalization in U.S. Prisons.'' The very title of this hearing 
presumes that ``Muslim Americans'' en masse are radicalized in U.S. 
prisons and pose a threat.
    The facts indicate that the opposite is true. In a recent analysis, 
Professor Charles Kurzman of the Triangle Center on Terrorism and 
Homeland Security found that Muslim-American radicalization in U.S. 
prisons is not a major threat to homeland security. The vast majority 
of Muslim-American terrorists since 9/11 did not spend time in U.S. 
prisons; of the 178 Muslim Americans involved in terrorism since 
9/11, only 12--or less than 10 percent--were former inmates.
    As someone with 16 years of experience as a criminal defense 
attorney, I know that religious instruction, including Islamic 
instruction, has had a beneficial impact on many inmates. Churches and 
mosques run prison-outreach programs, and prisons have generally been 
supportive of such initiatives. Many inmates report that studying Islam 
has helped them become law-abiding and more productive citizens. This 
hearing casts suspicion on Islamic outreach programs, which is sad. It 
interferes with the right of freedom of worship and could compromise 
the progress of outreach programs in creating calm, orderly prison 
environments.
    Unfortunately, the committee is committing precious resources to an 
issue that does not pose a significant threat to the homeland. As 
Professor Bert Useem will make clear in his testimony today, ``If 
prisons were a cause of jihad radicalization, even a a weak cause, then 
the country would be rife with terrorists.'' Of course that is not the 
case because the extent of Muslim-American radicalization in U.S. 
prisons is not significant. As Professor Useem concluded in his 2009 
Criminology & Public Policy study, ``The claim that prisons will 
generate scores of terrorists spilling out into the streets of our 
cities--the position described at the opening of this paper--seems to 
be false, or at least overstated.''
    Let me repeat that violent extremism is a serious concern of mine. 
I have worked closely with the Department of Homeland Security in my 
own Congressional district to minimize the threat of domestic terrorism 
in ways that do not alienate and stigmatize the Muslim-American 
community. I would be more than happy to meet with you if you would 
like to discuss these initiatives.

    Chairman King. Does the Ranking Member have any----
    Mr. Thompson. Yes, Mr. Chairman. I would also like to 
welcome our new Member from New York, who is on the right side 
of the committee. But I would also like to enter into the 
record letters regarding our hearing. I would also like to 
enter an article entitled ``Prison Islam and the Age of Sacred 
Terror''.*
---------------------------------------------------------------------------
    * The article has been retained in committee files, and is also 
available at http://bjc.oxfordjournals.org/content/49/5/667.abstract.
---------------------------------------------------------------------------
    Chairman King. So ordered.
    [The information follows:]
         Letter Submitted by Ranking Member Bennie G. Thompson
                                                     June 15, 2011.

The Honorable Peter King,
U.S. House Committee on Homeland Security, 339 Cannon House Office 
        Building, Washington, DC 20515.
    Dear Chairman King: The undersigned groups write to express our 
serious concern regarding the Committee on Homeland Security's upcoming 
hearing entitled, ``The Threat of Muslim-American Radicalization in 
U.S. Prisons.'' We are concerned that this inquiry will foster 
continuing misimpressions about and hate and prejudice toward the 
American Muslim community. We note that there is no credible evidence 
or expert research that Muslim prisoners pose a unique or particular 
threat.
    According to the witness list, there will be no officials called 
from the Federal Bureau of Prisons (``BOP'') or the U.S. Department of 
Justice for this hearing. We strongly urge you to reconsider this 
omission. A representative from the Department or the BOP would be in 
the best position to testify about current conditions and potential 
threats in the prison system from a system-wide perspective. There are 
also academic and other experts who have conducted system-wide studies. 
We are concerned that instead the invited witnesses will focus on 
isolated instances of violent extremism by former or current inmates 
who are Muslim, without the proper context of the threat of recidivism 
and violent extremism by all former or current inmates, regardless of 
faith background.
    Indeed, there are a number of problems in the U.S. prison system 
that are legitimate subjects of Congressional inquiry, such as 
disparities in sentences for people of color, overcrowding and 
dangerous conditions of confinement, and the lack of sufficient 
rehabilitation and reentry programs to reduce prisoner recidivism. 
Instead of focusing on these issues, solutions to which will only 
strengthen our criminal justice system and ensure public safety, the 
upcoming hearing is divisive and distracts from both our country's 
National security concerns and challenges faced by our prison systems.
    We urge the committee to rethink its decision to hold another 
hearing singling out a group of Americans based on their religious 
faith, and instead focus on serious examinations of the real threats to 
our National security.
            Sincerely,

Alliance for Justice
American Civil Liberties Union (ACLU)
American Muslim Voice Foundation
Arab American Association of New York
Arab Community Center for Economic and Social Services (ACCESS)
Arab Muslim American Federation
Asian American Justice Center, a member of the Asian American Center 
for Advancing Justice
Asian Law Alliance
Association of Muslim American Lawyers
Bay Area Association of Muslim Lawyers (BAAML)
Center for Media and Democracy
Coalition for Humane Immigrant Rights of Los Angeles (CHIRLA)
Council of Islamic Organizations of Greater Chicago (CIOGC)
Council of Islamic Organizations of Michigan (CIOM)
Council on American Islamic Relations--New York (CAIR-NY)
Counselors Helping (South) Asians, Inc. (CHAI)
Defending Dissent Foundation
Desis Rising Up & Moving (DRUM)
EMERGE-USA
Georgia Association of Muslim Lawyers
Interfaith Alliance
Islamic Circle of North America (ICNA)
Islamic Society of Greater Houston, Inc.
Japanese American Citizens League
Michigan Muslim Bar Association
Muslim Advocates
Muslim Bar Association of Chicago
Muslim Bar Association of New York
Muslim Bar Association of Southern California
Muslim Consultative Network
Muslim Lawyers Association of Houston, Inc.
Muslim Legal Fund of America
Muslim Peace Coalition USA
Muslim Public Affairs Council
National Asian Pacific American Women's Forum
National Network for Arab American Communities (NNAAC)
New England Muslim Bar Association
New Jersey Muslim Lawyers Association
Northern California Islamic Council
Ohio Muslim Bar Association
People For the American Way
Rights Working Group
Sikh American Legal Defense and Education Fund (SALDEF)
South Asian Americans Leading Together (SAALT)
South Asian Network (SAN)
Tennessee Immigrant and Refugee Rights Coalition
The National Immigration Project of the National Lawyers Guild
The Sentencing Project
The Sikh Coalition
TrikoneNorthwest
UNITED SIKHS
Women In Islam, Inc.
      
                                 ______
                                 
                     Statement of Muslim Advocates
                             June 15, 2011

    Muslim Advocates submits this written statement for the record of 
the U.S. House of Representatives, Committee on Homeland Security, 
hearing entitled, ``The Threat of Muslim-American Radicalization in 
U.S. Prisons.''
    Muslim Advocates (http://www.muslimadvocates.org) is a National 
legal advocacy and educational organization dedicated to promoting 
freedom, justice, and equality for all, regardless of faith, using the 
tools of legal advocacy, policy engagement, and education and by 
serving as a legal resource to promote the full participation of 
Muslims in American civic life. Founded in 2005, Muslim Advocates is a 
sister entity to the National Association of Muslim Lawyers, a network 
of Muslim American legal professionals. Muslim Advocates seeks to 
protect the founding values of our Nation and believes that America can 
be safe and secure without sacrificing Constitutional rights and 
protections.
    Congress has a solemn responsibility to examine threats to our 
National security. Any such inquiry, however, must be undertaken with 
great care to ensure that no ethnic, racial, or religious group is 
singled out for scrutiny based on the actions of individuals within 
that community. As U.S. Attorney General Eric Holder stated earlier 
this year when asked whether the Committee on Homeland Security's 
hearing held on March 10, 2011, on the radicalization of the American 
Muslim community could polarize Americans, ``[m]y focus is on 
individuals as opposed to communities and I think that is what we need 
to be focused on . . . We don't want to stigmatize, we don't want to 
alienate entire communities . . .''\1\
---------------------------------------------------------------------------
    \1\ See Jason Ryan, Holder Criticizes Tone and Focus of Rep. King 
Hearings on Muslim Radicalization, ABC News The Note Blog, Mar. 9, 
2011, http://blogs.abcnews.com/thenote/2011/03/holder-criticizes-tone-
and-focus-of-rep-king-hearings-on-muslim-radicalization.html.
---------------------------------------------------------------------------
    Despite the multitude and range of pressing National security 
issues facing our country, this committee continues to expend valuable 
time and resources by holding hearings that single out and focus 
entirely on one faith community, American Muslims. Indeed, today's 
hearing on the threat of American Muslim radicalization in U.S. prisons 
is being held despite a lack of evidence that former or current 
American Muslim prisoners poses a special or particular threat. As a 
result, this committee is poised to perpetuate and exacerbate hate and 
prejudice towards American Muslims, specifically American Muslim 
prisoners.
    As with this committee's prior hearing on the ``radicalization'' of 
American Muslims, this hearing does not feature witnesses that are the 
best situated to speak to the topic. The committee has called no 
current officials from the Federal Bureau of Prisons, the U.S. 
Department of Justice, or any other State or Federal prison system. 
Officials from these agencies are most knowledgeable about potential 
threats from prisoners and whether current conditions in the prison 
system give rise to National security concerns.
    Rather than rely on facts and experts, the testimony of three of 
the witnesses focuses on isolated, anecdotal instances of violent 
extremism by former or current inmates who are Muslim. This anecdotal 
testimony also makes broad unsubstantiated statements about the 
propensity of American Muslim prisoners towards violence. These 
statements are made without context of the threat of recidivism and 
violent extremism by all former or current inmates, regardless of faith 
or ideological background.
    Furthermore, as Bert Useem, the fourth witness and a professor of 
sociology who has actually studied the U.S. prison system, concludes, 
``U.S. prisons are not systematically generating a terrorist threat to 
the U.S. homeland.''\2\ The witness testimony does not demonstrate that 
Muslim prisoners pose a special or unique threat to our Nation's 
security that would warrant an exclusive Congressional hearing. In 
fact, many of the plots discussed by the witnesses in their testimony 
as examples of Muslims who are being ``radicalized'' in prison, are 
akin to criminal activities organized and executed by white supremacist 
groups and street gangs--all groups that exploit and capitalize on the 
prison environment. As it would be inappropriate to hold a 
Congressional hearing targeting the entire faith, ethnic, or racial 
communities of Neo-Nazi prison gang or drug cartel members, so too is 
it inappropriate to extrapolate the criminal activity of a few Muslim 
prisoners onto the larger American Muslim prison population and all 
American Muslims.
---------------------------------------------------------------------------
    \2\ See Bert Useem. Statement to the House, Committee on Homeland 
Security. The Threat of Muslim-American Radicalization in U.S. Prisons, 
Hearing, June 15, 2011.
---------------------------------------------------------------------------
    This hearing will only feed the public's fear and bias against 
American Muslims. Last year our Nation experienced a marked increase in 
anti-Muslim sentiment, which continues to rise as American Muslims are 
targeted for scrutiny by politicians and officials looking for 
political gain. This anti-Muslim bigotry has real life and death 
consequences for Muslims and those perceived to be Muslim. American 
Muslims have been subjected to hate crimes and violence, including 
vandalism and arson of mosques, physical attacks, bullying of American 
Muslim children in schools, and attempted murder.
    American Muslim prisoners are not immune to this anti-Muslim 
sentiment and discriminatory targeting. Last year, the Center for 
Constitutional Rights (``CCR'') filed a lawsuit on behalf of Muslim 
Federal prisoners challenging Communication Management Units--prisoner 
units designed to isolate and segregate certain prisoners, banning them 
from any physical contact with visitors and severely restricting 
communication with other prisoners and individuals on the outside.\3\ 
Approximately 60-70 percent of the prisoners held in these units are 
Muslim, despite Muslims representing only 6 percent of the general 
Federal prison population.\4\ CCR found that many prisoners are sent to 
these units for exercising Constitutionally-protected religious beliefs 
or unpopular political views, based on stereotypes, political 
scapegoating, and religious profiling.\5\ This hearing will only 
perpetuate the myth that American Muslim prisoners pose a special 
threat to our National security and prison system that would justify 
discriminatory treatment.
---------------------------------------------------------------------------
    \3\ See Center for Constitutional Rights, CMUs: The Federal Prison 
System's Experiment in Social Isolation, available at http://
ccrjustice.org/cmu-factsheet.
    \4\ Id.
    \5\ Id.
---------------------------------------------------------------------------
    Additionally, we are concerned that focusing on American Muslim 
prisoners casts a net of suspicion that will follow them upon release, 
making their reentry and reintegration into society that much more 
difficult. Rehabilitation and reentry programs are vital for a 
prisoner's successful reintegration after incarceration, with faith-
based reentry programs and social and religious networks providing 
important resources for many prisoners. That is why unsubstantiated 
assertions that most of the programs for Muslims transitioning out of 
the prison system are sponsored by mosques with extremists leanings are 
detrimental; they cast suspicion on both the prisoner and the faith 
community that is helping decrease the chance of recidivism.
    Congress has a solemn duty to wield its power responsibly and take 
great care when spotlighting an issue for inquiry. Providing a public, 
Government platform where erroneous and inflammatory views are promoted 
is not without consequence. The American public takes cues from 
Congress, and generating fear and hysteria can lead to hate-motivated 
crimes, harassment, and discrimination. We urge the committee to 
refrain from holding further hearings that single out a group of 
Americans based on their religious faith, and instead focus on serious 
examinations of the real threats to our National security.
                                 ______
                                 
 Statement of Rev. Dr. C. Welton Gaddy, President, Interfaith Alliance
                             June 15, 2011

    As a Baptist minister, a patriotic American and the President of 
Interfaith Alliance, a National, non-partisan organization that 
celebrates religious freedom and is dedicated to protecting faith and 
freedom and whose 185,000 members Nation-wide belong to 75 faith 
traditions as well as those without a faith tradition, I submit this 
testimony to the House Committee on Homeland Security for the record of 
the hearing on ``The Threat of Muslim-American Radicalization in U.S. 
Prisons.''
    As I noted in my testimony for this committee's hearing into the 
``Extent of Radicalization in the American Muslim Community'' just 3 
months ago, by singling out one particular religion for investigation, 
these hearings fly in the face of religious freedom as it is enshrined 
in the First Amendment to our Constitution. Furthermore, this hearing 
is not only the wrong answer to the wrong question, but there appears 
to be little factual basis to necessitate this line of inquiry and in 
the end, this series of hearings may only perpetuate the problems the 
Homeland Security Committee seeks to solve, as well as add to a 
disturbing climate of anti-Muslim sentiment extant in America today.
    Freedom of religion as guaranteed by the First Amendment protects 
the freedom of all Americans to believe in any religious faith, as they 
choose, without fear of criticism, retribution, or investigation 
because of it. In our Nation, all people and all faiths are equal with 
none favored over any other. Many incarcerated individuals turn their 
religion or find new faith while repaying their debt to society and 
indeed doing so can have positive results in many cases. Furthermore, 
the chaplains in our Nation's prisons serve an important role, 
facilitating the free exercise rights of prisoners. All Americans have 
the right to practice their faith or to pursue a different religious 
tradition should they choose; this is an integral part of American 
democracy just as rehabilitation and effective reentry are important 
parts of our criminal justice system. And any suggestion that clergy 
should have to pass some sort of values test of their own religion is a 
serious attack on our First Amendment.
    There is no doubt that our Nation faces serious threats to its 
security both at home and abroad, but the continued demonization of 
Muslims and questioning of the Muslim faith is not the answer. I fear 
that this approach is misguided and will only result in further 
alienating the American Muslim community. Terrorism is a real threat 
that requires serious investigation based on fact. At the same time, 
conducting hearings into what is being presented as a major trend of 
``radicalization'' in the Muslim community that leads to violence when 
there is little to no evidence to support that claim, is also a real 
threat. Posing questions like ``whether the American Muslim community 
is becoming radicalized''--whether supposedly occurring in prisons or 
in houses of worship--has the dangerous potential to intensify, rather 
than to lessen, prejudice toward Muslims.
    There exists in our country today a pervasive and unsettling trend 
of anti-Muslim fear, bigotry, and rhetoric and a general lack of 
understanding of the real differences between Islamic extremists who 
commit acts of terrorism and non-violent adherents to Islam. Targeting 
one particular faith for scrutiny when the overwhelming majority of 
that faith's adherents in this country are peaceful, law-abiding 
citizens seems counterproductive and just plain wrong. It is the 
responsibility of our elected officials to promote reason, truth, and 
civility in the public forum--especially at a time when Islamophobia is 
on the rise--not to waste time and public resources on victimizing 
select groups.
    Interfaith Alliance's work is driven by the fundamental principle 
that protecting religious freedom is most critical in times of crisis 
and controversy. Even the most basic knowledge of the history of the 
First Amendment includes the understanding that religious freedom 
exists in part to protect the rights of the minority from what Alexis 
de Tocqueville not unrealistically called the tyranny of the majority. 
In fact, it would not be a stretch to say that if our Founding Fathers 
had relied on polling data, the First Amendment might not exist at all. 
Unfortunately, in today's political climate, it may not ensure an 
``electoral win'' to defend the rights of the American Muslim community 
and the Muslim chaplains who give their lives to serving the least 
among us, but there is no question that it is the right thing to do.
    Thank you for the opportunity to submit testimony on this important 
issue.

    Chairman King. Today, we hold the second in a series of 
hearings on radicalization in the Muslim-American community, 
specifically on the important issue of the threat of Islamic 
radicalization in U.S. prisons.
    I welcome our distinguished panel of witnesses. They have 
first-hand insights into this problem. We appreciate their 
willingness to share their experiences with the committee, both 
our witnesses and your witness, Mr. Ranking Member.
    This issue of Islamic radicalization in U.S. prisons is not 
new. In fact, this is the third Congressional hearing on this 
problem in recent years. It is a hearing which is necessary 
because the danger remains real and present, especially because 
of al-Qaeda's announced intention to intensify attacks within 
the United States.
    A number of cases since September 11 have involved 
terrorists who converted to Islam or were radicalized to Islam 
in American prisons, then, subsequently, attempted to launch 
terror strikes here in the United States upon their release 
from custody.
    They have also carried out terrorist attacks overseas. Just 
last year, Senator John Kerry, Chairman of the Senate Foreign 
Relations Committee, released a report which said, ``Three 
dozen U.S. citizens who converted to Islam while in prison have 
traveled to Yemen possibly for al-Qaeda training.''
    I will say that again. Dozens of ex-cons who became 
radicalized Muslims inside U.S. prisons have gone to Yemen to 
join an al-Qaeda group run by a fellow American, Anwar al-
Awlaki, whose terrorists have attacked the U.S. homeland 
several times since 2008, and are generally acknowledged to be 
al-Qaeda's most dangerous affiliate.
    There are other cases such as Farah Mohamed Beledi, a 27-
year-old Somali-American from Minneapolis, who has been 
indicted in Federal court for fighting in Somalia as part of Al 
Shabaab.
    According to family members and court records, Beledi was a 
gang member who had been convicted for a number of crimes 
including assault with a deadly weapon. Upon being released 
from prison where he was radicalized, he began attending the 
As-Saddique Islamic Center in Minneapolis and was soon on his 
way to fight in Somalia.
    The Obama administration recognizes prison radicalization 
as a serious threat and that prisons are fertile grounds for 
recruitment. Last week, the Department of Homeland Security 
announced that Secretary Janet Napolitano and other State and 
local anti-terror partners are, ``Collaborating to develop a 
mitigation strategy for terrorist use of prisons for 
radicalization and recruitment.''
    The reality of the radicalization threat emanating from our 
prisons was demonstrated again last month when Michael Finton, 
who was radicalized in an Illinois State prison, pleaded guilty 
in Illinois to attempted use of a weapon of mass destruction.
    Finton was planning to assassinate our colleague, 
Representative Aaron Schock, and destroy the Federal courthouse 
and office building in Springfield, Illinois.
    Tomorrow in New York, James Crometie, who was radicalized 
in a New York prison, is scheduled to be sentenced for his 
leading role in a conspiracy to attack troop transports at an 
Air National Guard base in Newburgh, New York, and to attack a 
synagogue and Jewish community center in New York City.
    Finton and Crometie are not alone. Today, we will hear 
about Kevin James, a radicalized former Nation of Islam 
follower, who formed a Jihadi group called JIS, and hatched a 
terror plot from behind bars at California's Folsom Prison.
    It was not just aspirational. It was operational, spreading 
from the prison to a local mosque, and resulting in a plot to 
attack a U.S. military recruiting center on the 9/11 
anniversary and a Jewish temple on Yom Kippur.
    Jose Padilla, known as the dirty bomb plotter, converted to 
Islam in a Florida jail. While on the inside, Padilla met a 
fellow inmate who led him to a radical mosque.
    Padilla eventually moved to the Middle East and joined al-
Qaeda. He was sent back to the United States in 2002 to attack 
our homeland with a bomb made of radioactive material and 
ignite gas in apartment buildings to bring them down.
    Prison radicalization is not unique to the United States. 
Last week, the British home secretary emphasized the growing 
threat of Islamic radicalization and unveiled its new counter-
radicalization strategy to thwart terrorist recruitment behind 
bars.
    Just as homegrown al-Qaeda terrorist attacks in Britain, 
including the 2005 subway attacks in London, the 2006 liquid 
explosives plot to blow up American planes flying out of 
Britain, and the 2007 car bomb attack on the Edinburgh airport 
were emulated several years later in the United States with the 
attempted New York subway bombings in September 2009, the Fort 
Hood murders in November 2009, and the attempted Times Square 
bombing in May 2010, we must assume the same with prison 
radicalization.
    I have repeatedly said that the overwhelming majority of 
Muslim Americans are outstanding Americans. Yet, the first 
radicalization hearing which this committee held in March of 
this year was met by much mindless hysteria led by radical 
groups such as the Council of Islamic Relations and their 
allies in the liberal media, personified by the New York Times.
    Countering Islamic radicalization should not be a partisan 
issue. I would urge my Democratic colleagues to rise above 
partisan talking points. I am here to work with the Obama 
administration.
    Remember, it was the President's own deputy national 
security adviser, Denis McDonough, who said just 3 months ago 
that, ``al-Qaeda is increasingly attempting to recruit and 
radicalize people to terrorism here in the United States. The 
threat is real and it is rising. Al-Qaeda is trying to convince 
Muslim Americans to reject their country and their fellow 
Americans.''
    That was the President's deputy national security adviser.
    As I mentioned previously, the Department of Homeland 
Security is formulating a comprehensive plan to stop terrorist 
radicalization and recruitment in America's prisoners.
    So I ask the Democratic members to join with the Obama 
administration in acknowledging the reality and the severity of 
these threats and work with us here in the committee. We look 
forward to your assistance.
    Again, I thank the witnesses for being here today. I look 
forward to your testimony.
    I recognize the distinguished Ranking Member from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I welcome our panel of witnesses today.
    As you know, the United States has the highest 
incarceration rate in the world. More than 2.3 million people 
are locked up in America. Approximately one-third of these 
prisoners claim some form of religious affiliation.
    Islam is the fastest growing religion among prisoners. 
About 80 percent of those who join a religion while in prison 
turned to Islam. Multiple studies show that the typical inmate 
who converts to Islam is poor, black, upset about racism, and 
not particularly interested in the Middle East politics.
    In preparation for this hearing, my staff spoke with the 
representatives from the Bureau of Prisons, the State prison 
officials from across the country. I regret that none of them 
are here to testify today.
    The Bureau of Prisons and the State officials informed us 
that they routinely require religious staff, including imams, 
rabbis, and priests, to undergo rigorous vetting, including 
verification of religious credentials, background checks, and 
personal interviews.
    They told us that any religious book and recorded message 
used must be screened and that guards monitor the services.
    When we asked about radicalization by outside influences, 
they told us that prisoners do not have internet access and all 
non-legal mail is opened, read, and sometimes censored.
    Judging from these accounts, it would seem that 
opportunities for radicalization are few.
    The evidence bears that out. According to the Congressional 
Research Service, of the 43 violent attacks carried out by 
Muslims since 9/11, there were only two clear cases of 
radicalized released prisoners plotting a terrorist act.
    Judging from this evidence, I think it is safe to conclude 
that the risk of terrorism originating from Muslim converts in 
U.S. prisons is small.
    Limiting this committee's oversight of radicalization to 
one religion ignores threats posed by violent extremists of all 
stripes. There are other threats to be concerned about.
    According to the National Gang Intelligence Center, a study 
on January 2009, approximately 147,000 documented gang members 
are incarcerated in Federal, State, and local jails. Intact and 
operational gangs within these prisons pose a security threat 
not only within prison walls, but also in our communities.
    The ability of leaders of these criminal enterprises to 
control and direct operations outside of prisons should not be 
ignored.
    Further, the violent right-wing ideology of many of these 
gangs must be discussed. Let us not forget that James Byrd was 
dragged to his death on a back road in Texas by right-wing gang 
members who were radicalized in jail.
    Clearly, the willingness to use violence, undermine order, 
and commit mayhem is not dependent on religious belief or 
political ideology.
    In May, the committee held a hearing assessing the threat 
to the Nation's security following the death of Osama bin 
Laden. At that hearing, we learned about terrorists' 
aspirations to launch attacks to the United States.
    Earlier this month, Adam Gadahn, an American-born spokesman 
for al-Qaeda, released a video calling on Muslims to commit 
violent acts against America by taking advantage of the gun 
show loophole.
    Gadahn told his viewers that in this country you can buy a 
fully automatic assault rifle without a background check at 
most local gun shows. He is correct. In March, the GAO reported 
that almost 250 people on the terror watch list were cleared to 
purchase firearms last year alone.
    In that hearing, the expert testimony underscored that our 
greatest threat may be from lone wolves and solitary actors. 
Gadahn's video has given these potential actors encouragement, 
advice, and a road map.
    Mr. Chairman, as we consider threats to this Nation's 
security, let us focus on eliminating known security gaps. We 
are not endangered by people who are already locked up.
    In assessing risk, we must look at the evidence. We are 
placed at risk by gangs who use prisons as a base of criminal 
operations. We are placed at risk by lone wolves exploiting the 
gun show loophole.
    I look forward to working with you on your legislation to 
close this known security gap. Working together, we can reduce 
the risk to our Nation from dangerous people roaming the 
streets of America.
    I yield back.
    [The statement of Ranking Member Thompson follows:]

        Prepared Statement of Ranking Member Bennie G. Thompson
                             June 15, 2011

    The United States has the highest incarceration rate in the world. 
More than 2.3 million people are locked up in America.
    Approximately one-third of these prisoners claim some form of 
religious affiliation. Islam is the fastest-growing religion among 
prisoners. About 80 percent of those who join a religion while 
imprisoned turn to Islam.
    Multiple studies show that the typical inmate who converts to Islam 
is poor, Black, upset about racism, and not particularly interested in 
Middle East politics.
    In preparation for this hearing, my staff spoke with 
representatives from the Bureau of Prisons and State prison officials 
from across the country. I regret that none of them are here to testify 
today.
    The Bureau of Prisons and the State officials informed us that they 
routinely require religious staff, including imams, rabbis, and priests 
to undergo rigorous vetting, including verification of religious 
credentials, background checks, and personal interviews.
    They told us that any religious books and recorded messages used 
must be screened and that guards monitor the services. When we asked 
about radicalization by outside influences, they told us that prisoners 
do not have internet access and all non-legal mail is opened, read, and 
sometimes censored.
    Judging from these accounts, it would seem that the opportunities 
for radicalization are few.
    The evidence bears that out. According to the Congressional 
Research Service (CRS), of the 43 violent attacks carried out by 
Muslims since 9/11, there are only two clear cases of radicalized 
released prisoners plotting a terrorist act.
    Judging from this evidence, I think it is safe to conclude that the 
risk of terrorism originating from Muslim converts in U.S. prisons is 
small.
    Limiting this committee's oversight of radicalization to one 
religion ignores threats posed by violent extremists of all stripes.
    There are other threats to be concerned about. According to the 
National Gang Intelligence Center, as of January 2009, approximately 
147,000 documented gang members are incarcerated in Federal, State, and 
local jails.
    Intact and operational gangs within these prisons pose a security 
threat not only within prison walls but also in our communities. The 
ability of leaders of these criminal enterprises to control and direct 
operations outside of prison should not be ignored.
    Further, the violent right-wing ideology of many of these gangs 
must be discussed. Let us not forget that James Byrd was dragged to his 
death on a back road in Texas by right-wing gang members who were 
radicalized in jail.
    Clearly, the willingness to use violence, undermine order, and 
commit mayhem is not dependent on religious belief or political 
ideology.
    In May, the committee held a hearing assessing the threat to the 
Nation's security following the death of Osama bin Laden. At that 
hearing, we learned about terrorists' aspirations to launch attacks in 
the United States.
    Earlier this month, Adam Gadahn, an American-born spokesman for al-
Qaeda, released a video calling on Muslims to commit violent acts 
against America by taking advantage of the gun show loophole. Gadahn 
told his viewers that ``in this country you can buy a fully automatic 
assault rifle without a background check at most local gun shows.''
    He is correct. In March, the GAO reported that almost 250 people on 
the terror watch list were cleared to purchase firearms last year 
alone.
    In that hearing, the expert testimony underscored that our greatest 
threat may be from lone wolves and solitary actors.
    Gadahn's video has given these potential actors encouragement, 
advice, and a roadmap.
    Mr. Chairman, as we consider threats to this Nation's security, let 
us focus on eliminating known security gaps. We are not endangered by 
people who are already locked up. In assessing risk, we must look at 
the evidence.
    We are placed at risk by gangs who use prisons as a base of 
criminal operations. We are placed at risks by lone wolves exploiting 
the gun show loophole. I look forward to working with you on your 
legislation to close this known security gap.
    Working together, we can reduce the risks to our Nation from 
dangerous people roaming the streets of America.

    Chairman King. I thank the Ranking Member for his 
statement.
    Now, we will hear from the witnesses.
    I would ask each witness to try to keep their opening 
statement to 5 minutes, and then they will be followed by a 
series of questions from the Members of the panel.
    Our first witness this morning is Patrick Dunleavy, retired 
deputy inspector of the Criminal Intelligence Unit of the New 
York Department of Corrections.
    During his service, Mr. Dunleavy investigated terrorist 
recruitment in New York State prisons. He is the author of an 
upcoming book, ``The Fertile Soil of Jihad: Prison's Terrorism 
Connection''.
    I would add that Mr. Dunleavy also has a very long and 
distinguished record prior to his activities in countering 
terrorism, working undercover, and is, again, doing an 
outstanding job in the New York State criminal justice system.
    With that, I recognize Mr. Dunleavy for 5 minutes.

  STATEMENT OF PATRICK T. DUNLEAVY, DEPUTY INSPECTOR GENERAL 
 (RET.), CRIMINAL INTELLIGENCE UNIT, NEW YORK STATE DEPARTMENT 
                    OF CORRECTIONAL SERVICES

    Mr. Dunleavy. Chairman King, Ranking Member Thompson, 
distinguished Members of the committee, it is a privilege to 
appear today before you to discuss the threat of radicalization 
in U.S. prisons.
    The prison population is vulnerable to radicalization by 
the same agents responsible for radicalizing Americans outside 
of the prison walls.
    Despite appearances, prison walls are porous. Outside 
influences access those on the inside, and inmates reach from 
the inside-out. Individuals and groups that subscribe to 
radical Islamic ideology have made sustained efforts to target 
inmates for indoctrination.
    In 1968, a Sunni group was founded called Dar-ul Islam. One 
of its goals was to establish a mosque in every prison that 
would adhere to its ideology exclusively.
    Two of its first converts in the New York State prison 
system were Warith Deen Umar and Jamil Al Amin. Al Amin is 
regarded as the spiritual leader of the movement despite the 
fact that he is currently serving a life sentence for shooting 
two police officers.
    Dar-ul's Detroit, Michigan, branch was led by imam Luqman 
Abdullah, who died in an October 2009 shootout with FBI agents 
seeking to arrest him. Luqman himself did time in prison prior 
to his conversion to this form of Islam.
    As this ideology moved through the correctional system in 
the 1970s and 1980s, it gained increasing number of converts. 
Eventually, the Sunni/Salafist ideology was the dominant force 
in the prison mosques.
    Then, in the late 1980s and 1990s, there was an influx of 
foreign-born inmates from the Middle East, some of whom were 
incarcerated for having committed violent acts against non-
believers, individuals who had either killed, bombed, or stolen 
money in the name of Allah. They had international connections 
with terrorist organizations such as Egyptian Islamic Jihad, 
al-Qaeda, Hezbollah, and Hamas.
    After they were arrested and incarcerated, they walked into 
the prison mosque and were hailed as heroes. They were inspired 
to deference by the Muslim inmates and by the Muslim chaplains.
    Some of them were given a position by the civil service 
chaplain as their administrative clerks. This gave them access 
to a phone that was not monitored by security personnel, which 
allowed them to make calls throughout the United States and 
overseas.
    One of them, el-Sayyid Nosair, while serving a sentence in 
Attica Correctional Facility, conspired with other individuals 
on the outside to bomb the World Trade Center in 1993.
    The Jihad had come to America, and one of its architects 
was an inmate.
    In 1999, several law enforcement agencies received 
information regarding radical Islamic activity in the prison 
system and specifically detailing recruitment efforts within 
the prison.
    Authorities learned of a Jordanian-born inmate who 
identified himself as a follower of Osama bin Laden and said 
that his group was interested in recruiting inmates in the U.S. 
prisons.
    He stated that his group intended to get inmates trained in 
the Middle East after their release from prison and then have 
them return to the United States to participate in Jihad. Not 
surprisingly, the Jordanian-born inmate's prison job was a 
chaplain's clerk.
    The initial exposure to extremist Jihadi Islam may begin in 
prison. However, it often matures and deepens after the 
release. 2009, four ex-inmates were arrested for plotting to 
bomb synagogues in New York and shoot down military aircraft 
with Stinger missiles.
    They did not know each other while they were incarcerated, 
but they met each other after their release while attending a 
local mosque connected to a prison ministry. That mosque had 
been founded by Warith Deen Umar.
    In 2003, Warith Deen Umar gave an interview. Now, Warith, 
at the time, had retired from the New York State Department of 
Corrections, where he was the director of ministerial services. 
In his interview, he went on to call the 9/11 hijackers heroes.
    He went on to say, ``Without justice, there will be warfare 
and it can come to this country, too.''
    He said the natural candidates to help press such an attack 
in his view are African-Americans who embrace Islam in prison. 
In other words, prisons were a prime place to recruit 
terrorists.
    As a result of that, the Department of Justice launched an 
investigation into the hiring of Islamic clergy. In its report, 
among its recommendations, they said that there was a need for 
a verifiable ecclesiastic body that would certify Islamic 
clergy prior to hiring.
    To this date, no organization has been appointed to fulfill 
that role, nor has there been any formal determination as to 
how a vetting process would take place, or what the standards 
of vetting would be.
    The result of that inaction brings forth two cases. A New 
York City Corrections imam, who was hired in 2007, was arrested 
in 2010 for attempting to smuggle dangerous contraband into the 
Manhattan House of Detention.
    In an administrative hearing in March of this year, Imam 
Shahid asked for his job back. Shahid was formerly known as 
Paul Pitts and had spent 14 years in a New York State prison 
for murder.
    How was he hired?
    New York City Corrections was aware of his criminal history 
when they did the background check, and they said that although 
a felony conviction would disqualify a person from becoming a 
correction officer, that rule did not apply when hiring a 
chaplain.
    The only civil service requirement was a certification of 
an endorsement body. The city, in this case, relied on the 
Majlis Ash Shura of New York.
    That organization is connected with the Muslim Alliance of 
North America, who lists among their leadership Luqman Abdullah 
and Jamil al Amin.
    The same organization also certified another prison imam, 
Osameh Al Wahaidy. In 2003, Osameh Al Wahaidy was indicted by 
the U.S. attorneys office in New York for providing material 
support to a suspected Sunni organization in Iraq. The inmates' 
clerk at the time was a convicted Islamic terrorist.
    Jihadi literature finds its way into prison even though it 
is prohibited. Anything can be gotten in prison.
    Chairman King. So maybe you could try to wrap it up. About 
20 seconds left.
    Mr. Dunleavy. Anything can be gotten in prison, including a 
PDA or a smart phone. I would not be surprised to find a copy 
of al-Qaeda's Inspire magazine in any of the prisons.
    I will just close my comments at that point. Thank you very 
much for allowing me to speak.
    [The statement of Mr. Dunleavy follows:]

               Prepared Statement of Patrick T. Dunleavy
                             June 15, 2011

    Chairman King, Ranking Member Thompson, distinguished Members of 
the House Committee on Homeland Security, it is a privilege to appear 
before you today to discuss the connection between radicalizing agents, 
both inside and outside of the prison system, and terrorist activity, 
and to describe some of the long-time, under-addressed vulnerabilities 
in the corrections system that have made it possible for radical 
Islamist ideology to become embedded. I also welcome the opportunity to 
propose policy solutions to interdict and mitigate the results of 
exposure to militant ideology that has driven some convicted felons to 
commit deadly attacks.
    The prison population is vulnerable to radicalization by the same 
agents responsible for radicalizing Americans outside of the prison 
walls. Despite appearances, prison walls are porous. It is easy for 
outside influences to access those on the inside, and for inmates to 
reach from the inside out. As the former Deputy Inspector General of 
the Criminal Intelligence Division in the New York State Department of 
Corrections, I am aware that individuals and groups that subscribe to 
radical, and sometimes violent, ideology have made sustained efforts 
over several decades to target inmates for indoctrination. Some of 
these groups act as the certifying bodies responsible for hiring imams 
into the prison system, thus affording them continuous access to the 
prison population. In addition, the cycle of radicalization continues 
through post-release programs.

       THE RISE OF RADICAL ISLAMIST IDEOLOGY IN THE PRISON SYSTEM

    In 1968 a little known mosque in Brooklyn, New York, called Dawood, 
became home to a movement called Dar-ul Islam. The Sunni group was 
founded with the belief that African-Americans needed to transform 
every aspect of their lifestyle in order to cement them to the ``real 
foundations of the worldwide Islamic revival.'' One of its goals was to 
establish a mosque in every prison that would adhere to the true 
fundamentals of the Islamic religion.
    Two of the first converts to Dar-ul Islam in the New York State 
Prison System were Gene Marks, now known as Warith Deen Umar, who later 
became the head of Ministerial Services for the New York State 
Department of Corrections, and H Rap Brown, now known as Jamil Al Amin, 
who is regarded as the spiritual leader of the Dar-ul movement, even 
though he is currently serving a life sentence in Supermax prison for 
shooting two Fulton County, Georgia police officers. In al-Qaeda's 4th 
edition of Inspire magazine, Jamil al Amin is listed as a political 
prisoner and faithful mujahid.
    As the Dar-ul Islam ideology moved through the correctional system 
in the 1970's & 1980's it gained an increasing number of converts. 
Eventually, the Sunni/Salafist ideology was the dominant force in the 
prison mosques.
    One present-day cover group of Dar-ul is ``The Ummah.'' Its 
Detroit, Michigan branch was led by Luqman Abdullah, who died in an 
October 2009 shootout with FBI agents seeking to arrest him and several 
of his followers on charges of fencing stolen goods and illegal gun 
dealing. Luqman himself did time in prison prior to his conversion to 
Islam. The Ummah's stated objective is to establish an Islamic state 
within the borders of the United States that will be ruled according to 
Shariah law. Abdullah believed that succeeding in this goal would only 
be achieved through violent confrontation with the U.S. Government, and 
so the Ummah's Detroit mosque was not only used for prayers but also 
for weapons training.\1\
---------------------------------------------------------------------------
    \1\ Daveed Gartenstein-Ross and Madeleine Gruen, ``The Shooting of 
Luqman Abdullah,'' November 2009, http://www.defenddemocracy.org/
index.php?option=com_content&task=view&- id=11787260&Itemid=105.
---------------------------------------------------------------------------
    Then, in the late 1980's & 1990's there was an influx of foreign-
born inmates from the Middle East, some of whom were incarcerated for 
having committed violent acts against ``non-believers.'' Individuals 
like El Sayyid Nosair, Rashid Baz, Yousef Saleh, and Abdel Zaben had 
either killed, bombed, or stolen money in the name of Allah. They had 
firebombed Jewish businesses or opened fire on a van-load of Hasidic 
students. They had kidnapped and they had assassinated all for the 
cause of their brand of Islam. They had international recognition and 
connections with various radical terrorist organizations, such as 
Egyptian Islamic Jihad, al-Qaeda, Hezbollah, and Hamas. After they were 
arrested and incarcerated they walked into the prison mosque and were 
hailed as heroes. They inspired deference from the Muslim inmates and 
the Muslim chaplains. Many were more fluent in Arabic, had true 
knowledge of the Koran, and had proven their commitment to their 
particular derivation of Islam by committing the aforementioned crimes 
against the ``enemies of Islam.'' Some of them were given a position by 
the civil service chaplain to be their administrative clerks. This 
meant more freedom of movement throughout the prison as well as access 
to the Chaplain's phone. This gave them the ability to call anywhere in 
the world without the call being subject to monitoring by prison 
security personnel.
    One of them, El Sayyid Nosair, who, while serving a sentence in the 
Attica Correctional Facility for charges connected to the assassination 
of Rabbi Meyer Kahane, conspired with others on the outside to send a 
truck bomb into the World Trade Center in 1993. The jihad had now come 
to America, and one of its architects was an inmate.
    Following the arrest and prosecution of those responsible for the 
first World Trade Center attacks, all of the defendants, including 
Nosair were transferred to the Federal Bureau of Prisons, and, as a 
result, the subject of inmate radicalization/terrorism dropped from the 
attention of criminal justice and prison administrators. But it was not 
dormant in the inmate general population.
    In 1999, 2 years prior to 9/11, several law enforcement agencies 
received information regarding radical Islamist activity in the prison 
system. The first of these incidents occurred in February 1999. At that 
time, both the FBI and the Inspector General's Office for the New York 
State Department of Correctional Services received information 
specifically detailing recruitment efforts within prison.
    The information, from confidential informants, named individuals 
associated with the 1993 plot to destroy New York City landmarks and 
the first attack on the World Trade Center, along with several members 
of a domestic terrorist organization already serving time for the 
Brinks robbery. The intelligence also implicated a Pakistani national 
and a Yemeni who were in prison for murder. The informant went on to 
say that this group had formed an alliance with a singular goal. He 
called the group the ``Talem Circle'' and stated that; ``The Talem 
Circle was tasked with training incarcerated members to work with 
Middle Eastern Muslims to perform acts of Jihad.''
    The second incident happened approximately 5 months later, in July 
of 1999, when a detective in the Yonkers Police Department received 
information from a confidential informant regarding terrorist 
recruitment efforts in prison. The informant told authorities that, 
while in prison, he met a Jordanian-born inmate who identified himself 
as a follower of Osama bin Laden and said that ``his group'' was 
interested in recruiting inmates in the U.S. prisons. The Jordanian 
stated that his group intended to get the inmates trained in the Middle 
East after their release from prison, and then have them return to the 
United States to ``participate in Jihad.''
    The very real threat of ex-inmates from American travelling 
overseas to places like Yemen to receive training was confirmed in the 
2010 report from the Senate Committee on Foreign Relations entitled, 
``Al Qaeda in Yemen and Somalia: A Ticking Time Bomb''.\2\
---------------------------------------------------------------------------
    \2\ http://foreign.senate.gov/imo/media/doc/Yemen.pdf.
---------------------------------------------------------------------------
    During their time in Fishkill Correctional Facility in upstate New 
York, the Jordanian inmate told the informant about several 
individuals, former inmates, who were already participating in the 
training that he had helped facilitate overseas. Not surprisingly, the 
inmate's prison job assignment at the time was as the Chaplain's 
administrative clerk.
    Both of these leads fell by the wayside and were never fully 
investigated at the time, until after 9/11 when a task force consisting 
of State and local agencies revisited the leads and the issue of prison 
radicalization. As a result of the investigation, it has been confirmed 
that radical Islam is present in the New York State prison system and 
also in the New York City jails. The apparatus by which this radical 
form of Islam was introduced into the system was identified as 
consisting of multiple components, including, clergy, religious 
volunteers, visitors, fellow inmates and Islamic organizations from 
around the world that sent parcels and literature into the prisons.

      EXPOSURE TO RADICAL ISLAMIST IDEOLOGY DURING THE PERIOD OF 
                        INCARCERATION AND BEYOND

    The task force investigation also found that although the initial 
exposure/conversion/indoctrination to extremist jihadi Islam may begin 
in prison, it often matures and deepens after release through the 
contacts on the outside that the inmate made while they were serving 
their sentences in prison. Among those contacts are transition 
programs, which offer former inmates assistance in finding housing or 
finding work. Most of the programs for Muslims transitioning out of the 
prison system are sponsored by mosques that are local to the prisons. 
Many of these mosques have extremist leanings and are known to adhere 
to Wahabbi ideology. In addition to the transition programs, many of 
the sponsoring mosques also have volunteers or formal programs to 
provide religious instruction inside the prisons. Thus, contact between 
the outreach program and the inmate has already been established by the 
time the prisoner is released. The prisoner is already familiar with 
the program's personnel and ideology, and therefore their transition to 
the outside is facilitated by familiar hands.
    The criminal's initial period of incarceration usually starts at 
the local or county jail following his arrest by authorities. There he 
or she may wait for considerable time while the case progresses through 
the various stages of the criminal justice system before being 
transferred to State or Federal custody. Here the inmate may have his 
first encounter with religious groups that he had not previously been 
familiar with. This may occur through a cell mate or a volunteer 
organization that has a local ministry to the jail. Often the impact 
lasts well beyond their period together in county. In the same manner, 
the problem of prison radicalization often begins at the county jail 
level and continues on through the State prison system, and the post-
release period.
    One of the influences in some of the homegrown terrorism cases has 
been the involvement, either directly or indirectly, of radical 
Islamist clergy. Since 9/11, the involvement of radical Islamist imams 
has been mentioned as a precipitating factor in the cases of Richard 
Reid, Jose Padilla, and others.
    In 2009 the ``Newburgh Four''; James Cromitie, Laguerre Payen, 
David Williams, and Onta Williams, were arrested for plotting to bomb 
synagogues in New York City and shoot down military aircraft with 
stinger missiles. All had converted to a radical form of Islam while 
serving time for a variety of offenses. They did not know each other 
while they were incarcerated, but met each other after their release, 
while attending a local mosque connected to a prison ministry.
    Many of these cited and others went into prison for low-level 
crimes like burglary, drugs, or theft and came out committed to Jihad. 
Every one of them, while incarcerated, was exposed to extremist 
ideology through literature; visitors, volunteers, and clergy with ties 
to terrorist organizations or extremism; and/or a known terrorists who 
were also doing time in prison.
    The former head of Ministerial Services for the New York State 
Department of Correctional Services is Warith Deen Umar, who is a 
convert and former New York State prison inmate himself. Umar is known 
for his controversial views and his statements about Jewish 
conspiracies around the world, and his belief that God serves 
punishment of homosexuals in the form of natural disasters, such as 
Hurricane Katrina. In 2003, Umar gave an interview to the Wall Street 
Journal in which he called the 9/11 hijackers heroes. He went on to 
say, ``Without justice, there will be warfare, and it can come to this 
country, too,'' he said. The natural candidates to help press such an 
attack, in his view, are ``African-Americans who embraced Islam in 
prison.'' In other words, prisons were a prime place to recruit 
homegrown terrorists.\3\
---------------------------------------------------------------------------
    \3\ Paul M.Barrett, ``Captive Audience: How a Chaplain Spread 
Extremism to an Inmate Flock,'' Wall Street Journal, February 5, 2003.
---------------------------------------------------------------------------
    After that interview, Umar was barred from both the Federal Bureau 
of Prisons and the New York Department of Correctional Services; in 
addition, the U.S. Department of Justice Inspector General launched an 
investigation into the hiring of Islamic clergy. The final report 
stated among its recommendations that there was a need for a verifiable 
ecclesiastical body that would certify Islamic clergy prior to hiring. 
To this date no Islamic organization has been appointed to fulfill this 
role, nor has there been any formal determination as to how a vetting 
process would take place, or what the standards of vetting would be.
    As a direct result of this inaction, one case stands out as an 
example of the need for verifiable certification of Islamic clergy; New 
York City Department of Corrections Imam Zulqarnain Abdu Shahid, who 
began working for the city in 2007, was arrested in 2010 for attempting 
to smuggle dangerous contraband into the Manhattan House of Detention 
or the Tombs as it is commonly known. During a routine security check 
of the Chaplain's duffel bag officers found several box cutter-type 
razor blades. Items which, if they had fallen into the hands of the 
convicts, could have proven deadly. In an administrative hearing in 
March of this year, Shahid asked for his job back.
    Shahid, formerly known as Paul Pitts spent 14 years in a New York 
State prison for a murder committed in 1976 while robbing a grocery 
store. He was released from Sing Sing in 1993. How did Mr. Pitts become 
a ``certified'' Chaplain?
    New York City Corrections stated that the Department was aware of 
his criminal history when they did the background check and although a 
felony conviction would disqualify a person from becoming a corrections 
officer that rule does not apply to prison Chaplains. The only civil 
service requirement for qualifying as a chaplain was the certification 
or endorsement of an ecclesiastical body. The city in this case relied 
on the Majlis Ash Shura of New York.\4\ The organization, also called 
the Islamic Leadership Council is located in Wyandanch, New York.
---------------------------------------------------------------------------
    \4\ http://www.nytimes.com/2010/02/05/nyregion/05chaplain.html.
---------------------------------------------------------------------------
    Its leadership consists of several Islamic clergymen with mosques 
in the greater New York area. Several of the leaders of this 
organization are also leaders in the Muslim Alliance of North America 
(MANA). MANA lists among their leadership Luqman Abdullah, the Detroit 
Imam previously mentioned in this testimony who was killed in a 
shootout with the FBI. MANA also continues to maintain support for 
Jamil al Amin as a political prisoner.
    Should Shahid get his job back, this will not be the first time 
something like this has happened. In 2003, Imam Osameh Al Wahaidy was 
indicted by the U.S. Attorney General's Office in Syracuse, NY for 
providing material support to a terrorist organization through a 
suspicious charity.\5\ At the time of his arrest Al Wahaidy, a 
Jordanian national, was the prison chaplain at Auburn Correctional 
Facility in upstate New York. The New York State Department of 
Corrections immediately moved to have his employment terminated. 
However, following his plea agreement, in which he admitted guilt to a 
lesser charge to avoid imprisonment, Al Wahaidy went to a Public 
Employment Relations Board (PERB) hearing, requested his job back, and 
was reinstated. The Administrative judge did not seriously take into 
account his Federal conviction and what effect it would have on prison 
staff or inmates. This also despite knowing that the Imam's prison 
clerk at the time was convicted terrorist Rashid Baz, the ``Brooklyn 
Bridge Shooter'' who opened fire on a van-load of Hasidic students in 
1994 wounding several and killing Ari Halberstam. The ecclesiastical 
body that endorsed Imam Al Wahaidy was the Majlis Ash-Shura of New 
York; the very same organization from Wyandanch that certified Imam 
Shadid.
---------------------------------------------------------------------------
    \5\ http://www.dodig.mil/iginformation/IGInformationReleases/
Iraqi%20Sanctions.pdf.
---------------------------------------------------------------------------
    There is certainly no vetting of volunteers who provide religious 
instruction, and who, although not paid, wield considerable influence 
in the prison Muslim communities. Many such volunteers are former 
convicts.

                         U.S. MAIL AND INTERNET

    Jihadi and extremist literature finds it way in through the mail 
and through the internet as well, even though it is largely prohibited. 
Anything can be gotten in a prison including a PDA or a Smartphone with 
internet access. More commonly access is facilitated through third-
party cooperation. Someone on the outside may set up a Facebook page on 
an inmate's behalf, or get them information from a jihadi website. It 
would not be unthinkable or impossible for someone to provide an inmate 
with a copy of al-Qaeda's magazine, Inspire, even in the most secure 
correctional facility.
    The issue of prison radicalization is not limited to Islamic 
fundamentalists. In the prison environment we have also found the 
influence of several domestic terrorists currently serving life 
sentences for killing law enforcement officers who are attempting to 
inject themselves into the current situation in the Middle East. 
Putting 60's domestic terrorists in the same prison as convicted 
Islamic terrorists is not a healthy mix and can produce an unholy 
alliance.

                            RECOMMENDATIONS

    As I mentioned earlier in this testimony, the problem of prison 
radicalization often begins at the county jail level and continues on 
through the State prison system, and the post-release period. 
Therefore, it is essential that any program to counter the problem be 
comprehensive. I would like to make a few suggestions about basic 
initiatives that may be effective in tackling the phenomenon more 
comprehensively, Nation-wide, not just at the State and local levels.
    (1) Cooperation and coordination between responsible agencies so 
        that any potential radicalization that may have occurred in the 
        prison system can be tracked, contained, and defeated before it 
        can affect the rest of society. A task force comprised of 
        representatives from responsible agencies should be formed in 
        all States so that coordination can by systematized and 
        facilitated. The flow of correctional intelligence must be a 
        two-way street.
    (2) There should be a consistent methodology for data collection in 
        correctional departments' Nation-wide, so that trends can be 
        analyzed more quickly and effectively. Correctional departments 
        should ensure that they are using the same variables. For 
        example, all departments should collect data on change of 
        religion during incarceration.
    (3) The system for vetting clergy and religious volunteers who have 
        access to the prison population should conform to a set of 
        approved standards that are applied to prison systems in every 
        State.
    Oftentimes the same individual may volunteer at the county, State, 
        or Federal correctional facilities in their area as in the case 
        of Warith Deen Umar who was both a New York State and Federal 
        Bureau of Prisons chaplain. Therefore National standards would 
        be the most effective.
    Thank you for the opportunity to bring the important issue of 
prison radicalization before this honorable committee.

    Chairman King. Thank you very much, Mr. Dunleavy.
    I hope the Ranking Member now realizes I am not the only 
one who has an accent like that. There is at least two of us.
    [Laughter.]
    Chairman King. Did you understand what I was saying?
    Mr. Thompson. Not much.
    [Laughter.]
    Chairman King. Now, we have a transplanted New Yorker, our 
next witness, Kevin Smith, who was actually raised in my 
district, but had the good sense to move away.
    Kevin currently serves as the deputy district attorney for 
San Bernardino County in California. He is the former assistant 
United States attorney for the Central District of California, 
where he prosecuted Kevin James and his co-conspirators who 
were convicted in one of the most significant domestic 
terrorist plots since 9/11.
    I will say, however, the highlight of Kevin's career came 
earlier than that, when he attended the University of Notre 
Dame.
    With that, Mr. Smith, you are recognized for 5 minutes.

   STATEMENT OF KEVIN SMITH, FORMER ASSISTANT UNITED STATES 
            ATTORNEY, CENTRAL DISTRICT OF CALIFORNIA

    Mr. Smith. Thank you very much.
    Chairman King, Ranking Member Thompson, and distinguished 
Members of the committee, thank you for the opportunity to 
testify today.
    By way of background, I have worked in law enforcement as a 
local and Federal prosecutor since 1996. From 2000 to 2007, I 
served as an assistant United States attorney with the United 
States Department of Justice, working in the United States 
attorney's office for the Central District of California.
    In July 2005, I became involved as the lead prosecutor in 
the investigation and prosecution of a group of individuals who 
were involved in a seditious conspiracy to wage a war of 
terrorism against the United States Government by murdering 
U.S. military personnel and Jewish persons in southern 
California.
    These individuals were members of a group known as 
Jam'iyyat Ul Islam Is Saheeh, or JIS, which was created within 
the California Department of Corrections prison system.
    Today, I intend to discuss the JIS case and the seditious 
conspiracy which was engaged in by JIS' founder and leader, 
Kevin James, his chief operative or cell leader, Levar 
Washington, and the two other cell members, Gregory Patterson 
and Hammad Samana.
    Let me begin by discussing Kevin James and JIS.
    In approximately 1997, Kevin James founded JIS based on his 
interpretation of Islam while serving a prison sentence in the 
California Department of Corrections system. In fact, James 
remained in prison throughout the conspiracy and the resulting 
investigation.
    James preached that it was the duty of JIS members to 
target for violent attack any enemies of Islam or infidels. 
James identified these infidels as the U.S. Government and 
Jewish and non-Jewish supporters of Israel.
    James recruited fellow prison inmates to join JIS. But he 
also sought to establish a cell or a group of JIS members to 
wage war, or Jihad, against these perceived infidels outside 
the prison walls.
    Kevin James also created and disseminated throughout the 
prison system a document referred to as the JIS Protocol. In 
the JIS Protocol, James stated that Muslims must be allowed to 
govern themselves by sharia and that JIS must wage the 
educational, as well as the organizational war or Jihad.
    The JIS Protocol described Jihad as the only true anti-
terrorist action and a defensive battle against the aggression 
of theological impostors led by Zionism.
    Kevin James also wrote a document called ``Notoriety 
Moves,'' which was essentially a proposed press release to be 
disseminated following an attack by JIS.
    James wrote that on missions that were to be done for 
leaving impressions, the document would be left behind. If 187, 
which is the California Penal Code section for murder, were 
involved, a videotape would be sent to all major news stations 
with a JIS member reciting the document.
    Levar Washington, a convert to Islam, met Kevin James in 
late 2004 after Washington was transferred to New Folsom Prison 
near Sacramento, California.
    At New Folsom Prison, James recruited Washington into JIS. 
Washington swore an oath of loyalty and obedience to James. He 
was paroled in late 2004, and now had the ability to carry out 
a violent operation on behalf of JIS outside prison walls.
    James passed Washington with a document known as 
``Blueprint 2005''. He required Washington to recruit five 
special operations members, preferably felony-free, and train 
them in covert operations, acquire two pistols with silencers, 
and appoint a special operations member to find contacts for 
explosives and to learn to make bombs from a distance.
    Armed with these instructions from James, Washington got 
quickly to work. He went to a mosque in Inglewood, California, 
where he met Gregory Patterson, a convert to Islam, and Hammad 
Samana.
    Washington recruited both Patterson and Samana into JIS. 
They swore an oath of loyalty to Washington and to JIS. The 
operational cell now had three members, and they began to 
select targets for their attacks, ultimately deciding on 
military recruitment centers in southern California and a 
Jewish temple.
    They documented their selection of targets in a document 
known as ``The Modes of Attack''. The cell had access to a 
shotgun, but also to fund their Jihad and to purchase an 
additional firearm, they engaged in a number of gas station 
robberies, a series of over 10 robberies in the southern 
California area.
    Ultimately, during the investigation, or during the 
conspiracy, Patterson dropped his cell phone. Local law 
enforcement were able to--the Torrance police department were 
able to initiate an investigation based on that dropped cell 
phone.
    Federal law enforcement, the FBI, the U.S. attorney's 
office got involved at that point in time. We were ultimately 
able to successfully indict Kevin James, Levar Washington, 
Gregory Patterson, and Hammad Samana on the charge of seditious 
conspiracy to wage a war of terrorism against the United States 
Government.
    Each of these individuals ultimately pled guilty to that 
charge and received Federal prison sentences, including 22 
years for Levar Washington and 16 years for Kevin James.
    It is my opinion that the JIS case is an excellent example 
of the ability of both Federal and local law enforcement to 
work together to secure our homeland.
    Thank you very much.
    [The statement of Mr. Smith follows:]

                   Prepared Statement of Kevin Smith
                             June 15, 2011

    Chairman King, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to testify today.
    By way of background, I have worked in law enforcement as a local 
and Federal prosecutor since 1996. From 2000-2007, I served as an 
Assistant United States Attorney with the United States Department of 
Justice, working in the United States Attorney's Office for the Central 
District of California.
    After the tragic events of 9/11, I spent a great deal of my time as 
an Assistant United States Attorney working on counterterrorism 
matters. I worked very closely with Federal agents and local law 
enforcement officers on a joint terrorism task force conducting 
investigations of threats of terrorist activity and terrorist 
financing.
    In July of 2005, I became involved in the investigation and 
prosecution of a group of individuals who were involved in a seditious 
conspiracy to wage a war of terrorism against the United States 
Government by murdering United States military personnel and Jewish 
persons in southern California. These individuals were members of a 
group known as Jam'iyyat Ul Islam Is Saheeh (``JIS''), which was 
created within the California Department of Corrections prison system.
    Today, I intend to discuss JIS and the seditious conspiracy which 
was engaged in by JIS's founder and leader, Kevin James, his chief 
operative or cell leader, Levar Washington, and the two other cell 
members, Gregory Patterson and Hammad Samana.
    This investigation and prosecution was one of the most challenging 
in my nearly 15 years in law enforcement but, ultimately, also one of 
the most rewarding, as Federal and local law enforcement worked 
together seamlessly to successfully disrupt and dismantle this 
conspiracy and avoid any loss of life.
    Let me first begin by discussing Kevin James and JIS.

                               JIS ORIGIN

    In approximately 1997, Kevin James founded JIS based on his 
interpretation of Islam while he was serving a sentence in the 
California Department of Corrections prison system. In fact, James 
remained in prison throughout this conspiracy and the resulting 
investigation.
    James preached that it was the duty of JIS members to target for 
violent attack any enemies of Islam or infidels. James identified 
``infidels'' as the U.S. Government and Jewish and non-Jewish 
supporters of Israel.
    James recruited fellow prison inmates to join JIS but also sought 
to establish a cell or group of JIS members outside of prison to wage 
war or jihad against these perceived infidels.
    James required prospective JIS members to take an oath of obedience 
to him and swear not to disclose the existence of JIS. James also 
mandated that prospective JIS members obey a rule that required them to 
communicate with James at least once during every 90-day period.

                              JIS PROTOCOL

    Kevin James also created and disseminated a document referred to as 
the JIS Protocol. In the JIS Protocol, James stated that Muslims must 
be allowed to govern themselves by Sharia and that JIS must wage the 
educational as well as organizational war or jihad. The JIS Protocol 
described jihad as the only true anti-terrorist action and a defensive 
battle against the aggression of theological impostors led by Zionism.
    The JIS Protocol stated that faithful mujahids are strictly 
forbidden to obey disbelievers and are commanded by Allah to battle 
against disbelievers utilizing the most strenuous effort. In the 
document, James identified JIS targets as the Western forces of the 
United States and their infidel society and Israel. James also wrote 
that the group was not concerned with loss of life in pursuit of its 
objectives because martyrdom in service of Allah meant automatic 
paradise.

                          ``NOTORIETY MOVES''

    Kevin James wrote a document called ``Notoriety Moves,'' which was 
essentially a proposed press release to be disseminated following an 
attack by JIS. James wrote that on missions that were to be done for 
leaving impressions, the document would be left behind and if ``187's'' 
[California Penal Code section for murder] were involved, a videotape 
would be sent to all major news stations with a JIS member reciting the 
document.
    The ``Notoriety Moves'' document advised sincere Muslims not to 
socialize or aid the targets of JIS. The document listed these targets, 
including ``Jewish and non-Jewish supporters of an Israeli state,'' 
``so-called Muslims who believe it is permissible to join or support 
the American Army (military) in any way,'' ``so-called Muslims labelled 
[sic] Shi'i, and supporters of the infidel state of Iran,'' ``so-called 
Nation of Islam and its idol worshipping supporters of Farrakhan,'' and 
``so-called Muslims who are employees of non-Islamic governmental 
institutions that are blatantly in opposition to the laws and religion 
of Islam.'' James warned these identified targets that they had a 
``legitimate reason to fear for their safety.''

                            LEVAR WASHINGTON

    Levar Washington, a convert to Islam, met Kevin James in late 2004 
after Washington was transferred to New Folsom Prison near Sacramento, 
California. At New Folsom Prison, James recruited Washington into JIS. 
Washington swore an oath of loyalty and obedience to James. Washington 
was paroled from prison in November of 2004, and he therefore had the 
ability to carry out a violent operation on behalf of JIS outside the 
prison walls.

                             BLUEPRINT 2005

    Kevin James gave Washington instructions on how to prepare for this 
jihad in a document entitled Blueprint 2005. In this document, James 
instructed Washington to, among other things,
    (1) recruit five ``special operations members, preferably felony-
        free,'' and train them in `` . . . covert operations'';
    (2) acquire two pistols with silencers; and
    (3) appoint a special operations member to find contacts for 
        explosives or learn to make bombs that could be activated from 
        a distance.
    Armed with his instructions, Washington got to work. He met Gregory 
Patterson, a convert to Islam, and Hammad Samana at a mosque in 
Inglewood, California. Washington recruited Patterson and Samana into 
JIS and Patterson and Samana swore an oath of obedience to Washington 
and JIS.
    The operational cell now had 3 members, with James in prison as the 
leader of the conspiracy. James communicated with Washington regarding 
how and where to recruit new JIS members. James also warned Washington 
to be careful because ``there are agents everywhere looking for Al-
Qaida recruiters or any other threat to national security.'' James 
advised Washington that his `` . . . squad will be engaged on all 
levels.''

                       PRE-OPERATIONAL ACTIVITIES

    The cell of Washington, Patterson, and Samana began to prepare for 
waging jihad against the United States military and Jewish persons in 
southern California. Gregory Patterson used a computer to conduct 
internet research on El Al, the national airline of Israel, and the 
Israeli Consulate in Los Angeles. Patterson also conducted internet 
research on Jewish events in Los Angeles relating to Yom Kippur, in 
order to maximize casualties in an attack on Jewish worshippers due to 
increased attendance at religious services on the religious holy day. 
Hammad Samana conducted internet research on military targets, 
including military recruitment centers.
    The cell had access to a shotgun, but, in order to purchase an 
additional firearm and fund their jihad, Washington and Patterson began 
to rob gas stations in southern California using the shotgun. Samana 
also participated in the robbery of a gas station. Over the course of 
the conspiracy, Washington and Patterson robbed multiple gas stations.
    In June 2005, Gregory Patterson purchased a .223 rifle for use in 
the operation. He was in the waiting period to actually receive the 
weapon when he was arrested.
    Washington and Patterson also obtained an apartment in Los Angeles, 
which served essentially as a terrorist safehouse. The conspirators 
used the apartment as a place to clandestinely meet and plan their 
attacks. They also stored their supplies for jihad in the apartment.

                               TARGETING

    As the summer progressed, the cell began to refine their plot and 
focus on potential targets. They discussed targeting El Al Airlines at 
the Los Angeles International Airport and the Israeli Consulate in Los 
Angeles but eventually rejected them as possible targets. Instead, the 
conspirators focused on attacking U.S. military recruitment centers in 
southern California. In addition, the conspirators decided to target 
Jewish persons, specifically during or after these people had 
worshipped at religious services in Los Angeles.
    To memorialize their plans, Samana created a document entitled 
``Modes of Attack.'' The Modes of Attack document contained ``options'' 
for the cell's attack, listing ``LAX'' and ``Consulate of Zion,'' as 
well as ``Military Targets,'' including ``Army Recruiting Centers 
throughout the county,'' and ``campsite of Zion.''
    On July 4, 2005, Washington, Patterson, and Samana conducted target 
practice with the shotgun in Kenneth Hahn Park in Los Angeles as 
preparation for their planned attacks in the Los Angeles area.

                     ``OPERATION TORRENTIAL RAIN''

    During one of the gas station robberies, Patterson dropped his cell 
phone. Local law enforcement, which had noted a string of robberies in 
the same general area, began an investigation based on the cell phone. 
Ultimately, local law enforcement, specifically the Torrance, 
California, Police Department (``Torrance PD''), was able to identify 
both Patterson and Washington as suspects in the robberies. At that 
time, Torrance PD did not have any idea that they were tracking would-
be jihadists.
    Ultimately, on July 5, 2005, Torrance PD surveilled Patterson and 
Washington to Fullerton, California, and arrested the duo after 
Washington conducted an armed robbery of a gas station while Patterson 
waited in the getaway car as its driver.
    In conducting a search warrant of the Los Angeles apartment used by 
the conspirators, officers found 3 tactical vests, ammunition, knives, 
and numerous documents.
    At this point, Federal law enforcement became involved in the 
investigation led by the Federal Bureau of Investigation and the United 
States Attorney's Office for the Central District of California, for 
whom I worked at the time.
    I received a telephone call from my counterpart at the FBI 
requesting my assistance with the investigation and assumed the duties 
as the lead prosecutor on the case.
    A full-scale investigation was launched. The investigation was 
named ``Operation Torrential Rain,'' in recognition of the Torrance 
PD's excellent police work in breaking the case. At this time, in 
addition to the FBI and the U.S. Attorney's Office, numerous local law 
enforcement agencies were involved in the investigation, including the 
Los Angeles Police Department and the Los Angeles Sheriff's Department.
    While 3 of the conspirators were in custody--Kevin James in New 
Folsom Prison and Gregory Patterson and Levar Washington in the Los 
Angeles County Jail--the fourth conspirator, Hammad Samana, was still 
at large. We identified Samana, located him, and began conducting 
surveillance of him.
    As part of the investigation, we interviewed numerous individuals, 
including inmates in the California Department Corrections prison 
system, and searched prison cells, including the cell of Kevin James.
    A tremendous amount of information was generated as a result of the 
investigation. I had to make sense of all of the information and 
materials and determine whether there was a viable criminal case to be 
made against the conspirators.
    With the help of the FBI and my colleagues in the Justice 
Department, we were able to pull the elements of the investigation 
together into a criminal case.
    Based on my previous work as a counterterrorism prosecutor, I was 
aware of Title 18, United States Code, Section 2384, which established 
the crime of seditious conspiracy. The statute had been previously used 
by Federal prosecutors in New York in the prosecution of Sheik Omar 
Abdel Rahman and his fellow conspirators for their plot to destroy New 
York City landmarks.
    We successfully indicted James, Washington, Patterson, and Samana, 
charging them with seditious conspiracy and a number of other Federal 
criminal violations, including conspiracy to murder U.S. military 
personnel, conspiracy to murder foreign officials, interference with 
commerce by robbery, and conspiracy to possess and discharge firearms 
in furtherance of crimes of violence.
    Ultimately, all four defendants entered guilty pleas to the charge 
of seditious conspiracy and were sentenced to Federal prison terms, 
including 22 years for Levar Washington and 16 years for Kevin James.
    In my opinion, this JIS case is an outstanding example of how local 
and Federal law enforcement can work together efficiently and 
productively in preventing terrorist attacks and securing our homeland. 
It was a great personal honor to have participated in the case.
    Thank you.

    Chairman King. Thank you, Mr. Smith.
    Our next witness is Michael Downing, who is the deputy 
chief and commanding officer of the Los Angeles Police 
Department's Counterterrorism and Special Operations Bureau.
    Chief Downing was appointed to the LAPD in 1982. In May of 
last year, he was elected as president of the Leadership in 
Counterterrorism Alumni Association.
    At the outset, Chief Downing, let me also express the 
regrets of the committee of one of the LAPD officers who was 
killed in Afghanistan, I guess in March of this year, a reserve 
officer who was serving in Afghanistan.
    We look forward to your testimony, and we thank you for 
flying all the way from the West Coast to be with us today.
    Chief Downing.

 STATEMENT OF MICHAEL P. DOWNING, COMMANDING OFFICER, COUNTER-
  TERRORISM AND SPECIAL OPERATIONS BUREAU, LOS ANGELOS POLICE 
                           DEPARTMENT

    Chief Downing. Thank you, Mr. Chairman and good morning. 
Chairman King, Ranking Member Thompson, and distinguished 
Members of the committee--sorry--thank you for the opportunity 
to discuss the Los Angeles Police Department's view and 
strategy of this most important phenomena relating to the 
evolving threat of Muslim-American radicalization in the United 
States prisons.
    Much has been written about this topic over the last 5 or 6 
years. Just as we have seen a large surge in homegrown violent 
extremists targeting innocent civilians with violence or 
plotting against the United States, we have also seen a surge 
in both converts and radicalization of those converts toward 
violent acts.
    Fortunately, this still remains a phenomena of low volume. 
However, the radicalization of even a small fraction of this 
population holds high consequence for Americans and innocent 
people around the world.
    We have the largest incarceration rate, the largest prison 
population of any country in the world. Prisoners, by their 
very nature, are at risk and susceptible to recruitment and 
radicalization by extremist groups because of their isolation, 
their violent tendencies and their cultural discontent.
    Now Los Angeles is known for its outreach and engagement 
with Muslim communities and the commensurate strategy to 
overlay community policing on top of communities that are 
either isolated, balkanized, feel oppressed, or are not 
integrated into the social fabric of society.
    The Muslim communities are our greatest strength as a 
counterterrorism strategy. But in this context, we recognize 
that Islam expresses itself differently in Los Angeles than it 
does in the United Kingdom, than it does in Europe, even than 
it does in San Diego or Minnesota or New York.
    There is no one organization, institute, or individual that 
speaks on behalf of the Ummah. The expression of Islam in the 
prison system is a subject which brings great concern.
    Now, it is generally known that the majority of prison 
converts assimilate back into what they were doing prior to 
going to prison. However, it is the exception cases to that 
rule that have and will continue to strike fear in the hearts 
of America.
    It is of great concern that up to 3 dozen African-American 
prison converts travel to Yemen to train with al-Qaeda's.
    We talked about the cases, the JIS, Jose Padilla, Richard 
Reid, Michael Finton, all examples of prison converts plotting 
to commit acts of violence against innocent people.
    There are several on-going cases whose story is yet to be 
told. The common denominator though is conversion to a radical 
form of Islam within prison.
    If Islam expressed itself in the California prison system 
as it expresses itself in the Los Angeles region, we would be 
talking about the strength and value that Islam brings to 
prisoners in terms of behavior and value-based living.
    However, this is not the case. It is not the case because 
of the manner in which many prison populations are exposed to 
Islam, carrying the disguise of dysfunction, danger, and 
exploitation.
    Instead of providing a balanced, peaceful, contemporary 
perspective of one of the great and peaceful religions of the 
world, we are left with a hijacked, cut-and-paste version, 
known to the counterterrorism practitioners as Prislam, a term 
coined by my good friend Frank Cilluffo.
    This has been allowed to propagate through the three 
dynamic dimensions of people, materials, and associations.
    As a matter of practice, the American Correctional 
Chaplains Association recommends 1 chaplain per 500, inmates. 
Yet we are seeing 4, 5, and sometimes 6 times that ratio.
    The qualification of chaplains are different. There are 
different standards, where some are allowed into a correctional 
institution, others refused entry.
    The type of materials, of effective policies and practices 
are designed to create understanding of what perspective faith-
based staffers may utilize by way of materials to facilitate 
their purposes.
    There is radical materials inside the prison systems still. 
Anwar al-Awlaki's material is inside the prison system. The 
``Noble Koran,'' English version, with the chapters entitled 
``The Call to Jihad, Holy Fighting in Allah's Cause,'' is in 
the prison system. The spiritual philosopher of al-Qaeda, 
Sayyid Qutb, who wrote the ``Milestones Along the Road,'' is in 
the prison system.
    Meetings are not properly monitored because of the ratios 
of chaplains and prison guards to these things.
    Aligning people, purpose, and strategy and leaning forward 
is a solution to mitigate this risk.
    In the policing world, the efforts to reduce crime, 
mitigate risk, and teach communities how to build crime-
resistant neighborhoods focus stakeholder resources around 
three thematic areas: High-risk people, high-risk places, and 
high-risk activity. This model can be translated into the 
prison system.
    Furthermore, it needs to be looked at from a whole of 
government, whole of community approach, utilizing 
nongovernmental offices, vetted community volunteers, and 
leadership organizations.
    Would the Muslim American Ummah in the United States be 
proud of what converts are learning about Islam in prison? I 
would say, in some cases, they would be shocked and dismayed.
    One of my greatest concerns is the issue of convergent 
threats. We are beginning to see convergence in the areas of 
gangs, narcotic cartels, organized crime, terrorism, and human 
trafficking.
    Just as isolated and balkanized communities can become 
incubators of violent extremism, so, too, can prisons. If left 
unchecked, prisons can and do become incubators of 
radicalization, leading to violent extremism.
    In 2005, after the London bombings, prior to that, after 30 
years, the British said, ``We have defeated the IRA.'' They 
were ready to not fund terrorism, move on to other things. Then 
the attack occurred and they realized they had this threat.
    Americans at that time said, ``We are okay. We have good 
immigration policies. We don't have this threat.'' Two years 
later, we saw a huge ramp-up in this threat.
    As we begin to uncover rocks, we see more and more of the 
problem. We haven't uncovered the right types of rocks in the 
prison system. We have the fusion centers. We have TLO 
infrastructure in the prison systems. We have suspicious 
activity reporting system in the prison systems.
    Today, just in my 7-county area that the fusion center sits 
on, we are getting 15 to 20 suspicious activity reports in 7 
prisons a month that evolve into 3 to 4 open cases per year. 
That is only 7 out of 33 correctional institutions, 
correctional facilities in the State of California.
    We do have a problem. Prisons are communities at risk.
    Thank you.
    [The statement of Chief Downing follows:]

                Prepared Statement of Michael P. Downing
                             June 15, 2011

                            I. INTRODUCTION

    Chairman King, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to discuss the Los 
Angeles Police Department's (LAPD) view and strategy of this most 
important phenomena relating the evolving threat of Muslim-American 
radicalization in United States prisons.

                             II. BACKGROUND

    Much has been written about prison radicalization over the last 5 
or 6 years and just as we have seen a surge in homegrown violent 
extremists targeting innocent civilians with violence or plotting 
against the United States, we have also seen a surge in both converts 
and a radicalization of those converts toward violent acts. Fortunately 
this still remains a phenomenon of low volume; however, the 
radicalization of even a small fraction of this population holds high 
consequence for Americans and innocent people around the world. The 
United States has the highest incarceration rate (701 out of every 
100,000) and the largest prison population (over 2 million--93% of whom 
are in State and local prisons and jails) of any country in the 
world.\1\ Prisoners by their very nature, are at risk and susceptible 
to recruitment and radicalization by extremist groups because of their 
isolation, violent tendencies, and cultural discontent. Nearly 300 
Federal prisoners are serving sentences on terrorism-related charges in 
the United States. The Bureau of Prisons incarcerates nearly 2 dozen 
al-Qaeda terrorists, including men involved in the 1993 World Trade 
Center, the 1998 East African embassy bombings, the 1999 millennial 
plot to bomb the Los Angeles International Airport, and the 2000 
bombing of the USS Cole. New York is holding an additional 15 al-Qaeda 
members awaiting trial.
---------------------------------------------------------------------------
    \1\ Roy Walmsley, World Prison Population (5th Ed.) (Home Office, 
Publication234, 2003).
---------------------------------------------------------------------------
    Los Angeles is known for its outreach and engagement with Muslim 
communities and the commensurate strategy to overlay the community 
policing enterprise on top of communities who are either isolated, 
balkanized, feel oppressed, or are not integrated into the social 
fabric of society. In this context, we have come to recognize Islam 
expresses itself differently than it does in New York, Minnesota, or 
even San Diego. There is no one organization, institute, or individual 
that speaks on behalf of the Ummah (the global Muslim community). 
Dealing with the motivational aspects to terrorism has been a great 
part of the Los Angeles Police Department's focus in delivering a 
counter-terrorism strategy. The expression of Islam in the prison 
system is a subject which brings great concern.

                          III. PRISON CONVERTS

    It is generally understood that the majority of prison converts 
assimilate back into what they were doing prior to going to prison, 
however, it is the exception cases that have and will continue to 
strike fear in the hearts of Americans. It was estimated that 17 to 20% 
of the prison population, or approximately 350,000 were comprised of 
Muslim inmates in 2003, and that 80% of the prisoners who convert while 
in prison, convert to Islam.\2\ It is further estimated that 35,000 
inmates convert to Islam annually. A Senate Foreign Relations Committee 
report released in 2010 announced that up to 3 dozen Americans who 
converted to Islam in prison have travelled to Yemen, to train with al-
Qaeda.\3\
---------------------------------------------------------------------------
    \2\ ``Testimony of Dr. J. Michael Waller''. United States Senate, 
Committee on Judiciary. 2003-10-12 http://judiciary.senate.gov/
hearings/testimony.cfm?id=960&wit_id=2719. Retrieved 2010-06-05.
    \3\ ``Al-Qaeda in Yemen and Somalia: A Ticking Time Bomb.'' A 
Report to the Committee on Foreign Relations, U.S. Senate. January 21, 
2010, p. 4.
---------------------------------------------------------------------------
                    IV. THE EVIDENCE AND EXPLANATION

    I will leave the examination of these cases to my academic 
colleagues who have studied and analyzed the individuals and will be 
testifying before this committee. There are more than a few cases of 
concern:
  <bullet> Jam'iyyat Ul-Islarn Is-Saheeh (JIS), Arabic for Assembly of 
        Authentic Islam--a radical prison organization led by a Rollin 
        30 gang member, Kevin James, who served time for robbery 
        convictions at the New Folsom Prison near Sacramento, 
        California. He recruited prisoners including a Rollin 60 gang 
        member and preached the duty of members to target enemies of 
        Islam, or ``infidels,'' including the United States Government 
        and Jewish and non-Jewish supporters of Israel. The JIS network 
        was large and crossed prison boundaries. In 2005, the Joint 
        Terrorism Task Force thwarted the plot to attack military 
        institutions and synagogues.
  <bullet> Jose Padilla, a former Chicago gang member, arrested in 
        2002, converted to Islam while in prison and was recruited at a 
        mosque to become a mujahedeen fighter. He was accused of 
        plotting to detonate a radioactive ``dirty bomb'' but was 
        convicted of unrelated terror support charges.
  <bullet> Richard Reid, a British citizen and follower of Osama bin 
        Laden, was a prison convert in England and become involved with 
        militants after he was freed. He was apprehended while 
        attempting to detonate a bomb on a United States commercial 
        flight in December 2001. He is believed to have been 
        radicalized by an imam while incarcerated in England. He is 
        serving a life sentence at a maximum security prison in 
        Colorado.
  <bullet> Michael Finton, a United States Citizen and prison convert 
        to Islam, attempted to bomb the Paul Findley Federal Building 
        and the adjacent offices of a Congressman in downtown 
        Springfield, Illinois on September 24, 2009. He pled guilty on 
        May 9, 2011 and sentenced to 28 years in prison.
    There are several on-going cases whose story is yet to be told, 
however, the common denominator is conversion to a radical form of 
Islam while in prison.
    If Islam expressed itself in the California Prison system as it 
does in the Los Angeles region, we would be talking about the strength 
and value that Islam brings to prisoners in terms of behavior and 
value-based living. However, this is not the case and it is not the 
case because of the manner in which many prison populations are exposed 
to Islam, carrying the disguise of dysfunction, danger, and 
exploitation. Instead of providing a balanced, peaceful, contemporary 
perspective of one of the great and peaceful religions of the world, we 
are left with a hi-jacked, cut and paste version known to the counter-
terrorism practitioners as Prislam, as my good friend Frank Cilluffo 
coined the phrase. This has been allowed to propagate through the three 
dynamic dimensions of People, Materials, and Places of Association.
    People.--Budgets for religious services in correctional facilities 
have fallen to economic shortcomings, enhancing opportunities for 
radical prisoners to conduct their own services and support system. As 
a matter of smart practices, the American Correctional Chaplains 
Association recommends one chaplain per 500 inmates. In California, 
there is one chaplain for every 2,000 inmates, and some Texas prisons 
the ratio is one to 2,500.\4\ It is essential that a thorough 
background investigation process for anyone entering a correctional 
institution be completed before access is granted. Additionally, 
consistent standards of qualification should be developed and adopted. 
There are numerous cases where a spiritual advisor or chaplain is 
denied access to a correctional facility and then admitted into 
another.
---------------------------------------------------------------------------
    \4\ Drum, V.L., ``Professional Correctional Chaplains: Facts and 
Fiction,'' presented at the American Correctional Association 137th 
Annual Congress of Corrections, Kansas City, MO, August 13, 2007.
---------------------------------------------------------------------------
    To better understand the competencies and qualifications of a 
Chaplain, consideration should be given to the following questions: 
What is the particular religious denomination to be supported by the 
individual? Is there a sponsoring religious institution associated with 
the individual? Is that institution locally established? Has the 
individual met any standards or permissions associated with the 
position they are seeking? Does the denomination advocate violence? Has 
the individual had recent travel outside of the United States? If so, 
where and when? Is there a foreign government sponsorship of this 
individual? Does the individual maintain any professional, regional, or 
National associations that might evidence their legitimacy? In what 
manner are they involved with any such organization? Will the services 
be conducted in English or another language? If other than English, 
what language?
    Materials.--It is essential that effective policies and practices 
are designed to create an understanding of what prospective faith-based 
staffers may utilize by way of materials to facilitate their purpose. 
Frequent audits of books, video, audio, and other related material 
should be conducted to determine permissibility under existing facility 
security policies. These policies should be consistent throughout the 
prison system. Out of the Shadows: Getting Ahead of Prisoner 
Radicalization, a special report by the George Washington University, 
Homeland Security Policy Institute, published in September 2006 stated 
the following: ``Radical literature and extremist translations and 
interpretations of the Qur'an have been distributed to prisoners by 
groups suspected or known to support terrorism. The Noble Qur'an, a 
Wahabbi/Salafist version written in English, is widely available in 
prisons. A recent review in the Middle East Quarterly characterized 
this version as reading `` . . . like a supremacist Muslim, anti-
Semite, anti-Christian polemic than a rendition of the Islamic 
scripture.'' Of particular concern is its appendix, entitled ``The Call 
to Jihad (Holy Fighting in Allah's Cause).''
    Anwar al-Awlaki, a prominent United States born Islamic scholar of 
Yemeni descent and internet radicalizer is wanted by the United States 
for terrorism prosecution. His radical literature has found its way 
into the prison system and has been used by known extremists to 
facilitate recruitment and radicalization activities within prisons.
    Differences Between the Shee'ah and Muslims Who Follow the Sunnah, 
written in plain English, is another such example of radical material. 
Examinations of materials should not be limited to that which is 
brought in by faith-based service providers. Effective procedures and 
processes of screening inmate mail can be quite useful as prevention 
measures to discover prohibited, controversial, or materials advocating 
violence, entering or leaving local correctional facilities. Other 
items of interest would be military manuals, training manuals, and 
documentation advocating the overthrow of the U.S. Government. 
Communicating this information throughout the law enforcement network 
will prove to be effective in preventing further mobilization toward 
violence.
    The spiritual philosopher of al-Qaeda, Sayyid Qutb, wrote the 
radical Islamist manifesto Ma'alim fi al-Tariq (Milestones Along the 
Road) while in an Egyptian prison. Copies of this document exist in the 
prison system and contribute to radicalization.
    Meetings.--Are inmate meetings and gatherings taking place using 
religion as a ruse for other activities? Religious and other gatherings 
of inmates within correctional facilities present challenges and 
opportunities for inmates, service providers, and correctional staff. 
Staff members should make the time to monitor inmate gatherings. Audio 
and video equipment may be effectively used for these purposes. 
Regimented activities of inmates may be indicators that activities 
incongruent with religious services are taking place. The principles of 
direct supervision, a contemporary method of inmate management that is 
currently in use in many local detention facilities, is also supportive 
of correctional staff presence in inmate gatherings and activities.

       V. ALIGNING PEOPLE, PURPOSE, AND STRATEGY/LEANING FORWARD

    In the policing world, the efforts to reduce crime, mitigate risk, 
and teach communities how to build crime-resistant neighborhoods, focus 
on targeting stakeholder resources around three thematic areas: High-
Risk People, High-Risk Places, and High-Risk Activity. This model also 
looks at 10 percent of the victims who are victimized 40 percent of the 
time because they expose themselves to high-risk people, high-risk 
places, and high-risk activity. While it is understood that prisons are 
certainly different than a free society or a community in an urban or 
rural area, they do represent a type of community with resources at 
their disposal. In the same manner that police address the above crime 
model to include partnership, problem solving, and prevention, prisons 
should continue to lean forward in terms of managing risk with an eye 
toward People, Materials, and Places. Furthermore, this needs to be 
looked at from a whole of government/whole of community approach, 
utilizing non-governmental offices, vetted community volunteer groups, 
and leadership organizations.
    Islam is the fastest-growing religion in the prison system, and 
while the majority of converts are African-American, other minority 
groups are converting in prison as well. Would the Muslim-American 
Ummah in the United States be proud of what converts in prison are 
learning about Islam? I would say in some cases, they would be shocked 
and dismayed.
    As a law enforcement executive, one who has worked in Los Angeles 
for over 29 years with a primary focus on counter-terrorism for the 
last 6 years, one of my greatest concerns is the issue of convergent 
threats. We are beginning to see convergence in the areas of gangs, 
narcotic cartels, organized crime, terrorism, and human trafficking.
    Los Angeles gained a reputation for being the gang capital of the 
United States and much of the prison structure is made up of gangs, 
i.e., Bloods, Crips, Mexican Mafia, Black Guerilla Family, Aryan 
Brotherhood, and Violent Ideological Extremists (Violent Islamic 
Extremists).
    Just as isolated, and balkanized communities can become incubators 
of violent extremism, so too can prisons. If left unchecked prisons can 
and do become incubators of radicalization leading to violent 
extremism.
    While I am certainly not advocating ``thought policing'' there is a 
lot that can be done to insulate prisons from the elements that create 
high-risk environments that we are seeing today. One major role that 
law enforcement can play in the fight against violent ideological 
extremism is that of educator. Teaching all communities about the 
dangers of extreme ideologies can dispel harmful rumors and myths that 
alienate already pressured communities. We have learned from the 
European experience how these alienated communities become a breeding 
ground for violent extremism and a safe haven for potential terrorists 
to hide among the population. Prisons are no exception.
    Granted, the United States does not have the same types of problems 
as England, France, Germany, or Israel. While the tactics terrorists 
employ are learned behaviors that migrate across National boundaries--
through groups, training camps, and the internet--the underlying 
motivations for these violent acts are unique to the host countries. 
Consequently, the remedies (i.e., jailhouse de-radicalization in 
Malaysia, the Channel Project in northern England, and the BIRR Project 
in Australia) are often contextually bounded and dependent on the 
depth, strength, national allegiance, and identity of the native Muslim 
community.
    In Los Angeles, for example, there are many Muslim communities that 
do not share the same risk profile as those in the United Kingdom as 
they are much more integrated into the larger society. That said, the 
European example does provide U.S. law enforcement with a starting 
point when searching for early indicators of radicalization.

                     VI. STRATEGIES AND INITIATIVES

  <bullet> Our outreach to the Muslim and non-Muslim communities has 
        combined education with prevention. We now have Terrorism 
        Liaison Officers (TLOs) at all of our divisions and Fire 
        Stations who serve as the principal points of contact for 
        terrorism information and intelligence. These liaison officers 
        educate Department personnel and the broader community about 
        the indicators of violent extremism and have proven to be 
        critical assets when it comes to raising the level of terrorism 
        prevention and preparedness. The TLO program has been 
        integrated into the California prison system with the effect of 
        casting an ever-wider safety net to train more people in the 
        State to be public data collectors and First Preventers.
  <bullet> We have taken our model and counter-terrorism strategy for 
        Los Angeles and as much as possible applied these principles to 
        prisons: Terrorism Liaison Officer, Suspicious Activity 
        Reporting (SARS) or Tips and Leads, Capitalize on the Fusion 
        Center Structure and Capabilities, Integrate information and 
        analysis, and disseminate value added intelligence, Prison 
        Radicalization Team assigned to the Fusion Center and aligned 
        with a Joint Terrorism Task Force Vetting Squad.
    <bullet> Note: I have an officer assigned to this Joint Terrorism 
            Task Force Squad and the volume of Tips and Leads relative 
            to Prison Radicalization in the 7-county footprint, is 15 
            to 20 tips a month which are vetted by the JTTF squad. This 
            has developed into three to four open investigations/year 
            supported by a reasonable suspicion that an individual or 
            group of individuals are actively engaged in developing 
            operational capability and motivation to conduct a 
            terrorist act. Initial investigations conducted by this 
            squad show that most of the extremists interviewed, 
            generally, have no interest fighting in the United States; 
            however, there is interest in fighting overseas in the name 
            of Islam.
  <bullet> Working in concert with our 7 county, regional, and Federal 
        partners, we continue to build capacity to collect, fuse, 
        analyze, and disseminate both strategic and operational 
        intelligence. We are aligning our intelligence collection and 
        dissemination process with an eye toward accountability and 
        ensuring that our First Preventers have the information they 
        need when they need it.

                          VII. RECOMMENDATIONS

  <bullet> Prison Officials are stretched thin trying to maintain order 
        in overcrowded and underfunded facilities. Funding and 
        organizational structure needs to be a priority so we stay on 
        the front end of prison radicalization.
  <bullet> Effectively monitor materials coming in, and provide enough 
        qualified, vetted clerics to meet inmates' spiritual needs. 
        Clear policy and regulations should be established, and should 
        apply to both volunteer leaders of religious services and 
        extremist inmates within the prison system.
  <bullet> Prisoners are highly vulnerable upon release. Offer them 
        social support at that moment to help reintegrate them into the 
        community. Don't let them be easy prey for recruiters with 
        malicious intent. Budget shortfalls spurring early release 
        programs and early parole only exacerbate the challenge, as the 
        potential for more radicalized prisoners being paroled 
        increases. This becomes even more important considering the 
        issue of convergent threats--when gangs and drug cartels 
        consider connecting with terrorist networks.
  <bullet> From the parole officer to the prison guards, we need to 
        articulate and educate as to the nature of the threat and how 
        to best counter it.
  <bullet> State correctional officers should notify law enforcement of 
        the pending release of a violent extremist, allowing law 
        enforcement officers to monitor the released inmate's outside 
        activities. The Federal Bureau of Prisons already has a warning 
        system in place to alert the FBI about the release of violent 
        extremists in Federal institutions. Several FBI field divisions 
        sponsor intelligence-sharing working groups with State and 
        Federal correctional investigators that have helped improve 
        coordination. The FBI's Joint Terrorism Task Force in Los 
        Angeles hosts a monthly prison radicalization meeting that 
        brings correctional officers, local, State, and Federal law 
        enforcement together to share intelligence on violent extremist 
        prison groups and provides advance notice of a violent 
        extremist reentry into the community. Other State prison 
        officials may see a benefit in promoting the establishment of 
        local prison radicalization working groups in their regions.

                            VIII. CONCLUSION

    The natural question is: What factors put a community at risk? 
Taking a page from the European experience, diaspora communities are in 
transition from one culture to another, making its members particularly 
vulnerable to identity crises which may be very easily subverted by 
ideologues. As Eric Hoffer wrote in his book, ``The True Believer: 
Thoughts on the Nature of Mass Movements'': ``Faith in a holy cause is 
to a considerable extent a substitute for the lost faith in 
ourselves.'' If there is a real or perceived threat of discrimination 
between the new community and the host, then an ``us against them'' 
mentality may prevail making that final step towards radicalization 
that much easier. Some Muslim communities may view any local 
discrimination as linked to Muslim causes globally, and vice versa, any 
discrimination against the Ummah (the global Muslim community) may be 
felt locally. Prisons are in fact communities at risk.

    Chairman King. Thank you very much, Chief Downing.
    Our next witness, Professor Bert Useem. Did I pronounce 
your name correctly, sir?
    Mr. Useem. Yes.
    Chairman King. Thank you. Is a professor of sociology at 
Purdue University. Prior to working at Purdue, he worked in the 
same field at the University of New Mexico for 13 years.
    Mr. Useem has published several books and papers and 
magazine articles, which I read, regarding prison organization 
and violence.
    You are now recognized for your testimony.

    STATEMENT OF BERT USEEM, DEPARTMENT HEAD AND PROFESSOR, 
            SOCIOLOGY DEPARTMENT, PURDUE UNIVERSITY

    Mr. Useem. Good morning. I thank the committee for its 
attention to this very important matter.
    The crux of my testimony is that prisons have not served as 
a major source of Jihad radicalization. Three sets of facts 
support this conclusion.
    First, U.S. prisons now confine 1.6 million people. Each 
year, 730,000 inmates are released.
    Second, from 9/11 through the first half of 2011, 178 
Muslim Americans have committed acts of terrorism or were 
prosecuted for terrorism-related offenses.
    Third, for 12 of these 178 cases, there is some evidence 
for radicalization behind bars.
    Putting these three sets of facts together, if prisons were 
a major cause of Jihadist radicalization, we would expect to 
see a lot of it, but we don't. Why not?
    In my research, I have identified seven factors that have 
inhibited prisoner radicalization.
    First, over the last 30 years, U.S. prisons have been able 
to restore order and improved inmate safety. For example, 
prison riots, which were once common in prisons, have all but 
disappeared. The homicide rate in prisons has fallen by 90 
percent. A byproduct of this restoration of order is that the 
appeal of radicalization is reduced.
    Second, correctional leadership has consciously and 
successfully infused the mission of observing signs of inmate 
radicalization into organizational practices. Rather than 
waiting for a facility to be penetrated by radicalizing groups, 
correctional leaders have fashioned, staffed, and energized the 
effort to defeat radicalization.
    Third, increasingly in recent years, correctional personnel 
coordinate and share information with external law enforcement.
    Fourth, inmates cannot communicate freely to potentially 
radicalizing groups on the outside. The internet is 
unavailable. Mail is inspected and censored.
    Fifth, a large body of evidence has shown that terrorists 
tend to come from better educated, advantaged backgrounds. U.S. 
prisoners tend to have low education and come from poor 
communities. The profiles of criminals and terrorists are 
different.
    Sixth, a surprising finding that has come out of my 
research is that there exists a modest level of patriotism 
among inmates. It is the case that inmates are hyper-concerned 
with their own self-interest. Still, inmates express some level 
of loyalty to the country. This makes prison a hostile 
environment for Jihad radicalization.
    Finally, in recent years, many correctional agencies have 
improved their screening and supervision of clergy and 
religious volunteers.
    In sum, if prisons were a major cause of terrorism, we 
would see a large proportion of Jihad terrorists linked to 
prison. That is not the case.
    Still, a small number of prisoners have been radicalized 
behind bars and attempted terrorist activities. But as long as 
law enforcement continues to be alert and work collaboratively 
with each other, the threat of terrorist activity in and from 
prisons will continue to be diminished.
    [The statement of Mr. Useem follows:]

                    Prepared Statement of Bert Useem
                             June 15, 2011

    Nearly 7 years ago, in October 2003, the Subcommittee on Terrorism, 
Technology, and Homeland Security of the Committee on the Judiciary, 
U.S. Senate, held hearings on the radicalization of prison inmates. 
Coming on the heels of 9/11, the hearings warned that Jihadist 
radicalization of prisoners may produce the greatest fear of all: A 
formidable enemy within. For example, one witness stated that radical 
Islamist groups ``dominate Muslim prison recruitment in the U.S. and 
seek to create a radicalized cadre of felons who will support their 
anti-American efforts.'' Once released, offenders would wreck havoc on 
the country. What have we learned about the dimension of this problem?
    The dimension has been shockingly, and gratefully, small. Consider 
the following data points.
  <bullet> U.S. prisons now confine 1.6 million offenders. Nine-five 
        percent of them will be released; few are lifers or will suffer 
        the death penalty. Each year, U.S. prisons release 730,000 
        inmates.
  <bullet> The Pew Center on the States has calculated that 1 in every 
        100 American adults is in prison or jail. For African American 
        males between the ages of 20 and 34, the figure is 1 in 9.
  <bullet> Sociologist Charles Kurzman has identified 178 Muslim-
        Americans who, since 9/11, have committed acts of terrorism-
        related violence or were prosecuted for terrorism-related 
        offenses. For 12 of those cases, there is some evidence for 
        radicalization behind bars. There have been zero suicide (or 
        attempted suicide) attacks undertaken by former prison inmates.
    Putting these data points together, Muslim-American terrorists are 
not especially likely to emerge from our prisons. Why?
    Working with colleague Obie Clayton, I studied this issue supported 
by funds from the START Center (underwritten by the Department of 
Homeland Security) and the National Institute of Justice (U.S. 
Department of Justice). We conducted interviews in 10 State 
correctional agencies and one jail system; visited 27 medium- and high-
security prisons for men; and interviewed 210 prison officials and 270 
inmates. Our analysis identified seven factors.
    First, over the last 30 years, U.S. prisons have been able to 
restore order and improve inmate safety. For example, prison riots, 
once common in U.S. corrections, have nearly disappeared. The rate of 
prison homicides has fallen by 90%. A byproduct of this restoration of 
order is that the appeal of radicalization is reduced. There are clear 
norms for appropriate behavior which, while always challenging to 
enforce, are consequential. Prisons are successful, not failed, States. 
Far less than in the past is the prison environment one of ``anything 
goes.'' 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Second, corrections officials are aware of the threat of inmate 
radicalization. Correctional leadership (at both the agency and prison-
level) has consciously and successfully infused the mission of 
observing signs of inmate radicalization into organizational practices. 
Rather than being sitting ducks, waiting for their facilities to be 
penetrated by radicalizing groups, correctional leaders have fashioned, 
staffed, and energized the effort to defeat radicalization.
    Third, the level of effective surveillance in prisons has improved 
greatly over the last two decades. Security threat groups are tracked 
by staff dedicated to that task; closed-circuit television cameras are 
omnipresent; corrections personnel coordinate and share information 
with external law enforcement agencies. One Islamic inmate, for 
example, told us: ``No way you're going to have radical groups in this 
prison for more than 5 minutes, without them [correctional staff] 
knowing it.'' While al-Qaeda has proclaimed that they seek to recruit 
prison inmates to their cause, the obstacles to doing so are, 
thankfully, very great. This point has been missed by those who predict 
that prisons will pour out domestic terrorists.
    Fourth, inmates cannot communicate freely with potentially 
radicalizing groups on the outside. The internet is unavailable, and 
mail is inspected and censored. There is some smuggling of cell phones, 
but correctional leaders are aware of and working to counter this 
threat. The one exception is lawyer-prisoner correspondence which, 
under Federal law, can be opened in the presence of the prisoner. This 
exception is given not to protect the free flow of ideas behind bars, 
but rather to avoid disadvantaging prisoners in asserting their legal 
rights.
    Fifth, the educational backgrounds of male inmates help explain the 
finding of low levels of jihad radicalization in prisons. Education 
leads people to be concerned, even fervently concerned, with the issues 
of the day and events in distant lands, such as Iraq. Not surprisingly, 
a large body of evidence has shown that terrorists come from 
disproportionately high-education, non-disadvantaged backgrounds. In 
contrast, U.S. prisoners have disproportionately low levels of 
education and come from poor communities. In our interviews, inmates 
expressed low interest in public affairs, including and most 
strikingly, the war in Iraq.\1\
---------------------------------------------------------------------------
    \1\ It is important not to overstate the case. The negative 
correlation between education and terrorism is modest. We should 
anticipate exceptions.
---------------------------------------------------------------------------
    Sixth, a surprising finding coming out of our inmate interviews was 
solidarity among inmates against jihadist radicalization. Inmates are 
distinctively hyper-concerned with their self-interest, as often 
reflected in the offenses that led to their imprisonment. Still, in 
their own limited way, inmates expressed loyalty to the country, at 
least to the extent that they are opposed to efforts to damage the 
country. One inmate told us, ``even though we're criminals, we see 
ourselves as Americans. Couldn't turn against this country.''
    Finally, on a less certain note, there have been significant 
improvements in the screening and supervision of clergy and religious 
volunteers. One force for change was the April 2004 report by Office of 
the Inspector General concerning the provision of Islamic religious 
services to inmates in the Federal Bureau of Prisons. The Report made 
16 recommendations for change. Many State correctional agencies took 
these recommendations very seriously and improved in those areas as 
they saw appropriate. The changes have included: Requiring Imams to 
work closely with security staff to identify any potential security 
threats; not allowing volunteer Imams in facilities without supervision 
and background checks; close screening of prayer books. The uncertainty 
is the uniformity of these improved strategies Nation-wide. I know of 
no systematic work documenting the progress of these initiatives across 
all 50 State correctional agencies.
    My core argument, then, is that U.S. prisons are not systematically 
generating a terrorist threat to the U.S. homeland. They are not the 
perfect storm. This conclusion does not imply that we should write down 
the probability of a prison-generated terrorist threat to zero. There 
are instances of prisoner radicalization, with potentially grave 
consequences. For example, a plot emerged from the California State 
Prison at Folsom in 2005. Inmate Kevin James formed Jam'iyyat Ul-Islam 
Is-Saheeh (``JIS,'' the Authentic Assembly of God), which later planned 
a three-person attack on U.S. military recruitment offices, the Israeli 
Consulate, and synagogues in the Los Angeles area. The plan was to kill 
as many people as possible at each site. But the effort was thwarted by 
law enforcement in its early stages. The difficult judgment to make is 
whether Kevin James, had he been on the streets rather than behind 
bars, would have been equally inclined toward violence and more capable 
of leading a terrorist strike.
    In sum, if prison were a major cause of terrorism, we would see a 
large proportion of jihad-terrorists linked to prison. That is NOT the 
case. Still, a small number of prisoners have been radicalized behind 
bars and attempted terrorist activity. But as long as law enforcement 
continues to be alert and work collaboratively with each other, the 
threat of terrorists in and from prisons will continue to be 
diminished.

    Chairman King. Thank you very much, professor, for your 
testimony.
    Mr. Dunleavy, you, in your testimony, talk about what 
appears to be the lack of proper vetting for chaplains in State 
prisons.
    I know our staff has visited the maximum security prisons. 
We have been impressed by steps taken at the Federal level.
    But 97 percent of prisoners are in State and local prisons. 
You gave the example of the imam, the chaplain, in a New York 
prison, who was arrested and convicted last year for smuggling 
razor blades into Ryker's Island.
    He had been certified as a chaplain by the Islamic 
Leadership Council, which actually is located right outside my 
district in Wyandanch. I know it somewhat well, because the 
leaders are always picketing my office.
    But the fact is you had an organization such as that 
certifying a chaplain who is a convicted murderer. Yet he was 
certified to be a chaplain in the State prison system.
    Has that situation improved at all?
    Mr. Dunleavy. Again, I don't think so, because there is no 
standard. One of the IG's recommendations after that 
investigation in 2004 was there was to be a certified body, an 
ecclesiastical body that would do the vetting.
    Chairman King. But he was still serving in 2007.
    Mr. Dunleavy. That is correct. So cities and States were 
relying on their own standards, in some cases no standards. In 
some cases, there was no communication between a corrections 
department and a police department with respect to 
organizations or individuals that were then hired.
    Chairman King. Professor Useem seemed to say that he does 
not believe the threat is that significant from the prisons.
    Yet, Chief Downing, you say it is a subject which brings 
great concern. It is an important phenomenon relating to the 
evolving threat of Muslim Americans radicalization in prisons. 
Prisons are in fact communities at risk.
    As a person who is on the ground, who has to deal with this 
issue every day, you consider it to be a serious issue?
    Chief Downing. A very serious issue that I don't think we 
yet know the scope of the problem, because we haven't had the 
collection mechanisms in place to really understand the depth 
of the problem yet.
    But in the L.A. region, in 7 counties with 7 correctional 
facilities, we get 15 to 20 reports a month.
    They may not all be terrorism reports, but they do develop 
into open cases, which is of great concern, because we are 
looking for it now. We have educated the prison guards and the 
institutions on what to look for and how to report it.
    Chairman King. I am not asking you to divulge any facts of 
on-going investigations. But in your written statement, you say 
there are several on-going cases whose story is yet to be told. 
However, the common denominator in these cases is conversion to 
a radical form of Islam while in prison. So are you concerned 
about on-going cases relating to Islamic terrorism?
    Chief Downing. Yes. Indeed, we are. We have on-going cases. 
They involve convert prison radicals that are out in the 
community now. That story will be told when the case is 
prosecuted.
    Chairman King. Mr. Smith, in the Kevin James case, it seems 
it was the perfect confluence of a radical form of religion, 
organized gang members, and almost an assembly line of 
radicalization in the prison, going then post-prison to a 
mosque to recruit and radicalize more, and then attempting to 
carry out terrorist plots.
    Is there anything unique about a religious radical, as 
opposed to a gang member, a skinhead, or a neo-Nazi?
    Mr. Smith. Well, I think the analysis needs to be a 
comparison, for example, between an individual who has 
committed to Jihad that is on the outside of prison and one 
that has been in the prison system.
    In the State of California, you can't be in a prison system 
unless you have committed a felony. So those individuals who 
are committed to Jihad in prisons have already stepped outside 
the norms of societal behavior. They have already crossed that 
line, often with violent background, often with experience with 
weapons. Levar Washington being a perfect example of that.
    So you have an individual who is committed to Jihad and 
already has stepped out and has acted outside what we consider 
the norms of society in conducting criminal behavior.
    So the Jihadist mentality is basically overlaid on an 
individual who knows how to handle weapons, who knows to access 
weapons, who knows how to communicate, even in the prison 
system and outside the prison system.
    So when that individual then steps out of the prison, as 
happened to Levar Washington, paroled after being radicalized 
and becoming a member of JIS, you are dealing with a very, very 
dangerous situation, because this is an individual who already 
has operated on the criminal side of the law and is very 
committed to carrying out violent acts.
    Washington is a perfect example because, within 6 months' 
time, he had recruited two additional cell members. They had 
acquired weapons. They were committing armed gas station 
robberies to fund their Jihad and selecting targets, within a 
6-month period of time essentially, which is very, very fast, 
and shows the convergence of criminal sophistication as well as 
commitment to Jihad.
    Chairman King. Thank you, Mr. Smith.
    The Ranking Member is recognized.
    Mr. Thompson. Thank you very much.
    Mr. Dunleavy and Mr. Downing, you both have talked about 
the issues around prisons and the fact that so much of what is 
happening is because of lack of resources to do certain things.
    Are you saying that in the State of New York, the reason 
chaplains are not vetted, like in the prison system, in the 
Federal system, it is a matter of resources?
    Mr. Dunleavy. No. I don't believe that is the case. I don't 
believe----
    Mr. Thompson. So why aren't chaplains vetted?
    Mr. Dunleavy. That is a good question. I think that 
question has been asked since the IG's report in 2004. What are 
the standards? Who will establish the standards? Is there an 
Islamic organization, be it the Islam----
    Mr. Thompson. No, not just Islamic. Chaplains, period. My 
point is if you knew in 2004 that a problem existed where 
chaplains can be certified without the Bureau of Prisons in New 
York having some standards, here we are 8 years later and we 
still don't.
    So do you know why the State of New York doesn't have any 
standards for chaplains?
    Mr. Dunleavy. Well, again, I have to go back to the fact 
that the IG's report did not say all chaplains. It said Islamic 
chaplains. There----
    Mr. Thompson. Is there a reason why Islamic chaplains are 
not vetted?
    Mr. Dunleavy. Well, I think because of the fact that the 
individual, Warith Deen Umar, had made the comment--now, Warith 
Deen Umar was not just an imam. He was----
    Mr. Thompson. No. No. I am just trying to get to the point 
that, is there a reason why New York doesn't vet Islamic 
chaplains? Just, do you know why?
    Mr. Dunleavy. Well, I think New York does. New York State 
Department of Corrections does.
    But I think the need for standardization between New York 
State, New York City, county, you also have Federal prisons 
within New York State. You need National standards for the 
vetting, not one State----
    Mr. Thompson. So the weakness, or whatever the issue is, is 
something those units of government have created by not 
coordinating the standards?
    Mr. Dunleavy. Agreeing on the standards, that is correct.
    Mr. Thompson. Thank you.
    We all agree that there are bad people in prison.
    Mr. Smith, your comment about someone getting out of 
prison, robbing, trying to promote a terrorist cause, we 
understand that. But there are a lot of people who get out of 
prison and who do bad things for a lot of reasons.
    So I think if we look at it from that perspective, we all 
agree; whatever it is that is causing people to do bad, we need 
to fix it.
    If there is a terrorist nexus to it and we can close the 
loophole, we should. But if we look so narrow at just that, we 
have a real challenge.
    Mr. Downing, in your work in Los Angeles area, those 
counties you work, who are the most dangerous people in prison?
    Chief Downing. I would say, well, gang members certainly 
are dangerous.
    Mr. Thompson. Gang members. Describe the gang members to 
this committee.
    Chief Downing. Well, in Los Angeles, we--you know, Los 
Angeles is probably the gang capital of the United States, with 
maybe 60,000 gang members in the county of Los Angeles, rather, 
in 400 different gangs.
    They are violent. They are territorial. They have a culture 
that has developed that is exclusive. They are vulnerable. They 
are recruiters.
    Mr. Thompson. So in your experience, those really bad 
people, do those gangs continue to operate when they go to 
prison?
    Chief Downing. Very much so.
    Mr. Thompson. So, basically, we have a lot of gang 
activities that is an on-going enterprise in a lot of prisons, 
primarily the State prisons. Am I correct?
    Chief Downing. Correct.
    Mr. Thompson. So the issue here is if we are looking at 
radicalization, are you saying that those radicals, bad people, 
are gang members primarily in the percentages, versus what we 
are looking at here today?
    Chief Downing. The structure is interesting. When you go 
into a prison, you are in the Crip side, the Blood side, the La 
Eme side or this evolving Muslim side, which is getting more 
attention, but not enough. Many of the gang members are moving 
over to that side.
    As you know, Kevin James was a Rolling 30. He recruited a 
Rolling 60, who on the outside were vicious enemies, but on the 
inside became aligned with an ideology.
    Mr. Thompson. I appreciate your indulgence.
    We understand the evolving threat, but the threat, as of 
this date, in terms of who are the most dangerous people that 
we have incarcerated, are many of those individuals who are 
affiliated with gangs, based on what you are saying, the Aryan 
Brotherhood, Aryan Nation, those individuals who basically 
operate their activity out of the prisons.
    Am I correct?
    Chief Downing. Yes, you are.
    Mr. Thompson. Thank you.
    Chairman King. I recognize the gentleman from California, 
and the former attorney general of California, who knows this 
issue also closely, Mr. Lungren for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I just might say the political correctness in this room is 
astounding. As someone whose district includes the New Folsom 
Prison where the plot was hatched to commit the crimes in 
Southern California and as someone who represented the areas at 
one time where those crimes were carried out, to ignore what 
that is is, to me, astounding, absolutely astounding.
    Let me ask the experts here that we have on gangs and 
terror. How many of the street gangs in either New York or 
California have an ideology which is dedicated to the 
destruction of the United States?
    Mr. Dunleavy.
    Mr. Dunleavy. None.
    Mr. Lungren. Mr. Smith.
    Mr. Smith. None that I know of.
    Mr. Lungren. Mr. Downing.
    Chief Downing. None that I know of.
    Mr. Lungren. As serious as the gang problem is--and I spent 
most of my life working on that problem--have you come across 
leaders in the various gangs who have indicated that their 
specific purpose is to undermine the institutions of America 
and in any way associate themselves with any transnational 
terrorist organizations?
    Mr. Downing.
    Chief Downing. No, but I will say that both represent a 
type of insurgency. One is to overthrow the United States and 
kill innocent people. The other is to survive in the shadows of 
society.
    Mr. Lungren. Absolutely.
    Mr. Smith.
    Mr. Smith. Yes, but I think the distinction that needs to 
be made between a radicalized Jihadist and a gang member 
serving a prison time, even a prison gang member like a Mexican 
mafia gang member, a criminal is interested in enriching 
themselves personally with their criminal activity. All right? 
It is a selfish motivation. So that is their aim and their 
general goal.
    When you contrast that with individuals like Levar 
Washington from the JIS case, they are not interested in 
engaging in criminal activity as anything other than a means to 
carry out violent Jihad, to carry out their war of terrorism 
against the United States. In that lies the difference and the 
danger.
    Mr. Lungren. Isn't the aim of a terrorist attack to produce 
the greatest amount of terror in a community, that is to try 
and do the greatest amount of destruction, both physical and 
psychological, as opposed to gaining economic benefit?
    Mr. Smith. That is absolutely correct. I mean, one of the 
certainly tenets or accepted tenets of terrorism is this need 
to create and exploit fear in the population. That is what a 
Jihadist--that is what a terrorist seeks to do by targeting 
innocent people as we had targeted in the JIS case.
    Mr. Lungren. Mr. Dunleavy, you have been asked some 
questions about why we don't properly vet certain chaplains. 
Isn't that the crux of the problem?
    I mean, we have a religion which is an accepted, noble 
religion, one of the great religions of the world, that is 
being subjected to a radicalization by a certain percentage of 
its advocates, and there is no standard to make the judgment 
with respect to someone who is teaching or preaching in a 
prison that may be of a radical version versus a non-radical 
version?
    Isn't that the crux of the problem? How do we as a 
Government try and somehow sift through that?
    Mr. Dunleavy. Well, I think in getting back to the question 
where it was said--the question was asked who is the most 
dangerous inmate in the prison. My answer is the inmate who you 
know little or nothing about.
    When you have an inmate who is of Middle Eastern descent, 
who may have been a Wahhabi Salafist, there was an ignorance. 
There was a lack of knowledge between correction administrators 
as to the actual religion of Islam. What is the difference 
between a Sunni, a Salafist, a Sufi, a Shia?
    So there was a need for education. There was a need to 
learn. If you don't know, you can't vet. You can't establish 
standards.
    That was I think is the weakness that we have not come any 
further since that 2004 report.
    Mr. Lungren. There is an observation, about 5 years ago, 
the head of the prison system in California came to me and 
asked to have a meeting with the Chairman, at that time, to 
talk of his concern about the radicalization of Muslim 
prisoners in the California prison system.
    Subsequent to that, we had a hearing--actually, it was a 
year later when the Democrats had assumed the majority. 
Congresswoman Jane Harman conducted a subcommittee hearing in 
Torrance, California, for the purpose of looking at the Kevin 
James case.
    I might just note for the record there was no objection on 
the Majority side, and no suggestion that we were somehow 
involved in an improper pursuit of the truth there, or that we 
were somehow wrongly confining ourselves to that particular 
case and not dealing with all the other cases in the United 
States.
    I salute Congresswoman Harman for her efforts on that. I 
just wish we would see reflected now the same concern and 
bipartisan support.
    I thank the Chairman.
    Chairman King. I recognize the gentle lady from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. I thank the Chairman and I do thank the 
Ranking Member for both astute presentations as they gave their 
opening statements.
    I would like to acknowledge a colleague, Congressman Keith 
Ellison, who is here, whose statement was initially submitted 
into the record.
    Very briefly, let me define what my political correctness 
is. It happens to be this document, the Constitution. I won't 
read it, because I know everyone probably knows it by heart.
    But John Marshall said ``a Constitution is intended to 
endure for ages to come and consequently to be adapted for the 
various crises of human affairs.''
    He was one of a number of individuals who tried to 
interpret why we needed this document, because without having a 
stated vision of what America would become, he knew that we 
would be facing a number of crises. We face that today.
    I want to thank the witnesses, each of them, for their 
service and I think their critical analysis that is extremely 
important.
    But my angst with this process is that the topic lends 
itself, Professor Useem, to a myriad of analysis.
    I want to cite two individuals. We had in a previous 
hearing I think the parent of a Carlos Bledsoe. Abdulhakim 
Muhammad was his Muslim name. He had a series of altercations 
with the law enforcement: Drug, traffic offenses, nothing that 
we would applaud.
    But he had not been hardened criminal and not been in 
prison for a number of years, but he did wind up in Yemen. He 
had an overstay and wound up in the Yemen jail and became 
radicalized.
    Or maybe we should talk about Verne Jay Merrell, who the 
Chairman has listed for us. Thank him for that.
    He writes a letter, and he says, ``Prisons are fertile 
recruiting grounds for radical Muslims, and they are introduced 
to the subject by Louis Farrakhan.''
    But he was arrested for bombing an abortion clinic as a 
Christian militant.
    So my point here today, information is welcome, 
condemnation is not.
    Mr. Dunleavy, are you familiar with the Christian 
militants?
    Mr. Dunleavy. Yes, I am.
    Ms. Jackson Lee. Can one say that they might possibly want 
to undermine this country, because right now, Constitutionally, 
the right for women to choose is a Constitutional right. People 
disagree with it. But here is an individual attempting to 
undermine the protections that are given to women.
    Would you suggest that that might be compared to trying to 
undermine this country? That is a possibility, is it not?
    Mr. Dunleavy. Well, I think that anyone that goes about 
killing in the name of God is an ideologue.
    But when I talk about Dar'ul Islam, there are two worlds in 
the ideology of that. There is Dar-el Salaam, which is the 
world of Islam, and there is Dar-ul-Harb, which is the world of 
the infidels. There is no middle ground. There is no----
    Ms. Jackson Lee. I understand that. But what I am saying is 
as we look to be informational, we should include an analysis 
of how Christian militants or others might bring down the 
country. We have to look broadly, do we not?
    Mr. Dunleavy. I don't know that Christian militants have 
foreign-country backing or foreign country finance.
    Ms. Jackson Lee. I don't think that is the issue. The issue 
is whether or not their intent is to undermine the laws of this 
Nation.
    I think it is clear that that is the case. So, your 
distinction is not answering the question.
    Let me go to Mr. Useem very quickly, because I think you 
make some very valid points.
    You indicate that we are more astute. I do want to ask this 
question about the Nation of Islam. Do you know what the Nation 
of Islam is?
    Mr. Useem. Yes, I do.
    Ms. Jackson Lee. Do you view them as promoting, in the 
current 21st Century, the undermining of this Nation?
    Mr. Useem. No, I don't.
    Ms. Jackson Lee. Can you just tell us what the Nation of 
Islam is?
    Chairman King. Professor, your microphone.
    Mr. Useem. The Nation of Islam is a religious group that 
practices the Muslim religion.
    Ms. Jackson Lee. They recruit predominantly in the black 
community?
    Mr. Useem. That is correct.
    Ms. Jackson Lee. Now they are----
    Mr. Useem. Predominantly, but not entirely. For example----
    Ms. Jackson Lee. Are their underpinnings, to your 
knowledge, about improving lives or trying to straighten out? 
Is that your assessment, or do you know that?
    Mr. Useem. That is correct.
    Ms. Jackson Lee. All right. I don't want to put words in 
your mouth, but that is the basic underpinnings, as whether or 
not you agree or disagree?
    Mr. Useem. Can I add a point here?
    Ms. Jackson Lee. If you can, quickly.
    Mr. Useem. Okay, very quickly, prisons----
    Ms. Jackson Lee. Can I just ask this question, then?
    Mr. Useem. Certainly.
    Ms. Jackson Lee. Can you defend your position about the 
oversight, intensity of oversight in prisons today that would 
fraught a massive radicalization going on in our prison?
    Mr. Useem. Can I defend the----
    Ms. Jackson Lee. Yes, can you defend your proposition? 
Would you defend it now?
    Mr. Useem. That there is not a massive----
    Ms. Jackson Lee. That there is an extensive oversight in 
prisons today. There are less violent, if you will, riots 
because of oversight.
    Chairman King. The time of the gentle lady has expired.
    Ms. Jackson Lee. Can he answer the question, please?
    Chairman King. He will answer the question if you allow him 
to.
    Professor, you can answer the question.
    Ms. Jackson Lee. I will allow him to.
    Mr. Useem. Prisons are much safer now, much more orderly, 
much more secure. Rates of violence are down. You walk in to a 
maximum security prison now, it is orderly. It is safe. Not 
all, but most. So that is the case.
    That has promoted the ability of corrections officials to 
maintain and look closely at this radicalization problem.
    Chairman King. The time of the gentle lady--I am sorry.
    Mr. Useem. I was going to add, can I speak of the JIS case?
    Chairman King. No actually, the time of the gentle lady is 
expired.
    The gentleman from Minnesota is recognized for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. I appreciate the 
time.
    Thank you for the witnesses today for coming and what I 
believe discussing a very, very important issue of what is 
happening here in the United States' prisons.
    What I would like to first start off with is, Mr. Downing, 
if you could just tell me a little bit more about the 
radicalization process within the prisons themselves.
    Can you kind of comment on that, and how someone becomes 
radicalized?
    Chief Downing. Inside the prison systems, well, it is not 
too far from how a gang member goes through the process to 
become a gang member, where there is an orientation, there is 
an identification, there is an indoctrination process, and then 
there is a type of radicalization that goes through.
    But it is the people. It is the charismatic leaders. It is 
the materials. It is the places of association that contribute 
to that.
    We have evidence where we have seen a little bit of 
convergence with the gangs. We have a higher African-American 
prison population that is being converted. We have seen this 
come out onto the streets in terms of convert mosques coming up 
in the different communities as well.
    Mr. Cravaack. Thank you for that.
    Mr. Dunleavy, could you comment on that as well.
    Mr. Dunleavy. The process of radicalization, particularly 
Islamic radicalization in the prison system, is very, very 
selective. It is a filtering process. It does not occur with 
500 inmates in the yard of Attica yelling Jihad.
    The facilitators and the recruiters that are in the system 
have the unique ability of profiling. They are able to spot an 
individual who walks into a cell block for the very first time 
and they can tell what that person, if he has--first of all, 
they know he has a propensity for violence because he has 
already committed crime. They know that he is somewhat by 
himself, so he wants a sense of purpose to his life.
    They do all this profiling within the first day that they 
meet him. Then they begin to disciple, first to convert him, 
then to move him when he is going to be released to a Islamic 
mosque that they have recommended to him.
    Then from there, if he continues, to move him to an Islamic 
center, either in Virginia or in Florida. Then from there to 
filter him to overseas travel for continued studies.
    So it is the process that starts often in the county jail, 
moves through the State system, and through the post-release 
and parole.
    Mr. Cravaack. Could you explain? We are doing some 
research. We found that due to the insistence of the Justice 
Department, Attorney General Holder, the Bureau of Prisons is 
forced to play Louis Farrakhan's Nation of Islam videos as 
sermons or chapel services for Muslim prisoners.
    Is that correct or incorrect?
    Mr. Dunleavy. I am not aware of that.
    Mr. Cravaack. Can anybody comment on that?
    Okay. The next thing, about sharia law, radical Islam, 
would you agree or disagree, and go across the panel here, that 
radical Islam would place sharia law as the primary law for 
their religion.
    Would you agree or disagree to that?
    Mr. Dunleavy. Oh, absolutely.
    Mr. Smith. Yes, it is my understanding that is a central 
tenet to their agenda.
    Mr. Cravaack. Mr. Downing.
    Chief Downing. Yes, and that is what some of the material 
is that is in the prison system. Awlaki videos and lectures are 
about the creation of a caliphate of worldwide Muslim 
domination and sharia law.
    Mr. Useem. That was explicit in the Kevin James, he stated 
that explicitly?
    Mr. Cravaack. In sharia law, then, could you also comment, 
does sharia law supersede the Constitution of the United 
States?
    Mr. Dunleavy. In the committed Islamic Jihadist, it 
absolutely does. There is only one document.
    Chief Downing. I agree, I mean the reality is, is that for 
a committed Jihadist, sharia law is God's law, and that is the 
only law that they have to follow. Everything else is man-made 
law. That is not something that they feel has any authority 
over them in their actions.
    Mr. Smith. I would agree. However, I would just offer this, 
that in our outreach and engagement with Muslim communities, we 
recognize, and the Muslim communities recognize, that the law 
of the land is the Constitution. And that there may be sharia 
principles in their community that they look at, similar to 
Jewish laws, but the law of the land, the rule of law is the 
Constitution of the United States.
    Mr. Useem. That is correct. I would add that the Muslim 
community in the United States is relatively prosperous, middle 
class and well-educated. But they do accept the Constitution as 
the law of the land.
    Mr. Cravaack. So it is specifically radical Islam, you 
would agree then--sharia law would supersede the Constitution 
of the United States in radical Islam? Would that be a correct, 
fair statement? I have got 4 seconds.
    Mr. Smith. I think that is the distinction that needs to be 
made, that this is, what I am talking about is from a radical 
Jihadist mentality, not mainstream Muslims.
    Mr. Cravaack. Okay. Thank you very much.
    Chief Downing. I think you would have to put violent 
radical.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Michigan, Mr. Clarke, is recognized for 
5 minutes.
    I am sorry. I didn't see you there, Henry.
    My good friend, Mr. Cuellar is recognized, 5 minutes and an 
extra 30 seconds because of the snub.
    Mr. Cuellar. Thank you very much, Mr. Chairman, Mr. 
Thompson.
    Let me just look at some of the conditions. When I was in 
the State of Texas, I used to chair the budget for the prison 
systems. As you know, Texas has a pretty good-sized prison 
system. I have gone through the prison system. I spent a lot of 
time there, trying to see what conditions there are. I think, 
whether it is in Texas or anywhere else, you have certain 
things that come in to play.
    You know, staffing issues is one of them, the conditions, 
recidivism rates that we look at. I think all of you are very 
familiar with it.
    So when you go in there, you know, we are talking about not 
only the prisons at a State level, but you know, you look at 
the Federal level--and I know here at the Federal level, we are 
looking at these particular issues.
    But when you look at the majority of the prisoners that we 
have, I assume they are in the State prisons. Is that correct? 
Compared to Federal?
    So how do we address the issues that you all want to bring 
in, or the issues of criminal gangs, whether it is, you know, 
Mexican mafias, or whatever it might be? How do we address the 
issues, when most of the prisoners are at prisons where we have 
to deal with budget cuts and have to deal with issues like 
that?
    How do we address this issue? Still not forget about the 
criminal gangs, and, you know, especially most of them are 
going to stay here, not going to go abroad. They are going to 
stay here. They have to come back and get part of our society.
    How do we address these issues without--you know, I know 
this is an issue that is important to some folks, but I am 
looking at the big picture. How do we address this with all the 
conditions we are facing right now? Whoever wants to take it.
    Mr. Dunleavy. Well, I think the first thing you have to do 
is set a National standard. I mean, all prisons, as you said, 
have the same circumstances.
    But I think we have the resources in place. You have 
agencies. You have law enforcement agencies. You have 
correctional agencies. You have post-relief parole and 
probation agencies that need to work together, but there has to 
be some sort of standardization.
    Mr. Cuellar. Let me just, I believe 5 years ago, the Senate 
Homeland Security held a similar hearing on prison 
radicalization. Witnesses noted there that there was no 
consistently applied standards of procedures in State prisons 
to determine, for example, in this case, what religious reading 
materials is appropriate for prisoners.
    Have we seen any improvements to them in the last 5 years, 
since that Senate hearing?
    Mr. Dunleavy. I don't think you have on the State level. 
You haven't found any standardization. Each State is kind of 
marching to their own step.
    Mr. Useem. May I speak to that?
    Mr. Cuellar. Yes.
    Mr. Useem. I think there have been significant improvements 
including in the State of Texas. Texas prisons now are much 
safer, much more secure.
    What hasn't been done is a documentation of these changes. 
There are, you know, 50 State correctional agencies, the Bureau 
of Prisons. There is no work that I know of that compares 
documents, the standards that are used. That would be very 
helpful if that were done.
    Mr. Smith. I don't--if I can just weigh in for a second. I 
don't think it is as potentially complicated as it might seem. 
The particular groups that we are talking about, these 
particular radicalized inmates, represent a very small 
proportion.
    Mr. Cuellar. Well, right there, let me hold you. That is 
exactly my point. I can understand this might be important to 
the Chairman, and I respect his opinion. But that is a small 
portion.
    What about the larger amount of population, prison 
population that we have? I mean, I believe the United States 
still puts more people in prison than any other country.
    What about that larger picture? I know this is important, 
this part, but what about the rest?
    Mr. Smith. Well, I just wanted to say, it is a small 
portion with a much greater exponential danger to the 
community, okay? That is the point.
    The reality is that there are procedures in place in the 
State institutions. They have institutional investigators to be 
able to look at all of these different Crips, Bloods, Mexican 
mafia, and the like.
    So it is not as if they don't have the institutional 
wherewithal to examine and investigate these groups. This is 
simply just another group.
    So it is not as if we have to reinvent the wheel to be able 
to take a look at, evaluate, and assess the danger presented by 
these radical prisoners.
    Mr. Cuellar. So your point is--because I got 30 seconds 
plus an additional 30 seconds. But the point is it is one group 
of many other groups that we still have to look at, anybody 
that poses a threat to our society, to make sure our streets 
are safe, correct?
    Mr. Smith. Correct. Although, as I said, it is my 
professional opinion that this particular group of radicalized 
inmates presents a exponentially greater danger to innocent 
individuals and civilians out on the outside.
    Mr. Cuellar. Right. Well, thank you so much.
    I got just a few seconds.
    Mr. Chairman, can I just allow----
    Chairman King. I promised you an extra 30 seconds because 
of the snub.
    Mr. Cuellar. Okay.
    Ms. Jackson Lee. May I introduce this in for the record, 
Mr. Chairman?
    Mr. Cuellar. Could I yield too to the lady? Just to 
introduce, nothing else.
    Ms. Jackson Lee. That can't be restrained, so I am holding 
up.
    Chairman King. We will see.
    Ms. Jackson Lee. Mr. Chairman, I would like to ask 
unanimous consent to submit into the record an FBI law 
enforcement bulletin regarding two prison radicalization. It 
will show to you that, on balance, a ADL statement on Texas-
based white supremacist gang growing and dangerous; ADL bigotry 
behind bars; and also gangs with cartel ties, Aryan 
Brotherhood, Azteca--excuse me--Black Guerrilla Family and 
Mexican Mafia, to show the balance and the need for an 
expansive review.
    I ask unanimous consent to have this submitted into the 
record.
    Chairman King. Without objection, so ordered.
    [The information follows:]

             Bulletin Submitted by Hon. Sheila Jackson Lee

         FBI Law Enforcement Bulletin--Prisoner Radicalization
October 2010, by Dennis A. Ballas, MA
    On July 5, 2005, police in Torrance, California, arrested Levar 
Haley Washington and Gregory Vernon Patterson because of their 
suspected involvement in a string of gas station robberies. Officers 
conducting a standard follow-up investigation searched Washington's 
apartment and found jihadist material, including an apparent target 
list. Both suspects are U.S. nationals and converts to Islam. This 
arrest of ``common criminals'' quickly led to a large-scale 
investigation of a homegrown terrorist plot directed against targets in 
Southern California. Many people found it surprising that such a threat 
could exist in their own community. Even stranger, individuals within 
the confines of prison walls fermented the plot.

                             IMPORTANT CASE

    Washington and Patterson were part of Jam'iyyat Ul-Islam Is-Saheeh 
(JIS), Arabic for Assembly of Authentic Islam, a radical prison 
organization. The JIS interpretation of Islam, sometimes known as 
``Prison Islam,'' supports the establishment of an Islamic caliphate, 
or government, in the United States and advocates the targeting of the 
American and Israeli governments, as well as Jews, in retaliation for 
their policies regarding Muslims.\1\
---------------------------------------------------------------------------
    \1\ Anti-Defamation League, ``Two Sentenced in Los Angeles Terror 
Plot Against Jewish Institutions,'' http://www.adl.org/main_Terrorism/
los_angeles_sentenced.htm (accessed March 26, 2010).
---------------------------------------------------------------------------
    In 2004, Kevin James, an inmate serving time for robbery 
convictions at the New Folsom Prison near Sacramento, California, led 
the JIS. He recruited fellow prisoners to join and preached the duty of 
members to target enemies of Islam, or ``infidels,'' including the U.S. 
Government and Jewish and non-Jewish supporters of Israel. James 
distributed a document in prison that justified the killing of infidels 
and made members take an oath not to speak of the existence of JIS. He 
also allegedly sought to establish groups, or cells, of members outside 
prison to carry out violent attacks.\2\
---------------------------------------------------------------------------
    \2\ J. Kouri, ``Four Terrorists Arrested for Conspiracy, 
Robberies,'' http://www.americanchronicle.com/articles/view/2231 
(accessed March 26, 2010).
---------------------------------------------------------------------------
    James met Washington in prison in 2004 and introduced him to JIS 
and its beliefs. Prior to Washington's release that same year, James 
provided him with ``Blueprint 2005,'' a document urging prospective JIS 
members to blend into society by marrying, getting a job, and dressing 
casually. The document also instructed followers to study Arabic, 
acquire two pistols with silencers, and learn how to make bombs.\3\
---------------------------------------------------------------------------
    \3\ Anti-Defamation League, ``Two Sentenced in Los Angeles Terror 
Plot Against Jewish Institutions.''
---------------------------------------------------------------------------
    Washington used the document to recruit Patterson, an employee at 
Los Angeles International Airport (LAX), and another individual, Hamad 
Riaz Samana, a Pakistani citizen, at the Jamaat-E-Masijudal mosque in 
Inglewood, California, where they all worshiped. Both Patterson and 
Samana swore allegiance to Washington and pledged to serve as 
``mujahideen,'' Muslim guerilla warriors engaged in a jihad.\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    The men plotted to attack Jewish institutions and other targets in 
the Los Angeles area, including synagogues, the Israeli Consulate, LAX, 
and U.S. military recruiting offices and military bases, intending to 
kill as many people as possible.\5\ They planned to carry out their 
attack on a synagogue during Yom Kippur to increase the number of 
casualties; the plotters also considered the fourth anniversary of the 
September 11 terrorist attacks.\6\
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ Ibid.
---------------------------------------------------------------------------
                           EFFECTIVE RESPONSE

Identification of Terrorist Activities
    The Los Angeles Police Department (LAPD) trains its officers on the 
tactics and methods used by contemporary terrorists. This includes the 
various steps that lead up to an attack, such as target acquisition, 
preattack surveillance, and supply procurement. The JIS investigation, 
conducted by more than 200 investigators from the Torrance Police 
Department (TPD), LAPD, FBI, and other local and Federal law 
enforcement agencies, revealed that Washington, Patterson, and Samana, 
under the leadership of James, had taken part in all of these 
activities.
    Patterson and Washington originally were connected to the gas 
station robberies when Patterson, who lived with Washington, dropped a 
cell phone at one of the crime scenes. During a search of their 
apartment, investigators found evidence of target acquisition in a 2-
page document written by Samana titled, ``Modes of Attack,'' which 
listed the addresses of each location they targeted.
    Prior to their arrests, the JIS members conducted surveillance and 
used the internet to research possible targets. They easily did so with 
commonly used websites that allowed them to obtain overhead and street-
level views of potential target locations.
    The suspects ultimately advised investigators that they conducted 
the gas station robberies to raise funds to finance their terror 
efforts. This constituted the supply procurement stage. The FBI later 
determined that Patterson bought a .223-caliber rifle with the proceeds 
from his robberies.

Valuable Measures
    The JIS case serves as an excellent example of local law 
enforcement using straight-forward crime-fighting efforts to thwart 
terrorist activities. Investigators from TPD followed the clues to 
locate the robbery suspects, and they had the training that allowed 
them to recognize that they had uncovered a terrorist cell, not just a 
group of common criminals.
    Perhaps most important, the TPD had established relationships with 
its local and Federal law enforcement partners. These partnerships 
allowed for a coordinated investigation sufficient to disrupt JIS' 
terror plan, identify all involved parties, and ensure an eventual 
successful prosecution. As stated by the special agent in charge of the 
FBI's Los Angeles office, ``This case reminds me of the evolving terror 
threat we face and continues to serve as one of the finest examples of 
line police officers uncovering a terrorist plot and setting aside 
jurisdictional boundaries to work with the JTTF.''\7\
---------------------------------------------------------------------------
    \7\ U.S. Department of Justice, Federal Bureau of Investigation, 
``Man Who Formed Terrorist Group That Plotted Attacks on Military and 
Jewish Facilities Sentenced to 16 Years in Federal Prison,'' http://
www.justice.gov/usao/cac/pressroom/pr2009/024.html (accessed March 26, 
2010).
---------------------------------------------------------------------------
    Washington and Patterson pled guilty in 2007 to charges of 
conspiring to wage war against the United States. In 2008, they 
received sentences of 22 years and 12 years respectively. Washington 
also was sentenced to an additional 22 years in prison for unrelated 
robbery and weapons charges. Kevin James pled guilty in Federal court 
to conspiring to levy war against the United States. In 2009, James was 
sentenced to 16 years in Federal prison. Hamad Samana was sentenced to 
70 months in prison in 2009 for his participation in the plot.

                            SERIOUS PROBLEM

    The radicalization of Washington in prison is not unique. Kevin 
James himself was radicalized while incarcerated. In 1997, the then 21-
year-old began serving a 10-year sentence for robbery at the California 
State Prison in Tehachapi. Initially while in prison, James followed a 
traditional form of American Islam, Nation of Islam, but found those 
teachings uninteresting. JIS provided him a level of protection not 
afforded other religious followers because it is based on a model in 
which its members act as a prison gang. The group not only has its own 
hierarchy, code of conduct, and secret communication system but the 
members also have their own group identity. This gives them a shared 
purpose and has led to a form of collective resistance against the U.S. 
Government.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Justice, Office of Justice Programs, 
National Institute of Justice, Prisoner Radicalization: Assessing the 
Threat in U.S. Correctional Institutions (Washington, DC, 2008).
---------------------------------------------------------------------------
    While only a small percentage of converts turn radical beliefs into 
terrorist action, the James case is not an isolated event.\9\ Jose 
Padilla, a Chicago, Illinois, street gang member, is just one more 
example of someone who became a radical Islamist while in prison. 
Authorities arrested him in 2002 on suspicion of planning to explode a 
``dirty bomb.''\10\
---------------------------------------------------------------------------
    \9\ Ibid.
    \10\ Ontario Consultants on Religious Tolerance, ``Potential for 
Radicalization of U.S. Muslim Prison Inmates,'' http://
www.religioustolerance.org/islpris.htm (accessed March 26, 2010).
---------------------------------------------------------------------------
    Prisons literally provide a captive audience of disaffected young 
men easily influenced by charismatic extremist leaders. These inmates, 
mostly minorities, feel that the United States has discriminated 
against them or against minorities and Muslims overseas. This perceived 
oppression, combined with a limited knowledge of Islam, makes this 
population vulnerable for extremists looking to radicalize and 
recruit.\11\
---------------------------------------------------------------------------
    \11\ FBI Deputy Assistant Director Donald Van Duyn, statement 
before the Senate Committee on Homeland Security and Governmental 
Affairs and Related Agencies, September 19, 2006, http://www.fbi.gov/
congress/congress06/vanduyn091906.htm (accessed March 26, 2010).
---------------------------------------------------------------------------
    The shortage of qualified religious providers in prisons heightens 
the threat of inmate radicalization. Prisoners with little training in 
Islam have asserted themselves as leaders among the prison population, 
at times misrepresenting the faith. Prison Islam incorporates violent 
inmate culture with religious practice. Currently, little 
standardization or accreditation exists to identify persons qualified 
to teach Islam or lead its services in prisons. Wardens rely on local 
endorsing agencies or simply leave it up to inmates to choose. Prison 
authorities are not ensuring that religious leaders have adequate 
training or if they espouse radical theology.\12\
---------------------------------------------------------------------------
    \12\ George Washington University Homeland Security Policy 
Institute and the University of Virginia Critical Incident Analysis 
Group, Out of the Shadows: Getting Ahead of Prisoner Radicalization, 
available at http://www.healthsystem.virginia.edu/internet/ciag/
publications/out_of_the_shadows.pdf (accessed March 26, 2010).
---------------------------------------------------------------------------
                          POTENTIAL SOLUTIONS

    Currently, and not surprisingly, researchers are proposing the need 
for more study in the area of prisoner radicalization. The magnitude of 
the problem remains unknown. Authorities must temper their responses 
with the understanding that religious conversion differs from 
radicalization. Many people have advocated the necessity of more effort 
in identifying and recruiting qualified chaplains who could teach a 
more mainstream version of Islam in prisons. Even so, the JIS case 
demonstrates that some prisoners will find Prison Islam more attractive 
than a moderate or mainstream teaching of the Quran.
    Other recommended solutions to the radicalization problem stem from 
the position that groups, such as JIS, are prison gangs and that 
authorities should deal with them as such. In California, gang 
investigators assigned to prisons have been trained to recognize and 
monitor the potential radicalization of inmates. Of particular concern 
are people, such as Washington, who can be paroled into the community 
after radicalization. Such individuals pose the threat of committing 
acts of violent jihad. In an effort to get an early warning about any 
such prisoner who may play the role of the martyr, California's 
correctional authorities forward information about prison 
radicalization to the State's intelligence fusion centers, where 
officials from all three levels of government, as well as the private 
sector, share information. Likewise, the Federal Bureau of Prisons and 
the FBI address the problem, as well, both by vetting chaplains and 
religious volunteers and by closely tracking inmates with suspected 
terrorist ties.\13\
---------------------------------------------------------------------------
    \13\ J. Straw, ``Prisons: Fostering Extremism?'' http://
www.securitymanagement.com/article/prisons-fostering-extremism 
(accessed March 26, 2010).
---------------------------------------------------------------------------
                               CONCLUSION

    The problem of prisoner radicalization is a serious one. Clearly, 
any solution will require a multiagency and multidisciplinary response 
and will rely on better education, intelligence, and enforcement. 
Seemingly, law enforcement and government in general are better 
positioned to respond to, if not prevent, future incidents, like the 
JIS case. And, certainly, a greater awareness of the threat exists.
                                 ______
                                 
              Article Submitted by Hon. Sheila Jackson Lee
      Texas-Based White Supremacist Gang ``Growing And Dangerous''

    Dallas, TX, December 16, 2009.--The Aryan Circle, an often brutal 
white supremacist gang based primarily in Texas, is ``growing and 
dangerous,'' according to the Anti-Defamation League (ADL), which today 
released a new report on the group's widening influence inside and 
outside Texas prisons.
    Founded by Texas prison inmates in the 1980s, Aryan Circle is now 
the second-largest white supremacist gang in Texas and one of the 
largest in the United States. Membership measures at least 1,400 
people, according to the ADL report, The Aryan Circle: Crime in the 
Name of Hate.
    Aryan Circle members often commit crimes to fund activities and 
dissemination of their white supremacist ideology. Among their most 
frequent crimes: Illicit drug making and selling, property theft, and 
identity theft. But Aryan Circle members also have been behind vicious 
hate crimes and assaults.
    ``The Aryan Circle sets itself apart form other white supremacist 
groups by running a profit-driven and often violent criminal 
enterprise, both in the prison system and on the streets,'' said Mark 
Briskman, ADL North Texas/Oklahoma Regional Director. ``Aryan Circle 
members have participated in organized violence, including attacks 
against rival gangs, hate crimes, and the murders of suspected 
informants and law enforcement officers, while at the same time 
espousing an ideology that members of the white race are superior and 
disenfranchised.'' Aryan Circle members also have a long track record 
of murder, including the killings by a Houston Aryan Circle member of 
two police officers in Bastrop, Louisiana in 2007.
    Most of the group's members are concentrated in Texas, with cells 
in or near many metropolitan areas, including Houston, Dallas, Fort 
Worth, Austin, San Antonio, Waco, San Angelo, Wichita Falls, and 
Midland/Odessa, among others. The group also has spread its tentacles 
into surrounding States, has attempted to actively recruit new members 
in Texas' border States, and individual cells and members have been 
noted across the country.
    Read more on-line on our website at http://www.adl.org/PresRele/
Extremism_72/5678_72. The Anti-Defamation League, founded in 1913, is 
the world's leading organization fighting anti-Semitism through 
programs and services that counteract hatred, prejudice, and bigotry.
                                 ______
                                 
              Article Submitted by Hon. Sheila Jackson Lee
                     Racist Groups in U.S. Prisons

           BIGOTRY BEHIND BARS: RACIST GROUPS IN U.S. PRISONS

Introduction
    Driven by a belief in their superiority, white supremacist prison 
gangs contribute to increased racial tensions and violence in American 
penitentiaries. Not only do their activities undermine prison security, 
but their extreme rhetoric and animosity toward other races often stay 
with gang members long after their release.
    Prison officials estimate that up to 10 percent of the Nation's 
prison population is affiliated with gangs.
    Since prisoners tend to segregate themselves by race, white 
supremacist gangs may appear more attractive to white inmates--
especially those seeking protection--than they would outside 
penitentiary walls. Inmates already sympathetic to racist ideology 
become more radical in their beliefs in the racially charged prison 
environment.
    One of the best-known racist prison gangs is Aryan Brotherhood, 
which emerged in the 1960s at California's San Quentin Prison. This 
violent gang has since spread to prisons throughout the United States 
and has been linked to a number of murders, both in and out of prisons.
    A number of racist groups in the U.S. sponsor prison ``outreach'' 
programs that send tapes and literature filled with white supremacist 
propaganda to inmates. These extremist organizations encourage racist 
inmates by treating them as ``martyrs,'' fueling their racist ideology 
through violent rhetoric.

Racist Prison Gangs
    The vicious racist murder in June of James Byrd Jr. in Jasper, 
Texas, has drawn attention to the disturbing fact that some inmates 
develop and spread racist ideologies as members of prison gangs. Prison 
officials estimate that up to 10 percent of the Nation's prison 
population are affiliated with such gangs.
    Not only do racist prison gangs jeopardize the stability of the 
Nation's penitentiaries, but when members of these gangs are released, 
they continue to express violent racist rhetoric and a strong animosity 
toward other races. Indeed, at least two of the men indicted on capital 
charges for Byrd's murder are believed to have associated with members 
of the violent white supremacist prison gang Aryan Brotherhood during 
their incarceration at a prison in Tennessee Colony, Texas. According 
to law enforcement estimates, there are 432 Aryan Brotherhood members 
in Texas penitentiaries.
    Inside the prison system, where inmates often segregate themselves 
according to race, white supremacist groups may prove appealing to 
white convicts looking for group protection. In turn, these racist 
prison gangs can raise levels of mutual suspicion and antagonism. 
Indeed, in the wake of Byrd's murder, friends and neighbors of those 
charged have said that the alleged killers did not harbor racist 
feelings before they entered jail.
    While it is doubtful that someone with no racist inclinations would 
become involved with a group like Aryan Brotherhood, it is reasonable 
to assume that those harboring some racist sentiments--but who may have 
never acted on them before--could become more radical in a racially 
charged environment like prison, where groups like Aryan Brotherhood 
offer them group identity and protection from other gangs.

Brotherhood of Hate
    Aryan Brotherhood originated in California's San Quentin Prison in 
the 1960s and has since spread to other prisons throughout the United 
States. Affiliated with the paramilitary hate group Aryan Nations, 
Aryan Brotherhood reportedly engages in extortion, drug operations, and 
violence in correctional facilities; many members bear the identifying 
tattoo of a swastika and the Nazi SS lightning bolt. Aryan Nations also 
publishes The Way, a newsletter geared toward prisoners. The 1987 
inaugural issue of that publication described its purpose as being ``to 
provide a good source of Bible study into the Israel Identity \1\ 
message and its related histories and politics for convicts, while also 
providing news and happenings of concern to our chained brothers and 
sisters.''
---------------------------------------------------------------------------
    \1\ Identity is a pseudo-theological hate movement that maintains 
that Anglo-Saxons, not Jews, are the biblical ``chosen people,'' that 
non-whites are ``mud people'' on the level of animals and that Jews are 
the ``children of Satan.''
---------------------------------------------------------------------------
    Aryan Brotherhood is not known to be as systematically organized as 
other prison gangs (such as the Bloods, Crips, or the Mexican Mafia), 
but its reputation for violence is well documented. In April 1997, John 
Stojetz, an Aryan Brotherhood leader at an Ohio prison, was convicted 
of murdering a 17-year-old Black prisoner. In October 1994, Donald 
Riley, a member of the Brotherhood, was sentenced to life in prison for 
the murder in Houston of a Black marine who had recently returned from 
service in Desert Storm. Moreover, of the eight inmates murdered by 
fellow prisoners at the Pelican Bay State Prison in California since 
1996, six have been linked to an internal war within Aryan Brotherhood. 
A local prosecutor characterized the situation at the prison as a 
``reign of terror.'' In Pelican Bay's Security Housing Unit, there are 
reported to be up to 50 inmates who are members of the group.
    Other racist groups have emerged from behind bars as well. One of 
the men charged with Byrd's murder reportedly has a Klan tattoo 
depicting the lynching of a Black man, and another that reads 
``C.K.A.,'' which stands for Confederate Knights of America. C.K.A. is 
a small white supremacist prison gang in Texas penitentiaries.
    Like Aryan Brotherhood, the white supremacist gang Nazi Low Riders 
(NLR) originated inside the California prison system, but also has 
active members beyond penitentiary walls. Nevertheless, serving a 
prison term appears to be a requirement for membership. The gang is 
controlled by the ``seniors,'' all of whom have been NLR members for at 
least 5 years and are voted in by other seniors. Only seniors can 
induct new members, and are responsible for educating the members they 
recruit. There is reason to believe that Aryan Brotherhood aligned 
itself with NLR in the late 1970s or early 1980s, when the California 
Department of Corrections began cracking down on Aryan Brotherhood 
members, many of whom ended up isolated from the rest of the prison 
population because of their gang ties. NLR remained a separate gang, 
but helped promote Aryan Brotherhood's interests within the prison 
system.
    Like Aryan Brotherhood, NLR rallies its members around standard 
racist propaganda and rhetoric that bolster ``white pride'' while 
blaming Jews, Blacks, and other minorities for most of the problems in 
America. Still, their activity is not limited to race-baiting: NLR 
members reportedly seek to dominate a significant portion of the prison 
drug trade and other criminal activity within the white penitentiary 
population. Outside of prisons, NLR members are involved in drug 
trafficking (especially methamphetamine, or speed) and have been 
responsible for a number of random attacks on Blacks.

Racist Outreach to Prisoners
    Many white supremacist and anti-Semitic groups reach out to 
prisoners by offering them heavily discounted or free copies of their 
publications; other readers of these racist magazines and newspapers 
are encouraged to write to these ``prisoners of war.'' In 1991, the 
North Carolina Department of Corrections banned copies of the racist 
World Church of the Creator's The White Man's Bible, fearing it might 
trigger race riots. Jubilee Newspaper, a bi-monthly Identity-affiliated 
newspaper published in Midpines, California, has its own ``Jubilee 
Prison Ministry,'' which sends reading material to imprisoned 
subscribers. In addition, Tom Metzger has championed the causes of 
white supremacist prisoners on his ``WAR [White Aryan Resistance] 
Hotline,'' often providing listeners with their addresses so they may 
write letters of support.
    There are even racist publications written by and for prisoners. 
Operating out of Portland, Oregon, Thule calls itself a ``journal of 
philosophical, spiritual, historical, and political folkish-tribalism, 
dedicated to the enlightenment and progression of our prisoners.'' In 
fact, Thule articles idealize Nazis, advocate the racist ``theology'' 
of the Identity Church movement and are replete with racist and anti-
Semitic propaganda and conspiracy theories. The February 1998 issue of 
Thule, which drew submissions from prisoners around the country, 
features an article commenting on the conspiracy theories surrounding 
the Oklahoma City Bombing. Its author was Richard Scutari, one-time 
member of the terrorist group The Order, who is serving a 60-year 
sentence for racketeering and robbery. Thule also supplies its readers 
with the addresses of other racist organizations and publications, 
including Aryan Nations, World Church of the Creator, and the NSV 
Report.
    Prisoner of War, a sporadically produced magazine directed at white 
supremacist prisoners, is published by the editors of Storm Watch, an 
Owensboro, KY, neo-Nazi publication. A recent issue of Prisoner of War 
featured an editorial by WAR leader Tom Metzger, a history of skinheads 
and a biography of Ben Klassen, the deceased founder of the Church of 
the Creator. In addition, Storm Watch dedicated the bulk of its 
December 1997 issue to a tribute to The Order, including pictures of 
its jailed members and inmates and essays written by some of them. In 
one essay, an unrepentant Scutari reflects on his role in The Order and 
asks himself whether he might have done things differently: ``I truly 
believe that our culture and the survival of our Race are in jeopardy. 
As a man who holds the virtues of honor, loyalty, and duty as the core 
of my soul, I was duty bound to do no less. In fact, I am amazed that 
others have not picked up where we left off.''
    These prison ``outreach'' programs fill a central role in the life 
of their target audience: While the prisoners' community has shunned 
them for their criminal activity, racist groups engage them with white 
supremacist rhetoric, thereby fostering in them extremist beliefs.

Treated as Heroes
    For some right-wing extremists, serving time in jail bolsters their 
status in the eyes of their supporters. For example, members of The 
Order (including Scutari and David Lane) are treated as ``prisoners of 
war'' in the rhetoric of racist publications. Moreover, Thule and other 
publications continue to provide a forum for such extremists to voice 
their hate: Since his imprisonment in 1985 (for racketeering, 
conspiracy and for violating the civil rights of slain radio 
personality Alan Berg), Lane has written for The New Order, WAR, Jew 
Watch, Aryan Nations Newsletter and The Klansman, published by the 
Invisible Empire, Knights of the Ku Klux Klan. In the December 1997 
issue of Storm Watch, he writes, ``When it is truly written that judeo-
America [sic] and judeo-Christianity [sic] were the twin murderers of 
the White race, let the executioner's devices be equally recorded. And 
let the last generation of the true White men wreak vengeance with 
death and destruction. For 'tis far better that the great race die with 
the roar of a lion than the bleat of a judeo-christian [sic] sheep.'' 
Lane's message of hate is further publicized by his wife, Katya, who 
set up a small company called 14 Word \2\ Press in St. Maries, Idaho, 
in 1995 to publish ``the political writings and religious teachings of 
David Lane.''
---------------------------------------------------------------------------
    \2\ 14 Word refers to the phrase, ``We must secure the existence of 
our people and a future for white children.''
---------------------------------------------------------------------------
    Another popular ``prisoner of war'' in far-right circles is Gary 
``Gerhard'' Lauck, now serving a 4-year sentence in a German jail for 
inciting racial hatred by disseminating anti-Semitic and racist 
materials. Lauck is head of the Lincoln, Nebraska-based neo-Nazi group 
NSDAP/AO (the German acronym for National Socialist German Workers 
Party-Overseas Organization) whose publication, The New Order, lists 
Lauck as ``Publisher & Political Prisoner.'' A March 16, 1998 article 
in The Spotlight, probably the most widely-read extremist publication 
in America today, focused on jailed German Holocaust deniers and 
encouraged readers to write to them as well as to Lauck, whose prison 
address was supplied.

Non-White Racists in Prison
    White supremacist groups are not the only racist organizations 
active in prisons. The Nation of Islam, the Black Muslim group led by 
Minister Louis Farrakhan, has organized an extensive prison outreach 
program since 1984. NOI has fought, sometimes in court, to have its 
prison emissaries recognized as chaplains separate from the mainstream 
Muslim chaplaincy. Supporters of the prison outreach program argue that 
NOI's message of discipline and morality helps rehabilitate prisoners; 
moreover, NOI's prison emissaries help inmates find jobs and housing 
upon their release. However, critics worry that Farrakhan's rhetoric--
including a long record of anti-Semitic and anti-white statements--may 
spill over into NOI's prison outreach program and radicalize prisoners.
    Despite efforts to integrate prisons across the country, prison 
officials and inmates have reported that prisoners identify themselves 
primarily along racial lines. This makes it easier for racist prison 
gangs--with the help of white supremacist ``outreach'' programs--to 
attract new members, especially those seeking protection. In such a 
racially-charged environment, enmity toward members of other races 
often grows uncontrolled--a fact which may lead some inmates to commit 
race-based violent crimes when they are released. This makes prison 
gangs a problem not only for law enforcement officials, but for the 
law-abiding general community as well.
                                 ______
                                 
              Article Submitted by Hon. Sheila Jackson Lee
         Drug Cartels United Rival Gangs to Work for Common Bad

By Kevin Johnson, USA TODAY, updated 3/6/10
    Rival prison gang members, including warring white supremacist and 
Hispanic groups, are brokering unusual criminal alliances outside 
prison to assist Mexican drug cartel operations in the U.S. and Mexico, 
Federal law enforcement officials say.
    The groups, including the Aryan Brotherhood and Mexican Mafia, 
remain bitter enemies in prison, divided along racial and ethnic lines. 
Yet outside, the desire for profits is overcoming rivalries.
    Kevin O'Keefe, chief of the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives criminal intelligence division, says investigators have 
linked the rival gangs to stolen vehicles, some loaded with currency 
and weapons, moving toward Mexico from Texas, Colorado, California, and 
even Georgia.
    ``They realize that the financial gain is so lucrative that they 
have been willing to work together,'' O'Keefe says. ``It's all about 
business.''
    MEXICO.--President heads to site of slayings.
    2 AMERICANS KILLED.--State Dept. warns of Mexico violence.
    DRUG GANG KILLERS.--Blamed in ambushes of three with U.S. ties.
    Herb Brown, section chief of the FBI's gang division, says the 
groups use tactics of intimidation and violence. ``What has concerned 
us--and, frankly, surprised us--is the increasing nexus between these 
gangs and the cartels,'' he says.
    Most are involved with drugs, but officials say members also are 
moving into human smuggling.
    Sigifredo Gonzalez, chairman of the Southwestern Border Sheriffs 
Coalition, says rival gangs have joined forces for shares of lucrative 
smuggling fees. Some illegal immigrants have paid up to $20,000 per 
person to cross the U.S. border. ``These groups are working together 
for a common cause, and the common denominator is money,'' he says.
    A South Texas Federal judge last month sentenced the last of five 
Aryan Circle members convicted of weapons charges and car theft for 
trying to smuggle vehicles to Mexican drug organizations. They were in 
a group headed by the Hispanic gang Raza Unida, court documents and 
investigators say.
    ``It was pretty odd to see people like that in Brownsville,'' 
police Lt. James Paschall says of the largely Hispanic border town. 
``They had the shaved heads, the tattoos, the whole bit. They stuck out 
like a sore thumb.''

GANGS WITH CARTEL TIES
    Among major prison gangs with ties to Mexican drug cartels:
  <bullet> Aryan Brotherhood: Most members are white males; primarily 
        active in Southwest and Pacific regions.
  <bullet> Barrio Azteca: One of the most violent prison gangs in the 
        U.S. Most members are Mexican nationals or Mexican-American 
        males; most active in the Southwest.
  <bullet> Black Guerrilla Family: African-American males operating 
        primarily in California and Maryland.
  <bullet> Mexican Mafia: Mostly Mexican-American males who previously 
        belonged to Southern California street gangs. Some have direct 
        links to Mexican drug organizations.
Source: 2009 National Gang Threat Assessment.

    Chairman King. I would just remind the members of Minority, 
for 4 years, they controlled this committee. They could have 
had hearings on any of these issues at any time if they wanted 
to. I never heard any mention of any of these groups at these 
hearings until we held our first hearing on Muslim 
radicalization. I wish you had been as attentive during the 
previous 4 years.
    With that, I recognize the gentleman, former United States 
attorney from Pennsylvania, Mr. Marino.
    Mr. Marino. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Excuse my going back 
and forth because of the angle here.
    Mr. Useem, am I pronouncing that correctly?
    Mr. Useem. Useem.
    Mr. Marino. Useem.
    Mr. Useem. Yes, sir. Thank you.
    Mr. Marino. I have a couple of questions with you because I 
applaud you on your study. I know how difficult it is to go 
into prisons and question people. I am a former district 
attorney. I am a former U.S. attorney. I have been in State 
prisons. I have been in Federal prisons involving cases, 
interviewing people, so I know how that operation works.
    But have you utilized any studies involving conversion of 
non-Muslim gang members to Jihadists?
    Mr. Useem. No, I don't know of any such studies.
    Mr. Marino. Do you discern the difference between the 
mission of gang members and Jihadists? Which is most dangerous? 
Which one is most dangerous to the overall security of the 
United States?
    Mr. Useem. Jihadists are the most dangerous. The point was 
made earlier that gangs are out for themselves. They are out to 
promote their self-interest. Jihadists are out to damage the 
country. In some way, that explains why Jihadist radicalization 
in prison is very difficult, because they tend to come from 
individuals who are mainly guided by their self-interest.
    Mr. Marino. Just for the record, I do refer to gang members 
as being, in quotes ``terrorists'' to a certain extent as well. 
I don't mitigate their role and what they try to do.
    Would you agree with me that, for the most part, inmates 
are not overly truthful when being interviewed, and have a 
tendency to a degree to tell the interviewer what he wants to 
hear? Because you did state here on your comment--I am 
referring to page 3, full paragraph 2, that you were talking to 
one Islamic inmate, for example, and were told there is no way 
you are going to have a radical group in this prison for more 
than 5 minutes without them, corrections, knowing it. Well, al-
Qaeda has proclaimed that they seek to recruit.
    These people are going to tell you, to a certain degree, 
what you want to hear. Certainly you are going to have to weigh 
that with a pound of salt.
    Mr. Useem. That is absolutely correct. In our study was 
more than talking to inmates. It is a case that they may have 
dissembled and not told us the truth. But we talked to not only 
inmates, but the security people. What was most striking to us 
was the consistency of responses.
    Mr. Marino. I just recently have visited two Federal 
prisons that I have visited before. But a concern among the 
officers who I had private conversations with, outside the 
discussion with administrative individuals, is the conversion 
of individuals who were not Muslim; the conversion of gang 
members; the conversion of younger, not so well-educated 
inmates into Jihadists.
    Now, do you actually believe that a terrorist will share 
with you his inner-prison hierarchy, mission, and the execution 
of their recruitment/mission?
    Mr. Useem. No. No, I don't believe a terrorist would tell 
us that.
    Mr. Marino. Okay. Again, not to mitigate or pick apart your 
research, because I know how difficult it is there. Thank you.
    I want to go to Mr. Smith. We have somewhat of a parallel 
background. What is the No. 1 issue, as a former U.S. attorney, 
that you are faced with in the criminal justice system?
    Mr. Smith. As an assistant United States attorney, 
counterterrorism was our No. 1 priority, certainly. That spent 
the majority of my time, although I work on other matters 
certainly as an assistant United States attorney, working on 
counterterrorism and National security.
    Mr. Marino. Mr. Dunleavy and Mr. Downing, you each have 18 
seconds. Would you like to respond to that?
    Mr. Dunleavy.
    Mr. Dunleavy. Well, I think the recognition that Islamic 
radicalization occurs in prisons is necessary. First, you have 
to acknowledge that something exists to be able to effectively 
deal with it.
    Mr. Marino. Okay.
    Mr. Downing, please.
    Chief Downing. Well, two issues. One is targeting innocent 
civilians with violence and waging war on our country. The 
other is living in the shadows of society and conducting 
criminal enterprise for profit.
    Mr. Marino. Gentlemen, thank you.
    I yield my time.
    Chairman King. I thank the gentleman.
    Now I recognize the gentleman from Michigan, Mr. Clarke, 
for 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Just from the onset, I want to talk from personal 
experience. I grew up in the city of Detroit, in the inner 
city, born and raised there. That area has a reputation of 
being a tough place. Maybe it isn't. It is probably no tougher 
than growing up in New York or Brooklyn or something like that.
    But there is one issue is that many, many young men, and in 
my opinion, too many young black boys end up going to prison 
when they would have been better off had they gotten treatment 
for their mental illness, for drug addiction. If they had a 
chance to learn how to read, they wouldn't have ended up in 
prison. So we do have a problem, I believe, with our sentencing 
policy.
    But needless to say--and my closest childhood friend spent 
years, he spent decades in the penitentiary--is that once these 
young kids go to prison, they become hardened criminals by 
virtue of their time in prison.
    So the focus of this hearing, in the sense that we are 
looking at what is wrong with the prison culture and how can we 
change it, how can we improve it, I think it is the right 
focus. But to put it in the context of Islam, I think that 
distracts us.
    Let me get right to the point. I asked someone who served 
time in prison: Why did they convert to Islam and why do other 
young men convert to Islam? You know, essentially, it is two 
reasons. No. 1, for protection, to protect myself from other 
inmates and the prison staff.
    Then No. 2, because these young men were tired of their 
past. They wanted to break away from their criminal past and 
become a new man, so they became Muslim.
    You know, my question is this: How can we change the 
culture in prison so that for those convicted felons who will 
be released, that they are rehabilitated; that they don't end 
up going back into prison or committing crimes on the street, 
because that is a waste of money. Taxpayers can't afford it. 
Not only is it a waste of money, it is a waste of lives. I have 
seen it happen.
    You know, we talk about political correctness. Do you know 
what pisses me off? I am a damn Member of Congress here and my 
friends have rotted in prison. Those that have gotten out, they 
have never been the same again.
    Some of them did commit crimes. They should have been 
punished for it. But others were in the wrong place at the 
wrong time. They wouldn't snitch on their friends. They have 
never been the same again.
    I know this first-hand. We have a problem in this prison 
system. We have got to change it. We can't waste our money in 
warehousing these people, making them worse off, having them 
come out, commit crimes and then go back to jail, go back to 
prison. It costs the taxpayers billions of dollars.
    Look, political correctness aside, I am a Democrat. Some of 
you who are Tea Party members, this is the waste we have got to 
stop. We are spending too much money incarcerating young men, 
young black men whose lives could be saved. It is not about 
Islam. It is about the sentencing policy. It is about this 
prison system. We have got to change that.
    So I am not really dissing where the Chairman is coming 
from with this committee hearing. This is the right focus. What 
is going on inside our prisons is wrong. We have got to change 
it.
    We have got to stop this prison industrial complex. We are 
wasting too much of our taxpayers' money. Tea Party members, we 
need your support here. We have got to stop the waste, the 
waste of money and the waste of lives.
    These young men are going to Islam. They are trying to 
protect themselves. They want to change themselves. Are there 
some bad folks? Yes, there are. Well, like in every other faith 
and every other organization.
    I know I am making a speech, but in that is the question. 
Let us improve this prison culture so that these young men are 
rehabilitated, if they are going to be released. If we are 
going to sentence them for life and punish them, that is a 
separate issue.
    So that is my question.
    Chairman King. The time of the gentleman has expired, but 
each witness will be allowed to answer.
    Mr. Dunleavy. Yes. I just like to speak to that. Having 
been a kid who grew up in Brooklyn, and it is a hard 
neighborhood to grow up in, if you would have talked to my 
friends when I was 16 years old and told them that I would be 
with the New York State Department of Corrections for 26 years, 
they would have had no doubt. They would have thought I would 
be on the other side of the bars.
    So I know what you are talking about growing up in a bad 
neighborhood, and going into prison and coming out, and the 
need for rehabilitation.
    This is different. Our adversaries, the committed 
Jihadists, know the pool that they have in the prison 
environment. They are able to profile. They are able to select 
for that same individual that you are talking about that wants 
to be rehabilitated, that wants to change, that wants a purpose 
to his life, and they select him, and they convert him. They 
indoctrinate him and they send him over.
    Chairman King. The time of the gentleman is expired.
    The gentleman from Alabama, Mr. Brooks, is recognized for 5 
minutes.
    Mr. Brooks. Thank you, Mr. Chairman. I appreciate your 
willingness to have this hearing today to focus on these issues 
that are of such great National importance.
    My question is for either Mr. Downing or Mr. Dunleavy. I 
apologize for kind of speaking to the side, but that is the way 
my table is set up, me being a freshman with the least 
seniority. Well, no longer, but we are looking at each other.
    After Chairman King announced the subject of this hearing, 
he received the following letter from a State prisoner who 
converted to Islam while serving a sentence for sexual assault 
of a minor. He now claims to serve as an imam to his fellow 
prisoners. The committee staff confirmed the authenticity of 
the prisoner and his letter and referred it to the FBI.
    It reads--and by the way I had to miss a little bit, so if 
I cover things that have already been covered by others, please 
let me know: ``I am in jail for 8 more months and then I will 
be free. I am a Muslim and I feel because of America's war on 
Islam, I am the enemy of the United States.''
    ``The prophet said all Muslims are one brother and owe a 
duty to one another. The Holy Qu'ran says fight those who fight 
you. So by virtue of my faith, the United States is my enemy 
and I feel commanded to fight for my Muslim brothers and 
sisters.''
    Then next, ``What do Americans expect? Major Nidal Hasan 
worked on a base and saw every day Muslims being killed. What 
did you expect? I think he is a hero and I am sorry he ran out 
of bullets.''
    Then further, ``I have heard `kill Americans, Jews, 
Christians' more in prison than I ever did in Chechnya.''
    Then finally, ``I will die for Allah.''
    In your judgment, does this letter represent the sentiments 
of other radicalized prisoners in America's correction system?
    Chief Downing. In terms of violent radicalism, it does. I 
don't believe we are talking about Islam here. We are talking 
about a hijacked, radicalized, cut-and-paste form that they 
call Prislam. That is the difference. If it was Islam, he 
wouldn't have written that letter.
    I just question his credibility in terms of what he knows 
about Islam. Who were his teachers? How did he get accredited? 
Where did he get his training?
    That is part of the problem we are talking about is some of 
the prison inmates become spiritual advisers in very short 
term. That is part of the problem. It is not Islam.
    Mr. Dunleavy. It is interesting that in the letter he 
mentions that he is an Imam. How does an inmate become an Imam 
in a prison system? We have civil service chaplains. The way it 
becomes is if you get to this ideology, this radical Islamic 
ideology, it states that the Imam is selected by the 
congregation. Inmates will elect their own Imam to supersede 
the authority of the civil service chaplain.
    Mr. Brooks. All right.
    Next, please comment on the propensity of al-Qaeda 
prisoners in Federal civilian custody, such as the 1998 East 
Africa embassy bombers, to attack United State district judges, 
such as Leonard Sand and Federal correction officers such as 
Louis Pepe. Is our judicial system and law enforcement under 
threat?
    Mr. Smith. I think it is quite apparent that that is 
definitely one of the threats that are posed by these violent 
radical Jihadists. I mean, the reality is that whether they are 
behind bars or whether they are on the street, they don't turn 
off the belief system.
    The Government of the United States is a target for violent 
radical Jihadists. So the representatives of that Government, 
whether it is in the courtroom, as your United States district 
judge, and in correctional facilities, whether it is a State or 
Federal correctional facility or the staff in there, the 
correctional officers.
    So, indeed, they are at risk because they represent the 
Government which is the enemy, if you will, of these radical, 
violent Jihadists.
    Mr. Brooks. Finally, a question for each of you. On the 
basis of your extensive professional experience with the 
subject, what would you encourage the Congress to do about the 
problem of prison radicalization?
    Chief Downing. Well, first I would try to meet the 
recommended ratio of chaplains-to-inmates of 1 in 500. I would 
create consistent policies and procedures for the materials 
that are going into these prisons and monitor those and audit 
those. Then I would make sure that all the prison staff is 
educated and oriented to what this threat is, and that they 
have a responsibility to not only share the information with 
Federal, State, and local authorities, but to know how to 
report of these types of activities.
    Mr. Brooks. Do any of the three of you others have anything 
you wish to add?
    Mr. Useem. The point I would add is that we do much better 
if we improve our capacity to release inmates, to transition 
them out, so that they have meaningful futures when they leave.
    Mr. Brooks. Thank you, Mr. Chairman.
    Chairman King. The time of the gentleman has expired.
    The gentle lady, our new colleague from New York, Ms. 
Hochul, is recognized for 5 minutes.
    Ms. Hochul. Thank you very much, Mr. Chairman. I appreciate 
this opportunity to come and listen. This is my first 
Congressional hearing. As I said when I was a candidate, I want 
to come with a very open mind toward the issues that are facing 
our country. This gives me an opportunity truly to hear both 
sides of this debate.
    Where I come down on this is I don't see a reason to draw a 
distinction between the threats of gangs in prison and 
radicalized Jihadis, because they are both threats. But they 
are different kinds of threats. I assure you there are more 
people killed on the streets of Buffalo and Rochester as 
results of gang activity that was generated in prison.
    That being said, that is a problem we have to deal with. 
But that does not diminish our need to make sure that we are 
safe as a country, which is what I am hearing the witnesses 
testify about here today.
    I am glad that the distinction has been so many times about 
the radicalized, violent Jihadis, because those are the ones 
that I am concerned about. I want to know, are there ways to 
identify these individuals in prison?
    When they are released, what happens next? They are not 
going to cause much harm to us while they are sitting in 
prison, at least I suspect not, although they can be 
influencing others, no doubt about it. But what safeguards do 
we have in place to protect our citizens when they are 
released?
    I come from the area where we had the Lackawanna Six case. 
I will tell you that the cooperation that our law enforcement 
received from the Muslim community was incredible. They brought 
the issues to our law enforcement. These people were 
identified. They were prosecuted, individuals who had actually 
trained under Osama bin Laden in a training camps and came back 
before 9/11.
    This is the culture I come from. But we have got to find 
some solutions and not to have us-against-them mentality, when 
we are trying to protect the United States of America and our 
citizens.
    So I want to know what is in place to assist in ensuring 
the safety of our country once people who have been identified 
as being radicalized are released from prison. Why do we have 
to wait for the first crime to occur before we protect 
ourselves? That is what I want to know.
    But that does not to take away from our need to have 
vigilance and to make sure that these gang members, upon 
release, do not continue to wreak havoc upon our streets and 
slaughter individuals as well.
    So, in my judgment, we can hit both issues. It is not an 
either-or proposition. I just want your comments on that, the 
panel.
    Mr. Dunleavy. Well, I think one of the things that have to 
be done is to recognize that correctional intelligence is a 
two-way street. Corrections officials and administrators have 
to know about the inmates they receive, particularly if they 
are receiving foreign-born inmates from countries of interest. 
There was an inmate in New York State who was a porter. He was 
cleaning the cell block. He was a Pakistani national who had a 
degree in chemical engineering.
    Again, corrections has to pass the intelligence of what 
they learn about radicalization back to law enforcement on the 
street, so that they can again know what is coming out.
    Ms. Hochul. On that point, are there other prohibitions 
that you are aware of on sharing of information?
    Mr. Dunleavy. Not to my knowledge.
    Ms. Hochul. Is it occurring, in your judgment? Is that 
sharing of information occurring?
    Mr. Dunleavy. I think it is, but it could be better.
    Chief Downing. If I can? During the JIS case, that 
mechanism was not in place. It has since been put in place. We 
have an excellent relationship with the FBI in the L.A. region. 
Joint terrorism task force model works very well. The fusion 
center model, the JRIC, the Joint Regional Intelligence Center, 
has a vetting squad and a prison radicalization squad in that 
fusion center. It is excellent.
    The FBI-JTTF hosts a monthly prison radicalization meeting 
and brings correctional officers from State, local, and Federal 
law enforcement together to share this intelligence. There is a 
mechanism in place where there is advance notice of a violent 
extremist's reentry into the community. I think that is a smart 
practice that needs to be shared across the United States.
    Mr. Dunleavy. I was going to say again, much of the 
mechanisms are in place for dealing, for example, with gang 
members. Certainly, in my community, gang members who have been 
identified by the institution, certainly in their packets that 
are sent up with them after they are convicted of crime, and 
also in the institutions themselves, are identified these gang 
members.
    When they are released or paroled from prison, they go to 
orientation meetings where they are met with and discuss their 
situation with gang officers from the local police department.
    So the mechanisms are in place. It is just a matter of 
expanding that process, if you will, to those that have been 
identified as violent radical Jihadists, okay for example, in 
the prison system, that get paroled into the community.
    There is no reason that what we are currently doing can't 
be used, for example, to identify those individuals that are 
being paroled into our communities and potentially threatening 
our safety.
    Ms. Hochul. I have got 5 seconds left. I am conscious of 
tracking my time. How do we identify them all while they are in 
prison? Are we really truly able to know who is going to become 
a threat when they leave prison cells?
    Chief Downing. I am going to defer to Mr. Dunleavy. But I 
will say that the answer is yes because we can identify members 
of prison gangs. The intelligence is there on these other 
groups. So there is no reason, again, why the portfolio, if you 
will, can't be expanded to include violent and radical 
Jihadists.
    Ms. Hochul. Thank you. I yield back.
    Chairman King. I thank the gentle lady, and she has proven 
herself a true Member of the committee by going over time on 
her first question. You fit right in like everybody else.
    [Laughter.]
    Chairman King. With that, I recognize the gentleman from 
Pennsylvania, also a former United States attorney, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thanks to each of the distinguished panelists for your 
presence here today and for your work in this important area.
    I want to follow up on the question from Ms. Hochul, 
because that is really what I am trying to comprehend here, is 
how we look at distinguishing where the association is being 
created among people who are finding each other to share some 
sort of a growing Prislam, versus those who are affiliating in 
some way into a prison culture, a gang culture. Is it 
distinguishable?
    Mr. Dunleavy, you have been in the prisons with Mr. Smith.
    Mr. Dunleavy. Yes, I actually think it is distinguishable. 
I think one of the things that would help it is if corrections 
departments, as a whole, recorded the data for a change of 
religion.
    We talk about how many percentage of inmates are Muslim, 
how many are Catholic, how many are Jewish. But how many 
actually change religion two or three times during a period of 
incarceration? Then why? I mean, that would be something to be 
able to follow up on. Why do we have an individual who has now 
been imprisoned three times?
    Mr. Meehan. Before you go on, Mr. Smith, you touched on 
this earlier, or some of the panelists did, which is, in a 
sense, the qualification of those who are the teachers of the 
faith and are given access, materials, and other kinds of 
things in the prison. Is there any kind of a standard by which 
it is appropriate or legitimate for the Government to determine 
who should be sort of a shepherd of the flock?
    Mr. Dunleavy. Well, I think the Government has the right to 
determine who can enter a correctional facility, be it as an 
employee or be it as a volunteer. Religious volunteers have the 
same sway and influence as a chaplain does, and yet there is no 
vetting on them. There is no standardization. They simply come 
in. Who invites them in? How do they get in?
    Mr. Smith. I can speak to that issue. With respect to the 
Kevin James JIS case, I mean, the reality is that there is 
obviously some issue with individuals, imams from the outside 
coming in and meeting with prisoners.
    But the problem that we also have and it was certainly 
illustrated in the JIS case, was the fact that Kevin James was 
self-taught this cut-and-paste version of Prislam, if you will, 
and then was able to because of his charismatic personality, 
because of his toughness, was able to accrue a number of 
followers.
    So the prison system is not in a position to be able to 
dictate, ``No, sir, you know, you cannot preach Islam or your 
version of Islam to these fellow inmates.''
    So the problem that you have there is that someone in that 
situation--and this goes back to your earlier question, in JIS 
for example, the radicalization, the creation of this group was 
overlaid on the prison gang model. Okay? James as the shot-
caller, or as the sheikh of the particular group.
    The communication protocols that they use, they passed this 
protocol and these messages via ``kite.'' I don't know if you 
are familiar with that term. You probably are as an ex-
prosecutor, where there is a clandestine communication system 
in probably every prison.
    So they were able to get their information trans-
institution. In other words, there weren't JIS members just 
where James was. They were throughout the California Department 
of Corrections.
    They not only were able to communicate within the prisons 
they were in with via kites. James set up a system where he 
would send the protocol to mail on the outside, because inmates 
couldn't send letters to each other. Then the person on the 
outside would forward it to an inmate in another institution. 
So he was able to get State-wide coverage, if you will, of his 
protocol.
    So that, again, they just took the prison gang model and 
just overlaid their radical Islamic Jihadism.
    Mr. Meehan. So what is the solution? In other words, we are 
constantly amazed at the way that inmates are able to 
communicate and the ingenuity that is associated with it. But 
is the real goal for us then not so much to be worried about 
the method of communication, but to identify those who seem to 
be sharing this philosophy and then do an appropriate job of 
following that.
    Mr. Smith. I think that is exactly right. I mean, the 
solution is vigilance, in terms of identifying the members and 
the groups, because the communication networks, they are always 
going to find ingenious ways to communicate.
    Mr. Meehan. Right.
    Mr. Smith. So to try to stop that might be futile. But 
vigilance as to those individuals who are participating in 
these groups.
    Mr. Meehan. Professor Useem, you made a comment that the 
profiles of terrorists and criminals are different. How?
    Mr. Useem. Difference in education, difference in poverty. 
The terrorists tend to be from better-educated backgrounds. 
Prison-offenders tend to have very low education.
    The relevance of that is whether or not they act in their 
self-interest. To become a terrorist, one has to have broader 
goals and that comes with education.
    Mr. Meehan. Well, there are a lot of guys that are 
strapping bombs on their backs all around the world and walking 
into places because they would come under the influence of 
somebody who was charismatic or otherwise. Do you think that 
those people are well-educated?
    Chairman King. The time of the gentleman is expired.
    The professor can answer the question.
    Mr. Meehan. You do?
    Mr. Useem. Yes. There is a very strong evidence that that 
is the case.
    Mr. Meehan. Well-educated people are the ones that are 
carrying bombs into buildings around the world.
    Mr. Useem. Terrorists tend to be well-educated. That is 
correct.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Illinois, Mr. Davis, is recognized for 5 
minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I want to thank the witnesses for appearing and being here 
with us.
    Dr. Useem, I am not proud of it, but I have one of the 
largest single-site incarceration places in America, something 
called Cook County Jail, where more than 10,000 people are 
often confined there. Of course, 67 percent of those are 
African-Americans, who are there, and they pretty much mirror 
the State prison system, which is much larger.
    You know, it is something we would like to shake a little 
bit, if we could, in Illinois, but it is tough. A recent study 
suggested that the largest number of individuals who convert to 
Islam are African-Americans.
    Are you familiar with this study or this kind of 
information, and whether or not you think those individuals are 
doing so for personal development or for terrorism?
    Mr. Useem. Yes. No, I am not familiar with that particular 
study.
    Mr. Davis. Do you have an opinion relative to the 
conversion itself and----
    Mr. Useem. Well, the conversion to Islam tends to be among 
African-Americans. That is the case. But in terms of terrorists 
themselves, Jose Padilla, the dirty bomber carrier, 
potentially, was not African-American. So it is not exclusive.
    Mr. Davis. Mr. Dunleavy, Mr. Smith, Mr. Downing, let me ask 
you, how do you suggest that we monitor radicalization while 
simultaneously respecting the faith of Islam?
    I am also concerned a great deal about what we do for 
individuals in terms of helping them reintegrate back into 
normal life. So what kind of support activity would you suggest 
for these individuals as they leave?
    Chief Downing. I think the same way that we have 
institutionalized the idea of reporting suspicious activity 
across the United States through indicators and warnings, we 
have also used that process to educate people, where we used to 
get many reports of what would be called Muslims with cameras 
which have committed no crime. There was no indicator of a 
terrorist nexus. But because people were afraid and uneducated, 
they would report this.
    So, in the same sense, to bring this into the prison 
system, so that they know that there is a distinction between 
somebody who is practicing a faith and somebody who is 
practicing a violent or a hijacked faith or a cut-and-paste 
version of another faith.
    There are indicators and warnings that need to be ingrained 
in the prison system so that we don't profile people, but we 
profile behavior. That is a big distinction.
    As far as the release and the reintegration into society, 
that is just huge. In Los Angeles, we are involved in a parolee 
release program for integration and rehabilitation and job 
training, and that is a big part of our whole prevention 
strategy.
    We are faced with early release now because of the economy 
and the shortfalls. So we are expecting to see 6,000 parolees 
enter the population, most of which is going to be in Los 
Angeles. So it is a big concern to us.
    Mr. Smith. I couldn't agree more with Chief Downing.
    The way to do it properly so that those individuals who 
were legitimately practicing their faith, whether it is Islam 
or another faith--they have to be protected and they have to be 
given the right to do that.
    I mean, I spent my professional career upholding the 
Constitution. I know the Congresswoman from Texas began her 
statement talking about that. I mean, that is something that I 
hold very dear, obviously, as a career prosecutor.
    The consideration has to be education in the correctional 
institutions of the personnel there so that they can be given 
behavioral indicators, not who people are, but what they do and 
how they act, so that they may be able to separate any sort of 
radical, hijacked, as Chief Downing said, attempt of Islam 
versus legitimate and true faith.
    Mr. Davis. Mr. Dunleavy.
    Mr. Dunleavy. I think, in a correctional facility, that 
religion is a very positive aspect. It is sort of a calming 
influence. It also helps the individual to change his life, to 
have a higher purpose.
    In the early Attica riot and also in the Sing Sing riot, 
Muslim inmates were credited with having prevented additional 
deaths or injuries to staff. So Islam in prison can have a 
positive effect. We have to recognize the foreign influences of 
this ideology, which is different, and the way that that works.
    Mr. Davis. Thank you very much. Thank you, Mr. Chairman.
    Chairman King. The time of the gentleman is expired.
    Before I recognize the next Member, I would like to 
acknowledge in the audience the father of one of our staff 
members, James Meek. Mr. Meek, I want to tell you your son is 
doing a good job. After many years as a reporter, he is finally 
earning an honest living.
    [Laughter.]
    Chairman King. I recognize the gentleman from Virginia for 
5 minutes.
    Mr. Rigell. Thank you, Mr. Chairman. I thank all of our 
panel members for being here today. I first want to comment, I 
was just a bit surprised and frankly a bit disappointed as well 
when some Members of our committee are really questioning why 
we are having this, and it seemed to me that we almost diverged 
into a discussion about prisons generally. I don't believe that 
is the focus of our committee.
    Our committee is Homeland Security. I think it is entirely 
appropriate that we are today. I will go where the risk is. I 
believe other Members of the committee will as well.
    So if we need to look at other areas, other groups, I am 
happy to do that. But I believe that radical Islamists present 
a real threat. It is appropriate that we examine that today.
    Now, I would like to direct my first question to Mr. 
Downing. Sir, on May 19, the committee staff visited the 
supermax prison where those al-Qaeda members that have been in 
civilian prisons are kept and confined.
    The staff there observed this, that, at the insistence of 
the attorney generals of the Department of Justice, that some 
al-Qaeda prisoners are allowed to have unmonitored 
conversations with defense attorneys, and that despite repeated 
requests for available technology that the Bureau of Prisons 
and FBI have requested, or at least would be available to them, 
that that technology is not there.
    They are unable to monitor conversations between al-Qaeda 
prisoners during their recreation times.
    So, Mr. Downing, do those policies which are not FBI 
policies--they are not Bureau of Prisons policies, but coming 
from the Department of Justice. Did they degrade our safety 
here as Americans, and also for the personnel who work within 
the prisons?
    Chief Downing. Well, in terms of this threat, intelligence 
is absolutely key. We need to create an environment that is 
hostile to recruitment, to developing this ideology and also to 
executing plots or planning plots. So I think it does diminish 
our ability to further understand the planning.
    Mr. Rigell. Thank you.
    The second question I would like to direct to Mr. 
Dunleavy--and thank you again for being here. I want to revisit 
the letter that was sent to the Chairman recently. Just in 
part, it states this, ``I am a Muslim and I killed, because of 
Amerika's''--that is ``Amerika's,'' the word spelled A-M-E-R-I-
K-A-apostrophe-S--``Amerika's war on Islam. I am an enemy of 
the United States.''
    So what threshold of speech must be met when a person is a 
self-declared enemy of the United States, a self-declared 
person who influences others as an imam? What threshold has to 
be met before we can isolate that person and keep him or her 
from influencing others?
    Mr. Dunleavy. Well, I think that that statement in itself 
is the threshold. If you have an individual who is going to 
identify himself as an enemy of the United States and state 
that he is at war, then you have to recognize that. You have to 
know your enemy if you are going to effectively fight him.
    Mr. Rigell. Well, for the record, I am in full agreement. 
So I trust that this is happening within our prison system that 
this gentleman--and I was delighted to learn that letter had 
been sent to the FBI. I hope that he is isolated and there is a 
serious consequence for the action that he has taken in the 
letter that he sent and what he stated.
    Any person who is to declare themselves to be an enemy of 
the United States needs to be isolated, certainly within the 
prison system and maybe further actions.
    But I thank all of you for being here today. I yield back 
the remainder of my time.
    Chairman King. I thank the gentleman for yielding.
    The gentle lady from California, Ms. Richardson, is 
recognized for 5 minutes.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    First of all, I would like to request that you would accept 
into the record by unanimous consent a summary of the letters 
that you submitted into the record, a summary synopsis of the 
letters that you submitted into the record. Will you accept?
    Chairman King. Yes. Without objection, yes.
    [The information follows:]
Summary of Inmate Letters Supporting the Muslim Radicalization Hearings
  <bullet> There are 16 letters from 14 individuals.
  <bullet> Two individuals are convicted right-wing terrorists.
  <bullet> Two others have threatened to commit acts of terrorism.
  <bullet> Three individuals are convicted murders, one for killing two 
        police officers on separate occasions and another for killing 
        three people.

----------------------------------------------------------------------------------------------------------------
           Letter No.                Inmate Name      Summary of Letter     Crime Committed       Addl Info.
----------------------------------------------------------------------------------------------------------------
1..............................  Marcos F. Santiago  At one point in my   Committed 3 armed   ``I'm a former
                                                      life I would have    hotel robberies a   extremist!''; he
                                                      been persuaded by    carjacking with a   also considered
                                                      Muslim extremists.   firearm.            carrying out a 9/
                                                                                               11--or Oklahoma
                                                                                               City-type attack
                                                                                               and tried to
                                                                                               convince others
                                                                                               to do the same.
2..............................  Ronald Turney       Praise for Chairman  Murdered a police
                                  Williams.           King; requests       officer, escaped
                                                      data on ``Islamic    from prison, and
                                                      attacks''.           then murdered
                                                                           another police
                                                                           officer; was on
                                                                           the FBI's ``10
                                                                           Most Wanted''
                                                                           list.
3..............................  Kendrick Hester...  Concerned by         Bank fraud and ID   Asking for
                                                      ``private            theft.              assistance from
                                                      dialogue'' of                            Chairman King so
                                                      Muslim inmates;                          that he can
                                                      has alerted FBI to                       ``redeem''
                                                      the ``trend''.                           himself.
4..............................  Jerry Johnson.....  Johnson is sure      Two counts of
                                                      that the             burglary.
                                                      committee's
                                                      hearings on
                                                      radicalization are
                                                      well intentioned.
5, 6...........................  Gary W. Bornman (2  Inmates are          Habitual offender
                                  letters).           radicalizing each    who began
                                                      other and then       committing crimes
                                                      being transferred    at 9; in 1999, he
                                                      across the           wrote to the LA
                                                      country, creating    Times, saying,
                                                      a ``Recipe for       ``In little more
                                                      disaster'';          than 14 months,
                                                      foreign-born         in all
                                                      terrorists should    probability I'll
                                                      be separated from    commit murder,
                                                      the rest of the      perhaps even mass
                                                      prison population.   murder. That's
                                                                           when I'm due to
                                                                           be released from
                                                                           Federal prison
                                                                           where I'm serving
                                                                           a 7-year sentence
                                                                           for bank
                                                                           robbery''.
7..............................  Andrew S. Tenney..  Radicalization of    Murder, attempted
                                                      the prison           robbery,
                                                      population has       kidnapping,
                                                      been a problem for   assault.
                                                      a long time;
                                                      religious conflict
                                                      is rooted in
                                                      religious
                                                      traditions and is
                                                      inevitable.
8..............................  Rodney Curtis       Muslim               While in prison
                                  Hamrick.            radicalization is    for mailing a
                                                      a threat to          bomb to a U.S.
                                                      National security;   Attorney, he
                                                      non-Arab Muslim      attempted to send
                                                      inmates have         another
                                                      sought his advice    improvised
                                                      on building IEDs.    explosive device
                                                                           and a powdery
                                                                           substance labeled
                                                                           ``anthrax''
                                                                           through the mail.
9..............................  Robert J. Murrell,  Has seen radical     Unknown...........  No longer in
                                  Jr.                 Muslims in every                         prison.
                                                      prison he's been
                                                      to; has heard
                                                      Sunni Muslims say
                                                      that they will
                                                      bomb the United
                                                      States even if it
                                                      pulls out of the
                                                      Middle East.
10.............................  Robert Perts......  After 9/11, Muslims  Rape..............
                                                      in prison were
                                                      treated like
                                                      heroes.
11.............................  Phillip Shea......  Rambling complaint   Three counts of
                                                      about anti-          first-degree
                                                      Americanism in       murder.
                                                      prisons.
12, 13.........................  Victor W. Cooper    The prison           Child molestation
                                  (2 letters).        population           leading to a 60-
                                                      provides a pool of   year prison
                                                      underused talent     sentence;
                                                      for Muslim           converted to
                                                      extremists.          orthodox Judaism
                                                                           in prison.
14.............................  Verne Jay Merrell.  Prisons are fertile  Bombed an abortion
                                                      recruiting grounds   clinic as part of
                                                      for radical          a Christian
                                                      Muslims; most        militant group,
                                                      inmates are          robbed a bank.
                                                      introduced to
                                                      radical Islam by
                                                      Louis Farrakhan.
15.............................  Raymond L. Wales..  A former imam,       Many, many counts
                                                      Wales contends       of sexual assault
                                                      that it is           against a minor
                                                      impossible to be     committed before
                                                      American and         1967.
                                                      Muslim, and that
                                                      anti-Americanism
                                                      in prison is
                                                      widespread.
16.............................  Victor Altheus De   Rambling and         Conspiracy........
                                  Ponceau.            largely incoherent.
----------------------------------------------------------------------------------------------------------------


    Ms. Richardson. All right, what I want to highlight, of the 
summary of the letters that were submitted, there were 16 
letters from 14 individuals submitted. Two of those individuals 
are convicted of right-wing terrorist activity. Two others have 
threatened to commit acts of terrorism, and three of the 
individuals are convicted of murder, one for killing two police 
officers on separate occasions and another for killing three 
people.
    One was on the FBI's 10 Most Wanted list. One was stated in 
writing to the L.A. Times saying, ``In a little more than 14 
months, in all I will probably commit murder, perhaps mass 
murder.''
    Another one stated, while in prison for mailing a bomb to a 
U.S attorney, he attempted to send another improvised explosive 
device and a powdery substance labeled anthrax.
    So what I want to say for the record for us to consider 
letters from these individuals, I think, is probably 
questionary in any court of law would be considered.
    The second thing, Mr. Dunleavy, according to Webster's 
dictionary, the definition of radicalization is ``the process 
in which an individual changes from passiveness or activism to 
become more revolutionary, militant, or extremist.''
    Would you agree with that Webster's dictionary explanation?
    Mr. Dunleavy. I guess, if Webster has it in his dictionary, 
it must be correct.
    Ms. Richardson. That is right, sir.
    So in light of that, I would like to ask you a question 
about New York. Do you have Asian gangs in New York?
    Mr. Dunleavy. I am sorry, what?
    Ms. Richardson. Do you Asian gangs in New York?
    Mr. Dunleavy. I am sorry. I am still----
    Ms. Richardson. Do you have Asian gangs in New York?
    Mr. Dunleavy. Do I have agents in New York?
    I am not in New York anymore. I am not employed by the 
department anymore.
    Ms. Richardson. When you were, would you say that there are 
Asian gangs in New York?
    Mr. Dunleavy. Yes, I would say there is.
    Ms. Richardson. Would you say there were Mexican gangs in 
New York?
    Mr. Dunleavy. Probably.
    Ms. Richardson. Would you say there are African-American 
gangs in New York?
    Mr. Dunleavy. Probably.
    Ms. Richardson. Would you say there are white supremacist 
groups in New York?
    Mr. Dunleavy. Absolutely.
    Ms. Richardson. Okay. So in light of that, I think the 
question would really be would you say that those groups kill 
people? Individuals in those groups that kill people? Yes or 
no? I only have 2 minutes.
    Mr. Dunleavy. Sure.
    Ms. Richardson. Okay. Would you have to say that 
individuals in those groups are radicalized, in the definition 
that I just read from Webster's dictionary, that those groups 
would be in the process of individuals changing or had changed 
from passiveness or activism to become more revolutionary, 
militant, or extremist?
    Mr. Dunleavy. I think it is a generalization. I mean----
    Ms. Richardson. I asked you a question, sir. Would you----
    Mr. Dunleavy. That was my answer.
    Ms. Richardson [continuing]. That some of these groups that 
we alluded to that exist in prisons have also been radicalized? 
That is my question.
    Mr. Dunleavy. Again, some of the groups you didn't----
    Ms. Richardson. Is your answer yes?
    Mr. Dunleavy. I just said my answer was that it is a 
generalization.
    Ms. Richardson. Okay, I am going to repeat it. My question, 
sir, because you are here testifying on the record, and you 
have claimed some sort of knowledge and expertise. So my 
question is, based in the area that you worked in, would you 
agree that members of Asian gangs, black gangs, Mexican gangs, 
and white supremacists have also been radicalized, according to 
the definition that I read in the Webster's dictionary?
    The definition of ``radicalized''--I will repeat it again--
are individuals who may at one time have been passive or 
activist who has now become more revolutionary, militant, or 
extremist in their actions and their ideas. Would you agree to 
that?
    Mr. Dunleavy. Yes, I would say so.
    Ms. Richardson. Okay, thank you, sir.
    So then that brings me to the question of my point of what 
I would like to say about this committee hearing. In California 
alone, there were 812 gang-related homicides in California in 
2007. So I am trying to get the National number as we speak, 
but I don't have that.
    So I would like to say this in light of some of the 
comments that have been made. I do not disagree that 
radicalization occurs, according to the definition that I read.
    I don't disagree that, as Mr. Dunleavy said, that 
radicalization, in fact, occurs in prison with various groups. 
What I disagree with, and I would say again with all due 
respect to the Chairman, is the scope of this committee only 
focusing on one particular group.
    I actually believe that the focus of one particular group 
on the basis of race or religion can be deemed as racist and as 
discriminatory. I would ask for the record in the future that 
we as a committee--I agree that we need to look at the prisons. 
I wholeheartedly agree we need to examine all terrorist attacks 
and threats.
    You will have my 100 percent support. But the continued 
discriminatory, what I believe, of one particular group on the 
basis of race or religion is flawed and should not be done in 
the House of Representatives.
    I yield back.
    Chairman King. Since the charge is leveled to me, I will 
take the prerogative of answering.
    I disagree 100 percent with the gentle lady. She is 
entirely wrong.
    The fact is this committee was set up to combat terrorism. 
It was set up after September 11. As the gentleman, Mr. Smith, 
has testified there are already procedures in place which 
followed gangs when they leave prison.
    We have the protocols in place for that. Unfortunately, 
because, in too many instances of political correctness, we do 
not have protocols in place to follow those who were trained in 
Jihad in the prisons.
    That is why this is unique. I would say to the gentle lady, 
your party had control of this committee for 4 years. Not one 
hearing at all, not anything at all involving prisons, on 
skinheads, on Nazis, on Aryan Nation, white supremacists, at 
all.
    Suddenly, this issue emerges when we start talking about 
Muslim radicalization. That is the purpose of this committee. 
We have a Judiciary Committee to deal with the all other issues 
in the prisons.
    I agree, gangs are very important; Aryan Nation's 
important; neo-Nazis are important. The purpose of this 
committee is to combat Islamic terrorism because that is the 
terrorist threat to this country. If we find out that neo-Nazis 
ally with a foreign power and they are coming to this country, 
we will investigate it. If we find out that Aryan Nations 
allied----
    Ms. Richardson. Will the gentleman yield?
    Chairman King. No. It is my time.
    If we find out that Aryan Nation is allied with the foreign 
power, we will address it. The fact is we are not going to 
spread ourselves out, investigate everything, which means 
investigating nothing. We are going to focus on a target which 
threatens the security of this Nation. That is why we are doing 
it without in any way minimizing the other threats. We have 
committees for that.
    Our committee is set up to combat terrorism. That is what 
we are going to do. With that I yield----
    Ms. Richardson. Will the gentleman yield?
    Chairman King. I will not. I will now recognize----
    Ms. Richardson [continuing]. White supremacist. Check out 
the history.
    Chairman King. The fact is, if it was so important, you had 
4 years on this committee. Not once was a hearing held into any 
of those issues.
    I recognize the gentleman from Florida, Mr. Bilirakis, for 
5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, and thank you for 
holding this hearing, a very important hearing.
    A question for the panel; we have been presented with 
testimony of radicalization occurring in Los Angeles, Illinois, 
and New York, the prison systems, among others. The dirty 
bomber, Jose Padilla, was radicalized, I believe you refer to, 
and then associated with the radical mosque in my home State of 
Florida.
    Does radicalization associated with prisons seem to be more 
prominent in particular States, regions, or hot spots? Then 
also to what extent do facilitators of prison radicalization 
move among and throughout the various prison systems and areas? 
What can be done to curb geographic spread of prison 
radicalization?
    Mr. Dunleavy. I don't think it is contagious to certain 
cities or certain States. I think it moves Nation-wide. 
Radicalization, particularly Islamic radical ideology moves 
throughout. It can work in a county jail. It can work in the 
State jail. It can work in the Federal prison.
    I think what has to be done is, again, to recognize it as a 
problem. We call it a problem not because there is 5,000 
individuals being converted every 5 minutes or something like 
that.
    It is very selective. It is a process. We have to recognize 
the process. We have to be able to interrupt the process. We 
have to be able to have some sort of standards, Nation-wide, in 
the vetting of clergy.
    Mr. Smith. I would say that the way I look at the issue of 
prison radicalization that we are talking about here today, it 
is part of an overall situation that we have been experiencing 
in this country of homegrown radicalization and domestic 
Jihadists.
    I mean, this is an issue that we once thought was never 
going to come to our shores, that we were going to have a 
problem with here, that that was overseas in Great Britain or 
in Spain or some countries in Europe or overseas.
    So that was the thinking then, even around 2005 when we had 
the JIS case. Certainly, since that time, we have seen that 
there is a problem of homegrown radicalization and domestic 
Jihadism in this country. It is not only within the prison 
walls. It is certainly on the outside and in the communities.
    Just as you can have a homegrown Jihadist in any city or 
any location or State in this country, the same is certainly 
true in any penal institution, State or Federal, throughout the 
United States. They are not mutually exclusive. They are part 
of the same overall evolving threat, in my opinion.
    Mr. Bilirakis. Would you like to respond, sir?
    Chief Downing. I think you saw in 2009, we had a huge ramp-
up in homegrown terrorists. We had 85 individuals involving 13 
plots. That signaled the trend that we had. I think in the 
prison system, we are beginning to establish collection 
mechanisms for this phenomena. But they are not widespread yet.
    I think when we do put those systems in place, we are going 
to see what we have seen in the outside inside prisons. It is 
still low-volume. But the issue is high-consequence, very high-
consequence and high-intensity for America if we don't address 
this problem. I think we are on the front end of this problem 
right now.
    Mr. Bilirakis. Thank you. Anyone else?
    Mr. Useem. Right. I would agree with Mr. Downing. My bottom 
line is that prisons are fertile grounds for radicalization. 
You think that in the case of Kevin James, what is not clear is 
if Kevin James had been outside of prison, whether or not he 
would have had the same orientation and have been much more 
capable of acting on it. I believe that is likely to be the 
case.
    Mr. Smith. I would like to address that point, having 
prosecuted the case. The issue that we had with Kevin James was 
that he orchestrated his Jihad plot to target Jewish persons in 
Southern California and United States military personnel. He 
quarterbacked the plot. He created the plot from the prison.
    So the reality of the danger wasn't whether he was inside 
or outside the prison. The key take-away from the case is that 
from prison, he was able to set up and set out the operational 
cell of would-be Jihadists in the streets of Southern 
California.
    So, there can be no question in my mind as to his 
commitment to wage that Jihad based on the evidence in the 
case. Thank you.
    Mr. Dunleavy. I would like to go further on that. With 
respect to the organization and the ability to operate, Marc 
Sageman wrote a book, ``Leaderless Jihad,'' talking about the 
future 21st Century Jihadist, that it lacks leadership or it 
lacks organizational structure for operations.
    When you plug it into a prison that has an ability to 
communicate, an ability to send messages, an ability to operate 
beyond the prison walls, it is like a USB port. The committed 
Jihadist just has to plug his flash drive into it and he can 
operate.
    Mr. Bilirakis. Thank you.
    Thank you, Mr. Chairman.
    I don't have any time left, but thank you for holding this 
important and necessary hearing. I appreciate it.
    Chairman King. I thank the gentleman from Florida.
    Before I recognize Ms. Clarke, as I previously mentioned, 
bipartisan committee staff conducted a site visit to the ADX 
maximum security facility in Florence, Colorado.
    During the visit, the chaplain of the facility provided the 
staff, the bipartisan staff, a 6-page list cataloguing all the 
Nation of Islam videos housed in the library of the ADX 
facility. It includes titles of 305 videos, the vast majority 
of which feature Louis Farrakhan.
    According to the ADX prison officials, often these videos 
are shown to inmates as part of the institution's Islamic 
prayer service. I am asking unanimous consent the document be 
included in the record.
    However, because the document is designated as law 
enforcement-sensitive, I would ask that it be included in an 
annex to the hearing record that reflects this sensitivity.
    Without objection, so ordered.
    With that, I recognize my friend from New York, from 
Brooklyn, which has come up in this debate. I went to high 
school and college in Brooklyn, and spent many of my younger 
years, probably long before Ms. Clarke was around, I was 
roaming the streets of Brooklyn.
    I recognize the gentle lady for 5 minutes.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
Thank you to our panelists for bringing your expertise to bear 
on this very important topic.
    I share some of the sentiments that you have heard from my 
colleagues on this side of the aisle and I will share with you 
where I am having a little bit of difficulty. It has to do with 
the definition of terrorism. I understand the specific 
terrorism that we are talking about with regards to radical 
Islam, and the purview of this committee, which is homeland 
security overall.
    My concern is that we don't minimize the terrorism that 
many communities face due to gangs in this Nation. In some of 
the response that I have heard, it kind of made it seem as 
though garden variety gang activity does not translate into 
terrorism.
    I would like us to not lose sight of that. While I 
understand the purview of this hearing, for us to minimize what 
has happened--I mean, why have a war on drugs, which is the 
purview of Homeland Security, if we don't see these criminal 
enterprises as undermining our nation.
    So, I would like to assert that because I think that there 
is some convergence in the prison culture that breeds the type 
of challenges that we see in our civil society, whether it is 
the radicalization of an individual through a religious means 
or through a violent organization family crime means.
    I would like us not to lose sight of that, because I think 
it is going to be important that we address it comprehensively 
in our pursuit of thwarting any type of radicalization that 
comes from those individuals who are practicing Prislam, as you 
have stated.
    My question to you would be: What percentage of individuals 
have you been able to identify at this stage? I don't know if 
there is any National movement to identify individuals who are 
likely, given the profile of activities, that would be inclined 
to get involved in some sort of international plot.
    Mr. Dunleavy.
    Mr. Dunleavy. I don't think you can put a number on it. I 
would say it is a very select, small group. Again, we mentioned 
the Senate report where it said there were as many as 36 ex-
inmates in Yemen in training.
    How many ex-inmates are there in society? There is probably 
hundreds of thousands.
    So, there are only 36. We are looking at a filtering 
process that takes it down. But the committed Jihadist only one 
needs one to strap on and to blow up and to create the most 
damage. So, numbers is kind of a misnomer in trying to 
understand the situation.
    Ms. Clarke of New York. Let me say then that, if it only 
takes one, would we find some parallels then to massive gang 
recruitment and the taking of life over time in various 
communities?
    The numbers of individuals, families, communities that have 
been disrupted; how do we balance out, I guess, our mentality 
around the difference between someone who can do one single 
solitary act and wipe out 3,000 people, say in New York, or 
that on-going killing that is taking place by individuals who 
have been formerly incarcerated that continue to recruit in 
communities around the Nation?
    Chief Downing. There is no question that gangs pose a 
serious danger to communities; however, there is a big 
distinction.
    I come from Los Angeles. It is known as the gang capital of 
the United States, where we had 60 to 70 percent of the 
homicides were gang-related. There is no doubt that it occurs.
    The distinction and the difference is, when you hear people 
refer to gangs as urban terrorists, it is not terrorists in the 
sense that we know terrorists, in that their intent is not to 
target innocent civilians or wage war on our country.
    Innocent civilians occasionally get hit by gunfire.
    Ms. Clarke of New York. Occasionally?
    Chief Downing. But that is not the target. That is not 
their intent. It is usually about territorial imperative. It is 
about controlling narcotics. It is about maintaining their gang 
status in their communities and neighborhoods.
    Ms. Clarke of New York. I would beg to differ. Let me just 
close. Because if we see this process as an isolated community 
issue, then we lose the point that these are Americans, right? 
This is an Americans threat.
    I think that, you know, we have got to reorient ourselves 
if we are going to, in fact, get a handle of this type of 
activity in our Nation.
    The types of dollars that we are spending fighting the war 
on crime, if we continue to see this as an isolated individual 
who ends up with collateral damage in a community, then we 
never really get to dealing with it adequately.
    Mr. Chairman, I just wanted to ask Mr. Rigell, I believe is 
his name, or Rigell--ask our panelist whether the prison yard 
of the Supermax prison in Colorado was monitored. I would like 
to ask, Mr. Chairman, if you would join us in a letter to 
really get to the bottom of whether, in fact, the response we 
received with that is as accurate as it should have been.
    Chairman King. Show me the letter and I would certainly 
consider signing it, absolutely.
    Ms. Clarke of New York. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    Chairman King. The gentle lady's time has expired. I am 
sure that Members on this side of the aisle are as concerned as 
anyone about gangs.
    Certainly Mr. Lungren has spent a career investigating and 
prosecuting gangs.
    With that, I recognize the distinguished gentleman from 
South Carolina, one of our leading Members of the freshman 
class, Mr. Duncan.
    Mr. Duncan. Thank you Mr. Chairman. Thank you for having 
this hearing inviting such distinguished panelists.
    I want to take an opportunity to thank the administration 
for working with you on this issue. They recognize the 
radicalization process.
    According to the website, a news story today, that the 
Obama administration has been working with you to address this 
issue, and notes that Secretary Napolitano is setting up a task 
force to look in the radicalization in the prisons. So, it is a 
real issue.
    It is amazing that we can talk about the gang activity in 
prisons, but it seems to be off-limits to talk about 
radicalization within the prisons when it comes to the Muslim 
community.
    I am reminded as I look around this committee room, and I 
invite all the guests here today to look at the pictures on the 
walls. Remember that we are fighting, as a Nation, an ideology 
that really seeks to overthrow us as a Nation, that attacked 
the freedoms that we have here in this country.
    So, with that, I will get in to my line of questioning 
here. The 9/11 Commission report recommended that the U.S. 
Government efforts to communicate and defend American ideals in 
the Islamic world be as strong as they were in combating closed 
societies during the Cold War.
    Ronald Reagan once said that the ultimate determinant in 
this struggle now going on for the world ``will not be bombs 
and rockets, but a test of wills and ideas, a trial of 
spiritual resolve, the values we hold, the beliefs we cherish 
and the ideals to which we are dedicated.''
    I am concerned about the distribution of radical materials 
within the prisons and the mosques. If we continue to allow the 
Jihadist literature to propaganda the hearts and minds of 
American people in the mosques and in the prisons, with their 
extremist ideology, we will not succeed in today's current 
test, as Reagan said, ``wills and ideals''.
    My question really revolves around that distribution of the 
material. I can go on and talk about the Middle East forum 
which did a poll that looked at the Jihadist-based literature, 
the presence of violent-type literature within those prisons 
and in the mosques.
    But that would take a little while to go into all the 
percentages. But it is very evident. I would be glad to provide 
that to the panelists.
    So my question is, I guess, is to Mr. Smith: Can you 
explain the challenges that correction officials face from 
extremist literature being introduced in the prison 
environment? Just a follow-up for that, are all these materials 
protected by the First Amendment, if you could explain that?
    Mr. Smith. Well, this is America. We have a first 
amendment. We have a freedom of speech and a freedom of 
religion.
    So, you have two different issues. You are dealing with the 
outside and then you are dealing with the prisons. Obviously 
prisons, because of security reasons, are going to have much 
more restricted environment.
    I will leave it to prison officials or those with the 
experience inside the corrections department to talk about 
those challenges.
    I look at it from an investigative standpoint. If an 
individual in a correctional institution possesses these types 
of radical material, it is actually, in a way, an investigative 
benefit, because that person is then self-identifying as 
someone that bears further inspection, and someone that can be 
monitored by the correctional staff.
    I mean, the reality is just possessing a CD with Anwar 
Awlaki sermons on them is not a crime. So, while it can be 
monitored and restricted because of the prison environment, we 
have to look at it in an overall situation as a potentially 
behavioral indicator that we may have someone that is on that 
path to radicalization and that may present a security threat 
and that may bear further inspection and further monitoring.
    Mr. Duncan. Do you, do you not agree that the presence of 
that material, and along with Louis Farrakhan's sermons 
entitled, ``Which One Will You Choose, the Flag of Islam or the 
Flag of America?''--would you not agree that they don't lead 
down the path of some of those radicalization behavior?
    Mr. Smith. Well, I am not going to make that broad a 
statement. I am a prosecutor. So I take a look at evidence and 
facts.
    So I am not going to give a broad policy opinion as to what 
that can or cannot signify. I do think, with respect to 
radical, violent radical Jihadist literature, while it is not a 
crime, in and of itself, to possess, it can be a behavior 
indicator. That is something that we need to inspect further. I 
have to leave my answer at that.
    Mr. Duncan. In the remaining time, any of the other 
panelists like to comment on that?
    Chief Downing. I would just offer that, on the other side 
of the coin, we should create opportunities for the pure, good 
part of this, to be in the religion, such as the NGOs. There is 
an NGO by the name of Ani Zonneveld who does the Muslims for 
Progressive Values.
    This is what they say, ``Values are guided by 10 principles 
of Islam, rooted in Islam, including social equality, 
separation of religion and state, freedom of speech, women's 
rights, gay rights, and critical analysis and interpretation.''
    She and her organization have been trying to get into the 
prison system to give this literature as written by Islamic 
academic scholars. So I think there can be more efforts on this 
front as well.
    Mr. Dunleavy. If I could say something about the 
literature, you can look in New York State and you can see 
literature sent from a company by the name of Halalco Books. 
Halalco Books is located in Falls Church, Virginia. It is 
connected to the mosque where al-Awlaki attended. Also they 
have been selling his literature.
    It makes its way to prisons. You can look and see 
literature mailed directly from Riyadh, Saudi Arabia, into 
inmates in New York State. You can see literature sent from 
Tehran, in Iran, sent directly to inmates in New York State.
    The problem is there is a media review committee that is 
supposed to look over the literature. Well, one of the person 
that sits on the media review committee is the chaplain. So 
again, we get back, if the chaplain that is not properly 
vetted, who is watching this? Who is looking at this 
literature?
    Chairman King. The time of the gentleman has expired. The 
gentleman from Louisiana, Mr. Richmond, is recognized for 5 
minutes.
    Mr. Richmond. Thank you Mr. Chairman. I started. It is a 
simple question but, we talked about our prison systems. In 
Louisiana, I had the privilege to be chair of judiciary, which 
we had jurisdiction over our prisons.
    Would you say that the overwhelming population of our 
prisons, the fact that they are overcrowded and all those 
things, is a hindrance to effective enforcement and monitoring 
of inmates, and really allows for things to go unnoticed?
    We talked about conducting and organizing a terrorist front 
from prison. But we also have reaching out and intimidating 
witnesses, killing witnesses. So do you think that the 
overcrowded population in prisons, therefore, breeds that type 
of activity, because we don't have the resources to monitor 
effectively?
    Mr. Dunleavy. I think that if you talk to prison 
administrators, their No. 1 goal is to manage the system, to 
manage the system, reduce assault on staff, reduce the assault 
on inmate to inmate, reduce escapes and theft. So that is their 
first priority.
    They are not looking at the individual who could be a good 
inmate but is also a Jihadist. He is well-behaved. He doesn't 
cause a problem. So why would you look at that?
    You are looking for the assault. You are looking for the 
drug dealer. You are looking for somebody who is doing that.
    Mr. Richmond. Right. I guess the question is: Are we 
spreading our resources too thin when we have overcrowding in 
our prison systems, to effectively monitor the things that we 
are talking about today?
    Mr. Useem. We may have too many inmates in prison. There 
has been a tremendous buildup in the prison population over the 
last 25 years.
    There has also been a sharp increase in crime. That is 
apparently attributable to that buildup. But we may be at that 
point where reductions in inmate population would not increase 
the crime rate. Prisons become more manageable at that point.
    But, you know, I think the key thing, the thing driving all 
of this is good leadership and good management within the 
correctional agencies. That has improved tremendously in the 
last 20 years.
    Mr. Richmond. The next question, I think it was Mr. 
Dunleavy who mentioned--or maybe it might have been Mr. Smith, 
who talked about the issue we are dealing with today is 
exponentially greater. I guess that my numbers show that we had 
16,000 murders in the United States in 2008, 15,000 in 2009.
    So as we talk about the number of murders--and 
Congresswoman Clarke talked about it. You know, I just hope 
that we are not being desensitized to the victims of murder in 
the United States as opposed to who they are because now you 
see in newspapers and print media all across the country, to 
make us feel better about it, we always say he was the intended 
target. He may not have lived the right life.
    What was alluded to earlier was the fact that when we talk 
about the crime rate, we talk about terrorism, depending on the 
definition that you use, that is one of my concerns.
    Because where I am and in most urban cities, our weapons of 
mass destruction is the AK-47, M-716, Uzi, Tec-9, and all of 
those assault weapons that are able to harm a lot of people at 
one time, which includes innocent victims.
    So I would just want to stress that we don't let the 
victims and their perceived lifestyle or actual lifestyle 
desensitize us to the fact that 15,000 people were murdered in 
the country last year.
    But I thank you all for what you are doing. I think what 
you are doing is incredibly important. I think that this is an 
important issue.
    I think radicalization and what we are doing in our prison 
system should be a concern. It is a homeland security concern 
when you talk about what happens when they get out.
    Let us take Louisiana. We release 15,000 people from prison 
every year. Fifty percent go back. That is 7,500 crimes we know 
that will be committed. So, to the extent that we can't do 
anything on the front end to prevent those 7,500 crimes that we 
know are going to happen, then I think that that is something 
we can also look to work with our prison systems to make sure 
that we are just as effective.
    So no matter what the title of the hearing is, it doesn't 
concern me. What concerns me is the result that comes out of 
it. That is what is important. Even opening myself up to a 
lecture from my Chairman on what the Democrats did or didn't do 
in the last 4 years, I think that the message that was given 
last election is let us look forward. Let us continue to work.
    So thank you all for what you do. Hopefully, we can broaden 
the conversation to make sure that people getting out, we 
reduce the recidivism rate, and all of those things, to make 
sure people coming out of prison, no matter who they are, what 
religion they are, what race they are, or anything else, are 
not a threat to hardworking American citizens.
    So thank you.
    Chairman King. I thank the gentleman. His time has expired.
    Now moving forward, we go to the gentleman from Alabama, 
the distinguished subcommittee Chairman, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I thank all of you for your testimony. It has been very 
helpful. It has been a very productive hearing.
    Mr. Dunleavy, to your knowledge, do extremist groups and 
foreign governments sponsor the travel of prison imams and 
released prisoners to countries such as Saudi Arabia and Yemen?
    Mr. Dunleavy. I do know that foreign governments have 
provided funds for New York State chaplains, Islamic chaplains, 
to travel to Saudi Arabia for Hajj. How that money specifically 
made its way to the public servant, I believe it went through 
an Islamic organization within the United States. I don't think 
it was a check directly from the Saudi bank right to imam so 
and so.
    With respect to the inmates who traveled overseas, that is 
a little bit more elusive. I know of an individual who went 
from New York State to an Islamic center in Florida and then 
from there, as soon as his parole supervision was released, he 
jumped off to three different flights to Egypt and to Saudi 
Arabia and to Yemen. Where the funds came for that is cloudy.
    Mr. Rogers. This would be for Mr. Dunleavy, as well as Mr. 
Smith or any others. Is it true that members of at least three 
domestic terrorist recruit plots, the Lackawanna Six, Portland 
Seven, and the Virginia ``Paintball'' plots, all had contacts 
with prisoners in New York prison system?
    Mr. Dunleavy. Yes, it is. In the Lackawanna case, there 
were individuals directly tied to those Lackawanna Six who were 
also visiting inmates and taking phone calls from inmates in 
New York State.
    With respect to the Virginia case and with respect to the 
Oregon case, names of inmates and Islamic clergy, I believe, 
were found on hard drives by those individuals.
    Mr. Rogers. Great. I would like to ask each one of you to 
briefly answer this. What would you individually like to see 
become the work product that results from this hearing?
    We will start with you, professor.
    Mr. Useem. Well, I think the first thing is the mission of 
the hearing is something that I agree with----
    Mr. Rogers. Well, but other than raising awareness, 
obviously----
    Mr. Useem. Yes.
    Mr. Rogers [continuing]. The Chairman is doing a good job 
with that, with this. But I would think that we all are looking 
for some statutory changes and behavioral changes.
    Mr. Useem. No, I think one thing is, more than just 
awareness, we need specific knowledge on practices. I think we 
have had conversation of--you have had conversation about this, 
but we know anecdotes. We know isolated incidents.
    What we don't have is a general overview. We don't have 
sufficient information on practices. I think it would be very 
good if the committee would move in that direction.
    Mr. Rogers. Like some sort of a study?
    Mr. Useem. Yes.
    Mr. Rogers. Objective. Mr. Downing.
    Chief Downing. Yes, I agree. I think an assessment of what 
is in place at this time with the regulations and policies and 
support, that assessment would be helpful. Then from there, 
create a blueprint and a roadmap of the way ahead.
    Accredited, qualified, vetted spiritual advisers, a process 
to do that, on where it is about contemporary America not about 
the Middle East. They are creating universities across the 
Nation to train American imams in the context of what it is to 
have American-Muslim identity. That is important.
    The material that comes in to the institution is critically 
important, with an eye toward prevention of violent 
radicalization. Then better monitoring of meetings, to ensure 
they are meetings and not a ruse for some other type of 
activity.
    Mr. Rogers. Excellent.
    Mr. Smith.
    Mr. Smith. I would echo the sentiments of both these 
gentlemen. I mean, I think what needs to be done is from the 
State correctional institutions in the 50 States of the United 
States of America, an assessment of what type of investigative 
and intelligence sharing apparatus that exist among the 
institutions in each of those States on this issue needs to be 
assessed. I mean, that is ground zero.
    Once that assessment is done, a panel of people that have 
the experience and the know-how to be able to produce a 
document that might give some best practices that should be 
followed by the institution, so that we can monitor the threat 
and we can prevent any particular violent attacks on the 
outside of these prison walls.
    Mr. Rogers. Mr. Dunleavy, you are batting clean up.
    Mr. Dunleavy. Well, I think the first thing you have to do 
is you have to recognize that it is a viable threat. I think, 
again, going with my colleagues, that the methodology and the 
collection of data have to be standardized so that we can look 
across the board, so that the way New York is recording its 
conversion or the way New York is recording its visitors or its 
literature is the same as California, Florida, Illinois.
    There has to be standardization in data collection.
    Mr. Rogers. Excellent.
    Thank you very much, Mr. Chairman. I appreciate it.
    Chairman King. The time of the gentleman has expired.
    Let me thank all the witnesses. I think it has been a 
terrific hearing. All of you, all four of you, I thought gave 
extremely valuable testimony.
    I think Mr. Rogers' question at the end sort of sets the 
tone. We have to go from here. We have to, I think, assemble 
information, documentation, so we can get some positive results 
from the hearing, certainly as far as setting some sort of 
standardization.
    So I want to thank you for your testimony. The Members of 
the committee may have some additional questions. We will ask 
you to respond to those in writing, if you will.
    The hearing record will be held open for 10 days. Without 
objection, the committee stands adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]


 AL-SHABAAB: RECRUITMENT AND RADICALIZATION WITHIN THE MUSLIM AMERICAN 
                COMMUNITY AND THE THREAT TO THE HOMELAND

                              ----------                              


                        Wednesday, July 27, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:06 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, Rogers, McCaul, 
Bilirakis, Broun, Miller, Walberg, Cravaack, Meehan, Quayle, 
Long, Duncan, Marino, Thompson, Sanchez, Jackson Lee, Cuellar, 
Clarke of New York, Richardson, Davis, Richmond, Clarke of 
Michigan, and Hochul.
    Also present: Representative Green.
    Chairman King. The Committee on Homeland Security will come 
to order.
    The committee is meeting today to hear testimony on the 
efforts of al-Shabaab to recruit and radicalize the Muslim 
American community.
    The Chairman wishes to remind our guests today that 
demonstrations from the audience, including the use of signs, 
placards, and t-shirts, as well as verbal outbursts are 
violations of the Rules of the House.
    The Chairman wishes to thank our guests for their 
cooperation in maintaining order and proper decorum.
    Let me also before I begin my opening statement thank the 
Ranking Member for being willing to accommodate the change in 
the timing of the hearing this morning. It was originally 
scheduled for 9:30. Because of the Republican conference going 
on regarding the debt ceiling, we pushed it back to 10:00 
o'clock and the Ranking Member was kind enough to accept that 
change without requiring us to jump through any hoops or using 
any procedural moves.
    So Bennie, I thank you once again for your cooperation.
    Good morning. Today we hold the third in a series of 
hearings on radicalization in the Muslim American community. 
Our focus is the result of a lengthy investigation the 
committee has conducted into the threat the U.S. homeland faces 
from al-Shabaab, the Somalia affiliate of Osama bin-Laden's al-
Qaeda and Anwar al-Awlaki's al-Qaeda in the Arabian Peninsula, 
AQAP. The committee has been briefed by intelligence agencies, 
and we have interviewed dozens of experts on al-Shabaab.
    I want to welcome our distinguished panel of witnesses, all 
four witnesses. They have some of the most extensive insights 
into the problems uncovered by our committee's investigation, 
and we are grateful they are sharing their knowledge with us 
today.
    You will hear how al-Shabaab, who bin-Laden called, ``one 
of the most important armies of Islam,'' is engaged in an on-
going successful effort to recruit and radicalize dozens of 
Muslim American jihadis who pose a direct threat to the United 
States.
    Some argue that al-Shabaab is only a Somali problem and the 
group will never strike outside the Horn of Africa region. That 
kind of thinking is a glaring example of what the 9/11 
commission called a failure of imagination. With al-Shabaab's 
large cadre of American Jihadis and unquestionable ties to al-
Qaeda, particularly its alliance with AQAP, we must face the 
reality that al-Shabaab is a growing threat to our homeland.
    Our investigation into this threat has led to some alarming 
findings, notably that al-Shabaab has successfully recruited 
and radicalized more than 40 Muslim Americans and 20 Canadians 
who joined the terror group inside Somali. Of those, at least 
15 Americans and 3 Canadians are believed to have been killed 
fighting with al-Shabaab. Not al-Qaeda nor any of its 
affiliates have come close to drawing so many Muslim Americans 
and Westerners to jihad.
    Three Muslim Americans became suicide bombers, such as 
Shuja Ahmed from Minneapolis, the first confirmed American 
suicide bomber in our history. There are also radicalized 
converts like al-Shabaab Commander Omar Hammami, who was raised 
a Baptist in Alabama, and who has repeatedly threatened the 
U.S. homeland.
    Three American al-Shabaab fighters have been arrested after 
returning home, and one was collared in the Netherlands. Other 
radicalized Muslims have been arrested in the United States and 
Canada before they reached Somalia, which is now much easier to 
go to for jihad, than Afghanistan, Iraq, Pakistan, or Yemen,
    But as many as two dozen Muslim Americans of al-Shabaab, 
who in many cases were trained by al-Qaeda leaders, remain 
unaccounted for. The committee has found that al-Shabaab-
related Federal prosecutions for funding, recruiting, and 
attempting to join al-Shabaab are the largest number and most 
significant upward trend in homegrown terror cases filed by the 
Justice Department over the past 2 years.
    At least 38 cases have been unsealed since 2009 in 
Minnesota, Ohio, California, New Jersey, New York, Illinois, 
Missouri, Alabama, Virginia, and Texas. Al-Shabaab is 
recruiting inside American mosques in Somali communities like 
Minneapolis and San Diego, according to the Justice Department.
    This month an al-Shabaab recruiter pleaded guilty to 
recruiting a large group of Muslims in Minneapolis at mosques, 
and without any known protests by mosque leaders. A top al-
Shabaab leader in Somalia supervised this recruiting.
    One Minnesotan recruited was suicide bomber Shirwa Ahmed, 
whose 2008 attack in northern Somalia sent a shockwave of alarm 
through U.S. Homeland Security agencies because of its 
implications.
    Another would-be bomber from Minneapolis was shot and 
killed in Mogadishu by peacekeeping troops on May 30, moments 
before detonating his suicide vest. When one cleric spoke out 
against al-Shabaab inside the Minneapolis mosque, where many of 
the missing young Somali American men had once worshipped, he 
was physically assaulted, according to police.
    Now for those who are still skeptical that there are jihadi 
sympathizers inside their community, it is worth mentioning 
that the committee learned of this mosque assault when an 
audiotape of the incident was posted on an overseas jihadi 
internet forums before the authorities in Minneapolis even knew 
about the incident.
    There is an enormous amount of travel by Somali Americans 
between U.S. cities and East Africa, and most of this travel is 
legitimate. Yet senior U.S. counter-terror officials have told 
the committee they are very concerned about individuals they 
have not identified who have fallen in with al-Shabaab during 
trips to Somalia, who then would return to the United States 
undetected.
    They fear an al-Shabaab fighter operating under law 
enforcement's radar, someone like Zazi--the attempted subway 
bomber in New York, Shahzad--the attempted Times Square bomber 
in New York, and Abdulmutallab--the Christmas day bomber, may 
attempt to attack here.
    It is deeply troubling that from the very beginning Muslim 
Americans in Somalia were trained by top al-Qaeda operatives, 
including several who were tied to Yemin's al-Qaeda AQAP, which 
is now generally considered our biggest homeland threat.
    Al-Shabaab operative Ahmed Warsame was charged this month 
for doing weapons deals and explosive trainings with AQAP in 
Yemen and quotes to provide AQAP with materiel support, 
including personnel, linked between AQAP and al-Shabaab.
    Al-Shabaab has long harbored top al-Qaeda leaders, such as 
the mastermind of the 1998 U.S. embassy bombings in East 
Africa, who was gunned down last month in Somalia after a 13-
year manhunt. Al-Shabaab has paraded in Somalia in support of 
AQAP, and sent fighters to battle the weakened Yemeni 
government this year, as well as flying the battle flag of al-
Qaeda in Iraq.
    Finally, an al-Shabaab bombing in neighboring Uganda 1 year 
ago targeting Westerners, killed 74 people including one 
American. James Clapper, President Obama's director of national 
intelligence, said, ``vigilant that al-Shabaab may expand its 
focus from fighting to control Somalia to plotting to attack 
the U.S. homelands.''
    That convinced me of the necessity to launch a careful 
examination of that threat. Dozens of experts the committee 
staff interviewed agree this threat is real, and that al-
Shabaab's leaders' public calls for attacks against America, 
including in retaliation for killing bin-Laden, must be taken 
seriously.
    Just yesterday Matthew Olsen, the President's nominee to 
take over the National Counterterrorism Center, focused on al-
Shabaab and said what a major threat they are to the world and 
to our country. With a large group of Muslim Americans willing 
to die as martyrs, and a strong operational partnership with 
al-Qaeda leaders in Pakistan and Yemen, al-Shabaab now has more 
capability than ever to strike the U.S homelands.
    We look forward to a hearing about the rising al-Shabaab 
threats from our exceptional witnesses, as well as the 
Minority's distinguished witness.
    Finally, let me note that certain elements of the 
politically correct media, most egregiously, the vacuous 
ideologues at the New York Times, are shamelessly attempting to 
exploit the horrific tragedy in Norway last Friday to cause me 
to re-focus these hearings away from Muslim American 
radicalization.
    If they even had a semblance of intellectual honesty, the 
Times and the others would know and admit that there is no 
equivalency in the threat to our homelands from a deranged 
gunman, and the international terror apparatus of al-Qaeda and 
its affiliates, such as al-Shabaab, who are recruiting people 
in this country and have murdered thousands of Americans in the 
jihad attacks.
    Let me make this clear to the New York Times and their 
acolytes in the politically correct moral equivalency media. I 
will not back down from holding these hearings. I will continue 
to hold these hearings so long as I am the Chairman of this 
committee. Apart from all the strategic and moral reasons why 
these hearings are vital to our security, they are also 
liberating and empowering to the many Muslim Americans who have 
been intimidated by the leaders in their own communities, and 
are now willing and able to come forward.
    I also owe it to all the friends, neighbors, and 
constituents I lost on September 11. I will not back down.
    Now I yield to the distinguished Ranking Member from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I welcome our panel of witnesses to today's hearing.
    Today the committee will hold a third hearing in a series 
of terrorism and American Muslim community. In previous 
hearings we have heard testimony about young Americans of 
Somali descent who left this country to join al-Shabaab, a 
Somali group that has been designated a foreign terrorist 
organization by the Department of State.
    Our discussion of al-Shabaab in America must begin with the 
facts. Reliable evidence indicate a small but concerning number 
of young men have left America to join this group. This 
activity seemed to occur primarily between 2007 and 2009. Al-
Shabaab has fewer than 3,000 members. Al-Shabaab has never 
attacked the United States or U.S. interests abroad.
    There are other facts we must not ignore. Somalia is 
currently in the grips of the worst humanitarian crisis in a 
generation. Against Somalia's backdrop of human suffering 
caused by a natural disaster is the political instability 
caused by human folly. Somalia has not had a stable government 
since 1991. It has long been ruled by a family of groups and 
clans, unfortunately, al-Shabaab is one ingredient in this 
toxic and tragic mix.
    While I acknowledge that the intelligence community sees 
the need to monitor al-Shabaab activities, I also know that 
vigilance must be in direct proportion to the probability and 
likelihood of the threat. Al-Shabaab does not appear to present 
any danger to this homeland.
    At the same time, we must wonder whether Americans who have 
joined al-Shabaab would return to this country and commit acts 
of terrorism. I think that is a fair question that deserves a 
factual answer. A few people have been convicted in the United 
States for providing support and assistance to al-Shabaab.
    Many of the young men who were recruited by al-Shabaab have 
been indicted. Most remain fugitives in Somalia. Some have been 
killed. But what of the others? When they return from Somalia, 
what will await them here? As Members of this committee know, 
we cannot discuss methods in an open forum, but it is fair to 
say that most of these people will be identified and 
apprehended long before they touch down on American soil.
    We must also wonder how we can stop young Somali Americans 
from joining al-Shabaab. The Democratic witness will give a 
boots-on-the-ground perspective on how we can promote inclusion 
of the new immigrant communities, decrease alienation, and 
undermine radicalization. The threat of al-Shabaab radicalizing 
young Americans is a problem we can constructively address.
    Mr. Chairman, today marks the third time that this 
committee has taken up our latest links between terrorism and 
the American Muslim community. Before these hearings began I 
requested their focus be broadened to include a look at the 
real and present threat of domestic violent extremism. Those 
requests have been rebuffed.
    At our first hearing on this subject uprisings had begun 
throughout North Africa and the Middle East. At that time, I 
cautioned to remember how our words would reverberate beyond 
this room. It bears repeating today.
    Last week in Norway, a domestic terrorist fueled by anti-
Islamic ideology waged a multi-phased attack that included 
bombing Federal buildings, and shooting children at point-blank 
range at a summer camp for future national leaders. This lone 
wolf extremist killed nearly 80 people in his anti-Islamic 
fervor. It is too early to say what the people of Norway will 
take from this horrific national tragedy. But for me, this 
incident makes plain that the madness of terrorism cannot be 
neatly confined to any one religion, one people, or one nation.
    Let me repeat what I said before we began. This committee 
needs to examine the threat from lone wolves in our midst.
    Thank you, Mr. Chairman, and I yield back.
    Chairman King. I thank the Ranking Member. I would just 
remind the Ranking Member that you were Chairman of this 
committee for 4 years and you had the opportunity to hold any 
of those hearings if you thought there was such a distinct 
threat to the United States.
    I have said that whenever we can get intelligence that 
there is an organized threat against our country which cannot 
be met by the FBI or other law enforcement agencies, we would 
conduct a hearing. But I don't think the acts by a lone 
deranged gunman who hates Muslims and kills Christians in 
Norway is any reflection on this committee, or has anything to 
do with the hearings we are conducting here today or in the 
future. But I will certainly keep an open mind.
    Now, Mr. Chairman, our good friend Mr. Green is here. 
Before we ask unanimous consent to allow him to sit on the 
dais--and we are going to allow him to sit. He has purpose for 
the questions of the hearing. I would ask my friend Mr. Green 
and our Ranking Member Thompson whether there is any effort to 
assign Mr. Green to the committee on a permanent basis?
    This will be the ninth time during the Congress that 
unanimous consent has been requested. I will note there is 
still a vacancy on the Minority side, and while we love his 
interloping visits to the committee, is there any Member--any 
thoughts--on the issue whether he is going to be a permanent 
resident, or he is going to have a green card, or what his--
yes, what his purpose is as a member of this committee?
    Mr. Thompson. Well, he is an interested Member of Congress 
who, as you know, served dutifully as a Member of this 
committee in the Majority. Given the difference in the numbers, 
he had to leave. But nonetheless, his appearance before the 
committee clearly reflects his interest in the subject.
    Chairman King. Okay. I think I would just advise the 
Ranking Member that, you know, there is a vacancy on your side, 
and I can't think of anyone more qualified or more 
distinguished to fill that vacancy than Mr. Green. So if my 
recommendation means anything, I would recommend him.
    Without a doubt, I ask unanimous consent to allow Mr. Green 
to sit on the dais today.
    Without objection, so ordered.
    Also, I would ask unanimous consent, I believe we made this 
available to you, a letter that the committee received from the 
Antidefamation League. I would like to have that also inserted 
into the record.
    Without objection, so ordered.
    [The information follows:]
  Letter From the Anti-Defamation League Submitted for the Record by 
                         Chairman Peter T. King
                                     July 25, 2011.
House Committee on Homeland Security, United States House of 
        Representatives, Washington, DC 20515.

    Dear Representative: In advance of the July 27 House Committee on 
Homeland Security hearings on ``Al-Shabaab: Recruitment and 
Radicalization within the Muslim American Community and the Threat to 
the Homeland,'' we write to provide the committee with the Anti-
Defamation League's views on this issue. As you know, the League has 
been investigating, tracking, and reporting on a very wide range of 
international and domestic extremist and terrorist threats to the 
safety and security of Americans for decades.
    As this committee and the Congress continue to examine the nature 
of the current threat to our nation, the Anti-Defamation League hopes 
to play an on-going, helpful, and constructive role by continuing to 
offer its expertise in documenting that domestic and international 
terror threats from across the idealogical spectrum. ADL has documented 
on-going, dangerous, criminal activities of a variety of extremist and 
anti-government groups that also merit the committee's attention.
    Finally, we believe these hearings--and any that come after them--
should acknowledge and highlight the extraordinary, successful efforts 
of Federal, State, and local law enforcement officials to prevent and 
deter terrorism on our shores since September 11, 2001. But police and 
counterterrorism officials do not work in a vacuum; they cannot do 
their job without community relationships, trust, community 
cooperation, and a shared sense of responsibility for public safety. 
Congress should do all in its power to promote trust, reject unfair 
stereotyping, and encourage stronger relationships to counter attempts 
by international terrorist organizations to recruit disaffected or 
alienated Americans.
            Sincerely,
                                        Robert G. Sugerman,
                                                    National Chair.
                                         Abraham H. Foxman,
                                                 National Director.

    Chairman King. Again, Ranking Member Thompson, thank you 
for your opening statement. Other Members of the committee are 
reminded that opening statements may be submitted for the 
record.
    [The statements of Hon. Richardson and Hon. Ellison 
follow:]

            Prepared Statement of Honorable Laura Richardson
                             July 26, 2011

    Today Chairman King is convening a hearing today focused on 
possible al-Shabaab-inspired recruitment and radicalization efforts 
taking place within the Muslim American Community. While I believe the 
threat of radicalization in any form needs to be appropriately 
addressed in order to ensure the security of this Nation, I strongly 
believe the scope of these hearings should be broadened to include 
other forms of radicalization.
    While I continue to believe that the scope of these hearings needs 
to be broadened, I do realize that the threat that al-Shabaab poses to 
the Somali American community is troubling and must be addressed. 
Decades of political instability, food insecurity, violence, and 
poverty in Somalia have provided fertile ground for chaos. This has 
contributed to an environment in which terrorist organizations such as 
al-Shabaab have been allowed to flourish and gain power. Their control 
over the region was first realized in 2006 and 2007, when they 
recruited and radicalized approximately 30 to 40 young Somali Americans 
who traveled to Somalia to join al-Shabaab's efforts to overthrow 
Somalia's Transitional Federal Government.
    Unlike al-Qaeda, it has not been reported to this committee that 
al-Shabaab has engaged in a direct attack on our homeland. 
Additionally, the scope of the hearing fails to take into account the 
message we are sending to the international community when we couch the 
terms of the hearing as only focused on ``Muslim Radicalization.'' The 
risk that our committee's actions could stoke anti-Muslim attitudes 
throughout the world is very real. Within the international community, 
these sentiments were most recently exemplified in the recent terrorist 
attacks that occurred in Norway.
    The terrorist attacks that occurred on Friday, July 22 were the 
most devastating and lethal attacks to occur in the country of Norway 
since World War II. The bombing and subsequent shootings resulted in at 
least 76 deaths with dozens more injured. While the investigation is 
still on-going, officials have learned that the suspect, Anders Behring 
Breivik, could have been inspired by a manifesto he posted on the 
internet which contained militant, anti-Islamic, and anti-immigration 
views that argued for the violent annihilation of Islam and 
multiculturalism from Europe.
    This committee must be careful in the documents, hearings, and 
messages we may be sending to the international community. Thus, it is 
essential that this committee look at the broader picture when 
assessing future homeland security threats.
    Part of looking at the broader picture includes looking at what we 
are currently doing to combat homeland security threats. According to 
Mr. Smith's testimony, the St. Paul Police department heavily rely on 
the Bureau of Justice assistance grant designated AIMCOP--the African 
Immigrant Muslim Community Outreach Program. This grant allows his 
department to capitalize on existing efforts to interact with the local 
Somali American community and work with the community to prevent 
further radicalization. This strategy, which was also successfully 
implemented by Sheriff Baca in my district and throughout Los Angeles 
County, is a proven strategy that works and one this committee should 
adhere to.
    I concur that the Homeland Security Committee should discuss:
    (a) the potential threat to the Homeland posed by the Somali 
        terrorist organization al-Shabaab, and
    (b) the alleged recruitment of American citizens (not limited by 
        race or religion) by al-Shabaab.
    However, to date, the majority of this committee has not secured a 
single Federal official or other objective recognized authority to 
legitimize a discussion on the alleged limited scope and insinuations 
that only activity of Muslim Americans should be investigated or 
warrant discussion.
    I would like to reiterate that the threats and activities of al-
Shabaab are real and should be investigated by this committee. However, 
the continued limited scope is insufficient and discriminatory and thus 
unacceptable.
    Thank you and I yield back my time.
                                 ______
                                 
             Prepared Statement of Honorable Keith Ellison
                             July 27, 2011

    Chairman King, thank you for allowing me to submit this statement 
to the Congressional Record. I also thank Ranking Member Thompson.
    At a prior hearing of this committee on radicalization on March 10, 
2011, I made three points in my testimony. First, violent 
radicalization and domestic terrorism are very serious issues that must 
be understood and addressed by Congress. Second, any analysis of 
violent radicalization that is based upon stereotypes and 
generalizations regarding a particular ethnic group is, by definition, 
a flawed approach to this important issue. Committee hearings that 
target a particular religious minority are counterproductive because 
they undermine trust between the Government and the affected community. 
My prior testimony noted that we--policy makers and law enforcement 
officials--need increased understanding and engagement with Muslim 
Americans at all levels of government.
    Violent radicalization and domestic terrorism are serious issues of 
National security. I voted for The Violent Radicalization and Homegrown 
Terrorism Prevention Act of 2007 and am working on a revised version of 
this bill. Last summer I gave a lecture at the Center for American 
Progress titled ``Strengthening America's Security: Identifying 
Preventing and Responding to Domestic Terrorism.'' My Congressional 
office has worked extensively with law enforcement officials to thwart 
al-Shabaab's recruiting efforts in the Twin Cities. Saint Paul Police 
Chief Tom Smith is an ally in this effort and I thank him for his well-
informed testimony.
    Mr. Chairman, your statement announcing this hearing indicated that 
there ``has not been sufficient cooperation from mosque leaders.'' 
Respectfully, I submit that this view is not fully informed. My 
personal involvement in this issue in my home city and the experience 
of law enforcement lead me to a different conclusion. According to a 
U.S. Department of Homeland Security official who works with Somali 
communities on a daily basis, ``Relations between law enforcement 
agencies and the Somali communities throughout the country have never 
been better.'' That is certainly true in my Congressional district. 
Minneapolis Mayor R.T. Rybak recently told me that he was able to solve 
several high-profile crimes only because Somali community members 
voluntarily came forward in a spirit of cooperation to share 
information with the police.
    This year Somali American youth in the Twin Cities participated in 
two large summits to build bridges with the Department of Homeland 
Security; the Federal Bureau of Investigation; the Transportation 
Security Administration; Immigration and Customs Enforcement; Customs 
and Border Protection; the Minneapolis Police Department; the St. Paul 
Police Department and the U.S. Attorney for Minnesota B. Todd Jones. 
Moreover, U.S. Attorney General Eric Holder visited the Twin Cities in 
May to attend meetings with Somali youth regarding the strength of 
their partnerships with law enforcement. These meetings have been very 
productive and should serve as a model for other cities throughout the 
country.
    Similar meetings with law enforcement occur in my community 
regularly. There are roundtable discussions, workshops, awareness 
weeks, field trips, police mentor programs, and even sambusa cook-offs. 
The Minneapolis model is based on partnership and collaboration, not 
suspicion and fear. Minneapolis is looked to as an international model 
for cultural integration and mitigation of radicalization. In fact, the 
Norwegian Ambassador to the United States visited Minneapolis last year 
to learn about our approach.
    Law enforcement officials in my district have told me that the 
Somali community is cooperative because everyone shares the same 
interests--everyone wants a safe and secure environment where their 
children can succeed. We all want al-Shabaab to stop preying on our 
Somali friends and neighbors. Somali mothers and fathers do not want 
their children to join al-Shabaab. They overcame great hardships and 
deprivation to bring their families to America for a better life. 
Somali parents, like all parents, want to keep their children safe from 
those who would put them at risk.
    I ask you to use this committee to review our experience in the 
Twin Cities of Minnesota, and not to stereotype a community. Such an 
approach is counterproductive. Somali youth in my district have told me 
that media and political figures who stigmatize their community are a 
major barrier to building trust with law enforcement.
    The tragic, horrific terrorist attacks in Norway this past weekend 
provide a stark reminder that violent extremists dwell in all 
communities. Homeland security policy and hearings should investigate 
threats from all communities. Policy makers may overlook serious 
security risks because of a narrow focus on persons or groups from a 
particular ethnic background or religious group. A recent New York 
Times article made this point last week. It read: ``The bombing and 
shootings in Oslo also have served as a wake-up call for security 
services in Europe and the United States that in recent years have 
become so focused on Islamic terrorists that they may have 
underestimated the threat of domestic radicals, including those upset 
by what they see as the influence of Islam.''
    Despite this ``wake-up call'' and the warning from the author of a 
2009 Department of Homeland Security report on right-wing extremism 
that the Norway attack ``could easily happen here,'' you as Chairman 
have said that the Homeland Security Committee would not examine non-
Muslim threats to the homeland.
    In the interest of U.S. National security, I urge the committee to 
broaden the scope of these hearings to include all threats to the 
homeland. The 2009 Department of Homeland Security report warned of an 
increase in right-wing extremism. Despite attacks on mosques, Planned 
Parenthood centers, an IRS building in Texas and the U.S. Holocaust 
Memorial Museum, the committee has not yet held a hearing on right-wing 
extremism. How can the committee fulfill its duties to protect the 
homeland when it does not investigate all types of domestic threats?
    As we were reminded on July 22, 2011, the threat of right-wing 
terrorism is real. Norwegian extremism Anders Behring Breivik said that 
the ``threat'' of Islam and multiculturalism motivated him to kill 76 
people and injure many more. He said that Muslim leaders could 
``dismantle our border controls, completely flood our countries with 
Muslims and implement Shariah law in Europe within 48 hours. '' Where 
did Breivik get such irrational, nonsensical ideas? In his 1,500-page 
``manifesto,'' which is available on-line, Breivik quoted numerous 
anti-Muslim activists Robert Spencer, Hugh Fitzgerald, Daniel Pipes, 
and Pamela Geller. Their campaign of Islamophobia began on the fringe 
of the radical right but has now seeped into American political 
discourse, as is evident in the campaign rhetoric of well-known 
candidates for public office.
    Sadly, we are not immune to what happened in Norway. The tragedy 
there should serve as an alarming reminder that irresponsible and 
inflammatory anti-Mulsim hate speech ``is not cost free,'' to quote 
former CIA officer Marc Sagerman. Indeed, hate speech directed at any 
group based upon gender, religion, sexual orientation, or ethnic 
background carries risks.
    As policy makers, we should acknowledge that domestic terrorism can 
originate from different communities, and should be investigated as 
such. As leaders, we need to address these issues in a thoughtful and 
responsible way, and avoid stereotypes. Instead of ignorance and fear, 
we need greater understanding and community engagement.
    Mr. Chairman and Ranking Member, thank you again for allowing me to 
share this message with the committee.

    Chairman King. We have a distinguished panel for our vital 
hearing today and I welcome our witnesses. I would remind the 
witnesses that their full testimony will be submitted for the 
record, and I ask you to attempt to summarize your statements 
in 5 minutes.
    Our first witness, Ahmed Hussen, is a member of the 
Canadian government's crosscultural roundtable on security, and 
has distinguished himself as one of North America's most 
prominent and respected Somali and East Africa security and 
government analysts.
    Mr. Hussen is the national president of the Canadian Somali 
Congress. He is a graduate of York University and the 
University of Ottawa Law School. He is involved in numerous 
civic activities, including helping to set up a Canadian Somali 
Jewish mentoring project. He has also assisted the Royal 
Canadian Mounted Police. We are privileged to have him here 
today as a witness.
    Mr. Hussen, you are recognized for 5 minutes.

STATEMENT OF AHMED HUSSEN, NATIONAL PRESIDENT, CANADIAN SOMALI 
                            CONGRESS

    Mr. Hussen. Thank you, Chairman King, Ranking Member 
Thompson, and distinguished Members of this committee.
    I want to begin by talking a little bit about the Canadian 
Somali community. It is a 200,000-strong community spread out 
mostly all across Canada. They have strong links, mostly 
positive, with the American Somali community. However, they are 
also--there is also an underbelly of negative links as well.
    I am a Canadian Muslim who is proud of his faith and 
heritage, and I truly believe that the Canadian and American 
values of liberty, democracy, rule of law, human rights, and 
respect for minorities do complement and work neatly with the 
tenets of my faith.
    It is a fact lost on many Muslims, including Canadian 
Somalis, that it is countries like the United States and Canada 
that guarantee human rights and religious freedoms, that we can 
actually practice our faith in these sorts of environment. The 
civil rights of our community members must be protected, but 
obviously it is also equally important to disseminate these 
integration-friendly messages in order to contribute to a 
process where our communities emphasize the defense and 
attachment to the countries of Canada and the United States.
    The statistics associated with the Canadian Somali 
community are quite shocking. We have six times the median 
family income that the mainstream has, and three times lower 
than what other visible minorities have in Canada. Due to this 
poverty, dislocation and a history of coming out of a brutal 
civil war, we have a lot of young males in our community who 
drop out of school and become vulnerable.
    They become easily vulnerable to people who feed them anti-
Western ideologies. They also become vulnerable to a narrative 
that basically makes them hate the very countries that have 
sustained them, the very countries that--whose--the very 
countries that welcomed their parents and provide refuge to 
their parents.
    We have tried in the Canadian Somali Congress to overcome 
that narrative by making sure that we give our youth access to 
jobs and professions, and integrate them into the larger 
mainstream community. With opportunity there is less door for 
radicals to come in and create vulnerability.
    In early 2001, Canadian national security officials 
confirmed the disappearances of thousands--oh, sorry, of 
dozens--of young Canadian Somali males who had traveled to 
Somalia to fight with al-Shabaab, a terrorist group that at 
that point officially had become allied with al-Qaeda and al-
Qaeda in the Arabian Peninsula.
    Three of our young people in Canada have died in Somalia 
fighting for this group. Lately, the recruiters have turned 
their attention to the recruitment of young women. Whether this 
is a new way to stay one step away from the law is something to 
be determined.
    These figures obviously point to the fact that the scale of 
Canada's problem with radicalization in our community is 
comparable in numbers with what you are dealing with in 
America. Also, the links between the recruiters, the 
radicalized message, the fundraising; there are a lot of 
connections between the United States and Canada.
    It is very disturbing to us as Canadian citizens to see the 
children of those who fled the civil war in Somalia to return 
to a country that they barely know and contribute further to 
its misery. The radicalization and recruitment of American 
Somalis into a life of international terrorism in 2006 to 2009 
mirrors the pattern of the radicalization or recruitment of 
Canadian Somalis from 2009 to the present time.
    Although the internet is the main tool for the transmission 
of messaging that leads to radicalization, you still need 
people who will chaperone these young people to East Africa, as 
well as provide logistics and other supports. There is 
obviously a clear connection between the Minneapolis American 
Somali community and the total Somali community in Canada.
    Most of it is positive. There is trade, there is social 
connections, and so on. But there is an element that needs to 
be looked at. There has not been an attempt by our government 
to--our government have taken this issue and looked at it as a 
law enforcement issue, which is important. But there has not 
been a parallel attempt to counter the toxic anti-Western 
narrative that creates a culture of victimhood in the minds of 
members of my community.
    It is only members of the Canadian Somali community and 
members of the larger Canadian Muslim community that can 
credibly confront and eradicate this narrative from our 
community's midst. Equally important, the leaders of this 
effort in the community are those that emphasize integration 
and the adherence to, and respect for, Canadian and American 
values, and not those that promote separation, extremism, and 
victimology.
    The role that we believe the Canadian and American 
governments should play is to promote--is to support and 
encourage the leaders who are encouraging integration and 
commitment to the rule of law and to the constitutions of 
Canada and the United States. To shun and denounce those who 
are promoting extremism within our midst.
    I would like to close by saying that these hearings are 
extremely important to us. They empower us, and they remove the 
stigma in our community that prevents us from talking about 
these issues that are really important to our community. These 
hearings are very empowering.
    Finally, al-Shabaab, radicals, the messaging--the anti-
Western messaging--is not compatible with Islam and is not in 
the best interests of my community.
    Thank you, Mr. Chairman.
    [The statement of Mr. Hussen follows:]
                   Prepared Statement of Ahmed Hussen
                             July 27, 2011

    I want to take this opportunity to thank Chairman King and the 
distinguished Members of this committee for inviting me to provide 
testimony to this committee.
    My name is Ahmed Hussen and I am the national president of the 
Canadian Somali Congress. It is a national advocacy organization that 
advocates on issues of importance to the 200,000 strong Canadian Somali 
community. The Canadian Somali Congress works to foster a Canada where 
Canadian Somalis, as part of the fabric of that country, live in and 
contribute fully into Canadian Society with the eventual goal of full 
integration. I am a Canadian Muslim who is proud of his faith and 
heritage. I believe that the Canadian and American values of democracy, 
liberty, rule of law, human rights, and respect for minorities do not 
contradict the tenets of my faith. It is a fact lost on many that 
Muslims, including Canadian Somalis, can best practice their faith in 
societies such as Canada and the United States that guarantee the 
rights of individuals including freedom of worship. The civil rights of 
our community members must obviously be protected but it is equally 
important to disseminate these integration-friendly messages in order 
to contribute to a process where our community emphasizes the defense 
and attachment to the countries of Canada and the United States.
    I come from a community that is a relatively new community to 
Canada. After fleeing a civil war that gripped Somalia in the late 
1990s, the Canadian Somali community is now undergoing the growing 
pains of integration into the larger Canadian mainstream society. The 
statistics associated with this community bear this out. The median 
family income of the Canadian Somali community is six times less than 
the median family income of mainstream Canadians and three times less 
than other visible minorities. Sixty-eight percent of this community is 
between 1 to 14 years of age and 84% are 30 years of age or younger. In 
major cities such as Toronto and Ottawa, the unemployment rate of 
Canadian Somalis is close to 40%, much lower than the Canadian 
unemployment rate of around 7%. Due to poverty, dislocation, and family 
separation as a result of the journey of escape from Somalia's civil 
war, many young males in our community have dropped out high school. 
The segment of the youth who are industrious, law-abiding, and succeed 
in school easily graduate but have tremendous difficulties accessing 
jobs and professions. This is due to the fact that there is a shortage 
of professionals in our community who can mentor these young people and 
ease their way into their chosen jobs and professions. The best example 
that I can use to illustrate this point is to relate the story of 
Abdinasir, a young Canadian Somali who played by the rules, stayed out 
of trouble, and graduated with a degree in accounting. I ran into him 
in 2007 and asked him if he had found a job as an accountant. He 
replied that he has a menial job working in a coffee shop because he 
couldn't find a Somali accountant anywhere who could mentor him. This 
is despite the fact that he could work under any accountant but his 
horizons were limited with the notion that he could only work under a 
Somali man. After this encounter, I realized that thousands of young 
Canadian Somalis were graduating from colleges and universities but 
ending up being unemployed or working at menial jobs. The response of 
the majority of these young people is to persevere and keep working 
hard to improve their socio-economic status. A minority of them become 
alienated and fall victim to a narrative that turns them against Canada 
and the United States, the very countries that have sustained them and 
also gave refuge to their parents as they fled the brutal civil war in 
Somalia. This dangerous and constant anti-Western narrative is fed to 
them by radicals in our community who do not hesitate to use these 
vulnerable youth as gun fodder in their desire to establish a base for 
the al-Qaeda terrorist group in Somalia. We have made many efforts to 
counter this development. One initiative that we took was to partner 
with the Canadian Jewish Congress to launch the Canadian Somali Jewish 
Mentorship Project. This national project aims to place hundreds of 
young Canadian Somalis in jobs and professions that match their 
educational experience and help to steer them away from alienation and 
extremism. This is the first national project in Canada between the 
Jewish community and a large Muslim community.
    Early in 2011, Canadian national security officials confirmed the 
disappearances of dozens of young Canadian Somali males who had 
travelled to Somalia to fight for the al-Shabaab, a terrorist group 
that is officially allied with al-Qaeda and al-Qaeda in the Arabian 
Peninsula. Three of these individuals have died in Somalia fighting for 
this group. Lately, the recruiters have turned their attention to the 
facilitation of young Canadian Somali women into joining al-Shabaab. 
Whether this is an attempt to stay one step ahead of law enforcement 
scrutiny is not clear. These figures point to the fact that the scale 
of Canada's problem with al-Shabaab radicalization and recruitment is 
comparable to that experienced by the United States and countries in 
Europe, which also have sizable populations of ethnic Somalis. Al-
Shabaab, which means The Youth in Arabic, has been using a mix of 
terrorism and insurgency to impose Taliban-like rule of terror in 
Somalia, which has been without an effective government for more than 2 
decades. The group's tactics--suicide bombings, roadside bombs, 
political assassinations and a pledge of allegiance to al-Qaeda and 
Osama bin Laden--have landed the group on international terrorist 
lists, including Canada's. Using an internet propaganda campaign, al-
Shabaab has attracted hundreds of foreigners, among them Canadians, who 
have flocked to Somalia to join what they claim is a global jihad 
against the West. It is very disturbing to us as Canadian citizens to 
see the children of those who fled the civil war in Somalia return to a 
country they barely know and contribute to its misery. There is an 
additional concern that these individuals would come back to threaten 
and harm Canada, the very country that has given us peace, security, 
and opportunity. Those who are recruited to make the journey to Somalia 
in order to fight for the al-Shabaab are transformed by the experience 
and often turn into recruiters themselves. The radicalization and 
recruitment of American Somalis into a life of international jihad in 
2006 to 2009 mirrors the pattern that was to emerge in Canada from 2009 
to the present time. Although the internet is the main tool for the 
transmission of messaging that leads to radicalization, you still need 
facilitators who pay and arrange for the transportation of these 
recruits half way across the world. It is in this area that Canadian 
media reports have shown a clear connection between the radicals 
operating in the Minneapolis American Somali community and those 
radicals living in Canada that are responsible for the radicalization 
and recruitment of Canadian Somalis. The strategy of Canadian officials 
as they confront this phenomenon in my community has been to view this 
serious matter only through the prism of law enforcement. This is due 
to the fact that the vast majority of our efforts have been dedicated 
to the prevention of a major terrorist attack. There has not been a 
parallel attempt to counter the toxic anti-Western narrative that 
creates a culture of victimhood in the minds of members of our 
community. It is only members of the Canadian Somali community and 
members of the larger Canadian Muslim community that can credibly 
confront and eradicate this narrative from our community's midst. 
Equally important, the leaders of this effort in the community are 
those that emphasize integration and the adherence to and respect for 
American and Canadian values and not those that promote separation, 
extremism, and victimology. The role of the Canadian and American 
governments should be to encourage and strengthen the former while 
shunning and denouncing the latter.

    Chairman King. Thank you, Mr. Hussen.
    Our next witness, Anders Folk, is a former assistant United 
States attorney for the District of Minnesota. He was a 
prosecutor on more than a dozen high-profile al-Shabaab 
terrorism cases originating in the Minneapolis area. He 
represented his office on the Minneapolis Joint Terrorism Task 
Force. For prior to his work as a Federal prosecutor, Mr. Folk 
served honorably in the United States Marine Corps.
    We welcome his testimony here today. We also acknowledge 
the presence of his wife here in the audience today. Again, it 
was a pleasure meeting with her and with you this morning, and 
I look forward to your testimony.

  STATEMENT OF W. ANDERS FOLK, FORMER ASSISTANT UNITED STATES 
                ATTORNEY, DISTRICT OF MINNESOTA

    Mr. Folk. Good morning, Chairman King. Thank you.
    Ranking Member Thompson and members of the community, thank 
you for this opportunity to testify this morning regarding al-
Shabaab. As a former Federal prosecutor involved in National 
security cases, and as a Marine, I am well aware of the 
extraordinary threat posed to the United States' National 
security by terrorists and terrorist organization.
    As a Federal prosecutor, I was responsible for the 
prosecution of members of al-Qaeda as well as al-Shabaab, as 
well as domestic terrorists, such as anarchists and other anti-
Government groups that advocated violence against U.S. citizens 
of all stripes.
    These experiences have taught me that extremist views that 
fuel terrorists, whether homegrown or foreign, al-Shabaab, al-
Qaeda, or otherwise, are capable of extraordinary acts of 
violence. They require the unwavering attention of law 
enforcement.
    Outside of my work as an attorney, I also serve as the 
board--as the chair of the board of a non-profit organization 
that educates new immigrants to the United States. Students at 
this organization come from nations that I am familiar with and 
that we all are familiar with as breeding grounds for 
terrorists and terrorist activities.
    These students that I have had the privilege of watching 
better themselves through their education so that they may 
become contributing members of society, remind me that the 
necessity for swift, precise, and effective counter-terrorist 
actions through our military, our intelligence community, and 
our law enforcement community, both within the United States 
and abroad, must never be replaced by an attitude of guilt by 
association, or a belief that one's origins or religious views 
make that person a likely or presumptive terrorist.
    In light of that, it is appropriate, indeed, it is 
important, that this community spend time learning about and 
educating the public about the threat posed to the United 
States by al-Shabaab. Al-Shabaab was designated a foreign 
terrorist organization by the Department of State in February 
2008. Its activities have included, but are not limited to, 
suicide bombings in Somalia, suicide bombing in Uganda, killing 
hundreds of innocent people, the senseless and extreme acts of 
violence that we have seen them perpetrate, to include stoning 
innocent people in Somalia--teenage girls--cutting hands and 
feet of thieves in Somalia, and as we are all now well aware, 
the active recruitment of U.S. citizens, especially from my 
home of Minnesota, to join its ranks and engage in its 
terrorist activities.
    Al-Shabaab has worked tirelessly to raise and rise from the 
chaos of Somalia to become a terrorist group with an 
international profile. That rise has been marked by the 
recruitment of numerous young men from Minnesota. These young 
men in the beginning of their lives as adults, whose future as 
Americans was yet to be determined, was stolen from them by the 
rhetoric of al-Shabaab.
    Al-Shabaab has established and shown clear and unequivocal 
ties not only to an Islamic fundamentalist rhetoric, but also 
to other terrorist organizations with which we are intimately 
familiar in this country, to include al-Qaeda.
    Al-Shabaab's recruiting videos on the internet prominently 
feature Osama bin Laden, Ayman al-Zawahiri, and in addition, 
illustrate members of East African al-Qaeda, such as Salah 
Nabhan, at al-Shabaab training camps alongside U.S. recruits.
    Mr. Chairman, the dangerousness and the effectiveness of 
al-Shabaab's rhetoric is clear from Minnesota's experience with 
this organization. If you turn your attention to a 7-day period 
in 2008 you will know everything you need to know about the 
effectiveness and the effect on the United States of this 
organization.
    On October 29, 2008, Shirwa Ahmed became the first U.S. 
suicide bomber, blowing himself up, killing innocent civilians, 
and wrecking further havoc on Somalia. Within 1 week of that in 
the beginning of November 2008, an additional group of young 
men left Minnesota for Somalia to join al-Shabaab.
    That contrast of extraordinary violence followed by 
additional recruitment tells this committee and the American 
people everything it needs to know about the danger of the 
threat and the absolute effectiveness of the rhetoric being 
used to recruit young men.
    To fight al-Shabaab and its supporters, the United States 
must engage in a multifaceted approach that utilizes all the 
United States' abilities. This includes the military, the 
intelligence community, and the law enforcement community 
within the United States.
    However, in addition to focusing our military, 
intelligence, and law enforcement efforts upon countering the 
al-Shabaab message, preventing terrorist attacks, and 
disrupting the organization, we must also ensure that the 
Somali community understands that the United States Government 
interest in that community is not limited to putting names on 
indictments.
    Thank you for your time this morning. I appreciate it.
    [The statement of Mr. Folk follows:]

                  Prepared Statement of W. Anders Folk
                             July 27, 2011

    I served as an Assistant U.S. Attorney (``AUSA'') for the District 
of Minnesota from October 2005 through December 2011. Prior to my work 
as an AUSA, I was a judge advocate in the Marine Corps, prosecuting and 
defending Marines and Sailors charged with criminal offenses under the 
Uniform Code of Military Justice. I am also a Minnesota native, who 
attended the University of Minnesota as an undergraduate and law 
student. Among other duties as an AUSA, I served as the Anti-Terrorism 
Advisory Council prosecutor for the District of Minnesota (``ATAC''). 
In that capacity, I was responsible for working with the Federal Bureau 
of Investigation's (``FBI'') Joint Terrorism Task Force (``JTTF'') in 
Minnesota to investigate individuals who were involved with terrorist 
groups or terrorist-related activity. In some circumstances, this led 
to criminal charges directly related to terrorism (e.g., providing 
material support to a foreign terrorist organization), and other times, 
charges with no direct relation to terrorism (e.g., immigration-related 
marriage fraud).
    During the course of my duties as ATAC, I worked collaboratively 
with the FBI and numerous other Federal agencies involved in National 
security to investigate al-Shabaab's activities in the District of 
Minnesota. This assignment ultimately led to work across the United 
States and the world. To date, the U.S. Attorney's Office in Minnesota 
and the FBI's JTTF in Minnesota have unsealed indictments against 20 
individuals--19 of whom were Minnesota residents--involved either 
directly with al-Shabaab or who supported others connected to al-
Shabaab.
    In addition to my work targeting individuals in Minnesota who were 
supporting al-Shabaab, I was also involved in and aware of, though less 
so, investigations into individuals providing material support to al-
Shabaab in other Federal districts within the United States.
    By way of background to the investigation of al-Shabaab, between 
September 2007 and October 2009, over 20 mostly ethnic Somali men left 
the Minneapolis, Minnesota area and traveled to Somalia, where they 
trained with al-Shabaab. Many of them ultimately fought with al-Shabaab 
against Ethiopian forces, African Union troops, and the 
internationally-supported Transitional Federal Government (TFG). Since 
their departure from Minnesota, these men have been involved in all 
aspects of al-Shabaab's terrorist activities, including military 
training, combat, suicide bombings, and recruitment.
    The unique and extraordinary threats to National security that 
foreign terrorist organizations present to the United States are 
abundantly clear. Al-Shabaab's successful recruitment of U.S. citizens 
and lawful permanent residents and the existence of a base of 
ideological and actual support for al-Shabaab in the United States 
raise a number of issues that require study in order to ensure that the 
United States maintains its safety in the face of the threat posed by 
the group. The lessons learned in Minnesota and across the United 
States from investigating and prosecuting members of al-Shabaab provide 
an opportunity for such study.

  GENERAL CONCERNS RAISED BY AL-SHABAAB'S RECRUITMENT, TRAINING, AND 
    OPERATIONAL DEPLOYMENT OF U.S. CITIZENS AND RESIDENTS IN COMBAT

    The departure of men from Minnesota to fight in Somalia on behalf 
of a designated foreign terrorist group raises numerous concerns for 
Federal and State law enforcement, the National security agencies and 
U.S. military, and for any community which experiences recruiting, 
fundraising or advocacy on behalf of designated foreign terrorist 
groups. First, the idea that it is possible that men (or women) may 
leave the United States, receive military training, combat experience, 
and religious indoctrination justifying violence against innocent 
people, and then return to the United States to either put those 
experiences to use or to recruit others to do the same, poses a 
significant threat. Second, the strong social and family networks that 
individuals leaving the United States maintain when they travel to 
foreign countries to join foreign terrorist organizations enhances the 
reach-back capability of those organizations to conduct recruiting and 
fund-raising in the United States, thus enhancing the organization's 
ability to continue to function. Third, the recruiting of U.S. citizens 
and lawful permanent residents allows foreign terrorist organizations 
access to identification and travel documents that permit travel and 
access to and within the United States. Fourth, recruiting U.S. persons 
provides international terrorist organizations with inside knowledge 
about the United States that makes it easier to operate within the 
United States and to teach others to do the same.
    There are a number of distinct challenges to protecting U.S. 
communities from foreign terrorist activities. First, the organizations 
are international, thus, often their members and resources are located 
outside the reach of a domestic law enforcement agency. Second, the 
organizations are often motivated by ideology--political, religious, or 
otherwise. As a result, the forces driving the groups' desire for 
violence or other operational activities often cannot be controlled by 
law enforcement in a meaningful way. Third, because the groups are 
international, their modus operandi may not be easily discernable to 
domestic law enforcement agencies. Fourth, their members often will not 
be known to law enforcement agents.

       BACKGROUND ON AL-SHABAAB AND AL-QAEDA RECRUITMENT EFFORTS

    Al-Shabaab's efforts to recruit foreign fighters are no secret. Its 
former leader, Aden Hashi Ayrow, called for foreign fighters to join 
al-Shabaab in a ``holy war'' against the Ethiopian and African Union 
forces in Somalia. This call was echoed by al-Qaeda leadership, 
including Osama bin Laden and Ayman al-Zawahiri. Since Minnesotans 
began leaving the United States for Somalia, al-Shabaab has made 
significant and repeated efforts to advertise its cause, to recruit 
individuals from outside Somalia to join its organization, and to raise 
money in support of its operations in Somalia. Such efforts are 
disclosed in press releases, videos released on the internet, and 
documents contained in publicly available court proceedings. 
Additionally, these efforts include the glorification of jihad, 
espousal of rhetoric critical of the United States, and justifying 
violence. Illustrative of such conduct by al-Shabaab's are the widely 
distributed and viewed videos on the internet, one of which features an 
individual who left Minnesota and traveled to Somalia to fight for al-
Shabaab and to recruit other men to travel to Somalia.
    The Minnesotans ultimately charged as part of the investigation 
into al-Shabaab generally fell into two groups: Individuals who have 
traveled to Somalia to fight, and individuals who have provided support 
from the United States to al-Shabaab members in Somalia or to 
individuals in the United States preparing to travel to Somalia to join 
al-Shabaab. Among the men who traveled to fight in Somalia, the 
individuals can be further categorized based upon the year of their 
departure for Somalia: The classes of 2007, 2008, and 2009.
    Separate from these travelers is the additional category of 
individuals who were investigated and charged for supporting the 
travelers who joined al-Shabaab or who independently supported al-
Shabaab financially. This category includes an individual charged and 
convicted of committing perjury before a grand jury as a result of 
false statements related to his knowledge of individuals planning to 
leave the United States for Somalia; an individual charged and 
convicted of obstruction of justice regarding his knowledge of 
individuals traveling from Minnesota to California, ultimately to leave 
the United States and join al-Shabaab; and individuals raising money 
from supporters in the United States and sending that money to al-
Shabaab in Somalia via the hawala money transfer system.

                                  2007

    The class of 2007 fighters left Minnesota in December 2007, 
traveling from Minneapolis, Minnesota to Somalia via the Netherlands 
and Dubai, United Arab Emirates. At the time these men left Minnesota, 
al-Shabaab was not yet designated a foreign terrorist organization by 
the U.S. Department of State. Upon their departure from Minnesota, 
members of the class of 2007 stayed at an al-Shabaab-operated safe 
house outside of Mogadishu, Somalia, attended an al-Shabaab training 
camp, and in some cases, participated in combat actions on behalf of 
al-Shabaab. Of the men who left Minnesota in 2007, three ultimately 
returned to Minnesota. These three men were Salah Osman Ahmed, Kamal 
Said Hassan and Abdifatah Yusuf Isse. Isse and Ahmed both pleaded 
guilty to violating 18 U.S.C.  2339A, for providing material support 
to terrorists. Hassan pleaded guilty to violating 18 U.S.C.  2339A, 
2339B and 1001, for providing material support to terrorists, providing 
material support to a designated foreign terrorist organization, and 
making false statements in an offense involving international 
terrorism.
    Other individuals who traveled to Somalia as part of the class of 
2007, but who have not returned to the United States, include Khalid 
Abshir and Ahmed Ali Omar. These men have been charged with a number of 
Federal criminal offenses related to providing material support to al-
Shabaab but remain at large.
    In addition to the individuals who returned to the United States 
and were charged with criminal offenses, the class of 2007 included 
Shirwa Ahmed. On October 29, 2008, Ahmed took part in one of five 
simultaneous suicide attacks on targets in northern Somalia that 
appeared to have been coordinated. These attacks resulted in a 
significant number of deaths, including his own, and represented al-
Shabaab's ability and willingness to use suicide bombers to carry out 
attacks.
    Finally, the class of 2007 included two individuals who remained in 
Minnesota but were involved in criminal activity supporting the travel 
of men to fight in Somalia. Adarus Ali was charged with and pled guilty 
to committing perjury in violation of 18 U.S.C. 1623, based on false 
statements he made to a grand jury that was investigating the travel of 
Minnesotans to Somalia to fight. Omer Abdi Mohamed was charged with and 
pled guilty to providing material support to terrorists in violation of 
18 U.S.C. 2339A, based on his role in the conspiracy to assist the 
class of 2007 to travel to Somalia.

                                  2008

    In January 2008, Mahamud Said Omar was the first of the class of 
2008 to travel to Somalia from Minnesota. While in Somalia he stayed at 
an al-Shabaab safe house with other Minnesotans. While at the safe 
house, he provided money to purchase AK-47 assault rifles and to 
operate the safe house. Mahamud Said Omar returned to Minnesota in 
April 2008, during which time he remained in contact with members of 
the conspiracy and members of al-Shabaab. Upon his return, he assisted 
other Minnesotans in their departure from Minnesota to Somalia. Mahamud 
Said Omar left the United States for a second time later in 2008, and 
was ultimately arrested in the Netherlands pursuant to charges filed in 
the District of Minnesota, alleging Mahamud Said Omar's activities in 
support of al-Shabaab.
    In February 2008, Zakaria Maruf traveled from Minnesota to Somalia 
to join al-Shabaab. Maruf was charged with a variety of terrorism-
related offenses following his departure to Somalia. Maruf's later 
death in Somalia was widely-reported. The reports surrounding Maruf's 
death included descriptions of Maruf's efforts to recruit additional 
fighters from Minnesota, in a manner consistent with the recruiting 
language and themes found in al-Shabaab's videos available on the 
internet.
    In August 2008, Mohammed Abdullahi Hassan and Mustafa Ali Salat 
left Minnesota for Somalia to join al-Shabaab. Each has been charged 
with a variety of criminal offenses related to providing material 
support to al-Shabaab.
    In November 2008, Abdisalan Hussein Ali, Abdikadir Ali Abdi and 
others, left Minnesota for Somalia to join al-Shabaab. This departure 
took place less than 1 week after Shirwa Ahmed conducted his suicide 
bombing attack on behalf of al-Shabaab in Somalia. Abdisalan Hussein 
Ali and Abdikadir Ali Abdi have been charged with a number of criminal 
offenses related to providing material support to al-Shabaab. They 
remain at large.
    Among the men in the class of 2008, the following have been 
reported killed in Somalia: Zakaria Maruf, Troy Kastigar, and Burhan 
Hassan.

                                  2009

    In October 2009, three additional Somali men left Minnesota and 
traveled to Somalia to fight. Amongst them was Farah Mohamed Beledi, 
recently identified publicly by the FBI and his family as being killed 
in Somalia in an attempt to detonate a suicide bomb. Another man who 
traveled to Somalia to fight on behalf of al-Shabaab was Cabdullahi 
Faraax. Faraax was charged not only with terrorism-related offenses, 
but also with lying to the FBI on multiple occasions about his 
knowledge of terrorist-related activities in and around Minneapolis, 
Minnesota.
    As part of the class of October 2009 travelers, Abdow M. Abdow was 
also charged with and pleaded guilty to lying to the FBI regarding his 
knowledge of others who traveled with him from Minnesota to California.

                               FINANCING

    The criminal cases against Minnesotans and others throughout the 
United States financially supporting al-Shabaab highlight the central 
role that money plays in sustaining terrorist organizations. As 
illustrated by the cases of Amina Ali and Hawo Hassan in Minnesota, 
Nima Ali Yusuf, Basaaly Saeed Moalin, Mohamed Mohamed Mohamud and Issa 
Doreh in San Diego, California, and Mohamud Abdi Yusuf in St. Louis, 
Missouri, fundraising has occurred across the United States to support 
al-Shabaab. As set forth in the charging documents in these cases, al-
Shabaab supporters sought financial support from others that they would 
then pool and send to members of al-Shabaab located abroad. Cutting off 
the ability for those in the United States to provide financial support 
to al-Shabaab is crucial to diminish al-Shabaab's ability to carry out 
terrorist operations.

                               RECRUITING

    Al-Shabaab has made no secret of its desire to recruit individuals 
from abroad to join its cause. Al-Shabaab's efforts to recruit include 
edited videos posted on the internet. These videos depict al-Shabaab 
training camps, combat footage involving al-Shabaab, and religious 
messages in an effort to glamorize and justify their actions. The 
videos include statements by individuals such as Omar Hammami, a U.S. 
citizen, encouraging others to join al-Shabaab and justifying the 
terrorist activities of al-Shabaab. At least one video put out by al-
Shabaab includes rap or hip-hop style music and a message that appears 
clearly to focus on recruits in Western Europe or the United States. 
Additionally, videos celebrating the death of al-Shabaab fighters and 
extolling their virtues as ``martyrs,'' to include individuals from 
Minnesota, have also circulated on the internet.
    In addition to the formal attempts to recruit through the internet 
and media, al-Shabaab has used its recruits to conduct further 
recruiting. As set forth in charging documents and a variety of 
interviews of individuals in Minnesota by the media, those men who left 
Minnesota to fight in Somalia have maintained contact and communication 
through phone calls, the internet, and e-mail with friends and family 
in Minnesota. In part, such contact has included the recruiting of 
others to join al-Shabaab. One of the more disturbing elements of al-
Shabaab's recruiting efforts in the United States has been the number 
of recruits leaving the United States who are teenagers. The fact that 
al-Shabaab has managed to convince very young men that a better life 
exists for them in Somalia, despite its abject poverty, lack of a 
functioning government and violence, is a testament to the 
persuasiveness and allure of its message.
    In addition to recruiting by al-Shabaab as an organization and by 
individuals on behalf of al-Shabaab, religious figures such as Anwar 
al-Awlaki have provided potential recruits with ideological 
underpinnings for individuals to fight in Somalia on behalf of al-
Shabaab. As has been publicly reported, al-Awlaki's ``Constants on the 
Path to jihad'' has provided recruits and potential recruits with an 
ideological framework, however distorted and incorrect it may be, to 
fight on behalf of al-Shabaab in Somalia.

                       THREAT POSED BY AL-SHABAAB

    It is impossible to predict with certainty what, if anything, and 
who, if anyone, will come to the United States after training and 
indoctrination by al-Shabaab. It is obvious, however, that individuals 
who are trained, indoctrinated, and deployed in combat by al-Shabaab 
have learned how to carry out acts of lethal violence. Additionally, it 
is clear that the ideology espoused by al-Shabaab echoes that of al-
Qaeda. This combination of ability and ideology illustrates the threat 
that is posed by even one al-Shabaab veteran residing in the United 
States. The ability to prevent or detect such a person from entering 
the United States or carrying out any terrorist acts in the United 
States requires continued vigilance of the group's activities in 
Somalia, but also to ensure that supporters or sympathizers within the 
United States are targeted for investigation.

DETERRENCE OF AL-SHABAAB RECRUITMENT, FUNDRAISING, AND VIOLENCE IN THE 
                             UNITED STATES

    To fight al-Shabaab and its supporters, the United States must 
engage in a multi-faceted approach that utilizes all of the United 
States' abilities, including military, intelligence, law enforcement, 
and diplomatic options. Further, this effort must be carried out in 
Somalia, the Horn of Africa, and the United States.
    Consistent with U.S. legal authorities, a focus must remain on 
Somalia and the Horn of Africa, and importantly include Yemen, to 
ensure that the U.S. targets al-Shabaab in the same manner as it does 
other foreign terrorist organizations, such as al-Qaeda, and al-Qaeda 
in the Arabian Peninsula. This targeting should focus on the 
application of military power and intelligence-gathering techniques to 
make certain that if there are threats or potential threats to the 
United States in foreign countries, those threats are extinguished in 
that foreign country and the information regarding those threats is 
provided as quickly as possible to the FBI and other relevant agencies. 
This will increase the likelihood that any connections to the threat 
that come from or link to the United States are identified and either 
eliminated or mitigated.
    Second, the FBI must continue to investigate and prosecute those 
within the homeland who provide, attempt, or conspire to provide, 
support to al-Shabaab. This investigation and prosecution requires the 
continued use of all techniques within the FBI's lawful authorities 
under the Foreign Intelligence Surveillance Act (``FISA''), Title III 
of the Omnibus Crime Control and Safe Streets Act of 1968, and the 
Attorney General's guidelines, to target groups and individuals 
supporting al-Shabaab within the United States. Additionally, as is 
illustrated by the Minnesotans who have left to fight in Somalia, the 
FBI's relationships with foreign law enforcement and intelligence 
agencies are imperative to allow the United States to track suspects 
and if possible, affect their arrests in foreign countries where 
appropriate.
    Third, military, intelligence, and law enforcement techniques must 
be complimented through local outreach within the United States to the 
communities with members who have supported al-Shabaab. For example, 
the Somali community in Minnesota has experienced first-hand the 
negative effects that al-Shabaab recruiters have had in their 
communities. One way to work to gain cooperation and assistance from 
the Somali community is to provide education regarding how the 
Department of Justice's investigative processes, the legal system 
generally, and civil rights operate, as well as ways they can help to 
strengthen their communities against the message of al-Shabaab 
recruiters. Younger Somalis have in many cases invested in the United 
States through their education and employment, as well as through their 
athletic and social networks. It is important to ensure that they 
understand the Government's interest in them is not limited to putting 
their name on an indictment. Additionally, law enforcement will be more 
effective in its ability to detect and prevent extremist behavior if 
the Somali community trusts the FBI enough to make contact with the FBI 
or other law enforcement if the community has concerns.

    Chairman King. Thank you, Mr. Folk.
    Our next witness has appeared a number of times before our 
committees and subcommittees in the Congress. Tom Joscelyn is a 
senior fellow and executive director of the Center for Law and 
Counterterrorism at the Foundation for Defense of Democracies.
    As a result of his extensive research and writings, he has 
distinguished himself as a leading terrorism expert, focusing 
on how al-Qaeda and other terrorist organizations operate 
around the world. He is the senior editor of the Long War 
Journal.
    We welcome you back, Mr. Joscelyn. You are recognized for 5 
minutes.

  STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you very much. I want to thank 
Congressman King--Chairman King--Ranking Member Thompson and 
other Members of the committee for having me here today to talk 
about Shabaab.
    My colleagues and I have been following Shabaab since 2006, 
2007 fairly closely and there are two principle observations we 
have come to--I have come to--that I want to share with you 
today. The first is, to our minds, Shabaab clearly is a threat 
to U.S. abroad and potentially to homeland. The second is that 
most of Shabaab's terrorism is actually focused on Muslims, 
both in Somalia and also the victimization of Muslims I would 
say internationally.
    To the first point, the threat to the U.S. homeland, I 
would like to point the committee to what happened previously 
with al-Qaeda in the Arabian Peninsula, Shabaab's neighbor in 
Yemen. Prior to the December 25, 2009 terrorist plot against 
Flight 253, there were many people in the intelligence 
community who did not believe AQAP was a threat to the U.S. 
homeland.
    In fact, the Senate Intelligence Committee report found 
that prior to that plot, counterterrorism analysts in NCTC, 
CIA, and NSA were focused on the threat to terrorist attacks in 
Yemen, but were not focused on the possibility of AQAP attacks 
against the U.S. homeland.
    Unfortunately, that has proven to be a fatal flaw, because 
what we have witnessed is over and over again AQAP has both 
sought to inspire and direct attacks against the U.S. homeland. 
Again, we cannot know if or when Shabaab would do the same, but 
the potential is there when you add up all the dots.
    In that vein, I want to add up some dots real quick on 
Shabaab's ties to al-Qaeda. In 2008, here is what a prominent 
leader in Shabaab, Muqhtar Robow, said about his ties to al-
Qaeda and the relationship between Shabaab and al-Qaeda. He 
said, ``Al-Qaeda is the mother of the Holy War in Somalia. Most 
of our leaders were trained in al-Qaeda camps. We get our 
tactics and guidelines from them. Many have spent time with 
Osama bin Laden.''
    That was done in an interview with the L.A. Times. The L.A. 
Times went on to say that for the first time Robow had spoken 
about the possibility of attacking Americans, saying Americans, 
even journalists and aid workers, were not immune from attack 
because there was animosity towards the United States.
    If you go through my testimony in the written form, I have 
provided a number of leaders from Shabaab who have served as 
both dual Shabaab and al-Qaeda leaders, 13 I believe. They have 
either expressed their open, I would say, endorsement of al-
Qaeda's ideology, or they have direct operational links. 
Several of them, in fact, were responsible for the 1998 embassy 
bombings in Kenya and Tanzania.
    Now, those bombings were quite clearly targeted at U.S. 
interests, U.S. embassies. Now even, again, with most al-Qaeda 
attacks, they actually killed more Muslims than they did 
Americans or anybody else.
    I would say to my second point, about Shabaab inside 
Somalia, it is true that Shabaab evolved out of this inter-clan 
warfare basically, this inter-clan warfare in Somalia. But over 
time what they have done is they have made this into an 
ideological battle, and they have sought and targeted their 
enemies and they have brutalized their enemies throughout 
Somalia repeatedly.
    What they did is they found any Muslims that weren't 
willing to work with them and they systematically killed them. 
They desecrate Sufi shrines, Sufi mosques They systematically 
set about trying to tyrannize any--terrorize--any Muslims, any 
clan members, tribal leaders, that they could inside Somalia.
    When I looked at the 30 suicide bombings that I could 
count, about 30, most of the victims of those suicide bombings 
were in fact Muslims. Three of those suicide bombings 
unfortunately involved recruits from Minneapolis. Many of those 
recruits were actually trained by a senior al-Qaeda operative 
that we now know, based on what the DOJ reported last week. 
That same al-Qaeda operative had previously targeted U.S. 
interests, including the embassies in Kenya and Tanzania.
    So it is very easy to connect the dots here between senior 
al-Qaeda leaders, their animosity for the United States, their 
desire to kill us, to target American interests, and what is 
happening with this recruitment of Shabaab recruits in the 
West.
    I would say finally, the other point here is that I don't--
I do not believe--and I don't think there is any evidence that 
most Somali Americans support Shabaab, not by a long shot. I 
think that they have been victimized by Shabaab as well, in a 
lot of ways.
    I think that the families that have lost sons to Shabaab--I 
have read numerous press reports where Somali American families 
basically started withholding passports from their sons to make 
sure they couldn't travel abroad. That, you know, the travel 
agency that had originally sent some of these recruits abroad 
actually stopped and tried to make sure that they could stop 
doing this.
    I think there has been a lot of pushback throughout the 
Somali American community, and I think also from the Somali 
Canadian community. So, the bottom line from my perspective is 
Shabaab is not only a threat to the United States, its 
interests both abroad and in the homeland, but also the Muslims 
around the globe.
    [The statement of Mr. Joscelyn follows:]

                 Prepared Statement of Thomas Joscelyn
                             July 27, 2011

    Chairman King, Ranking Member Thompson and other Members of the 
committee, I want to thank you for inviting me to speak today about al-
Shabaab and the threat it poses to the U.S. Homeland and American 
interests. I would also like to thank my colleague at the Foundation 
for Defense of Democracies and The Long War Journal, Bill Roggio, who 
helped me prepare this written testimony.
    My testimony will focus primarily on Shabaab's ties to al-Qaeda and 
the risk of Shabaab attacking America. Shabaab's ability to win new 
recruits inside the United States and the West is particularly 
disturbing. The possibility that an American Shabaab recruit may return 
from Somalia as part of a terrorist operation is obviously a major 
concern for intelligence and law enforcement professionals.
    Before getting to the heart of my testimony, however, I want to 
make a general point about Shabaab's reach here and its terror inside 
Somalia. It is obvious that a majority of Somali Americans do not 
support Shabaab or its agenda. Most Somalis came to this country to 
start a new life and get away from the poverty and war that has ravaged 
their nation. At the same time, many of the Somalis who remained in 
their home country have resisted Shabaab's reign of terror. Indeed, 
there is great tension between the Sufi version of Islam that is 
prevalent among Somali clans and Shabaab's perverse ideology. Many Sufi 
leaders inside Somalia were forced to abandon their peaceful roots to 
fight Shabaab. In fact, the victims of Shabaab's terror are 
predominantly Muslims in Somalia who do not adhere to Shabaab's 
horrible ideology. Shabaab has also undertaken a deliberate program to 
desecrate and destroy Sufi mosques and shrines.
    The resistance to Shabaab's version of Islam inside Somalia can be 
seen even in al-Qaeda's propaganda. In December 2008, Anwar al Awlaki 
called on Muslims to financially support Shabaab and prayed for the 
group's success inside Somalia. While cheering on Shabaab's efforts to 
implement Sharia law, Awlaki also advised the group to be patient with 
Muslims who ``are suffering from the illnesses of tribalism, ignorance, 
and a campaign of defamation of sharia.'' Awlaki added, ``Therefore you 
need to win the hearts and minds of the people and take them back to 
their fitrah [natural predisposition].''\1\
---------------------------------------------------------------------------
    \1\ Thomas Joscelyn, ``Alleged Shabaab operative to stand trial in 
New York,'' The Long War Journal, July 6, 2011; http://
www.longwarjournal.org/archives/2011/07/alleged_al_shabaab_o.php.
---------------------------------------------------------------------------
    In other words, Shabaab does not represent the ``hearts and minds'' 
of most Somalis, either here in America or abroad. Shabaab has, 
unfortunately, wooed some young men from America to Somalia. And in a 
few cases, these recruits have launched suicide attacks. The first 
known American suicide bomber, Shirwa Ahmed, blew himself up in 
Somaliland as part of a Shabaab attack in October 2008. Since then, 
there have been at least two other reports of Somali Americans who were 
convinced to become Shabaab suicide bombers.\2\
---------------------------------------------------------------------------
    \2\ As of June of this year, one of these reports remains 
unconfirmed.
---------------------------------------------------------------------------
    The willingness of these recruits to die for Shabaab's cause 
creates an opportunity for the al-Qaeda terror network and a threat to 
American security. Since the September 11, 2001 terrorist attacks, al-
Qaeda has consistently attempted to recruit Muslims living in the West 
for its operations. In 2002, for example, a convert to Islam named Jose 
Padilla was arrested in Chicago after returning from Pakistan, where he 
conspired with senior al-Qaeda leaders to attack targets inside the 
United States. Al-Qaeda recognized that by relying on recruits from the 
West it could more easily defeat the elaborate layers of security put 
in place since late 2001. Padilla's case is hardly unique. Al-Qaeda 
recruits living in the United Kingdom and elsewhere have been used in 
attacks in their adopted homelands. Al-Qaeda's July 7, 2005 terrorist 
attacks in London, for example, utilized British citizens of Pakistani 
descent who traveled to Pakistan for terrorist training.
    It is possible that Shabaab's recruits could be used in a similar 
manner. However, there is great confusion here in the United States as 
to whether or not Shabaab is really a part of al-Qaeda's international 
terrorist network. Most press accounts accurately note that Shabaab is 
``linked'' to or ``affiliated'' with al-Qaeda. My view is that the link 
is much stronger than some counterterrorism analysts realize. And this 
link goes far beyond the two organizations' identical ideological 
roots.
    Indeed, my worry is that some counterterrorism analysts may be 
falling into the same trap analysts fell into previously with respect 
to another al-Qaeda affiliate, al-Qaeda in the Arabian Peninsula 
(AQAP). Although AQAP was well known to CT and intelligence officials 
prior to the failed Christmas day 2009 attack on Flight 253, they did 
not consider AQAP a major threat to the United States. In its report on 
the intelligence failures that allowed Umar Farouq Abdulmutallab on-
board Flight 253, the Senate Select Committee on Intelligence found 
(emphasis added): ``Prior to the 12/25 plot, counterterrorism analysts 
at NCTC, CIA, and NSA were focused on the threat of terrorist attacks 
in Yemen, but were not focused on the possibility of AQAP attacks 
against the U.S. homeland.''
    This was a potentially devastating analytical error. As we've 
witnessed on multiple occasions now, AQAP has the intent and the 
capability to strike the United States. This should not have come as a 
surprise. Since the 1990s, al-Qaeda's strategy for inciting global 
conflict has relied on so-called ``local'' jihadist groups that can be 
folded into its international jihad. Jihadist groups from Southeast 
Asia to northern Africa have started out as local endeavors and 
eventually adopted al-Qaeda's desire to strike the United States.
    With that focus in mind, I will now turn to a three-part overview 
of the relationship between Shabaab and al-Qaeda. In the next section 
below, I highlight public statements made by senior Shabaab and al-
Qaeda leaders. Senior Shabaab terrorists have repeatedly said that 
their struggle is part of al-Qaeda's international jihad, and senior 
al-Qaeda terrorists have repeatedly praised the group.
    Despite these public declarations, some analysts argue that the 
organizational ties between the two groups are minimal. My view is 
that, as clandestine organizations, neither Shabaab nor al-Qaeda 
publishes an organizational chart. So, we do not know the full scope of 
their ``operational'' links. And as Bill Roggio has reported, Ayman al 
Zawahiri has even commanded Shabaab to play down these links publicly 
after previously trumpeting them.
    In the second section below, I provide an overview of Shabaab's 
leadership. Shabaab's most senior leaders, including its founders, have 
long-standing ties to al-Qaeda. The depth of these personal ties cannot 
be easily dismissed. In the third and final section below, I evaluate 
the threat of Shabaab's recruits living in the West through the lens of 
Shabaab-al-Qaeda relations.

                 SHABAAB & AL-QAEDA'S PUBLIC STATEMENTS

    Senior al-Qaeda leaders have long seen Somalia as contested 
territory in their international campaign against the West and its 
allies. Al-Qaeda members have claimed that they were instrumental in 
the 1993 ``Black Hawk Down'' episode in which 18 American servicemen 
were killed. While al-Qaeda's claims of responsibility are almost 
certainly overblown, there is solid evidence that al-Qaeda operatives 
were on the ground at the time. And al-Qaeda never took its eyes off of 
Somalia. In 2006, for instance, Osama bin Laden specifically mentioned 
Somalia as a key war front:

``We will continue, God willing, to fight you and your allies 
everywhere, in Iraq and Afghanistan and in Somalia and Sudan until we 
waste all your money and kill your men and you will return to your 
country in defeat as we defeated you before in Somalia.''\3\
---------------------------------------------------------------------------
    \3\ Bill Roggio, ``Excerpts from the Osama bin Laden Tape,'' The 
Long War Journal, June 30, 2006; http://www.longwarjournal.org/
archives/2006/06/excerpts_from_the_os.php#ixzz- 1T48WFwx8.

    In August 2008, senior Shabaab leader Mukhtar Robow admitted: ``We 
are negotiating how we can unite into one [with al-Qaeda]. We will take 
our orders from Sheik Osama bin Laden because we are his students.''\4\ 
Robow continued:
---------------------------------------------------------------------------
    \4\ Edmund Sanders, ``Conditions may be ripe for Al Qaeda to gain 
in Somalia,'' Los Angeles Times, August 25, 2008.

``Al Qaeda is the mother of the holy war in Somalia. Most of our 
leaders were trained in Al Qaeda camps. We get our tactics and 
---------------------------------------------------------------------------
guidelines from them. Many have spent time with Osama bin Laden.''

    The Los Angeles Times reported that Robow ``also spoke for the 
first time about eventually expanding [Shabaab's] activities outside 
Somalia's borders, saying Americans, even journalists and aid workers, 
were not immune from attack because of what he called ``the aggression 
of the American government . . . '' Robow explained, ``Once we end the 
holy war in Somalia, we will take it to any government that 
participated in the fighting against Somalia or gave assistance to 
those attacking us.''
    In September 2008, a senior Shabaab leader who was also an al-Qaeda 
operative reached out to senior al-Qaeda leaders in a 24-minute video 
posted on-line.\5\ Saleh Ali Saleh Nabhan, the dual-hatted Shabaab/al-
Qaeda leader, heaped praised on Osama bin Laden:
---------------------------------------------------------------------------
    \5\ Nick Grace, ``Shabaab reaches out to al Qaeda senior leaders, 
announces death [of] al Sudani,'' The Long War Journal, September 2, 
2008; http://www.longwarjournal.org/archives/2008/09/
shabab_reaches_out_t.php#ixzz1T42XeJB3.

``My greetings to the courageous commander and my honorable leader: 
Sheikh Osama bin Laden (may Allah protect him and his followers). I 
hope from Allah the highest . . . that this salutation reaches you 
while you are in ease and good health. Allah knows how much we long for 
your meeting and the delight of your gentle voice . . . My sheikh! The 
heart offers you thousand greetings combined with my love and humility. 
My salutation is nostalgia and my love is permanent, filled with the 
---------------------------------------------------------------------------
truth of the emotions of the poets.''

    Ayman al Zawahiri, who was then al-Qaeda's No. 2 leader at the 
time, responded to Shabaab in November 2008. Zawahiri called Shabaab 
``my brothers, the lions of Islam in Somalia.''\6\ Zawahiri continued: 
``[R]ejoice in victory and conquest and hold tightly to the truth for 
which you have given your lives, and don't put down your weapons before 
the Mujahid state of Islam and Tawheed has been set up in Somalia.''
---------------------------------------------------------------------------
    \6\ Nick Grace, ``Shabaab Leader Sanctioned as Zawahiri Responds to 
Group's Oath of Loyalty,'' The Long War Journal, November 21, 2008; 
http://www.longwarjournal.org/archives/2008/11/
shabaab_leader_sanct.php#ixzz1T45KY5Ih.
---------------------------------------------------------------------------
    In February 2009, Ayman al Zawahiri praised Shabaab's gains in 
southern and central Somalia. Zawahiri said Shabaab's victories were 
``a step on the path of the victory of Islam, the empowerment of 
Muslims, and the expulsion of the invaders of their land.''\7\ Zawahiri 
continued:
---------------------------------------------------------------------------
    \7\ Bill Roggio, ``Zawahiri praises Shabaab's takeover of southern 
Somalia,'' The Long War Journal, February 24, 2009; http://
www.longwarjournal.org/archives/2009/02/
zawahiri_praises_sha.php#ixzz1T4CLKB6L.

``It is the expansion of the influence of the Mujahideen in Somalia, 
the spreading of the authority of sharia [Islamic law], and the 
expulsion of the invaders--the enemies of the Islam and their agents--
from broad regions of Somalia, foremost among which are the city of 
Baidoa. This city used to host the headquarters of the American-
affiliated transitional government.''

                   SENIOR SHABAAB LEADERS & AL-QAEDA

    Below, I have set forth a list of 13 current and deceased Shabaab 
leaders and operatives. This list is not intended to be comprehensive, 
although it does include most of Shabaab's most senior terrorists, 
including its emir. The mini-biographies below show Shabaab's roots in 
several closely allied terrorist organizations, including al-Qaeda's 
East Africa cells, Al-Itihaad al-Islamiya (or AIAI), and the Islamic 
Courts Union (ICU). Both the ICU and AIAI had strong ties to al-Qaeda. 
Shabaab was originally founded as the ``youth'' wing of the ICU.
    Shabaab leaders are, at minimum, ideologically aligned with al-
Qaeda. They have repeatedly praised al-Qaeda and announced that their 
terrorism is part of the terror network's global campaign. Several of 
them were also trained in Afghanistan, most likely in camps affiliated 
with al-Qaeda. Therefore, even if there were no active operational 
links between these Shabaab leaders and al-Qaeda, the group's ideology 
and historical roots make it a threat to American interests around the 
globe.
    However, there are operational links between Shabaab and the al-
Qaeda network headquartered in Pakistan. Several terrorists on the list 
below were involved in al-Qaeda's 1998 embassy bombings in Kenya and 
Tanzania. This was al-Qaeda's most devastating attack prior to 
September 11, 2001. These same terrorists were also responsible for al-
Qaeda's 2002 attacks in Mombasa, Kenya. They went on to hold senior 
positions in Shabaab. There are other operational links as well. For 
example, one of the alleged terrorists on this list is a mid-level 
Shabaab operative who served as a liaison to another al-Qaeda 
affiliate, AQAP.
    1. Ahmed Abdi Aw Mohamed (aka ``Godane'').--Godane is the founder 
and emir (leader) of Shabaab. Godane, like other Shabaab leaders, has 
been designated a terrorist by the U.S. Godane does not hide his 
allegiance to al-Qaeda. In early 2010, Godane co-signed a statement 
saying that his group had ``agreed to join the international jihad of 
al-Qaeda.''\8\ Like other Shabaab leaders, Godane ``trained and fought 
in Afghanistan'' and has longstanding ties to terrorists in South 
Asia.\9\
---------------------------------------------------------------------------
    \8\ Abdi Sheikh and Abdi Guled, ``Somali rebels unite, profess 
loyalty to al Qaeda,'' Reuters, February 1, 2010; http://
www.reuters.com/article/2010/02/01/us-somalia-conflict-
idUSTRE6102Q720100201.
    \9\ Ted Dagne, ``Somalia: Current Conditions and Prospects for a 
Lasting Peace,'' Congressional Research Service, June 29, 2011; http://
www.fas.org/sgp/crs/row/RL33911.pdf.
---------------------------------------------------------------------------
    2. Aden Hashi Ayro.--Ayro was one of Shabaab's co-founders and 
military commander until he was killed in an American airstrike in 
2008. Ayro received his terrorist training in Afghanistan and was 
``long identified'' by counterterrorism officials ``as one of Al 
Qaeda's top operatives in East Africa.''\10\ Ayro openly claimed to 
have turned his militia, the proto-Shabaab, ``into the East African 
franchise for Al Qaeda.''\11\ When Ayro was killed, an anonymous U.S. 
official told The New York Times: ``For the Horn of Africa, this is 
pretty significant. He's certainly considered a leader in Al Qaeda's 
effort there. This can be chalked up as a success.''\12\ Ayro 
befriended the leader of his clan, Hassan Dahir Aweys, who reportedly 
arranged for Ayro ``to go to Afghanistan to fight with the Taliban 
against American forces in 2001.''\13\
---------------------------------------------------------------------------
    \10\ Eric Schmitt and Jeffrey Gettleman, ``Qaeda Leader Reported 
Killed in Somalia,'' The New York Times, May 2, 2008.
    \11\ Aidan Hartley, ``Tea With a Terrorist,'' The New York Times, 
July 25, 2010.
    \12\ The New York Times, May 2, 2008.
    \13\ Ibid.
---------------------------------------------------------------------------
    Shabaab's official biography of Ayro, released after his death, 
said that ``he fought under the supervision of Al-Qaeda, and with its 
logistical support and expertise.''\14\
---------------------------------------------------------------------------
    \14\ Daveed Gartenstein-Ross, ``The Strategic Challenge of 
Somalia's Al-Shabaab,'' Middle East Quarterly, Fall 2009, pp. 25-36; 
http://www.meforum.org/2486/somalia-al-shabaab-strategic-
challenge#_ftnref4.
---------------------------------------------------------------------------
    3. Fazul Mohammed (aka Harun Fazul).--In June, Fazul was killed by 
Somali forces. Fazul's career demonstrates just how seamlessly a 
terrorist can work for al-Qaeda, the ICU and Shabaab.\15\ At the time 
of his death, Fazul was both a senior Shabaab military commander and 
the head of East Africa Al Qaeda (EAAQ). Previously, Fazul was the 
ICU's intelligence chief and simultaneously served as a top al-Qaeda 
operative. And prior to that, Fazul was an al-Qaeda member who 
reportedly fought in the 1993 Battle of Mogadishu. In November 2009, 
Osama bin Laden named Fazul the head of al-Qaeda in East Africa. 
Godane, the emir of Shabaab, attended the ceremony where Fazul was 
named to this leadership position. Prior to his demise, Mohammed was 
wanted by U.S. authorities for his role in al-Qaeda's 1998 embassy 
bombings and 2002 attacks in Mombasa, Kenya. According to a Joint Task 
Force Guantanamo document, Fazul sought out bin Laden's operational 
advice in recent years.
---------------------------------------------------------------------------
    \15\ Bill Roggio, ``Al Qaeda's East Africa chief Fazul Mohammed 
killed in Somalia,'' The Long War Journal, June 11, 2011; http://
www.longwarjournal.org/archives/2011/06/al_qaedas_east_afric_1.php.
---------------------------------------------------------------------------
    4. Saleh Ali Saleh Nabhan.--Nabhan, Shabaab's senior military 
commander, was killed in a U.S. airstrike in September 2009. Prior to 
his demise, Nabhan was wanted by the U.S. Government for his role in 
the al-Qaeda's 1998 embassy bombings, as well as the 2002 attacks in 
Mombasa, Kenya. In a video recorded in July 2008, Nabhan praised Osama 
bin Laden as ``the courageous commander and my honorable leader.'' The 
same video shows Nabhan training Shabaab recruits.\16\
---------------------------------------------------------------------------
    \16\ The Long War Journal, September 2, 2008.
---------------------------------------------------------------------------
    5. Mukhtar Robow (aka Abu Mansur).--Robow's is Shabaab's spokesman. 
Like other Shabaab leaders, Robow received his terrorist training in 
Afghanistan.\17\ Robow also does not hide his allegiance to al-Qaeda. 
As cited above, Robow has openly declared: ``Al Qaeda is the mother of 
the holy war in Somalia. Most of our leaders were trained in Al Qaeda 
camps. We get our tactics and guidelines from them. Many have spent 
time with Osama bin Laden.'' Robow also encouraged Shabaab's terrorists 
to commit the July 11, 2008 terrorist attacks in Kampala, Uganda, 
killing nearly 80 people.\18\ Those bombings closely mirrored al-
Qaeda's modus operandi.
---------------------------------------------------------------------------
    \17\ The New York Times, July 25, 2010.
    \18\ The New York Times, July 25, 2010.
---------------------------------------------------------------------------
    6. Abu Talha al Sudani.--Sudani, who was killed in 2007, ``was al 
Qaeda's ideological and strategic leader in East Africa.''\19\ Sudani 
was wanted for his role in the 1998 embassy bombings in Kenya and 
Tanzania as well as al-Qaeda's 2002 attacks in Kenya. Sudani was 
reportedly ``close'' to the aforementioned Ayro.\20\ In fact, Nabhan 
announced Sudani's death in an on-line video that also discussed the 
strike that killed Ayro.\21\
---------------------------------------------------------------------------
    \19\ Bill Roggio, ``Senior al Qaeda operative killed in Somalia,'' 
The Long War Journal, September 1, 2008; http://www.longwarjournal.org/
archives/2008/09/senior_al_qaeda_- oper_1.php.
    \20\ Obituary for Aden Hashi Ayro, The Sunday Times (UK), May 21, 
2008; http://www.timesonline.co.uk/tol/comment/obituaries/
article3978645.ece.
    \21\ The Long War Journal, September 1, 2008.
---------------------------------------------------------------------------
    7. Issa Osman Issa--Issa is as a dual-hatted Shabaab and al-Qaeda 
terrorist. Issa was one of three Shabaab leaders sanctioned by the U.S. 
Treasury Department in November 2008.\22\ The other two Shabaab leaders 
were Godane and Robow. Issa reportedly took part in al-Qaeda's 1998 
embassy bombings in Kenya and Tanzania, as well as the 2002 attacks in 
Mombasa, Kenya. Leaked Joint Task Force Guantanamo documents reference 
intelligence reports tying Issa to both al-Qaeda and Shabaab. In one 
such memo, Issa is described as ``a mobile commander for al Shabaab 
forces.''\23\
---------------------------------------------------------------------------
    \22\ Nick Grace, ``Shabaab Leader Sanctioned as Zawahiri Responds 
to Group's Oath of Loyalty,'' The Long War Journal, November 21, 2008; 
http://www.longwarjournal.org/archives/2008/11/
shabaab_leader_sanct.php.
    \23\ JTF-GTMO Memo, ``Subject: DAB Assessment of Guantanamo 
Detainee, ISN DJ9SO-0100127DP (S),'' August 6, 2007.
---------------------------------------------------------------------------
    8. Sheikh Hassan Dahir Aweys.--Sheikh Aweys was co-leader of the 
Islamic Courts Union. In early 2009, he founded Hizbul Islam, a 
coalition of four Somali Islamic groups. Although the two organizations 
cooperated in attacks against their common enemies, Hizbul Islam became 
a rival of Shabaab after the two unsuccessfully attempted to merge 
forces. The two clashed in southern Somalia, including in Kismayo. 
Hizbul Islam was weakened by infighting and Sheikh Aweys eventually 
merged the group with Shabaab. Aweys is now a Shabaab commander.
    Aweys is a longtime ally of al-Qaeda and was trained in al-Qaeda's 
pre-9/11 Afghan camps.\24\ He was reportedly involved in the 1993 
Battle of Mogadishu, more commonly known as the ``Black Hawk Down'' 
episode in which 18 American servicemen were killed. In November 2001, 
the U.S. State Department added him to its list of Specially Designated 
Terrorists. Aweys has long advocated suicide attacks, including the use 
of children as suicide bombers.
---------------------------------------------------------------------------
    \24\ Bill Roggio, ``Somalia's Aweys calls for more suicide 
attacks,'' The Long War Journal, September 20, 2009; http://
www.longwarjournal.org/archives/2009/09/somalias_aweys_calls.php.
---------------------------------------------------------------------------
    According to a leaked Joint Task Force Guantanamo file, Sheikh 
Aweys ``sponsored'' Saleh Ali Saleh Nabhan in Mogadishu after Nabhan 
fled there following al-Qaeda's November 28, 2002 terrorist attacks in 
Kenya.
    9. Sheikh Hassan Turki.--Sheikh Turki was a leader in the AIAI and 
then the Islamic Courts Union before forming his own organization, the 
Ras Kamboni Brigade. Sheikh Turki originally merged the Ras Kamboni 
Brigade into Sheikh Aweys. Hizbul Islam, but later broke from Aweys' 
group to join Shabaab in early 2010.\25\ Shabaab's spiritual leader, 
Ahmed Abdi Godane, and Sheikh Turki released a joint statement 
announcing the merger. The statement read: ``We have agreed to join the 
international jihad of al Qaeda . . . We have also agreed to unite al 
Shabaab and Kamboni mujahideen to liberate the Eastern and Horn of 
Africa community who are under the feet of minority Christians.''\26\ 
Sheikh Turki operates terrorist training camps in southern Somalia and 
has trained suicide bombers close to the Kenyan border.\27\
---------------------------------------------------------------------------
    \25\ Bill Roggio, ``Shabaab absorbs southern Islamist group, splits 
Hizbul Islam,'' The Long War Journal, February 1, 2010; http://
www.longwarjournal.org/archives/2010/02/shabaab_absorbs_sout.php.
    \26\ Reuters, February 1, 2010.
    \27\ The Long War Journal, February 1, 2010.
---------------------------------------------------------------------------
    10. Bashir Mohamed Mahamoud.--According to the United Nations, 
Mahamoud is a Shabaab ``military commander'' and ``one of approximately 
ten members on al Shabaab's leadership council as of late 2008.''\28\ 
The United Nations notes that Mahamoud and ``an associate were in 
charge of the 10 June 2009 mortar attack against the Somali 
Transitional Federal Government in Mogadishu.''
---------------------------------------------------------------------------
    \28\ http://www.un.org/News/Press/docs/2010/sc9904.doc.htm.
---------------------------------------------------------------------------
    A leaked Joint Task Force Guantanamo (JTF-GTMO) file notes that a 
current detainee, Abdul Malik Bajabu, has admitted to having ``a close 
relationship'' with Mahamoud.\29\ The same file describes Mahamoud as 
an ``EAAQ member.'' Mahamoud ``planned to assassinate the Somali Prime 
Minister and conduct unspecified suicide attacks.''
---------------------------------------------------------------------------
    \29\ JTF-GTMO Memo, ``Subject: Combatant Status Review Tribunal 
Input and Recommendation for Continued Detention Under DoD Control (CD) 
for Guantanamo Detainee, ISN US9KE-010025DP (S)'' (Abdul Malik Bajabu), 
May 22, 2007.
---------------------------------------------------------------------------
    11. Abdul Malik Bajabu.--Bajabu is currently held at Guantanamo and 
a JTF-GTMO threat assessment summarizing the intelligence on his 
activities alleges that he was a member of East Africa Al Qaeda (EAAQ) 
and the Islamic Courts Union (ICU), and also ``has ties to the al-
Ittihad al-Islami (AIAI).''\30\ Bajabu has allegedly ``admitted that he 
participated in the planning and execution'' of the November 28, 2002 
attacks on the Kikambala Paradise Hotel and an Israeli airliner in 
Kenya.
---------------------------------------------------------------------------
    \30\ Ibid.
---------------------------------------------------------------------------
    The details of Bajabu's career alleged in the threat assessment 
show a high degree of coordination between al-Qaeda members and Shabaab 
leaders. The file cites intelligence reports that say Bajabu operated 
out of Mogadishu and conspired with Saleh Ali Saleh Nabhan, Fazul 
Mohammed, Issa Osman Issa, and Bashir Mohamed Mahamoud, as well as 
other terrorists working for al-Qaeda, Shabaab, and the ICU.
    The JTF-GTMO threat assessment also alleges that a member of a 
group called the ``London Boys'' was a ``close associate'' of Bajabu's. 
The ``London Boys'' allegedly received terrorist training under Fazul 
Mohammed and may have been recruited by al-Qaeda to be ``sleeper 
agents'' for future attacks.\31\
---------------------------------------------------------------------------
    \31\ ``London `sleeper cell' told to carry out wave of terror 
attacks by Bin Laden before his death,'' The Daily Mail (UK), May 15, 
2011; http://www.dailymail.co.uk/news/article-1387332/Osama-Bin-Laden-
dead-London-sleeper-cell-told-carry-attacks-death.html.
---------------------------------------------------------------------------
    12. Ibrahim al Afghani.--Al Afghani is rumored to have been killed 
in a Predator strike in late June.\32\ (As of this writing, this report 
has not been confirmed.) Afghani previously served as Shabaab's 
regional governor of the Kismayo administration. The Somalia Monitoring 
Group, in a March 2010 report, said Afghani is one of the group's top 
leaders. Afghani was listed after Ahmed Abdi Aw Mohamed (aka Godane), 
Shabaab's emir.
---------------------------------------------------------------------------
    \32\ Thomas Joscelyn and Bill Roggio, ``Senior Shabaab commander 
rumored to have been killed in recent Predator strike,'' The Long War 
Journal, July 9, 2011; http://www.longwarjournal.org/archives/2011/07/
senior_shabaab_comma_1.php.
---------------------------------------------------------------------------
    Afghani received his nom de guerre because he waged jihad in 
Afghanistan for years. A leaked Joint Task Force Guantanamo (JTF-GTMO) 
threat assessment, dated Aug. 6, 2007, describes Afghani as ``an al-
Ittihad al-Islami (AIAI) military commander known for his religious 
knowledge as well as loyalty and support for al Qaeda and the Taliban 
and for his continuing links to Afghanistan.'' The file continues: 
``[Afghani] was one of the first founders of al Qaeda affiliated AIAI 
cells and one of the instigators of terrorist attacks in Somaliland.''
    13. Ahmed Abdulkadir Warsame.--Earlier this month, the Department 
of Justice indicted Ahmed Abdulkadir Warsame ``on charges of providing 
material support to al Shabaab and al Qaeda in the Arabian Peninsula 
(AQAP).''\33\ The DOJ alleges that Warsame ``received explosives and 
other military-type training from AQAP,'' ``worked to broker a weapons 
deal with AQAP on behalf of al Shabaab,'' and provided explosives 
training.
---------------------------------------------------------------------------
    \33\ http://www.justice.gov/cjs/docs/news-07052011.html.
---------------------------------------------------------------------------
    Warsame's alleged role as an intermediary between AQAP and Shabaab 
is hardly surprising. Multiple recent reports have pointed to collusion 
between these two branches of the jihadist terror network.\34\ For 
instance, the Washington Post reported in late June that two Shabaab 
leaders targeted in an U.S. missile strike had ``direct ties'' to AQAP 
cleric Anwar al Awlaki.\35\
---------------------------------------------------------------------------
    \34\ Thomas Joscelyn, ``Alleged Shabaab operative to stand trial in 
New York,'' The Long War Journal, July 6, 2011; http://
www.longwarjournal.org/archives/2011/07/alleged_al_shabaab_o.php.
    \35\ Greg Jaffe and Karen DeYoung, ``U.S. drone targets two leaders 
of Somali group allied with al-Qaeda, official says,'' The Washington 
Post, June 29, 2001; http://www.washingtonpost.com/national/national-
security/us-drones-target-two-leaders-of-somali-group-allied-with-al-
qaeda/2011/06/29/AGJFxZrH_story.html.
---------------------------------------------------------------------------
                    SHABAAB'S RECRUITS AND AL-QAEDA

    There is extensive evidence that Shabaab's recruiting in the West 
is not limited to ``nationalistic'' aims. While some recruits probably 
do travel to Somalia to take part in a ``local'' (civil) war, there is 
always the potential for these same recruits to become indoctrinated in 
Shabaab's al-Qaeda-inspired ideology once they arrive there. Indeed, 
this has been al-Qaeda's strategy, to fold ``local'' conflicts into an 
international jihad. Moreover, some Shabaab recruits are clearly 
radicalized before they even depart American soil.
    Consider the case of Mohamoud Hassan, a Minneapolis man who was 
inspired to join Shabaab in Somalia. Hassan initially supported the 
Ethiopian invasion of Somalia--the event that some argue was the real 
driver of radicalization. But over time, Hassan began to change his 
views. The New York Times has reported that Hassan listened to al-Qaeda 
cleric Anwar al Awlaki's lectures, which are filled with jihadist 
ideology. Hassan was also reportedly ``incensed'' by the U.S. air 
strike that killed Shabaab leader Aden Hashi Ayro, who is profiled 
above. It is especially curious that Hassan would lament Ayro's death 
because Ayro's ties to al-Qaeda and extremist ideological beliefs were 
widely known. A friend of Hassan's made an astute observation in an 
interview with the New York Times. ``They saw it as their duty to go 
and fight,'' the friend said. ``If it was just nationalism, they could 
give money. But religion convinced them to sacrifice their whole 
life.''\36\
---------------------------------------------------------------------------
    \36\ Andrea Elliott, ``A Call to Jihad, Answered in America,'' The 
New York Times, July 12, 2009.
---------------------------------------------------------------------------
    The willingness of some Shabaab recruits to commit suicide attacks, 
as Shirwa Ahmed did in October 2008, is another important indication 
that nationalism is not the sole driver of Shabaab's recruiting. The 
embrace of martyrdom is a central pillar of al-Qaeda's ideology that 
was considered un-Islamic by many Muslim scholars until the last half 
of the 20th Century. Shabaab itself has carried out more than 2 dozen 
suicide attacks inside Somalia. While these suicide attacks have killed 
some foreigners, the main victims of Shabaab's suicide terrorism have 
been Somalis.\37\
---------------------------------------------------------------------------
    \37\ Bill Roggio, ``Shabaab suicide bomber kills Somali interior 
minister,'' The Long War Journal, June 10, 2011; http://
www.longwarjournal.org/archives/2011/06/shabaab_suicide_bomb_- 1.php.
---------------------------------------------------------------------------
    Shabaab's suicide attacks have begun to spill over into the 
surrounding countries--an unmistakable sign of al-Qaeda's influence. 
The Shabaab cell that carried out the July 2010 attacks in Kampala, 
Uganda was named the Saleh Ali Nabhan Brigade. Nabhan, mentioned above, 
was a terrorist who served both Shabaab and al-Qaeda.
    Finally, Shabaab's recruits in the West have received training from 
senior al-Qaeda operatives who are also members of Shabaab. Earlier 
this month, the Department of Justice agreed to a plea deal with a 
Minneapolis man named Omar Abdi Mohamed. According to a DOJ press 
release, Mohamed admitted that he helped Shabaab recruit Somali 
Americans. The DOJ explains: ``Upon arriving in Somalia, the men 
resided in al-Shabaab safe-houses in Southern Somalia until 
constructing an al-Shabaab training camp, where they were trained. 
Senior members of al-Shabaab and a senior member of al-Qaeda in East 
Africa conducted the training.''\38\
---------------------------------------------------------------------------
    \38\ http://www.justice.gov/usao/mn/press/jul016.pdf.
---------------------------------------------------------------------------
    That is, Shabaab's Minneapolis recruits were delivered to a senior 
al-Qaeda member for training.

    Chairman King. Thank you, Mr. Joscelyn.
    Our next witness is the chief of the Saint Paul police 
department. He has been the chief since 2010. Thomas Smith 
began his career with the City of Saint Paul as a police 
officer in 1989, became SWAT team commander and assistant 
police chief. He is a graduate of the FBI Academy and serves on 
the FBI Civil Rights Advisory Council.
    We very much thank you for being here today sharing your 
insights with us. We look forward to your testimony.
    Chief Smith, you are now recognized for 5 minutes.

  STATEMENT OF THOMAS E. SMITH, CHIEF OF POLICE, SAINT PAUL, 
                           MINNESOTA

    Mr. Smith. Thank you.
    Chairman King, Ranking Member Thompson, and distinguished 
Members of the committee, I thank you for the opportunity to 
testify on this important topic.
    I will speak today about current efforts underway in Saint 
Paul, Minnesota to counter attempts by al-Shabaab to recruit 
and radicalize some of the young members of our community. I 
will highlight the Saint Paul Police Department's efforts to 
combat this disturbing trend, and will speak specifically to 
our cooperative outreach efforts, including a program we call 
AIMCOP--African Immigrant Muslim Community Outreach Program, 
which is funded in large part through a Federal Bureau of 
Justice assistance grant.
    This conversation is especially important for Saint Paul, 
as we have a significant Somali American population. This 
community is engaged and has a keen interest and complex 
understanding of local, National, and world events. I found the 
majority of these men and women call Twin Cities home and are 
proud Americans. Some among the community, though, have 
targets--have become targets--for radicalization.
    It is well published that between 2007 and 2009, al-Shabaab 
successfully lured approximately 20 young Muslim men, many of 
whom are Somali American, from the Minneapolis-Saint Paul area 
to fight overseas in a terrorist war. This phenomenon was new, 
and represented a challenge that the Saint Paul Police 
Department had not confronted in the past.
    The idea though that young adults could be enticed into 
something this destructive was not. This news was both 
troubling and disturbing, and although the trend had political 
and security implications that extended far beyond Saint Paul, 
our department made a commitment to counter this threat.
    We have long worked to combat threats to our youth that 
have become all too familiar. Alcohol abuse, drug abuse, and 
gang violence. As we have committed to combating those threats, 
the Saint Paul Police Department committed to battling a new 
one, the potential radicalization of our Somali American youth.
    We believed that we could play a role in stopping this 
threat, and that our work coupled with positive messages 
conveyed to our youth through strong families, legitimate 
social organizations, and constructive religious messages, 
could be just as powerful as the destructive messages delivered 
by al-Shabaad.
    In 2004, the Saint Paul Police Department began to engage 
in serious outreach work with our Somali American residents. 
Though we did not know it at the time, this initial work would 
proved to be the foundation for more urgent work with broader 
implications.
    This evolved into AIMCOP, the African Immigrant Muslim 
Community Outreach Program. In 2009, the Saint Paul Police 
Department applied for a Bureau of Justice assistance grant to 
AIMCOP. The grant sought to capitalize on existing department 
outreach efforts with the local Somali American community, and 
cited a specific need, the need to prevent further 
radicalization of our youth by al-Shabaab.
    It further cited specific strategies to combat this trend, 
targeted an on-going outreach with our Somali American 
community, and coordinated work with our partners, such as the 
FBI Minneapolis Field Office, the United States Attorney's 
Office for the District of Minnesota, the Ramsey County 
Sheriff's Office, and several service providers, including the 
local YWCA, the Saint Paul Intervention Project, and the Muslim 
American Society. We were awarded the grant in 2009 and AIMCOP 
was launched.
    Today, both the scale and scope of AIMCOP and its related 
programs have seen significant growth. Our department still 
regularly meets with the Somali Advisory Council, a council, by 
the way, that I helped to establish along with other members 
from the Saint Paul Police Department, our mayor, Christopher 
Coleman, back in 2006. An advisory council that can talk to the 
chief of police and others within our department, along with 
local government, to talk about concerns within their 
community.
    We also have 45 officers of all ranks that are now 
intimately involved in our programs. These officers asked to be 
a part of this formal outreach work. After their acceptance 
into our program, the officers receive training specific to the 
work, to the mission, and to the philosophy behind it. Officers 
developed and now lead, coordinate, and directly participate in 
an array of activities with our Somali American youth.
    These include after-school study programs, open gyms, arts 
and crafts programs, and even camping trips. Our police 
athletic league, known as PAL, has over 300 Somali American 
youth participants who compete in soccer, flag football, 
softball, and volleyball games that are organized, coached, and 
refereed by Saint Paul police officers.
    We strongly believe that by creating these safe, diverse, 
and on-going opportunities for Somali American youth and the 
police to interact, that trust, cooperation, friendship, and 
mentorship will increase, and opportunities for al-Shabaab to 
recruit and radicalize our youth will decrease.
    We have faced some challenges while moving forward with our 
outreach work. Among those was the fact that Somali American 
women and girls were noticeably underrepresented in many of our 
initial programs. We now directly target Somali American 
females and mothers with many of our outreach efforts, 
including a number of programs that are led exclusively by 
women police officers.
    AIMCOP has enjoyed an increase in female participation and 
has benefited greatly from this expanded involvement and 
dialogue. We have also expanded our understanding of our Somali 
American residents' background and religion, through specific 
training to our officers.
    In this, we have come to a better understanding that to 
effectively prevent and combat the threat of radicalization, we 
need to think beyond our traditional law enforcement notions 
and strategies. I have no doubt that AIMCOP and its related 
programs have helped us counter the threat posed by al-Shabaab.
    We have built strong relationships with a community once 
isolated, and we now work together to address challenges and 
solve problems. Somali American youth that may be tempted by an 
ideology of radicalization can now look to an expanded network 
of trust, including police officers, mentors to provide 
support, resources, and guidance to steer them in a positive 
direction.
    We find new examples every day where Somali American youth 
confide in their police officer mentors about their family, 
their school, and their own personal problems and issues. They 
also speak candidly about their own concerns for friends or 
family who may be on a troubled path or may be among those 
missing, suspected to have gone overseas to fight.
    This outreach work has also played a significant role in 
some very important criminal investigations. In 2009, while 
participating in the mentor program at a local high school, I 
was approached by a co-worker and the mother of a 14-year-old 
Somali American youth. The mother was concerned her child was 
becoming recruited and radicalized. This information was turned 
over to our FBI Joint Terrorism Task Force and resulted in a 
significant investigation.
    Also in 2009, the Saint Paul Police Department, through 
established personal relationships, was informed by Somali 
American parents that girls in their community were being 
sexually trafficked, not only in Saint Paul and Minneapolis, 
but also in Tennessee and other States.
    This bit of information, passed on in large part because of 
an existing climate of cooperation and trust, was the genesis 
for a significant and large-scale investigation that ultimately 
resulted in 30 Federal indictments in Minnesota and Tennessee. 
At least one of those indictments was turned over to the FBI, 
because of other concerns.
    I don't know if you read what happened to those young 
Somali girls, but I did. Horrific, horrific what happened to 
those young girls. We were able to get them resources, get them 
back with their families. This was a significant investigation 
that would have never happened, or furthered the investigation 
without a community of trust.
    The United States Attorney's Office for the Middle District 
of Tennessee continues to work on this case today. The majority 
of those indicted are from the Twin Cities, and all were 
involved in Somali gangs. Beyond the indictments, this 
investigation led to the safe return, as I noted, of many 
Somali American girls to their families, the youngest of which 
was only 14 years of age. Somali elders were briefed repeatedly 
during the course of this investigation, and were asked to 
provide information in the future should this activity begin 
again.
    Through these and countless other examples, I sit before 
you today and confidently attest not only to the success of 
AIMCOP and its related programs, but also to the great future 
potential that this type of work holds. AIMCOP has captured 
attention from international agencies working on similar 
radicalization issues. The British embassy has both invited 
members, including myself, from the Saint Paul Police 
Department to the United Kingdom, and conducted site visits in 
our city as well.
    Recently, we were visited by the United States ambassador 
to Denmark, Laurie Fulton, who spoke about on-going efforts and 
similarities between the Twin Cities and Denmark. Discussions 
continue in attempts to identify methods to benefit both the 
Saint Paul and Danish models to improve outcomes are underway.
    Our department continues to evolve this program to address 
the specific needs of our Somali American residents, and to 
counter the unique threat posed by al-Shabaab. I foresee a 
future where even more sophisticated programming, bolstered by 
enhanced partnerships with additional agencies and organization 
will continue to build upon the trust we have gained with Saint 
Paul's Somali American residents. The continuation of our work 
is an imperative part of a larger effort to counter terrorism 
and reduce crime.
    As I conclude, I want to share a few thoughts. I am asked--
or I am sometimes asked--if our community can actually benefit 
from the Somali Advisory Council, or the Police Athletic 
leagues. These efforts do look different than our traditional 
notions of police work.
    To answer those questions, I ask that they imagine for a 
moment that the police officer called to a housing complex to 
deal with a youth problem happens also to be the same young 
people's football coach or math tutor or the leader of last 
weekend's camping trip. I ask them to further imagine that 
among those same youth are the sons or daughters of the elders 
who regularly visit my office, or I visit their places where 
they reside. You don't have to imagine those connections, 
because in Saint Paul they really exist.
    These connections run throughout AIMCOP, and they represent 
the very foundation of our outreach work. In my experience, 
these connections pay great dividends. As chief of police I 
expect my officers to perform their duties in the line with 
three core principles. No. 1, keep the peace. In this we don't 
police to the community, we commit to policing with it as we 
implement----
    Chairman King. Chief Smith, if I could ask you to try to 
wrap it up in the next 10 seconds?
    Mr. Smith. Yes, sir.
    Promote public safety. To do so, we commit to the 
development of strong partnerships with all of our communities 
we serve. Enforce the law. I have come to firmly believe, 
however, that when we do the first two things well, we actually 
have to do less of the third.
    All of these involve our AIMCOP program, and I can tell you 
that our initial work with our Saint Paul elders in 2004 all 
the way to 2006 really helped us establish this community of 
trust that we have with the residents in the Saint Paul 
community.
    Thank you.
    [The statement of Chief Smith follows:]

                 Prepared Statement of Thomas E. Smith
                             July 27, 2011

    Chairman King, Ranking Member Thompson and distinguished Members of 
the committee, I thank you for the opportunity to testify on this 
important topic. I will speak today about current efforts underway in 
Saint Paul, Minnesota to counter attempts by al-Shabaab to recruit and 
radicalize some of the young members of our community. I will highlight 
the Saint Paul Police Department's efforts to combat this disturbing 
trend, and will speak specifically to our cooperative outreach efforts, 
including a program we call AIMCOP--African Immigrant Muslim Community 
Outreach Program--which is funded in large part through a Federal 
Bureau of Justice Assistance grant.
    This conversation is especially important for Saint Paul, as we 
have a significant Somali American population. This community is 
engaged, and has a keen interest and complex understanding of local, 
National, and world events. I have found the majority of these men and 
women call the Twin Cities home and are proud Americans. Some among the 
community though, have become targets for radicalization.
    It is well published that between 2007 and 2009, al-Shabaab 
successfully lured approximately 20 young Muslim men, many of whom are 
Somali American, from the Minneapolis/Saint Paul area to fight overseas 
in a terrorist war. This phenomenon was new, and represented a 
challenge that the Saint Paul Police Department had not confronted in 
the past. The idea though, that young adults could be enticed into 
something this destructive was not. This news was both troubling and 
disturbing, and although the trend had political and security 
implications that extended far beyond Saint Paul, our department made a 
commitment to counter this threat.
    We have long worked to combat threats to our youth that have become 
all too familiar: Alcohol use, drug abuse, and gang violence. As we 
have committed to combating those threats, the Saint Paul Police 
Department committed to battling a new one: The potential 
radicalization of our Somali American youth. We believed that we could 
play a role in stopping this threat, and that our work, coupled with 
positive messages conveyed to our youth through strong families, 
legitimate social organizations and constructive religious messages 
could be just as powerful as the destructive messages delivered by al-
Shabaab.
    In 2004, the Saint Paul Police Department began to engage in 
serious outreach work with our Somali American residents. Though we did 
not know it at the time, this initial work would prove to be the 
foundation for more urgent work with broader implications. This evolved 
into AIMCOP, the African Immigrant Muslim Community Outreach Program.
    In 2009, the Saint Paul Police Department applied for a Bureau of 
Justice Assistance grant to fund AIMCOP. The grant sought to capitalize 
on existing department outreach efforts with the local Somali American 
community, and cited a specific need--the need to prevent further 
radicalization of our youth by al-Shabaab.
    It further cited specific strategies to combat this trend--targeted 
and on-going outreach with our Somali American community, and 
coordinated work with partners such as the FBI Minneapolis Field 
Office, the U.S. Attorney's Office for the District of Minnesota, the 
Ramsey County Sheriff's Office and several service providers including 
the local YWCA, the Saint Paul Intervention Project, and the Muslim 
American Society. We were awarded the grant in 2009 and AIMCOP was 
launched.
    Today both the scale and scope of AIMCOP and its related programs 
have seen significant growth. Our department still regularly meets with 
the Somali Advisory Council, and some 45 officers of all ranks are now 
intimately involved in our programs. These officers asked to be a part 
of this formal outreach work. After their acceptance into our program 
the officers received training specific to the work, to the mission, 
and to the philosophy behind it. Officers developed and now lead, 
coordinate, and directly participate in an array of activities with our 
Somali American youth. These include after-school study programs, open 
gyms, arts and crafts programs, and even camping trips.
    Our Police Athletic League has over 300 Somali American youth 
participants who compete in soccer, flag football, softball, and 
volleyball games that are organized, coached, and refereed by Saint 
Paul Police Officers. We strongly believe that by creating these safe, 
diverse, and on-going opportunities for Somali American youth and the 
police to interact, that trust, cooperation, friendship, and mentorship 
will increase, and opportunities for al-Shabaab to recruit and 
radicalize our youth will decrease.
    We have faced some challenges while moving forward with our 
outreach work. Among those was the fact that Somali American women and 
girls were noticeably underrepresented in many of our initial programs. 
We now directly target Somali American females with many of our 
outreach efforts, including a number of programs that are led 
exclusively by women police officers. AIMCOP has enjoyed an increase in 
female participation and has benefited greatly from this expanded 
involvement and dialogue. We have also expanded our own understanding 
of our Somali American residents' background and religion through 
specific training to our officers. In this, we have come to a better 
understanding that to effectively prevent and combat the threat of 
radicalization we need to think beyond our traditional law enforcement 
notions and strategies.
    I have no doubt that AIMCOP and its related programs have helped us 
counter the threat posed by al-Shabaab. We have built strong 
relationships with a community once isolated, and we now work together 
to address challenges and solve problems. Somali American youth that 
may be tempted by an ideology of radicalization can now look to an 
expanded network of trust, including police officer mentors to provide 
support, resources, and guidance to steer them in a positive direction. 
We find new examples every day where Somali American youth confide in 
their police officer mentors about their family, their school, and 
their own personal problems and issues. They also speak candidly about 
their own concerns for friends or family who may be on a troubled path 
or who may even be among those missing, suspected to have gone overseas 
to fight. This outreach work has also played a significant role in some 
very important criminal investigations. In 2009, while participating in 
a mentor program at a local high school, I was approached by the mother 
of a 14-year-old Somali American youth. The mother was concerned her 
child was becoming recruited and radicalized. This information was 
turned over to our FBI Joint Terrorism Task Force and resulted in a 
significant investigation.
    Also in 2009, the Saint Paul Police Department, through established 
personal relationships, was informed by Somali American parents that 
girls in their community were being sexually trafficked not only in 
Saint Paul and Minneapolis, but also in Tennessee and other States. 
This bit of information, passed on in large part because of an existing 
climate of cooperation and trust, was the genesis for a significant and 
large-scale investigation that ultimately resulted in 30 Federal 
indictments in Minnesota and Tennessee. At least one of those indicted 
was turned over to the FBI because of other concerns. United States 
Attorney's Office for the Middle District of Tennessee continues to 
work on this case. The majority of those indicted are from the Twin 
Cities and all were involved in Somali gangs. Beyond the indictments, 
this investigation led to the safe return of many Somali American girls 
to their families, the youngest of which was only 14 years of age. 
Somali Elders were briefed repeatedly during the course of this 
investigation and were asked to provide information in the future 
should this activity begin again.
    Through these and countless other examples, I sit before you today 
and confidently attest not only to the successes of AIMCOP and its 
related programs, but also to the great future potential that this type 
of work holds. AIMCOP has captured attention from international 
agencies working on similar radicalization issues. The British Embassy 
has both invited members from the Saint Paul Police Department to the 
United Kingdom and conducted site visits in our own city. Recently, we 
were visited by United States Ambassador to Denmark Laurie Fulton who 
spoke about on-going efforts and similarities between the Twin Cities 
and Denmark. Discussions continue and attempts to identify methods to 
benefit both the Saint Paul and Danish models to improve outcomes are 
underway.
    Our department continues to evolve its programs to address the 
specific needs of our Somali American residents, and to counter the 
unique threat posed by al-Shabaab. I foresee a future where even more 
sophisticated programming bolstered by enhanced partnerships with 
additional agencies and organizations will continue to build upon the 
trust we have gained with Saint Paul's Somali American residents. The 
continuation of our work is an imperative part of a larger effort to 
counter terrorism and reduce crime.
    As I conclude, I want to share a few thoughts. I am sometimes asked 
if I believe that our community can actually benefit from the Somali 
Advisory Council or the Police Athletic Leagues. These efforts do look 
far different than our traditional notions of police work. To answer 
those questions I ask that they imagine, for a moment, that the police 
officer called to a housing complex to deal with a youth problem 
happens also to be those same young peoples' football coach--or math 
tutor--or the leader of last weekend's camping trip. And I ask them to 
further imagine that among those same youth are the sons or daughters 
of the Elders who regularly visit my office as part of the Somali 
Advisory Council. You don't have to imagine those connections because 
in Saint Paul they actually exist. These connections run throughout 
AIMCOP and they represent the very foundation of our outreach work. And 
in my experience, these connections pay dividends.
    As Chief of Police, I expect my officers to perform their duties in 
line with three core principles.
    1. Keep the peace. In this, we don't police to the community, we 
        commit to policing with it, as we implement creative new 
        strategies and initiatives.
    2. Promote public safety. To do so, we commit to the development of 
        strong partnerships with ALL of the communities we serve.
    3. Enforce the law. I have come to firmly believe, however, that 
        when we do the first two things well, we actually have to do 
        less of the third.
    As I examine AIMCOP and its related programs against these 
principles, I am further convinced that the program fits squarely 
within our overall mission to keep our community safe. I believe that 
through AIMCOP and programs like it, we will have fewer crimes to 
investigate, fewer threats to our communities to address, and fewer 
young people leaving our neighborhoods to fight and die in foreign 
lands. The Saint Paul Police Department looks forward to our continued 
outreach work and for the opportunity to play a role in combating the 
threat posed by al-Shabaab.
    I thank the Members of this committee for the opportunity to 
address you today.

    Chairman King. Chief Smith, thank you for your testimony 
and your service.
    I will begin the round of questions.
    Mr. Hussen, let me begin with you, please. As you probably 
know, these hearings have been attacked as anti-Muslim bigoted, 
biased, racist--pick your terminology--that is come at us from 
all directions.
    You said in your testimony these hearings have actually 
empowered your community
    Mr. Hussen. Yes.
    Chairman King. If you could expand on that? In the course 
of doing that, you also said that you believe the narrative has 
to be changed that goes to the Somali American community to 
show that they should not be anti-Western. That in effect, they 
should work with the governments of Canada and the United 
States.
    I would ask you, first of all, to the extent these hearings 
have helped out, but even more importantly, do you find that 
the leadership in your community agrees with you? Has it 
changed? Has it gone for the better? If you could just 
basically tell us what the level of leadership is and how they 
react to what you are saying about the narrative of being pro-
Western?
    Mr. Hussen. The question is an important one. Initially 
there was some reluctance, because they thought there was a 
dichotomy between Islamic values and democratic values. The 
more we explained that there is no distinction between the two, 
because our religion is not incompatible with American or 
Canadian values. Our religion is compatible. True Islam is 
compatible with the respect for human rights and democracy and 
rule of law and respect for minorities.
    When you explain it that way, when you come at it--when you 
come at the values that Canada and the United States have from 
the perspective of Islamic values, then it is easier for the 
community members and leaders to accept. Over the years there 
has been really great movement towards that acceptance of that 
message. However--yes, sir?
    Chairman King. If I could ask you, what is your 
relationship with CAIR in Canada?
    Mr. Hussen. We don't have a relationship with CAIR in 
Canada, because CAIR has--CAIR comes at it from a different 
perspective.
    Chairman King. Does CAIR share your narrative?
    Mr. Hussen. No, they don't.
    Chairman King. Okay.
    If I could ask Mr. Folk, how would you rate the severity of 
a possible attack on our homeland because of the linkup between 
al-Shabaab and AQAP?
    Mr. Folk. Thank you, Mr. Chairman. I think that is an 
excellent question.
    I think the focus of the potential that al-Shabaab carries 
is best viewed through the lens of what al-Qaeda has 
accomplished in the past, and what, if any, similarities there 
are between the ideology of al-Qaeda and al-Shabaab.
    I think if we compare them side-by-side, you would find the 
same message being set forth by al-Shabaab as we have heard 
previously from al-Qaeda, which is against the United States, 
which is justifying violent acts against innocents. I think to 
the extent that al-Shabaab has in many ways adopted an al-Qaeda 
training module, and echoes the same ideology, I think the 
potential that they carry is similar to what we have seen from 
al-Qaeda.
    Chairman King. We have heard various estimates of three 
dozen, four dozen, 40 in the United States, 20 in Canada, maybe 
more, who have gone over. If we know who has gone over, what is 
the threat about them coming back?
    Mr. Folk. Any time an individual travels to a country that 
essentially lacks any functioning government such as Somalia, 
our ability to track that individual is going to be severely 
degraded. Certainly a country such as Somalia, which has a 
transitional federal government that is responsible for a 
number of blocks in Mogadishu, but has not authority beyond 
that, is a nation in which essentially you have a black box. 
That is, once somebody goes in, we may or may not have any 
ability to track them, looking forward.
    As a result, while I would like to believe we are able to 
track anybody coming out of Somalia back to the United States 
that we believe has been engaged in extremist behavior, I think 
the reality is, as we saw last December, that even in the best-
case scenario, when somebody's own family member may report 
them to be a potential threat to the United States, we 
sometimes miss them. So, I think that the potential is 
incredibly scary in that regard.
    Chairman King. Mr. Joscelyn, do you care to comment on the 
potential threat with al-Shabaab linking with AQAP?
    Mr. Joscelyn. Well, AQAP and generally the AQ presence 
within al-Shabaab itself I would say is a threat. In other 
words, there are two ways to look at it. It is whether or not 
they are receiving outside direction, which there is some 
evidence I would point you to in an Associated Press article, 
for example, from May that was talking about the evidence that 
has been reviewed from Osama bin Laden's compound in which 
counterterrorism officials said that it appeared that bin Laden 
was giving, ``strategic direction to al-Qaeda's affiliates in 
Yemen and Somalia.''
    I think that the--it is clear that the strategic direction 
involved hitting targets outside of Somalia and trying to go 
after U.S. interests. But even without that strategic 
direction, there are senior al-Qaeda members who are the 
members--who have been staffed at the most senior levels of al-
Shabaab. They themselves have previously been involved in 
hitting U.S. interests.
    You know, I counted at least 4 on my list of 13 in my 
testimony that previously hit the U.S. embassies in 1998. That 
is all the way back in 1998, you know, they were showing that 
they could go after American interests. So I would look at it 
from that two-fold perspective.
    Chairman King. Thank you, Mr. Joscelyn.
    The Ranking Member is recognized.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Chief Smith, in your 20 years as a professional law 
enforcement officer, and now the chief of police of Saint Paul, 
do you see community engagement with the immigrant community as 
an integral part in assessing any potential threat to your city 
or this country from a terrorism standpoint?
    Mr. Smith. Ranking Member Thompson, committee Members, of 
course as the chief of police, No. 1, I understand the 
importance of working with all of our immigrants' communities 
in Saint Paul.
    To give you a little fabric for the committee here, you 
know, we have the largest Hmong population of any city, the 
second-most populous of any State. They have been part of our 
city for over 30 years. We have worked very closely with that 
community. We have the largest Karen population of any city in 
the United States. They are our newest immigrant group. They 
are from Burma. We are working very closely with them, along 
with our Somali population, and we have been since 2004.
    The culture of trust that you spoke about and developing 
relationships has shown many positive--and examples where 
people have come forward to entrust us with information that we 
can share with our Federal partners to make sure, No. 1, that 
our cities are safe, and that our country's safe as well.
    So yes, we work with all our diverse immigrant communities. 
I hope I have answered your question correctly, but it is 
important to have those communities of trust in place. Local 
law enforcement, as you noted earlier, sir, are boots on the 
ground. We are the first line of defense, and we have to work 
with the communities that we serve.
    Thank you.
    Mr. Thompson. Thank you.
    One of the things that Congress has historically done is 
invested resources with local law enforcement agencies, so that 
they can expand the whole notion of community engagement. Have 
those funds Congress made available to our police department 
been helpful in your carrying out of those duties and 
responsibilities?
    Mr. Smith. Ranking Member Thompson, committee Members, yes, 
absolutely. The example that our gave with our AIMCOP grant, 
highlights that. Our efforts, especially, again, to stop young 
men and young women today from becoming radicalized through 
partnerships and having extra funds to do things that we 
wouldn't be able to do on a day-to-day basis. It doesn't mean 
that didn't start our outreach work. As I noted, we started in 
2004. But those funds are critical for the programs that we are 
working currently in our city, and have helped us expand our 
efforts with many positive results.
    Mr. Thompson. Thank you.
    Mr. Hussen, are you aware of any community engagement 
programs that the Canadian government is involved in?
    Mr. Hussen. Yes, the Canadian government has been very 
proactive in terms of community outreach. That has really led 
to better detection and arrest of individuals that were 
planning to go to Somalia to fight for al-Shabaab. In fact, 
some of the latest cases that resulted in successful detection 
and arrest came from community sources.
    However, what the----
    Mr. Thompson. Now, just----
    Mr. Hussen. Sorry?
    Mr. Thompson. So Canadian government officials----
    Mr. Hussen. Yes?
    Mr. Thompson [continuing]. Provide the money for community 
engagement programs?
    Mr. Hussen. Correct.
    Mr. Thompson. Your testimony is that they worked?
    Mr. Hussen. Well, my testimony is that they are not looking 
at the second part of the equation, which is providing outreach 
that tackles the narrative to that leads to radicalization. So 
they are only looking at detection and arrest, which is 
inadequate as far as I am concerned.
    Mr. Thompson. So are you saying the Canadian government is 
failing in their----
    Mr. Hussen. No, I am saying they are partially successful, 
but the narrative needs to be tackled head-on, and to do that 
you need to empower those in the community that are willing to 
offer an alternative and actually reinforce the values that 
Canadian and American societies are based on, and we are not 
seeing that in Canada. That is why this hearing is very 
important.
    Mr. Thompson. So your testimony is that the Canadian 
government is not doing what you think they should be doing on 
this issue?
    Mr. Hussen. Well, they are doing--they are partially doing 
the right thing in terms of detection and arrest, but they are 
not empowering the community with respect to the narrative that 
leads to radicalization.
    Mr. Thompson. So are you critical of your government?
    Mr. Hussen. Well, I mean, I am constructively critical of 
my government.
    Mr. Thompson. Thank you.
    Chairman King. The gentleman from California, the former 
attorney general of California, Mr. Lungren, is recognized.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I want to thank the Ranking Member for indicating how 
important the issue of lone wolf is. Some of us have worked for 
years on Judiciary committee to both put into the Patriot Act, 
and to extend the application of the Patriot Act to lone 
wolves.
    Of course, we had a big debate on that this year. Some 
criticized by saying we didn't have a lone-wolf situation here 
in the United States. So I appreciate the Ranking Member 
pointing out how important that issue is to us.
    Mr. Hussen and Chief Smith, I would like to direct a 
question to both of you. That is, when I was privileged to 
serve as attorney general of California, we had task forces on 
youth violence and on gangs. Of the things that at least I 
concluded from the work that we did on that was that different 
gangs, different youth problems, require different approaches.
    We found with the traditional gangs, oftentimes it was the 
absence of a father figure, a male figure, in the lives of the 
young men. The gangs provided that alternative setting. With 
Southeast Asian gangs, recent immigrants, it wasn't the lack of 
a father figure in the family, it was a lack of communication. 
That oftentimes in newly arrived immigrants, the parents 
couldn't speak English and the students found a cultural 
disconnect with their parents that they used as a opportunity 
to sort of avoid the parental influence. The gang sort of arose 
as they came together.
    What I would like to know with respect to the Somalia 
community, do you find any particular distinct characteristic 
that al-Shabaab or others who seek to radicalize them utilize 
as their entry into that youth experience and that youth 
mentality? Is there something that you find that is different 
than dealing with other types of gang settings? Even though I 
think this is obviously different than regular type gang 
settings. But I just wonder from your own experience, Mr. 
Hussen and Chief Smith, what you found?
    Mr. Hussen. Well, what I have found is the entry point 
becomes lack of integration. So the radicals will say, ``Well 
you know, you went to university, you have played by the rules, 
you have stayed out of trouble. But look, they won't even give 
you a job. You won't even get an interview. So you will never 
get accepted in Canada.''
    So the entry point becomes that economic and socio-economic 
marginalization, according to the radicals. So they will say, 
you know, this is yet more proof that you can play by the rules 
all you want, but you will never get acceptance in these 
societies.
    Mr. Lungren. Chief Smith.
    Mr. Smith. Thank you for that question, sir. I agree with 
you 100 percent. In Saint Paul, with our intervention and 
prevention techniques, with different groups you have to 
different things to address the actual issue.
    This is a big question, because when you talk about Somali 
youth or young men, I think that this committee is well aware 
that you have seen examples of individuals recruited by al-
Shabaab that have been highly educated, and some that have been 
very disenfranchised.
    So I can't give you a specific answer to that question. It 
would only be conjecture and opinion, because we have--the one 
thing that I will say in Saint Paul, and the reason that we do 
the outreach work that we do is you have to talk about these 
issues. You have to meet with these young people and you have 
to talk about what they are feeling. You would be amazed what 
they tell us. You would be amazed how open they are about this 
issue. That is the best way for me to answer that question. I 
apologize.
    Mr. Lungren. No, no. Fine. One of the things I would ask, 
is there any doubt in your mind that Somali youth are targets 
of radicalization by some, including al-Shabaab?
    Mr. Smith. Well, I can't tell you that they are not. 
Obviously, that there are some Somali youth that are targets 
for radicalization, as there are young men and women that are 
recruited into gang activity. So is it a specific piece right 
in my city? No, it is not. And we treat our city and its 
specifics are all unique, and I have different strategies for 
both ones. I hope that answers your question, sir.
    Mr. Lungren. Mr. Folk, some might say we are exaggerating 
the threat here. That even though we have talked about the 
numbers of Americans or Canadian young people who have joined 
al-Shabaab or been ``spirited out of the country'' and dealt in 
these terrorist actions. It is relatively few, and therefore we 
are hyping it, or we are over--the word exaggerate. What would 
you say to that?
    Mr. Folk. Thank you, Congressman. I think my answer would 
be two-fold. One is if you look at the numbers, in terms of the 
numbers of indictments, the numbers of investigations, and the 
numbers of individuals who have charged and pled guilty to 
criminal offenses you are involving directly the provision of 
materiel support to a foreign terrorist organization, or crimes 
that were affiliated with materiel support to a foreign 
terrorist organization, those numbers of indictments I believe 
exceed a comparable number of indictments in terms of support 
to other terrorist organizations. Al-Shabaab has busily 
recruited men from the United States, and the high number of 
indictments we are seeing reflect a real threat.
    Second, I don't believe it is appropriate to say that 
simply because there is a certain number of indictments, or a 
certain number of people who have left the United States, that 
that number indicates a small or a large threat. The reality, 
Congressman, is that only a very small number of Somalis that 
have left the United--or that have joined al-Shabaab--only a 
small number of Somalis have joined al-Shabaab as compared to 
the total number. But the reality is even that small number as 
compared to the large population is too many.
    Chairman King. The gentlelady from California, Ms. Sanchez, 
you are recognized for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being before our committee today.
    You know, after the Chairman had his first hearing in this 
series of investigating Muslims, a Minnesota U.S. Attorney, B. 
Todd Jones said, ``I hope that this does not have an adverse 
impact on the good things happening here in Minnesota with our 
Somali community.''
    Do you think, Chief, that the Chairman's assertion that 
there has not been sufficient cooperation from mosque leaders 
helps you when you are trying to reach out in Minnesota to the 
Somali community?
    Mr. Smith. I don't feel that that has been a problem for 
us, specifically in Saint Paul. Let me give you one example, if 
I may, ma'am.
    In Saint Paul back in June of this year we had a Somali 
youth summit. We invited people from throughout the Twin City 
area to come to this summit, learn about different topics. We 
had speakers from Washington, DC here, Department of Homeland 
Security, our FBI, SAC, U.S. B. Todd Jones that you just 
mentioned, and Imams who brought people from their mosques to 
come to this youth summit.
    This is the second we have held. We had one in January, one 
in June. You would be surprised how many young people come, how 
many Imams come. We are very engaged, so I don't see a problem 
with that specifically in Saint Paul. Again, there are 
differences between our two cities, even though we are one 
footstep away on a highway and a street.
    Ms. Sanchez. It is my understanding that your police 
officers even have bought soccer shirts and have worked with 
the youth in the community, the Somali youth in particular, to 
ensure that you have a better relationship with that community; 
is that not correct?
    Mr. Smith. That is absolutely correct, ma'am.
    Ms. Sanchez. You know, there are a lot of cuts going on 
here in Washington, DC. Some of them deserved, and I think some 
of them, you know, sort of cutting off today for what is 
important for tomorrow. We, just this past year, had to vote on 
the COPS program, for example, where those community policing 
grants that we give to our local law enforcement--at least in 
my area. I represent Santa Ana, California, for example, have 
to have a very large police force.
    We were able to keep 13 police officers on the beat in the 
community-oriented situation. Unfortunately, the last time we 
had a vote on COPS it barely passed here in the House of 
Representatives. I think there is a movement to cut everything. 
So I would like to get your indication, have you used community 
policing in order to reach out to that community in order to 
know what is going on, or specifically are you using some other 
method? That would be my first question.
    My second one is: Have others, police and law enforcement 
around the Nation, contacted you for best practices of how to 
deal with what seems to be a community that in fact you want to 
make sure stays true to their American values?
    Mr. Smith. Well, let me answer your last question first. 
Yes, we have had many chiefs of police that have contacted 
either myself or my staff to talk about the work that we are 
doing in Saint Paul, specifically with our Somali community.
    To get on to your next question about the COPS program. 
COPS is critical to any local chief of police. I am just going 
to say it like it is. It helps us to hire officers in very 
fiscally constraintive times with our State and local 
governments. It allows us to do programs such as AIMCOP, and I 
think that is why we are here today, or that is why I am here 
to testify about that program. How important it is. We started 
to work with community policing, as I told you, in 2004 and we 
have a group of elders that can address not only our mayor, but 
chiefs of police and others.
    That is where we came to with AIMCOP. We saw a problem, we 
knew there were problems. The one primary thing that our Somali 
elders have agreed upon, past all clan issues, that is the work 
that we have really tried to do in Saint Paul, is their youth, 
is their young people. They want them to be successful. They 
want them to be productive members of society. So I hope that 
answers your question, ma'am.
    Ms. Sanchez. Our Chairman has also made or alluded to some 
problems with the CAIR organization. I note that with respect 
to the Somali men in Minneapolis, that in a press conference 
that community said that they had been told of their 
Constitutional rights and the need to get attorneys. That has 
been frowned upon by some on this committee. Do you think that 
is consistent with other arrests or other questioning or 
anything that somebody might want to talk to their lawyer 
before they sit down with law enforcement or FBI to talk about 
something. In particular, even if they are not one of the 
suspects in something?
    Mr. Smith. So just to clear, ma'am. The question is: Should 
a Somali or any other individual have the opportunity to right 
to counsel?
    Ms. Sanchez. For a lawyer and to understand their 
Constitutional rights here in America.
    Mr. Smith. Depending on the situation, absolutely. I think 
those are the pillars of American society.
    Ms. Sanchez. Thank you, Chief. I appreciate your testimony.
    Thank you, Mr. Chairman.
    Chairman King. Recognize the gentleman from Minnesota for 5 
minutes. I would ask him to yield to me for 10 seconds, if he 
would.
    Mr. Cravaak. I do yield, sir.
    Chairman King. I would just like to make three quick 
points. One, the recent case, the indictment and the plea of 
guilty in Minnesota. The individual, Mr. Mohammed, he was 
charged with recruiting in the mosques in Minneapolis. That is 
No. 1.
    No. 2, as far as CAIR in Canada, Mr. Hussen has already 
acknowledged that they do not share his narrative that they 
should be cooperating and they should be sharing Western 
values. Also, he pointed out specifically that these hearings 
have empowered people in the Muslim to come forward.
    With that, I yield to the gentleman from Minnesota.
    Mr. Cravaak. I reclaim my time. Thank you, sir.
    Chief Smith, thank you very much for AIMCOP. You guys are 
doing an exceptional job down there. I am very proud to be--
have that as a Minnesota initiative. So thank you very much.
    As a fellow Minnesotan, I appreciate all the work or the 
efforts that you are doing in your department, not only 
protecting all of us, but also specializing in protecting the 
Muslim youth of our great city. So thank you for that as well.
    One of the things I want to ask you is has the Saint Paul 
Police Department run into opposition from AIMCOP program from 
any agencies that you know of?
    Mr. Smith. None whatsoever, sir.
    Mr. Cravaak. That is excellent. It is good to hear. So, no 
one has ever tried to halt you going into mosques or anything 
of that nature?
    Mr. Smith. No.
    Mr. Cravaak. Excellent. Okay. That is great to hear and 
that is good for us to know that these programs are working and 
that are moving forward and protecting our Muslim youth.
    Has there been--you claimed quite in your testimony there 
has been a lot of good feedback from AIMCOP. Have you gauged 
any effectiveness, any--has there been any benchmarks that you 
have had from where you were a couple of years ago to where you 
are today?
    Mr. Smith. Sure, Chairman, yes, there are benchmarks. I 
won't get into all the specifics. I will give you a more 
general facts here. But such as how many Somali youth that we 
have signed up, we had target benchmark numbers. We far 
exceeded our efforts. One of the key components that we work 
with, and I have my assistant chief here with me today, is the 
outreach work with Somali young women and mothers. I can't tell 
this committee how important that type of work is. It is 
amazing what in small groups, individuals will talk about with 
us.
    But that starts with that trust level. So we have 
benchmarks there. We can tell you how many people that are part 
of this program. We deal with a whole gamut. Again, I won't get 
into all the specifics, whether its domestic violence, learning 
cultural norms for local law enforcement here. But that trust 
may be the piece of the puzzle that gives us information later 
to stop something bad from happening, or stop some young man or 
some young woman from becoming radicalized.
    Mr. Cravaak. You said something I appreciated after getting 
into your testimony. I just kind of--I am a retired navy 
captain. I have been around several different countries. 
Ninety-five percent of us, all they want to do is a safe place 
to put their head at night, and a nice community to live in to 
raise your children. So I agree with you on that.
    Thank you very much, sir.
    Mr. Smith. Thank you.
    Mr. Cravaak. Mr. Folk, in your written testimony you stated 
that the cutting of the ability of individuals in the United 
States to provide financial support for al-Shabaab is crucial 
to diminish al-Shabaab's ability to carry out the terrorist 
operations. You have also referred to individuals in the United 
States that have h-a-w-a-l-a--Hwala--Hiwala----
    Mr. Folk. Hawala.
    Mr. Cravaak [continuing]. Hawala. Money transfer system to 
al-Shabaab activities. Can you talk a little bit more about 
this and the specific focus on Minnesota-based funding for al-
Shabaab?
    Mr. Folk. Thank you, Congressman, I can.
    I think the clearest example of Minnesota-based funding for 
al-Shabaab comes in the indictment that was returned within the 
last year out of Minneapolis regarding two women from 
Rochester, Minnesota who were charged with providing materiel 
support to al-Shabaab. As the indictment sets forth, the method 
by which they provided that materiel support was through money 
transfers, ultimately through Hawalas to Somalia.
    I think it is important to note that Hawala are a 
completely legitimate method to transfer money to a country 
that has no other infrastructure available to it. But that case 
reveals is that without taking care to note who is sending 
money, and without ensuring that there are some abilities out 
there to track that money, we may be missing opportunities to 
prevent terrorist organizations from receiving the money that 
they depend on to carry out operations.
    Mr. Cravaak. Okay, thank you very much.
    In the recent Mohammed case, he and other co-conspirators 
sought to radicalize and recruit Somali youth in mosques. Many 
of us have read and heard about the Minneapolis-based Islamic 
center in connection with the radicalization or recruitment of 
Minnesota youth. Are there any other mosques that you know of 
that are actively recruiting at this time in the Minneapolis 
area?
    Mr. Folk. No. I think to be clear, the individuals that 
were responsible for recruiting members of al-Shabaab from the 
Minnesota community I believe were doing so as individuals and 
represented not necessarily any particular mosque as an entity, 
but represented al-Shabaab and the ideology of that 
organization.
    Mr. Cravaak. That is good to know.
    Thank you very much, I appreciate it.
    I yield back, sir.
    Chairman King. Thank the gentleman.
    The gentlelady from Texas is recognized for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    I have no quarrel with this committee getting information, 
and making sure that that information is utilized in the right 
way.
    Mr. Chairman, I would like to submit into the record a 
letter that I believe has been given to your office. That is a 
request to ask for this committee to hold a hearing. I know 
that you have been at the forefront of asking for an 
investigation, but a hearing on the Rupert Murdoch-alleged 
hacking into the phones of 9/11 victims.
    So, I ask unanimous consent to put this into the record, 
and I am officially asking the committee to hold a hearing on 
that.
    Chairman King. I don't know if we have the letter, but I 
will certainly accept it into the record.
    [The information follows:]
                Letter From Honorable Sheila Jackson Lee
                                     July 27, 2011.
The Honorable Peter T. King,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman King: I respectfully write to you to request a Full 
Committee Hearing to determine if victims of the September 11, 2011 
terrorist attacks were targeted by News Corp after allegations have 
arisen regarding domestic phone-hacking and bribery allegations at News 
of the World, a subsidiary of News Corp.
    There are serious allegations that News Corp., may have violated 
both Federal wiretapping statutes and the Foreign Corrupt Practices 
Act. Given the acknowledged conduct of News Corp., the company's 
demonstrated pattern of hacking both in the United Kingdom and the 
United States, warrants a full examination. Determining the facts and 
the impact on the National security of Americans is a vital mission of 
this committee.
    Thank you in advance for your response. If you have any questions 
regarding this request, please do not hesitate to contact me directly.
            Very truly yours,
                                        Sheila Jackson Lee,
                                                Member of Congress.

    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I would add to that that I would like to have a hearing on 
right-wing extremists, ideologues, who advocate violence and 
advocate, in essence, the terrorizing of certain groups. Let me 
add into the record, if I could quickly, a FBI--it looks like 
an FBI statement here. ``Members and associates of white 
supremacist group charged with making grenades and selling 
guns.''
    I ask unanimous consent to put this into the record.
    Chairman King. Without objection.
    [The information follows:]
  FBI--New Haven Article Submitted for the Record by Honorable Sheila 
                              Jackson Lee

 Members and Associates of White Supremacist Group Charged with Making 
                         Grenades, Selling Guns

U.S. Attorney's Office, March 22, 2010.
    Nora R. Dannehy, United States Attorney for the District of 
Connecticut, and Kimberly K. Mertz, Special Agent in Charge of the New 
Haven Division of the Federal Bureau of Investigation, today announced 
that a Federal grand jury in New Haven has returned a seven-count 
indictment charging five individuals with conspiracy and firearms 
offenses stemming from an alleged attempt to sell firearms and 
explosive grenades to a white supremacist group located outside of 
Connecticut.
    Charged in the indictment are KENNETH ZRALLACK, 29, of Ansonia, the 
leader of the Connecticut White Wolves, a self-described white 
supremacist group now known as Battalion 14; ALEXANDER DeFELICE, 32, of 
Milford, and WILLIAM R. BOLTON, 31, of Stratford, both members of the 
Connecticut White Wolves/Battalion 14; EDWIN T. WESTMORELAND, 27 of 
Stratford, who is alleged to have participated in some of the 
activities of the Connecticut White Wolves/Battalion 14; and DAVID 
SUTTON, 46, of Milford, an associate of DeFELICE.
    The indictment identifies an individual (``WITNESS A''), who 
participated in meetings and activities of the Connecticut White 
Wolves/Battalion 14, and who identified himself as a convicted felon 
and as a member of an out-of-State white supremacist group that had an 
interest in obtaining firearms.
    The first count of the indictment charges DeFELICE and BOLTON with 
conspiracy to rob an individual of firearms. The indictment alleges 
that DeFELICE knew that this individual manufactured firearms at his 
Naugatuck Valley residence from parts he had obtained by ordering them 
over the internet, and that he maintained a large firearms inventory 
worth several hundred thousand dollars at his residence. It is alleged 
that DeFELICE and BOLTON devised a plan to break and enter the 
individual's residence and rob him of his inventory, and that DeFELICE 
described the burglary and robbery plan to WITNESS A, asked WITNESS A 
to serve as a lookout and provided him with instructions how to perform 
the role. On approximately January 31, 2009, DeFELICE and BOLTON 
enlisted WITNESS A to drive them past the Naugatuck Valley residence as 
part of the planning for the robbery. The indictment does not allege 
that the planned robbery occurred.
    A subsequent count in the indictment charges ZRALLACK, DeFELICE, 
WESTMORELAND, and SUTTON with conspiring to transfer rifles and 
shotguns to WITNESS A, and to make and transfer explosive grenades to 
WITNESS A. The indictment alleges that, on multiple occasions between 
November 2009 through January 2010, WITNESS A advised ZRALLACK that 
WITNESS A had purchased, and had plans to purchase, from DeFELICE 
various items including bulletproof vests, firearms, and explosive 
grenades. ZRALLACK and WITNESS A agreed that part of the proceeds of 
these transactions should be conveyed to ZRALLACK.
    As part of this conspiracy, the indictment alleges that, on 
November 11, 2009, DeFELICE and WESTMORELAND sold a .22 caliber rifle 
and a 12-gauge shotgun to WITNESS A.
    The indictment further alleges that, in late December 2009, 
DeFELICE, SUTTON, and WITNESS A shopped at an auto parts store in 
Milford for tools needed to make explosive grenades. The indictment 
alleges that, on January 23, 2010, DeFELICE, WESTMORELAND and WITNESS A 
met at DeFELICE's Milford residence where DeFELICE and WESTMORELAND 
extracted and gathered up explosive powder from a large number of live 
shotgun shells for the purpose of assembling the explosive grenades. 
DeFELICE and WESTMORELAND then accepted cash payment from WITNESS A for 
the three, almost-completed explosive grenades. DeFELICE telephoned 
ZRALLACK to report that he would have cash ready for delivery to 
ZRALLACK, ending the phone call with the words ``88,'' which is code 
for ``HH,'' or ``Heil Hitler.'' DeFELICE then finished making the three 
explosive grenades, ordered WITNESS A to wipe all fingerprints off of 
them, and packed the grenades in a cardboard box marked with a hand-
printed Swastika. DeFELICE then gave to WITNESS A the boxed explosive 
grenades and an envelope containing cash for ZRALLACK.
    ``The charges in this indictment allege that a group of individuals 
were involved in the manufacture and transfer of grenades to an out-of-
state white supremacist group, the illegal sale of firearms to a 
convicted felon, and the planning of a gun theft,'' stated U.S. 
Attorney Dannehy. ``I want to thank the members of the JTTF for their 
diligent investigative work that has preceded these arrests.''
    The indictment charges DeFELICE, BOLTON, and WESTMORELAND with 
additional counts related to the illegal transfer of firearms and/or 
explosive grenades.
    ``This 18-month investigation demonstrates the FBI's commitment to 
combat white supremacist groups and their alleged illegal activities,'' 
stated FBI Special Agent in Charge Mertz. ``This Joint Terrorism Task 
Force investigation was a collective effort between the FBI, 
Connecticut State Police, Federal Air Marshals Service, United States 
Secret Service, United States Marshals Service, and the local police 
departments of Milford, Ansonia, New Haven, and Stratford.''
    The indictment was returned under seal on March 18. ZRALLACK, 
WESTMORELAND, and SUTTON were arrested by members of the FBI's Joint 
Terrorism Task Force on Saturday morning, March 20. They appeared today 
before United States Magistrate Judge Holly B. Fitzsimmons in 
Bridgeport, entered pleas of not guilty to the charges, and are 
detained pending a detention hearing that is scheduled for Thursday, 
March 25.
    BOLTON, who has been serving in the United States Army in Virginia, 
was arrested on March 20 by the U.S. Army, Criminal Investigation 
Command. He will be transferred to Connecticut to be arraigned on the 
charges. DeFELICE has been detained in Federal custody since January 28 
when he was arrested on related firearms charges.
    If convicted on all counts in the indictment, DeFELICE faces a 
maximum term of imprisonment of 70 years, BOLTON and WESTMORELAND each 
faces a maximum term of imprisonment of 30 years, and ZRALLACK and 
SUTTON each faces a maximum term of imprisonment of 5 years.
    U.S. Attorney Dannehy stressed that an indictment is only a charge 
and is not evidence of guilt. Each defendant is entitled to a fair 
trial at which it is the Government's burden to prove guilt beyond a 
reasonable doubt.
    Acting U.S. Attorney Dannehy commended the joint investigation of 
this matter, which is being conducted by the Joint Terrorism Task 
Force, notably the Federal Bureau of Investigation, the Connecticut 
State Police, the U.S. Secret Service, and the Federal Air Marshal 
Service, with the assistance of the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives, the U.S. Marshals Service; the U.S. Army, 
Criminal Investigation Command, and the Milford, Ansonia, Stratford, 
and New Haven Police Departments.
    This case is being prosecuted by Assistant United States Attorney 
Henry K. Kopel.

    Ms. Jackson Lee. Another supremacist, a hit list, FBI agent 
says members of the Illinois white supremacist group planned to 
assassinate a lawyer who has battled hate groups.
    I ask unanimous consent to put this in the record.
    Chairman King. Without objection.
    [The information follows:]

  New York Times Article Submitted for the Record by Honorable Sheila 
                              Jackson Lee
              Supremacists Had Hit List, F.B.I. Agent Says

Published: March 07, 1998
    Members of an Illinois white supremacist group planned to 
assassinate a lawyer who has battled hate groups, bomb the lawyer's 
Southern Poverty Law Center and public buildings, kill a judge, rob 
banks and poison water supplies, an F.B.I. agent testified today at a 
Federal court hearing.
    The agent, Jason Thompson, said one of three men arrested last week 
in the plot had carried a gun to a speech that the lawyer, Morris Dees, 
delivered recently at Southern Illinois University in Edwardsville, 
Ill., but was deterred by metal detectors.
    Based on that testimony and the Federal Bureau of Investigation's 
seizure of weapons, including a rocket, a machine gun, and a pipe bomb, 
Magistrate Judge Clifford J. Proud ordered the three men held without 
bond until their trial, which is scheduled to begin on April 27.
    The men were arrested after the F.B.I. raided two houses in 
southern Illinois on Feb. 23. They were identified as Dennis Michael 
McGiffen, 35, of Wood River; Wallace Scott Weicherding, 64, of Salem; 
and Ralph P. Bock, 27, of Brighton.
    Mr. Weicherding was dismissed from his job as an Illinois prison 
guard at the Graham Correction Center in Hillsboro, Ill., in 1993 for 
handing out Ku Klux Klan literature to other employees.
    The three are accused of conspiring to possess unregistered 
weapons, which carries a maximum penalty of 5 years in prison and a 
$250,000 fine. An assistant United States Attorney, Norman Smith, said 
more charges might be filed later.
    All three pleaded not guilty.
    Douglas Forsythe, a lawyer for Mr. McGiffen, said the Government 
was ``relying on a lot of big talk'' secretly tape-recorded by an 
informer for the F.B.I. and the Bureau of Alcohol, Tobacco, and 
Firearms.
    ``They've got the tapes, they've got no acts,'' Mr. Forsythe said.
    A fourth suspect, Glenn LeVelle Lowharp of Rockford, is in custody, 
but he did not appear in court today.
    Mr. Thompson testified that an informer in Denver alerted the 
F.B.I. about the men last May as they formed their group, which they 
named the New Order. It was fashioned after a Washington State group 
from the 1980's called the Order, which robbed banks and armored cars 
to finance white supremacist and anti-Government activities.
    Mr. Thompson testified that Mr. McGiffen had laid out a ``hit 
list'' that included Mr. Dees; the Southern Poverty Law Center, an 
anti-Klan group in Montgomery, Ala.; the Simon Wiesenthal Center in Los 
Angeles; the Anti-Defamation League, and a Federal judge whose name was 
not disclosed.
    The agent testified that the group had planned to bomb courthouses 
and other public buildings and poison water supplies of major cities 
with cyanide to create diversions during bank and armored-car 
robberies.
    Mr. McGiffen told others that any witnesses to the crimes would 
have to be killed, Mr. Thompson testified.

    Ms. Jackson Lee. And I have a, I think close to 38 pages, 
39 pages, excuse me, of the list of active U.S. hate groups as 
of 2000. I would like to put this into the record.
    [The information follows:]

United States Action List Submitted for the Record by Honorable Sheila 
                              Jackson Lee
               List of Active U.S. Hate Groups as of 2000

(Alphabetical List of Groups by USA State)
            (Research from Southern Law Poverty Center Intelligence 
                    Report)
    U.S. Hate Groups have beliefs or practices that attack or denigrate 
an entire class of people, typically for their beliefs or immutable 
characteristics.
    This list of 602 active hate groups is based on information 
gathered by the Intelligence Project from hate groups' publications, 
citizens' reports, law enforcement agencies, field sources and news 
reports. Only organizations known to be active in 2000, whether that 
activity included marches, rallies, speeches, meetings, leafleting, 
publishing literature, or criminal acts, were counted in the listing. 
Entities that appear to exist only in cyberspace are not included 
because they are likely to be individual web publishers who like to 
portray themselves as powerful, organized groups. This listing contains 
all known chapters of hate organizations. If the group has a known 
headquarters, it appears first in the listing of the group's chapters.
    Groups are categorized as Ku Klux Klan, Neo-Nazi, Racist Skinhead, 
Christian Identity, Black Separatist, Other and Neo-Confederate. 
Because Skinheads are migratory and often not affiliated with groups, 
this listing understates their numbers. Christian Identity describes a 
religion that is fundamentally racist and anti-Semitic. Black 
Separatist groups are organizations whose ideologies include tenets of 
racially based hatred. The Other category includes groups and 
publishing houses endorsing a hodgepodge of hate doctrines.

ALABAMA (39)
Alabama White Knights of the Ku Klux Klan--Anniston
League of the South--Atalla
League of the South--Auburn
Alabama White Knights of the Ku Klux Klan--Birmingham
Council of Conservative Citizens--Birmingham
League of the South--Birmingham
Nation of Islam--Birmingham
National Organization for European American Rights--Childersburg
Alabama White Knights of the Ku Klux Klan--Clanton
League of the South--Emelle
America's Invisible Empire Knights of the Ku Klux Klan--Eva
American Nazi Party--Foley
Alabama White Knights of the Ku Klux Klan--Gadsden
America's Invisible Empire Knights of the Ku Klux Klan--Hartselle
National Association for the Advancement of White People--Hartselle
Council of Conservative Citizens--Huntsville
Southern Cross Militant Knights of the Ku Klux Klan--Ider
Alabama White Knights of the Ku Klux Klan--Jasper
Council of Conservative Citizens--Jasper
America's Invisible Empire Knights of the Ku Klux Klan--Midland City
Council of Conservative Citizens--Mobile
League of the South--Montgomery
Nation of Islam--Montgomery
Alabama White Knights of the Ku Klux Klan--Moody
Alabama White Knights of the Ku Klux Klan--Pelham
Alabama White Knights of the Ku Klux Klan--Robertsdale
Alabama White Knights of the Ku Klux Klan--Satsuma
Underground Skinhead Action--Satsuma
League of the South--Selma
Alabama White Knights of the Ku Klux Klan--Springville
Sonnenkinder Kindred--Springville
League of the South--Spruce Pine
Southern Cross Militant Knights of the Ku Klux Klan--Sylvania
League of the South--Tuscaloosa (2)
Alabama White Knights of the Ku Klux Klan--Valley
Southern Cross Militant Knights of the Ku Klux Klan--Valley Head
Alabama White Knights of the Ku Klux Klan--Wilton
League of the South--York

ALASKA (1)
Women for Aryan Unity--Eagle River

ARIZONA (8)
National Organization for European American Rights
World Church of the Creator--Florence
Hammerskin Nation--Glendale
Hammerskin Nation--Mesa
World Church of the Creator--Mesa
National Alliance--Phoenix
Underground Skinhead Action--Tucson
World Church of the Creator--Tucson

ARKANSAS (18)
World Church of the Creator--Cabot
American Knights of the Ku Klux Klan--Cedarville
Christian Research--Eureka Springs
Kingdom Identity Ministries--Harrison
Knights of the Ku Klux Klan--Harrison
American Front--Harrison
Council of Conservative Citizens--Little Rock
Crusade for Christ--Little Rock
National Alliance--Little Rock
Invisible Empire National Knights of the Ku Klux Klan--Luxora
Imperial Klans of America--Magnolia
League of the South--Mayflower
International Keystone Knights of the Ku Klux Klan--Parkin
RangerSkin Nation--Pine Bluff
World Church of the Creator--Pine Bluff
Imperial Klans of America--Plainview
South Arkansas Knights--Smackover
National Alliance--Uniontown

CALIFORNIA (29)
National Alliance--Alleghany
Underground Skinhead Action--Arvin
World Church of the Creator/Sisterhood of the WCOTC--Carmichael
Underground Skinhead Action--Ceres
Women for Aryan Unity--Costa Mesa
Aryan Nations/Aryan National Alliance--Escondido
White Aryan Resistance--Fallbrook
Hammerskin Nation--Hemet
Underground Skinhead Action--Long Beach
House of David--Los Angeles
Nation of Islam--Los Angeles
World Church of the Creator--Manhattan Beach
Ministry of Christ Church--Mariposa
Jubilee--Midpines
National Socialist Movement--Monrovia
National Organization for European American Rights--Novato
Nation of Islam--Oakland
Imperial Klans of America--Red Rock Canyon
Hammerskin Nation--Riverside
Council of Conservative Citizens--Sacramento
National Alliance--Sacramento
Hammerskin Nation--San Diego
Nation of Islam--San Francisco
National Socialist Movement--San Francisco
League of the South--San Jose
World Church of the Creator--Seal Beach
Voices of Citizens Together--Sherman Oaks
World Church of the Creator--Sierra Madre
World Church of the Creator--Tehachapi

COLORADO (7)
American Third Position--Arvada
Underground Skinhead Action--Battlement Mesa
Aryan Nations/Aryan National Alliance--De Beque
Melchizedek Vigilance--Denver
National Alliance--Denver
Scriptures for America Ministries--LaPorte
MSR Productions--Wheat Ridge

CONNECTICUT (3)
World Church of the Creator--Fairfield
World Church of the Creator--Hawleyville
World Church of the Creator--Wallingford

DELAWARE (2)
International Keystone Knights of the Ku Klux Klan--New Castle
Hammerskin Nation--Wilmington

DISTRICT OF COLUMBIA (3)
Nation of Islam--Washington
National Organization for European American Rights--Washington
New Black Panther Party--Washington

FLORIDA (39)
League of the South--Apopka
National Alliance--Boca Raton
Council of Conservative Citizens--Boynton Beach
National Association for the Advancement of White People--Callahan
World Church of the Creator--Chipley
Imperial Klans of America--Crestview
League of the South--Crystal River
World Church of the Creator--Davie
World Church of the Creator--Defuniak Springs
League of the South--Ebro
Nation of Islam--Ft. Lauderdale
League of the South--Hillsborough County
Council of Conservative Citizens--Jacksonville
Hammerskin Nation--Jacksonville
NAAWP Florida Chapter Inc.--Jacksonville
Sigrdrifa--Jacksonville
Aryan Nations/Aryan National Alliance--Kissimmee
Nation of Islam--Miami
World Church of the Creator--Milton
World Church of the Creator--Monticello
League of the South--Naples
League of the South--Niceville
World Church of the Creator--Okeechobee
American Knights of the Ku Klux Klan--Orlando
National Alliance--Orlando
League of the South--Palm Beach County
League of the South--Panama City (2)
German American Nationalist PAC--Pensacola
Keys to the Kingdom Church--St. Augustine
League of the South--St. Lucie County
League of the South--Southwest Florida
League of the South--Tallahassee
League of the South--Tampa
National Alliance--Tampa
National Association for the Advancement of White People--Tampa
Council of Conservative Citizens--Tampa Bay
National Organization for European American Rights--West Palm Beach
League of the South--Yulee

GEORGIA (30)
League of the South--Albany
League of the South--Athens
House of David--Atlanta
League of the South--Atlanta
Nation of Islam--Atlanta
National Alliance--Atlanta
New Black Panther Party--Atlanta
League of the South--Augusta
League of the South--Brunswick
World Church of the Creator--Carrollton
World Church of the Creator--Columbus
National Alliance--Dahlonega
Council of Conservative Citizens--Dalton
League of the South--Fayetteville
North Georgia White Knights of the Ku Klux Klan--Ft. Oglethorpe
League of the South--Hardwick
Hammerskin Nation--Hiram
League of the South--LaGrange
League of the South--Macon
Crusade Against Corruption--Marietta
Truth At Last--Marietta
League of the South--McDonough
Council of Conservative Citizens--Milledgeville
Council of Conservative Citizens--Norcross
League of the South--Savannah
League of the South--Silver Creek
League of the South--Statesboro
League of the South--Talbot County
League of the South--Thomaston
Georgia Konfederate Knights of the Ku Klux Klan--Thomasville

HAWAII (1)
National Association for the Advancement of White People--Honolulu

IDAHO (9)
Gospel Ministries--Boise
National Alliance--Boise
National Association for the Advancement of White People--Coeur d'Alene
Aryan Nations/Aryan National Alliance--Hayden Lake
Gospel of Christ Kingdom Church--Hayden Lake
Underground Skinhead Action--Hayden Lake
America's Promise Ministries--Sandpoint
11th Hour Remnant Messenger--Sandpoint
14 Word Press--St. Maries

ILLINOIS (16)
World Church of the Creator/Sisterhood of the WCOTC--Bourdonnais
Council of Conservative Citizens--Chicago
Nation of Islam--Chicago
National Alliance--Chicago
World Church of the Creator--Chicago
World Church of the Creator--Dixon
World Church of the Creator--East Peoria
World Church of the Creator--Ina
World Church of the Creator--Mattoon
World Church of the Creator--Pontiac
Imperial Klans of America--Prospects Heights
National Association for the Advancement of White People--
River Grove
Aryan Nations/Aryan National Alliance--Salem
World Church of the Creator--Sheridan
World Church of the Creator--Wilmette
World Church of the Creator--Springfield

INDIANA (18)
National Socialist Movement--Alexandria
Council of Conservative Citizens--Bedford
Liberty Knights--Boonville
World Church of the Creator/Sisterhood of the WCOTC--Bristol
American Knights of the Ku Klux Klan--Butler
World Church of the Creator/Sisterhood of the WCOTC--Butler
U.S. Klans, KKK Inc.--Coalmont
Hammerskin Nation--Fort Wayne
World Church of the Creator/Sisterhood of the WCOTC--Fort Wayne
International Keystone Knights of the Ku Klux Klan--Franklin
American Knights of the Ku Klux Klan--Goshen
Outlaw Hammerskins--Helmsburg
Imperial Klans of America--Indianapolis
National Alliance--Indianapolis
Outlaw Hammerskins--Michigan City
National Socialist Movement--Osceola
National Knights of the Ku Klux Klan--South Bend
Outlaw Hammerskins--South Bend

IOWA (2)
World Church of the Creator--Davenport
Sigrdrifa--Olds

KANSAS (4)
Aryan Nations/Aryan National Alliance--Hutchinson
Imperial Klans of America--Lakin
Westboro Baptist Church--Topeka
Hammerskin Nation--Wichita

KENTUCKY (8)
Fellowship of God's Covenant People--Burlington
Council of Conservative Citizens--Casey Creek
Imperial Klans of America--Dayton
Imperial Klans of America--Hillview
League of the South--Lebanon
Confederate Knights of the Ku Klux Klan--Lexington
Lord's Work--Louisville
Imperial Klans of America--Powderly

LOUISIANA (19)
America's Invisible Empire Knights of the Ku Klux Klan--Alexandria
Christian Defense League--Arabi
Council of Conservative Citizens--Baton Rouge
League of the South--Baton Rouge
League of the South--Calcasieu
Bayou Knights of the Ku Klux Klan--Homer
Confederate Crusaders--Homer
Kountry Knights of the Ku Klux Klan--Jennings
National Organization for European American Rights--Mandeville
National Association for the Advancement of White People--Marrero
League of the South--Monroe
Nation of Islam--New Orleans
League of the South--River Ridge
League of the South--Shreveport
League of the South--Tangipahoa
League of the South--Thibodaux
American Knights of the Ku Klux Klan--Welsh
National Socialist Movement--West Monroe
Aryan Nations/Aryan National Alliance--West Wego

MAINE (1)
Council of Conservative Citizens--Portland

MARYLAND (8)
League of the South--Cecil County
Nation of Islam--Baltimore
National Alliance--Baltimore
Aryan Nations/Aryan National Alliance--Bryans Road
SS Regalia--Edgewater
World Church of the Creator--Finksburg
National Alliance--Hagerstown
World Church of the Creator--Towson

MASSACHUSETTS (6)
Nation of Islam--Boston
World Church of the Creator--Boston
House of David--Brockton
National Alliance--Cape Cod
World Church of the Creator--Peabody
House of David--Roxbury

MICHIGAN (14)
National Association for the Advancement of White People--Bellville
National Association for the Advancement of White People--Canton
Sigrdrifa--Clovderdale
Nation of Islam--Detroit
New Black Panther Party--Detroit
American Nazi Party--Eastpointe
2YT4U Productions--Ferndale
World Church of the Creator--Ionia
Social Contract Press--Petoskey
National Alliance--Portage
Hammerskin Nation--Rochester
By Yahweh's Design--Stevensville
Underground Skinhead Action--Traverse City
World Church of the Creator/Sisterhood of the WCOTC--Westland

MINNESOTA (8)
Hammerskin Nation--Apple Valley
National Alliance--Minneapolis
National Socialist Movement--Minneapolis
Aryan Nations/Aryan National Alliance--New Brighton
Panzerfaust Records--Newport
World Church of the Creator--North Bayport
Aryan Nations/Aryan National Alliance--St. Paul
National Socialist Movement--St. Paul
  
  
  
  
  
  
MISSISSIPPI (27)
FreeMississippi--Aberdeen
Bayou Knights of the Ku Klux Klan--Brookhaven
Council of Conservative Citizens--
Calhoun
United White Klans--Collinsville
FreeMississippi--Greenville
United White Klans--Greenwood
FreeMississippi--Gulfport
Council of Conservative Citizens--Holly Springs
Council of Conservative Citizens--Jackson
Mississippi Royal Confederate Knights--Jackson
Nation of Islam--Jackson
League of the South--Laurel
Nationalist Movement--Learned
FreeMississippi--Macon
League of the South--Mendenhall
FreeMississippi--Mendenhall
National Association for the Advancement of White People--
Olive Branch
Southern Mississippi Knights of the Ku Klux Klan--Petal
Mississippi White Knights of the Ku Klux Klan--Petal
United White Klans--Philadelphia
Council of Conservative Citizens--Pineywoods
World Church of the Creator--Raymond
White Rights Associaton--Southhaven
Council of Conservative Citizens--Vaiden
Council of Conservative Citizens--Webster
League of the South--Wiggins
FreeMississippi--Wiggins

MISSOURI (17)
Imperial Klans of America--Annapolis
World Church of the Creator--Clarkton
League of the South--Columbia
Faith Baptist Church and Ministry--Houston
Council of Conservative Citizens--Iron County
National Organization for European American Rights--Kansas City
Knights of the White Kamellia--Leslie
Imperial Klans of America--Mapaville
American Knights of the Ku Klux Klan--Nixa
Women for Aryan Unity--O'Fallon
New Order Knights of the Ku Klux Klan--Overland
Church of Israel--Schell City
Hammerskin Nation--Springfield
Council of Conservative Citizens--St. Louis
House of David--St. Louis
Nation of Islam--St. Louis
National Organization for European American Rights--St. Louis
  
  

MONTANA (4)
Aryan Nations/Aryan National Alliance--Billings
World Church of the Creator--Missoula
Church of True Israel--Noxon
World Church of the Creator--Superior

NEBRASKA (5)
National Socialist German Workers Party--Lincoln
National Socialist Movement--McCook
National Socialist Movement--Ogalalla
Aryan Nations/Aryan National Alliance--Omaha
Mission to Israel--Scottsbluff

NEVADA (8)
World Church of the Creator--Carson City
Hammerskin Nation--Las Vegas
Nation of Islam--Las Vegas
National Alliance--Las Vegas
National Socialist Movement--Las Vegas
Aryan Nations/Aryan National Alliance--Reno
National Alliance--Reno
Aryan Nations/Aryan National Alliance--Wellington

NEW HAMSPHIRE (1)
Council of Conservative Citizens--Dublin

NEW JERSEY (12)
World Church of the Creator--Bridgeton
World Church of the Creator/Sisterhood of the WCOTC--Hamilton
Hammerskin Nation--Harrison
National Alliance--Hewitt
World Church of the Creator--Island Heights
World Church of the Creator--Jersey City
Nation of Islam--New Brunswick
Nation of Islam--Newark
New Black Panther Party--Newark
Aryan Nations/Aryan National Alliance--North Bergen
New Black Panther Party--Trenton
World Church of the Creator--Trenton

NEW MEXICO (3)
World Church of the Creator--Albuquerque
Christian Crusade for Truth--Deming
World Church of the Creator--Rio Rancho

NEW YORK (23)
World Church of the Creator--Alden
National Association for the Advancement of White People--Amherst
National Socialist Movement--Binghamton
House of David--Buffalo
League of the South--Buffalo
National Socialist Movement--Ithaca
National Association for the Advancement of White People--Jackson 
Heights
World Church of the Creator--Marcy
Council of Conservative Citizens--New York
House of David--New York
Nation of Islam--New York
New Black Panther Party--New York
Underground Skinhead Action--New York
World Church of the Creator--New York
American Knights of the Ku Klux Klan--Newburgh
National Alliance--Peekskill
World Church of the Creator--Sleepy Hollow
League of the South--Staten Island
Sigrdrifa--Staten Island
Central New York White Pride--Syracuse
National Organization for European American Rights--Walden
Aryan Nations/Aryan National Alliance--Wantagh
Imperial Klans of America--Warwick

NORTH CAROLINA (27)
National Alliance--Benson
Aryan Christian Knights of the Ku Klux Klan--Brown Summitt
League of the South--Chapel Hill
League of the South (2)--Charlotte
National Alliance--Charlotte
Nation of Islam--Charlotte
Council of Conservative Citizens--Clemmons
World Church of the Creator--Culluwhee
League of the South--Durham
Nation of Islam--Durham
National Alliance--Elon College
Council of Conservative Citizens--Forest City
League of the South--Greenville
Confederate Knights of the Ku Klux Klan--Henderson
League of the South--Hertford
World Church of the Creator--Huntersville
League of the South--Kingston
Council of Conservative Citizens--Morganton
National Alliance--Raleigh
New Black Panther Party--Raleigh
Confederate Knights of the Ku Klux Klan--Randleman
League of the South--Salisbury
National Alliance--Siler City
Imperial Klans of America--Walkertown
New Beginnings--Waynesville
Church of Yahshua the Christ--Wilmington

NORTH DAKOTA (1)
Aryan Nations/Aryan National Alliance--Bismark

OHIO (26)
World Church of the Creator--Akron
Imperial Klans of America--Amelia
Knights of the White Kamellia--Bellbrook
Aryan Knights of the Confederacy Ku Klux Klan--Bellefontaine
88 Enterprises--Canton
Council of Conservative Citizens--Cincinnati
National Alliance--Cincinnati
World Church of the Creator--Cincinnati
National Organization for European American Rights--Cleveland
National Alliance--Columbus
National Socialist Movement--Columbus
World Church of the Creator--Columbus
Knights of the White Kamellia--Dayton
Mystic Knights of the Ku Klux Klan--Dayton
Imperial Klans of America--Elyria
National Association of the Advancement of White People--Grove City
Heritage Lost Ministries--Hilliard
Knights of the White Kamellia--Kenton
Aryan Nations--Marion
National Alliance--North Royalton
National Alliance--Parma
Knights of the White Kamellia--Rushsylvania
National Organization for European American Rights--Stark County
National Organization for European American Rights--Willard/Sandusky
World Church of the Creator--Youngstown
Knights of the White Kamellia--Zanesfield

OKLAHOMA (5)
United Confederate Knights of the Ku Klux Klan
White Aryan Resistance--Catoosa
American Knights of the Ku Klux Klan--Collinsville, Elohim City, 
Muldrow
Artisan Publishers--Muskogee

OREGON (5)
Aryan Nations/Aryan National Alliance
Hammerskin Nation--Clackamas
Underground Skinhead Action--Estacada
Thule Publications--Portland
National Socialist Vanguard--The Dalles

PENNSYLVANIA (27)
World Church of the Creator--Altona
National Socialist Movement--Bethlehem
National Socialist Movement--Brookhaven
National Socialist Movement--Corry
Council of Conservative Citizens--Dayton
International Keystone Knights of the Ku Klux Klan--East Texas
Aryan Nations/Aryan National Alliance--Easton
National Alliance--Fairless Hills
Hammerskin Nation--Hanover
International Keystone Knights of the Ku Klux Klan--Johnstown
United White Klans--Nanticoke
Nation of Islam--Philadelphia
National Alliance--Philadelphia
National Organization for European American Rights--Philadelphia
New Black Panther Party--Philadelphia
Nation of Islam--Pittsburgh
National Alliance--Pittsburgh
American Knights of the Ku Klux Klan--Prospect
Invisible Empire, Pennsylvania Ku Klux Klan--Punxsutawney
International Keystone Knights of the Ku Klux Klan--Reading
Knights of the Ku Klux Klan (Pennsylvania faction)--Reading
National Alliance--Reading
National Association for the Advancement of White People--Thorndale
Aryan Nations/Aryan National Alliance--Ulysses
Posse Comitatus--Ulysses
Tri-State Terror--Villanova
World Church of the Creator--Wrightsville

RHODE ISLAND (0)

SOUTH CAROLINA (12)
League of the South--Columbia
New Black Panther Party--Columbia
United White Klans--Cross Anchor
World Church of the Creator--Edgefield
International Association of the Knights of the Ku Klux Klan--Enoree
United White Klans--Gaston
United White Klans--Goose Creek
Nation of Islam--Greenville
League of the South--Pinopolis
Council of Conservative Citizens--Saluda
Carolina Knights of the Ku Klux Klan--Spartanburg
League of the South--Sumter

SOUTH DAKOTA (1)
Aryan Nations--Rapid City

TENNESSEE (14)
World Aryan Party--Athens
Council of Conservative Citizens--Chattanooga
Council of Conservative Citizens--Cleveland
League of the South--Franklin
National Association for the Advancement of White People--Gibson
Council of Conservative Citizens--Knoxville
American Knights of the Ku Klux Klan--Memphis
Nation of Islam--Memphis
Imperial Klans of America--Nashville
National Alliance--Nashville
International Keystone Knights of the Ku Klux Klan--Pleasanthill
World Church of the Creator--Ramer
World Church of the Creator--Somerville
Aryan Nations/Aryan National Alliance--Woodlawn

TEXAS (38)
Aryan Covenant Church/ACC Services--Anderson
League of the South--Arlington
League of the South--Austin
National Alliance--Austin
World Church of the Creator--Austin
World Church of the Creator/Sisterhood of the WCOTC--Austin
National Front of North America--Bryan
White Camelia Knights of the Ku Klux Klan--Cleveland
League of the South--Conroe
Hammerskin Nation--Dallas
Nation of Islam--Dallas
National Alliance--Dallas
New Black Panther Party--Dallas
Council of Conservative Citizens--Dallas/Fort Worth
National Alliance--Fort Worth
World Church of the Creator--Groveton
Gospel Broadcasting Association--Houston
Nation of Islam--Houston
National Organization for European American Rights--Houston
New Black Panther Party--Houston
National Alliance--Houston
Aryan Nations/Aryan National Alliance--Huffman
Women for Aryan Unity--Huntsville
Knights of the White Kamellia--Jasper
National Alliance--Keller
National Socialist Movement--Lubbock
American Knights of the Ku Klux Klan--Mauriceville
World Church of the Creator--Midway
League of the South--Northwest Texas
League of the South--Pasadena
American Knights of the Ku Klux Klan--San Antonio
White Camellia Knights of the Ku Klux Klan--Sulphur Springs
League of the South--Tarrant County
World Church of the Creator--Tennessee Colony
League of the South--Tyler
World Church of the Creator--Vidor
League of the South--Wautauga
League of the South--West Texas

UTAH (3)
National Alliance--Salt Lake City
World Church of the Creator--Salt Lake City
World Church of the Creator/Sisterhood of the WCOTC--Salt Lake City

VERMONT (0)

VIRGINIA (26)
Aryan Nations/Aryan National Alliance
International Keystone Knights of the Ku Klux Klan--Bayse
Knights of the White Kamellia--Chesterfield
League of the South--Dayton
Mystic Knights of the Ku Klux Klan--Delaplane
League of the South--Dublin
American Friends of the British National Party--Falls Church
Council of Conservative Citizens--Falls Church
Confederate Knights of the Ku Klux Klan--Forest
Council of Conservative Citizens--Hanover
League of the South--Hanover
League of the South--Harrisonburg
World Church of the Creator--Jarratt
Virginia Publishing Company--Lynchburg
American Immigration Control Foundation--Monterey
New Black Panther Party--Norfolk
New Century Foundation/American Renaissance--Oakton
Nation of Islam--Richmond
National Organization for European American Rights--Richmond
White Order of Thule--Richmond
Virginia Christian Israelites--Round Hill
Confederate Knights of the Ku Klux Klan--Sandston
Underground Skinhead Action--Virginia Beach
League of the South--Williamsburg
Knight Riders of the Ku Klux Klan--Winchester
American Knights of the Ku Klux Klan--Woodridge
  
  
  
WASHINGTON (12)
White Order of Thule--Deer Park
World Church of the Creator/Sisterhood of the WCOTC--Lynnwood
Upper Room Identity Fellowship--McKenna
National Organization for European Rights--Olympia
New Covenant Bible Church--Port Orchard
Seattle White Racist Network--Renton
Northwest Knights of the Ku Klux Klan--Seattle
Spokane Skins--Spokane
Underground Skinhead Action--Spokane
Northwest Knights of the Ku Klux Klan--Tacoma
Hammerskin Nation--Vancouver
Sigrdrifa--Vancouver

WEST VIRGINIA (3)
National Alliance--Hillsboro
Resistance Records--Hillsboro
Liberty Bell Publications--Reedy

WISCONSIN (8)
Aryan Nations/Aryan National Alliance--Mercer
National Knights of the Ku Klux Klan--Mercer
New Order--Milwaukee
World Church of the Creator--Milwaukee
World Church of the Creator--New Berlin
Outlaw Hammerskins--Pewaukee
Imperial Klans of America--Plover
Imperial Klans of America--Westfield

WYOMING (1)
National Organization for European American Rights--Cheyenne

    Chairman King. Without objection.
    Ms. Jackson Lee. Thank you very much.
    I think it is important for a committee that has the 
responsibilities of homeland security to be addressing these 
issues in a fair and accurate manner. Mr. Chairman, I would 
propose that if we are going to take the information that is 
been given by these witnesses and use them in a way that we can 
be constructive, then the next step should be a briefing before 
this committee by the FBI, the CIA, the JTTF, which deals with 
State and local terrorism issues, and the NCTC.
    My concern with the focus of the hearings that we have had 
is at the isolation of certain groups. Mr. Hussen, you are 
coming from Canada. Do you understand my line of reasoning, 
that we must look broadly at those who may in the target of 
potential terrorists or terrorist activities, or being 
radicalized? Do you think that is important?
    Mr. Hussen. It is important to look at any threat; sure.
    Ms. Jackson Lee. You indicated that your government was 
doing outreach, but it didn't do the next step. What is that?
    Mr. Hussen. Tackling head-on the narrative that leads to 
radicalization.
    Ms. Jackson Lee. You are using the cerebral, academic. What 
narrative are you talking about?
    Mr. Hussen. The narrative that says--that the narrative 
that turns a young person born in Canada to hate the very 
society that----
    Ms. Jackson Lee. So are you saying find out what draws them 
to that? Is that what you are saying?
    Mr. Hussen. No----
    Ms. Jackson Lee. Is that what you are saying?
    Mr. Hussen. No, we know what the narrative is, but there 
needs to be a counter-narrative that emphasizes the importance 
of freedom of religion, rule of law, human rights----
    Ms. Jackson Lee. Great.
    Mr. Hussen [continuing]. All the values that we have.
    Ms. Jackson Lee. Excellent.
    So Chief Smith, if we were to provide added funding, it 
seems that you have outreach to the community. The good news is 
they have responded. The Hmongs have responded. Hmongs are over 
mosques and groups of people in neighborhoods. They have 
responded and the young people have come; is that correct?
    Mr. Smith. That is correct, ma'am.
    Ms. Jackson Lee. So an appropriate narrative for this 
committee would be to first of all, Chief, if you might--and I 
don't want to put words in your mouth--is it simply fair that 
we would look at the broad base of particular terrorist 
activities that might harm the homeland? Is that a good 
narrative for us?
    Mr. Smith. Well, I think we want to look at a broad base, 
but also specific local law enforcement; again, as I talked 
about before, boots-on-the-ground work.
    Ms. Jackson Lee. Well, we thank you for your work.
    My question is as a law enforcement officer, as a chief, 
you would be as concerned about domestic-based terrorism, 
meaning a native-born American that might be in an extremist--
white extremist group--that would be as challenging as possibly 
another type of group; is that correct?
    Mr. Smith. That is correct, ma'am.
    Ms. Jackson Lee. The record should show that to my 
knowledge we have not had a hearing in this committee on those 
kinds of groups that I have evidenced that they are dangerous 
as any might be. The difficulty with these hearings is it may 
provide information, but it may provoke unnecessarily 
individual communities that are trying to do their best.
    The Chairman is my friend. I would also like to say this is 
such a poor time for this hearing. If you want to know about 
the devastation of a nation, these are the innocent Somalis who 
are fleeing a famine that is the worst famine in the history of 
Africa at this point. So I simply raise the question, if we are 
going to be constructive, let us be constructive by writing the 
right kind of legislation, getting Chief Smith more dollars, 
because you have proven effective and the young people of your 
communities, Somalians, have come to hear you talk about 
another way of life; is that correct?
    Mr. Smith. That is correct, ma'am, yes.
    Chairman King. The time of the gentlelady has expired.
    Ms. Jackson Lee. I would expect that would be the case of 
all Muslim Americans here who would be welcomed----
    Chairman King. Time of the gentlelady has expired.
    Ms. Jackson Lee. The other gentleman----
    Chairman King. Time of the gentlelady has expired.
    The gentleman from Michigan is recognized for 5 minutes.
    Ms. Jackson Lee. Thank you.
    Mr. Walberg. Thank you, Mr. Chairman, and I thank you for 
your opening comments, especially. The strength of that and the 
clarity of what we are working with.
    This is a very personal issue to me, and I appreciate the 
witnesses being here today and holding this hearing. I had 
mentioned earlier on in another hearing that had direct contact 
with two very, very close, very close family friends, who 
experienced the Ugandan-Kampala bombing. One who miraculously 
was spared by being in between the bomber and five other 
bodies, or five bodies in between him.
    My two close friends spent the remainder of the night and 
next day identifying bodies. Then, ultimately finding out 
several of my personal friends, some being Muslim in Kampala, 
Uganda, were victims there and are no longer on this earth 
because of al-Shabaab. Then hearing subsequent days al-Shabaab 
come out and apologize to Ugandans because they were killed, 
because their purpose was to kill whites and Americans.
    So, it is a personal issue to me. So I appreciate you being 
here and talking about how we deal with in a realistic way what 
is going on here in the United States and in Canada, our dear 
neighbor.
    Mr. Folk, I would ask you--and I thank you for your service 
as a Marine as well.
    How do you assess the effectiveness of the FBI and DOJ's 
efforts to thwart al-Shabaab's on-going recruitment of Muslim 
Americans around the United States?
    Mr. Folk. Thank you, Congressman. I think we can look at a 
couple of different factors to guide us in that. First, I 
believe that the FBI and DOJ recognize the threat and moved 
quickly to counter it. I believe that there is certainly an on-
going need to take care to focus on any groups that are 
recruiting people to fight on behalf of a foreign terrorist 
organization. I believe al-Shabaab currently represents an 
incredibly active group in that regard.
    So I think that the efforts need to be on-going and we are 
going to need to remain vigilant to ensure that they are not 
recruiting. I think that if you want to look at whether or not 
we have managed to stop this problem, we can look at the fact 
that as of February 2008 the State Department designated al-
Shabaab a foreign terrorist organization.
    Since that time, additional groups of men have left 
Minnesota to join al-Shabaab. So, clearly, I think while our 
law enforcement efforts have been effective and continue to be 
effective, and I have no doubt will be effective in the future, 
this problem isn't solved by any stretch of the imagination and 
we are going to need to continue to focus on al-Shabaab.
    Mr. Walberg. Then why in general, at least the perception 
is out there for me why U.S. intelligence in law enforcement 
communities--and there is some specifics that we have here--but 
in general, it consistently downplayed threats posed by other 
foreign terror groups that ended up striking our homeland, such 
as AQAP in Yemen and the Pakistani Taliban. What was your 
answer to that?
    Mr. Folk. Congressman, I think that is an excellent 
question, and I think that the reality is we don't know what 
terrorist organizations are able to do, looking forward. They 
are certainly in some regards more aspirational than 
operational. That is, the things that they say may not 
necessarily reflect what they are capable of. But the 
difficulty is we don't know when they are going to cross the 
line from aspiration to operation.
    The reality is, as was illustrated with what is being 
commonly termed as the underwear bomber, that cannot be 
predicted with any degree of certainty. As a result, we have to 
prepare as if groups that are potentially only aspirational 
today, could be operational tomorrow.
    Mr. Walberg. I guess that would--I appreciate the answer to 
that--adds to my concern about downplaying it, if we are taking 
it serious enough.
    Well, thank you.
    Mr. Hussen, thank you for being here. Thank you for working 
within your community. Giving voice to the overwhelming 
majority, I believe, of Muslims who don't want this violence, 
this terrorism to go on, and participate.
    According to a recent investigative report, some recruits 
to al-Shabaab admitted that trips to go and fight with terror 
groups in Somalia were funded by community elders, including a 
mosque in Ohio not far from me.
    How can the Government help community leaders such as 
yourself combat al-Shabaab recruiting, when respected elders 
are targeting and encouraging vulnerable and impressionable 
young men to join the designated terror group?
    Mr. Hussen. The problem is the--when people look at the 
Canadian Somali community or the American Somali community, 
they say where do we find the leaders and they zero in on the 
mosques. But the reality is that there is more to the American 
and Somali communities beyond the mosque.
    You need to target the young professional, people who are 
coming up, people who are dedicated to the values that have 
made this country great. That is where you target them. Those 
are the people who have the credibility to turn back against 
the messaging that leads to radicalization.
    I honestly believe with all my heart that we should stop 
assuming that just because Canadian and American Somalis live 
physically here, that somehow our values will percolate into 
their brains by osmosis. We have to counter the radicalization 
by emphasizing the importance and the connection between our 
Islamic values and Canadian and American values.
    The fact of the matter is you can be a fully morphed, 
better-functioning Muslim in the United States and Canada than 
any other place in the world, because of our freedom of 
worship. It is very difficult for a Sunni Muslim to be a fully 
practicing Sunni in Shiite Iran. And vice versa, it is 
extremely difficult for a fully practicing Shiite Muslim to 
live a full life in Sunni Saudi Arabia because of persecution.
    So this is a very special place, and it is one of the few 
countries, the United States and Canada, where Muslims can 
actually be Muslims whatever denomination they have. It is 
values like that and realities like that and facts like that 
that we need to re-emphasize to take away the strength of the 
radical message that says that Muslims are not----
    Chairman King. Time. Time of the gentleman has expired.
    Mr. Walberg. Thank you.
    Chairman King. The gentlelady from California, Ms. 
Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    I concur with the objective of the Homeland Security 
committee that we should discuss the potential threat to the 
homeland posed by the Somali terrorist organization al-Shabaad. 
I also concur that the alleged recruitment of American 
citizens, not limited by race or religion, by al-Shabaab, the 
organization's relationships with al-Qaeda and those associated 
with it in Somalia, vis-a-vis the potential plotting against 
the U.S. homeland should be addressed.
    However, I want to make sure on the record that according 
to the Ranking committee staff, to this date this committee has 
not secured a single Federal official or other objective 
recognized authority currently to legitimize the discussion on 
the alleged limited scope and insinuations that only the 
activity of Muslim Americans should be investigated or warrant 
a discussion.
    The threats and activity of al-Qaeda and al-Shabaab are 
real and should be investigated by this committee. Clearly, 
that is within our jurisdiction. However, the continued limited 
scope is insufficient and discriminatory.
    Mr. Folk, you said that you--first of all let me say thank 
you for your service to this country. You said that you worked 
on prosecuting those who did efforts on behalf of al-Qaeda and 
al-Shabaab and you are concerned with the effectiveness and the 
effect of the organization, which I agree with you.
    My question is: Today are you here under the direction of 
the FBI, the CIA, the Department of Justice, or the Department 
of Homeland Security?
    Mr. Folk. Thank you, Congresswoman. The answer is I am not. 
I am here as a----
    Ms. Richardson. Do you have the authority by any of those 
organizations to submit any of the comments or back-up anything 
of what you said from the FBI, the CIA, the Department of 
Justice, or the Department of Homeland Security?
    Mr. Folk. No, ma'am.
    Ms. Richardson. Okay. Thank you.
    Chief Smith, you talked about the recruiting of Somalia 
American youth immigrants. Are there other young people, youth, 
that have been recruited by al-Shabaab and al-Qaeda, to your 
knowledge?
    Mr. Smith. You know, that is probably a question better 
served for Federal authorities. I can tell you just from open 
source information, I know of just one individual who was not 
of Somali descent.
    Ms. Richardson. Okay, thank you. So there are others than 
Somalia descent that you are aware of that have been recruited?
    Mr. Smith. Yes.
    Ms. Richardson. To your knowledge?
    Okay. Mr. Joscelyn, you talked about in your--as was 
introduced for you--that you are a terrorist expert and that 
you have been following this since 2006. In your comments you 
said in the very beginning mostly Muslims. Would you also agree 
that are there any other individuals of any other groups that 
are also being recruited and radicalized by al-Shabaab?
    Mr. Joscelyn. Oh, certainly. Shabaab has an international--
--
    Ms. Richardson. Okay, thank you.
    I yield back the balance of my time.
    Chairman King. The gentleman from Texas, subcommittee 
chair, Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
for demonstrating the political courage to hold these hearings. 
I must say, I am mystified by the controversy that has followed 
from this. It was said by one of the Members that we are 
investigating Muslims. Nothing could be farther from the truth. 
We are investigating the radicalization of Muslim youth in the 
United States.
    Does anybody on this panel disagree with the notion that 
the radicalization of Muslim youth in the United States poses a 
threat to our homeland security?
    I take it by your silence that you agree with the idea that 
the radicalization of Muslim youth in the United States poses a 
direct threat to the security and safety of our homeland 
security. We know that three dozen Americans have left the 
United States, mostly from Minnesota, to join forces in 
Somalia, to receive training under al-Shabaab, to receive 
training by al-Qaeda. I guess the question is what kind of a 
threat does that pose to us here in the United States?
    I want to read to you what was just recently said by Mr. 
Olsen, who is the nominee to lead the National Counter 
Terrorism Center, in his confirmation hearing just on Tuesday. 
He said, ``Al-Shabaab's bombing last year targeting Westerners 
shows the group is willing and capable of striking outside 
Somalia, and therefore poses a significant threat.''
    So my question to I think to Mr. Folk and Mr. Joscelyn is: 
How big of a threat is this to the United States? I mean, there 
are those who will say that these individuals are leaving the 
United States to join these national forces in a civil war, and 
that that is their main focus. Their threat--or their focus is 
not posing a threat to the United States. How would you respond 
to that?
    Mr. Folk. Thank you, Congressman. As I set forth in my 
written remarks, the threat that we need to be aware of is the 
fact that the terrorist training camps run by al-Shabaab teach 
their participants show to kill people, how to utilize weapons, 
how to build bombs, and in addition to the military training, 
provide an ideological indoctrination that teaches that it is 
okay to do that. So, the ability of one of those individuals to 
return to the United States and to put into practice that 
training is a threat.
    Mr. McCaul. Mr. Joscelyn.
    Mr. Joscelyn. Well, you know, it is tough to say how big of 
a threat. But I certainly take it seriously. I think any al-
Qaeda affiliated party we shouldn't downplay the threat. But 
you know, earlier we were talking about the Uganda bombings, 
for example, okay, which were a very personal connection.
    The brigade that carried out the Uganda bombings was named 
the Saleh Ali Saleh Nabhan Brigade. Okay? Nabhan was a top al-
Qaeda operative and Shabaab member--Shabaab operative, as well. 
He was killed in a U.S. air strike in 2009. The brigade was 
named after him, because he is so legendary in Shabaab and al-
Qaeda circles. Well, the recruits from Minneapolis who went to 
Somalia, who are in the Department of Justice, were actually 
trained under Nabhan.
    In fact, the Department of Justice just on the 16th I 
believe, came out with its plea deal with the Minneapolis-based 
recruiter for Shabaab. In the materials it said that they named 
a senior member of al-Qaeda in East Africa who conducted the 
training. If you look at this.
    So when you are talking about the threat, you are talking 
about individuals recruited in Minneapolis, who go to Shabaab 
in Somalia, and receive training from one of the all-time sort-
of al-Qaeda in Somalia.
    Mr. McCaul. So that al-Qaeda/al-Shabaab connection I think 
in my judgment does pose a threat to our interests here in the 
United States. Obviously, AQAP has a direct interest in 
attacking the United States. So am I correct in saying that it 
is that connection that concerns you?
    Mr. Joscelyn. That is exactly right. I think my colleague 
here, Mr. Folk, very succinctly said you just don't know when 
they are going to cross the line from aspirational to actually 
trying to pull something off. Umar Farouk Abdelmutallab, you 
know, nobody in the U.S. intelligence community, according to 
the Senate intelligence report, thought that somebody like that 
was going to come along from AQAP and try and attack us. All of 
a sudden he is on board Flight 253 trying to blow it up.
    Mr. McCaul. Clearly, al-Awlaki is becoming the emerging 
threat, you know, on the scene, in my judgment. He is 
radicalizing Muslim youth over the internet here in the United 
States. What easier way to do it? If you can't get into the 
country with travel documents, why not radicalize people who 
are already here?
    Last question. How can we track these individuals that we 
know have left the United States and are in Somalia now to make 
sure they don't come back to the United States and commit acts 
of terrorism?
    Mr. Joscelyn. That is a difficult question. I think there 
is a lot of good work being done on that, and you can't say 
that all the individuals that go off to fight aren't being 
tracked. It is tough to say. It becomes very difficult. The 
problem is that once you leave the country and you go into 
these--you know, the Badlands of Africa, basically--where all 
this warfare. It is tough to say who could get a false passport 
or a false visa or something like that.
    I mean, there are just so many potential possibilities 
there. So, I wouldn't want to speculate on how best to track 
all of these guys. I think the FBI, the intelligence community, 
does a fairly good job of tracking it. But again, you just 
don't know when somebody like Umar Farouk Addulmutallab will 
come along.
    Mr. McCaul. Yes.
    Thanks, Mr. Chairman.
    Mr. Hussen. Just to, if I may, Mr. Chairman, just to add to 
that point. We should actually utilize the incredible sacrifice 
that is being made by Somali Americans on the other side of the 
equation fighting al-Shabaab. The current Somali prime minister 
is from Mr. Chairman's state of New York. The defense chief is 
from Ohio. There is a number of people from California and also 
Somali-Canadians. So we can utilize that intelligence to track 
some of the----
    Mr. McCaul. That is an excellent point. The most effective 
weapon is I think the moderate Muslim against the radical.
    Chairman King. The time of the gentleman has expired.
    I would ask the Ranking Member to indulge me for a moment, 
and ask Mr. Folk if you want the opportunity to respond. You 
were asked about your testimony. Did you consult with the 
Justice Department before your testimony? Did they put any 
restrictions on you?
    Mr. Folk. Thank you, Mr. Chairman.
    I have not had any restrictions put on me prior to coming 
in here today by anybody.
    Chairman King. Did you tell the Justice Department you were 
going to testify?
    Mr. Folk. I didn't.
    Chairman King. Okay, thank you.
    Mr. Thompson. Well, I guess the question is: Did you submit 
your testimony to them?
    Mr. Folk. Ranking Member, the only--or the only entity to 
which I have submitted my testimony is this committee.
    Mr. Thompson. Thank you.
    Chairman King. Could I just say to the Ranking Member, I 
wasn't trying to make a point. I just wanted to give him the 
opportunity for his professional life to make sure whether or 
not he spoke to the Justice Department before he came here. 
That is all.
    Mr. Thompson. Well, and I think you were good with it. But 
I think the point Ms. Richardson was making was in fact that 
Mr. Folk was representing himself and not any other Federal or 
investigative entity.
    Chairman King. I wasn't trying to counter Ms. Richardson's 
point. I was just trying to give Mr. Folk the opportunity, so 
it is on the record as to what he did and didn't do. That is 
all. I was just trying to protect Mr. Folk, not trying to 
counter Ms. Richardson.
    With that----
    Mr. Thompson. I am sure Ms. Richardson appreciates that.
    Chairman King. I am sure she loves me for that.
    Speaking of people who love me, the gentlelady from New 
York, Ms. Clarke, is recognized for 5 minutes. At least her 
mother loves me, I don't know about Yvette.
    Ms. Clarke of New York. I do love you, Mr. Chairman.
    But I would like to welcome our witnesses, and I do want to 
say for the record my disappointment in the denial of 
Congressman Ellison's request to address our committee at this 
hearing. As the Member of this body who has the largest 
concentration of Somali Americans in his district and who has 
worked very closely with that community, I think we should have 
afforded him that courtesy. I just want to put that on the 
record.
    Let me also say that I have also felt a bit troubled about 
our focus on Muslim Americans when it comes to radicalization. 
Certainly there is not a human being alive on the planet right 
now that does not recognize what is taking place in terms of 
the Islamic threat from specific groups.
    But when we get into this sort of generalization--and I 
can't say it better than Ms. Richardson did--about the fact 
that radicalization is cross-cultural, cross-religious, cross-
ethnic, for us to focus on very specific communities and not 
putting the full gamut in perspective, I think opens us up to 
the disdain of others. That then perpetuates the notions that 
we are trying to combat.
    So I really want to discourage us from stigmatizing and 
ostracizing communities. This is a nation of diversity and for 
generations Muslim Americans have been a part of the fabric of 
this Nation. For us to focus in and say Muslim Americans 
specifically are this threat, when I can also talk about gang 
radicalization, domestic terrorism, in my community. I don't 
see the same type of resources being put into communities that 
are poor, where young people are being jumped into gangs. I 
think that the lives that have been taken from that type of 
activity is just as valid.
    So we need to take a look at our motives here, and 
certainly want to educate the public is fine, but when we 
become fixated on a particular group of people, we take our 
eyes off the prize. Then we become even more vulnerable, 
because the unexpected happens. The unexpected, like in Norway, 
happens.
    So, I just wanted to, Mr. Chairman, say I love you, you 
know. However, my concern is for our civil society and how we 
treat each other, how we address the threats and the 
vulnerabilities, how we educate and inform one another, it 
would have been good to have some of our intelligence community 
on this panel giving us the most up-to-date information about 
the issue that you seek penetration on.
    I have felt that we are dealing with a number of opinions 
here, and opinions are not fact-based.
    Chairman King. If the gentlelady would just yield for 10 
seconds, I will keep this short.
    Ms. Clarke of New York. I certainly will, Mr. Chairman.
    Chairman King. As far as the intelligence community, we 
held a series of meetings and briefings available to both the 
Majority and the Minority staff in the lead-up to this, meeting 
with various intelligence and security officials throughout our 
Government. It was made available to both staffs.
    Also, as far as whether or not we are stigmatizing any 
element of the community, Mr. Hussen has said that our 
committee hearings have actually empowered the Muslims in his 
community----
    Ms. Clarke of New York. Mr. Hussen is entitled to his 
opinion. He is one man of a massive group of people, and he is 
entitled to his opinion. He is from Canada and I don't know 
what his relationship is to the Somali American community here 
in the United States.
    Chairman King. Well, he explained that in his opening 
statement, I thought.
    Ms. Clarke of New York. Really? Did he? I don't--I didn't 
get that from him.
    Chairman King. He works very closely with the Muslim 
American community, particularly the community in Minneapolis, 
because of the nexus between Toronto and Minneapolis.
    Ms. Clarke of New York. With all due respect, that is a 
relative perspective. Working closely?
    Chairman King. Well, unlike you or I, he is active in the 
Muslim community.
    Ms. Clarke of New York. Well, listen, so is Mr. Ellison, 
and he was denied the ability to come and to speak to us.
    Chairman King. I need to say that Mr. Ellison is a Member 
of another committee. We gave him the opportunity to testify at 
the first hearing, where one of the witnesses was from 
Minneapolis. He testified. We gave Mr. Ellison the opportunity 
to testify then. This is an expansion of that, and quite 
frankly, in view of the strictures of time, I thought it best 
to focus on this. Mr. Ellison, I consider him a good colleague, 
but again, he had his opportunity, and today we are listening 
to other witnesses.
    Ms. Clarke of New York. Mr. Chairman, that is all well and 
good, but my point remains the same. I am not here to rebuttal 
anyone. I am sharing my opinion as a member of this committee. 
My opinion is that we have focused almost as a fixation on this 
one community, when there are many threats to our civil society 
that have not been examined at all.
    I yield back, Mr. Chairman.
    Chairman King. Thank the gentlelady.
    Mr. Richmond, I just hope you aren't going to throw a 
fastball or a curveball or a screwball at us. The reason for 
that preamble is he was the star pitcher in last week's 
Congressional game. I hate to admit it, but he absolutely 
destroyed the Republicans.
    With that, I yield him 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    I just had a quick day that day. It is very unusual.
    Mr. Chairman, I want to thank you for the focus on 
radicalization in the first hearing and the things that we got 
out of the first hearing. Maybe this is, for me, since I am a 
new Member, that we are revisiting this issue over and over 
again. It reminds me of my first visit to the zoo when I saw a 
one-trick pony.
    But I would say that out of the testimony, and we have 
heard from the first hearing the extent of radicalization in 
the American Muslim community and the community response. We 
heard from Mr. Bledso, Mr. Baca--Sheriff Baca, Mr. Bihi, Dr. 
Jasser. The next hearing, the ``Threat of Muslim Radicalization 
in U.S. Prisons,'' we heard from Kevin Smith, Patrick Dunleavy, 
Professor Burt Hussein, and Michael Downey. Today we had 
another panel, four remarkable people with good insight.
    I just want to pull from what we learned in those hearings 
to see if I am missing something--and members that are 
testifying, you can jump in--that community and outreach and 
engagement is important, and breaking this cycle. We have to 
break some of the cultural norms. We need to partner in 
teaching American integration, and develop an attachment to the 
community. We need to make sure that we focus on the youth that 
are targeted for radicalization, that all youth are targeted 
for radicalization.
    In fact, I will go back to the testimony of Mr. Hussen, who 
was--who testified that our outreach efforts after a grueling 2 
years have won us the hearts and minds of the Somali American 
community to commit to the radicalization efforts of the few 
extremists and radicals in our community. The testimony of 
Sheriff Lee Baca, who said that all of these agencies recognize 
that you cannot arrest or enforce your way out of the 
radicalization issue. That outreach to community members and 
the building of relationships will lead to a trusted network 
for sharing of information and contacts.
    Does that summarize our efforts of what we should be doing 
to combat radicalization in all of our communities, no matter 
what religious faith, and no matter what part of the country or 
world or ethnicity you are. Does that sum it up?
    I will take the silence as a fact that we have had an 
exhaustive answers to all of these questions, and I think that 
there is a comprehensive answer to what we are doing. So in the 
hopes of moving on and working on this issue, I hope that 
answer suffices so that we don't have radicalization--hearings 
about radicalization in schools, radicalization in mosques, 
radicalization in churches, radicalization in grocery stores, 
radicalization at bingo.
    I would hope that we can focus on the commitment and the 
resources that we can give to our law enforcement officers, and 
to those who can truly work on community outreach and make sure 
that we are making sure that all U.S. citizens are being 
integrated into those principles that make America great. That 
there is also the responsibility they have to make sure that 
their children are safe, and that we create the environment we 
want.
    So Mr. Chairman, I thank you for the hearings. I get it, I 
get it, I get it, and I hope that everyone else gets it also.
    Chairman King. Could the gentleman just yield to me at the 
end so we can have a----
    Mr. Richmond. I will yield.
    Chairman King. I understand where you are coming from, and 
I understand your contribution to this committee. The reason I 
have gone forward with these hearings is there are many 
different dimensions to this radicalization issue. For 
instance, we started off--people--many people in Government, 
many people on this committee, many people in the media, 
denying there was a threat within the Muslim American 
community, denying the fact that there were any mosques or 
Imams or leaders who were not cooperating, who were not coming 
forward.
    The testimony of Mr. Hussen that as a result of these 
hearings more people are coming forward and its helping to 
change the narrative in Canada. We have seen by the 
intelligence officials in recent months the concern they are 
showing between al-Shabaab and AQAP linking up. So there is a 
change in the dimension of the issue. You know, you are talking 
about bingo games and grocery stores. The fact is people in 
bingo games and grocery stores have not killed 3,000 Americans. 
That is the difference.
    I would hope that there is no equivalency right now between 
the various organizations that your side has been talking 
about, which never investigated for 4 years, by the way, and an 
enemy which has an international component which is attempting 
to destroy us. What is for political correctness reasons, 
people in the media and Government are afraid to directly 
confront in many ways.
    As far as Chief Smith, he is doing a phenomenal job, and 
that is an important part of it. But also an important part is 
what Mr. Hussen is talking about, and that is to have people in 
the community step forward and speak out and change the 
narrative.
    That is what I hope these hearings are doing. If not, I 
will be judged on that, but as Chairman I believe I have an 
obligation to pursue it.
    I know your time has expired, but if you wish to answer 
that you certainly may.
    Mr. Richmond. Mr. Chairman, I just think that it is 
abundantly clear now that radicalization is a problem, that all 
of our youth are targeted, whether they are Muslim, whether 
they are African American, whether they are white. I mean, 
there is someone targeting all of our kids. All of our children 
are prey.
    I think that all of the answers are consistent, which is 
community outreach, engagement, and all of those things which 
all require funding and making sure that our law enforcement 
officers and our community leaders have the ability to do that, 
which takes funds. So at some point we know what the problem 
is, we know all of our youth are at risk, and we know that 
community engagement and all of those things are a very viable 
answer.
    So I would like to get to the point where we start talking 
about the funding of those answers, and how effective they are. 
Weeding them out and figuring out the funding of those answers, 
those answers. How effective they are in weeding them out and 
figuring out the best way to make sure that we protect our 
kids, protect our seniors, so that we don't have those 
terrorist attacks.
    So I was just saying, and the purpose of my comment was to 
say point made. This is the third hearing on it, let us move 
on. I am not the Chairman, and I respect that. But in my sense 
it would make sense to start focusing on the answer.
    Thank you, Mr. Chairman.
    Chairman King. Okay. I understand. I would just say there 
is only one group that has killed 3,000 Americans, and that is 
why al-Qaeda--the group that al-Qaeda is targeting, if they 
start targeting other groups tomorrow we will look at that.
    That is all I am saying. But I understand your point. The 
funding is a very legitimate issue, by the way. That is what 
Mr. Hussen was talking about, too. If we do have the funding, 
what kind of narrative do we use?
    With that, I yield to the gentleman from Tennessee, Mr. 
Duncan, who has waited patiently listening to me and to Mr. 
Richmond.
    Mr. Duncan. South Carolina. Thank you, Mr. Chairman.
    These committee hearings allow for a great exchange of 
ideas, and I appreciate the gentleman from Louisiana's 
comments. But you know, I was sitting here thinking that on 
July 4 in my church, and I am Baptist, we sang patriotic hymns 
about America and we talked about American greatness that he 
referenced. We talked about the freedom of religion and the 
separation of that and Government and our founding fathers, the 
creation of this land.
    That is what I would hope, Mr. Richmond, that the Imams in 
the mosques would begin talking about is the freedom of 
religion that they have got to worship in America in a mosque, 
where you know, the country was founded on Christian 
principles, but an Islamic religion can practice in this 
country freely.
    So, I want to encourage the mosques and then the 
communities to talk about American greatness and talk about the 
religious freedom that we have got and first amendment and the 
Constitution and supporting law enforcement that is out there 
supporting our liberties, supporting the military that is 
fighting for the liberties even in that part of the world where 
there is a dominant Islam religion.
    But as I sit through these hearings, you know, you have a 
lot of questions you want to ask the panelists. But then you 
hear a lot of the questions and comments by the other committee 
members. So, let me just reference an article that I read from 
Al Jazeera, July 22, ``2 weeks after al-Shabaab said a ban on 
certain aid groups working in Somalia would be lifted, the 
Islamist group has announced that a ban remains in place.'' 
This was a quote from al-Shabaab, which controls part of the 
affected region affected by the drought and the famine.
    ``Those earlier banned groups are not welcome to serve our 
area of control,'' Shabaab spokesman Sheikh Ali Mahmoud Raj 
said in a broadcast on Islamist al-Furqaan Radio on Friday. 
``There is drought in Somalia, but not famine. What is declared 
by the U.N. is 100 percent false.''
    This is al-Shabaab. This is the group that we are talking 
about today refuting the claims by Members of this committee 
that the aid is not getting there. They are saying that there 
is no famine. There is a drought, but there is no famine. So I 
just wanted to bring that point out that they are denying some 
of the claims that are even being made here today.
    I am concerned about al-Shabaab's connection with al-Qaeda. 
There is numerous articles since September 2008 al-Shabaab 
pledged allegiance to Osama bin Laden. February 2010 al-Shabaab 
officially announced its alliance with al-Qaeda. Its intention 
was to connect the Horn of Africa Jihad to the one led by al-
Qaeda and its leader Osama bin Laden. Today we have strong 
evidence of a longstanding collaboration between al-Qaeda and 
the Iranian regime using the Quds force. With these recent 
events, and with al-Shabaab's November 2009 announcement of the 
establishment of an all-Quds brigade, a military unit 
specifically tasked with attacking Israel and freeing Islamic 
holy places.
    Have you--and I will ask Mr. Folk there--have you seen any 
evidence of Iran supporting al-Shabaab?
    Mr. Folk. No, I have not, Congressman.
    Mr. Duncan. Is it possible that al-Shabaab receives 
financing through the Iranian donations or training from the 
Iranian Quds force that the Iranian regime supports al-Qaeda?
    Mr. Folk. Congressman, if you are directing that at me, I 
apologize, I can't answer that. I don't know one way or the 
other.
    Mr. Hussen. If I may, Chairman, I can answer that question. 
The Iranians have in recent years been arming al-Shabaab, not 
because they like al-Shabaab specifically, but because they 
want to harm the U.S. ally and the transitional federal 
government of Somalia. So their weapons go through Eritrea, and 
there is a whole connection between Eritrea and al-Shabaab and 
piracy and all that stuff.
    Mr. Duncan. All right. We are seeing the al-Shabaab extend 
their reach beyond their home country. I apologize, I wasn't in 
for the whole meeting. How much strength do they have for going 
beyond Africa, do you believe, Mr. Hussen, in terrorist acts?
    Mr. Hussen. Well, first of all it is very inaccurate to 
keep talking about the connection between al-Shabaab and al-
Qaeda. They are integrated. The top leadership, the decision 
makers and the top military commanders of al-Shabaab are also 
people who have been trained in al-Qaeda camps.
    Second, there is no shortage of foot soldiers and young men 
that al-Shabaab can recruit in Somalia. So why would they spend 
all this money, effort, and great risk to recruit Westerners? 
People who hold Canadian, U.S., and British passports. It is 
because we think they have aspirations beyond East Africa. They 
have proven that by attacking Uganda.
    They have also made an attempt at attacking the World Cup 
in South Africa, but they were unsuccessful. So they have 
global ambitions, they have connections with al-Qaeda and also 
AQAP. With the recruiting of Westerners they have the means to 
get recruits who can evade border controls.
    Chairman King. The time of the gentleman has expired.
    The Ranking Member have----
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Hussen, you answered the gentleman from South 
Carolina's question about Iran's involvement. You are not 
speaking on behalf of the Canadian government?
    Mr. Hussen. No, I am not.
    Mr. Thompson. You are not speaking on behalf of any 
intelligence agency?
    Mr. Hussen. No, I am not.
    Mr. Thompson. Thank you.
    Chairman King. The gentleman from Illinois, Mr. Davis, is 
recognized for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    You know, as I listened to the exchange I was just thinking 
of my experience with people that I know from Somalia. As a 
matter of fact, I have a group of friends that we have 
interacted with now for about 15, 20 years. I note that they 
have got pretty strong feelings about politics, about 
government, about the history, about their existence, about 
their country, how they were raised, issues of poverty, issues 
of instability, issues of not having certain kinds of resources 
available to them.
    But I don't know that I have detected any particular 
feelings of animosity towards say this country or other 
countries. But they have all expressed and do express on a 
rather consistent basis serious intensity about the shape of 
the world and government. I mean, you can get a great 
discussion going at any time.
    I grew up with the idea that an ounce of prevention is 
worth much more and is far more effective than a pound of cure. 
I guess my--I was struck by our religious differences. I just 
happened to be reading the Bible the other day, and I read the 
comment that said if you would put an end to oppression, to 
every gesture of contempt, that you would be known as the 
people who rebuilt the walls, building on the old foundations.
    I guess my one question would be--and if each one of you 
could just give a brief response--how do we incorporate into 
the thinking of individuals enough confidence so that, you 
know, if somebody is selling something that I am not buying, 
they can sell it, but I am not buying. I mean, you can set on 
the corner and holler crack and blow, pills and thrills, but if 
I don't have the need for it, you will just be broke at the end 
of the day.
    How do we overcome some of the feelings, I guess, that may 
have been developed down through the years and really are not 
necessarily new, but historically have existed? With 
individuals who may have come from or whose parents may have 
lived in Somalia? They are individuals with that heritage?
    Mr. Hussen. I think the biggest value in our religion is 
justice and to emphasize to these young people that the biggest 
attempt at justice can only come from a society that guarantees 
religious freedom and human rights and the rule of law to the 
best of its ability.
    If you do that you undercut the messaging of victimology 
that says to a young person in Canada or the United States that 
these societies will never accept you. But you have to come at 
it from an Islamic perspective that says in this form justice 
is very important and in these countries there is an attempt to 
live by the rule of law and freedom of worship.
    Mr. Joscelyn. Thank you, Congressman, that is an excellent 
question. I would point you to two specific examples that I 
think answer your question, and then to a more general theme. 
Specifically, the FBI and the U.S. Attorney's Office in 
Minneapolis, since the criminal investigation started, have 
made a concerted push to reach out to the Somali community and 
to really find out at a street level what is going on. That is 
an absolutely essential component of any prosecution strategy, 
because you cannot prosecute your way out of a problem.
    I think that the Minneapolis U.S. Attorney's Office and the 
FBI have realized that and are complementing the hard edge of 
criminal justice with the softer side of outreach. If we have 
ever sent a message by our prosecutions or by our 
investigations that people are being prosecuted because of the 
god they worship, the country they call home, or the language 
they speak, we would fail. I think outreach has to temper our 
prosecution to make sure we don't send that message.
    Mr. Davis. Thank you.
    Mr. Folk. Congressman, just to add one thing real quick. I 
actually had a question very similar in mind to what you just 
asked when I wrote the second point in my testimony. Because 
the second point in my testimony is that Somali Americans and 
Somalis in Somalia, Muslims in Somalia, are the biggest victims 
of Shabaab. More Muslims are killed by Shabaab than anybody. 
That is who they target. That is who they kill.
    In other words, the enemies of the Somali American 
community overall, the enemies of Somalis in Somalia are our 
enemies. We share a common enemy. Shabaab does not represent 
all of them by a long shot. Okay? You know, and that is--and 
when you look for that common bond that is where, to my mind, 
when you talk about threats or security, that where it starts, 
is that your enemies are our enemies.
    Chairman King. Time--I am sorry.
    Chief Smith.
    Mr. Smith. Just real briefly, I was going to say, 
Congressman, the answer is dialogue. Continued dialogue. 
Whether it is within our community, our Saint Paul Somali elder 
council, working with our youth, and listening. I think that 
that is a key, because that is where we hear. You don't have to 
sell, or you don't want to buy something. You need to listen 
first.
    One quick example, our United States attorney that Mr. Folk 
used to work with, B. Todd Jones, under his own volition--and 
he is part of our program as well. But B. Todd Jones every 
weekend has a Somali youth group come and he teaches them about 
civil rights, about the United States. They have the 
opportunity to come. They volunteer to come, and it is very 
powerful. I think that it is efforts such as listening and 
education that paved the way to our success.
    Thank you.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Chairman King. I thank the gentleman.
    Now the moment that we are all waiting for.
    Mr. Green is recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I would like to join the chorus of persons who have 
indicated a deep abiding affection for you. I love you, too, 
Mr. Chairman.
    If I may, I think this is a preeminent opportunity to make 
it abundantly clear that this hearing is not to condemn all 
Muslims. Is that a fair statement, Chief?
    Mr. Smith. Yes, that is a fair statement.
    Mr. Green. We would not want persons who are hearing what 
we are saying and witnessing what we are doing to conclude that 
we think all persons who are Somali are radicals and people to 
be watched and people who are to be monitored. Is that a fair 
statement, Mr. Joscelyn?
    Mr. Joscelyn. I think it is a very fair statement. 
Absolutely true.
    Mr. Green. You really didn't come here today to demean 
Muslims, did you? Anybody come to demean Muslims?
    Mr. Smith. No.
    Mr. Green. Okay. The truth be told, radicals and people who 
want to hurt us come in all forms and shapes and ethnicities. 
Is that a fair statement, Mr. Folk?
    Mr. Folk. Absolutely, Congressman.
    Mr. Green. Mr. Folk, you ever heard of a person called 
Jihad Jane?
    Mr. Folk. I haven't.
    Mr. Green. How tall was she?
    Mr. Folk. I couldn't tell you.
    Mr. Green. Was she under 7 feet? Of course she was. What 
color was her hair?
    Mr. Folk. I don't----
    Mr. Green. You don't know? Somebody knows?
    Mr. Joscelyn, what color was her hair?
    Mr. Joscelyn. It was either light brown or blond.
    Mr. Green. Light brown or blond.
    Mr. Joscelyn. From my memory, yes.
    Mr. Green. Yes, these are the kind of things you might want 
to take note of. What color--she did have eyes, we all agree. 
What color were they? What color were her eyes?
    Don't remember? Okay. Well, maybe you remember this. What 
was her complexion? Not everybody at once, please.
    Mr. Smith. She was a Caucasian, right?
    Mr. Green. Yes, of European ancestry, is that a fair 
statement?
    Mr. Smith. Sure.
    Mr. Green. Is there some consternation with saying this? Or 
does this create you--does it take you out of your comfort zone 
to say that Jihad Jane was--not at all? Okay. Does that 
everybody agree that Jihad Jane was what we call in this 
country a white person?
    Mr. Smith. Sure.
    Mr. Green. Would you kindly raise your hands?
    Chairman King. If the gentleman would yield for a second?
    Mr. Green. Okay, yes of course, I will yield, but Mr. 
Chairman, if you would, would you extend my time since I am----
    Chairman King. Well, as a guest of the committee I will 
take it into consideration. Certainly I will.
    Mr. Green. Okay.
    Chairman King. The point I am trying to make is you are 
laying a whole series of questions here which have no basis at 
all. I don't think anyone who has ever sat on this committee, 
no one has ever said anything about a person's ancestry. No one 
has ever said anything about their race. What we are saying is 
al-Qaeda by its own statements is attempting to radicalize 
people of the Muslim faith, whether they are black, white, 
brown, tan, yellow, no matter what they might be, whether they 
are male or female, whether they are 7-foot tall, have blue 
eyes, whatever complexion they have, means absolutely nothing.
    So I mean, it is an interesting line of questioning, but it 
makes absolutely no sense and is not based on anything that has 
been said by any Member of this committee on either side.
    Mr. Green. Mr. Chairman, if I may reclaim my time.
    Chairman King. Absolutely.
    Mr. Green. Mr. Chairman, to be quite candid with you, I 
didn't expect it to make sense to you. I did not.
    Chairman King. Okay, you just said----
    Mr. Green. Now, Mr. Chairman, if I may continue, it is my 
time, Mr. Chairman.
    Chairman King. Okay, and you are a guest of the committee. 
I will respond to you at the end, just so you know.
    Mr. Green. I understand. Do the rules that apply to 
everyone else apply to guests, Mr. Chairman?
    Chairman King. At this time.
    Mr. Green. Okay, well listen, I am being candid with you 
because you decided to bring this to my attention. I am going 
along with my line of questioning, and I have a reason for 
doing this, and it is because I agree with you, believe it or 
not. I have said I don't think that we want all Muslims to be 
painted with the same brush.
    I have said, and the line of questioning connotes that I 
believe we should also let the world know that we believe that 
Muslims are law-abiding people, that they should not be 
monitored. There is nothing wrong with this, Mr. Chairman. It 
is not an unreasonable line of questioning.
    Now, if it causes you some degree of discomfort for me to 
make it transpicuously clear that there are some people who are 
intent on harming us, who are persons that don't look like what 
we typically call terrorists, then I have to respectfully ask 
that you allow me to continue my questioning.
    Chairman King. You have 20 seconds. The gentleman has 20 
seconds.
    Mr. Green. All right. Thank you.
    So you all agree that there are people who, of European 
ancestry, who want to harm us. The purpose of this--you are 
being here today--is not to condemn all Muslims? Is that a fair 
statement?
    If you agree would you just raise your hands? I want to 
thank all of you for coming. I think you have been here and you 
have done a noble service, but it is also just important for us 
to let the world know that we are not here condemning all 
Muslims.
    Chairman King. Time of the gentleman has expired.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman King. Let me just make several remarks as the 
Chairman of the committee. The Ranking Member can certainly 
respond.
    The reason I interrupted your line of questioning is we 
have heard from so many people about what message are we 
sending to the world. If we have a Member of the committee or a 
guest of the committee come in and somehow imply that this 
committee or anyone on this committee has ever suggested that a 
person's color, a person's origin, has anything to do with 
terrorism, that is the wrong message to send.
    I mean, it is not a profound finding to say that a person 
can be an al-Qaeda terrorist with blue eyes.
    Mr. Green. Will the Chairman extend to me the same courtesy 
I extended to the Chairman?
    Chairman King. Well, since we extended the courtesy to you 
of being a guest, let me finish. Your time has expired.
    Let me just say that----
    Mr. Green. The Chair will not extend the courtesy that----
    Chairman King. No, I will not. I have extended enough 
courtesy today.
    Mr. Green. All right.
    Thank you, Mr. Chairman.
    Chairman King. Now, the point I was going to make is that 
if we want the world to realize what we are trying to do on 
this committee, and what I believe on both sides of the aisle, 
certainly on our side, we are trying to conduct intelligent 
hearings. We are trying to see the extent of radicalization in 
the American Muslim community, the same as the White House.
    The deputy national security advisor in the White House 
went to a mosque in March of this year and said one of the 
severe threats facing the country is al-Qaeda's attempt to 
radicalize the Muslim American community. He didn't talk about 
males, females, blond hair, blue eyes, white skin, black skin, 
brown skin. That is not the issue.
    But anyone listening to your questioning overseas, whether 
they are watching al-Jazeera or BBC or whatever they are 
watching, they would somehow think there were in this 
committee, in this Congress, on this side of the aisle who 
somehow suggest that terrorism is linked to a person's race, or 
gender, or height, is just wrong.
    And that is why I wanted the record clear, so those of you 
who are listening from overseas will realize that the 
gentleman's line of questioning had no basis and no foundation 
at all to anything that has ever been testified to by any 
witness before this committee, or any Member of the committee, 
certainly on this side of the aisle.
    And if the Ranking Member wishes to comment?
    Mr. Thompson. Yes.
    Thank you, Mr. Green, for your participation in the 
hearing. We have testimony in the record that radicalization 
has occurred in prisons, that skinheads are the most dangerous 
group of people in prison. They are domestic terrorists, they 
are gang members; have offered severe threats to this country.
    I think the point that a lot of Members on this side made 
is that there are a lot of bad people in this country. Some are 
Baptists, some are atheists. I think the effort was to broaden 
and look at a lot of bad people.
    But I would like to close by saying to all our witnesses, 
thank you for your testimony. Chief Smith, you gave up a 
vacation to come and hear this. I want to personally thank you. 
Your law enforcement experience added significant credibility 
to this hearing. I think it is what we need as a committee to 
move forward. Coming up with good public policy.
    The other witnesses, your testimony was equally good. 
Collectively what we will fashion as a committee is legislation 
addressing many of those things. Unfortunately, a lot of the 
resources that will be necessary to address the issues outlined 
are being cut. So, I think the State and local entities are 
going to be hard-pressed, given this situation, to continue at 
the same level.
    However, I am confident that even with the cuts, those of 
you who do it every day will do a good job. For that I thank 
you.
    Chairman King. I thank the Chairman--the Ranking Member, 
the former Chairman, and hopefully it stays former. I want to 
thank the Ranking Member for his statements, for his 
contributions.
    If I could end on a bipartisan note. As we go through the 
authorization process, you may find more in common than you 
might expect as far as funding and the requests we are going to 
make. So I look forward to working with you on that.
    As far as the other issue, I would just go back to the fact 
that with all of the various threats we may have in this 
country, there is only one threat that has killed 3,000 
Americans, and that is why I am focusing on that.
    I also want to thank all the witnesses. They did a great 
job. Chief Smith, you took a day off from your vacation. I am 
really indebted to you. Thank you. My father was in law 
enforcement for many years, and I have some idea of the work 
that you people try to do, and do, and do achieve under a very 
stressful circumstance. So thank you for your service.
    Thank all the witnesses.
    Let me also say the Members of the committee may have 
additional questions, and we will ask you to respond to those 
in writing in 10 days. We will send them on to you if we get 
any additional questions. The hearing record will be kept open 
for 10 days.
    Without objection, the committee stands adjourned
    [Whereupon, at 12:21 p.m., the committee was adjourned.]


                           A P P E N D I X  I

                              ----------                              

       Question From Honorable Laura Richardson for Ahmed Hussen
    Question. Immigrants from around the world have migrated into the 
United States and experienced isolation and struggles and have not 
become ``terrorists''. Why do you believe that Somalians, which you 
mentioned come here and receive an education and believe that working 
hard will improve their status, will turn anti-American and bring 
terror here?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Laura Richardson for W. Anders Folk
    Question 1. Mr. Folk, in your experience, what role did the Somali 
community play in the prosecution of these recruits?
    Answer. Congresswoman Richardson, thank you for your important 
question. Based on the size and diversity of the Somali community, it 
is difficult to specify a role in the prosecutions that the 
``community'' played. Individuals within the community, however, played 
a variety of roles in the prosecution of the recruits. (1) Some 
individuals were witnesses to the recruitment or were in contact with 
recruited individuals upon their arrival in Somalia. I would qualify 
individuals who fell into this category as witnesses in the prosecution 
of those who were recruited to fight in Somalia. (2) Some individuals 
in the Somali community were suspected of criminal activity. They 
played a role as subjects or targets of the law enforcement 
investigation and prosecutions. (3) Some individuals were family 
members of those who were recruited. Individuals in this category often 
played dual roles as witnesses to and victims of the criminal activity 
that formed the basis for the prosecution of recruits.
    Question 2. Was the community helpful in passing on information and 
tips?
    Answer. Thank you for the question, Congresswoman Richardson. It is 
difficult to label the entire community as helpful or unhelpful. Some 
members of the Somali community appeared to be concerned about the 
recruitment of its members to fight on behalf of a terrorist 
organization. The concerned individuals took actions to include passing 
information and tips they deemed relevant to the investigation to other 
members of the community and in some cases, to law enforcement. On the 
other hand, some members of the community, as illustrated in the 
prosecution and conviction of Abdow Munye Abdow, were concerned with 
protecting the individuals who were the focus of law enforcement 
investigation. These individuals took active steps to obstruct the law 
enforcement investigation.
     Questions From Honorable Laura Richardson for Thomas Joscelyn
    Question 1. For a short period of time, groups such as UNICEF were 
sending aid into south Somalia, before al-Shabaab banned the groups. 
Now the group is only allowing aid from certain groups and it is 
uncertain what they will allow in the future, but the situation is 
growing worse by the day.
    Is there any way that we can leverage future aid to gain 
concessions from the group?
    Answer. Response was not received at the time of publication.
    Question 2. Are there other options the international community 
should be considering to provide food aid?
    Answer. Response was not received at the time of publication.
     Questions From Honorable Laura Richardson for Thomas E. Smith
    Question 1. Mr. Smith, the Justice Department has specifically 
cited the relationships between the FBI and Justice department 
officials with the Somali American communities in your area as a model 
for community relations. Of particular note is the two-way cultural 
exchange that was developed. Two-way exchanges such as this one can 
develop a conversation based on trust and communication, which is why 
the Justice Department is now trying to replicate these efforts Nation-
wide. Has this been your experience at the local level as well?
    Answer. The Saint Paul Police Department successes noted in my 
testimony was specifically derived by an open dialog where genuine 
trust was earned. As one would suspect, there was a significant amount 
of confusion which existed in the local East African Communities 
related to the role of local government and law enforcement 
specifically. There was an authentic reluctance to interact with law 
enforcement due to the immediate fear of deportation.
    The Saint Paul Police Department has spent a considerable amount of 
time discussing the various and differing roles of law enforcement with 
the local East African communities. We have earned acceptance by 
demonstrating through practice and a robust dialog the idea that local 
law enforcement exist to assist families in crisis or having minor 
needs. Members of the Saint Paul Police Department have heard from the 
local East African community a message indicating uneasiness with 
Federal law enforcement in the Twin Cities area. This exists in spite 
of the outreach occurring by members of various Homeland Security 
agencies or the local FBI. An assumption can be made that the community 
has not fully embraced Federal law enforcement entities because of the 
same confusion that once existed between them and the Saint Paul Police 
Department.
    Question 2. Mr. Smith, counterterrorism and policing experts say 
that effective policing is based on trust and that isolation and 
alienation of communities is counterproductive in intelligence 
gathering and law enforcement. Can you please explain for the committee 
what does not work and what we know is counterproductive?
    Answer. Earning trust must be a genuine endeavor and I would cite 
this as the most important consideration. The Saint Paul Police 
Department has learned from other law enforcement agencies that 
intelligence gathering missions under the guise of relationship-
building activities will always become exposed and undoubtedly 
undermine the communities' trust. Therefore, law enforcement entities 
must not comingle outreach and more traditional investigative tactics. 
The Saint Paul Police Department invests in outreach activities and 
also traditional intelligence-gathering techniques but takes great 
steps to maintain separation between them. In theory, I will not ask a 
police officer who is working with children in an after-school program 
to use his/her position of trust to directly investigate terrorism 
leads. The SPPD has been as successful in obtaining information about 
concerning conditions/actions while engaged in outreach activities as 
it has via traditional counter-terrorism methodologies.
    A second point to consider as counterproductive is the dangers of 
creating an imbalance of empowerment among community groups. The 
primary thought here is the ability for Government entities to provide 
unintentional authority to specific groups via relationships. The Saint 
Paul Police Department has found competing community groups having 
specific agendas will place themselves between our agency and the 
community. Interpreters with bias have changed the message delivered by 
Saint Paul Police Department employees leading the community to believe 
they had to work through the community group to access the police 
department. This has occurred on more than one occasion.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
